<html>
<title> - HOMELAND SECURITY AND THE FISCAL YEAR 2002 SUPPLEMENTAL APPROPRIATIONS BILL</title>
<body><pre>[Senate Hearing 107-502]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-502
 
HOMELAND SECURITY AND THE FISCAL YEAR 2002 SUPPLEMENTAL APPROPRIATIONS 
                                  BILL
=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARINGS

                     APRIL 30, 2002--WASHINGTON, DC
                      MAY 2, 2002--WASHINGTON, DC
                      MAY 7, 2002--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations










 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                                 ______


                           U.S. GOVERNMENT PRINTING OFFICE
80-303                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001















                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director













                            C O N T E N T S

                              ----------                              

                        Tuesday, April 30, 2002

                                                                   Page

Statement of Paul H. O'Neill, Secretary of the Treasury, 
  Department of the Treasury.....................................     1
Opening statement of Chairman Robert C. Byrd.....................     1
Prepared statement of Chairman Robert C. Byrd....................     3
Prepared statement of Senator Tim Johnson........................     4
Prepared statement of Paul H. O'Neill............................     7
Questions submitted by Senator Ben Nighthorse Campbell...........    27
Questions submitted by Senator Pete V. Domenici..................    28
Border technology and commercial concerns........................    28
Border infrastructure............................................    30
Federal Law Enforcement Training Center (FLETC)..................    31
Prepared statement of Senator Patrick J. Leahy...................    33
Statement of Colin Powell, Secretary of State, Department of 
  State..........................................................    34
Prepared statement of Colin L. Powell............................    37
West Bank and Gaza...............................................    39
Antiterrorism programs...........................................    39
U.S. assistance to Turkey........................................    40
Africa Growth and Opportunities Act..............................    41
Colombia.........................................................    42
Afghanistan......................................................    42
Cuban visa denial................................................    43
Food sales to Cuba...............................................    44
Embassy security.................................................    46
Border security initiative.......................................    47
Biometric visas..................................................    48
Al Qaeda/FARC/IRA................................................    49
Support for the war on terrorism.................................    49
Embassy Kabul....................................................    50
Border security with Mexico and Canada...........................    51
Money laundering.................................................    52
Disruption of terrorist financing................................    53
U.S. dependence on foreign oil...................................    54
U.S. interest in Saudi Arabia....................................    55
Refugees from Afghanistan........................................    56
Questions for Secretary O'Neill..................................    57
Middle East economic initiative..................................    57
Colombia.........................................................    58
Colombian investment in their situation..........................    59
Egypt............................................................    60
Other Arab nation support........................................    60
Compliments to the Secretary.....................................    62
Drug interdiction flights to Peru and Colombia...................    63
Expanded authority for Colombia..................................    64
Iraq.............................................................    64
Palestinians in refugee camps....................................    64
U.S. role in Colombia............................................    65
Timing of expanded authority for Colombia........................    65
U.S. aid to Egypt and Israel.....................................    66
Questions submitted by Senator Pete V. Domenici..................    67
Embassy in Afghanistan...........................................    67
Embassies in Afghanistan and Tajikistan background...............    68
Aid to the Central Asian republics...............................    68
HIV/AIDS global fund.............................................    69
HIV/AIDS global fund background..................................    69
HIV/AIDS global fund.............................................    70
New Embassy construction background..............................    70
New Embassy construction.........................................    70
Aid to Pakistan..................................................    71
Effective use of public diplomacy funding........................    72
Russia and non-proliferation.....................................    72
Middle East economic initiative..................................    73
Afghanistan......................................................    73
Statement of Hon. Ann Veneman, Secretary of Agriculture, 
  Department of Agriculture......................................    75
Prepared statement of Ann M. Veneman.............................    78
Biographical sketch of Ann M. Veneman............................    81
Statement of Senator Kohl........................................    82
USDA inspection personnel........................................    83
Chronic wasting disease..........................................    84
Biosecurity......................................................    85
Fiscal year 2002 supplemental funding............................    86
Homeland security supplemental...................................    86
Laboratory security..............................................    87
Office of Homeland Security......................................    88
Laboratory security..............................................    88
Rural water supplies.............................................    90
Homeland security supplemental...................................    90
Office of Homeland Security......................................    91
Homeland security supplemental obligations.......................    92
Questions submitted by Senator Patty Murray......................    94
Questions submitted by Senator Mary L. Landrieu..................    95
Questions submitted by Senator Jack Reed.........................    98
Food safety......................................................    98
Questions submitted by Senator Ben Nighthorse Campbell...........   101

                         Thursday, May 2, 2002

Opening statement of Chairman Robert C. Byrd.....................   103
Prepared statement of Chairman Robert C. Byrd....................   105
Prepared statement of Senator Tim Johnson........................   106
Statement of Senator Ted Stevens.................................   107
Statement of Hon. Norman Y. Mineta, Secretary of Transportation, 
  Department of Transportation...................................   108
Department of Transportation accomplishments.....................   109
Request for continued congressional support......................   110
Prepared statement of Norman Y. Mineta...........................   111
Screening checked baggage........................................   115
Airline passenger privacy........................................   116
Privacy areas for screening baggage..............................   117
Explosive detection systems versus explosive trace detectors.....   118
Impact of screening procedures on rural communities..............   118
Baggage screening deadlines......................................   119
Critical issues facing the Department of Transportation..........   120
EDS procurement contract.........................................   121
Airport employee background checks...............................   122
Port security grants.............................................   122
Funding priorities...............................................   123
Port vulnerability assessments...................................   124
U.S. remains ill-prepared for another attack.....................   125
Interim report from the container working group..................   126
Transportation Security Administration funding...................   127
Coast Guard funding..............................................   128
Communications interoperability..................................   128
Reimbursing airports for security expenditures...................   130
Reimbursing Jackson Municipal Airport for security related costs.   131
Screener qualification...........................................   132
Reimbursing rural airports for security related expenses.........   132
Hiring of TSA employees..........................................   134
TSA screener pay.................................................   135
Using AIP funds to pay for security improvements.................   135
Security priorities..............................................   136
Coast Guard funding..............................................   137
Coast Guard detection and interdiction of high interest vessels..   138
Security of chartered aircraft...................................   139
Questions submitted by Senator Patrick J. Leahy..................   140
Questions submitted by Senator Patty Murray......................   141
Questions submitted by Senator Jack Reed.........................   143
Transit security.................................................   143
Airline security.................................................   145
Questions submitted by Senator Richard C. Shelby.................   146
Questions submitted by Senator Robert F. Bennett.................   147
Questions submitted by Senator Ben Nighthorse Campbell...........   148
Surface transportation issues....................................   148
ASR-11 radar (Eagle County)......................................   149
Cross-check of passenger identity................................   150
Fixed base operators.............................................   150
Statement of Hon. Tommy Thompson, Secretary of Health and Human 
  Services, Department of Health and Human Services..............   152
Prepared statement of Tommy G. Thompson..........................   154
Food safety......................................................   161
Smallpox vaccines................................................   162
CDC buildings and facilities.....................................   165
Other bioterrorist threats.......................................   167
Smallpox vaccinations............................................   168
State funding....................................................   169
Health alert network.............................................   170
Laboratory security..............................................   171
Homeland security................................................   172
Child vaccines and antiterrorism.................................   173
Communications...................................................   174
Funding for state and local health systems.......................   174
State and local health plans.....................................   176
Questions submitted by Senator Tom Harkin........................   178
Anthrax vaccine..................................................   178
Biological agents................................................   179
Questions submitted by Senator Jack Reed.........................   180
Public health surveillance.......................................   180
Questions submitted by Senator Ben Nighthorse Campbell...........   181
Trauma centers...................................................   181
Hospital capacity................................................   182
National Trauma Network..........................................   183
Statement of John Ashcroft, Attorney General, Department of 
  Justice........................................................   185
Opening statement of Chairman Robert C. Byrd.....................   185
Welcome of John Ashcroft, Attorney General.......................   185
Statement of Senator Ted Stevens.................................   186
Opening statement of Attorney General Ashcroft...................   187
National Security Coordination Council...........................   188
Homeland security................................................   188
Border security initiative.......................................   189
INS restructuring................................................   189
FBI counterterrorism activities..................................   189
Supplemental appropriations......................................   190
Information sharing..............................................   190
U.S. Marshals Service............................................   190
IT interoperability..............................................   191
Transfer of ODP to FEMA..........................................   191
Terrorism and terrorist attacks..................................   191
Prepared statement of John Ashcroft..............................   191
Preventing and combating terrorism, including securing the 
  Nation's border................................................   192
Statement of Joe M. Allbaugh, Director, Federal Emergency 
  Management Agency..............................................   195
Prepared statement of Joe M. Allbaugh............................   196
Attorney General authority to direct crisis response.............   200
Separate counterterrorism budget.................................   201
New technology for communications................................   202
INS Chimera system...............................................   202
First responder funding..........................................   203
First responder initiative.......................................   204
Prepared statement of Senator Christopher S. Bond................   208
Border security agency...........................................   210
Supplementing homeland security funding..........................   211
Preventing attacks on computer systems...........................   212
NIPC sharing information with private sector.....................   213
Tracking cyber attacks...........................................   213
Citizen Corps....................................................   214
Interoperability.................................................   215
Arming National Guard on northern border.........................   217
Interoperability success story...................................   218
Executive branch mandates........................................   219
Categories of alert system.......................................   219
Reorganization of homeland security agencies.....................   220
Webster Commission report........................................   220
Inspector general report.........................................   221
FBI Security Division............................................   222
IAFIS--border security...........................................   222
Questions submitted to Attorney General John Ashcroft............   225
Questions submitted by Chairman Robert C. Byrd...................   225
Office of Community Oriented Policing Services (COPS) Program....   225
Interoperability.................................................   225
Office of Domestic Preparedness..................................   226
Border security agencies.........................................   227
Office of Domestic Preparedness to FEMA..........................   228
Counterterrorism.................................................   228
Question submitted by Senator Patrick J. Leahy...................   229
Supplemental request for FEMA--State grants for first responder 
  training.......................................................   229
Questions submitted by Senator Herb Kohl.........................   229
Wisconsin sheriffs...............................................   229
Immigration and local law enforcement............................   230
COPS and FEMA....................................................   230
Material witness ruling..........................................   231
Bureaucracy of the First Responders Program......................   231
Failure to distribute grants.....................................   232
Proactive role for first responders..............................   233
Questions submitted by Senator Patty Murray......................   233
INS enforcement by local police..................................   233
INS staffing levels at the northern border.......................   234
Northern land border and commuters...............................   235
Arming the National Guard at the northern border.................   235
User fees........................................................   236
Questions submitted by Senator Mary L. Landrieu..................   236
Arab speaking agents or translators..............................   236
First responders.................................................   237
Questions submitted by Senator Jack Reed.........................   237
Background check interoperability with INS.......................   237
Upgrading State criminal history records to improve background 
  checks.........................................................   238
Crime labs.......................................................   239
Questions submitted by Senator Ben Nighthorse Campbell...........   240
Mock terrorism disasters.........................................   240
Division of the INS..............................................   242
Questions submitted to Joe M. Allbaugh...........................   242
Questions submitted by Chairman Robert C. Byrd...................   242
Questions submitted by Senator Patty Murray......................   245
Questions submitted by Senator Mary L. Landrieu..................   246
Questions submitted by Senator Jack Reed.........................   248
Questions submitted by Senator Ben Nighthorse Campbell...........   249

                          Tuesday, May 7, 2002

Statement of Hon. Donald H. Rumsfeld, Secretary of Defense, 
  Department of Defense..........................................   251
Dr. Dov Zakheim, Comptroller.....................................   251
Dr. Stephen Cambone, Principal Deputy Under Secretary of Defense 
  for Policy.....................................................   251
Opening statement of Chairman Robert C. Byrd.....................   251
Statement of Senator Daniel K. Inouye............................   253
Statement of Senator Ted Stevens.................................   253
Prepared statement of Senator Tim Johnson........................   254
Opening comments.................................................   255
Historical context...............................................   255
Approaches to defending America..................................   256
Prosecution of war on terrorism..................................   256
Office of Homeland Security......................................   257
Supporting security efforts at home..............................   257
Homeland security support........................................   258
Role of the National Guard.......................................   258
DOD actions since September 11...................................   259
New command plan.................................................   259
DOD Office of Homeland Defense...................................   260
Prepared statement of Donald H. Rumsfeld.........................   260
Accounting for appropriated funds................................   264
Reports on war-related expenditures..............................   265
Cyber attacks....................................................   266
Cyber security...................................................   267
Justification material and questions.............................   268
Operations in the Philippines....................................   268
Guard and Reserve personnel......................................   269
Military recruiting and retention................................   269
Eligibility to attend United States military academies...........   270
Reserve mobilization.............................................   270
Withdrawing Guard from airport...................................   271
Posse comitatus..................................................   272
Law changes......................................................   273
Roles for the Guard..............................................   273
NORTHCOM.........................................................   274
Crusader artillery system........................................   274
Ballistic missile defense........................................   275
Other homeland defense spending..................................   275
Arming mobilized guardsmen.......................................   276
Chemical demilitarization........................................   277
Port security....................................................   278
Standing up Northern Command.....................................   279
Benefits for National Guard people...............................   281
Assignment of National Guard units...............................   281
Assistance from other nations....................................   281
Changes to statutes..............................................   282
Arming of National Guard.........................................   283
Port security....................................................   283
What to attribute to homeland defense............................   285
Deficit concerns.................................................   287
China issues.....................................................   288
National Guard role in NORTHCOM..................................   288
CBRN training....................................................   289
WMD civil support teams..........................................   290
Attack by weapons of mass destruction............................   290
Better tanker equipment..........................................   292
Consultations with Governor Ridge................................   293
Responsibilities for homeland security...........................   294
Congressional access to information..............................   295
Information on how $17.4 billion is being spent..................   296
Questions submitted by Chairman Robert C. Byrd...................   297
Policy toward China..............................................   297
Unmanned air vehicles vs. U-2 upgrades, or an unmanned U-2.......   298
Treaty with Russia...............................................   299
Questions submitted by Senator Patrick J. Leahy..................   299
Northern Command.................................................   299
National Guard...................................................   300
Question submitted by Senator Arlen Specter......................   300
Manufacturing work...............................................   300
Questions submitted by Senator Pete V. Domenici..................   300
DOD homeland security............................................   300
Research and development.........................................   301
49th Material Maintenance Group..................................   301
Questions submitted by Senator Christopher S. Bond...............   302
CBRN training....................................................   302
CBRN attacks.....................................................   302
GOCO vaccine production facility.................................   303
Questions submitted by Senator James M. Inhofe...................   303
Foreign Terrorist Tracking Task Force............................   303
Statement of Hon. Sam Nunn, Co-Chairman and Chief Executive 
  Officer, Nuclear Threat Initiative and former United States 
  Senator........................................................   304
Prepared statement of Sam Nunn...................................   310
Questions submitted by Chairman Robert C. Byrd...................   318
Questions submitted by Senator Pete V. Domenici..................   319
Prepared statement of the National Association of Regional 
  Councils.......................................................   320

















HOMELAND SECURITY AND THE FISCAL YEAR 2002 SUPPLEMENTAL APPROPRIATIONS 
                                  BILL

                              ----------                              


                        TUESDAY, APRIL 30, 2002

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Leahy, Kohl, Murray, Dorgan, 
Durbin, Landrieu, Reed, Stevens, Cochran, Specter, Domenici, 
McConnell, Burns, Shelby, Gregg, Bennett, Craig, Hutchison, and 
DeWine.
STATEMENT OF PAUL H. O'NEILL, SECRETARY OF THE 
            TREASURY, DEPARTMENT OF THE TREASURY


              opening statement of chairman robert c. byrd


    Chairman Byrd. The committee will come to order. I 
apologize for my tardiness, which I believe is somewhat 
unusual. But I would say, Secretary O'Neill, that I lost one of 
my best friends this morning, my little dog Billy.
    Today, we commence our second round of homeland security 
hearings. Three weeks ago, this committee heard from an array 
of terrorism experts--policemen, firefighters, Governors, 
mayors, health responders, representatives of the utility and 
shipping industries. They gave us their candid, sometimes 
disturbing, views of the current ability of this Nation to 
detect, prevent, and respond to another terrorist attack on 
American soil. They told us what they thought should be done, 
and they are the people who are on the front lines of our 
homeland security--the first responders, the State and local 
officials, the industries that provide our power and water and 
oversee the shipment of goods through our ports.
    Today, we begin another phase of our hearings in which we 
will hear from Federal officials responsible for shaping and 
implementing our national homeland security policy. And we are 
beginning to examine the President's fiscal year 2002 
supplemental appropriations request for homeland security and 
the war on terrorism.
    I appreciate the efforts of the Cabinet Secretaries from 
whom we will hear today and at later dates, as well. Your 
testimony, Mr. Secretary, and the testimony of others will be 
helpful in the committee's efforts to craft the supplemental 
bill and the upcoming fiscal year 2003 appropriation bills, all 
13 of which we hope to report from the committee, act upon in 
the Senate, and send to the President before the beginning of 
the new fiscal year.
    I am extremely disappointed that the administration has 
refused--refused--to allow the Homeland Security Director, Tom 
Ridge, to appear before this committee. Time after time, 
Senator Stevens and I have offered a bipartisan invitation to 
Director Ridge for the simple reason that he is the one man 
with an understanding of all the homeland security priorities 
of this administration. I saw him on television last night 
speaking to the Associated Press, and I wondered why can't this 
administration let this man come before the Appropriations 
Committees of the Congress to explain the budget request and to 
explain his homeland security plans. And I'm still wondering.
    He sees how all of the pieces of this puzzle fit together. 
Director Ridge is charged with formulating the Nation's broad 
homeland security strategy, and he has the responsibility for 
putting that strategy into action. Yes, he was named the 
Director of the homeland security effort by an Executive order. 
Yes, he is a staff person of the President. No, staff persons 
are normally--of the President--not normally expected to come 
before committees and answer questions. But this is an 
extraordinary staff member. Upon his shoulders rest the 
responsibilities for planning for the security of the lives of 
the American people and the industries, the facilities, and all 
that make this Nation work in peacetime and in war.
    Why? Why? Why can this administration not unbend its 
arrogant position that it took in the very beginning when 
Senator Stevens and I asked Mr. Ridge to appear? We wrote to 
the President asking for an appointment with him. We weren't 
given the courtesy of a response from the President. We heard 
from some of the President's staff people, Mr. Card and another 
one or so, but we didn't write to them. We haven't been shown 
the courtesy yet of even a reply.
    This is a bipartisan effort. Senator Stevens and I have 
worked together, as the members on both sides of the aisle have 
worked together all of these years in a bipartisan way, to deal 
with the matters that come before this committee, and we shall 
continue to do that.
    Every witness that has come before this committee during 
these hearings has been discussed between the ranking member, 
Mr. Stevens, and myself, and I would never have invited the 
witness if Senator Stevens had had any questions about such a 
witness appearing. So we've tried to be very bipartisan. I've 
made no threats. I've made no partisan statements. I simply 
cannot understand this arrogance on the part of an 
administration that will not assist the Congress in dealing 
with the budget of the President of the United States. We need 
Mr. Ridge, but he's not here.
    But I thank you for coming, Mr. Secretary. Mr. Ridge is not 
here, nor does he plan to be here. He can meet with the heads 
of foreign states, but not with the elected representatives of 
the American people here in the Congress of the United States. 
Unfortunately, the real losers are the American people, whose 
lives this Government is bound to protect. They're not being 
given the whole picture. They are not being told the whole 
strategy. The Congress and the American people are forced to 
learn about the administration's homeland security efforts in 
piecemeal, patchwork fashion.
    That said, we're pleased to welcome the three Cabinet 
members who will testify today, beginning with Treasury 
Secretary Paul H. O'Neil. Secretary O'Neill will be followed by 
Secretary of State Colin Powell and by Secretary of Agriculture 
Ann Veneman.
    So, Mr. Secretary, I welcome you, and I thank you for 
appearing before the committee today, and we look forward to 
your testimony. The Treasury Department plays a key role in the 
security of our country. Agencies contained within the Treasury 
Department protect our borders, they facilitate the flow of 
legitimate trade while preventing the entry of illegal goods 
and contraband, ensure the integrity of our currency, prevent 
terrorists from obtaining guns and explosives, and track and 
freeze terrorist assets. The men and the women in these 
agencies perform their tasks professionally and with integrity 
and with great pride under oftentimes extremely difficult 
circumstances.
    Given the extensive involvement the Treasury Department 
agencies have in providing for homeland security, I am somewhat 
puzzled by the fact that no additional homeland security 
funding was included for the Treasury Department as part of the 
President's supplemental appropriations request.
    I shall turn now, before saying anything more, to my dear 
friend and colleague, Senator Stevens, for any statement he may 
have. We will have questions following Senator Stevens' 
statement.
    [The statement follows:]
             Prepared Statement of Chairman Robert C. Byrd
    Today we commence our second round of homeland security hearings. 
Three weeks ago, this Committee heard from an array of terrorism 
experts, police and firefighters, governors and mayors, and 
representatives of utility and shipping industries. They gave us their 
candid, and often disturbing, views of the current ability of our 
nation to detect, prevent, and respond to another terrorist attack on 
our soil. They told us what they think needs to be done. They are the 
people who are on the front lines of our homeland security--the first 
responders, the state and local officials, the industries that provide 
our power and water and oversee the shipment of goods through our 
ports.
    Today, we begin the second phase of our hearings, in which we will 
hear from the Federal officials responsible for shaping and 
implementing our national homeland security policy. We will also 
examine the President's fiscal year 2002 Supplemental Appropriations 
request for homeland security and the war on terrorism.
    I appreciate the efforts of the Cabinet secretaries from whom we 
will hear today and on later dates. Their testimony will be helpful in 
the Committee's efforts to craft the supplemental bill and the upcoming 
fiscal year 2003 appropriations bills. However, I am very disappointed 
that the Administration has refused to allow Homeland Security Director 
Tom Ridge to appear before this Committee. Time after time, Senator 
Stevens and I have offered a bipartisan invitation to Director Ridge 
for the simple reason that he is the one man with an understanding of 
all the homeland security priorities of this Administration. He sees 
how all of the pieces to this puzzle fit together. Director Ridge is 
charged with formulating the nation's broad homeland security strategy 
and has the responsibility for putting that strategy into action. But 
Director Ridge is not here, nor does he plan to be here. Unfortunately, 
the real losers are the American people whose lives this government is 
trying to protect. They are not being given the whole picture. They are 
not being told the whole strategy. The Congress and the American people 
are forced to learn about the Administration's homeland security 
efforts in piecemeal, patchwork fashion.
    That said, we are pleased to welcome the three Cabinet secretaries 
who will testify today, beginning with Treasury Secretary Paul H. 
O'Neill. He will be followed by Secretary of State Colin Powell and 
Secretary of Agriculture Ann Veneman.
    Welcome, Secretary O'Neill, and thank you for appearing before the 
Committee today. We look forward to your testimony.
    The Treasury Department plays a key role in the security of our 
Nation. Agencies contained within the Treasury Department protect our 
borders, facilitate the flow of legitimate trade while preventing the 
entry of illegal goods and contraband, ensure the integrity of our 
currency, prevent terrorists from obtaining guns and explosives, and 
track and freeze terrorist assets. The men and women in these agencies 
perform their tasks professionally and with integrity and pride under 
oftentimes extremely difficult circumstances.
    Given the extensive involvement Treasury Department agencies have 
in providing for homeland security, I am surprised that no additional 
homeland security funding was included for the Treasury Department as 
part of the President's supplemental appropriations request. Last fall, 
over the objections by the Administration, the Congress added $245 
million to the supplemental for the Treasury Department to hire 
additional personnel, procure additional inspection technology for 
placement along the borders and at our ports of entry, and begin 
addressing the critical issue of seaport security. We look forward to 
hearing from you today on the status of those funds.

    Senator Stevens. Thank you very much, Mr. Chairman. And 
welcome, Secretary O'Neill. I welcome the opportunity to listen 
to three distinguished members of the President's Cabinet this 
morning. In view of the timeframe, I will not make an opening 
statement, but I welcome the opportunity to review all national 
security requests for these departments.
    Thank you very much.

                     ADDITIONAL SUBMITTED STATEMENT

    Chairman Byrd. Senator Johnson requested that his statement 
be inserted in the record at this point.
    [The statement follows:]
               Prepared Statement of Senator Tim Johnson
    I would like to thank Chairman Byrd and Senator Stevens for holding 
today's hearing on homeland security, and commend them for their 
continued leadership on this important issue.
    I think it is important for the Senate Appropriations Committee to 
continue to examine our nation's policies with respect to homeland 
security. As we begin to consider the fiscal year 2002 Supplemental 
Appropriations bill, it is essential for us to have both an 
understanding of each agency's request and a broad overview of how 
these requests will be coordinated in our overall homeland security 
strategy.
    The diverse set of witnesses testifying before the Committee 
highlights one of the most difficult challenges in developing homeland 
security policies. In the coming days, we will hear from seven 
different cabinet secretaries and agency heads, each with a critical 
homeland security role. Our ability to coordinate activities and 
programs across such a broad array of government agencies will 
ultimately determine whether or not we are successful in our fight 
against terrorism. I look forward to hearing from each of these 
witnesses to get a better understanding of what we are currently doing 
to protect the American people, and what remains to be done.
    Many people may not immediately realize the role the Department of 
Treasury plays in homeland security. However, the Department of 
Treasury is working to stop future terrorist attacks by tracking and 
cutting off the terrorists' source of funds. This involves working with 
law enforcement, international financial institutions, and foreign 
governments to identify and seize the funds needed to operate 
terrorists organizations like al Qaeda. As a member of the Senate 
Banking Committee, I was pleased we were able to pass money laundering 
legislation last fall to give law enforcement the tools they need to 
fight against those who would corrupt our financial institutions. The 
bill, which was incorporated into the USA Patriot Act, requires banks 
to conduct enhanced review of private accounts, or a correspondent 
account, for an offshore bank or foreign bank in a country posing a 
high money laundering risk. It also bars U.S. banks and U.S. branches 
of foreign banks from providing direct or indirect banking services to 
foreign shell banks that have no physical presence in any country and 
no banking affiliation. In addition, U.S. courts are given ``long-arm'' 
jurisdiction over foreign persons committing money laundering offenses 
in the United States, over banks opening U.S. bank accounts, and over 
foreign persons seizing assets. The provisions of this bill, which are 
now in law, will help identify the assets of terrorists and freeze 
them. I am hopeful Secretary O'Neill will share with us any progress 
being made in tracking terrorists' assets and denying them access to 
these funds.
    The fiscal year 2002 Supplemental request includes funding to 
support the State Department's efforts to respond to and deter 
international terrorism as well as much-needed money for embassy 
security, and I am pleased Secretary of State Colin Powell is appearing 
before the Committee. So much of our homeland security discussions 
center on domestic preparedness and maintaining a strong defense, but 
we should not forget the role strong diplomacy and good international 
relations play in preventing future terrorist attacks and winning the 
war on terrorism. Secretary Powell's work to maintain strong relations 
with our allies, to isolate nations that harbor or aid terrorists, to 
help build the capacity of foreign governments to fight terrorism 
within their own borders, and to track-down terrorists throughout the 
world is essential to our national security.
    Finally, we will hear from Secretary of Agriculture Ann Veneman. 
Once again, the link between agriculture and homeland security may not 
be immediately apparent. However, the risk of an agriculture terrorist 
attack poses a serious threat to the economy, as well as America's 
abundant food supply.
    An agricultural terrorist could introduce a pathogen to a certain 
crop and decimate that crop's yield. A quickly-spreading animal disease 
intentionally introduced could cause economic ruin to states that 
depend on revenues from the livestock industry. Given the seriousness 
of this threat, I was pleased Congress, with Senator Byrd's leadership, 
provided significant funds for USDA's homeland security needs in fiscal 
year 2002. Specifically, Congress appropriated $81 million for enhanced 
security at USDA facilities, $119 million for the Animal and Plant 
Health Inspection Service to support border protection and bio-
security, $15 million for the Food Safety and Inspection Service for 
enhanced operational security and implementation of the Food Safety 
Bio-Terrorism Protection Program, and $151 million for the Food and 
Drug Administration for food safety and counter bio-terrorism programs.
    I am interested in hearing from Secretary Veneman about the 
progress of these programs and additional ideas about how we can 
protect our nation's food supply.
    Once again, I would like to thank Senator Byrd and Senator Stevens 
for holding these homeland security hearings. As we consider the fiscal 
year 2002 Supplemental request and the fiscal year 2003 Appropriations 
bills, it is important that we have a thorough understanding of what 
will be needed to establish and coordinate an effective homeland 
security policy. I look forward to hearing from this distinguish panel 
of witnesses.

    Chairman Byrd. All right. We will now proceed to hear your 
statement. Mr. Secretary, please proceed.
    Secretary O'Neill. Good morning, Chairman Byrd, Senator 
Stevens, and distinguished members of the committee. It's my 
pleasure to appear before you to discuss homeland security 
efforts at the Treasury Department. With the committee's 
permission, I will submit my full testimony for the record and 
make an abbreviated oral statement to allow more time for your 
questions.
    Chairman Byrd. Mr. Secretary, your statement will appear in 
the record as though read in its entirety.
    Secretary O'Neill. Thank you, Mr. Chairman.
    Since September 11th, the United States Treasury Department 
has been center stage for some of the toughest challenges 
facing the country. Treasury law enforcement bureaus and other 
offices are fighting the war on terrorism at home and abroad. 
We protect our Nation on three fronts--along our borders, 
within our homeland, and throughout the world financial system.
    First, with regard to protecting our borders, Treasury 
includes the United States Customs Service, our country's first 
line of defense, at over 300 ports of entry. Following 
September 11th, Customs has been hiring new personnel and 
investing in technology that will enhance their efficiency and 
effectiveness. We are focusing on ports of entry where we 
believe we are most vulnerable to terrorist threats, including 
the northern and southern land borders and seaports with the 
highest volume of containerized cargo.
    Even as we have created a new level of security at our 
Nation's borders, we're creating a new challenge for our 
economy, how to tighten security without reducing the 
productivity of American enterprise, which depends on 
international trade. Rather than accept the conventional wisdom 
that there is an unavoidable tradeoff between speed and 
security, we're working to make our borders smarter. For 
example, in the customs-trade partnership against terrorism 
announced this month, businesses worked with the Customs 
Service to design and implement secure procedures throughout 
their supply chain. In exchange, Customs assures them of faster 
processing. This program has reduced wait times for trucks 
coming into the United States from Canada over the Ambassador 
Bridge from 54 minutes to 17 seconds while increasing security.
    Treasury is also responsible for protecting our Nation's 
leaders, visiting foreign dignitaries, and, in some capacities, 
the general public. The United States Secret Service, the 
Bureau of Alcohol, Tobacco and Firearms, and Federal Law 
Enforcement Training Center are all Treasury bureaus.
    The United States Secret Service protects the President, 
the Vice President, and foreign heads of state. In response to 
homeland security threats, the Secret Service has seen a 
significant increase in its protectees and responsibilities. 
The fiscal year 2003 budget provides for this.
    The Bureau of Alcohol, Tobacco and Firearms enforces 
Federal laws relating to commerce or criminal misuse of 
firearms and explosives. The ATF's technical expertise is 
integral to our war on terrorism.
    And as new law enforcement officials are hired to protect 
our Nation, speedy, thorough training is essential for their 
success. And the Federal Law Enforcement Training Center serves 
as the Federal Government's leading provider of law enforcement 
training. The fiscal year 2003 request provides funding to 
train new agents hired for homeland security.
    Finally, I would like to say a few words about the 
financial front on homeland security. Treasury's Financial 
Crimes Enforcement Network, known as FinCEN, and our Office of 
Foreign Assets Control lead the war against global terrorist 
financing. Since September 11th, FinCEN and OFAC have thwarted 
supporters of the al Qaeda and other terrorist organizations by 
freezing $34 million in assets directly and assisting our 
allies to freeze another $70 million. Our budget request 
adequately provides for our ongoing work scouring the world 
financial system, foiling terrorist plots before they occur.
    In conclusion, Mr. Chairman and members of the committee, I 
would like to take this opportunity to recognize the men and 
women of the Treasury Department and their hard work protecting 
this country on a heightened level of alert since September 
11th. And now I look forward to your questions regarding our 
homeland security efforts.
    Chairman Byrd. Thank you, Mr. Secretary. Your statement 
will be read with great care. It will appear in the record, as 
I've already indicated, as though read in its entirety.
    [The statement follows:]
                 Prepared Statement of Paul H. O'Neill
    Good morning, Chairman Byrd, Senator Stevens, and distinguished 
members of the Committee. It is my pleasure to appear before you to 
discuss the Homeland Security missions of the Treasury Department.
    We all know that the world has changed since terrorists attacked us 
on September 11th. That change is very evident at the United States 
Treasury Department, where we are center-stage for some of the toughest 
challenges facing our country.
    The tragic events of September 11th sparked an incredible increase 
in the nationwide efforts to prevent and combat terrorism. Treasury has 
been at the forefront of these efforts with our law enforcement bureaus 
and offices participating in the war on terrorism at home and abroad. 
We bear the responsibility of protecting the Nation on three fronts: at 
our borders; in the world of finance; and here at home. Our Nation's 
first line of defense against terrorists and terrorist activity is the 
security of our borders.
    Before I address some of the specific measures that we have taken 
at our borders, I would like to describe two new initiatives that 
highlight the approach I believe that the government should take as we 
strive to protect the Nation from future terrorist attacks.
    Since the attacks of September 11th we have insisted on a new level 
of security at our Nation's borders to protect our homeland. And we 
created a new challenge for our economy--to adopt new security measures 
without reducing the productivity of American companies.
    The first border initiative I would like to describe was unveiled 
on April 16th, when I joined Governor Ridge, Customs Commissioner 
Bonner, and Governor Engler at the Ambassador Bridge in Detroit to 
launch the Customs Trade Partnership Against Terrorism, referred to as 
C-TPAT. Under this program, C-TPAT businesses commit to pursuing the 
very best practices in supply chain security. They work with the 
Customs Service, and with their own suppliers, to design and implement 
secure procedures. In exchange, Customs assures them of much faster, 
and thus, less costly import processing.
    It is the threat to global security and the break from conventional 
wisdom that gave birth to the second initiative I would like to 
describe, the Container Security Initiative (CSI). The CSI would secure 
an indispensable, but vulnerable, link in the chain of global trade: 
the oceangoing sea container. Ensuring the security of the maritime 
trade system is essential, given that approximately 90 percent of the 
world's cargo moves by container. This initiative consists of four core 
elements. These are: (1) establishing criteria to identify high-risk 
containers; (2) pre-screening those containers identified as high-risk 
before they leave the port of origin; (3) using technology to quickly 
pre-screen high-risk containers; and (4) developing and using smart and 
secure containers. Customs has already rolled this initiative out at 
three Canadian seaports and they are actively engaging other large 
overseas seaports, and working with the foreign governments within 
which those large international ports are located, to cooperatively 
develop a program to implement the four key elements of the CSI.
    These are two examples of what we mean by ``smart'' borders. Rather 
than just accepting the conventional wisdom that, without a vast influx 
of new resources, there is an unavoidable trade-off between efficiency 
and security, these new endeavors are an improvement in both. When we 
are at our best--both in government and in the private sector--we can 
accomplish anything we set our mind to.
    With those examples of where I believe we should be going, I would 
now like to inform the Committee of where we have already been since 
September 11th. Following the attacks of September 11th, the border 
threat level was raised from Alert Level 4 (normal operations) to the 
highest level, Alert Level 1 (Code Red). The United States Customs 
Service, our Nation's first line of defense at 301 ports of entry into 
the Nation, has made the fight against terrorism its number one 
priority. In response to this heightened state of alert, Customs has 
hired additional personnel to staff our borders and seaports, and has 
engaged members of the National Guard to increase security around our 
Nation's borders.
    In fiscal year 2002 appropriations Customs received almost $400 
million for addressing specific homeland security matters (in addition 
to $65 million provided through separate Presidential releases). Of 
this amount, $235 million is being used for a combination of personnel 
and new equipment in ports of entry on the northern border and at 
critical seaports, along with selected investments on the southern land 
border.
    Customs has set out an expenditure plan for this funding for 
Congressional review that responds to both short and long-term security 
concerns. The recurring cost of labor-intensive efforts will be coupled 
with technology investments that will increase efficiencies and enhance 
the level and degree of scrutiny for various ports of entry.
    The fiscal year 2003 proposal for the U.S. Customs Service includes 
$365 million not only to continue its increased focus on Northern 
Border and Marine Port security efforts, but also to address other 
areas of vulnerability, such as: international money laundering; 
security infrastructure; southwest border staffing; and funding for 
backup commercial recovery facilities. Ports of entry have been 
identified as potential entry points for terrorists as well as the most 
likely avenue for them to introduce implements of terror into the 
country. The danger this presents has become a focus for the fiscal 
year 2003 request.
    In fiscal year 2003, Customs will add 626 new positions, in 
addition to the 1,075 positions allocated in fiscal year 2002, to 
vulnerable locations on the northern and southern land borders, and in 
seaports with the highest volume of containerized cargo. They will 
counter the terrorist threat while facilitating legitimate trade and 
travel.
    The fiscal year 2003 request also includes a large complement of 
inspection and targeting technology (including a modest research 
component), a further expansion of the Advance Passenger Information 
System (APIS) to real-time processing capability, and technology to 
expedite the passage of goods imported by highly trusted entities.
    Finally, low volume Ports of Entry would be protected through 
``hardening'' measures including physical barriers, sensors and 
monitoring devices to prevent and detect unauthorized crossings. 
Customs serves as the lead agency for Operations Green Quest and Shield 
America. These multi-agency task forces are dedicated to identifying, 
disrupting, and dismantling terrorist financing sources and systems and 
ensuring that munitions and sensitive U.S. technologies are not 
unlawfully exported into the hands of terrorists. The fiscal year 2003 
budget supports and maintains these critical task forces.
    Equally important with protecting our Nation's borders is stopping 
the terrorists from being able to finance their operations.
    Treasury has mustered forces from across its offices, agencies, and 
bureaus to fulfill its mandate to lead the war against global terrorist 
financing. Alongside Treasury's Financial Crimes Enforcement Network 
(FinCEN) and Office of Foreign Assets Control (OFAC), staff from the 
Offices of International Affairs, Enforcement, and the General Counsel 
have all been deeply engaged in disrupting and destroying the networks 
that finance terrorism.
    In his November 7th address at Treasury, President Bush proclaimed 
that ``the first strike in the war against terror targeted the 
terrorists' financial support.'' Following the attacks, FinCEN and OFAC 
were able to identify and stymie numerous supporters of the Al Qaida 
and other terrorist organizations by freezing $34 million in terrorist 
assets and working with allies overseas to freeze over $70 million. 
Funding levels proposed for fiscal year 2003 will better enable FinCEN 
to sustain and maintain these activities.
    Our efforts to block the assets of terrorist financiers and 
supporters have truly become an international endeavor. As part of 
these efforts, a Terrorist Finance Task Force has been created by the 
Office of International Affairs that coordinates our outreach to other 
countries and jurisdictions and monitors their progress in combating 
the financing of terrorism. One of the more visible results of these 
efforts was accomplished on April 19th, when the G-7 Finance Ministers 
joined in Washington and jointly designated nine individuals and one 
entity as terrorist supporters or financiers related to al-Qaeda. As 
part of our overall strategy to maintain the international momentum in 
our battle against terrorist financing, I have made critical trips to 
Europe and the Persian Gulf to discuss the importance of coordinated 
action in this arena. The Treasury Department will continue to work 
with our international partners in the war against terrorist financing.
    While leading protection efforts on the borders and in the banks, 
Treasury has also placed an increased emphasis on security within the 
Nation in the protection of our Nation's leaders, foreign dignitaries 
and, ultimately, our Nation's freedom. The United States Secret 
Service, Bureau of Alcohol, Tobacco and Firearms, and Federal Law 
Enforcement Training Center are at the forefront of these efforts.
    The United States Secret Service is the only Federal government 
entity charged with the challenging mission of protecting the 
President, Vice President, and foreign heads of state. In response to 
increasing homeland security threats, the Secret Service has been 
assigned new protectees and has seen significant workload increases in 
its protective functions. The fiscal year 2003 budget provides funding 
to enable the Secret Service to meet its protective requirements, 
including funding for travel, overtime, and follow-on costs associated 
with Special Agents and Uniformed Division Officers hired in fiscal 
year 2002.
    Around the world, firearms and explosives are the most frequent 
tools of terrorist attacks. The Bureau of Alcohol, Tobacco and Firearms 
is charged with enforcing Federal laws relating to commerce in, and the 
criminal misuse of, firearms and explosives, and ATF's authority and 
technical expertise are integral components in fighting the Nation's 
war against terrorism. Through the awareness that terrorists need funds 
to operate, ATF has found that illegal commerce in alcohol and tobacco 
products serve as attractive and lucrative sources for generating funds 
for illegal activities.
    As new law enforcement officials are being recruited and hired to 
fill the various positions critical to the Nation's war on terrorism, 
training for these individuals to perform their duties in a safe and 
highly proficient manner has become an immediate necessity. The Federal 
Law Enforcement Training Center (FLETC) serves as the Federal 
government's leading provider of law enforcement training. FLETC 
currently provides training for 74 Federal Partner Organizations, and 
also for state, local and international law enforcement organizations 
on a reimbursable basis. Training is provided in the most cost-
effective manner by taking advantage of economies of scale available 
only from a consolidated law enforcement training organization. The 
fiscal year 2003 request provides funding to maintain current levels 
prior to the September 11th terrorist attacks, while also providing 
additional funding to support the training of new agents hired as a 
result of the attacks.
    In conclusion, Mr. Chairman, I would like to take this opportunity 
to recognize the incredible efforts of the men and women of the 
Treasury Department since September 11th. We all know that computer 
systems do not lead excellence. Dollars do not lead excellence. People 
lead excellence. While the Treasury Department still has some ways to 
go before we achieve true excellence, with breakthroughs like those I 
witnessed in Detroit on April 16th, I am confident that the people of 
the Treasury Department will be ready to lead the way.

    Chairman Byrd. If it's agreeable with all members of the 
committee and with the ranking member, I would now like to call 
upon the chairman of the subcommittee under the jurisdiction of 
which this agency and its appropriations requirements come. So 
if that's agreeable, I will call on the chairman of that 
subcommittee first and then the ranking member. Then we'll go 
to the other Senators and then the Senator to my left, and then 
I'll be last.
    Senator Dorgan. Mr. Chairman, thank you. Secretary O'Neill, 
welcome. We appreciate your being here and appreciate your 
statement.
    Let me ask a couple of questions about the law enforcement 
functions performed by Treasury. I think you adequately 
described their importance at this point. And you and I have 
spoken at great length about border security, particularly 
northern border security. The chairman of the full committee 
indicated that your agency did not request additional monies in 
the supplemental for these issues, and I wonder if you might 
describe how you see the needs for funding for future border 
security requirements.
    Secretary O'Neill. I will, indeed, Senator. We have had an 
opportunity to talk directly about some of these issues. We are 
in the process of hiring people that were authorized and 
appropriations were provided in the fiscal year 2002 budget and 
we are anticipating the approval of the additional funding we 
requested in the 2003 budget. And between those two increases 
for these purposes, we're looking at hiring, over this period 
of time, 1,751 additional people. And I, frankly, see that as a 
formidable challenge, to bring people on and get them trained 
and get them into the system.
    And while we're doing that, I think we necessarily need to 
continue to assess what the requirements are and to continue 
the conceptualization, or reconceptualization process, if I can 
call it that, in thinking about the unthinkable and trying to 
anticipate ways that we can interdict would-be terrorists and 
stop their potential acts before they occur. And my own view 
is, as this supplemental was being prepared, we didn't have new 
information that caused me to believe we should now ask for 
additional funding after we had only submitted the President's 
budget for 2003 in February.
    And so, my own view is that if we can clearly see that 
there are additional resources required, either money for 
technology or money for additional people, we will so recommend 
to the President. But at the time this supplemental was being 
prepared, I didn't think we had new information that suggested 
that additional resources were needed, on top of what you've 
already provided and what we've requested, incrementally for 
fiscal year 2003.
    Senator Dorgan. Now, you have, I assume, seen the request 
by INS, Border Patrol, and other agencies.
    Secretary O'Neill. I have.
    Senator Dorgan. They appear to be more robust, just in 
terms of where they're headed, than the law enforcement 
functions under Treasury. Can you describe the difference?
    Secretary O'Neill. Well, again, Senator, as I've said to 
you, I think whatever the Attorney General believes is 
necessary for INS is something for him to consider, and I 
honestly don't see the Treasury Department in some kind of 
horse race with the Justice Department over the level of 
resources we have.
    I, instead, see a need for us to look at the problem, to 
look at the question of how terrorists could do damage to the 
American society, and scale the resources that we're asking the 
American people to entrust to us to be sure that we're 
discharging our responsibility, but not at the cost of putting 
people in danger where it's clear that if we had more resources 
we could reduce the danger.
    And one of the things I would call attention to, I think we 
have demonstrated the importance of reconceptualizing this 
problem with what we've done in bringing in a pilot project 
that's going to turn into a full-fledged activity in bringing 
goods across the northern border. And I made reference in my 
short statement to the new system that we've initiated coming 
over the Ambassador Bridge in Detroit, where there are some 2 
million trucks a year coming over the bridge. On September 
10th, and for I don't know how long before, for years before, 
we thought we were doing a very good job in bringing goods 
across the border, and the average waiting time at the border 
was 54 minutes. After September 11th, we recognized that we 
needed to heighten the security that we were providing. But we 
didn't believe the way to solve this problem was to flood it 
with more Customs agents, but to think about the problem in a 
different way, which we set out to do with the industry. This 
is a great illustration of how we've got to change the way we 
work on these problems. Because what we've done with Ford, 
General Motors, and Chrysler, who do lots of manufacturing on 
the Canadian side and bring it across the U.S. border, we work 
with them to begin providing security at the point of 
manufacture so that as trucks are being loaded with parts that 
are coming into the United States for assembly into automobiles 
and light trucks, we've got security people at the company 
looking at this process and making sure that what goes on the 
trucks is goods and not terrorist materials of any kind. And as 
a consequence of that, we've been able to effectively reduce 
the amount of time that's required for goods to stop at the 
U.S. border to 17 seconds, instead of the 54 minutes we thought 
was necessary, and we have a much, much higher level of 
security and assurance that evildoers are not bringing 
bioterrorist weapons or chemical agents or parts of nuclear 
devices across our borders because of what we've done. And it's 
actually reduced the amount of time that we have to spend in 
the Customs Service working on this problem, because we've 
redefined it.
    Senator Dorgan. Mr. Secretary, the others want to ask 
questions, and we have limited time, so let me just inquire on 
the issue of consolidation of agencies. Governor Ridge, the 
head of Homeland Security, has talked about the decisions that 
are about to be made with respect to the consolidation of 
Federal agencies dealing with homeland security. And because we 
are not able to have him attend the hearing, or convince him to 
attend the hearing, I'd like to know, have you been involved in 
those discussions? At what stage do those discussions now 
exist?
    And as you answer, let me say, I feel very strongly that we 
ought not visit on the Customs Service the problems of the 
Immigration Service, and so I'm very concerned about the rumors 
that circulate about how they want to graft various agencies 
together. I think it's a very important subject for the 
Congress.
    Tell me about the discussions that are going on inside the 
administration. What is the status of them, and what's been 
your involvement?
    Secretary O'Neill. I'm a principal of the homeland security 
group, and so when the principals meet, which is fairly 
frequently, with the President, we talk about the whole range 
of homeland security issues and how our individual departments 
fit into ensuring that we're advancing the cause of security 
and protection against terrorists. And over the last, I guess I 
would say 6 months or so, it's true that we have had 
conversations about whether there would be utility to 
organizing ourselves in a different way. Some Members of 
Congress have introduced legislative proposals that would 
change the organization of the executive branch to think about 
homeland security in a different way.
    And I'm sure you know, as a student of these issues, that 
there have been a series of studies over the years suggesting 
one or another kind of consolidation of agencies, and they've 
basically not gone anywhere. And as you suggest, one of the 
ideas that's been discussed is the possibility of some 
combination of the Customs Service and some part of INS, but 
there have been many other conversations. We had a--well, I've 
forgotten exactly now the timing, because there's so many other 
things going on, but 6 or 8 weeks ago, we had a conversation, 
and the President directed the Homeland Security Director to 
have consultations with Members of Congress to get their own 
views about a possible consolidation. And the one that you 
mention was not favorably reacted to by the members of the 
committee.
    And we're continuing to look at this question. I don't have 
a sense of when the President may decide to put something 
forward on this subject. I guess I would say he's heard all of 
the studies that have been done by a variety of inside 
Government agencies and the well-meaning places, like Brookings 
and others, who have had opinions about these things over the 
years. So I think the President is fully informed, and I would 
say he's not yet made a decision whether he's going to put 
forward a proposal for one or another kind of consolidation of 
these activities.
    In the meantime, we're working together, because at the 
very beginning of these conversations, we resolved that it is 
really important, from our own experience looking back on the 
period before September 11th, that we in the executive branch 
do a much better job than has historically been done in 
interweaving intelligence information and experience so that 
all of us who have some responsibility in these activities are 
as fully informed as possible. And we're working away on how to 
knock down, what I would say, are maybe irrevocable 
bureaucratic boundaries.
    And, you know, if you were to think about all the 
departments and agencies that are involved in these issues in 
the broadest sense, it involves almost everyone. And so I think 
it's not possible, in fact, to say that they're all under one 
command, except for the command of the President, however you 
may structure these things, because I think it's not reasonable 
to think that the Customs ought to be part of the Defense 
Department, but certainly the Defense Department has an aspect 
of a role in homeland security when we think about border 
protection and overflights and the other things that one has to 
think about.
    Senator Dorgan. Thank you, Mr. Secretary.
    Chairman Byrd. Senator Stevens will ask questions or make 
whatever remarks he wishes to make on behalf of Senator 
Campbell, who could not be here.
    Senator Stevens. Thank you very much, Mr. Chairman. Senator 
Campbell does have a series of questions, Mr. Secretary, that 
pertain to the USA PATRIOT Act of 2001 with regard to the 
laundering investigation, the northern border security, and the 
electronic crimes provision. I'd like to submit those questions 
for the record. If you would answer those for record, we would 
appreciate it.
    Mr. Chairman, my question would be whether or not Treasury 
received any portion of the $40 billion special supplemental 
appropriation that the Congress passed and the President 
approved last fall following the problems of the terrible 
events of September 11th. You may want to refer this and answer 
that on the record, but I--in terms of the amount and how the 
money was divided among the agencies of your Department. But 
I'd like to have that for the record, but would you want to 
make a comment on that question?
    Secretary O'Neill. Yes, Senator. Indeed, we will give you 
the full detail for the record.
    [The information follows:]

   SUMMARY OF FUNDING RELATED TO THE SEPTEMBER 11TH TERRORIST ATTACKS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                  Public Law    Public Law
                                    107-38        107-117
             Bureau              Presidential    Emergency      Total
                                   Releases    Supplemental
------------------------------------------------------------------------
Internal Revenue Service:
    Processing, Assistance and          1,922        12,990       14,912
     Management................
    Tax Law Enforcement........         2,172         4,544        6,716
    Information Systems........           446        15,991       16,437
                                ----------------------------------------
      Subtotal.................         4,540        33,525       38,065
                                ========================================
Management/Fiscal Operations:
    Departmental Offices:
        Office of Foreign               6,100  ............        6,100
         Assets Control........
        Air Transportation              9,400  ............        9,400
         Stabilization Board...
    Treasury Inspector General   ............         2,032        2,032
     for Tax Administration....
    Financial Management                  110  ............          110
     Service...................
                                ----------------------------------------
      Subtotal.................        15,610         2,032       17,642
                                ========================================
Law Enforcement:
    Financial Crimes                       60         1,700        1,760
     Enforcement Network (S&E).
    Federal Law Enforcement      ............        31,500       31,500
     Training Center...........
    Bureau of Alcohol, Tobacco,         1,530        31,431       32,961
     and Firearms (S&E)........
    U.S. Customs Service.......        65,037       399,303      464,340
    U.S. Secret Service (S&E)..        36,714       104,769      141,483
    Counter-Terrorism Fund.....  ............  ............            0
                                ----------------------------------------
      Subtotal.................       103,341       568,703      672,044
                                ========================================
      Total, Treasury                 123,491       604,260      727,751
       Appropriations Committee
                                ========================================
International Affairs Technical         3,000  ............        3,000
 Assistance....................
                                ========================================
      Total, Treasury Level....       126,491       604,260      730,751
------------------------------------------------------------------------

    Secretary O'Neill. Through the separate Presidential 
release that's flowing out of what the Congress did in fiscal 
year 2002, we received $65 million, which got us on our way 
with expanding our activities and beginning to hire people. So, 
yes, indeed, we have had a flow of funds since September 11th 
to accelerate our own response to these events.
    Senator Stevens. And have you requested money in the 2003 
budget to fund those people that you say that you are in the 
process of hiring now?
    Secretary O'Neill. Yes, sir, we have.
    Senator Stevens. Thank you, Mr. Chairman.
    Chairman Byrd. Senator Burns.
    Senator Burns. Mr. Secretary, to follow up on the ranking 
member's question, in your request this year for more money to 
increase your agents. Is that directly attributed to the 
homeland security? And do you identify it as such?
    Secretary O'Neill. Yes, sir.
    Senator Burns. That's the only question I have. I just 
wanted to follow up on that.
    Chairman Byrd. Senator DeWine.
    Senator DeWine. Mr. Secretary, thank you very much. I'd 
like to follow up in regard to your statement about stopping 
the terrorists from being able to finance their operations. And 
first let me congratulate you and your team for what you have 
done so far in this area. I think it is, in fact, very, very 
impressive.
    Talk to us a little bit about the coordination that has 
taken place among the different departments and agencies in the 
U.S. Government, next in regard to cooperation that you've 
received from foreign countries, and, finally, if you could, 
talk to us a little bit about your vision for the future. 
You've talked about what you've done, you've talked about what 
you intend to do in the immediate future, but as we continue 
this long--what we know will be a long, long battle, and the 
President has been very clear to the American people, spelling 
this out, that this is going to be a long, long fight that 
we're in, and we know how important it is to dry up this 
money--what is your vision and the Department's vision?
    Secretary O'Neill. Thank you, Senator. First, with regard 
to the United States, I would say we have learned a lot from 
examining what existed before September 11th and 
retrospectively asking ourselves the question, ``What did we in 
the Federal Government know?'' That might seem like an innocent 
question, but it turns out, I think, that as we examine the 
pieces of information that existed in different forms at the 
Customs Service, at INS, in the CIA, and in the FBI, we found 
that if we had networked that information and had looked at it 
through the right lens, that we could have seen some of the 
emerging patterns that resulted in the events of September 
11th, in hindsight.
    And as we all know, hindsight is always a lot easier. But 
it's given us a basis for thinking about what we ought to do 
and what our search methodology ought to be, and it's very 
clear that the assignment of intelligence resources is an 
important aspect to this. And examining the question of how one 
decides to use different aspects of our intelligence capability 
is very important, and then sharing information with people who 
bring a different perspective to it is very important.
    And what we found outside of the Government, working with 
private enterprise, is a very positive response from financial 
institutions under the PATRIOT Act aegis as we spread out and 
engaged more people in helping us identify flows of funds that 
could be resulting in supporting terrorist organizations. We're 
getting great cooperation. And one of the things we've got to 
guard against is having such an avalanche and deluge of 
information that it's hopeless to sort it all. So there's a 
process of both refinement and selectivity in how one thinks 
about this, but I would say cooperation in the United States 
has been terrific.
    Outside of the United States, without exception, countries 
have said, ``Yes, we want to be part of this financial war on 
terrorism. We're prepared to do whatever is necessary and 
whatever you ask of us.'' And what I've been saying to them is, 
``All right, but it's not how this needs to work. We need every 
nation to be taking the initiative within their own boundaries 
and within their own legal system to identify people who are a 
potential terrorist and help us identify their financial 
assets.'' And we're beginning to see that.
    The Spanish have put forward a list that they initiated. 
The Irish Government has put forward a list that they 
initiated. The United Kingdom Government has put forward a 
list. And, in fact, the Saudi Arabians did a joint designation 
with us a few weeks ago. And 10 days ago, when the G-7 
ministers were here, we did a joint designation. So that the 
world is getting better about integrating this information and 
taking the initiative on a much broader basis.
    One of the things that's notable here, however, is that so 
far, of a 189 nations, only 58 have established a financial 
intelligence unit. And I think it's not because they don't want 
to. They need technical assistance to understand how to do it. 
And one of the things that the Congress has done is provide us 
with money so that we at the Treasury can offer and provide 
technical assistance that will help the world better respond to 
what we need to do.
    Looking forward, I have to tell you, I think this is going 
to become more difficult, because the evidence we see is that 
as the terrorists see us identifying their flow of funds 
through normal financial systems, they're moving to more exotic 
ways to move money and assets around the world, and we've got 
to chase them however they do it and interdict and confiscate 
their money. From the evidence, it appears we're making their 
life pretty miserable, which is highly desirable. We intend to 
make it impossible for them.
    Senator DeWine. Good. Mr. Secretary, thank you very much. 
Thank you, Mr. Chairman.
    Chairman Byrd. Senator Bennett, I believe you're next on 
the list.
    Senator Bennett. Thank you, Mr. Chairman. And, Mr. 
Secretary, again, I appreciate your being here, and I want to 
follow up briefly with what Senator DeWine was talking about.
    I've been told, and I do not know how reliable the source 
is, that one of the major sources of funding of terrorism, 
other than al Qaeda, is Iran, and that citizens of Iran are 
very active in this kind of activity. And we'd simply ask are 
we focusing the efforts you've just described outside of al 
Qaeda? Are we going at places like Iran where the political 
situation would be antithetical to al Qaeda but sympathetic to 
terrorist activities of other kinds? Could you comment 
specifically about that country?
    Secretary O'Neill. Senator, we are chasing the money 
wherever it takes us. I was in the Middle East, in Kuwait, 
Bahrain, Saudi Arabia, and Abu Dhabi 3 weeks ago. One of the 
points that I made to them, because they were alarmed that we 
were hostile to charity because of our naming of the so-called 
Holy Land Foundation that had offices in Texas, and they took 
that as a signal that the American authorities had decided to 
go after charities, especially charities in the Arab world. I 
made a point of saying this to them, that if you look at the 
American practice, last year Americans gave $200 billion to 
charitable causes. So it ought to be clear to the whole world, 
we are not against charities.
    But at the same time we're not against charities, if we 
find that money that seems to be supporting terrorist 
activities flowing through charities or through Iran or Iraq or 
any other place in the world, we're going to chase it wherever 
it takes us. And I guess I'd rather not indicate prospectively 
where the next clampdown will be, but, believe me, we don't 
have any blinders on. We're chasing the money wherever it takes 
us.
    Senator Bennett. Fine, thank you. Now, if I could just take 
advantage of your being here to raise another subject that's 
not directly connected with homeland security, but that I will 
connect, because I think it has considerable amount to do with 
our economy, and if the economy is not robust, we can't afford 
all of these appropriations that we are looking at. And that is 
a conversation about terrorism insurance.
    I assume the administration is still anxious to get the 
bill, essentially the one that was worked out between Senator 
Sarbanes, the chairman of the Banking Committee, and Senator 
Graham, the ranking member. Do you still feel that that is an 
essential congressional initiative that should go forward?
    Secretary O'Neill. Indeed, I do. The President had an event 
a few weeks ago to call attention to the need to pass this 
legislation. It's very difficult to round up a consequence of 
not having a terrorist risk insurance for commercial building 
activity, but we, of course, are now beginning to have 
anecdotal evidence of the individual projects and developments 
that have been stopped because the financial community will not 
give money to developers who don't have terrorist risk 
insurance if there's a heightened risk associated with a large-
scale project.
    I personally believe that if we don't put terrorist risk 
insurance in place, it could cost us 1 percent of our GDP 
growth because we're not going to get those big, signature 
projects. We're not going to get big developments if the 
financial community will not put the money into projects that 
have no ability to provide insurance and if there's no self-
insurance capability on the part of a developer.
    So I think it is clear we need to do this. We've needed to 
do it. The President called for it beginning last October. The 
House passed legislation. It is really important we get this 
done, Senator.
    Senator Bennett. Thank you. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. Thank 
you, Mr. Secretary, for being here. I wanted to follow up on 
Senator Dorgan's question on the border issues. As you know, in 
Washington State, cross-border travel is extremely important to 
the people of my State and the economy. In fact, Washington 
State has the second-highest unemployment in the Nation today. 
Part of that is the result of the slowdown on the border after 
September 11th. And Senator Dorgan has worked very hard in his 
appropriation to help up the number of agents and Customs 
officials, INS folks, at the border to expedite that.
    And as you mentioned, we have the challenge now of hiring a 
great number of people and getting them trained and, in the 
meantime, have--we have gratefully deployed the National Guard 
at the border, which we really appreciate as we get those 
people hired and trained.
    I have a real concern, because the National Guard soldiers 
deployed along our border are, under the agreement, not armed. 
We have been working really diligently to try to solve this, 
and it has not been solved to date. And as a result, the 
National Guard are--or the Border Patrols are actually having 
to protect the National Guard because they are not armed and 
are in a vulnerable position as they are being asked to do a 
number of tasks that we are requiring of them.
    Are you aware of this issue of arming the National Guard? 
And if so, can you tell me how we can get this resolved?
    Secretary O'Neill. Indeed, I am aware of this issue, and I 
think the real resolution to this problem is to get the 
National Guard out of the business. We need to hire up the 
people that are required. And, believe me, Secretary Rumsfeld 
feels strongly that he would like to. While he understands the 
need and feels a responsibility to fill this gap for a period 
of time, I think it's our responsibility and the responsibility 
of the Justice Department to hire the people who have the 
capability to work in a conventional way, and we're hard at 
work doing that. I don't know that there's another way to solve 
this problem.
    Senator Murray. Well, I think we all agree that we want the 
actual trained officials there, but it may take, I understand, 
more than 6 months, perhaps even 1 year, before those people 
are on line. So we're asking the National Guard to perform a 
function to help us with this, but not being armed is creating 
an even more difficult problem for the people who are already 
there. Is there----
    Senator Dorgan. Senator Murray, would you yield on that 
point?
    Senator Murray. I'd be happy to.
    Senator Dorgan. The Commissioner of the Customs Service 
testified last week on that subject and said that when they 
requested National Guard help last December, they recommended 
to the Department of Defense that certain of the National 
Guardsmen be armed for certain placements at the border. They 
renewed that request in meetings in March with the Department 
of Defense, and it is still the case that those National 
Guardsmen and women deployed along the border are not armed. 
But I might say that the Customs Service specifically requested 
that some of them stationed at the border be armed. The Defense 
Department made a different decision. But I agree with you. I 
think we ought not have them there in uniform, especially in 
certain locations, unless they have weapons to defend 
themselves.
    Senator Murray. Can you help us with this issue?
    Secretary O'Neill. Let me dig into this issue and have a 
conversation with Secretary Rumsfeld about this issue. So as 
far as I know, there have not been untoward events because of 
unarmed National Guard people. I understand the general 
concept, that you'd like to have everyone armed.
    Senator Murray. Well, I can tell you, I've been up on the 
border, and the lines are extremely long at our northern 
border. The day I was up there a few weeks ago, it was almost 2 
hours long. And what they like to do is deploy some of the 
agents up the line to start clearing people before they get to 
the final post. But you can't send a National Guard person up 
the line if they're unarmed, because you don't know what you're 
asking somebody to look into. So it is not helping us move 
those lines more expeditiously if we simply aren't providing 
the people who we are asking to do the job with the ability to 
do so. So it is----
    Secretary O'Neill. I will pursue it and get back to you.
    Senator Murray. I would really appreciate that.
    Secretary O'Neill. Yeah, there is a general problem, and I 
know this from spending time in Canada. They have, on their 
side of the border, where one might help to solve this problem, 
they have really strict rules that they enforce. When we go in 
there with Secret Service agents, they're not permitted to 
bring their weapons into the country. I don't know if you're 
aware of that, but----
    Senator Murray. Well, but on the border, there is a certain 
area where our--the cars sit in line, and the National Guard 
can go up the line a ways. They are not, because they aren't 
armed, but they can to try and pre-clear some of those cars. So 
it is a problem, but it's not on Canadian territory. It is on 
United States property.
    Let me ask you another question. The container ports of 
Puget Sound are really competing fiercely with Canada for 
business from Asia. As you know, it's our primary source of 
both exports and imports. Cargo that is diverted to Canada 
really costs thousands of jobs in our area. And again, we are 
second-highest in unemployment, so we are very vulnerable to 
this.
    The administration has a new Smart Border Accord with 
Canada that I'm sure you're familiar with, which is really 
intended to expedite the travel of cargo across the United 
States-Canadian border, but it actually could have the 
unintended consequence of improving Canada's competitiveness 
against the United States for foreign cargo.
    Can you assure me that containers that are coming into the 
United States and into Canada, and containers entering U.S. 
ports, will be subject to the exact same security requirements?
    Secretary O'Neill. I'd like to think that maybe we're going 
to do an even better job than what we see from there. But an 
important way to solve the container problem is to do what I 
said earlier, about what we've begun to do with creating 
security at the origin of filling containers. If you think 
about this problem conceptually, what we've got to do with all 
these containers that are coming into the country, is to make 
sure that at the point of origin we've got security and we've 
got, in effect, electronic bonding so that we don't have 
mountains of containers waiting to be inspected to come into 
the country. Because I'm sure you know, before September 11th, 
we were inspecting 2 percent of the containers.
    Senator Murray. Right. Mr. Secretary, I'm well aware of 
that, and, unfortunately, my time is up, but I do think we have 
to be very careful not to create a system where it's easier to 
get containers into Canada than it is to the United States and 
create an uncompetitive environment for our ports here in this 
country.
    Secretary O'Neill. I agree with that.
    Chairman Byrd. Mr. Secretary, you'd indicated that you 
would get back to Senator Murray with certain information?
    Secretary O'Neill. Yes, sir.
    Chairman Byrd. Would you include that information in your 
transcript to the committee----
    Secretary O'Neill. I certainly will.
    Chairman Byrd [continuing]. That it might have the record 
complete?
    Secretary O'Neill. I'll do that.
    Chairman Byrd. Thank you. Senator McConnell.
    Senator McConnell. Senator Byrd, I think Senator Gregg was 
here ahead of me.
    Chairman Byrd. Well, I called on Senator Gregg earlier, I 
believe, but----
    Senator McConnell. Oh.
    Chairman Byrd [continuing]. I'll call on him again. I 
didn't see you.
    Senator Gregg. Well, that's part of our surreptitious 
approach. I appreciate the Senator. It's hard to hear down 
here.
    Mr. Secretary----
    Chairman Byrd. I apologize.
    Senator Gregg [continuing]. I'm wondering, we held a 
hearing in this committee, which was a joint hearing, about 1 
year ago, and you were kind enough to testify. And prior to 
that hearing, we held something we called Operation TOPOFF, 
which was two exercises, one in Denver, Colorado, one in 
Portsmouth, New Hampshire, exercises involving potential 
biological or chemical attacks on the United States. The report 
from Operation TOPOFF has been maintained as a classified 
document, and, in fact, hasn't even been shared with agencies 
that might have benefitted from it, like FEMA. But one of the 
conclusions, as I understand, that is reasonable public 
knowledge is that there was confusion at the site of the event 
as to who was in charge in the Federal agencies.
    And we asked this question back 1 year ago, and I guess 
I'll ask it again. If ATF and the FBI are both on site at a 
crisis situation such as a chemical or a biological event, 
which Federal agency is in charge?
    Secretary O'Neill. Well, I think, Senator, it's 
circumstantial, and it depends what the exact fact base is and 
who senior agents are, and I don't think there's a hard and 
fast rule that says we're in charge all the time or they're in 
charge all the time.
    Senator Gregg. Well, I think that's one of our problems, 
that when we have a crisis situation, we are now a few months 
out from September 11th, over 1\1/2\ years out from the 
original exercises, over 1 year out from the last time we had 
this type of a hearing, and we still do not know who's in 
charge at a crisis.
    The protocol is fairly clear that the FBI is to be the 
agency in charge on the ground. But at Operation TOPOFF, ATF 
and FBI got into an argument as to who was in charge, and, as a 
result, neither agency functioned very well. And I still don't 
think that we have sorted out this very substantive and entry-
level issue as to how we deal with a crisis.
    In the area of reorganization, it has been--as you say, 
there's almost as many departments involved as there are 
agencies in the Federal Government.
    Secretary O'Neill. Right.
    Senator Gregg. Isn't it reasonable that we should take at 
least one area that is manageable because it's defined, which 
is who's coming across our borders and what's coming across our 
borders, enjoin those agencies that are involved in that issue, 
which would involve the Coast Guard, the INS, Customs, Bureau 
of Quarantine within Agriculture, maybe part of DEA, and put 
those agencies in one operating unit that would have line 
authority to a Cabinet level position, so that you would have 
focus and coherence in the area of our borders, specifically 
our borders?
    Now, this was a suggestion made by Mr. Ridge before he was 
captured by the bureaucracy. It was a suggestion made by the 
Rudman-Hart Commission on Terrorism. And I'm wondering how you 
react to it.
    Secretary O'Neill. Because it is a matter of public record, 
it is certainly one of the alternatives that we've looked at 
and talked with the President about. And it's clear there's a 
division of opinion about the utility of that kind of a change 
and the consequence that's associated with a loss of focus 
during a transition, and there's a question, as well, about the 
receptivity and the feeling of the different jurisdictions in 
the Congress about these kind of combinations. So, as I said 
earlier, it's not a finished issue yet. The President's still 
looking at it and taking counsel to make his own judgment, and 
he's not made a judgment yet.
    Senator Gregg. Do we have a timeframe for when we'll get to 
a conclusion on that?
    Secretary O'Neill. I guess I don't think that the 
President's drawn a line in the sand and said, ``I'm going to 
decide this by this date,'' and imposed an artificial limit on 
the conversation. There are a lot of things going on, and this 
is only one of the topics that is being considered on the 
subject of homeland security. And in some regards, I would say 
it's not as important as some of the other things that are 
getting concentrated attention at the moment.
    Senator Gregg. Thank you. I thank you, Mr. Chairman, and I 
thank you, Senator McConnell.
    Chairman Byrd. Thank you, Senator Gregg. You have 
introduced a line of questions that could well be pursued if we 
had time.
    Senator Landrieu.
    Senator Landrieu. Thank you very much, Mr. Chairman. 
Welcome, Mr. Secretary. Let me follow up on some of the sort of 
same lines as Senator Murray. I also represent a seaport State. 
The ports of Louisiana combined represent probably one of the 
largest port systems in the world, and we handle a lot of 
containers and also bulk cargo.
    And I know that you're putting a lot of emphasis on 
identifying containers that would be at risk, and you mentioned 
it briefly in your testimony, but could you give a little bit 
more detail on a number of things? Besides Canada, are there 
any other countries currently participating in the program to 
the same degree, the container security initiative? Has Customs 
developed guidelines for identifying high-risk containers? And 
if they have, could you just briefly describe what some of 
those characteristics might be?
    And, finally, when it comes to container security in that 
containers are received, of course, at our ports, but then they 
are quickly transported either by rail or by truck, what sort 
of coordinated efforts are underway to make sure that that 
container security, you know, happens through the whole 
process, from start to delivery point?
    Secretary O'Neill. You've asked a lot of questions that 
suggest a longish answer. And probably to give you a full 
answer, I should do it for the record.
    [The information follows:]

    Besides Canada, are there any other countries currently 
participating in the container security initiative to the same 
degree?
    Not to the same degree as Canada, because overseas it 
varies from port to port (e.g. ownership of the ports, relevant 
government agencies involved, the private sector, and legal/
regulatory issues). Customs has worked extensively with Canada 
and its next step is to pilot the Container Security Initiative 
(CSI) in one port in Europe and one port in Asia. Following the 
establishment of the initial pilots, Customs will work with the 
Treasury Department and OMB to incrementally deploy teams in 
the world's top 20 mega-ports as well as other strategic 
locations. These top 20 mega-ports are: Hong Kong, Shanghai, 
Signapore, Kaohsiung, Rotterdam, Pusan, Bremerhaven, Tokyo, 
Genoa, Yantain, Antwerp, Nagoya, LaHavre, Hamburg, La Spezia, 
Felixstowe, Algeciras, Kobe, Yokohama and Laem Chabang.
    Has Customs developed guidelines for identifying high-risk 
containers? If they have, could you just briefly describe what 
some of those characteristics might be?
    Customs is taking a proactive approach by screening sea 
containers before they reach the United States. The key goal of 
the Container Security Initiative is to identify potential 
high-risk shipments at the earliest point in a supply chain, 
thus helping to protect the global maritime trading system. 
Customs has proposed a four-part program designed to achieve 
the objective of a more secure maritime trade environment while 
accommodating the need for efficiency in global commerce. The 
program's pillars are: establishing security criteria to 
identify high-risk containers; pre-screening those containers 
before they arrive at U.S. ports; using technology to quickly 
pre-screen high-risk containers; and development and using 
smart and secure containers. Customs is using the Automated 
Targeting System to pre-screen sea containers and has deployed 
at both land and sea ports; 83 large scale Non-Intrusive 
Inspection devices that allow inspectors to quickly and 
thoroughly search large containers for weapons of mass 
destruction.
    When it comes to container security in that containers are 
received, of course, at our ports, but then they are quickly 
transported either by rail or by truck, what sort of 
coordinated efforts are underway to make sure that container 
security, you know, happens through the whole process, from 
start to delivery point?
    The Customs Service authority extends to the examination of 
cargo at both ends of the transport chain. It is the lead 
Federal law enforcement agency in the screening, examination 
and release of commercial conveyances, persons, and cargo 
entering the U.S. Customs targets, screens, examines, and 
processes cargo shipments entering the United States through 
our nation's seaports. Customs is a key Federal stakeholder in 
seaport security because it regulates the key entities 
(shippers, carriers, importers, brokers, etc.)

    Secretary O'Neill. But let me respond to the general 
questions that you've asked. Indeed, we're trying to use the 
same concepts that I talked about in some detail with regard to 
goods coming across the Canadian border. We're trying to expand 
these ideas generally, not only to truck traffic, but to 
container traffic. And by that, I mean the notion of electronic 
bonding at the point of origin so that once we have been 
assured that we've got a secure container, we don't have to 
constantly reinspect it.
    Now, indeed, there is a logical process that's derived from 
examination experience that suggests containers from certain 
places with certain characteristics ought to receive a more 
intense and extensive examination by Customs authorities than 
others. But I guess rather than tell you what those things are, 
I think maybe it would be useful for me to find out how much 
value there is in sharing that information, because I don't 
think we want to alert people to the thought process that we go 
through in trying to identify what we would call high-risk 
containers. So let me assure you that, indeed, I think our 
people are pursuing these issues in exactly the way you 
suggest, but it's not a very good idea for us to have a public 
conversation about how we----
    Senator Landrieu. Well, I appreciate that. That's why I 
asked for just general comments. But the reason I asked the 
question is, following up with Senator Murray, that if we're 
not careful to implement these policies, we could be putting 
some ports at a definite disadvantage than other ports, 
depending on where they're receiving their containers from, et 
cetera, so that sharing some of that information with Members 
of Congress who represent port cities and port States I think 
would be very appropriate. And perhaps this isn't the hearing, 
but just the sensitive nature of protecting our borders but 
also stimulating and enhancing commerce, and doing it in a way 
that is evenhanded and fair.
    Let me ask, though, could you comment, are there any other 
countries specifically, outside of Canada, that you could 
mention that are working with you to the same degree that 
Canada is, or working with us to the same degree right now?
    Secretary O'Neill. I'd say we're in somewhat of the same 
level of advanced work with the Mexican Government, because, 
again, there is so much personal traffic and truck traffic 
coming back and forth across the U.S. land borders. And, 
indeed, we're working with other countries, but I would say not 
at the same advanced level as we are with Canada and Mexico. 
It's certainly on our priority screens to do that, because, as 
you indicate, we have a huge flow of goods coming from around 
the world to the United States.
    Senator Landrieu. And it also suggests, while many of our 
goods, and the vast majority, are transported by container, 
there's still a tremendous amount of bulk cargo----
    Secretary O'Neill. Yes.
    Senator Landrieu [continuing]. That comes through many 
ports that could be vulnerable.
    My second question is really about the Customs trade 
partnership initiative, which sounds very innovative, a 
partnership working with businesses. Have we identified 
business leaders that you could give us just an example of, a 
particular industry, establishing best practices so that we 
could share those with other businesses? And do you have even a 
rough idea of how many businesses are currently participating 
since September 11th? I mean, do we have a couple of hundred, a 
couple of thousand, or is it just still in a sort of infancy 
stage, this particular program?
    Secretary O'Neill. Let me say we have many, and I'll give 
you a number for the record. I don't want to hazard a guess 
about how many. But as an example, using this illustration that 
I did before, in addition to Governor Engler from Michigan 
being present for this rollout of a new process under the 
Ambassador Bridge in Detroit a couple of weeks ago, Jack Smith, 
who's the chairman of General Motors, was there.
    And I would say, as a generalization, the automobile 
industry has been very responsive to working with us to accept 
a new way of doing business. And his comment to me, as we stood 
there together under the bridge and watched this amazing flow 
of traffic, was, ``You know, Paul, we should have applied this 
technology 20 years ago. It's been around a long time.'' In a 
way, it's unfortunate that we have to have this kind of an 
event to spur us into taking action that simultaneously makes a 
huge increase in the level of security we have and does such an 
astounding job of improving economic efficiency by just taking 
away encumbrances that need not have existed.
    And to the general point about containers, I think that 
needs to be our target, not that terrorists imposed new added 
costs on our society that set us back, but that we used the 
stimulus to improve things and think about them in a different 
way. So we don't add most cost. We've reduced the cost and 
improved security at the same time.
    And to this point, especially for people traffic, and as to 
Senator Murray's point, as well, the use of biometrics, the 
ability to look at and record a person's retina as a form of 
identification is a way that's been developed that's going to 
make a big difference in getting human beings across the border 
in a way that assures us that they're not terrorists or capable 
of terrorist activity, because we know who they are by a clear 
identification that's unmistakable.
    Senator Landrieu. Well, I think, in conclusion, the ideas 
are fantastic. The challenge is going to be in executing this 
in a very rapid and quick, uniform way that keeps all of our 
ports competitive.
    Thank you.
    Chairman Byrd. Thank you, Senator Landrieu. Senator 
McConnell.
    Senator McConnell. Mr. Secretary, just a couple of 
questions. Do you have regular contact with Governor Ridge?
    Secretary O'Neill. Yes, indeed, I do.
    Senator McConnell. Are members of your staff in regular 
contact with members of the Office of Homeland Security?
    Secretary O'Neill. Yes, sir, they are.
    Senator McConnell. What is the nature of the working 
relationship?
    Secretary O'Neill. Well, it may just be an accident of 
history, but in this case, I've known Governor Ridge a long 
time, because I was a resident of his State for 13 years. And, 
in fact, he asked me to chair the Pennsylvania State Education 
Standard Setting Committee, which I did for him for 5 years and 
created educational standards for the State of Pennsylvania. 
And when we had the occasions to dedicate a new building for 
the corporation that I ran, Governor Ridge came to help us 
commemorate that event. So I've known Governor Ridge in a 
professional way for a long time, when he was a Member of 
Congress and since he became Governor of the State of 
Pennsylvania. And so we have a very easy relationship and I see 
him on a regular basis.
    We talk to each other about things like the designation of 
sites for Secret Service protection. And as we were developing 
the protection for the Olympics and for the Super Bowl, we 
talked to each other about these things. We talk to each other 
about protectee security, and we talk to each other about these 
organizational questions or that were the subject of earlier 
questions. And so, yes, indeed, we see each other a lot and we 
talk to each other on a frequent basis.
    Senator McConnell. Has he ever suggested, in practice or in 
theory, that he has operational control over your budget or any 
budget in the Federal Government?
    Secretary O'Neill. Absolutely not.
    Senator McConnell. Has your relationship with the Office of 
Homeland Security been hampered because Governor Ridge does not 
testify before Congress?
    Secretary O'Neill. No, I can't think of a way in which 
that's made any difference at all.
    Senator McConnell. Finally, given the answers you've 
provided today, can you think of any information that this 
committee is not receiving--not receiving--with respect to your 
Department's involvement in homeland security?
    Secretary O'Neill. No, sir, I don't think so, but I was 
intrigued by the evidence of interest in knowing more about 
what we're doing. A few weeks ago, I had the occasion to be in 
Florida and Georgia. I myself went to the Jacksonville port to 
see what we were doing with looking at containers and looking 
at the special electronics capability that we have to deal with 
trucks that are moving in commerce. I think members of the 
committee might find it very interesting and instructive to see 
how this process works and what the level of capability is and 
to talk to the people who are doing this work.
    You know, again, I would say to you, one of the things 
that's really very interesting to me--not a surprise, as a 
former civil servant, but very interesting to me--is to see the 
level of dedication of people who are doing this work. You 
know, after September 11th, these people, without a single 
complaint that came to my attention, worked 16 and 18 hours a 
day to deal with bottlenecks that occurred because of a 
heightened level of security. These are really great, unsung 
heroes, I think. People who wear the uniform and go overseas 
get attention and notice for what they do. I think we have lots 
of unsung heroes in the Customs Service, for example, that date 
back to our founding in 1789, really quite a marvelous thing to 
lead an organization like this.
    Senator McConnell. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Chairman Byrd. Thank you, Senator.
    Mr. Secretary, there have been a lot of questions today 
about the inspection of containers. The administration, I'd 
point out for the record, did not recommend any supplemental 
funds to address this problem of inspecting these 6 million 
cargo containers passing through our ports. Now, you might, for 
the record, if you'd like, explain this lack of support for an 
aggressive approach to the problem of homeland security.
    Also, Mr. Secretary, you said that the way to solve the 
problem of using National Guardsmen at the border is to hire 
more Customs inspectors--I believe that's what you said--yet 
the President did not request any money in the supplemental 
last fall to hire more inspectors. There are 1,075 inspectors 
that are being hired that are being paid with the supplemental 
increase the Congress approved last fall. Please include a 
status report on the hiring of these inspectors, for the 
record.
    [The information follows:]

    Customs is making excellent progress in hiring against its 
fiscal year 2002 hiring plan. Customs has filled 57 percent of 
its positions and expects to meet all of its hiring objectives. 
Currently, Customs has 3,000 inspectors who are pending pre-
employment (medical, drug screening, and background 
investigation). These inspectors will fill the remaining 
positions for this year.

    Chairman Byrd. In your prepared statement, you make this 
assertion. ``The first border initiative I would like to 
describe was unveiled on April 16''--that was 2 weeks ago 
today--and I continue to read, ``When I joined Governor Ridge, 
Customs Commissioner Bonner, and Governor Engler at the 
Ambassador Bridge in Detroit to launch this Customs Trade 
Partnership Against Terrorism.'' Let me read that again. Let me 
read that acronym. How do you pronounce the acronym? C-TPAT?
    Secretary O'Neill. Senator, I don't know. I've never tried 
to pronounce it. As you might have noticed, I didn't use it in 
my oral statement.
    Chairman Byrd. You did use it. You did it. You really did 
use it. Well, I'll read it for you. ``The first border 
initiative I would like to describe was unveiled on April 16, 
when I joined Governor Ridge, Customs Commissioner Bonner, and 
Governor Engler at the Ambassador Bridge in Detroit to launch 
the Customs Trade Partnership Against Terrorism, referred to as 
C-TPAT''--capital C, hyphen, capitals TPAT. Were you aware that 
you used that in your statement?
    Secretary O'Neill. Senator, in the oral statement, I did 
not.
    Chairman Byrd. No, I know you didn't in the oral statement, 
but I included your prepared statement in the record as though 
read.
    Secretary O'Neill. All right.
    Chairman Byrd. I continue with your statement, Mr. 
Secretary. ``Under this program, C-TPAT businesses commit to 
pursuing the very best practices in supply-chain security. They 
work with the Customs Service and with their own suppliers to 
design and implement secure procedures. In exchange, Customs 
assures them of much faster and, thus, less costly import 
processing.''
    Now, as I understand what you have said here, this is a 
voluntary effort. Is that correct?
    Secretary O'Neill. Yes, sir.
    Chairman Byrd. On the part of business people?
    Secretary O'Neill. Yes, sir.
    Chairman Byrd. Well, I ask this question. Is this the way 
that the administration ought to be proceeding? In providing 
security to the American people and to their homeland, have a 
group of business people working on a voluntary basis? It seems 
to me that this ought to be something much different from a 
voluntary effort carried on by business people. What can the 
American people expect by way of this effort?
    I had never heard of this before. ``This the first border 
initiative,'' you say, and it was unveiled on April 16. Now, 
tell us more about this voluntary business effort that's going 
to help to secure our border in the processing of imports. 
Could you please tell us that?
    Secretary O'Neill. All right, Senator. As you know, the 
last 25 years I spent in the private sector, and I would submit 
to you that this is a really ingenious way to engage the 
private sector in a way that is economically meaningful to them 
in stunning proportions, because what it means is they can 
reduce, by 5 percent or more, perhaps, the goods in transit at 
any one time, because in modern manufacturing, Mr. Chairman, 
this is a continuous process.
    People who do well economically in the world now don't do 
batch processing. In fact, they don't make any goods for 
inventory. They make goods for firm orders. And what it means 
for high-volume institutions, like the ones that we're asking 
to, in quotes, ``volunteer,'' is they can take billions of 
dollars out of their inventory channel by using this different 
concept of how to do business.
    And I'm sure that if you would like to hear direct 
testimony from Chairman Jack Smith at General Motors or from 
Bill Ford at the Ford Motor Company, they would come and they 
would give you detailed numbers on the economic value of their 
doing business with us in this different way while making a 
contribution to the society that they're part of. I think these 
are real patriots. And so they see their contribution to 
improving security as something that they can do that 
simultaneously creates economic value for them and, I might 
say, ultimately for their customers, because it will result in 
the price of their products going down because it will cost 
them less to do their work.
    Chairman Byrd. Mr. Secretary, I am sure they would be glad 
to come. I wish that Mr. Ridge, Director Ridge, would come. I 
feel a little uneasy about the security of the American people 
and about the security of the homeland, not that I have any 
doubts about the patriotism of these fine business people. And 
I think it's useful to have their participation. But it seems 
to me that to entrust a voluntary effort here and place it in 
the hands of just businessmen, and we're talking about import 
processing, we're talking about matters that affect the Customs 
Service, we're talking about the security of the American 
people, the safety of the lives of everybody in this room. And 
yet here we're launching out here with what you describe as the 
first border initiative.
    This is a border initiative, and it's going to be 
voluntary, and it's going to be conducted by business people. 
They're as patriotic as anybody else, but I'll tell you, Mr. 
Secretary, if this is the way that we're going to look at the 
security needs of the American people, I'm afraid they're not 
going to sleep well at night. I'm not, for one. It's all right, 
very well and good to have all these people participating. I'm 
all for that. But we should--we see nothing in the President's 
budget request, for example, no supplemental funds to address 
the problem of inspecting cargo, 6 million cargo containers, 
for example. And most of the supplemental will be used to hire 
1,075 new inspectors that will continue to be employed in 
fiscal year 2003. So it seems to me that the security of the 
American people should not hinge on a business bottom line.
    Mr. Secretary, I thank you for your appearance. I'll give 
you a chance to respond. I'm not going to cut you off, if you 
care to say anything at this point.
    Secretary O'Neill. Well, Senator, the notion of--in the 
sense that you've used is, the term ``voluntary,'' I guess I 
can understand why you're concerned. Believe me, when we use 
the term ``voluntary'' here, it doesn't mean they get to decide 
whether or not they're going to do the security work. It means 
we're not using the Federal bludgeon to tell them, ``You will 
do this whether you like it or not.'' We're trying to use the 
underlying economic value that's available to the American 
people to simultaneously improve security and do something 
that's good for the economic vitality of the United States 
rather than cave into the terrorists and hire, I don't know, I 
guess one can imagine any number you want, we could hire 1 
million people and string them along the border holding hands, 
and I think it would not be----
    Chairman Byrd. You can't hire 1 million people if the 
President doesn't make some requests of the Congress.
    Secretary O'Neill. Well, Mr. Chairman, respectfully, I 
don't think more people is the answer to this question. I think 
the deployment of technology and the use of concepts will 
better secure the American people's safety than hiring 1 
million people could possibly do.
    Chairman Byrd. Well, you're--excuse me--you're the one that 
talked about 1 million people.
    Secretary O'Neill. I understand, and I used it very 
purposefully, because if you look at the 4,000-mile border that 
we have between ourselves and Canada and the very long border 
that we have between ourselves and Mexico, if you really wanted 
to secure, in the sense of having eyeballs looking 24 hours a 
day at every yard of geography between ourselves and our land 
neighbors, it would take 1 million people, I suppose, maybe 
more.
    Chairman Byrd. Could you get 1 million volunteers from the 
business community to do that?
    Secretary O'Neill. I don't think so, but I think--I think, 
Senator, that perhaps it would be useful for the GAO to have an 
opinion, an independent authority, about what way is most 
likely to enhance security. My own view is what we're doing is 
the best possible thing that could be done, not to take a risk 
with security, but to seek, at the same time, to improve the 
economic circumstance of the American people, because, in 
truth, it is our economic vitality that is our greatest 
security.
    Chairman Byrd. Well, I think you make an excellent point 
there. You make an excellent point. But at the same time, it 
seems to me that--I'm a little puzzled by these two initiatives 
you described briefly in your written statement, the one in 
which you met with Governor Ridge--and we'd like to meet with 
him also. Perhaps you could help to persuade him to come. I 
believe he would come, as a matter of fact, if the President 
would let him come.
    You met with Governor Ridge, Customs Commissioner Bonner, 
Governor Engler at the Ambassador Bridge in Detroit to launch 
this Customs Trade Partnership Against Terrorism. Well, I guess 
I'll let it go at that. I'm afraid we can't rest the national 
security, however, on a volunteer effort. And hopefully it will 
go beyond that.
    Thank you very much for your appearance.
    Secretary O'Neill. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. The USA Patriot Act of 2001 significantly increased the 
money laundering investigation responsibilities of the Department of 
the Treasury.
    Was sufficient funding included in the fiscal year 2003 budget 
request to allow the Financial Crimes Enforcement Network and other 
Departmental Office entities to fulfill these responsibilities?
    Answer. The amount that would be required in a future budget 
submission is under programmatic review by the Treasury Department. Any 
additional resource requirements that the Treasury Department 
determines may be needed will be fully considered in coordination with 
OMB.
    Question. The USA Patriot Act of 2001 also authorizes 
appropriations to triple the number of Customs Service personnel and 
enhance support facilities at points of entry along the Northern 
Border.
    Is the funding requested in fiscal year 2003 sufficient to reach 
that goal?
    Answer. The fiscal year 2003 President's Budget Request does not 
reflect tripling the number of Customs personnel on the Northern Border 
as authorized by the Patriot Act of 2001.
    Question. If not, how much more is needed?
    Answer. The amount that would be required in a future budget 
submission is under programmatic review by the Treasury Department and 
OMB. Any additional resource requirements that the Treasury Department 
determines may be needed will be fully considered in coordination with 
OMB. Any enhancements to support facilities will be made in 
consultation with GSA and in coordination with other federal agencies 
that may share space in those operations.
    Question. Finally, the USA Patriot Act of 2001 requires the 
Director of the Secret Service to develop a national network of 
electronic crime task forces throughout the country to prevent, detect, 
and investigate electronic crimes.
    What funding, if any, was included in the fiscal year 2003 budget 
for this new and important responsibility?
    Answer. The Secret Service plans to spend $21.8 million in fiscal 
year 2003 to fully implement what was authorized in the USA Patriot 
Act. Of this total, $17.2 million will be used to develop a national 
network of electronic crimes task forces.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
               border technology and commercial concerns
    Question. I understand that the President's Budget requests $312.9 
million for the U.S. Customs Service to continue the development of a 
much needed computer automation system, the Automated Commercial 
Environment (ACE). Allowing Customs to replace the current Automated 
Commercial System (ACS) with ACE will meet important security needs and 
also provide for increased efficiency in processing merchandise at U.S. 
borders.
    What other technological initiatives and programs, including those 
for pre-enrollment and pre-clearance, is Customs currently developing 
or implementing to facilitate the flow of cross-border commerce?
    Answer. U.S. Customs is in the process of expanding its layered 
enforcement approach to container security. Recognizing that trade is 
vital to the world and U.S. economies, Customs has proposed a four-part 
program designed to achieve the objective of a more secure maritime 
trade environment while accommodating the need for efficiency in global 
commerce. The program's pillars are: establishing security criteria to 
identify high-risk containers; pre-screening those containers before 
they arrive at U.S. ports; using technology to quickly pre-screen high-
risk containers; and developing and using smart and secure containers.
    U.S. Customs inspectors have recently been deployed to Canada in 
the port cities of Vancouver, Montreal and Halifax, and Canadian 
inspectors have been deployed to the U.S. port cities of Newark and 
Seattle/Tacoma. A state-of-the-art-targeting tool, the Automated 
Targeting System (ATS), has been provided to these targeting teams to 
pre-screen sea containers arriving in Canada that are destined to the 
United States and vice versa. In addition, Canada has begun procuring 
advanced inspection equipment such as the Vehicle and Cargo Inspection 
System (VACIS) to assist in its inspection process. The U.S. ports 
mentioned above currently have this equipment and are utilizing it to 
inspect both U.S. and Canadian bound sea containers.
    At the same time, Customs is strengthening our port of entry 
inspection capabilities. Deployed at both land and sea ports, Customs 
has 83 large scale Non-Intrusive Inspection devices that allow 
inspectors to quickly and thoroughly search large containers for 
weapons of mass destruction. Those systems include 26 Vehicle and Cargo 
Inspection Systems (VACIS), 23 Mobile VACIS Systems, 20 Mobile Truck X-
ray Systems, 9 Truck X-ray Systems, 2 Mobile Sea Container Systems, 2 
Rail VACIS Systems and 1 Pallet Gamma-ray System. The 2002 Terrorism 
Supplemental provided Customs with funding for an additional 16 Mobile 
VACIS systems, 64 Handheld Acoustic Inspection Systems, 172 Portal 
Radiation Detectors, 8 Tool Trucks and 128 Isotope Identifiers for 
deployment along the Northern Border. Customs will also deploy 20 
Mobile VACIS systems, provide 4 VACIS upgrades, and supply 10 Tool 
Trucks to enhance security at our seaports. Other technology that 
Customs is exploring includes a crane-mounted radiation detection 
system to detect radiological material in containers. This system would 
be used in conjunction with the 4,000 handheld radiation pagers already 
in use. Customs is also pursuing the development of electronic seals 
that would alert officials to cargo tampering while in transit.
    Customs has moved beyond the border with its launch of the Customs-
Trade Partnership Against Terrorism (C-TPAT) program, a joint 
government-business initiative to build cooperative relationships that 
strengthen overall supply chain and border security. Through this 
initiative, Customs is asking businesses to ensure the integrity of 
their security practices and communicate their security guidelines to 
their business partners within the supply chain. C-TPAT recognizes that 
Customs can provide the highest level of security only through close 
cooperation with the ultimate owners of the supply chain-importers, 
carriers, brokers, warehouse operators, and manufacturers.
    U.S. Customs and Canadian Customs have partnered with one another 
to ensure the security of their shared border without unnecessarily 
impeding the daily flow of the $1.3 billion of transborder trade. The 
Free and Secure Trade (FAST) program will help speed the clearance of 
low risk merchandise across the Canada/U.S. border through the 
registration of commercial drivers, importers and carriers who have 
agreed to participate in C-TPAT and its Canadian counterpart, Partners 
in Protection (PIP). While the actual clearance process of each 
transaction may vary between countries, Canada and the United States 
will harmonize to the greatest extent possible technology and 
participant qualifications. This will provide greater benefits for 
trade, increase supply chain security and promote better information 
sharing in the future.
    Customs is currently exploring the expansion of the technology 
underlying the National Customs Automation Program (NCAP) program for 
use as part of C-TPAT and FAST. This program uses pre-arrival 
transmissions of data sent through transponders to expedite the actual 
clearance. NCAP is currently operating in Detroit, Michigan; Port 
Huron, Michigan; and Laredo, Texas. Customs is planning to expand this 
technology to other ports and to increase the use of transponders.
    To reduce congestion of non-commercial traffic at the land borders, 
Customs is expanding and developing commuter registration programs. The 
United States and Canada have worked jointly on the NEXUS project to 
streamline border crossings for low-risk travelers so that low-risk 
United States and Canadian residents can travel across the border with 
minimal customs or immigration processing by either country. NEXUS 
applicants are screened by both United States and Canadian Customs 
services. Approved participants are then issued photo-identification 
cards and electronic devices that enable them to use dedicated NEXUS 
lanes for expedited border crossing. The fiscal year 2003 budget 
provides almost $6 million to expand a NEXUS-like program to high-
volume ports of entry along the Northern Border. Similar to the growth 
of C-TPAT and FAST, the expansion of NEXUS and other similar programs, 
like SENTRI along the Southwest Border, will improve security by 
identifying low-risk travelers and allowing Customs to focus its 
targeting and inspection resources on people about whom it knows 
relatively little.
    Question. What types of technology, personnel, and infrastructure 
improvements does Customs identify as critical for the success of 
initiatives of this kind?
    Answer. As a result of September 11, 2001, Customs has received 
additional funding to expand deployment of NII technology to the 
Northern Border and to high-threat, high volume seaports. Fiscal year 
2002 appropriated funds and fiscal year 2002 emergency supplemental 
funds will go towards doing just that. However, fiscal year 2003 
funding for further deployments of NII and other new technologies 
remains essential. For instance, for fiscal year 2003, Customs has 
requested funding to purchase and deploy 4 additional Rail VACIS 
systems to the Northern Border.
    In addition to the large-scale NII systems, Customs is deploying a 
number of other new technologies such as Personal Radiation Detectors, 
Isotope Identifiers, Portal Radiation Detectors and Customs Handheld 
Acoustic Inspection System (CHAIS.)
    Personnel and equipment needs for implementing Customs Container 
Security Initiative (CSI) will vary from port to port, but we should 
consider the basics for every port--an OIT/ATS component, 4-6 
personnel, and possibly radiation and NII equipment.
    These technology purchases are important steps in securing our 
borders, but the deployment of new equipment is not necessarily 
sufficient to achieve our goals. In addition, we need the well-trained 
personnel to operate that technology. We have received funding in the 
2002 budget and the 2002 Supplemental to provide for some of the needed 
staffing and training, and the 2003 budget also requests funds to 
address this need.
    With support from the Administration and Congress, much-needed 
steps can be taken in the short and near-term that will greatly 
increase the ability of Customs and other appropriate Federal agencies 
to improve targeting and inspection efforts, thereby enhancing national 
security.
    NII equipment in a centralized location and mobile and relocatable 
NII systems on dockside, in container yards, and at other locations in 
seaport environments is vital to our work. NII technology supports 
Customs' overall plan to field at each of the nation's ports of entry 
detection systems that focus specifically on enhancing our capabilities 
to identify contraband concealed deeply within commercial cargo. 
Advance passenger information and advance cargo manifest information in 
electronic form from commercial vessels is essential for Customs' 
targeting efforts, which allow Customs to focus its resources on 
monitoring high risk commerce, vehicles and people.
    The U.S. Customs Service is committed to participating in the 
expansion and implementation of Dedicated Commuter Lanes (DCLs) along 
both the United States/Canada and United States/Mexico border. These 
DCL lanes will facilitate the expansion of NEXUS and SENTRI, which 
allow Customs to facilitate low-risk travelers in a timely manner while 
allowing other resources to focus on the targeting of high-risk 
travelers and conveyances. The expansion of DCL lanes along our borders 
requires Customs to install technology and staff additional primary 
inspection lanes as well as enrollment centers. This expansion also 
requires the construction or modification of enrollment centers along 
with the installation of internal equipment as necessary.
    Customs foresees increased use of transponders and electronic seals 
in the C-TPAT and FAST programs, which will require that Customs has in 
place systems to receive the information from those devices. Continued 
development of ACE is essential to the success of C-TPAT and FAST 
because it will enable Customs to provide additional benefits to the 
trade community. Dedicated lanes will also be needed to process these 
shipments so that goods moving on electronic data alone are not kept 
waiting by trade members who continue to use the older paper system. 
Additionally, there is significant need for improvement in 
infrastructure by state/local governments or private industry at many 
bridge crossings.
                         border infrastructure
    Question. The U.S. Customs Service is an agency of critical 
importance to New Mexico as it provides resources to police the United 
States' border with Mexico and facilitates cross-border trade. Because 
of the dramatic increase in trade and traffic between the United States 
and Mexico over the past several years, these resources have been 
strained.
    The ``Ports of Entry Infrastructure Assessment Study,'' submitted 
in January 2001 in response to my language in the fiscal year 2000 
Treasury and General Government Appropriations Bill, outlined the 
significant needs at border stations along both the southwestern and 
northern borders. This report cited the need for $459 million in 
infrastructure improvements along the southwestern border and $146 
million in infrastructure improvements along the northern border.
    The tragic event of the terrorist attacks on September 11th and the 
resulting increase in security have again highlighted critical 
infrastructure needs at ports of entry on both borders, including the 
Santa Teresa and Columbus ports of entry in New Mexico.
    What is Customs assessment of how infrastructure needs have changed 
since the ``Ports of Entry Infrastructure Assessment Study'' was 
submitted in January 2001, particularly in light of post-September 11 
security concerns?
    Answer. Since September 11, 2001, our mission has been to implement 
new programs and initiatives to combat terrorism and prevent the 
implements of terrorism from entering the United States. At the same 
time, U.S. Customs must provide this security while expediting the flow 
of trade. Because most of the border facilities along the northern 
border were built in the 1930's, it comes as no surprise that many of 
the facilities require updating.
    In 2001, Customs worked with GSA and the other Federal Inspection 
Service (FIS) Agencies to prioritize its infrastructure needs. The 
study identified 858 projects at a cost of over $834 million. Clearly, 
many of the infrastructure needs identified in this study need to be 
addressed and are necessary to support Customs anti-terrorism 
initiatives. However, Customs is still prioritizing those needs.
    Since September 11, 2001, Customs has undertaken efforts to harden 
our Ports of Entry to further help prevent illegal entry by persons or 
vehicles by providing additional security along our northern border 
through use of new technology. Barriers, obstacles and lighting along 
with a monitoring video security surveillance system are being 
installed to improve the security infrastructure at all ports along the 
border with Canada. Discussions are underway to expand this program to 
include the border with Mexico.
    Additionally, international cooperation efforts undertaken since 
September 11, 2001, such as the Smart Border agreements along both U.S. 
borders emphasize improvements to security while facilitating travel 
and trade. Most of the initiatives underway will in one way or another 
have an impact on the land border infrastructure. Customs is working to 
address its infrastructure needs so that it can implement its increased 
security initiatives while maintaining a continuous flow of commerce 
across our borders. Both the Northern and Southern Borders need 
improvements and expansions of facilities to support anti-terrorism 
programs such as C-TPAT, FAST and NEXUS and to effectively use 
targeting systems and NIIs. Additionally, recent hirings and new 
technology are putting an additional burden on the land border 
facilities.
    Question. What are Customs plans for prioritizing and implementing 
the infrastructure needs identified in this report and since the events 
of September 11?
    Answer. The 2001 Customs' study identified an immediate need for 
$287 million to replace an aging infrastructure by building or 
expanding holding and detention cells, inspection areas, canine 
facilities and employee housing for those serving in remote areas. 
During the last two post-September 11 budget initiatives, Customs has 
moved its security related infrastructure needs to the forefront, for 
instance by requesting immediate funds for lighting, gates and 
bollards. Customs will continue this practice of addressing first those 
needs that are critical to advance Custom's anti-terrorism efforts. 
However, many of the previously identified infrastructure needs have an 
impact on security as well. For instance, employee housing remains an 
issue for those stationed at remote ports of entry where commercial 
housing is not readily available. Customs is continuing to consider how 
the various initiatives prompted by the attacks of September 11, 2001, 
such as the United States/Canada Smart Border Declaration, the INS 
Entry/Exit Program and the GSA Repair and Alteration Program will 
impact the infrastructure needs of the land border facilities.
            federal law enforcement training center (fletc)
    Question. Secretary O'Neill, you highlight the role of the Federal 
Law Enforcement Training Center--FLETC--in its role to train law 
enforcement personnel. FLETC in Artesia, New Mexico, has been tapped to 
train federal air marshals in the wake of the September 11th terrorist 
attacks. Yet, the fiscal year 2003 budget includes no new facility 
construction for FLETC in Artesia, or for Glynco, Georgia.
    Why has the Administration halted all construction of new 
facilities for FLETC when the prospects are clearly for additional 
training requirements?
    Answer. Construction of new facilities for FLETC has not been 
halted; there are numerous new facilities currently being constructed. 
The fiscal year 2003 budget does not seek new construction funds, 
pending a new facilities master plan. A new facilities construction 
plan is now needed to address the long-term, post-September 11th, 
build-up in law enforcement training. FLETC has contracted with a 
private firm experienced in facilities planning to conduct a study that 
will include all of FLETC's training centers, including Artesia, 
Glynco, and FLETC's newest site in Cheltenham, MD. When the study is 
completed the Administration will formulate a funding request through 
the normal budget cycle.
    Question. Will you please provide the Committee with its latest 
five-year master plan for FLETC construction? What new FLETC facilities 
were scheduled for fiscal year 2003 under the existing plan?
    Answer. A new facilities construction plan is now needed to address 
the long-term, post-September 11th, build-up in law enforcement 
training. FLETC has contracted with a private firm experienced in 
facilities planning to conduct a study that will include all of FLETC's 
training centers, including Artesia, Glynco, and FLETC's newest site in 
Cheltenham, MD.
    Question. Is the Department updating the five-year master plan for 
FLETC facilities in view of the changed situation following the 
September 11th attacks? If so, when will that process be completed?
    Answer. Yes. Following the terrorist incidents of September 11, 
2001, FLETC sites are being used to their limits. A six-day workweek 
has been initiated and training workload requirements have been 
realigned to meet an unprecedented increase in training for Federal 
agencies. Artesia is being used to address Federal Air Marshal needs 
and Charleston will be needed for the increases expected in U.S. Border 
Patrol training.
    A new facilities plan is now needed to address the long-term, post-
September 11th buildup in law enforcement training. FLETC has 
contracted with a private firm experienced in facilities planning to 
conduct a study that will include Artesia, Glynco and FLETC's newest 
site in Cheltenham, MD. The study is now underway.
    Question. With the increased focus on security and the addition of 
new federal law enforcement personnel to respond to homeland security 
requirements, how is the Department ensuring that FLETC maintains its 
central mission as the provider of coordinated federal law enforcement 
training? I would expect this to be more important now as the federal 
government prepares to respond to potential terrorist attacks.
    Answer. All the training requirements of FLETC's partner 
organizations are important. FLETC is working with its Partner Agencies 
in an effort to accommodate all of their training requirements. FLETC 
had scheduled all of the requested training by implementing a six-day 
workweek. They are going to an extended workday to also meet the 
training requirements of the Transportation Security Administration 
(TSA). FLETC maintains contact with other Federal Agencies, and state 
and local police academies, to identify unused capacity that could be 
used on a short-term basis if the need arises. Scheduling priority 
policy in effect for nearly two decades provides that all entry level 
(new hires) training and agency specific entry level training be 
scheduled first. Thereafter, FLETC and agency advanced programs are 
scheduled, followed by state, local and international training. FLETC 
has not at this time had to cancel or deny any requests for training 
from its Partner Agencies.

    Chairman Byrd. Secretary Powell. Let us have a brief recess 
of 2 minutes so that people may leave the room and enter the 
room.
    Secretary Powell, we thank you for your appearance. We know 
how busy you are. We read the newspapers, also, and I want to 
thank you for your great services to your country and for 
always your courtesy in responding to invitations to appear 
before the Senate committees.
    The State Department has a number of anti-terrorism 
requirements at its Embassies abroad that are necessary to 
protect the lives of U.S. citizens working at those Embassies. 
The fiscal year 2002 supplemental appropriations request before 
us today includes $1.6 billion for State Department activities. 
Most of the budget request, nearly $1.3 billion, is the foreign 
assistance to aid our Nation's war on terrorism. So although 
your portfolio is focused beyond our shores, your agency and 
the men and the women who work for the State Department are 
truly on the front lines of our war on terrorism. We appreciate 
their work. We appreciate your dedication and your leadership. 
And we look forward to hearing your testimony today.
    I will ask the ranking member, Senator Stevens, if he has 
anything he wishes to say at this point, after which I will 
turn to the chairman of the appropriations subcommittee which 
has immediate jurisdiction over your Department. Senator 
Stevens.
    Senator Stevens. I'll wait and yield to Senator Gregg, 
who's chairman--ranking member of the subcommittee.
    Chairman Byrd. Very well. I'll call on Senator Leahy and 
then Senator Gregg.
    Senator Gregg. It's actually Senator McConnell.
    Senator Leahy. Thank you, Mr. Chairman. Secretary Powell, 
thank you for being here today. You testified before the 
Foreign Operations Subcommittee last week, so I'll try to be 
brief. In fact, I notice in your statement, which I was reading 
earlier, you've made nine budget appearances in 3 months. 
That's been helpful. You bring a wealth of experience and a 
much-needed voice of reason. I'm going to do everything I can 
to give you the support that you need.
    My initial reaction to the Foreign Ops portion of the 
emergency supplemental request is that much of it looks 
reasonable. Most of these funds would respond to needs that 
were not anticipated prior to September 11th, so they fall into 
the actual category of an emergency.
    But in some areas, such as reconstruction in Afghanistan, I 
think the request falls short of what's needed. I'm also very 
concerned about the increasing instability there, and the 
problems this poses for our humanitarian relief efforts. 
There's been a lot of speculation in the press about us getting 
involved in other parts of the world. I want to make sure that 
we don't leave the job half finished in Afghanistan and have it 
fall back into the kind of chaos and brutality that we saw 
under the Taliban.
    There are some other areas where the State Department 
hasn't provided sufficient justification for the funds 
requested or how they'd be monitored. Secretary Powell, I want 
to support you, I will support you, but I will not support a 
blank check. I would not do that for any administration. 
Portions of the supplemental request seek to give aid with 
virtually no strings attached to some very authoritarian, 
corrupt governments. I don't think that squares with what the 
President said recently about having a policy to condition 
assistance to foreign governments on their performance so the 
aid is not wasted.
    I'm glad to see the administration's increased involvement 
in the Middle East. I don't envy the difficulty of your 
mission, and I still have in my mind the description of one of 
the meetings that you told me about. But I think that we would 
not see the measure of progress that has occurred had you not 
been there.
    However, there's bitterness and a desire for vengeance that 
could reignite at any time. I hope that you will continue to be 
involved, because much of what you want to achieve with the 
supplemental request will depend on stopping the violence in 
the Middle East.
    Finally, I want to reiterate the need to put conditions on 
the assistance in the supplemental that say to countries you 
have to make progress toward political pluralism, good 
governance, and human rights, before you get this aid. I don't 
want it to be back like during the cold war, when anybody could 
come in and say, ``I'm anticommunist, so give me money,'' or to 
have them come in now and say, ``I'm antidrug, give me money,'' 
or, ``I'm anti-terrorist, give me money.'' Countries should be 
antidrug, they should be antiterrorist.
    But I also want to make sure if our money is going there 
that it actually moves forward the goals that you and I share, 
Mr. Secretary.
    Thank you, Mr. Chairman.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    Secretary Powell, thank you for being here today. You 
testified before the Foreign Operations Subcommittee last week, 
so I will be brief. I do want to reiterate that you have 
brought a wealth of experience and a much needed voice of 
reason to this Administration, and I will do everything I can 
to give you the support you need.
    My initial reaction to the Foreign Operations part of the 
emergency supplemental request is that much of it looks 
reasonable. Most of these funds would respond to needs which 
were not anticipated prior to September 11th.
    However, in some areas--such as reconstruction in 
Afghanistan--the request falls short of what is needed. I am 
also very concerned about the increasing instability there, and 
the problems this poses for our humanitarian relief efforts.
    In other areas, the State Department has been unable to 
provide sufficient justification for funds requested, how they 
would be monitored, or what you expect to achieve.
    As I mentioned last week, I am also not enthusiastic about 
the blank check the Administration is seeking. You propose to 
give aid, with virtually no strings attached, to some 
authoritarian, corrupt governments.
    This does not square with the President's recent 
announcement of a policy to condition aid to foreign 
governments on their performance, so the aid is not wasted.
    Finally, I am glad to see that the Administration's 
increased involvement in the Middle East has produced a measure 
of progress. However, the bitterness and desire for vengeance 
could reignite the violence at any time.
    If there ever were a time for the White House to show some 
real boldness in the Middle East, it is now. It is sorely 
needed, because much of what you hope to achieve with hundreds 
of millions of dollars you are requesting in this supplemental 
depends on solving the Palestinian-Israeli conflict.

    Chairman Byrd. Mr. Secretary, you have a statement. Would 
you like to make that statement now? I was trying to 
accommodate Senator Leahy, who is trying to shuttle back and 
forth between his Judiciary Committee and this one.
    Senator Leahy. And I do appreciate that.
    Chairman Byrd. Okay. Mr. Secretary.
STATEMENT OF COLIN POWELL, SECRETARY OF STATE, 
            DEPARTMENT OF STATE
    Secretary Powell. Thank you, Mr. Chairman. I do have a 
statement, which I would like to offer for the record, and I 
would like to give a somewhat shortened version of it, with 
your permission.
    Chairman Byrd. Your statement will appear in the record as 
though read in its entirely, Mr. Secretary. You may please 
proceed.
    Secretary Powell. Thank you, Mr. Chairman. Let me begin by 
thanking you for your kind words about the men and women of the 
State Department and the great job they're doing on the front 
line of offense in our national security efforts around the 
world. These are people who take risks. They take casualties. 
They are often killed, regrettably, in the line of duty. They 
are as brave and courageous as any group of men and women 
serving in uniform. Their families are put at risk. That has 
increasingly been the case in recent months. I know that you, 
the members of this committee, and all Americans are as proud 
of their service and sacrifice as I am.
    We could not be served by a more dedicated group of 
professionals as we are by the men and women of our Foreign 
Service, our Civil Service, our technicians, and our Foreign 
Service Nationals. These wonderful citizens, working at the 
places where our missions are located, stay with us in times of 
crisis when, for them, it is a matter of personal danger. The 
very fact that they're working for the United States 
Government. So, I thank you for your statement, and I thank you 
for the support that you and the members of this committee have 
provided to them over the years and since I have been 
Secretary. Senator Leahy, I thank you for your opening 
comments, as well.
    I might mention that the President and I and all the 
members of our team will remain engaged in our Middle East 
efforts. We've made a little bit of progress over the weekend. 
I hope that in the next day or so, we will complete the 
arrangement to transfer those prisoners out of the Macaddah and 
give Chairman Arafat the opportunity to move about and do what 
we think he needs to. What I believe he knows he needs to do in 
order to keep this process moving forward. You can be assured 
that we will be looking for a political solution and will be 
anxious to jump start efforts toward a political solution to 
this crisis, as well as concentrating on the humanitarian 
reconstruction efforts that'll be necessary to bring hope to 
the Palestinian people.
    I also share with you, Senator Leahy, your requirement, 
your commitment, and your charge to us to make sure that people 
getting the taxpayer's dollars in the form of foreign 
assistance are people who are dedicated to the right values, 
the values that our taxpayers hold dearly. The President's new 
effort, the Millennium Challenge Fund, will do just that. The 
money will only go to those nations that are committed to 
democracy, economic reform, transparency and assistance, 
absence of corruption, and the rule of law, which are all the 
things that we hold dear and which we believe are essential 
ingredients to a successful society in the 21st century. But, 
those values should not only apply to the New Millennium 
Challenge Fund but to all of our aid programs, as well.
    I thank you for the support, Mr. Chairman, and I am pleased 
to have this opportunity to appear before you to testify in 
support of President Bush's fiscal year 2003 budget request for 
the State Department and his fiscal year 2002 supplemental 
request, as these two requests pertain to the mission of 
homeland security. As you specifically asked for, Mr. Chairman, 
I will give you an overview on the entire fiscal year 2002 
supplemental request for the Department of State and Foreign 
Operations.
    As Senator Leahy noted, this is my ninth budget hearing in 
3 months, so I'm averaging three per month. From that record, 
Mr. Chairman, I think you can readily see that I believe these 
exchanges are important. I do not have any reluctance about 
coming up before the people's representatives to let you know 
what kind of a steward I am trying to be with the resources 
that the American people have entrusted to my care and to your 
care. I welcome such opportunities and believe these exchanges 
are very important.
    The Department of State wants to make certain that this 
committee, and others with funding responsibilities, have the 
best information possible upon which to make your important 
decisions. President Bush recognizes the need of the Congress 
to receive information regarding the homeland security 
activities of Federal departments and agencies. Moreover, the 
administration shares your view, Mr. Chairman, that it is 
essential for Federal, State, and local governments to work 
together closely as part of the significant national effort to 
defend the United States and the American people.
    The administration also recognizes that the country faces 
significant challenges regarding homeland security and that it 
will take the cooperation of both the legislative and the 
executive branches working together to meet those challenges. 
In that regard, the administration is committed to ensuring 
that Congress receives all the information it needs to ensure 
that we are doing everything we can to improve, enhance, and 
ensure the protection of our homeland.
    With respect to homeland security, our role at State is not 
as large as that of our fellow departments, such as 
Transportation and Defense, but we do have a vital role to 
play. The State Department is involved in protecting the 
homeland in two key areas: first, our Border Security Program 
and second, the physical security of certain Government 
facilities and employees in the United States. Let me now 
describe how the dollars are lined up against these two areas 
in the President's fiscal year 2003 budget request, and then 
I'll turn to the supplemental request.
    Mr. Chairman, for homeland security, there is $749.1 
million in the fiscal year 2003 request. These dollars include 
$643 million for the Machine Readable Visa Fee-Funded Border 
Security Program, which provides the technology, backbone, 
personnel, and support needed to carry out consular and border 
security functions.
    Major initiatives funded within the fiscal year 2003 
program include expansion of the Consular Consolidated 
Database, faster exchange of information on visa applications, 
strengthening passport and visa document security, and 
increasing passport and visa processing capability. We also 
welcome the opportunity to participate in the Office of 
Homeland Security's efforts to determine how biometrics can be 
employed to enhance border security and to make movement easier 
for legitimate travelers.
    Also included in our fiscal year 2003 request is $104 
million for antiterrorism and domestic security initiatives and 
activities funded through Diplomatic and Consular Programs. 
Domestic initiatives include state-of-the-art access control 
systems, off-site delivery inspections, emergency public 
address systems to facilitate warnings and evacuations, a 
chemical/biological program, and enhanced explosive ordinance 
disposal protocols.
    And finally, $2.1 million is for protection of USAID 
domestic facilities.
    Mr. Chairman, let me now turn to the full fiscal year 2002 
supplemental request. Before I do that, let me tell you how 
grateful we are at the Department for the efforts of this 
committee, and the House Appropriations Committee, to get us 
the almost $1.8 billion in crucial emergency response funding 
to address the immediate post-September 11th needs. However, 
that was just a start.
    We are asking for $1.6 billion in supplemental funding for 
fiscal year 2002. This amount includes $322 million for the 
Department and $7.4 million for the Broadcasting Board of 
Governors. These dollars will address emergent building and 
operating requirements that have arisen as a result of the 
September 11th terrorist attacks, including reopening our 
mission in Kabul, Afghanistan; reestablishing an official 
presence in Dushanbe, Tajikistan; increasing security and 
personnel protection at home and abroad; and augmenting our 
broadcasting activities in Afghanistan.
    We are also requesting about $1.3 billion for our Foreign 
Operations accounts. These funds are aimed primarily at the 
front line states to deter and prevent acts of international 
terrorism; provide vitally needed military equipment, training, 
and economic assistance; expand respect for human rights and 
judicial reform; provide a significant and immediate impact on 
displaced persons; support civilian reintegration of former 
combatants and reestablish law enforcement and criminal justice 
systems; provide economic and democracy assistance, including 
help with political development, health care, irrigation and 
water management, media development, community building and 
infrastructure improvements, enterprise development, and 
economic and civil society reform.
    The supplemental request I have just outlined includes 
$47.2 million for programs that relate to homeland security. 
This includes $22.2 million for Diplomatic and Consular 
Programs to fund mail decontamination and safety requirements; 
domestic chemical and biological weapons defense requirements; 
and increased domestic guard requirements; and funding for the 
Capital Investment Fund to expand the State Department's 
presence on the Defense Department's secure SIPRNET/INTELINK 
computer network.
    The remaining $25 million is for programs that will allow 
us to work with Mexico to help that country make urgent 
infrastructure upgrades to achieve priority U.S. security 
objectives. These upgrades include developing information-
sharing systems on passengers and goods; establishing a 
nonintrusive inspection capability; augmenting training and 
communications equipment for Mexican law enforcement agencies; 
creating additional SENTRI lanes in high-volume ports of entry; 
and conducting a bi-national study of border management 
systems, processes, and procedures.
    In addition, as part of our request for supplemental 
funding in fiscal year 2002, we have asked for legislative 
authority in two areas.
    First, authority that will facilitate the provision of 
Cooperative Threat Reduction and Title V Freedom Support Act 
assistance. This assistance has been critically important in 
the dismantlement and nonproliferation of weapons of mass 
destruction material and expertise in the New Independent 
States.
    Second, we are requesting expanded authorities to allow 
support for the Government of Colombia's unified campaign 
against drugs, terrorism, and other threats to Colombia's 
national security. These expanded authorities will allow the 
Colombians to use equipment for counterterrorism operations 
which was previously provided through counterdrug funding.
    In sum, Mr. Chairman, these supplemental dollars for 
foreign operations in fiscal year 2002 will be directed 
primarily at draining the swamp in which terrorists thrive and 
at insuring the long-term success of Operation Enduring 
Freedom, as well as enhancing homeland security.
    Mr. Chairman, I'll be pleased to take your questions.
    [The statement follows:]
                 Prepared Statement of Colin L. Powell
    Mr. Chairman, members of the committee, I am pleased to appear 
before you to testify in support of President Bush's budget request for 
the State Department for fiscal year 2003 and his supplemental request 
for fiscal year 2002--as those two requests pertain to the mission of 
homeland security. And, as you specifically asked for, Mr. Chairman, I 
will also give you an overview of the entire fiscal year 2002 
supplemental request for the Department of State and for foreign 
operations.
    This is my ninth budget hearing in three months, so I am averaging 
three per month. From that record, Mr. Chairman, you can readily see 
that I believe these exchanges with the people's representatives are 
very important. The Department of State wants to make certain that this 
committee, and others with funding responsibilities, have the best 
information possible upon which to make their important dollar 
decisions.
    President Bush recognizes the need of the Congress to receive 
information regarding the homeland security activities of Federal 
departments and agencies. Moreover, the Administration shares your 
view, Mr. Chairman, that it is essential for Federal, state, and local 
governments to work together closely as part of the significant 
national effort to defend the United States and the American people.
    The Administration also recognizes that the country faces 
significant challenges regarding homeland security and that it will 
take the cooperation of both the legislative and the executive branches 
working together to meet them. In that regard, the Administration is 
committed to ensuring that you and the Congress receive the appropriate 
information on what we are doing to improve, enhance, and ensure the 
protection of our homeland.
    With respect to homeland security, our role at State is not as 
large as that of some of our fellow departments such as the Department 
of Defense or the Department of Transportation. But we do have a vital 
role to play.
    The State Department is involved in protecting the homeland in two 
key areas: first, our Border Security Program and, second, the physical 
security of certain government facilities and employees in the United 
States.
    Let me show you how the dollars are lined up against these two 
areas in the President's fiscal year 2003 budget request, and then I 
will turn to his supplemental request for fiscal year 2002 and do the 
same.
    Mr. Chairman, for homeland security there are $749.1 million in the 
fiscal year 2003 request. These dollars include:
  --$643 million for the Machine Readable Visa (MRV) Fee-Funded Border 
        Security Program which provides the technology backbone, 
        personnel, and support needed to carry out consular and border 
        security functions. Major initiatives funded within the fiscal 
        year 2003 program include expansion of the Consular 
        Consolidated Database and faster exchange of information on 
        visa applications, strengthening passport and visa document 
        security, and increasing passport and visa processing 
        capability. We also welcome the opportunity to participate in 
        the Office of Homeland Security's efforts to determine how 
        biometrics can be employed to enhance border security and to 
        make movement easier for legitimate travelers.
  --$104 million is for antiterrorism and domestic security initiatives 
        and activities funded through Diplomatic and Consular Programs. 
        Domestic initiatives include state-of-the art access control 
        systems, off-site delivery inspections, emergency public 
        address systems to facilitate warnings and evacuations, a 
        chemical/biological program, and enhanced explosive ordnance 
        disposal protocols.
  --And finally, $2.1 million is for protection of USAID domestic 
        facilities.
    Mr. Chairman, let me now turn to the full fiscal year 2002 
supplemental request.
    But before I do that, let me tell you how grateful we are at the 
Department for the efforts of this committee and the House 
Appropriations Committee to get us the almost $1.8 billion in crucial 
Emergency Response Fund funding to address the immediate post-September 
11 needs. That was just the start though.
    We are asking for $1.6 billion supplemental funding for fiscal year 
2002. This amount includes $322 million for the Department and $7.4 
million for the Broadcasting Board of Governors. These dollars will 
address emergent building and operating requirements that have arisen 
as a result of the September 11 terrorist attacks, including reopening 
our mission in Kabul, Afghanistan; reestablishing an official presence 
in Dushanbe, Tajikistan; increasing security and personnel protection 
at home and abroad; and augmenting our broadcasting activities in 
Afghanistan.
    That leaves about $1.3 billion for foreign operations. These funds 
are primarily aimed at Front Line States (FLS) to: Deter and prevent 
acts of international terrorism; provide vitally needed military 
equipment, training and economic assistance; expand respect for human 
rights and judicial reform; provide a significant and immediate impact 
on displaced persons; support civilian reintegration of former 
combatants and reestablish law enforcement and criminal justice 
systems; and provide economic and democracy assistance, including help 
with political development, health care, irrigation and water 
management, media development, community building and infrastructure 
improvements, enterprise development, and economic and civil society 
reform.
    The supplemental request I have just outlined includes $47.2 
million for programs that relate to homeland security. $22.2 million is 
for: Diplomatic and Consular Programs to fund mail decontamination and 
safety requirements; domestic chemical and biological weapons defense 
requirements; increased domestic guard requirements; and dollars for 
the Capital Investment Fund to expand State Department's presence on 
the Defense Department's secure SIPRNET/INTELINK computer network.
    The remaining $25 million is for programs that will allow us to 
work with Mexico to help that country make urgent infrastructure 
upgrades to achieve U.S. security objectives. These upgrades include: 
Developing information-sharing systems on passengers and goods; 
establishing a non-intrusive inspection capability; augmenting training 
and communications equipment for Mexican law enforcement agencies; 
creating additional SENTRI lanes in high-volume ports of entry; and 
conducting a bi-national study of border management systems, processes, 
and procedures.
    In addition, as a part of our request for supplemental funding in 
fiscal year 2002, we have asked for legislative authority in two areas:
    First, authority that will facilitate the provision of Cooperative 
Threat Reduction and Title V Freedom Support Act assistance. This 
assistance has been critically important in the dismantlement and non-
proliferation of WMD material and expertise in the New Independent 
States.
    Second, we are requesting expanded authorities to allow support for 
the Government of Colombia's unified campaign against drugs, terrorism, 
and other threats to Colombia's national security. These expanded 
authorities will allow the Colombians to use equipment for 
counterterrorism which was previously provided through counterdrug 
funding.
    In sum, Mr. Chairman, these supplemental dollars for foreign 
operations in fiscal year 2002 will be directed primarily at draining 
the swamp in which terrorists thrive and at insuring the long-term 
success of Operation Enduring Freedom, as well as enhancing homeland 
security.
    Mr. Chairman, I will be pleased to answer your questions.

                           WEST BANK AND GAZA

    Chairman Byrd. Senator Stevens.
    Senator Stevens. Thank you very much, Mr. Chairman. 
Welcome, Mr. Secretary. I want to know about the $400 million 
that was funded for West Bank and Gaza during the Wye Accords. 
I'm told that that money has not been obligated. Do you have 
any plans to try to reprogram that money to use it, in view of 
the current circumstances with regard to the Middle East?
    Secretary Powell. I don't have the details on that, Senator 
Stevens. Please allow me to provide that for the record.
    Senator Stevens. I would like to have you take a look also 
to see if those funds will be obligated by September 30th. If 
not, if you wish to do so, would you tell us how you would like 
to have them reprogrammed?
    Secretary Powell. Right, sir.
    [The information follows:]

    To date, $155 million of the $400 million has been 
obligated. On several occasions since the outbreak of violence 
in September 2000, we have reexamined the priorities of our 
USAID program for the West Bank and Gaza. As the intifada has 
worn on, we have been considering carefully how best to respond 
to what has emerged as a significant humanitarian crisis, while 
at the same time not losing sight of our longer-term 
developmental priorities. The bulk of the Wye River funds has 
always been targeted to major water infrastructure projects, 
including a desalination plant and a water distribution network 
in Gaza. We intend to continue with these projects.
    At the same time, it has become clear over the last six 
weeks that the magnitude of the crisis in the West Bank and 
Gaza is considerable. We are now in the process of 
reprogramming some of the Wye funds into humanitarian response 
programs that can meet these immediate needs. After taking into 
account the $10 million that was rescinded pursuant to Chapter 
5 of the Supplemental Appropriations Act, 2001, $235 million 
remains to be obligated. We are confident that these funds will 
be obligated before the end of this fiscal year and will stay 
in touch with the Appropriations Committee as these plans are 
developed.

                         ANTITERRORISM PROGRAMS

    Senator Stevens. Now, we have, in the supplemental request 
for $48 million for antiterrorist and terrorist interdiction 
programs by the Department of State Diplomatic Security Office. 
These requests for programs for 2003 are for $64.2 million and 
$5 million, respectively, for the same accounts. If we approve 
the supplemental request, the account will be tripled by the 
2003 accounts. I have no problem about supporting the 
antiterrorism concept, but normally this is about a $35 million 
program. Can you handle that kind of money in this timeframe?
    Secretary Powell. I think so, Senator Stevens. We've been 
building up our Diplomatic Security Service over the last 
couple of years, and I think it is has become one of the most 
effective organizations of its kind in the world. As a result 
of the support you've provided to that buildup over the years, 
they are quite capable of spending this money in an efficient 
way. They have the capacity to handle the account.

                       U.S. ASSISTANCE TO TURKEY

    Senator Stevens. Well, lastly, Mr. Secretary, we note that 
the administration has requested $200 million to assist Turkey 
in debt payments. And if we approve that, it should assist 
Turkey in this International Security Force mission. Can you 
give us a short update on that and why that $200 million is 
necessary?
    Secretary Powell. It was part of our efforts to assist 
Turkey as it was going through some difficult economic times. 
We also have other monies in the supplemental appropriation, I 
think out of the Defense Department, that will be used to help 
Turkey take on its responsibilities to lead the ISAF. I'm very 
pleased that Turkey is willing to show this leadership in an 
area quite different from the usual places of deployment of 
Turkish troops. They will need a great deal of support, 
including financial help and other command, control, and 
communications assistance from us and other nations so that 
they can take this mission on.
    But, I would like to provide you a complete answer across 
the administration of the funds that are to be made available 
to Turkey as part of the campaign against terrorism and also to 
support them in their taking on the ISAF leadership mission.
    Senator Stevens. Well, I think those of us involved in 
defense welcome the involvement of Turkey in this activity. And 
if the funding is to come through the State Department, we 
would like very much to assist in making it available.
    Thank you, Mr. Secretary. Thank you, Mr. Chairman.
    Secretary Powell. Thank you, sir.
    [The information follows:]

    We appreciate your welcoming of Turkey's active role, in 
cooperation with the United States, in the war against 
terrorism. As our only NATO ally with a largely Muslim 
population, Turkey's strong and principled support for the war 
sends a clear message that the coalition is united against 
terrorism and its supporters, not Islam and its faithful 
believers. More recently, Turkey has stepped forward to assume 
command of the International Security Assistance Force (ISAF) 
in Kabul for a period of six months commencing this summer. We 
have expressed our gratitude to Turkey for its decision to take 
on this important mission.
    When Vice President Cheney visited Ankara on March 19, he 
announced that the Administration would seek $228 million for 
Turkey in its fiscal year 2002 supplemental request. If 
approved by Congress, $28 million in FMF assistance would be 
provided to Turkey specifically for its command of ISAF. 
Turkey's ability to help us meet our foreign policy goals, 
however, is constrained by its serious economic problems. To 
help with this situation, the remaining $200 million we are 
requesting will be in the form of Economic Support Funds (ESF) 
to provide budgetary support to the Government of Turkey. You 
may be aware that previously we had worked with Congress to 
provide $20 million in FMF assistance in the fiscal year 2001 
Emergency Response Fund supplemental for Turkey in conjunction 
with its support for Operation Enduring Freedom.

                  AFRICA GROWTH AND OPPORTUNITIES ACT

    Chairman Byrd. Thank you. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. Mr. Secretary, just 
follow up a little bit with on what we were saying earlier on. 
You had mentioned, when we were talking about the Africa Growth 
and Opportunities Act, the standards that are set in there, 
that they have to show progress toward political pluralism, 
good governments, human rights, and things we all agree on, and 
then you said that, of course, that should be the hallmark 
anyway. But is that the hallmark? I mean, in the supplemental 
request I find I don't see that in the aid that might go to 
several countries.
    The administration is talking to the Defense Appropriations 
Subcommittee looking for ways to get rid of a number of our 
standards we now have, whether it's in Indonesia, Colombia, or 
elsewhere. And are we going to have one standard if we have 
something like growth in Africa, for some of these countries 
that have been admittedly ignored by administrations of both 
parties for years, but a different standard if we feel that 
somehow it's connected to the war against terrorism?
    Secretary Powell. I think each country has to be measured 
against the state of its political and economic development. In 
the case of Indonesia, it's a nation that I think is moving in 
the right direction. It's been through some difficult times. I 
think it is time for us to begin supporting their military 
again and to make sure that Indonesia's military is exposed to 
U.S. values, or Western values, that we have an opportunity to 
work with them, to train with them, to invest with them, and to 
make them a positive force within that country, without 
overlooking some of the problems that might have existed in the 
past and also pressing the Indonesian Government to take action 
against past human rights abuses.
    So, as we work with a country and foster its political 
development, we should be prepared to invest in those 
institutions that may not have met the standard that we're 
anxious for them to meet fully, but that are moving in the 
right direction and have our standard as their goal.
    Senator Leahy. Well, I worry about the--you mentioned 
Indonesia. I think about what happened in East Timor. I know 
that some of the Army officers most involved with the 
atrocities there never really faced any consequence for their 
actions. And we had been helping with the training of some of 
the military who were involved in those atrocities. So at what 
point do we say we are going to apply the standards we apply to 
other aid recipients?
    Secretary Powell. It's a judgment call, and many of the 
officers that we did train did not participate in atrocities. 
We have had some success in counseling Indonesia as to how they 
might deal with problems they have in other places, so that we 
don't have a repetition of what happened in East Timor.
    With respect to Colombia, as you've heard me testify 
previously, Senator Leahy, the State Department is not seeking 
to get around any of the human rights requirements of the law 
and will continue to apply the law as it was intended to be 
applied with respect to the use of our equipment and funding.

                                COLOMBIA

    Senator Leahy. Please make sure that everybody in the 
administration hears that. I mean, I am not unsympathetic to 
the things we want to do in Colombia. I have a lot of 
admiration for President Pastrana and the efforts he made. He 
is leaving. I don't know if his successor will be in a similar 
way. I think with the billions we've spent on the so-called war 
against drugs in now two administrations, I'm not sure whether 
we've really accomplished a lot. I wish we did as much--and 
this not in your portfolio--I wish we did as much here in the 
United States to stop the demand for those drugs, because 
obviously if we put a bubble over Colombia and we still have 
$100 billion or more demand for drugs in this, the wealthiest 
nation on Earth, it's going to come from somewhere else. And so 
we've got to approach it from that front, too.
    The activities of the FARC are reprehensible. The 
activities of the some of the paramilitary are also 
reprehensible. But I would urge the--it would be helpful if 
everybody in the administration got on the same program. I'm 
perfectly willing to sit down and help in that. But I want a 
consistent voice. You have been consistent, but I want a 
consistent voice from those who come up here looking for 
appropriations.
    I also agree with you when you talked about Afghanistan. 
You had said that we need to build the Afghan army and police. 
I couldn't agree more. But even if we go as fast as we possibly 
can, we're months away. There's currently factional fighting. 
There's banditry. Does that threaten our reconstruction 
programs that we have over there? I know USAID asked for $150 
million in emergency aid for Afghanistan. OMB said about $40 
million. I suspect it's not just how many dollars; it's whether 
you can actually have enough stability to use the dollars.

                              AFGHANISTAN

    Secretary Powell. I think the USAID has been able to use 
the money that has been made available to them. I know there 
are a number of programs underway. Yes, there is still 
fragility in that country and in that society. There are still 
warlord conflicts that have to be dealt with. But, it hasn't 
collapsed the way some people have suggested. The Afghan army 
is now in the process of being built. Secretary Rumsfeld's got 
an aggressive program working through General Franks and the 
Joint Chiefs of Staff. The Germans are helping the situation by 
training police. I think you'll start to see units come 
through, but it will take some months.
    During those months, ISAF will be in Kabul taking care of 
that area. U.S. forces are present, not only in strength in a 
couple of places like Kandahar, but in smaller elements 
elsewhere in the countryside providing some presence, in any 
event, that is useful in managing the hot spots. Would we be 
better off if there were a 100,000 or 200,000 person ISAF? 
Perhaps, but they couldn't occupy every inch of the country, no 
matter how large the force was. Ultimately, the country will be 
brought under control only through the use of indigenous 
forces, national police, border police, and military forces.
    Senator Leahy. Well, I hope we maintain a long-term 
commitment there. I hope that wherever we can get security, we 
move forward to address the basic needs of the Afghan people. 
From what I'm told, there's a real hunger for education. The 
ability to have both boys and girls go to school would be so 
important for the future of that country.
    I do want to commend the tremendous work of our State 
Department people there. This is not a glamour post. This is 
not being assigned to the Court of St. James or something like 
that. This is a hardship post, and I hope they realize that we 
appreciate what they're doing. I hope that your office will 
keep in touch with Senator McConnell and myself as we go 
forward to make sure you are getting the aid you need there. 
Because we need to show that we don't just come in with the B-
52s--as necessary as that was--but we also come in with the 
school teachers and the schoolbooks.
    Secretary Powell. Yes, sir. That's the commitment the 
President made at the beginning of this effort, and he is solid 
with respect to his commitment.
    Senator Leahy. Thank you, Mr. Chairman. I'm going back to 
the floor.
    Chairman Byrd. Thank you, Senator. Senator McConnell, the 
ranking member of the Foreign Operations Subcommittee, is not 
present at the moment. The Chair will call on Mr. DeWine. Mr. 
DeWine is not here at the moment. Mr. Dorgan.

                           CUBAN VISA DENIAL

    Senator Dorgan. Mr. Chairman, thank you very much. Mr. 
Secretary, I want to ask you about Embassy security, but before 
I do that, I alerted your office I was going to ask you about a 
matter that I had called the State Department on last week. A 
group of us in Congress changed the law in recent years, the 
last couple of years, so that we could sell food to Cuba that 
had been subject to an embargo. We believed it was 
inappropriate. We changed the law. Cuba now can buy food from 
the United States. It must pay cash and must run it through a 
French bank in a byzantine way, but, nonetheless, it can do so. 
It has bought $70 million worth of food from the United States.
    A group of farm organizations and others invited ALIMPORT 
and Mr. Pedro Alvarez, the head of ALIMPORT, which is the 
agency in Cuba that buys food to come to the United States. He 
was intending to come to the United States, including a visit 
to North Dakota. His visa was approved and then immediately 
revoked by the State Department. I wanted to find out why that 
happened, how it happened, what the reason for it was.
    My staff called the State Department and was told that it 
is not our policy to encourage food sales to Cuba. I, of 
course, was not pleased by that, and so I made a call to the 
State Department. That was a number of days ago now. I am 
wondering if you have been able to determine what has happened 
with respect to the revocation of these visas? Why would we 
revoke a visa of Mr. Alvarez, who's going to come and buy wheat 
and dried beans and so on from family farmers in my State and 
others?
    Secretary Powell. Well, I did have a chance to look into it 
very briefly this morning, Senator, and I will look at it more 
thoroughly when I get back to the office. But, the visa should 
never have been issued because Mr. Alvarez's activities last 
time he was here, we believe, were inconsistent with U.S. 
policy. A good part of his time was spent lobbying against the 
policy of the United States Government, in addition to whatever 
else he might have been doing with respect to serving as a 
purchasing agent.
    While we understand the law and we are pleased that the 
sales are taking place, Mr. Alvarez, himself, is not necessary 
for those sales. If the purpose for his visit here was 
essentially to lobby against the position of the United States 
Government, then it was on that basis that it was felt that the 
visa should not be issued.
    I understand your interest in it, and I also understand 
that you have an interest in extending a personal invitation to 
Mr. Alvarez.
    Senator Dorgan. That's correct.
    Secretary Powell. In light of all that, I'd like to have 
the opportunity to go back to the Department and review the 
whole situation.

                           FOOD SALES TO CUBA

    Senator Dorgan. Well, let me ask, is it the policy of the 
State Department to not encourage food sales to Cuba?
    Secretary Powell. If it is, no one's told me that. I 
understand what the law is. The law permits it.
    Senator Dorgan. And would you feel that if the law permits 
it, that we ought to encourage food sales to those who want to 
pay cash for it?
    Secretary Powell. I always comply with the law, Senator, 
and if the law permits it and people are willing to pay cash in 
the manner intended by the law and if it benefits U.S. farmers, 
sure.
    Senator Dorgan. So it is not necessarily the fact that 
someone would come to the United States to sell food that would 
cause problems. It's Mr. Alvarez, apparently. So presumably if 
others from ALIMPORT wish to come to the United States and or 
purchase food, dried beans, wheat, and so on, you would have no 
objection to that?
    Secretary Powell. I would have to see who it is and what 
the nature and purpose of the visa request. I can't answer it 
categorically, Senator, without having an actual case in front 
of me.
    With respect to the policy statement that was given to you 
over the phone, let me go back and find out what that's all 
about.
    Senator Dorgan. And did you learn how it came to be that a 
visa was issued and then revoked? Who decided it should be 
revoked?
    Secretary Powell. My understanding is that instructions 
were given to the Interest Section not to issue a visa, but the 
instruction----
    Senator Dorgan. By whom?
    Secretary Powell. By the State Department. By Washington. 
There was a miscommunication. After the 10-day period went by, 
where normally one waits for instructions as to whether a visa 
should be issued or not, the visa was issued. When Washington 
found out that it had been issued, instructions were sent down 
to revoke it.
    Senator Dorgan. Can you understand the angst of farmers out 
there whose prices have collapsed and we're trying to sell 
grain around the world, the President's saying we need to 
encourage the selling of grain around the world, and then they 
discover that someone wants to come here and buy some food and 
we revoke the visa? And my office was told by State Department 
that we don't encourage the sale of food to Cuba? I think we 
ought never use food as a weapon, ever. Congress has already 
spoken to that. I'm a little miffed about all of this. I'd like 
to work with you on it. I wouldn't raise this with you without 
alerting your staff first and----
    Secretary Powell. No, you did, sir, and you've written us 
about it and called us about it.
    [The information follows:]

                                    The Secretary of State,
                                       Washington, DC, May 8, 2002.
The Honorable Byron Dorgan,
United States Senate.
    Dear Senator Dorgan: Thank you for your letters of April 17, April 
22, and May 2 expressing concerns about the denial of visas to senior 
officials of Alimport, the Cuban agricultural import agency. 
Understanding the importance of this issue to you and your 
constituents, I am pleased to respond to your concerns.
    As you know, the Administration is committed to encouraging a rapid 
and peaceful transition to a democratic government in Cuba. A series of 
statutory and policy prescriptions, including economic sanctions, 
travel restrictions, and limited opportunities for direct donations or 
sales of food and medicines, are tools to encourage such a transition 
in Cuba.
    Central to U.S. policy is the reality of the Government of Cuba, 
which continues to be hostile to the United States. Cuba remains on the 
Department's list of state-sponsors of terrorism, in part based on the 
fact that Cuba harbors fugitives from justice in the United States. 
Furthermore, Cuba continues to violate internationally accepted 
standards of basic human rights. In fact, the U.N. Commission on Human 
Rights recently called upon Cuba to make progress in respect of human, 
civil and political rights.
    I would like to specifically address your question about the recent 
denial of visas to Mr. Pedro Alvarez, President of Alimport, and other 
Cuban government officials who wished to travel to the United States on 
a marketing visit. They were denied visas pursuant to the Presidential 
Proclamation of October 4, 1985, which suspended the entry into the 
United States of Cuban government officials and members of the 
Communist Party in Cuba. That proclamation was issued in accordance 
with section 212(f) of the Immigration and Naturalization Act. 
Application of the Proclamation may be waived in certain instances, but 
in interagency consultations, the Administration determined that it was 
not in the policy interest of the United States to do so in this case. 
We regret that due to a miscommunication between the Department and the 
U.S. Interests Section in Havana, some of the visas were mistakenly 
issued, requiring the extra step of cancellation. At no time had the 
Administration decided to issue visas to Mr. Alvarez and his 
associates. In fact an interagency coordination group had already 
decided that the Proclamation would not be waived with respect to Mr. 
Alvarez.
    As you are aware, Mr. Alvarez and other Cuban government trade 
officials have visited the United States on previous occasions, most 
recently in August 2001. The visa request in 2001 was in response to an 
invitation by ADM Rice, Inc., to tour agricultural areas in the United 
States with the objective of furthering Mr. Alvarez' understanding of 
U.S. crops, facilities, and practices. In August 2001 and on previous 
occasions, it was determined that a waiver of the Presidential 
Proclamation suspending entry into the United States of Cuban 
government officials and members of the Cuban Communist Party was 
appropriate. Further, the Department then did not consider these 
``marketing visits'' in the sense that sales would be made. Indeed, 
prior to a 180-degree policy shift by the Cuban government after 
Hurricane Michelle in November 2001, that government's policy, as 
articulated by Fidel Castro, was that Cuba would not purchase ``even 
one grain of rice'' from the United States.
    Decisions concerning application of the Presidential Proclamation 
to Cuban officials are made on a case-by-case basis at the time of a 
visa application, and in light of current policy interests. In prior 
visits, Mr. Alvarez and his colleague Ms. Maria de la Luz B'Hamel of 
the Ministry of Foreign Trade have lobbied to undermine the U.S. 
embargo by seeking to enlist farm-state support, arguing that 
elimination of the embargo would produce significant benefits for U.S. 
farmers. In various appeals to American groups they have argued that 
sanctions hurt farmers, and appealed for the easing of financial 
restrictions, a simpler licensing process and the creation of two-way 
trade between Cuba and the United States.
    Beyond these activities, several events since August 2001 have 
prompted a reevaluation of our policy toward Cuba. First, in the wake 
of the tragic events of September 11, Cuba's reaction was hostile to 
U.S. efforts to respond to terrorism. This was best illustrated by 
Cuban government statements that the war in Afghanistan is ``fascistic 
and militaristic'' and the Cuban Foreign Minister's remarks at the U.N. 
General Assembly, when he accused the United States of intentionally 
targeting Afghan children for death and Red Cross hospitals in 
Afghanistan for destruction. Also in September, five agents of the 
Cuban Government were sentenced for conspiring to spy against the 
United States. One of these five also was convicted and sentenced for 
conspiracy to commit murder. Further, on September 21, 2001, Ana Belen 
Montes, a senior analyst in the Defense Intelligence Agency, was 
arrested for spying for Cuba against the United States. She 
subsequently entered a guilty plea in March 2002.
    These incidents clearly reaffirm Cuba's hostility to the United 
States and the threat it represents to our national security. As a 
result, Administration policy considers visits by senior Cuban 
officials at this time to be inappropriate and detrimental to the 
national interest.
    With respect to the Trade Sanctions Reform and Export Enhancement 
Act of 2000, the Department has been following the law and will 
continue to do so. The law permits the Cuban government to purchase, on 
a cash basis, or with financing by third country financial 
institutions, agricultural commodities from the United States. It is 
also the Administration's judgment that marketing visits, such as that 
proposed for Mr. Alvarez, are not necessary to conclude purchases of 
U.S. agricultural commodities. Just in the last six months, more than 
$40 million in sales have been finalized and, according to the press, 
another $50 million are apparently in process, all without a single 
marketing visit by a Cuban official. This demonstrates the Cuban 
regime's strong motivation to complete these sales, particularly taking 
into account that the Cuban government has chosen to use its limited 
foreign exchange reserves in these transactions.
    Before closing, I want to make clear that we do not discourage 
sales of agricultural commodities to Cuba as permitted by law, despite 
the Cuban regime's implacable hostility to the United States and our 
strong desire to encourage a democratic transition in Cuba. 
Representatives of American firms who wish to arrange trade permitted 
by law can request specific licenses from the Department of Treasury 
that allow travel-related transactions for visits to Cuba. Applications 
for visas by Cuban officials who may be ineligible under the 1985 
Presidential Proclamation are considered on a case-by-case basis. The 
Department recognizes that sanitary and phytosanitary visits may be 
needed so that sales can be completed. Visas have been issued to such 
personnel in the past and such visa applications, as are presently 
pending with the U.S. Interests Section or are received in the future, 
will be carefully considered.
    We hope this information has been helpful to you, and we would be 
pleased to brief you or your staff on this, if that would be useful.
            Sincerely,
                                                   Colin L. Powell.

                            EMBASSY SECURITY

    Senator Dorgan. So I'd like to talk to you further about 
it. My time is about expired. Let me just ask the question of 
Embassy security.
    One of the very important areas of security are the men and 
women who serve in Embassies around the world. When I was in 
Kabul, of course, they were sleeping in bunkers at that point. 
I mean, the Embassy security issue is a very serious one. I 
know you know that and have been working on it. How short are 
we on providing the necessary funds, both in the administration 
and in Congress, to provide the security that we think is 
necessary given these times?
    Secretary Powell. We still have a long way to go. I'm very 
grateful for the billions of dollars Congress has been 
providing. But, the need is enormous, and I suspect that the 
level of effort we've been running at, over $1 billion a year, 
will have to continue for a number of years in the future. I 
can give you more definitive statements for the record. We've 
just put out a capital master plan for the next 5 years that 
I'll be delighted to make available to you, Senator Dorgan. 
But, this is going to be a long-term capitalization effort. I 
can't give you a definitive number that would take us to the 
end of the road yet.
    Senator Dorgan. All right. Well, Mr. Chairman, thank you. 
And I will be in touch with you----
    Secretary Powell. Yes, sir.
    Senator Dorgan [continuing]. On this food issue. It's a 
very important issue, and I am concerned about it and will want 
to proceed further.
    [The information follows:]

    This is in response to your question to Secretary Powell on 
April 30 regarding the Department's Long-Range Overseas 
Buildings Plan. Please find enclosed a copy of the Plan. This 
document, prepared by the Bureau of Overseas Buildings 
Operations, at the direction of Secretary Powell, is the 
culmination of a serious, comprehensive, and integrated effort 
by OBO and the Department to identify, define, and prioritize 
the needs of the U.S. Government for diplomatic and consular 
facilities around the world. Further details about the nature 
and purposes of the Plan appear in Director Williams' 
introductory letter inside the cover page.
    While it is not a budget document, the Plan is already 
playing a vital role in achieving the Department's goal of 
providing safe, secure, and functional facilities for U.S. 
Government representatives abroad.
    We believe the Plan will be equally useful to the Congress 
in understanding the Department's overseas facilities 
requirements and objectives. We hope it provides the basis for 
a more streamlined and cooperative effort between Congress and 
the Department to accelerate our new construction and 
rehabilitation programs.

                       BORDER SECURITY INITIATIVE

    Chairman Byrd. Thank you, Senator. Senator Gregg is the 
ranking member on State-Justice-Commerce-Judiciary. Senator 
Gregg.
    Senator Gregg. Thank you, Mr. Chairman.
    Mr. Secretary, I noticed that when Governor Ridge developed 
his Border Security Initiative, that the State Department was 
absent from the framework. I was wondering what the discussions 
were which caused the decision to be made not to have the State 
Department as part of the Border Security Initiative.
    Secretary Powell. The decision that was made was 
essentially that, because State does play a role but was not 
one of the major players, it was reasonable not to put the 
Secretary of State on the Council itself but to include the 
Secretary of State in all meetings of the Council. So, I attend 
all the meetings of the Council and play an active role. The 
fact that I am the Secretary of State and a Cabinet official 
gives me full entree into what may be going on, whether I'm a 
member of the Council or not. I'm fully represented. In the 
many working groups that have come out of the process, we are 
well represented, principally through our Offices of Consular 
Affairs and Diplomatic Security.

                            BIOMETRIC VISAS

    Senator Gregg. What is the status of your capacity to 
develop visas which are biometrically based?
    Secretary Powell. A great deal of work is being done on it, 
and I would like to give you a technical answer for the record, 
so that I don't slip into areas of scientific endeavor in which 
I am totally ignorant.
    Senator Gregg. Thank you. I'll look forward to that. Do you 
have a timeframe for when you'll have such visas?
    Secretary Powell. I can't answer that either, Senator 
Gregg, but I will let you have that for the record.
    [The information follows:]

    The Department believes we should make effective use of all 
biometric information that is currently available to screen 
aliens and enhance biometric collection where it will bolster 
border security. We support an approach that focuses first on 
border security goals, rather than on the choice of any 
specific biometric standard or any single travel document 
medium. As we increase the use of biometric tools, we need to 
retain a flexible approach. The following describes the status 
of two nonimmigrant visa documents we currently produce that 
contain some biometric standards, as well as our plans for the 
future.
    The Department issues two nonimmigrant visa documents. The 
first of these, the Machine-readable Visa (MRV) foil, is 
produced for most foreign travelers requiring visas and 
contains the applicant's photograph, as well as the biographic 
data. The format of the MRV is designed according to the 
specifications of the International Civil Aviation Organization 
(ICAO) and is carefully coordinated with INS and the Customs 
Service. The data in the ``machine-readable zone'' of the MRV 
can be read by the document readers currently used by INS at 
U.S. ports-of-entry and by airlines.
    Electronic information collected in the production of the 
MRV is stored in a central database. This information currently 
includes a digital photograph for all issued visas and has 
recently been expanded to include a digital photograph for all 
new visa applications, whether issued or refused. This data is 
shared with INS and is available at all U.S. ports-of-entry.
    A new design and production method for the MRV went into 
pilot use in March 2002. The new visa incorporates intaglio 
printing (where image is in the background) and other features 
to enhance security. The new visa is produced with ink-jet 
printing, which makes it more tamper resistant.
    The second nonimmigrant visa document is the Border 
Crossing Card (BCC), issued to Mexican nationals. The 
Department has processed over seven million applications for 
these cards. The BCC also serves as a B1/B2 (business/tourism) 
visa and allows the holder to apply for admission at any U.S. 
port-of-entry. The BCC incorporates both a photograph and two 
fingerprints. The biometric information is encoded in optical 
memory on the card. All BCC data, including photographs and 
fingerprints, is also stored in the same centralized database 
as the MRV information. The BCC has a ``machine-readable zone'' 
that conforms to ICAO standards and can be read by standard 
document readers in use by INS and airlines. However, the 
optical memory on the BCC requires a specialized reader, which 
is not currently deployed by INS.
    The U.S. immigrant visa is an 8.5 inch <greek-e> 11 inch 
nonmachine-readable document with an affixed photograph of the 
bearer. Digital photographs are not currently collected for 
immigrant visas. Electronic information collected in the 
production of the immigrant visa is stored in the same 
centralized database as nonimmigrant visa information. The 
Department has initiated a plan, to be completed prior to 
October 2004, in accordance with the recently passed Patriot 
and Enhanced Border Security and Visa Reform Acts, to change to 
a machine-readable immigrant visa that incorporates a digital 
photograph.
    Furthermore, the Department has plans to continue and 
expand work with two biometric identifiers--facial recognition 
(FR) and fingerprints. We have been testing FR for over two 
years, and using available technology, we will continue our 
ongoing program of testing our existing database of twenty 
million photographs. We are working closely with commercial 
vendors and other government agencies to improve and refine 
facial recognition technology. We are also expanding collection 
of photographs to include all individuals who are refused 
visas, and we are establishing uniform photo quality standards. 
With regard to fingerprints, we currently capture two index 
fingerprints in our Mexican posts and transmit them 
electronically to INS for a check against their IDENT database.
    A key factor to enhancing border security is implementing 
the Patriot and Enhanced Border Security and Visa Reform Acts, 
including the provision for a biometric standard for visas. We 
are working with INS and the National Institute of Standards 
and Technology (NIST) to assess the technologies, which will 
lead to the appropriate standard. Through working closely with 
the ICAO, the Department of Justice, as well as other key 
programs, such as INS's emerging Entry Exit system, we will 
determine and implement the appropriate compatible technology 
leading to a more secure border security system.
    A more secure border security system will involve a 
combination of machine-assisted identity confirmation of 
international travelers and the judicious sharing and use of 
data. Machine-assisted identity confirmation and using the 
appropriate biometric will facilitate the movement of low-risk 
travelers. They also have value, used in conjunction with other 
inspection and screening procedures, in processing certain 
high-risk travelers.
    Linking the centralized visa database more actively with 
INS and Customs systems, used at U.S. ports-of-entry, presents 
an identity confirmation solution for all foreign travelers who 
need visas to enter the United States. We have suggested to INS 
and Customs that we take this a step further. If visa records 
and the associated enrolled images in the central database were 
integrated with records transmitted to the Advanced Passenger 
Inspection System (APIS) used at ports-of-entry, the original 
photograph from all visa applications would be available at the 
time a foreign traveler was inspected. This would provide a 
simple and secure identity confirmation solution for a 
significant number of foreign travelers. More elaborate 
solutions are possible, but none can be achieved as quickly.
    The Department advocates that different identity 
confirmation solutions should be considered for different 
classes of travelers. We do not want to adopt technological 
solutions that cannot be enhanced as technology advances. We 
will continue to work with relevant federal entities to 
identify the best solution for identity confirmation or 
machine-assisted identity confirmation, using biometrics in the 
overall context of border security.

                           AL QAEDA/FARC/IRA

    Senator Gregg. There has been a House committee report 
which cited that there was a relationship among al Qaeda, the 
Colombian drug cartels, and the IRA. Are you familiar with any 
relationship that exists between those three terrorist 
organizations and criminal organizations which are either on an 
intelligence basis, an economic basis, or a personnel basis?
    Secretary Powell. I'm unfamiliar with the connection that 
we have all read about between some individuals from the IRA, 
who were in Colombia working with organizations in Colombia. 
The al Qaeda connection I have only recently become aware of, 
but I don't have up-to-date intelligence information on the 
strength of the intelligence and the reality of that three-way 
connection.
    Senator Gregg. Is it reasonable to assume that there's 
cross-fertilization between groups like that?
    Secretary Powell. I think it's reasonable to assume that, 
but assumption is not necessarily fact. I think we have seen in 
the last year a lot of fertilization taking place between 
different terrorist organizations. With each passing day, you 
can begin to see different connections emerge that have to be 
pursued.

                    SUPPORT FOR THE WAR ON TERRORISM

    Senator Gregg. I notice you've had some very strong success 
in getting specific nations, and a lot of nations, to 
participate in our war on terrorism, but it seems that there's 
been less success in what I would call international 
organizations, especially ones that are affiliated with the 
United Nations. I'm wondering if you could give us your 
thoughts as to why that's the case.
    Secretary Powell. Well, we have benefitted from strong 
United Nations support. We got a United Nations Security 
Council Resolution within a day or two after the events of 
September 11th. We got a General Assembly resolution. We have 
U.N. Resolution 1373, which sets up the framework for going 
after terrorist finances around the world. I must say that at 
least at the level of the Security Council and General 
Assembly, I have been satisfied with their participation and 
cooperation in our activities. If you have a specific 
organization within the United Nation that you're referring to, 
Senator, I can certainly look at that.
    Senator Gregg. Well, how about the relationships of things 
like the World Bank, the IMF?
    Secretary Powell. Non-U.N. organizations, but----
    Senator Gregg. Right.
    Secretary Powell. We have been working with the World Bank 
and the IMF. I may have to go back and talk to Secretary 
O'Neill about it, but I'm not aware of any particular 
deficiency with respect to cooperation with IMF or World Bank.
    [The information follows:]

    Both institutions committed to greater involvement in the 
war on terror during the 2001 annual meetings. The IMF and 
World Bank called for member governments to freeze terrorist 
assets, establish financial intelligence units, implement U.N. 
instruments to counter terrorism, and provide technical 
assistance to better interdict terrorism financing.
    The World Bank and IMF are working with the Financial 
Action Task Force (FATF) on developing a global anti-money 
laundering and terrorism financing standard to guide 
governments in efforts to protect financial systems from 
exploitation. These standards will be incorporated into IMF 
standard assessments, as well as in assessments of Off-shore 
Financial Centers (OFCs).
    The IMF's OFC assessment program has been stepped up to 
identify how best to bring OFC legal, regulatory, and 
supervisory systems up to international standards. All OFC 
jurisdictions should be assessed by the end of 2003. The 
assessments will serve as a basis for providing technical 
assistance to help jurisdictions meet international norms.
    Further, the World Bank and IMF have intensified efforts to 
provide technical assistance on a range of anti-terrorist 
financing initiatives, including work on legislation, 
establishment of financial intelligence units, and development 
of training programs. The World Bank recently announced a $40 
million trust fund to provide assistance to member states in 
the development of financial sectors. A portion of these funds 
will be used to aid in the construction of viable anti-money 
laundering regimes that will include anti-terrorist financing 
legislation. In addition, the World Bank and IMF are developing 
a mechanism for coordinating the international community's 
efforts in these areas.
    Successful prosecution of the war on terror depends on the 
efficient use of resources and institutions. We will continue 
to work with the IMF, World Bank, and the international 
community to achieve this goal.

                             EMBASSY KABUL

    Senator Gregg. You've got $120 million in the supplemental 
to rebuild the Embassy in Kabul, and you've got $255 million 
for foreign aid to Afghanistan. So almost 50 percent, another 
50 percent on top of that is going to Embassy construction. 
This is sort of a stark example of the cost of embassy 
construction in relationship to operational activity in a 
country. And I'm just wondering, there's been ongoing 
discussion we've had, but I'm just wondering if this doesn't 
just stand out there as a sore thumb.
    Secretary Powell. Building Embassies that meet our security 
requirements is expensive. General Williams, the Director of 
our Overseas Building Operations, has been able to reduce the 
overall cost of Embassies by about 20 percent. In a few high-
cost capitals, he's done an even better job. When you look at 
the security requirements, the setback requirements, the blast 
requirements, the need to make sure that our Embassies are not 
penetrated in the process of being built by foreign 
intelligence services, and all of the other requirements that 
go into having a safe, secure, modern facility that is wired 
for the kind of 21st century technology that we need, it runs 
the price up rather quickly. So approximately $120 million is 
not that expensive for the kind of Embassy we need to have in a 
place like Kabul.
    Senator Gregg. It seems like a high number, especially when 
you consider that we're only spending twice that amount to try 
to rebuild the country. We're rebuilding----
    Secretary Powell. We'll be spending a lot more than $255 
million, and we've already committed a lot more than $255 
million.
    Senator Gregg. In this supplemental?
    Secretary Powell. Yes.
    Senator Gregg. Thank you, Mr. Secretary.
    Secretary Powell. Just for the record, I think in fiscal 
year 2003, fiscal year 2002 Emergency Response Fund, fiscal 
year 2002 budget, and fiscal year 2002 supplemental, we're up 
to $813 million with respect to Afghanistan.
    Senator Gregg. Thank you.
    Chairman Byrd. Thank you, Senator Gregg. Senator Murray.

                 BORDER SECURITY WITH MEXICO AND CANADA

    Senator Murray. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here today.
    I think we all know that a terrorist attack, and 
particularly a bioterrorist attack, wouldn't recognize State or 
national borders should one occur. And our neighbors to the 
north, in Canada, and to the south, in Mexico, could likely be 
affected by an attack here. And in addition, we could easily 
need to turn to ask them for help in terms of an attack, just 
as we did on September 11th, when many of our airlines were 
diverted to Canada, in particular. Has the State Department or 
the administration updated any of their bilateral agreements 
with Canada or Mexico regarding responses to a bioterrorism 
attack?
    Secretary Powell. We have ongoing programs in both Canada 
and Mexico to update all of our agreements, and Governor Ridge 
and members of my Department and other departments have put 
action plans together with both Canada and Mexico. Canada has 
been very aggressive in pursuing this action plan. Mexico has 
been very forthcoming with respect to bioterrorism items. I 
will have to get that for you for the record.
    Senator Murray. Okay. I would appreciate hearing back from 
you on that.
    Has the State Department been doing anything to ensure that 
communities along our borders are able to work cooperatively 
with Canada or Mexico should any kind of attack occur? Are you 
working directly with any of those communities?
    Secretary Powell. No, it seems that one of the domestic 
agencies would be doing that, but let me find out from within 
the administration the answer to that question and provide it 
to you.
    Senator Murray. I would appreciate that very much. I think 
there is a concern among our border communities that they could 
be asked to do something out of their ability very easily, and 
they would like to know what they should be doing in terms of 
any kind of forward thinking, especially in terms of 
bioterrorism attack.
    Thank you, Mr. Chairman. I know our time is short, so I 
will submit the rest of my questions.
    [The information follows:]

    Both Canada and Mexico responded immediately and positively 
to the changed circumstances of our wide-ranging commercial and 
security relationships in the aftermath of the September 11 
attacks. The Administration signed expansive border action 
plans within a short time after the attacks with both countries 
to increase security and the economic efficiency of the 
borders--a nexus of interests that are inextricably linked. 
Several bureaus in the Department are working to implement 
those plans, including Western Hemisphere Affairs, Consular 
Affairs, Political Military Affairs, International Narcotics 
and Law Enforcement, and the Coordinator for Counterterrorism.
    More specific action that is being taken to increase 
security at the Mexican and Canadian borders includes the 
establishment of joint steering committees with both of our 
neighbors, by the Department and Office of Homeland Security, 
to improve physical and cyber security of critical 
infrastructure. Sectors that will be looked at include energy, 
banking and finance, transportation, water, emergency response, 
public health, agriculture/livestock facilities, chemical/
hazardous materials facilities and industries, and postal 
services. In prioritizing the possible threats to the border 
area, we will consider the cost in lives of an attack; the 
economic impact (immediate and consequential); impact on 
national defense capabilities; and effect on national morale.
    A biological attack on either border would be one of 
several possible attack scenarios that will be analyzed in our 
work to implement the two border action plans. More 
specifically, the TOP Officials 2002 (TOPOFF 2) training 
exercise will simulate a contagious biological attack on the 
Chicago area, with cross-border consequences for Canada. The 
Government of Canada is an active participant in this exercise. 
Working with our southern neighbor, the United States and 
Mexico have initiated a joint working group between the 
Coordinator for Counterterrorism and Mexico's Bureau of 
Intelligence and Investigation. That working group will address 
the full range of terrorism issues, including weapons of mass 
destruction and bioterrorism.
    The Department is not engaged directly with communities 
along the border to work cooperatively with Canada and Mexico 
in the event of a bioterrorism attack or other form of attack. 
Several domestic federal agencies, however, are involved in 
such local level activities. I would refer you to the Office of 
Homeland Security and the Federal Emergency Management Agency 
for more specific information in that regard.

                            MONEY LAUNDERING

    Chairman Byrd. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman. Mr. Secretary, I 
pursued this issue with Secretary O'Neill, but I want to raise 
it with you, because I think it does involve diplomatic 
relations with other countries, and it may well be that those 
that you've identified as front line states are particularly 
involved. And I'm talking about pursuing money.
    Money laundering of drug money is an issue that, of course, 
we all pay attention to, and I'd like you to talk about what 
other countries have agreed to do in a diplomatic channel to do 
drug money laundering, but particularly with respect to 
homeland security. We've all seen that interdiction of 
terrorist money is a very significant part of our homeland 
security. Are there countries that are resisting international 
efforts to trace money? Are there countries whose foreign 
ministers are saying, ``That's an internal issue and the United 
States should butt out or somebody else should butt out, we 
will handle our own banking system,'' that might, in fact, be 
giving haven to this?
    And, as I said to Secretary O'Neill, I'm particularly 
concerned about funds held by Iranians--the Iranians, that may 
have implications for the financing of international terrorism. 
We do not think of Iran as a source of funding for al Qaeda, 
but I think Iran may well be a major source of funding for 
other terrorist groups besides al Qaeda, and I'd just be 
interested in your comment in this whole area.
    Secretary Powell. As you know, there are states that we 
list as sponsors of terrorism, and Iran is one of them. Iran 
certainly provides support to organizations, such as Hezbollah. 
But for the most part, those nations that we have normal 
relations with or an alliance with have been very forthcoming.
    I can't think of a foreign minister who has said to me, ``I 
don't want anything to do with it. Go talk to Treasury.'' In a 
number of cases, there are domestic laws that they have to work 
with. Because they have to work through their parliaments and 
legislatures to get the necessary changes to their laws, they 
may not respond as quickly as we would like. The overall grade 
that I would give to this effort is a high grade, a B or an A, 
in terms of their understanding of the problem. They understand 
that this can affect them just as much as it affects us. They 
are committed to this campaign against terrorism, and they are 
committed to the requirements of U.N. Resolution 1373. They're 
working on it.
    Now, they're not all working as fast, and they're not all 
able to do quite what we are able to do with our banking 
systems, but I have gotten good cooperation from those 
countries that are friends and allies of ours. We have to 
continue to work with those countries who are known as sponsors 
of terrorism, such as Iran, and make sure that they understand 
that this will just further ostracize them within the world 
community.

                   DISRUPTION OF TERRORIST FINANCING

    Senator Bennett. Do you have a gut feeling that we have, in 
fact, disrupted financing of terrorist groups or that we have--
--
    Secretary Powell. Yes.
    Senator Bennett [continuing]. A lot more to do? Or just 
where are we?
    Secretary Powell. I have a gut feeling that our efforts 
have had some success, but I also have a gut feeling right next 
to it that there's a lot more to do and that we're learning 
more with each day. I think Paul O'Neill would agree with me 
when I say that it is far more extensive a network and a far 
more complicated network to completely understand and then 
interdict than we might have thought 9 months ago.
    Senator Bennett. Thank you. I appreciate your focus on it. 
I think the more we can do in this area, the better off we are, 
because if there is no funding, operations become much more 
difficult. I've forgotten who was the political philosopher 
that said that the military was an extension the economic 
strength of the sponsoring state, and if the sponsoring 
organization, whatever it might be, has no economy of its own, 
and we can interdict funds passing to it--you understand that.
    Secretary Powell. Yes, sir.
    Senator Bennett. Thank you very much for focusing on this. 
I would appreciate your continuing to do it.
    Secretary Powell. Thank you, Senator Bennett.
    Chairman Byrd. Thank you, Senator Bennett. Senator 
Landrieu.

                     U.S. DEPENDENCE ON FOREIGN OIL

    Senator Landrieu. Thank you, Mr. Secretary. I appreciate 
you being here this morning. Let me ask you this, a little 
different line of questioning. In your current position, and 
also in your former position, you would be probably in a 
perfect spot to comment. You understand that security can be 
achieved and enhanced a variety of different methods and ways. 
One way, obviously, is by strengthening our relationships with 
our neighbors through trade and diplomacy so that there is 
prosperity and an inclination towards peace because of that. We 
also obtain security by developing and deploying, when 
necessary, a powerful military that intimidates potential 
adversaries. But we also gain security by reducing our 
vulnerabilities.
    One of our vulnerabilities, a growing awareness of many 
Americans, is that this Nation relies on a commodity from other 
countries to drive its economy, one particular commodity, that 
being foreign oil. Richard Holbrooke, one of our former 
Ambassadors, described our over-reliance on foreign oil as one 
of the greatest mistakes in American foreign policy in the last 
40 years.
    Do you believe that our oil dependence limits our 
diplomatic options? And if so, in what ways? Does our reliance 
on foreign oil imports compromise our commitments to human 
rights and values that Americans hold dear? Do you believe that 
energy independence through new technologies, increased 
efficiencies and increased domestic production would aid us in 
our efforts to promote American values and interests abroad?
    Secretary Powell. I'm not sure I would have characterized 
it quite the way that my good friend, Richard Holbrooke, did by 
saying that it was the greatest failure of American foreign 
policy over the last 40 years. It may well be a weakness of 
American domestic policy for not weaning ourselves from our 
appetite for oil and in such quantities, for having a 
dependence on foreign oil as well as domestic oil. But, I don't 
think it has necessarily contaminated our approach to nations 
that are the sources of that oil.
    We have good relations with them. We cooperate in many 
ways, besides the provision of energy, and we are working with 
countries that have the oil but need to sell the oil. It is in 
their interest to be good suppliers of that which we demand. I 
think, however, that it would be in our interest to do more to 
exploit domestic sources of oil, whether it's fossil fuel or, 
frankly, nuclear power. This certainly is in our interest.
    I think the world is also so interdependent and so 
complicated and our appetite is so great that to suggest that 
we can ultimately be free of the requirement for foreign oil 
supplies is not something we're likely to achieve in, 
certainly, my lifetime. It's one of those commodities that 
crosses boundaries, that is fungible, that people need to sell, 
and that other people need to buy.
    But, I would agree with you that we need to reduce our 
dependency to the extent that overseas suppliers might not have 
as much leverage as they have now.
    Senator Landrieu. Could you comment--I think I have a few 
more minutes--could you kind of describe that leverage, if you 
would, you mentioned that there would be other commodities that 
some of these countries would sell to us. If you took oil off 
the table----
    Secretary Powell. I don't think that--I'm sorry. Go ahead.

                     U.S. INTEREST IN SAUDI ARABIA

    Senator Landrieu. I thought I heard you say that, you know, 
it's not only oil. If you took oil off the table, let's say, 
for Saudi Arabia, what other compelling American interests--and 
I know there are others, but would you describe what maybe one 
of two of those other compelling interests would be for us?
    Secretary Powell. For Saudi Arabia, we have a 60-year 
friendship with a nation that is an important country in its 
part of the world. One cannot overlook the fact of oil and the 
fact that Saudi Arabia is a solid friend to the United States, 
a supplier to the United States of oil, and has been a reliable 
supplier for most of the past 60 years. There have been some 
interruptions, of course, in the oil crisis in the early 1970s.
    But it was Saudi Arabia who, when others started to say, 
``Let's use oil as a weapon,'' sat up and said last week, ``We 
will not use oil as a weapon.'' If some other country thinks 
that they can withhold certain quantities from the market, 
Saudi Arabia has always expressed a willingness in recent years 
to make up the difference. It's that kind of partnership and 
friendship that we have with Saudi Arabia and that serves our 
interests and serves their interest. It doesn't mean that we 
can't speak to them, as we did last week when they visited the 
United States, in strong terms about other issues that we have 
with respect to our campaign, our mutual campaign, against 
terrorism. We encouraged them to start to take actions within 
their society to deal with some of the challenges that their 
society is facing, societal challenges and economic challenges 
that go beyond oil, such as both a younger population that 
needs jobs and has to be trained for those jobs and an economy 
that has to diversify.
    We can talk candidly to our friends, and at the same time, 
we both benefit from a commodity that is so valuable and that 
we need so much and which they provide.
    Senator Landrieu. Well, I appreciate your comments, but I 
look forward to exploring this in greater detail. My time is 
expired, but I do think that the American people have in their 
mind an idea that we could, in fact, be energy independent by 
using new technologies, new efficiencies, and expanding our 
variety of energy sources, and that we would then be even more 
powerful as a Nation and be able to develop good relations with 
countries based on our values, not our needs and 
vulnerabilities and our weaknesses. Thank you.
    Chairman Byrd. Thank you, Senator Landrieu. Senator 
Domenici.
    Senator Domenici. Mr. Chairman, our seats were filled, and 
so I borrowed one from your side.
    Chairman Byrd. You don't need to explain. Just stay right 
there.

                       REFUGEES FROM AFGHANISTAN

    Senator Domenici. Mr. Secretary, it's the first time I've 
had the opportunity, because I missed your last briefing, to 
compliment you on your work.
    In my few minutes, I want to open by recalling from 
yesterday's Washington Post an interview with an Afghanistan 
man who was in his 60s. He was in a big--it looked like one of 
our horse and buggies that America West, but it was a truck 
with 15 members of his family, including his son, and he was 
the spokesman. He had been gone from that country for 20-plus 
years because he had been run out by the warlords and by what 
was happening. And he was coming back. And three times, he said 
to the reporter, ``Thank you, America. Thank you, America. 
Thank you, America.'' And what he meant was he was finally 
going to risk his family leaving the neighboring country and 
coming back to his land. He was bragging about how beautiful it 
looked and the rest in the story.
    It seems to me we have a very heavy responsibility--one, 
not to over promise and, two, to do what we can to provide for 
a transition which will provide orderliness without which no 
one will invest money. And three, that we have to take care of 
the very serious areas when people are going hungry, or when 
they don't have places to live, refugee-type situations. I 
think if we don't do that, we risk the chance of this whole 
thing turning into something that is a spoiled product instead 
of one that will sprout and look beautiful for America in terms 
of what we do. Would you comment on that, please?
    Secretary Powell. I certainly agree with you, Senator, and 
it's a very moving and touching story when you consider how 
many Afghans have had to live outside of Afghanistan for the 
last 20 to 25 years. It is the largest refugee population in 
the world, with the Afghans living in Pakistan. Now, they're 
going back because they see hope. They see opportunity. But, 
above all, they see security for their family in the back of 
that truck.
    We have an obligation to assist the Interim Authority and 
the next government that comes along to stabilize the country: 
to find jobs for these people who are returning, to help them 
develop the agricultural sector, to give them clean water for 
those kids in the back of the truck, to make sure those kinds 
have health care and schools, and to help them build a military 
and a police force that is multiethnic, that they can be proud 
of, and that will protect them as they go about rebuilding 
their lives.
    President Bush recognized at the very beginning of this 
campaign that we would have to deal with all of these issues. 
We just didn't send bombers in and say, ``When they're through, 
we're leaving.'' We got rid of the Taliban. We got rid of al 
Qaeda. They're on the run now, but we're keeping our troops 
there to make sure that we dig them out, so that they don't 
come back to haunt these people once again.
    I certainly am grateful to receive the thanks, as you are, 
as all Americans are, of this man taking his family back in and 
also understand the obligation we have to that family.

                    QUESTIONS FOR SECRETARY O'NEILL

    Senator Domenici. Mr. Chairman, I did not get here in time 
to ask of the Secretary of the Treasury, but I have three very 
specific questions regarding the border. Incidentally, we pay 
for our border infrastructure on one of our subcommittees. And 
last year one of the committees was generous and put in a 
request that I gave of them for an inventory of the 
infrastructure on the border. It's rather timely. It came 
before this terrorist attack, but we now know, from an outside 
auditing group, what our shortcomings are up and down our 
Mexican border in terms of ports of entry and the like, and 
same for the Canadian. Obviously, we've done a better job of 
maintaining and keeping adequate Canadian ports of entry, for 
some reason, but I thought maybe it would be interesting for 
the committee to know what the administration plans to do with 
that evaluation. It seems to me it's very front and center 
again, because you've got to decide whether you're going to 
stop more people. When you stop more people, you need more 
facilities, but you do get more contraband. No question about 
that. So could I leave that and have that as part of my 
questions?
    Chairman Byrd. Absolutely. I'm sure Secretary O'Neill would 
be happy to answer those, and the committee would be glad to 
have the information.

                    MIDDLE EAST ECONOMIC INITIATIVE

    Senator Domenici. Thank you very much. Let me just say, I 
note that in the supplemental you have a $525 million economic 
support fund for 2002. This includes $50 million for the Middle 
East Economic Initiative, a new program that seeks to promote 
private-sector-led investment and provide employment 
opportunities for the people throughout the region. Now, is 
this not your program? Is it the Secretary of Treasury's 
program that I'm referring to here, or is it yours?
    Secretary Powell. It's the Middle East program. It's mine.
    Senator Domenici. Economic assistance that you're going to 
administer?
    Secretary Powell. Yes.
    Senator Domenici. What is the new Middle East Economic 
Initiative?
    Secretary Powell. It's an initiative to help in the 
reconstruction effort that will get underway, hopefully, as the 
peace process moves forward, to generate economic activity in 
occupied territories and in other parts of the region.
    Senator Domenici. Well, Mr. Chairman, others may know what 
that is, and it may be described in more detail, but I don't 
have it. I wonder if the Secretary could submit what it is----
    Secretary Powell. We'd be happy to provide it in detail.
    [The information follows:]

    The $50 million emergency supplemental request for the MEEI 
will allow us to act immediately to fund projects that will 
create increased economic, educational, and political 
opportunity across the region. At the same time, we intend to 
review all of our existing regional foreign assistance programs 
to re-target them, as necessary, to insure they are meeting 
America's post-September 11 priorities and needs. However, we 
need the ability to begin funding projects immediately, before 
the assistance review is complete. Across the Middle East, we 
have seen that economic hopelessness and political stagnation, 
which breed extremism, are on the rise. Governments are facing 
crucial choices on issues of economic development and policy 
reform. The supplemental funds will be utilized to launch a 
high-level U.S. initiative to engage the governments and people 
of the Middle East in addressing fundamental issues that will 
shape their future.
    MEEI will fund projects in each of three principal target 
areas: (1) Education, (2) Economic Reform/Private Sector 
Development, and (3) Civil Society/Rule of Law. Under the 
education component, we will fund basic education projects 
similar to those currently underway in Morocco (keeping girls 
in school) and Alexandria, Egypt (increased local control, 
establishing parent/teacher organizations). We will also fund 
scholarships for students to study in the United States. Under 
the economic reform/private sector development component, we 
anticipate additional funding for micro-enterprise projects, 
commercial law reform, and a regional Enterprise Fund modeled 
after the successful funds in Eastern Europe and former Soviet 
Union. Under the civil society/rule of law component, we are 
looking at a number of programs, including parliamentarian 
training, support for democratic reforms underway in places 
like Bahrain and Qatar, journalists training, and support for 
polling organizations and think tanks.
    The MEEI supplemental funds will be used primarily to fund 
activities carried out by NGOs, PVOs, and contractors/grantees, 
both United States and indigenous. We are developing criteria 
to evaluate the appropriateness of organizations with which we 
would work. We will work closely with the IFIs under the 
umbrella of the partnership, but do not anticipate transferring 
funding from the supplemental to any of the IFIs. Similarly, 
the initiative will work in partnership with host governments, 
but we do not anticipate that funds will be utilized for 
government-to-government transfers. The initiative will also 
work in partnership with the private sector and the private 
philanthropic community to attempt to leverage U.S. government 
resources to attract additional donors.

                                COLOMBIA

    Senator Domenici. Thank you very much, Mr. Chairman.
    Chairman Byrd. Thank you, Senator Domenici. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary.
    Last week at the Foreign Operations Subcommittee hearing, 
we had a chance to talk about Colombia, and let me follow up 
with two comments for your reaction. First, I note that in the 
supplement, you're requesting permission to move from the very 
restricted counternarcotics operations to a more general one. 
In the words of the submission, ``to support a unified campaign 
against narcotics trafficking, terrorist activities, and other 
threats to its national security.''
    It strikes me, from having been down there on two 
occasions, going out to Tres Esquinas, that the operational 
restrictions on our equipment and our personnel are quite 
severe and that suddenly moving from a very restricted mission, 
which essentially requires everyone that uses those helicopters 
to be vetted operational control, to only being in the hands of 
people, senior leaders who have been vetted, to a more 
generalized situation, it's going to be virtually--well, it's 
going to be very difficult to continue those types of controls, 
outside of vetting those human rights.
    Does it make more sense to send up explicit changes to the 
rules that you might see as being consistent with this new 
generalized mission, rather than simply saying, as you are, 
we're going to abide by all the rules? When, in fact, I think 
that in practice, it might be virtually impossible to do so?
    Secretary Powell. I don't know that it's impossible. If it 
turns out to be impossible, then clearly, we should come back 
to Congress and get clarification of Congress' intent and see 
what rules are appropriate. In the particular request before 
you, we needed to remove the barriers that keeps us from doing 
the kinds of things that are now necessary to be done in order 
to permit President Pastrana and the next Colombian president 
to take on the threat of both narcotics traffickers and 
terrorists. The line that currently exists does not allow them 
to do that in an efficient way. Once the President ended the 
safe areas for the FARC and the ELN, it became clear that it 
was necessary for us to get this kind of legislative relief in 
order to deal with the comprehensive threat.
    I'm more persuaded of that now than I was even when we 
submitted it, when I see the kinds of activities the FARC are 
engaging in that threaten Colombian democracy: assassination of 
officials, going after mayors, kidnappings, hijackings. All of 
these things have to be dealt with, and we need the flexibility 
in order to give the Colombian Government the assistance it 
needs to go after this kind of threat.
    Senator Reed. Well, again, I think it might be useful at 
this juncture to try to explicitly and consciously think 
through what changes might be required to have an operation 
that can be successful and also maintain fidelity to the human 
rights constraints that are in place.
    Secretary Powell. Yes. As you know, we did say we would 
maintain the fidelity to the various amendments that have bound 
this money and these investments, but I would be more than 
happy to pursue this with you, Senator Reed.

                COLOMBIAN INVESTMENT IN THEIR SITUATION

    Senator Reed. One other related point, Mr. Secretary, and 
that is regardless of what we do, this effort must be 
significantly that of the government and the people of 
Colombia. And it appears that their investment in their own 
military forces, in their operations against the various 
guerilla bands in the country, has not been adequate for the 
task. And until we can, not just work with them, but encourage 
them to mobilize their own military forces, they have a huge 
country and a rather small army relative to that country. Their 
air force operations have not been as aggressive as some of 
their army operations. Until we do that, whatever aid we give 
them will not be decisive.
    Secretary Powell. We discussed this last week also, 
Senator, and you can be sure that when the new president comes 
in later this summer, this is an area we will be pursuing with 
him. They have to make more of an investment of their own 
national treasury and budget in this effort.
    Senator Reed. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Chairman Byrd. Senator Reed, thank you.
    Senator Hutchison.

                                 EGYPT

    Senator Hutchison. Thank you, Mr. Chairman. And I thank 
you, Mr. Secretary, for taking time from your schedule for 
coming and visit with us.
    I understand that in your opening statement, you said that 
some of the Arab nations were being helpful in trying to 
negotiate a cease-fire in the Middle East conflict right now. I 
have been troubled by the lack of attention by some of the 
moderate Arab nations to this Middle East conflict, and 
particularly, I have watched Egypt and their behavior, 
considering that we gave Egypt $1.9 billion in last year's 
budget. We have around that amount in next year's budget.
    This is the Appropriations Committee. And I would just ask 
you if you believe that Egypt's behavior would warrant that 
kind of investment by America? Are they doing what you consider 
enough, in a leadership capacity, to help bring the parties 
together in this conflict? Or should we really look at the $1.9 
billion that we have been giving to Egypt, really for many 
years?
    Secretary Powell. I would maintain the $1.9 billion, and we 
have been giving them roughly this amount in proportion to 
Israel for many years, as a result of the Camp David Accords. 
Egypt has been very helpful. President Mubarak is always there 
when the President calls him or when I call him. My foreign 
minister colleague in Egypt, Foreign Minister Mehare, has been 
helpful in communicating messages to the Palestinian side and 
working with other Arab nations to get things moving.
    Over the weekend, as we were pulling together this deal 
that we worked on to resolve the situation around Ramallah with 
Chairman Arafat, I was able to call President Mubarak and 
reached him within a few moments' time and asked for his 
assistance, which he immediately offered and then acted on that 
offer.
    They have been responsive, and I think they have been good 
partners. That is not to say that they are uniformly uncritical 
of us. Sometimes, we have debates and disagreements over 
issues. But, because we are close friends, these are debates 
and disagreements that we can resolve.
    Senator Hutchison. So you are satisfied that this is an 
investment that will produce a leadership position? It appears, 
perhaps, that more is being done behind the scenes than would 
be seen out front.
    Secretary Powell. I think a lot is done out front, as well 
as behind the scenes. President Mubarak in Egypt has been 
playing a leadership role in trying to find a solution to this 
terrible crisis we face in the Middle East.

                       OTHER ARAB NATION SUPPORT

    Senator Hutchison. Are there other Arab nations that you 
think are doing as much as they could? Is Saudi Arabia? Is 
Jordan? Is Syria at the table at all?
    Secretary Powell. I think Syria, of course, is a slightly 
different case. I visited with President Assad 2 weeks ago, and 
we noticed an immediate decrease, right after that visit in 
activity generated by Hezbollah, across the border between 
south Lebanon and north Israel. It's not totally calm, but it's 
calmer than it was before. They can play a role.
    Jordan and Saudi Arabia have played important roles, 
especially Saudi Arabia. I have to say a word about the Crown 
Prince's initiative that he put forward before the Arab League, 
which has now become the position of the Arab League. It will 
become one of the key elements as we move forward with our 
political initiative.
    Just as I called President Mubarak over the weekend, I 
called King Abdullah, and I was able to reach him in about 10 
minutes flat. I was able to reach the Saudi foreign minister 
repeatedly, as he was in Texas over the weekend. All of them, 
upon my request, acted and talked to Palestinian leaders and 
made sure they understood the importance of taking the deal 
that was on the table. These are leaders and governments that 
we work closely with and that are supportive of our efforts.
    Senator Hutchison. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman, for having these hearings.
    Chairman Byrd. Thank you, Senator Hutchison.
    Mr. Secretary, would you, in response to the questions by 
Senator Hutchison, provide for the committee information that 
might be included in the record concerning the investment--I 
believe that's the word that's been used here--investment of 
monies in Egypt and in Israel in accordance with the Camp David 
Accords: how much has been provided to Egypt over how many 
years, how much has been provided to Israel over how many 
years, so that the committee might have before it the complete 
record?
    Secretary Powell. I'd be pleased to do so, Mr. Chairman.
    [The information follows:]

    The Department believes that these funds are an investment 
in peace and stability in a region of essential importance to 
the United States' national security. Our pledge to both 
nations derives in large measure from our commitment to the 
1979 Camp David Accords.
    Assistance to Egypt helps to support a crucial partner in 
maintenance of regional stability and the search for a peaceful 
settlement of the Israeli-Palestinian conflict. Military 
assistance to Egypt helps to modernize Egypt's military so that 
it can fulfill Egypt's legitimate defense needs and work with 
us on important issues of regional security. Our economic 
assistance helps to develop a key economic pillar of the Arab 
world: a $100 billion economy that serves 67 million people 
(one-fourth of the Arab world), and a $4.7 billion-per-year 
trading partner, with whom we have a $3.8 billion-per-year 
trade surplus.
    The United States maintains a steadfast commitment to 
Israel's security, to maintaining its qualitative military 
edge, and to strengthening Israel's ability to defend itself. 
Military assistance to Israel constitutes an important part of 
U.S. support for these objectives. Our economic assistance, 
though declining by mutual agreement with the Government of 
Israel, continues to support Israel's economic and political 
stability, and to relieve the impact of economic burdens Israel 
has incurred due to its isolation in the region and the 
unstable situation in the Middle East.

                 U.S. MILITARY AND ECONOMIC ASSISTANCE PROGRAM TO ISRAEL FISCAL YEARS 1949-2002
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                     Economic
                           Fiscal Year                               Military      Support Fund        Total
----------------------------------------------------------------------------------------------------------------
1949-1996.......................................................      29,014,900      23,122,000      52,136,900
1997............................................................       1,800,000       1,200,000       3,000,000
1998............................................................       1,800,000       1,200,000       3,000,000
1999............................................................       1,860,000       1,080,000       2,940,000
2000............................................................   \1\ 3,120,000     \2\ 949,100       4,069,000
2001............................................................       1,980,000         840,000       2,820,000
2002............................................................       2,040,000         720,000       2,760,000
                                                                 -----------------------------------------------
      TOTAL.....................................................      41,614,900      29,111,100      70,726,000
----------------------------------------------------------------------------------------------------------------
\1\ Includes $1.2 billion for the Wye agreement and $1.92 billion in annual military aid.
\2\ Earmarked for $960 million for fiscal year 2000 but reduced to meet the 0.38 percent rescission.


                  U.S. MILITARY AND ECONOMIC ASSISTANCE PROGRAM TO EGYPT FISCAL YEARS 1975-2002
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                     Economic
                   Fiscal Year                       Military      Support Fund    Food Aid \1\        Total
----------------------------------------------------------------------------------------------------------------
1975............................................  ..............         261,200         110,712         371,912
1976............................................  ..............         794,900         191,671         986,571
1977............................................  ..............         699,250         192,646         891,896
1978............................................  ..............         750,760         189,093         939,853
1979............................................  ..............         835,000         229,706       1,064,706
1980............................................       1,500,000     \2\ 865,000         299,182       2,664,182
1981............................................         550,000         829,000         298,353       1,677,353
1982............................................         700,000         771,000         290,848       1,761,848
1983............................................         900,000         750,000         257,542       1,907,542
1984............................................       1,300,000         750,000         264,461       2,314,461
1985............................................       1,300,000       1,065,000     \3\ 236,248       2,601,248
1986............................................       1,244,100       1,068,434     \3\ 218,544       2,531,078
1987............................................       1,300,000         819,558         171,025       2,290,583
1988............................................       1,300,000         717,820         170,995       2,188,815
1989............................................       1,300,000         815,000         160,203       2,275,203
1990............................................       1,300,000         898,389         203,000       2,401,389
1991............................................       1,300,000         780,819         220,000   \4\ 2,300,819
1992............................................       1,300,000         892,006         150,000       2,342,006
1993............................................       1,300,000         747,000  ..............   \5\ 2,047,000
1994............................................       1,300,000         592,300  ..............   \5\ 1,892,300
1995............................................       1,300,000         973,661  ..............       2,273,661
1996............................................       1,300,000         816,842  ..............       2,116,842
1997............................................       1,300,000         809,093  ..............       2,109,093
1998............................................       1,300,000         826,592  ..............       2,126,592
1999............................................       1,300,000         859,727  ..............       2,159,727
2000............................................       1,300,000         740,723  ..............       2,040,723
2001............................................       1,300,000         406,300         ( \6\ )       1,706,300
2002............................................       1,300,000         961,510         ( \7\ )       2,261,510
                                                 ---------------------------------------------------------------
      Total.....................................      28,294,100      22,096,884       3,854,229      54,245,213
----------------------------------------------------------------------------------------------------------------
\1\ Represents obligations by year, does not include deobligations.
\2\ Includes fiscal year 1979 military assistance.
\3\ Includes a supplemental Cash Transfer of $500 million that was obligated over two years.
\4\ Fiscal year 1991 includes $55 million of Section 416B.
\5\ Public Law 480 allocations for fiscal year 1993 of $50 million and fiscal year 1994 of $35 million were not
  utilized by the Egyptian Government.
\6\ Delay in receiving the budget allowance is the reason for this reduced amount.
\7\ The fiscal year 2002 amounts are projections and include the carryover from fiscal year 2001.

                      COMPLIMENTS TO THE SECRETARY

    Chairman Byrd. Senator Cochran.
    Senator Cochran. Mr. Chairman, let me take my time to thank 
the Secretary for his patience and his complete answers in 
cooperation with the committee. I know that we had indicated 
that you would be here for about an hour, and it's been almost 
2 hours, and we appreciate your cooperation and your assistance 
and the information you're providing to us.
    I don't have any specific questions, but I want to 
compliment you on your performance as Secretary of State and 
thank you very much----
    Secretary Powell. Thank you, Senator.
    Senator Cochran [continuing]. For all you've done for our 
country.
    Secretary Powell. Thank you, Senator.
    Chairman Byrd. Senator DeWine, you were here earlier, and 
you may----
    Senator DeWine. Thank you.
    Chairman Byrd [continuing]. Like to ask some questions at 
this point.

             DRUG INTERDICTION FLIGHTS TO PERU AND COLOMBIA

    Senator DeWine. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for the great job you are doing for our country. We 
are deeply in your debt for doing that.
    Let me ask you a question. There was a report in this 
morning's paper about the plans to resume the drug interdiction 
flights in regard to Peru and Colombia. The report in the paper 
indicated that there would be a State Department employee who 
would be aboard each flight, but that the final decision about 
whether there would actually be a shoot-down would be by the 
host country's military. I wonder if you could tell us anything 
about that and tell us maybe a little bit about what the 
thought process has been as the administration has looked at 
this very difficult question.
    Secretary Powell. As you know, Senator, as the result of 
the tragic accident last year, we stopped our flights and took 
a very detailed look and examination of all the processes, 
procedures, and policies that were being followed. We have now 
finished that review and are prepared to move forward.
    Ultimately, though, the decision to employ lethal force 
against an airplane that might be trafficking in drugs has to 
be that of the nation and not something ordered by the United 
States. They have to have national sovereignty over their own 
armed forces conducting such operations, and that has always 
been the premise upon which these flights have been flown. So, 
we will help them. We will help identify and help make sure 
that we know what's being gone after, but, the actual use of 
the lethal force and the decision to use that lethal force is a 
sovereign decision for the nation concerned.
    Senator DeWine. The report indicated the State Department 
would be doing this, as opposed to another department.
    Secretary Powell. I would prefer to provide the details of 
it privately and for the record.
    [The information follows:]

    You asked about a report in the Washington Post (April 30) 
concerning State Department plans to resume drug interdiction 
flights in Peru and Colombia. We are prepared to brief you and/
or your staff on the sensitive aspects of this program at your 
earliest convenience.
    Assistant Secretary Rand Beers, of the Bureau for 
International Narcotics and Law Enforcement Affairs (INL), and 
his senior program staff will be the briefers. Please have your 
staff contact Tamara Faulkner at 202-647-8708 to arrange for 
the briefing.

                    EXPANDED AUTHORITY FOR COLOMBIA

    Senator DeWine. I would appreciate that. Let me just 
comment, if I could, congratulate you on being so forthright 
about your request for expanded authority in regard to 
Colombia. And I think it is important that the administration 
continue to make the point that what is at stake here is not 
just the fact that drugs come from Colombia and that we consume 
an awful lot of drugs.
    That is very, very, very important, but that is just part 
of the story, that this is an ally of the United States. This 
is a friend of the United States. This is an old democracy in 
this hemisphere, and it is in our national interest for this 
Government to survive. And I think you've been very articulate 
in that regard, and your comments today are very appreciated. 
And I just would encourage you to continue to do that.
    Secretary Powell. Thank you, Senator.
    Senator DeWine. Thank you, Mr. Secretary.
    Chairman Byrd. Thank you, Senator. Senator Kohl, are you 
here for questions of the Secretary of State?
    Senator Kohl. Yes, just briefly.
    Chairman Byrd. Please proceed.

                                  IRAQ

    Senator Kohl. Thank you very much. Secretary Powell, the 
New York Times reported Sunday that the administration is 
developing plans for a major air and ground war against Iraq 
that might involve up to as many as 250,000 men and women. 
While no one here, of course, is a friend of Saddam Hussein's, 
and we'd all be happy to see him go, I'm concerned that, given 
our involvement elsewhere, that we be careful not to take on 
more than we can handle.
    Now, there's no funding for such an effort in the 
supplemental request. Can you comment on that? And at what 
point will the administration consult with Congress about plans 
that it may have with regard to Iraq? And would there be a 
request for, if necessary, a declaration of war?
    Secretary Powell. Senator, the President does not have a 
military plan on his desk now of the kind described in the 
press story.

                     PALESTINIANS IN REFUGEE CAMPS

    Senator Kohl. I thank you. Mr. Secretary, could you explain 
why it is that Palestinians continue to live in refugee camps 
in areas of the West Bank and Gaza that are under full 
Palestinian control? Shouldn't our recently committed funding 
to help in Palestinian reconstruction be at least devoted to 
building permanent housing rather than reconstructing a refugee 
camp? These refugees have remained in the camps on the 
assumption that they will return to Israel, so is it not time 
to dismantle those camps and allow them to live a normal life 
under Palestinian control?
    Secretary Powell. As you well know, Senator, this is one of 
the more complicated questions affecting how we arrive at a 
solution to the crisis in the Middle East. Some of these camps 
are not so much camps anymore, as you saw in some of the 
pictures in recent weeks. They are small towns classified as 
camps. The refugees are not living in tents. They're living in 
buildings, but, they are still camps in order to protect their 
status as refugees.
    One of the most difficult issues to resolve is the issue of 
the return of refugees to anywhere they wish to go, whether it 
be where they might have come from originally or where their 
families might have come from originally. In order to preserve 
that status as refugees, these camps continue to exist. Some 
people have moved out of them, and some are determined to live 
in these camps until such time as the situation is resolved. 
But, we are a long way's away from resolving that situation. To 
the extent that alternative places to live and other housing 
can be built to draw people from these camps and give them a 
choice to settle somewhere else, it certainly seems to be a 
smart thing to consider.
    Senator Kohl. I thank you. I thank you, Mr. Chairman.

                         U.S. ROLE IN COLOMBIA

    Chairman Byrd. Thank you, Senator Kohl.
    Now, Mr. Secretary, you've been detained far beyond your 
expectations or ours, to begin with, and we thank you. Let me 
ask you about three questions, which should require short 
answers.
    I understand that the administration does not intend to use 
U.S. troops or U.S. civilian contractors in a combat role in 
Colombia. Is that correct?
    Secretary Powell. Yes, sir.
    Chairman Byrd. Would you have any problem if we included 
language in the supplemental that prohibits U.S. troops or U.S. 
civilian contractors from being involved in a combat role in 
Colombia?
    Secretary Powell. None that I can see, but I would like to 
get an administration position for you.
    [The information follows:]

    As you recall, you asked the Secretary if he would have any 
objection were the Congress to include language in the fiscal 
year 2002 Supplemental appropriation request that would 
prohibit U.S. troops or U.S. civilian contractors from being 
involved in a combat role in Colombia.
    The Department has consulted within the Executive Branch on 
this question and again confirms that the Administration has no 
intention of using U.S. military forces or U.S. citizen 
civilian contractors in a combat role in Colombia. However, as 
a matter of principle, the Administration would object to such 
language written into law which could restrict flexibility to 
act in circumstances that cannot now be foreseen.

               TIMING OF EXPANDED AUTHORITY FOR COLOMBIA

    Chairman Byrd. The Government of Colombia will change hands 
this summer. We don't know who the next president will be. Why 
should we broaden our policy and increase our aid to Colombia 
when we don't know with whom we will be dealing a few months 
down the road?
    Secretary Powell. That was a question we dealt with when we 
considered whether we should go for the authority. The 
judgement we made, because the situation was so critical, was 
that we should ask for the authority now, recognizing that it 
would be authority that was going to be used, for the most 
part, by the next government. But, if we didn't ask for it now, 
the next government would come in, and we would still be 
looking for the legislative vehicle to hook it onto. So, we 
thought, even though it would apply to the few remaining months 
of the Pastrana administration and after looking at who the 
candidates were and who's liable to come in, it seemed to us to 
be the wise course of action to ask for the relief now.

                      U.S. AID TO EGYPT AND ISRAEL

    Chairman Byrd. This is my final question. Mr. Secretary, 
every year, we appropriate roughly $2 billion to Egypt, roughly 
$3 billion to Israel, in accordance with the Camp David 
agreement. Why shouldn't this money for each country be used as 
a tool to promote peace over there? Why shouldn't we say to 
them--why shouldn't we tell them that if they don't both work 
together to promote peace and to achieve a peace agreement that 
they cannot count on that money as forthcoming? Why can't we 
use that?
    Here we are, we strap ourselves in this country for monies 
that are needed by veterans, monies that are needed for clean 
water, and, in many, many rural counties throughout the 
country, monies to improve our highways, monies to improve our 
health system, monies to deal with environmental problems. And 
yet, in accordance with those accords and the agreement reached 
at that time, those monies are budgeted, I'm sure, by both of 
those countries as though they were entitlements. They're 
included in the budgets.
    Why shouldn't we use this money to promote the getting 
together of these two sides by saying, ``Okay, now, this money 
is here. It comes from the American taxpayers. We want to see 
peace in the region. And if you don't hear us, then we're going 
to--the money is not going to be necessarily forthcoming in the 
future, or what hasn't been expended may not come yet''? Why 
shouldn't this money be used to promote stronger peace efforts 
on the part of both sides in that region?
    Secretary Powell. In the first instance, the money was used 
for that, and it produced and helped cement the peace between 
Egypt and Israel, a peace that has held for many, many years. 
It's a big piece of change, as we say in the South Bronx, and I 
suspect parts of West Virginia, but it has served its purpose 
for many years in cementing that peace between Egypt and 
Israel.
    What will produce peace in the region now is security, 
confidence building between the two sides, and a political 
process to move forward. To start to punish either Egypt or 
Israel by withholding funds or in some way sanctioning them 
because they're not doing enough will not achieve the 
objective. The one who would be hurt the most, I think, would 
be Israel, because Egypt can't produce the peace. It's the 
Palestine people and the Palestinian leadership that will have 
to produce the peace with Israel, and that's what we're working 
on. So, I think withholding money or punishing one or the other 
side right now would not assist us in the effort to achieve 
peace.
    Chairman Byrd. Well, I regret to hear, or read in the 
papers, that some of the calls by Mr. Bush go unheeded in the 
area. So with all of the support that this country has given to 
both sides in trying to help both sides, I note time after 
time, very recently, the requests by our own President not only 
go unheeded, but actions are taken that fly in the face of our 
President's request.
    So it seems to me it's not necessarily punishing them. How 
long are we going to continue this, $3 billion to one side, $2 
billion to the other side, how much longer are we expected to 
continue this?
    Secretary Powell. Mr. Chairman, even if we had peace 
tomorrow, those accounts would still be there. It's an 
obligation the United States entered into many years ago that 
has no end to it, until such time as an administration and a 
Congress together decide that it should be modified in some way 
or ended.
    Chairman Byrd. Well, that time for modification, it would 
seem to me, might be affected by the attention that both sides 
pay to the requests of the American leader, the President.
    Secretary Powell. I think the President has put forward 
requests to both sides, especially the Israelis, and he put 
forward another request to Mr. Sharon this past Saturday. We 
saw that acted upon rather promptly. Although the withdrawal 
you're referring to didn't take place as quickly as we would 
have liked, it is now taking place, even though there are some 
outstanding issues associated with it at the Church of the 
Nativity in Bethlehem and in Ramallah. But, all of those are in 
the process of being resolved, as we sit here today.
    Chairman Byrd. Mr. Secretary, we thank you for your 
testimony, we thank you for your time, we thank you for your 
service, and we look forward to seeing you again.
    Secretary Powell. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Pete V. Domenici
                         embassy in afghanistan
    Question. Can you tell us the status of our operations in Kabul and 
Dushanbe currently? What is the number of State Department and other 
personnel, and what are their functions? How have you been funding 
operations thus far? Is the bulk of this supplemental funding for 
diplomatic security improvements or for other infrastructure and 
operating requirements?
    Answer. We reopened our mission in Kabul on December 17, 2001, as a 
U.S. liaison office. On January 17, 2002, we designated our mission a 
U.S. embassy. We presently have twenty American State Department 
personnel in Kabul on a long-term temporary duty basis. These State 
employees perform a full range of diplomatic and consular functions, 
including relations with the Afghan Interim Authority, political and 
economic reporting, provision of consular services to American 
citizens, public diplomacy, and administrative and security management. 
The Department of Defense has ten employees performing military liaison 
functions. The U.S. Agency for International Development has six 
employees coordinating U.S. assistance to Afghanistan. The Drug 
Enforcement Agency of the Justice Department has two employees 
performing counter-narcotics activities. The Treasury Department has a 
financial advisor attached to the Government of Afghanistan who lives 
and works out of the embassy. A security force of eighty six Marines 
secures the compound.
    Because of security concerns, the U.S. Embassy in Dushanbe has been 
based offshore in Almaty, Kazakhstan, since 1998. American employees 
reside in Almaty and travel to Dushanbe on a temporary duty basis. 
Since September 11, 2001, Americans have been present in Dushanbe on a 
rotating basis one hundred percent of the time. Operations in Dushanbe 
are conducted out of the Ambassador's residence. Security conditions 
and the lack of an adequate facility prohibit re-establishing permanent 
operations in Dushanbe at this time. At present, we have four State 
employees (the Ambassador, Deputy Chief of Mission, Political/Economic/
Consular Public Affairs Officer, and a Security Officer) and one 
Department of Defense employee (a Defense Attache) assigned to Embassy 
Dushanbe. We have also established three additional State positions 
(Administrative Officer, Information Programs Officer and Public 
Affairs Officer), which have been filled on a temporary duty basis 
pending the arrival of permanent staff.
    The Department has been funding immediate requirements for Kabul 
and Dushanbe within current Diplomatic & Consular Program and Embassy 
Security, Construction & Maintenance resources. To fund unbudgeted 
operational expenses, the Department has deferred other operating 
requirements pending receipt of the emergency supplemental funding.
    Of the $20.3 million requested within the Diplomatic and Consular 
Programs appropriation, $15.3 million is for diplomatic security 
requirements in Kabul ($10 million) and Dushanbe ($5.3 million). The 
balance of $5.0 million will fund other emergent requirements related 
to the reopening of the mission in Kabul, including program and ICASS 
costs, sewage/fuel/water trucks, IT requirements, and other 
infrastructure needs. The $200.5 million requested within the Embassy 
Security, Construction and Maintenance appropriation is for new 
facilities in Kabul ($120.5 million) and Dushanbe ($80.0 million).
           embassies in afghanistan and tajikistan background
    Question. In addition to (a) $20.3 million for the Kabul and 
Dushanbe operations, (b) $7.5 million for public diplomacy, and (c) 
$8.3 for critical security and medical response programs, what other 
``Diplomatic and Consular Programs'' are you requesting we fund with 
the balance of the total request of $51 million for this account. That 
is, with the remaining $15 million you are requesting for this account?
    Answer. The Department is requesting the balance of the request, a 
total of $15 million, for mail decontamination and safety requirements. 
The Department's unclassified mail and pouch system was contaminated 
with anthrax spores. The requested funding will be used to clean mail 
rooms and mail processing facilities, decontaminate mail, replace 
contaminated equipment and facilities, and restart the Department's 
pouch system. The funding is needed to operate, equip, and secure the 
alternate mail processing facility until the current facility is tested 
and cleaned, provide for overtime and an increased workforce for manual 
mail processing, and clean and/or replace contaminated pouch materials 
and supplies.
                   aid to the central asian republics
    Question. Of the $110 million requested for ``Assistance for the 
Independent States of the Former Soviet Union'' account, after $22 
million for law enforcement programs and $12 million for border 
security programs, what would the remaining $76 million be used for if 
this request is fully funded?
    Answer. The remaining $76 million would be used to address root 
causes of support for extremism such as poverty, isolation, and lack of 
democracy. The vast majority of the funds are proposed for Uzbekistan, 
Kyrgyzstan, and Tajikistan.
    We propose to increase greatly our level of effort in several key 
areas:
  --Provision of quick and sustainable improvements in impoverished 
        communities through improvement of local infrastructure and 
        social services, including health care and water management.
  --Creation of jobs through microcredit and small business training.
  --Ending of cultural isolation by greatly expanding exchanges to the 
        United States, providing Internet access, and by working to 
        reform educational systems.
  --Where central governments prove their reformist intentions, 
        provision of macroeconomic technical assistance to help them 
        institute market reforms.
  --Strengthening of non-governmental organizations, independent 
        television stations and newspapers, and human rights monitors 
        to help them keep pressure on their governments to democratize.
    Question. What is the record of cooperation thus far of these 
countries in cooperating on counter-narcotics and border security 
issues? What sorts of problems have been encountered?
    Answer. Since April 2000, when the United States announced that 
assistance would be provided to help Central Asian states combat 
terrorism and illicit trafficking in weapons of mass destruction, 
conventional arms and narcotics, the countries of the region have 
generally cooperated with the United States. From fiscal years 2000 to 
2002, the United States has budgeted over $87 million in assistance 
under this Central Asia Border Security Initiative (CASI), including 
$39 million in fiscal year 2001 Emergency Supplemental assistance funds 
to help combat terrorism in the wake of September 11.
    Due to different absorptive capacities, programs under CASI have 
been more quickly implemented in Kazakhstan, Uzbekistan, and the Kyrgyz 
Republic. Also, corruption and human rights problems in the region have 
to be factored into our program design. The problem with corruption 
dictates vetted units as the most effective means of combating 
narcotics trafficking. Human rights concerns place limits on our 
ability to engage in assistance projects with some police units. 
Finally, obtaining additional secure working space for those who would 
implement these programs has been a slow process.
                          hiv/aids global fund
    Question. Can you tell us the criteria and process by which these 
40 proposals were selected? As you know, this was a contentious issue 
in setting up the Fund and there were a range of views expressed by the 
many donor governments, businesses, and private organizations that 
contributed to this war chest to fight these horrible epidemics in 
severely affected countries.
    Answer. The Global Fund encourages programs that reflect national 
ownership, respect country-led formulation and implementation 
processes, and are based on scientific, technical, and programmatic 
soundness and adherence to best practices. In making its funding 
decisions, the Fund supports proposals that build on, complement, and 
coordinate with existing regional and national programs (including 
governments, public/private partnerships, NGOs, and civil society 
initiatives) in support of national policies, priorities, and 
partnerships.
    The Global Fund gives priority to proposals from countries and 
regions with the greatest need, based on the highest burden of disease 
and the least ability to bring resources to address AIDS, tuberculosis, 
and malaria. Proposals from countries and regions at a high risk from 
these diseases are also considered. Proposals to the Fund must be 
evidence-based, technically and developmentally sound, and must show 
that added resources will bring added results.
    Following the first call for proposals issued by the Fund on 
February 4, 2002, the Fund received 385 submissions from 101 countries 
by the March 10 deadline. In all, these proposals requested 
approximately $1.15 billion in first year funding from the Global Fund. 
More than half of these proposals were discarded by the Secretariat 
staff for lacking appropriate documentation and on other technical 
grounds. The Secretariat then referred the 145 proposals that had met 
the eligibility requirements to the Technical Review Panel for 
consideration.
    A Technical Review Panel (TRP), charged with ensuring that 
proposals are scientifically and technically sound, feasible and based 
on best practices, was a key demand of the United States during the 
Transitional Working Group meetings. The Panel is an independent group 
of 17 experts in prevention, clinical care, health education, and 
international development. The Panel was selected from among almost 700 
nominees from around the world, and includes members from government 
and non-governmental organizations, the developed and developing 
worlds, and the public and private sectors. Panel members serve in 
their personal capacities as experts in their fields, not as 
representatives of their institutions or governments. The Board, at its 
April 22-24 meeting in New York, considered the recommendations of the 
Technical Review Panel, approved 40 proposals immediately, and decided 
to consider another 18 proposals when further information is received.
                    hiv/aids global fund background
    Question. What types of safeguards and accountability have been set 
up to ensure that grant funds will be used wisely and achieve results?
    Answer. The World Bank has agreed to act as the trustee for the 
Global Fund, with the full scope of its role yet to be defined. 
Currently, the Bank has established holding accounts for contributions 
and has agreed to manage an account for the Fund consistent with its 
standard trust fund practice. At its April meeting, the Board approved 
a contract with the World Bank governing the current relationship. 
Under the contract, the Bank's responsibilities are limited to 
receiving, holding, and disbursing Fund contributions at the direction 
of the Fund. This is the first step in a multi-phase process to 
establish an overall financial accountability framework.
    The Fund expects that the Bank will have a role in downstream 
monetary management, but the precise nature of this role is still under 
discussion. There are still open questions regarding the cost of the 
services the Bank may offer and whether certain functions that may be 
performed by the Bank could effectively be performed by the private 
sector. Work on these financial accountability issues is an immediate 
priority for the Secretariat and the Board.
    The Fund is looking into how to identify entities at the country 
level that could ensure strict fiscal accountability standards. These 
could include branches of international banks, local partners of 
international accounting firms, NGOs currently accounting for funds 
(e.g., those serving as USAID partners), or, in some cases, 
multilateral agencies, as with World Bank Social Funds or UNDP trust 
funds.
    Funds for the first grants will not be disbursed until financial 
and program accountability arrangements are negotiated with recipients 
and questions raised by the Technical Review Panel are answered. In 
most cases, funds will not be disbursed in one lump sum, unless the 
grant award is small enough that tranches would not make sense. The 
Board has agreed that all proposals and grant agreements must include 
mandatory audit provisions, and it is expected that the Fund will 
contract externally for both random and scheduled audits of recipients, 
as well as audits of its own finances.
                          hiv/aids global fund
    Question. What types of monitoring and evaluation procedures have 
been set up to ensure that grant funds will be used properly and have a 
measurable impact?
    Answer. The Board has agreed that all proposals and grant 
agreements must include mandatory audit provisions, and it is expected 
that the Fund will contract externally for both random and scheduled 
audits of recipients, as well as audits of its own finances.
    A Board Working Group has been meeting since March and will 
continue to do so to establish a framework for both project monitoring 
and evaluation. Each proposal will include arrangements for local 
monitoring and evaluation, but the Global Fund itself will take steps 
to verify the reports. Program monitoring will be a subject of 
negotiations between the Fund and grantees prior to signing grant 
agreements.
    Continued funding of proposals will depend on performance reviews. 
The first proposals are approved for two years and can then be 
reconsidered, subject to a performance review and the availability of 
funds.
                  new embassy construction background
    Question. The supplemental requests $200.52 million over the fiscal 
year 2002 appropriation for the ``Embassy Security, Construction, and 
Maintenance'' account. This amount is to be used to meet the costs of 
new embassy construction in Dushanbe, Tajikistan ($80 million) and the 
rehabilitation of the current compound in Kabul, Afghanistan ($120.52 
million). (NOTE: In response to recently communicated Department 
concerns about the lack of availability and safety of local sewer, 
water, and electrical infrastructure in Kabul, the Senate has included 
an additional $10 million to its Supplemental Appropriations bill for 
the Kabul project.)
    I believe that when you were up testifying in February before the 
Senate Foreign Relations Committee, you spoke of what good order the 
sixty or so Foreign Service Nationals in Kabul did in maintaining and 
protecting our Embassy facilities throughout the 13 years it was 
closed. Why then is the request for rehabilitation of that facility so 
high relative to the cost of building a new embassy in Tajikistan? 
Would it be cheaper to just start over and build a brand new embassy 
compound in Kabul?
    Answer. The projects planned for Kabul and Dushanbe are very 
different. The project planned for Dushanbe is of a much smaller scale 
and would provide office space for approximately eighty American and 
Foreign Service National (FSN) employees and quarters for a small 
Marine Security Guard (MSG) detachment.
    Kabul, on the other hand, is a much larger post, in excess of two 
hundred Americans and FSNs and includes much more than just the 
rehabilitation of the existing building. The supplemental request 
includes $25 million for the rehabilitation of the existing building, 
$33 million for the construction of a classified annex, and another $41 
million for on-compound housing. Also included in the request is 
funding for the construction of a Marine Security Guard Quarters, 
General Services Office and warehouse, as well as the costs of 
construction security, special communications equipment, etc. The 
existing building is considered structurally sound, requiring only 
rehabilitation. To build a new embassy compound would significantly 
increase costs and would delay getting the embassy back into a safer, 
more secure operational mode.
                        new embassy construction
    Question. The Embassy Construction account has realized 
efficiencies from changes in the management of Overseas Buildings 
Operations (OBO) and from the standardization of building designs for 
new embassies. However, additional efficiencies could be gained by 
funding the Department's overseas buildings plan for a two-year period, 
or perhaps for an even longer time frame. However, we still have not 
received the Department of State's 5-year building plan or any other 
document that sets out the State Department's strategic long-run 
capital plan. When is the State Department going to send it up here for 
our review?
    Answer. The Bureau of Overseas Buildings Operations' (OBO) Long-
Range Overseas Buildings Plan outlines the facilities requirements, 
including new construction and major renovations, necessary to support 
the Department's priority diplomatic readiness goal. This plan is a 
collaborative effort led by OBO and fully involves the geographic 
bureaus of the Department and other stakeholders. It recognizes that 
planning is essential to the effective management of resources.
    The Plan was initially developed and published (internally) in July 
2001. It was revised in April 2002 to reflect decisions made recently 
by the Congress and the President in the Department's fiscal year 2002 
and fiscal year 2003 budgets. We anticipate that over forty copies of 
the revised plan will be distributed to Members of Congress, 
Congressional Committees, and Congressional staff in May 2002, 
including the Senate Budget Committee Chairman and Ranking Member.
    The Department agrees that the current process of annual 
appropriations and Financial Plan submission results in an inefficient 
compression of the construction contract obligation period into the 
last months of the fiscal year. The Department is open to consideration 
of alternative approaches that can ameliorate this situation so that we 
can start construction on those projects approved by Congress in a more 
timely fashion.
                            aid to pakistan
    Question. What progress has been made with regard to security and 
economic development in Pakistan with the funds already provided to it 
through the ongoing international assistance appropriations and the 
emergency supplemental assistance?
    Answer. The $220 million provided to Pakistan for costs incurred 
while supporting Operation Enduring Freedom (OEF) was transmitted to 
the government in March of 2002, and has enabled continued OEF support 
by Pakistan.
    Procurements related to all components of the $73 million Pakistan 
Border Security Project are proceeding. The USG has finalized a Letter 
of Agreement (LOA) with the Government of Pakistan for the delivery of 
five Huey-2 helicopters, including equipment and spare parts. These 
helicopters are to be delivered later this month, with 12 American 
technicians to assist the Pakistanis in getting the helicopters 
operational. Three fixed-wing aircraft will be ordered shortly, with 
delivery expected in three or four months. Procurement of approximately 
1,305 vehicles and approximately 1,100 radios and other communication 
units is in process. Night-vision goggles and electronic sensor 
equipment and border post and infrastructure upgrades are also being 
procured. Finally, approximately $5 million has been set aside for 
training. Two professionals from the U.S. Department of Justice, 
Criminal Division, International Training and Development Programs 
(ICITAP) are on the ground to coordinate training efforts with the 
various Pakistani law enforcement agencies.
    With very modest inputs from S/CT's Terrorist Interdiction Program 
(TIP) and DS's Anti-terrorism Assistance (ATA) Program, the GOP has 
also afforded the United States unprecedented counterterrorism 
cooperation. U.S. intelligence and law enforcement elements have worked 
closely with Pakistan to identify and detain extremists and to help 
seal its borders and entry points to terrorists.
    By November 2001, Pakistan had frozen over $300,000 in terrorist-
related assets in several banks and has embarked upon sweeping police 
reforms, has upgraded its immigration control system and, with close 
U.S. assistance, has passed new anti-terrorism finance laws. In 
February of this year, both countries agreed to begin counterterrorism 
exchanges. In the Daniel Pearl case, the GOP made several arrests and 
continues to pursue the killers. We seek to give the government of 
Pakistan enhanced investigative capacity so that cases developed 
locally could be tried in U.S. courts.
    Prior to fiscal year 2002, regular U.S. economic development funds 
had not been programmed in Pakistan for several years due to a series 
of sanctions; however, after sanctions were lifted, Congress approved 
the Department's decision to provide a total of $600 million in fiscal 
year 2001 and fiscal year 2002 Economic Support Funds (ESF) for budget 
and balance of payments support to the government of Pakistan. This 
funding, programmed in November 2001, is intended to help mitigate the 
impact of Operation Enduring Freedom on the Pakistani economy, which 
has suffered due to regional instability post-September 11.
    The $600 million enabled the Pakistani government to fund social 
sector programs in education, health and rural employment, strengthened 
Pakistan's balance of payments position, protected poverty reduction 
program expenditures, and limited borrowing. U.S. embassy staff remain 
in regular contact with the government of Pakistan and the donor 
community to follow the use of the $600 million. Pakistan's Ministry of 
Finance recently submitted a detailed report showing that nearly the 
entire grant has been made available to officials responsible for 
implementing the programs and has a monitoring system in place. The 
International Monetary Fund (IMF) and World Bank also report that the 
money is getting out to the provinces as new local government spending 
mechanisms are being implemented.
               effective use of public diplomacy funding
    Question. In your testimony on March 12th before the Senate 
Appropriations Committee on Commerce, Justice, State, and the 
Judiciary, we were told that the public diplomacy funds were being used 
to take full advantage of the ``global news cycle.'' In addition to 
appearances by State Department and Administration officials on Arabic 
television and radio programs, these funds were used to make the State 
Department's website on terror available in seven languages. In 
addition, they paid for a 25-page color publication, ``The Network of 
Terrorism'', available in 30 languages and included as an insert in the 
Arabic edition of News week.
    I wonder whether this is a really effective use of this money? 
Wouldn't these funds be better spent by promoting civil society and 
investing in democracy programs, possibly integrated with mosque and 
religious networks, especially in countries such as Egypt and Pakistan?
    Answer. Substantial Public Diplomacy funds from our Exchanges 
accounts, the funds managed by the Department, were immediately 
directed after September 11. These funds have supported numerous 
democratization programs, provided outreach to moderate Muslim 
communities, and targeted exchange programs of the very type you 
mentioned. Public Diplomacy is a multifaceted process. There are short-
term, tactical issues that must be addressed. Long-term dividends, as 
you point out, are realized through the very exchange, democratization, 
and civil society programs you advocate. The Department's regional 
Middle East Democracy Fund will expend $5 million for Democracy 
programs in the region. Through our public diplomacy function, we will 
continue to engage in and promote our civil society and democracy 
programs. In some targeted markets, especially in the Islamic world, we 
must increase all of these activities.
    In addition, electronic and print publishing are essential 
communication tools. They directly support the development of open 
societies in the Middle East. ``Muslim Life in America'' shows how U.S. 
society accommodates all religions peacefully and productively; Our 
standard publications offered on the Web and in hard copy include 
Arabic-language pamphlets including: ``The Democracy Papers'', 
``Introduction to Human Rights'', ``What Is Democracy'', ``What Is A 
Market Economy'', ``The Language of Trade'', and outlines of American 
history, literature, government, the economy and geography.
    With the funds available post 9/11, we applied them to both our 
immediate, tactical needs as well as our long-term interests. Initial 
programs were used to take the first steps into our overall public 
diplomacy strategy in fighting the war on terrorism. The White House 
set up the Coalition Information Center to coordinate and clarify our 
message, both within the government and with our allies. With offices 
in Islamabad, London, and Washington, we were able to affect the news 
cycle, rather than react to it. This focused our responses, which 
developed substantial foreign media understanding, if not support, for 
our military action in Afghanistan.
    Our websites dealing with the Middle East and the war on terrorism 
have consistently topped Internet search engines since September 11th 
and are an important way to clearly disseminate our message to a global 
audience in our new communications age.
    The Network of Terrorism is a publication that is among the most 
widely disseminated public diplomacy document ever produced by the U.S. 
Government. The publication features dramatic visuals, including a map 
showing the 81 countries that lost citizens in the World Trade Center. 
These visuals make the attack real and demonstrate the human toll of 
such actions. Since its release last November, Network has been 
translated into 36 languages, and we've published over 1.3 million 
copies. We had Network distributed as an insert in the Arabic edition 
of Newsweek, and major excerpts appeared in other Arab and world 
publications.
    All of these expenditures are a necessary and effective use of our 
funds in the immediate aftermath of September 11th.
                      russia and non-proliferation
    Question. Is the Administration working to put together a package 
of economic incentives to offer the Russians in return for their 
agreement to invest in non-proliferation programs and thereby reduce 
the spread of Russian weapons of mass destruction and their expertise?
    Answer. The United States has provided significant resources to 
reduce the dangers of proliferation, yet much remains to be done. We 
are strongly encouraging Russia and other G-8 governments to do more in 
nonproliferation and threat reduction assistance and are exploring a 
range of options to achieve this. No decision has been made with 
respect to a specific plan of action, but we will work with the 
Congress as we proceed.
    Question. If so, should the Congress anticipate yet another 
supplemental in fiscal year 2002 to cover this? What level of funding 
or what specific types of incentives are being considered?
    Answer. As no decision has been made on a specific plan of action 
and related resource requirements, we do not at this time anticipate a 
request for supplemental funding.
                    middle east economic initiative
    Question. Can you elaborate on the vision behind this new 
initiative?
    Answer. The objective of this initiative is to open economies in 
the region and create greater opportunities among disadvantaged groups 
of people at the grass-roots level, where support or sympathy for 
terrorism is most prevalent. In countries across the Middle East, we 
have seen that economic hopelessness and political stagnation can breed 
extremism or support for it.
    We are planning to use the $50 million requested as part of the 
Administration's fiscal year 2002 supplemental appropriations bill to 
fund new high-impact/high-visibility projects immediately in three key 
areas: education; rule of law/civil society; and economic reform/
private sector development. In the area of education, we will establish 
programs aimed at maximizing education opportunity at a grassroots 
level throughout the region by using the following: student exchange 
programs such as Future Leaders Exchanges (FLEX); business internship 
training programs known as Special American Business Internship 
Training (SABIT); journalists training and exchanges; and teacher 
exchanges. We will increase funding for scholarship programs aimed at 
training and cultivating the next generation of leaders. We will also 
replicate the success of basic education projects currently underway, 
such as the USAID-funded program in Alexandria, Egypt.
    Also, we will fund efforts to strengthen civil society and the rule 
of law. We will provide support to local and national leaders across 
the region who are demonstrating a commitment to political reform. We 
will fund projects throughout the region to assist groups, such as 
business associations, think tanks, polling organizations, and media 
organizations, working as platforms for moderate voices.
    Finally, we will fund projects that create economic opportunity and 
clearly signal our support for necessary economic policy reforms. We 
will empower individuals by expanding programs that give access to 
credit for micro, small, and medium-size businesses and that establish 
an enterprise fund. We will provide increased support for reforming 
commercial legal systems, improving investment regimes, and encouraging 
transparency. We will, simultaneously, review all of our existing 
economic assistance programs across the region to insure that our 
assistance money is being spent in a manner consistent with our 
national interest post-September 11.
    Question. Does it include a Micro-finance or Micro-credit element?
    Answer. Yes. We have had significant success with our microcredit 
lending program, which is managed by USAID in countries such as Jordan, 
Egypt, Morocco, and Lebanon. We intend to work with other countries 
including Yemen, Algeria, Tunisia and others in the Gulf to set up 
similar lending outlets.
                              afghanistan
    Question. This Congress has expressed, through legislation, its 
desire to ensure adequate aid is provided to the women and children in 
Afghanistan--two groups that have shouldered a disproportionate burden 
during the last fifteen years.
    Please describe how U.S. aid has been targeted to those vulnerable 
populations?
    Answer. The fundamental principle of respect for women has guided 
and will continue to guide all of our endeavors in Afghanistan. The 
United States recognizes that it is the everyday practical situation on 
the ground that will determine the fate of Afghanistan's women, 
children, internally displaced persons (IDPs), and returning refugees. 
This understanding guides our entire approach to the major task of 
Afghan reconstruction writ large.
    Since the beginning of the current Afghan emergency, the 
Department's Bureau of Population, Refugees and Migration (PRM) has 
provided a total of $107.6 million to support refugees, IDPs, and other 
vulnerable persons. USAID has obligated or committed $166 million for 
food, non-food aid, and reconstruction activities, has firm plans for a 
further $47 million, and has $10 million in reserve. An example of a 
USAID program targeting children is a national health education 
program, focusing on the prevention and treatment of diarrheal illness, 
which is one of the main causes of mortality in children under five 
years old. Another example of outreach to women, girls, and schools is 
the AID-funded publication and distribution throughout the country of 
over nine million primary and secondary school textbooks, a key 
component of the Back-to-School Program for Afghanistan.
    In sum, the United States focus on Afghan women and children is an 
integral part of our overall approach to rebuilding the whole country. 
Under the Afghan Women and Children Relief Act of 2001, the Department 
is submitting shortly to Congress a report entitled ``U.S. Support for 
Afghan Women, Children, and Refugees.''
    Question. How would you rate the Interim Authority's handling of 
issues related to women and children?
    Answer. The Afghan Interim Authority (AIA) has taken a number of 
important and positive steps, including appointing women to the 
Cabinet, reopening education to girls, and lifting the climate of fear 
and repression that characterized the life of women under the Taliban. 
A significant number of the places in the Emergency Loya Jirga (Grand 
Council) that will decide the shape of the AIA's successor are to be 
reserved for women, although the actual number of women who will attend 
in June appears to be less than what had been hoped. In addition, two 
women have been named to the Judicial commission, tasked with revising 
Afghanistan's judicial system.
    We have worked closely with the AIA on these issues and look 
forward to working with the transitional government that follows the 
AIA. In developing our programs for women and children, we have worked 
closely with the Women's Ministry and especially with the Ministries of 
Education, Higher Education, and Public Health. The Minister of Foreign 
Affairs is a co-chair, with the Minister of Women's Affairs, Sima 
Samar, of the U.S. Afghan Women's Council. Although the needs of 
Afghanistan are daunting, the AIA and the international community have 
made a solid beginning in meeting those challenges.
    Under the Afghan Women and Children Relief Act of 2001, the 
Department is submitting shortly to Congress a report entitled ``U.S. 
Support for Afghan Women, Children, and Refugees,'' which will provide 
an overview of the current situation for Afghan women and children and 
describe the U.S. government programs that have been established to 
assist them.

    Chairman Byrd. There will be a brief recess to allow the 
folks who have been here for a little while to leave if they 
wish. And the Secretary of Agriculture will be appearing next. 
The committee stands in recess.
    The committee will resume its hearings. This afternoon we 
have appearing before the Appropriations Committee the U.S. 
Department of Agriculture Secretary Ann Veneman. Secretary 
Veneman, we welcome you.
    There are many layers of homeland defense. One of the most 
critical involves the programs of the U.S. Department of 
Agriculture. USDA is charged with protecting our food supply 
both in terms of safety and supply. USDA is also responsible 
for ensuring the safety of drinking water in our rural 
communities.
    There is perhaps no greater potential for the destruction 
of confidence and for the creation of panic and for the doing 
of actual harm than to contaminate the Nation's food supply. If 
America's strong food safety programs were to be intentionally 
breached, consumer confidence and public health would be 
compromised in ways never before seen. The U.S. Department of 
Agriculture has the responsibility for inspections of meat and 
poultry products, many of which are imported, and there is 
little or no margin for error in maintaining the strongest food 
safety program possible.
    Our task today is to review our safeguards for rural 
America to determine if those safeguards are as strong as they 
ought to be and, if not, to better understand what steps must 
be taken, and taken now, to correct any deficiencies.
    Last fall, Congress initiated and approved $328 million in 
supplemental funding for the Department of Agriculture for 
homeland security. We are interested in how those funds are 
being used, the extent to which the Department's fiscal year 
2003 budget continues to meet the needs of homeland security 
and other matters important in regard to this subject. The 
committee wants to work with you to assure that our food and 
water supplies are safe and secure, and that our rural areas 
have all the protection and response capabilities they need.
    Madam Secretary, your written statement will be made a part 
of the record, and after any observations by my friend, Senator 
Stevens, or if he is temporarily away from the committee, by 
Senator Cochran and Senator Kohl, then we may wish to hear your 
statement and proceed with the committee's questions.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much. I join 
you in welcoming our distinguished Secretary of Agriculture to 
this hearing of our Appropriations Committee. We appreciate 
your cooperation with the committee, and I want to take this 
opportunity to thank you for the good work you and your staff 
have committed to helping the Congress identify ways to 
strengthen our agriculture sector through the writing of a new 
farm bill.
    We are closely approaching the time when this conference 
report will be back before both Houses of Congress, and in that 
legislation I think we are going to see some very important 
provisions relating to our economic possibilities in the 
agriculture sector, and I thank you for your personal attention 
to the drafting of that legislation.
    I want to express my personal appreciation and look forward 
to working with you as we complete action on that legislation. 
I know that we have provided appropriations already in response 
to some of your suggestions, and look forward to working with 
you on other suggestions you have.
    We know the Department of Agriculture has important 
responsibilities in the area of homeland defense, and we talked 
about that at hearings of the subcommittee for appropriations 
for the Department of Agriculture and related agencies. We look 
forward to hearing your observations and comments as we explore 
these possibilities and needs further.
    Thank you very much.
    Chairman Byrd. Thank you, Senator Cochran. Senator Kohl.
    Senator Kohl. I have no opening statement.
    Chairman Byrd. Very well. Madam Secretary, would you please 
proceed in any way you prefer.
STATEMENT OF HON. ANN VENEMAN, SECRETARY OF 
            AGRICULTURE, DEPARTMENT OF AGRICULTURE
    Secretary Veneman. Thank you, Mr. Chairman and members of 
the committee. I appreciate this opportunity to provide an 
update on the Department's efforts on homeland security. As you 
know, and as I have already stated, we have a longstanding 
commitment to food safety and securing the food supply and 
agriculture from various threats. Last year, just after 
assuming office, we dealt with the threat of foot and mouth 
disease as we watched the widespread outbreak in England. We 
strengthened our surveillance and response systems as we 
addressed the threat of that disease, a disease that we have 
not had in this country, for over 70 years.
    Last fall our Department issued a report called ``Food and 
Agricultural Policy: Taking Stock for the New Century,'' which 
looked at future issues facing the food system, from farm 
programs, to trade, to rural development, to conservation, to 
food safety.
    One of the issues that we highlighted in the report was the 
importance of the infrastructure that protects our food supply, 
our food safety systems, our pest and disease protection 
programs, and the research that supports these important 
missions. Following the events of 9/11, we began examining 
threats to our food supply as homeland security issues. We are 
now concerned about intentional as well as unintentional 
threats.
    Following September 11, we took immediate steps to secure 
sensitive facilities and examine vulnerabilities throughout the 
food chain. In the ensuing days and months, we have conducted 
assessments to identify the critical needs and fill security 
gaps. These have been coordinated within the administration and 
ultimately form the basis for the President's proposals that 
were submitted to Congress.
    We also recognized the need for an internal structure to 
coordinate the Department's vast array of programs and 
communicate effectively to meet pressing security needs, so we 
established the USDA Office of Homeland Security, and the 
Homeland Security Council, which is headed by Deputy Secretary 
Jim Moseley, who is here today. He is, through this Council, 
managing on a day-to-day basis the responsibilities in this 
area.
    This Council has three subcouncils. Each is chaired or co-
chaired by a USDA subcabinet officer. These include the 
protection of the food supply and agricultural production, the 
protection of USDA facilities and other infrastructure, and the 
protection of USDA staff and emergency preparedness.
    The Council has performed a critical role in coordinating 
the efforts we are undertaking, including those funded through 
the supplemental that was passed in January. Even before the 
supplemental was signed by the President, we started developing 
plans for the use of the funds, and I want to thank the 
committee for providing flexibility in the allocation. We have 
taken this opportunity to intensively review our needs and 
direct funds to fill the identified gaps.
    There are a number of areas where multiple agencies are 
involved and are working together. We are also working with a 
number of other Federal agencies, with State departments of 
agriculture, and with the private sector and academia to 
coordinate and plan homeland security efforts. These are very 
important partnerships.
    As soon as we finalized our decisions, we sent information 
to the Agriculture Appropriations Subcommittee on the 
allocation of the funds, and we subsequently provided briefings 
for the subcommittee staff. All of the supplemental funds have 
now been allocated to the agencies. The following is a 
breakdown of where those resources are being spent.
    Over one-half of these funds, or about $177 million, is 
being spent to make physical and operational security 
improvements at key locations. This includes $64 million at the 
Animal Disease Center in Ames, Iowa. This allows us to 
immediately relocate APHIS labs from leased space onto the main 
Ames campus. It also supports construction of a biosecurity 
level 3 large animal facility. Planning for this facility is 
underway, and the construction contract is expected to be 
awarded by the end of the next fiscal year.
    There is also $23 million for Plum Island, pending the 
outcome of a broad, independent review of the needs and options 
for this work, including the needs for biosecurity level 4 
facilities.
    We have also directed $35 million to strengthen the 
Agriculture Quarantine Inspection Program, which is our first 
line of defense, to exclude agriculture pests and diseases. 
These funds are to be used to accelerate the development of an 
automated system in coordination with the Customs Service to 
better identify inspected cargo. We are also purchasing 100 
rapid pathogen identification devices, and hiring additional 
staff to conduct intensified inspections.
    $15 million has been provided to the Food Safety and 
Inspection Service for increased monitoring and training for 
inspectors on terrorist threats and expanded technical 
capabilities. We also directed an additional $1.5 million to 
hire additional inspectors for imported meat and poultry.
    $15.3 million has been allocated to ARS, the Agricultural 
Research Service, for the development of improved rapid 
detection technologies for foot and mouth disease, and other 
diseases and pathogens.
    We recognize that the Federal Government will need 
assistance from our cooperators at the State and local levels 
to adequately address homeland security threats. We plan to 
provide over $43 million in grants, cooperative agreements, and 
other assistance to States to assist in strengthening our 
partnership and coordination activities.
    Critical efforts in this area include improved surveillance 
and early detection and response capabilities both for animal 
and plant pests and diseases, enhanced infrastructures for 
rapid detection, and diagnosis of animal and plant disease and 
pest threats. Additional capability is needed throughout the 
Nation so that we can quickly detect and correctly diagnose 
disease symptoms, and increase our capacity in each region of 
the country to safely dispose of animal carcasses in the event 
of a major disease outbreak.
    Modern information technologies will greatly improve our 
ability to respond to plant and animal pest and disease 
outbreaks. We are developing a system that relies on geographic 
information technologies to provide capabilities for real-time 
mapping to predict the spread and consequences of outbreaks.
    Mr. Chairman, I would like to also point out that our 
fiscal year 2003 budget includes a number of increases to 
strengthen the agricultural infrastructure and enhance homeland 
security. These include increases for pest and disease 
prevention and exclusion, surveillance, response, and research 
directed at threats faced by the agriculture and food system.
    If approved by Congress, our budget allocations would bring 
our funding and staffing at ports of entry to record levels, 
more than doubling them from where they were just 3 years ago. 
We also propose funds to address the very real threat of a 
disruption to our computer systems. We have provided details of 
these proposals to the Agriculture Appropriations Subcommittee 
and in my written testimony today. I urge the committee's 
support for these critically important proposals.
    Finally, I want to point out one item in the President's 
pending supplemental. We are requesting an additional $75 
million for the Women, Infants, and Children Program. These 
funds are important to ensure adequate resources to continue to 
meet the caseload levels we are experiencing. This is tied 
largely to higher than predicted growth in WIC participation 
and food costs. During January, the WIC Program served over 7.5 
million participants, for an average of 7.46 million so far 
this fiscal year. We have no reason to believe that these 
trends will moderate during the remainder of the year.
    In summary, I believe we have set up an effective structure 
to address the critical homeland security issues related to 
protection of the Nation's agriculture and food supply. We 
greatly appreciate the committee's interest in these critical 
issues and the support that you have given to our efforts.
    As I mentioned, last year at this time we were facing a 
very serious threat of foot and mouth disease, and we saw the 
devastation that appeared in the United Kingdom. Those events, 
while not a food safety concern, led us to further strengthen 
our protection systems. We acted immediately to do so and, as a 
result, we were probably better prepared to respond in the 
aftermath of the tragedies of September 11. But our vigilance 
has not stopped, nor has our commitment to work with the 
Congress, the State, other Federal agencies, academia, and the 
private sector, to make sure that we have a strong line of 
defense. We will continue to work with you and your staffs to 
meet the rapidly evolving challenges that we face in securing 
our food supply and our agriculture infrastructure.
    Mr. Chairman and members of the committee, that concludes 
my comments, and I would be happy to respond to your questions. 
Thank you very much.
    [The statement follows:]
                  Prepared Statement of Ann M. Veneman
    It is an honor for me to appear before you today to provide you an 
update on the Department of Agriculture's Homeland Security efforts.
    Last January in his State of the Union message, the President 
described the high priority the Administration assigns to doing 
everything possible to protect our citizens and strengthen our Nation 
against the ongoing threat of terrorist attack. Initially, the 
Administration has focused on four key areas that will improve our 
ability to protect against and respond to terrorism: supporting first 
responders, defending against biological terrorism, securing our 
borders and utilizing technology and information sharing. The 
Department of Agriculture plays an important role in all of these 
areas. The President also stressed how additional spending can make 
America not only stronger, but, in many ways, better. For example, 
knowledge gained from bioterrorism research will improve public health 
and enhance our ability to protect against and respond to plant and 
animal diseases. Stricter border enforcement will help combat illegal 
drugs and reduce the chances of introductions of exotic diseases.
    The Administration's report, Food and Agricultural Policy: Taking 
Stock for the New Century, highlights the critical need to invest in 
the physical and institutional infrastructure that has been a key 
factor in the overwhelming success of the U.S. food and agricultural 
system. This infrastructure encompasses all of the basic facilities, 
equipment, services, and institutions needed for the economic growth 
and efficient functioning of the food and fiber markets. Much of what 
we are dealing with in homeland security relies on this infrastructure 
as the foundation of detecting and responding to intentional threats, 
along with the unintentional threats of pests and diseases with which 
agriculture has historically dealt. Even before the events of September 
11, we had taken steps to strengthen our infrastructure, particularly 
our border inspection system. Now it is even more imperative that we 
strengthen our borders and develop the in-depth infrastructure, 
including State and other cooperators, that is the foundation of a 
secure food and agriculture system.
    The Department's mission in homeland security is to provide a 
coordinated national strategy to secure American agriculture and Rural 
America from intentional harm. In so doing, we will ensure the Nation's 
quality of life, continuance of a secure and reliable food supply in 
cooperation with the Department of Health and Human Services, and 
maintenance of USDA operations and infrastructure. The Department has 
taken a number of steps to address the Nation's new priorities in light 
of the September 11 events, beginning with immediate steps to secure 
critical facilities and resources. Shortly after September 11, we 
established a USDA Homeland Security Council to provide policy 
oversight and to coordinate a Homeland Security strategy across the 
Department's range of programs. This structure includes three 
subcouncils--Protection of the Food Supply and Agricultural Production, 
Protecting USDA Facilities and Other Infrastructure and Protecting USDA 
Staff and Emergency Preparedness. Through these subcouncils, the 
Council is continuing to perform a key role in coordinating programs 
and budgets across mission areas. This includes a key role in the 
coordination of activities that will be supported by the $328 million 
in supplemental funding provided for homeland security.
    We appreciate the flexibility Congress provided in the supplemental 
appropriations to permit us to target funds to the highest priority 
needs. We have employed this flexibility by taking a critical look at 
our programs to identify areas of potential overlap and gaps that we 
need to fill. Key elements in this decision making process included 
development of plans by agencies and review of those plans by the USDA 
Homeland Security Council. We are also working closely with the Office 
of Homeland Security in developing our plans and coordinating our 
security efforts to ensure that priority needs are met. We have also 
worked closely with the Appropriations Subcommittees on Agriculture 
during this process. At the completion of our internal review, we 
provided information to the Subcommittees on the allocation of funds. 
Subsequently, key staff including our budget officer provided 
additional details in briefings to Subcommittee staff. All funds have 
now been allocated to the agencies and I am pleased to report that we 
have a number of critical efforts underway.
    Funds from the Supplemental will be used to protect the food supply 
and agricultural production, protect USDA facilities and other 
agricultural infrastructure, and to protect USDA staff and manage 
emergency preparedness.
    In appropriating the funds, Congress recognized the critical need 
to upgrade security in the Department's extensive field infrastructure. 
Of the $328 million, over one-half, about $177 million, is being 
directed to physical and operational security improvements and facility 
construction at key locations. Included is $64 million for improvements 
at the Ames, Iowa animal disease research and diagnostic center and $23 
million for improvements at the Plum Island animal disease facilities. 
We are taking immediate steps to use $14.1 million provided in the 
supplemental to relocate APHIS laboratories from local leased space to 
semi-permanent space on the main campus at Ames. Further, I am pleased 
to inform the Committee that planning is already underway for the new 
complex at Ames. We expect to complete planning and award the contract 
for construction of the biosafety level 3--BSL-3--large animal facility 
using $50 million provided in the supplemental by the end of next 
fiscal year. The Plum Island funds have been made available pending the 
outcome of a broader independent review of the needs and options for 
such a facility and the potential need for a facility that would allow 
us to work on diseases requiring biosafety level 4--BSL-4--protection. 
In addition, nearly $47 million is being used to make security and 
operational improvements at ARS and APHIS locations and $43 million is 
being used to upgrade other critical USDA facilities and enhance our 
cyber security efforts.
    Consistent with language in the appropriation, $35 million is being 
made available to strengthen the Agricultural Quarantine Inspection 
program, our first line of defense to exclude agricultural pests and 
diseases at the borders. These funds will allow us to accelerate the 
development of an Automated Targeting System to better identify cargo 
to be inspected in coordination with the Customs Service. In addition, 
the funds will allow the procurement of 100 rapid pathogen 
identification devices to screen baggage at the highest risk locations 
and will permit hiring and training of additional staff to conduct 
intensified inspection operations.
    The supplemental provided $15 million for the Food Safety and 
Inspection Service to increase monitoring and surveillance, increase 
education and training for inspectors regarding terrorist threats, 
expand laboratory capabilities, enhance technical assistance to State 
and local entities and improve facility security. We are also directing 
an additional $1.5 million from funds provided to the Office of the 
Secretary to strengthen inspection of imported meat and poultry 
products.
    ARS will devote $15.3 million to pursue research and data 
development to improve the technology for rapid detection of pathogens 
that pose the greatest threats to U.S. agriculture, especially FMD. 
This work is expected to yield applicable results in one to two years. 
Further, ARS will validate rapid detection systems for laboratory and 
field use. ARS will provide APHIS with disease-specific reagents for 
rapid detection tests based upon an agreed set of priorities. ARS and 
APHIS will collaborate in the field testing of these rapid diagnostic 
systems and new systems as they become available.
    Clearly, the magnitude and distribution of the Nation's food and 
agriculture system makes it imperative that USDA's cooperators at the 
State and local levels be full participants in protecting this system 
from threats. Recognizing this need, and the unique abilities that many 
of these institutions can provide, we are allocating a portion of the 
funds to enhance our partnerships in mutually beneficial ways. A total 
of over $43 million in grants and cooperative agreements will enhance:
    Surveillance and preparedness for animal and plant health 
threats.--As surveillance and response are ultimately conducted at the 
local level, USDA intends to work with its State, Tribal, and land-
grant university cooperators to develop greater depth in early 
detection and response capabilities. To increase our ability for 
enhanced surveillance and response to potential food-borne events, we 
work closely with the Centers for Disease Control and Prevention in 
surveillance programs, such as PulseNet and Food Net, for USDA-
regulated products. Funds provided in the supplemental will support 
equipment, training, and other items to assist them in meeting 
emergency preparedness standards established under the National Animal 
Health Emergency Management System (NAHEMS). NAHEMS is a comprehensive 
system that includes Federal, State, and community governments; 
voluntary organizations; academic institutions; and industry groups to 
address animal health emergencies. Funds will also support improved 
pest detection through the Cooperative Agricultural Pest Survey (CAPS). 
The CAPS provides the network for APHIS and States to target plant pest 
species and response activities.
    Rapid detection and diagnosis of animal and plant disease 
threats.--Key to effective response is quick and correct diagnosis of 
disease symptoms. Because existing USDA facilities may be overwhelmed 
in an outbreak, we will assist cooperators to enhance their 
infrastructures to provide redundancy in a network of diagnostic 
abilities. This includes grants to assist States in developing animal 
disease diagnostic laboratory capacity, as part of an effort to upgrade 
existing animal health laboratory infrastructure. This will ensure that 
a comprehensive, coordinated and modernized system is in place to 
address the emergent biological and chemical threats to animal 
agriculture and the security of the U.S. food supply. This also 
includes upgrading facilities to meet biocontainment requirements, 
equipping laboratories to perform rapid and accurate standard methods, 
supporting quality assurance initiatives, and conducting training. In 
addition, there is a need to develop BSL-3 diagnostic capacity for the 
States and regions, integrate sample and test result reporting into the 
national databases, and make animal disease emergency management 
protocols consistent with agreed upon national standards. A plant and 
animal disease diagnostic database will be developed to provide to 
practitioners and others information on test procedures, experts, and 
identification data. These efforts will supplement other initiatives 
and provide APHIS back-up and independent confirmation of diagnostic 
results. Funds will also support land-grant university hubs that will 
enhance the education and training of Extension educators and 
laboratory personnel in current and emerging diagnostic techniques.
    Disposal of animal carcasses.--APHIS will provide funds to a 
limited number of States to purchase tissue digestive systems. These 
digesters will be placed in each region to be used as necessary for the 
disposal of animals infected with scrapie, chronic wasting disease and 
other existing or emerging and foreign animal diseases.
    Providing USDA decision-makers information pertinent to an 
outbreak.--We are initiating the development of a security analysis 
system that will greatly enhance the ability to respond to pest and 
disease outbreaks. The project uses geographic information system and 
other data to provide real-time mapping projections for use in 
predicting how diseases will spread and which agricultural products 
will be affected. This information will help identify the spatial and 
economic consequences of both outbreaks and epidemic threat scenarios.
    Further, in order to effectively meet the challenge of implementing 
a broad array of homeland security activities in a well coordinated 
manner, the Department's Homeland Security Council will need support. I 
am in the process of assembling a small staff within the Office of the 
Secretary dedicated to homeland security issues. This staff will be 
challenged with providing the ongoing support to the USDA Homeland 
Security Council and coordinating all functions of USDA into one 
homeland security effort, whether it is responding to a threat or an 
emergency in concert with Federal, State, and local government 
entities, or assisting all sectors of the agricultural industry in a 
coordinated way to understand, prepare for, and mitigate a potential 
threat. In addition to a coordinating function, this staff will provide 
coordinated interagency liaison. An example would be information from 
the intelligence community. The Department will need to develop a 
relationship with appropriate government agencies in the business of 
understanding threats to our Nation, and obviously threats to our 
agriculture and food systems.
    Finally, recognizing the dynamic nature of the potential threats we 
face, we thought it prudent to set aside a modest portion of the 
supplemental pending the outcome of further assessments and to meet 
needs not initially identified in the review process. Now that the most 
urgent efforts are underway, we are taking steps to allocate those 
reserves.
    Many of the efforts we are beginning with supplemental funds this 
year are continued and expanded in our proposed fiscal year 2003 
budget. The budget recognizes the critical need for additional 
safeguards to this infrastructure as key elements in the Department's 
efforts to strengthen its homeland security activities. The budget 
includes increased funding to strengthen key elements in this 
infrastructure.
    Specifically:
  --Strengthening point-of-entry inspection programs by providing 
        additional inspectors, expanding canine teams and state-of-the-
        art high-definition x-ray machines at high risk ports-of-entry 
        on the Canadian and Mexican borders, in Hawaii, and elsewhere. 
        The placement of equipment at airports will be coordinated with 
        the Federal Security Manager at that airport.
  --Improving the Department's capability to assess and monitor 
        outbreaks of diseases in foreign countries that have the 
        potential to spread to the United States.
  --Increased plant and animal health monitoring to enhance the ability 
        to quickly identify and respond to outbreaks that may occur.
  --Increased support for FSIS food safety activities.
  --Increased research for improved detection, identification, 
        diagnostic and vaccination methods to identify and control 
        threats to animal and plant agriculture.
  --Strengthening the Department's cyber security program, particularly 
        to ensure the survivability of information by enhancing 
        intrusion detection and prevention operations.
  --Funding to continue the physical and operational security upgrades 
        started with the fiscal year 2002 supplemental funds, and to 
        meet other unforeseen needs.
    There are two items for USDA in the President's supplemental 
request pending before this Committee. First, we are requesting $75 
million for the Special Supplemental Nutrition Program for Women, 
Infants and Children--WIC--to ensure the availability of sufficient 
funding to meet the caseload levels we are experiencing. The need for 
these additional funds is tied largely to higher than anticipated 
growth in WIC participation and food costs. During January, the most 
recent data available, the program served over 7.5 million 
participants, for an average of 7.46 million so far this fiscal year. 
We do not have any indication that these trends will moderate during 
the remainder of the year. Second, the Administration identified $9 
million of funds for the Watershed Rehabilitation Program to be 
canceled as an offset to needs proposed in the supplemental. This 
program was first funded in fiscal year 2002 and is not proposed for 
continued funding in the President's fiscal year 2003 Budget.
    In summary, Mr. Chairman and members of the Committee, I believe we 
have set up an effective structure to address the critical homeland 
security issues related to protection of the Nation's agriculture and 
food supply. This structure will ensure coordination within the 
Department and with the Office of Homeland Security. We greatly 
appreciate the Committee's interest in these critical issues and the 
support you have given to our efforts. We are committed to continuing 
to work with you and your staff to meet the rapidly evolving challenges 
we face in securing our food supply and agricultural infrastructure.
    That concludes my statement. I will be pleased to respond to 
questions that you may have.
                                 ______
                                 
                 Biographical Sketch of Ann M. Veneman
    Ann M. Veneman was sworn in as the 27th Secretary of the U.S. 
Department of Agriculture (USDA) on January 20, 2001. Her lifelong 
commitment to food and farm issues, along with her bipartisan approach 
to solving problems and confronting new challenges, are reasons that 
explain why she was chosen by President George W. Bush to serve in his 
Cabinet and unanimously confirmed by the U.S. Senate.
    Growing up on a family farm in a small rural community, Ann Veneman 
understands well the issues important to America's farmers and 
ranchers. She has spent much of her career dedicated to food and 
agriculture issues and advancing sound U.S. farm and food policies.
    President Bush has often said that the spirit of the American 
farmer is emblematic of the spirit of America, signifying the values of 
hard work, faith and entrepreneurship. Secretary Veneman believes 
strongly in these principles and since taking office, has worked to 
foster economic opportunities for farmers and ranchers, ensure a safe 
and wholesome food supply, protect agriculture against pests and 
diseases, encourage conservation and environmental stewardship, invest 
in rural communities, and support the next generation of agricultural 
leaders through new educational opportunities.
    Secretary Veneman brings a wealth of knowledge and experience to 
the USDA. She is no stranger to managing the complexity of a large 
government agency and working with the Congress. Her management style 
encourages teamwork, innovation, and mutual respect in forging common 
sense solutions to issues facing American agriculture.
    From 1991 to 1993, Veneman served as USDA's Deputy Secretary, the 
Department's second-highest position. She also served as Deputy 
Undersecretary of Agriculture for International Affairs and Commodity 
Programs from 1989 to 1991. Veneman joined the USDA's Foreign 
Agricultural Service in 1986 and served as Associate Administrator 
until 1989. From 1995 to 1999, Veneman served as Secretary of the 
California Department of Food and Agriculture (CDFA), managing 
agricultural programs and services for the nation's largest and most 
diverse agricultural producing state.
    Secretary Veneman's extensive background and experience has been 
valuable since taking office as American agriculture has confronted 
critical issues such as new farm policy, international trade, homeland 
security, environmental stewardship and food safety.
    Within months of taking office, Secretary Veneman released the Bush 
Administration's vision for American agriculture through the 
publication of Food and Agricultural Policy: Taking Stock for the New 
Century. This publication outlines the Administration's priorities for 
farm sector policy, trade expansion, infrastructure enhancement, 
conservation and the environment, rural communities, nutrition and food 
assistance, and USDA program integration. The report, available on 
USDA's website at http://www.usda.gov/ has received widespread praise 
for its candor and forward-looking vision.
    Secretary Veneman has played a key role in eliminating trade 
barriers and expanding opportunities for American farmers through new 
export markets. She has worked closely with U.S. Trade Representative 
Robert Zoellick, helping lead to the successful launch of a new round 
of trade negotiations for the World Trade Organization.
    Following a devastating outbreak of foot and mouth disease in parts 
of Europe and the tragic events of September 11th, Secretary Veneman 
and her team acted swiftly to respond to potential threats and 
continues working to strengthen USDA's protection systems. The 
Secretary has been an advocate for strong pest and disease, food safety 
and research programs to ensure U.S. agriculture and consumers have a 
safe, wholesome food supply and the infrastructure to protect it.
    Secretary Veneman has been a strong advocate of agriculture 
education and established the ``Leaders of Tomorrow'' initiative to 
strengthen USDA education programs, particularly those involved with 
mentoring young adults.
    The Secretary earned her bachelor's degree in political science 
from the University of California, Davis, a master's degree in public 
policy from the University of California, Berkeley, and a juris 
doctorate degree from the University of California, Hastings College of 
Law. In a personal capacity, she serves as a board member of the Close 
Up Foundation, a nonpartisan civic education organization.

    Chairman Byrd. Thank you, Madam Secretary.
    The Chair calls on Senator Kohl as chairman of the 
Agriculture Appropriations Subcommittee.

                       STATEMENT OF SENATOR KOHL

    Senator Kohl. Thank you very much, Senator Byrd, and I 
thank you, Senator Byrd, for holding this hearing today. Our 
goal is to find out the status of the emergency supplemental 
funding provided to USDA in January for homeland security 
activities, and also to assess the need for more such funding 
in the upcoming supplemental appropriations bill.
    Secretary Veneman, as you previously noted, after September 
11 Congress acted without delay to provide homeland security 
funds to all Federal agencies, including $328 million to USDA. 
I appreciate the letter I received from you in late March 
describing how USDA eventually plans to spend this money. 
However, the subcommittee has not been informed of what the 
actual obligations are to be. I appreciate the chance to find 
out why that is, and to discuss in more detail what USDA's 
detailed plans are.
    One final comment before I start my questions, Madam 
Secretary. USDA and the subcommittee have the same goals for 
homeland security, making sure that our food and drug supply is 
safe from terrorist attack. We need to act, of course, as 
partners in the important endeavor. The subcommittee wants to 
be well informed, as I am sure you want to inform us of USDA's 
homeland defense activities.
    Madam Secretary, The Washington Post recently reported that 
more than 140 employees in Washington area airports have been 
indicted on charges of falsifying information about their 
identities, or criminal past, on applications for work near 
planes, runways, and cargo. Apparently airlines contractors, 
airports, and private security companies conduct these reviews 
piecemeal, and as a result, illegal immigrants and felons do 
slip through the process.

                       USDA INSPECTION PERSONNEL

    USDA employs thousands of inspection personnel at airports, 
seaports, and border crossings stations who play a significant 
role in the protection of our food supply and agriculture in 
general, so does the USDA require that inspection personnel 
have appropriate background checks or security clearances when 
hiring them?
    Secretary Veneman. We do, Senator. The USDA follows the 
procedures that are established by the Office of Personnel 
Management for selecting personnel, and that includes 
conducting background checks for the USDA inspection personnel 
during the hiring process. Then it conducts follow-up 
investigations on any employees if there is misconduct. In 
addition, we have certain inspector positions, particularly in 
our APHIS area, that have access to some sensitive information 
and therefore have security clearances, such as the APHIS 
inspectors who work in airports, and they are in areas for 
which security clearances are required.
    I would also note that only U.S. citizens can hold civil 
service appointments in the U.S. Government.
    Senator Kohl. Well, what about inspection staff that were 
in place prior to September 11? Do they all have security 
clearances?
    Secretary Veneman. It is my understanding that they all 
have had background checks. The higher level of security 
clearance is limited to certain employees who have access to 
other sensitive information or sensitive areas, but I would 
again point out the Office of Personnel Management does conduct 
the basic background check for Federal employees for all of our 
inspection personnel in our plants.

                        CHRONIC WASTING DISEASE

    Senator Kohl. Madam Secretary, I was glad to see in your 
testimony that you identified the quick eradication of animal 
diseases like chronic wasting disease that has recently plagued 
Wisconsin's deer population as an appropriate use of homeland 
security funds. Just last week, the Milwaukee Journal Sentinel 
ran a story about a number of young people in this country who 
have died over the past several years from something called 
CJD. These young men were deer hunters who regularly ate 
venison.
    I do not want to sound alarmist, because there is now no 
established link between chronic wasting disease and human 
health. However, I remember that in 1995, then British Prime 
Minister Major publicly stated that people could not get mad 
cow disease or its variant, and then 1 year later his health 
secretary had to retract that statement, and of course we all 
remember the public health crisis that followed.
    During your recent trip to Wisconsin, you heard first-hand 
of the magnitude of the chronic wasting disease problem in our 
State. Under Secretary Hawks is planning to visit Wisconsin 
next month to meet with officials to determine what can be done 
to better coordinate State and Federal activities to respond to 
this disease.
    I am pleased that Mr. Hawks will travel to Wisconsin. 
However, I would like to hope that Mr. Hawks can do more than 
simply tell us that we have a problem, because we know we have 
a problem. Tests have come back positive, and now we need some 
action, and more specifically, the State needs a commitment of 
Federal dollars to monitor, test and eradicate this potentially 
devastating animal disease, so we would like to know today how 
you plan on providing assistance to States like Wisconsin to 
respond to animal diseases like chronic wasting disease, and 
will you be sure that Mr. Hawks, when he visits Wisconsin in a 
few weeks, is prepared to announce a decision on when funding 
might be available?
    Secretary Veneman. Senator, as you indicated, I did visit 
Wisconsin just last week. We visited the forest products lab as 
part of our Earth Day activities, and in the process of doing 
that we had the opportunity afterwards to meet with a number of 
State officials and someone from your staff about chronic 
wasting disease in Wisconsin. I was certainly appreciative of 
the opportunity to learn more about the situation, because it 
is a relatively new, emerging situation in your State.
    We have been dealing with chronic wasting disease in a 
number of other States. We have allocated approximately $15 
million to eradication efforts in that regard, and this has 
been primarily dealing with domestic herds, because that is 
what we have jurisdiction over.
    The situation in Wisconsin is a little more difficult, 
because as you know, the finds have also been in wild herds. I 
was very surprised to hear, by the way, you have more deer in 
Wisconsin than you have cows, so this is a very serious issue 
in Wisconsin because of the number of deer that you have.
    Mr. Hawks, as you indicated, is preparing to come to 
Wisconsin to discuss this with officials. I felt that my 
conversations with State cabinet members were very productive. 
The fish and wildlife director as well as the secretary of 
natural resources, both are taking this extremely seriously and 
recognize that we have some overlapping jurisdictions in this 
regard. We talked about the need for laboratory testing. While 
I cannot commit that we absolutely know what resources we are 
going to have available, I can certainly commit that we will 
work with the State of Wisconsin to do everything we can to 
deal with this disease, because we have certainly been trying 
to deal with it in other parts of the country.
    I think you also point out some important issues with 
regard to the need for continued research into diseases of this 
sort, to understand how it moves, to understand the 
consequences, and so forth, and we are continuing to do that.
    In addition, as you know, we did release last November a 
Harvard Risk Assessment on BSE, and we think that gave us a 
good scientific basis to move forward with our efforts in 
protecting our domestic livestock populations from this 
disease, which, while not directly related, is certainly 
something that has some characteristics in common.

                              BIOSECURITY

    Senator Kohl. I thank you, Madam Secretary. In reviewing 
USDA's plan for spending in the fiscal year 2002 homeland 
security supplemental and the proposed budget for fiscal year 
2003, I am pleased to note that so many plans are evident to 
prevent biosecurity invasions from other countries, but after 
the airplane hijackings and anthrax incidents last year, we 
also need to be very concerned with terrorists perhaps already 
in this country utilizing domestic resources to wreak havoc on 
U.S. agriculture and food supplies. What is the Department 
doing to ensure that adequate measures are underway to prevent 
attempts to utilize or spread biological agents, animal 
diseases, plant pests, and plant diseases that already exist in 
the United States?
    Secretary Veneman. One of the things we first did after 
September 11 was to look very carefully at our own facilities 
in USDA and particularly our laboratories, of which we have a 
rather comprehensive network throughout the United States. We 
looked and solicited the assistance of our OIG, at our 
biosecurity within our laboratories, and we found areas where 
we needed improvement. So we are taking aggressive efforts to 
improve biosecurity in all of our laboratories, and we have 
done that very aggressively in terms of security measures on 
pathogens that we work with, on transporting those pathogens, 
and on cataloguing and keeping track of all of those pathogens. 
We have developed quite an aggressive program that is in place, 
but we are continuing to improve it.
    We are also looking at ways where we can work with 
universities that we contract with to create best management 
practices in this regard for their laboratories and how they 
handle pathogens, and we have had good cooperation from those 
in academia who are also concerned about these issues.
    We have also worked closely with HHS, the Centers for 
Disease Control and others who have similar issues, so that we 
have consistent policies throughout Government. We can learn 
from each other's practices on how to manage these issues so 
that we can secure all of those agents that we work with in our 
laboratories throughout this country, which certainly are an 
important part of our food and agriculture network, and the 
research that we conduct. We do need to make sure that these 
laboratories are secure, and that the agents that we have in 
them are secure, and we are doing everything in our power to do 
that.
    Senator Kohl. Thank you very much. My time is up.
    Chairman Byrd. Thank you, Senator Kohl, for your continuing 
interest and good work on your subcommittee. Thank you for your 
participation here this morning. And this afternoon, I should 
add.
    Senator Cochran. Thank you, Mr. Chairman.

                 FISCAL YEAR 2002 SUPPLEMENTAL FUNDING

    Madam Secretary, the President's supplemental funding 
request, the supplemental that was submitted on March 21, does 
not ask for any additional appropriations for the Department of 
Agriculture to meet homeland security needs. Do you believe the 
funds that have already been appropriated are adequate to meet 
the Department's current needs, or are there needs that have 
come to your attention that we should know about that ought to 
be funded in this next appropriations bill?
    Secretary Veneman. Senator, we believe that the amount that 
was allocated in this last supplemental should be adequate for 
our current needs and, in fact, some can be carried over into 
2003 as well. We are aggressively looking at every 
vulnerability that we may have and trying to target funds to 
those areas of greatest vulnerability.
    In addition, as I indicated in my opening remarks, we do 
have new moneys that are requested in the 2003 budget for both 
pest and disease prevention and eradication, as well as for 
food safety. We are really looking at record budgets in both of 
these areas. As you know, Senator, we had been talking about 
the importance of these parts of the USDA mission for a number 
of months before September 11 and since we have actively 
engaged in homeland security efforts.
    We are continuing to strengthen these systems in every way 
that we can, and that includes not only strengthening what is 
going on in our own Department, but also strengthening our 
relationships with the States and those who are going to be the 
first responders in the event, the unfortunate event that 
anything might happen.
    So at this point we believe that the initial supplemental 
that we received will give us adequate resources to do what we 
believe needs to be done in the relative short term over the 
rest of this fiscal year and the next fiscal year, in addition 
to the 2003 appropriations that we have requested.

                     HOMELAND SECURITY SUPPLEMENTAL

    Senator Cochran. In the bill that appropriated the funds 
for supplemental needs that you mentioned, the Department set 
aside some amounts for contingencies. Specifically, there was a 
$17.7 million fund set aside for contingencies, and an 
additional $16\1/2\ million for agriculture quarantine 
inspection purposes if there were unforeseen needs that arose.
    Do you have any plans at this time for the use of those two 
specific areas of funding, or are those the funds you are 
talking about possibly carrying over into this next cycle?
    Secretary Veneman. No, those are not the specific funds I 
am talking about. Some of the allocated funds would carry over 
into 2003 in terms of actual expenditure and outlay. For 
example, it is going to take some time to put the application 
process together for some of the grants to States. Some of 
those will not be actually issued until probably the beginning 
of 2003, so that is to some extent what I am talking about when 
I talk about carryover into 2003.
    When we are looking at the issue of contingencies, we do 
have, as you know, a number of emergencies that we continue to 
get. We just talked with Senator Kohl about the chronic wasting 
disease, for example. Now, that would not necessarily come out 
of these funds, but we had a number of programs and requests 
that were submitted by various agencies that we thought needed 
additional review and fleshing out to determine how we could 
best utilize the funds. We want to utilize the funds for the 
areas that are most in need, have the most vulnerability, and 
where we can get the most return for the amount of money spent. 
So in putting together these contingencies, our intent was to 
make sure that we spend the money in the most appropriate way 
possible.
    We do not intend to carry over these contingencies for a 
long period of time, and we will notify the committee 
immediately on the decision's made on these additional funds. 
We have asked agencies specifically for their additional 
proposals and their clarification on the proposals that were 
previously submitted by May 10.
    Senator Cochran. Thank you very much.

                          LABORATORY SECURITY

    Chairman Byrd. Thank you, Senator Cochran, for your long 
service on the Appropriations Committee, and especially with 
respect to the Appropriations Subcommittee on Agriculture.
    Madam Secretary, a recent USDA Office of Inspector General 
report revealed that at many laboratories, inventories of 
highly infectious biological agents, including anthrax, were 
missing or were inaccurate. In one instance, a vial which 
contained about 3 billion doses of vesicular stomatitis, a 
pathogen of considerable risk to humans and cattle, was listed 
on the inventory, but in reality it was missing from storage.
    The report also revealed that some of these laboratories, 
including those that stored highly infectious agents, were 
accessible to people outside the agency, including students and 
noncitizens.
    What actions are being taken by the Department to correct 
this problem at the 330 laboratories across the country, and 
what preliminary cost estimates does the Department have from 
the vulnerability assessments that are underway?
    Secretary Veneman. Mr. Chairman, I am not sure which OIG 
report you are referring to. I know there were some reports 
that referred to laboratories that were in other parts of the 
U.S. Government. I did refer, in answering Senator Kohl's 
question, that we did work with our Office of the Inspector 
General to take a comprehensive, immediate look at all our 
laboratories shortly after September 11, because of the kinds 
of vulnerabilities that we have talked about today and that you 
are discussing as well, and we found that we did need to 
increase security, we needed to increase recordkeeping, and we 
are doing all of that.
    As well we have, and I did not point this out earlier, 
contracted through the Energy Department with Sandia Labs, to 
do an independent review. They are experts on laboratories, and 
they are doing an independent review of our laboratories to 
assist us in determining what additional security measures we 
need to take in our laboratories.
    As I indicated in my opening remarks, and as I stated in my 
written testimony, we are using moneys that have been 
appropriated from the supplemental appropriation to enhance our 
laboratory security, and we are particularly allocating those 
funds where we have seen through these studies the areas of 
greatest vulnerability.

                      OFFICE OF HOMELAND SECURITY

    Chairman Byrd. Have you received any guidance or advice 
from the Director of the Office of Homeland Security, Director 
Ridge, with respect to funds that may be needed for these 
corrective actions, and which should be included in the 
administration's fiscal year 2002 supplemental request or the 
fiscal year 2003 budget?
    Secretary Veneman. Mr. Chairman, we have worked very 
closely with the Office of Homeland Security coordinating the 
kinds of reports and studies that we have been conducting. The 
Office of Homeland Security has been a very important resource 
in helping us coordinate with other departments of Government 
in the area of laboratories particularly. As I have indicated, 
we have dealt with the agencies of HHS, the Centers for Disease 
Control and other laboratories.
    We have also worked with the universities, but the Office 
of Homeland Security, while not specifically directing the way 
we utilize funds, has certainly been an active participant in 
bringing the dialogue together with other agencies to ensure 
that we are using the best available decisionmaking processes 
as we make these allocations of funds.

                          LABORATORY SECURITY

    Chairman Byrd. My question really deals with the situation 
that has been brought to light by the USDA Office of Inspector 
General report regarding various pathogens, including anthrax, 
and the revelation that at many laboratories inventories of 
these agents showed that the agents were missing, or showed 
that the inventories were inaccurate, and then my question was, 
have you received any guidance from Director Ridge of the 
Office of Homeland Security or advice with respect to including 
funds for these corrective actions?
    I am sure he did not direct you to spend so much more money 
or so much less money, but have you received any guidance or 
any directions from Mr. Ridge with regard to whether or not 
additional funds are needed in order to take corrective actions 
in the light of the Inspector General report? And I am talking 
about with respect to the fiscal year 2002 supplemental request 
or in the fiscal year 2003 budget.
    Secretary Veneman. Mr. Chairman, we have certainly been in 
touch with the Office of Homeland Security about the report 
that we have worked with the OIG on regarding laboratory 
security. Again, this is a cooperative effort that we worked on 
with our Inspector General's Office to look at our 
laboratories, and to do a comprehensive review very quickly to 
determine where the gaps were and where we needed to make 
improvements. We have allocated $177 million out of the $328 
million to make physical and operational security improvements 
at the Department, and a substantial amount of that is being 
allocated to laboratory security.
    Certainly, as I said, we have worked with the Office of 
Homeland Security both in sharing the reports and the issues we 
are dealing with, and we have also worked with them in showing 
them what we are suggesting in terms of how our funds out of 
the supplemental are allocated.
    As I said, for example, there is a multiyear plan that was 
under development even before September 11 relating to one of 
our most critical laboratories, and that is the laboratory in 
Ames, Iowa. Due to the events of September 11, and due to some 
of the findings of the Inspector General, while we are 
continuing on the track of our refurbishing efforts, to some 
extent the focus has changed and we have quickly moved people 
out of auxiliary space that was being used for research onto 
the Ames campus itself. So we are making adjustments and 
accelerating our plans to improve some of these laboratories 
based upon the security needs that we have identified.
    As to keeping track of the various kinds of biological 
agents that we use for research, I think this is extremely 
important. We take it very seriously. It was a gap that was 
identified early on, and is one that we are actively working on 
and have addressed. We now have a cataloguing system for 
everything. We have established new systems for signing in and 
signing out, and so where the gap was identified we have done 
everything that we can to satisfy that problem and also to take 
continuing measures. As I said, we are working, with the Sandia 
Laboratories to identify additional steps that we can take to 
make sure that we have the securest laboratories possible.
    As far as I know, there is not any anthrax missing from any 
USDA laboratory. We certainly, are doing everything we can to 
make sure that we catalogue everything, all of the biological 
agents we have.
    Finally, I would simply say that we are working very 
closely with Governor Ridge in the Office of Homeland Security. 
He set up a number of councils. USDA sits on the majority of 
those in one way or another, because we have so many 
overlapping jurisdictions, and we certainly appreciate the 
support we have gotten from that office and the tremendous 
working relationship that we have with that office.
    Chairman Byrd. Well, we would certainly like to have that 
office come and tell us about these cooperative efforts that 
are existing between the two. I guess you cannot do anything 
about that.

                          RURAL WATER SUPPLIES

    The USDA is charged with the responsibility of providing 
financial and technical assistance to our rural communities to 
have this basic necessity in life, safe and affordable, potable 
water. The Department of Agriculture serves thousands of rural 
systems continuously, and even provides technical assistance to 
other rural systems that have no affiliation with USDA. The 
President has not sought any supplemental funding for this 
program. What is the Department of Agriculture doing to review 
the vulnerability and security upgrades needed to protect our 
rural water supplies?
    Secretary Veneman. Mr. Chairman, we are, as you say, 
involved in a number of technical support programs which relate 
to our rural water supplies. The Rural Utilities Service 
provides technical support to protect rural water systems. We 
have provided financial support to the National Drinking Water 
Clearinghouse, which is headquartered in your home State at 
West Virginia University, which provides training and extensive 
security information on protecting rural water supplies. We 
also have a contract with the National Rural Water Association, 
which provides on-site technical assistance.
    I would also point out that we are working very closely on 
a coordinated effort on water issues with both the 
Environmental Protection Agency as well as the Interior 
Department, the Interior Department, of course, having many of 
the larger dams.
    This is an issue we have discussed. I do have regular 
meetings with my counterparts in the Cabinet, but particularly 
in EPA and Interior, because we have so many overlapping 
jurisdictions, and this is an area where we are coordinating 
with regard to homeland security. There are funds available 
from the Clean Water Act to assist in rural communities as 
well.
    Chairman Byrd. Has Homeland Security Director Tom Ridge 
provided the USDA with any written guidance on how to proceed 
to ensure that rural water supplies are safe and secure?
    Secretary Veneman. I am not aware of any written guidance 
that has been provided to us. However, as I indicated, there 
are a number of working groups that are interagency groups that 
work under the direction of the Office of Homeland Security 
that regularly work on these issues and address the various 
vulnerabilities, rank the vulnerabilities and look at where 
resources need to be allocated.

                     HOMELAND SECURITY SUPPLEMENTAL

    Chairman Byrd. You noted earlier, Madam Secretary, that you 
would be sending out applications to the States next October 
for the $15 million that Congress approved for emergency 
preparedness grants. We approved that funding on December 20. 
Why does it take 10 months to put out the applications, let 
alone the money for this food safety program?
    Secretary Veneman. Mr. Chairman, if I said that, I 
misspoke. What I was trying to indicate was that because there 
will be an application process for some of these programs, we 
may be into the next fiscal year before some of the money can 
actually be distributed because the application process is 
going to take some time, not that the applications would not be 
sent out until October. We are working as quickly as we can to 
make sure that we develop the right kind of parameters under 
which to operate these programs and work with the States.
    I have met numerous times with the National Association of 
State Departments of Agriculture, and with the State 
Veterinarians Associations. We know that some States have 
greater needs or different needs than other States simply 
because of either the resources they have or what they have had 
to deal with in the past, and some are better prepared to deal 
with emergencies than others are. So we want to make sure that 
the kind of process that we have for assisting States with 
emergency preparedness has the right kind of application 
process so that the funds go to the appropriate places, and 
that is what we are trying to put together immediately so that 
the application process can begin.
    If we can get some of these funds out before October, we 
certainly will. I simply stated to the committee that it could 
be into the next fiscal year.

                      OFFICE OF HOMELAND SECURITY

    Chairman Byrd. Wouldn't this be something the Office of 
Homeland Security could help you to expedite?
    Secretary Veneman. Well, certainly, again we are in close 
contact with the Office of Homeland Security. However, we are 
working closely, as I said, with the States and the Association 
of State Departments of Agriculture as well as the State 
veterinarians to identify what the needs are, how can funds be 
allocated and most appropriately utilized by States, and where 
are the greatest needs, so that we can put together the 
appropriate types of programs.
    In addition, we are using some of the State funds to look 
at upgrading State and university laboratories so that they can 
be an expansion of the Federal laboratory system. I think this 
is a very needed thing. We have a lot of very good laboratories 
around the country that serve agriculture through universities 
and State departments of agriculture, so we will be looking at 
a slightly different process for utilizing funds to upgrade 
laboratories.
    I would just point out that in terms of using the Office of 
Homeland Security it is really the departments that have the 
expertise in how to--for example, the Department of Agriculture 
certainly has the expertise in pest and disease prevention for 
agriculture.
    Chairman Byrd. Shouldn't the Office of Homeland Security 
have a part in bringing all of these loose ends together and 
expediting the use of the funds?
    Secretary Veneman. That is exactly what the Office of 
Homeland Security helps to do, is to facilitate particularly 
among and between agencies where we have resources that are 
going to be allocated, and that have been allocated. For 
example, we are using some of the funds under the defense 
supplemental, for getting the computer systems completed, that 
we need to adequately coordinate our systems with the U.S. 
Customs Service, for our border inspections.
    That is going to be a very important improvement between 
USDA and the Customs Service, and so some of these funds are 
going to be utilized in that way, and that is certainly 
something that has been facilitated by the Office of Homeland 
Security in terms of bringing the parties together and helping 
look at how the needs and systems can best come together.
    Chairman Byrd. It seems to this chairman that the Office of 
Homeland Security could be very instrumental and very helpful 
in expediting these actions and pulling these things together. 
Of course, the Director is not here for us to ask him the 
question. You are doing a good job in attempting to explain the 
situation in his absence, and we thank you for that. Of the 
$328 million added by Congress last fall in the fiscal year 
2002 supplemental, how much has been obligated to date?

               HOMELAND SECURITY SUPPLEMENTAL OBLIGATIONS

    Secretary Veneman. We have obligated from that 
supplemental--there was as part of that supplemental some WIC 
money that has been completely allocated--at least $10 million 
of other funds. We have approved a detailed spending plan and 
urged the agencies to move forward, so we think a substantial 
amount of this money will be allocated very quickly.
    We estimate that certainly a majority of the funds will be 
allocated by the end of the fiscal year.
    Chairman Byrd. That does not tell the committee much. When 
you say a majority of the funds, a majority of the funds would 
be $164 million, according to my old-time math, but you have 
not answered the question. Let me ask it again. Of the $328 
million added by Congress last fall in the fiscal year 2002 
supplemental, how much has been obligated to date, and for what 
purposes?
    Secretary Veneman. Mr. Chairman, in my testimony we have 
reviewed the various purposes and the various agencies which 
have received the allocations. The money has for the most part 
been completely allocated to the agencies at this point in 
time. They are implementing their plans, and are now in the 
process of spending that money. Obviously, it is not going to 
all go out the door in 1 day or in 1 month, but it has been 
allocated, for the most part. We have tried to share to the 
greatest extent possible all of our plans with the committee 
members so that you have the knowledge of what kinds of 
programs we are spending the money on in the Department.
    Chairman Byrd. Well, you said a few moments ago that a 
majority--and I will use your words--a majority of the $328 
million added by the Congress last fall in the fiscal year 2002 
supplemental had been obligated. Now, can you tell the 
committee how much has been obligated to date?
    Secretary Veneman. My understanding of the funds actually 
obligated to date is just over $10 million, not counting the 
WIC money, all of which has been obligated, but we have 
allocated all but a small percentage of the money. The money 
that we talked about earlier has been allocated to the various 
projects for spending.
    Chairman Byrd. What is your definition of the word, 
allocated? What do you mean by allocated?
    Secretary Veneman. We have authorized it through the 
Department to the agencies for implementation of specific 
projects and priorities.
    Chairman Byrd. For the record, tell the committee, please, 
how much has been obligated to date, and explain the hold up. 
This money was appropriated last December. The supplemental was 
enacted last December.
    Secretary Veneman. Mr. Chairman, I am not able to give you 
an item-by-item allocation today, but we would be happy to 
provide the committee with a detailed report and continue to do 
that on an ongoing basis as we spend this money.
    [The information follows:]

    USDA has allocated the entire $328 million to the agencies 
to begin implementing their specific projects and plans. In 
addition, the entire $39 million provided in the Homeland 
Security Supplemental for the WIC Program has been obligated. 
Listed below are the actual obligations for the $328 million as 
of April 29, 2002.

Homeland security supplemental funds obligations to date: April 29, 2002

                        [In millions of dollars]

Agricultural Research Service: Salaries and Expenses.............. $2.20
Departmental Administration:
    Winter Olympics Command Center, Security Assessments, and 
      Counter Measures involving: FS and ARS......................  1.62
    Security Assessments at 80 ARS Facilities Nationwide..........  1.70
    Design of reader/badging system (APHIS).......................   .06
    Sandia Contract Phase II and III on Bio Level 3 Labs..........  1.50
    USDA Mission Area Analyses and Simulations....................  1.20
    OCPM Increased Operations.....................................   .40
    Biomedical Testing and Lab Services...........................   .88
    Defensive Equipment and Structures............................   .28
    Contract Security Services....................................   .73
    Emergency Response Equipment..................................   .15
    Emergency Operations Center...................................   .22
    NFC and KC Physical Security Surveys..........................   .04
Office of the Inspector General: Salaries and Expenses............   .18
                                                                  ______
      TOTAL TO DATE............................................... 11.16

    Chairman Byrd. Very well. We would be happy to have that on 
an ongoing basis. Did you request or receive any written 
guidance from the Office of Homeland Security on the allocation 
of these homeland defense funds?
    Secretary Veneman. We have not received any written 
guidance. We have, as I indicated before, Mr. Chairman, worked 
with the Office of Homeland Security in terms of sharing with 
them the principal areas where we thought the funds ought to be 
allocated. Again, it is in our Department where we have the 
expertise and the people who are able to determine where the 
primary gaps are in terms of the spending priorities, so we 
have certainly kept the Office of Homeland Security apprised 
and worked with them, but as far as I know, we have not 
obtained specific written guidance.
    Chairman Byrd. Very well. Any further questions? Senator 
Cochran.
    Senator Cochran. Just one observation, Mr. Chairman. I 
think it needs to be said that this Department has done a very 
aggressive job in allocating resources to ensure that we 
continue to maintain the safest food supply in the world, and 
that our citizens here are free from threat of personal illness 
and death because of the many procedures and inspection 
services that are administered by the Department of 
Agriculture.
    I think the record is quite impressive, and in animals and 
diseases which we talked about earlier in this hearing we are 
making sure, as I understand the testimony, that our 
laboratories are the most modern that money can buy, and that 
the services that are provided throughout our country to 
safeguard human health as well as animal health are made 
available through State agencies and through Department of 
Agriculture resources all over the country. And it is a lot to 
keep up with, and I know that you are making every effort to 
ensure that the highest possible quality of protection is 
afforded, and I appreciate your diligence and the diligence of 
your staff in helping make sure that you discharge these 
responsibilities in a way that reflects credit on all of us.
    Thank you.
    Secretary Veneman. Thank you.
    Chairman Byrd. Senator Cochran, I thank you for helping to 
make this possible. The record of performance is good, and a 
great deal of credit, if I may use that word, should go to the 
Congress and to the Appropriations Committees of the Congress 
and the subcommittees who do such a fine job in regard to 
oversight of the funds, and I, as the chairman of the full 
committee, want to thank you for the splendid performance that 
you have rendered over the years in this regard.
    And I thank you, Madam Secretary, for your appearance here 
today, and for the testimony you have given, and the committee 
will want to continue to work with you in doing everything we 
possibly can jointly on the side of the executive branch and on 
the side of the legislative branch, two equal branches, to make 
our country and our people secure. And if we can be helpful, 
let us know, and we will let you know in return if we think the 
Department can be helpful.
    We will continue to watch your performance with great 
interest, and we will continue to try to assure the American 
people that their elected representatives and those who are 
appointed are on the job and working in the interest of the 
safety of our homeland.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Patty Murray
    Question. Secretary Veneman, USDA recently disqualified three 
Somali-American grocers in Seattle from participating in the Food Stamp 
Program. Those decisions came several months after a federal raid on 
one of the three stores. The store raided by federal agents had no ties 
to al-Qaida, but it was unfortunate enough to be located next door to a 
money-wiring business that was suspected of terrorist ties. The store 
owner reportedly lost tens of thousands of dollars in that raid.
    As you can imagine, USDA's enforcement actions under the Food Stamp 
Program has caused great concern within my state's minority 
communities. They wonder whether the federal government is finding new, 
creative ways to hurt their businesses and their families.
    I recognize USDA has procedures for identifying and investigating 
suspicious behavior in the Food Stamp Program. Clearly, we need to make 
sure stores are playing by the rules.
    However, post-September 11, I believe the department has an 
additional burden to explain its enforcement actions. Recognizing there 
is an administrative review process underway, I would hope you could 
look into this situation and keep me posted on any new developments.
    Answer. I will ask the Food and Nutrition Service (FNS) to provide, 
for the record, an update on this situation.
    [The information follows:]
    FNS has responded to a number of inquiries in recent weeks on the 
situation with three Somali stores in the Seattle area that have been 
permanently disqualified from the Food Stamp Program for trafficking. 
The action was taken in December 2001 and was based on suspicious 
pattern of EBT transactions identified through our ALERT system. ALERT 
looks at EBT transactions for all retailers in a given geographic area, 
and, using certain scans identifies transactions that may indicate 
trafficking. Of all of the ways in which potential traffickers can come 
to FNS' attention, ALERT is the most free of bias since it is based 
solely on transactional data. In the case of these stores, the FNS 
analysis was for the period April-September 2001.
    As indicated in Senator Murray's statement, these cases are now in 
administrative review. We are in the process of also responding to FOIA 
requests by the attorneys. We are unable to determine when a decision 
may be forthcoming since it may be predicated by requests made by the 
stores' attorneys.
    We continue to stay involved with this situation and will keep you 
posted on any new developments.
    Question. Secretary Veneman, I know you agree that our land grant 
universities are critical partners in fighting bioterrorism. 
Unfortunately, state budgets are tight and federal funding for 
constructing or securing research facilities is minimal. Yet, 
Agricultural Research Service scientists often use university 
facilities to conduct their research.
    I understand that the Farm Bill authorizes funding for biosecurity 
upgrades at land grant universities. Do you believe the federal 
government has a role to play in helping our land grant universities 
upgrade their research facilities and to improve security at these 
sites where so much federal research is done?
    Answer. We do agree that the land-grant universities are critical 
partners in fighting bioterrorism and that the Federal government 
should provide financial support to universities as they assume 
specific responsibilities. The Department has allocated over $43 
million of the funds provided in the Emergency Supplemental for grants 
and cooperative agreements to support efforts of our non-Federal 
cooperators at the State and local levels, and a substantial amount of 
this funding will be going to land grant universities.
    The farm bill does indeed authorize a program of competitive grants 
to make security upgrades at university laboratories and the criteria 
suggested by the conferees would give priority in awarding grants to 
those facilities and institutions that could play a critical role in 
responding to a bioterrorist incident.
    Question. Secretary Veneman, I've read through your testimony and I 
am pleased to see the department is investing in cooperative agreements 
with the states. In your testimony, you specifically reference the 
National Animal Health Emergency Management System.
    I believe a key part of that Emergency Management System is a 
National Animal Health Laboratory Network, which your department has 
been working on with a variety of partners. In my state, Washington 
State University is a leader in animal disease diagnostics.
    While I appreciate your commitment to cooperative agreements, it's 
clear that $43 million will not be enough. In fact, the laboratory 
network component that I just mentioned has been estimated to cost $70 
million for a one-time upgrade of state facilities, and $22 million in 
future years to help maintain. The states are currently investing 
millions of dollars in these facilities.
    What role do you see USDA playing in supporting a truly national, 
interconnected network of animal health diagnostic labs?
    Answer. USDA supports an effective laboratory system to promptly 
diagnose animal disease symptoms. We are currently evaluating the 
National Animal Health Emergency Management System proposal which is a 
comprehensive system that includes Federal, State, and community 
governments; voluntary organizations; academic institutions; and 
industry groups to address animal health emergencies. We are also 
considering the full range of activities non-Federal laboratories may 
be called upon to perform in an emergency, including diagnostics and 
backup capacity to Federal laboratories and for carcass disposal. Our 
evaluation will include recommendations for appropriate levels of 
support for these activities.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. In the aftermath of September 11, according to USDA 
officials, USDA is increasing the inspection staff at U.S. ports of 
entry, such as New Orleans, by adding up to 500 people. Have these 
people been added? Where are they being assigned? If they have not been 
added, why not, and when will this be accomplished?
    Answer. Since September 11, 2001, the Animal and Plant Health 
Inspection Service has hired more than 350 inspectional staff, 
excluding veterinary medical officers. APHIS is attempting to fill the 
remaining positions as quickly as possible with qualified persons. In 
New Orleans, APHIS is in the process of hiring 6 Plant Protection and 
Quarantine staff. The following table details States where four or more 
staff have been hired.

Inspectional Positions Hired Since Sept. 11, 2001 by State

                                                                    # of
        State                                                  New Hires

Alaska............................................................     5
California........................................................    65
Florida...........................................................    82
Georgia...........................................................     6
Hawaii............................................................    13
Indiana...........................................................     4
Illinois..........................................................    12
Michigan..........................................................    12
New Jersey........................................................     6
New York..........................................................     7
Pennsylvania......................................................    11
Texas.............................................................    21
Utah..............................................................     4
Washington........................................................    14
Puerto Rico.......................................................    12
Virgin Islands....................................................     4
Other States......................................................    74
                                                                  ______
      Total Hired.................................................   352

    Question. Responsibility for ensuring the safety of our national 
food supply and for protecting the U.S. agricultural system remains 
scattered among roughly a dozen federal agencies and hundreds of state 
and local agencies. Experiences such as Foot-and-Mouth Disease and Mad 
Cow Disease underscore the need to improve coordination and 
communications between agencies. What has USDA done to assure our 
farmers that they can deal with a minimum of regulatory agencies when 
emergencies such as this occur?
    Answer. USDA has developed plans to provide a quick, coordinated, 
efficient response in case of a foreign animal disease outbreak. USDA's 
Animal and Plant Health Inspection Service (APHIS) has a strong system 
in place for detecting and responding to outbreaks of foreign animal 
diseases, including foot-and-mouth disease (FMD). This FMD plan 
involves close cooperation with other Federal agencies and State 
authorities. The Bovine Spongiform Encephalopathy (BSE) Response Plan 
details comprehensive instructions for USDA staff outlining who is to 
do what, when, where, and which steps should be taken to make a 
definitive diagnosis of BSE. The plan has been shared with other 
Government agencies, such as the Food and Drug Administration, the 
Centers for Disease Control and Prevention, the National Institutes of 
Health, and stakeholders such as the Animal Ag Coalition.
    Question. Agriculture terrorism is probable for many reasons 
including that low tech approaches can be used, very little security 
and biosecurity exists in agriculture with immense acreage and public 
access over livestock pens in saleyards, and the United States has a 
concentrated livestock industry with 4 packing plants doing 
approximately 90 percent of the country's red meat slaughter. What is 
USDA doing to work directly with our livestock and crop farmers to 
increase biosecurity at the farm level and at livestock markets and 
crop storage plants?
    Answer. Since September 11, the Department's field staff has been 
working with the livestock and grain industries to develop protocols 
that would increase the vigilance at feedlots, stockyards, slaughter 
plants, large dairies, grain elevators and other locations that could 
be vulnerable to biological attacks by terrorists. To bolster this 
effort, the Department has allocated $43 million of the Emergency 
Supplemental for grants to States to help provide the Nation with an 
in-depth capacity for (1) surveillance and preparedness for animal and 
plant health threats, (2) rapid detection and diagnosis of animal and 
plant disease pathogens, (3) providing decision-makers with pertinent 
information in the event of an outbreak, and (4) disposal of animal 
carcasses.
    Question. I understand that the department has established a USDA 
Homeland Security Council to coordinate department-wide homeland 
security issues with responsibility for protecting the food supply and 
production, protecting the USDA facilities and infrastructure, and 
protecting staff and managing emergency preparedness. What plans does 
this council have to accomplish these goals?
    Answer. The Council establishes overall USDA homeland security 
policy, coordinates department-wide homeland security issues, approves 
budgets and other major commitments, appoints USDA representation to 
interagency or other external groups, tracks progress of high priority 
homeland security objectives resolves issues between agencies and 
provides external communications.
    Question. The Council has taken a critical look at our programs 
funded through the supplemental to identify areas of potential overlap 
and gaps that need to be filled. Key elements in the decision process 
included development of plans by agencies and reviews of those plans by 
the Council. We are also working closely with the Office of Homeland 
Security in developing our plans and coordinating our security efforts 
to ensure that priority needs are met.
    What is the council's budget?
    Answer. There is no separate budget for the Council and the Working 
Group. The budget for the staff support (and related contract 
expenditures) for the 17 months between now and the end of fiscal year 
2003 is $2.8 million.
    Question. Is this council up and running?
    Answer. Yes. The USDA Homeland Security Council is comprised of the 
Department's subcabinet officers aligned into three sub-councils that 
serve to cut through the organizational and programmatic boundaries of 
the Department. This structure serves to facilitate a more coordinated 
program to enhance the security of the nation's food system than would 
be the case were we to rely solely upon our normal service delivery and 
regulatory mechanisms. There is also a Homeland Security Working Group 
made up of key agency administrators and other senior staff, which 
generally meets weekly to coordinate and share information at the 
organizational level, one level below the Council itself. A major 
responsibility of the Homeland Security Staff will be to coordinate 
USDA's homeland security activities with federal, state and local 
agencies and with agriculture industry representatives. Up to now, most 
of this interagency, intergovernmental, and industry coordination has 
been performed by key professional staff within the Office of the 
Secretary and the offices of the most affected mission areas (Food 
Safety, Marketing and Regulatory Programs, and Research, Education and 
Economics).
    Question. How many, and what type of emergency management and 
homeland security critical positions are vacant in USDA?
    Answer. Using funds appropriated in the Defense Appropriations Act, 
we are presently establishing a six-person, high-level staff dedicated 
to providing professional support to the Council. Additionally, APHIS 
will hire and train 16 new staff to enhance the smuggling interdiction 
program, 2 veterinarians to coordinate FMD control activities 
throughout South America and Asia and approximately 148 more inspection 
staff for AQI activities. FSIS will increase their staff years from 80 
to 100 for import inspectors.
    Question. How will this council work with other federal departments 
and agencies in a collaborative way?
    Answer. The Council assures that information, research, and 
resources are shared and activities coordinated with other Federal 
agencies. The Department has a liaison assigned to the Office of 
Homeland Security. Our staff are actively engaged in collaboration with 
OMB, HHS, FBI, DOJ and other agencies.
    Question. How will the goals of this council benefit and protect 
the grass-roots farmers who are producing food animals and crops to 
feed our citizens?
    Answer. The goals of this Council are already helping protect 
grass-roots farmers who are producing crops and livestock. The 
Department's field staff has been working with the livestock and grain 
industries to develop protocols that would increase the vigilance at 
feedlots, stockyards, slaughter plants, large dairies, grain elevators 
and other locations which could be vulnerable to biological attack by 
terrorists. The Council also serves a key role in coordinating the 
efforts of a number of agencies in this regard.
    Question. What plans does this council and USDA have in working 
with the states and with private veterinary practitioners to provide 
protection and services to our agriculture families and industries?
    Answer. The Department has allocated $43 million of the Emergency 
Supplemental for grants to States to help provide the Nation with an 
in-depth capacity for (1) surveillance and preparedness for animal and 
plant health threats, (2) rapid detection and diagnosis of animal and 
plant disease pathogens, (3) providing decision-makers with pertinent 
information in the event of an outbreak, and (4) disposal of animal 
carcasses.
    The Extension Disaster Education Network also builds on the current 
network of extension agents who are trained to help people and 
communities deal with natural disasters. Funds would be used to develop 
educational materials and to recruit and train personnel to deliver 
information at times of crisis.
    Question. Is there a mechanism for first-line responders such as 
private veterinary practitioners, diagnostic laboratories, and 
extension personnel to apply for grants to develop emergency management 
agriculture plans?
    Answer. The mechanism for extending these grants to the most 
promising proposals is under development.
    Question. Money was appropriated in the fiscal year 2002 budget to 
begin the joint consolidation and modernization of animal health 
diagnostic laboratories in Ames, Iowa. This is an important part of our 
agriculture homeland security system. However, there are no proposed 
monies to continue to accelerate this important project in the fiscal 
year 2003 President's proposed budget and I understand the department 
wants to use monies from supplemental funds allocated after September 
11. It is my understanding the supplemental funds were to be used to 
assist current programs--not for the continued development and 
construction of the joint laboratory project. How does the department 
propose to complete the consolidation and modernization of the animal 
health diagnostic laboratories in Ames without the request for monies 
to do so?
    Answer. Actually, the Emergency Supplemental includes $50 million 
for the construction of the BSL-3 large animal building, a major 
component of the new USDA Ames Animal Facility. Planning for this 
facility is underway now and planning for other components of the 
complex will begin in July 2002. Under the schedule we are on, we will 
be prepared to award contracts for construction of the other components 
of the complex in fiscal year 2004, if funding is available.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                              food safety
    Question. Madam Secretary, in the post-9/11 environment, many 
Americans are concerned about the safety of the food they eat.
    Do you believe that potential terrorist attacks pose a serious 
threat to the safety of our food supply? Could you describe your 
Department's activities to protect our food supply against potential 
attacks, including how the Department is coordinating with FDA?
    Answer. The Department of Agriculture takes very seriously the 
possibility of a bioterrorist action against the food supply. A number 
of steps have been taken to strengthen the agricultural infrastructure 
to protect the food supply against potential attacks. As a result of 
the devastating outbreak of Foot-and-Mouth Disease that hit the United 
Kingdom and other parts of Europe, the Department conducted an intense 
review of its safeguarding programs. Actions have been taken to 
increase the number of inspection personnel at U.S. ports of entry by 
nearly 40 percent and double the number of inspection dog teams from 
levels 2 years ago. Additionally, training exercises, as well as more 
communications and technical assistance, have been conducted and 
improved to ensure readiness should an animal, pest or food emergency 
occur. With regard to protecting the meat, poultry, and egg products 
supply from intentional attack, we have placed our food inspectors on 
heightened alert regarding potential food security threats in the 
production environment and has initiated training for its inspectors 
and compliance personnel in threat recognition and interdiction 
techniques. We are also planning to use $1.5 million of the funds 
provided by the Homeland Security Supplemental to hire 20 additional 
import inspectors for a total of 100 import inspectors.
    We have also increased our efforts to coordinate biosecurity 
efforts within the Department, as well as with other Federal, State, 
and local agencies, consumer and industry groups. The Department has a 
strong emergency preparedness plan in place to respond to an 
intentional attack on the meat, poultry, or egg products supply. FSIS 
recently formed the Food Biosecurity Action Team (F-BAT) to coordinate 
and facilitate all activities pertaining to biosecurity, countering 
terrorism, and emergency preparedness. F-BAT coordinates with the Food 
Emergency Rapid Response and Evaluation Team (FERRET), which is the 
Department-wide mechanism to ensure expeditious and effective response 
in the event of a food security threat. USDA is also a participant in 
the Food Threat Preparedness Network, (PrepNet), which functions across 
departments to ensure food security throughout the government. PrepNet 
is co-chaired by the FSIS Administrator and the Director of the Center 
for Food Safety and Applied Nutrition (CFSAN) at the Food and Drug 
Administration (FDA). This group is a strong example of USDA's 
commitment to working with other public health agencies to take 
proactive measures against bioterrorist threats against the food 
supply. Other members of PrepNet include Animal and Plant Health 
Inspection Service, the Centers for Disease Control and Prevention, the 
Department of Defense, and the Environmental Protection Agency.
    Question. With these collaborative groups in place, the Department 
is well situated to respond to food safety threats to our nation's food 
supply, regardless of whether they occur as a result of intentional or 
accidental action. We will continue to coordinate its prevention and 
response activities on all levels, both internally and externally among 
all stakeholders.
    If there were a bioterror event involving our food supply, who 
would be in charge?
    Answer. In the event of a bioterrorism attack on the food supply, 
the Food Preparedness Network (PrepNet) would be immediately activated. 
PrepNet is jointly overseen by the Under Secretary for Food Safety at 
USDA and the Special Advisor for Bioterrorism at Health and Human 
Services (HHS). At the working level, PrepNet activities are directed 
by the Administrator of FSIS (in the case of meat and poultry) and the 
Director of CFSAN (all other foods). PrepNet would coordinate its 
activities with law enforcement offices, such as the FBI, and with the 
White House Office of Homeland Security through the Deputy Secretaries' 
offices of USDA and HHS.
    The Deputy Secretary oversees a vast, department-wide internal 
structure devoted to biosecurity needs, which includes those related to 
the food supply and agricultural production.
    USDA continues to strengthen homeland security planning and 
preparedness related to food safety. FSIS has received $16.5 million to 
increase monitoring, provide training to inspectors, and to expand 
technical capabilities. In addition, proposed increased spending is 
outlined in USDA's fiscal year 2003 budget, which would provide record 
support for pest and disease protection systems and food safety 
programs.
    Question. I understand that neither the FDA nor USDA has mandatory 
recall authority for food. If we find that a given product is making 
people sick, and we suspect it's a bio-terror agent, what tools does 
government have to recall food? Do we rely on states to make that call? 
Or on the food processors? What if it's an imported product that may 
have been contaminated by terrorists?
    Answer. If there is reason to believe that product is adulterated 
or misbranded and has entered commerce, FSIS works with the industry to 
ensure that all product is quickly removed and recalled from commerce. 
FSIS may request that a company recall product or a company may do so 
on its own. FSIS has never had a company refuse to recall a product at 
the request of FSIS. As an alternative to a recall, FSIS may detain or 
seize adulterated or misbranded product. I have asked FSIS to provide a 
more detailed response to your question for the record.
    [The information follows:]
    FSIS receives and responds to product-specific information seven 
days a week from a number of sources, including FSIS laboratories, 
inspection staff, enforcement staff, industry establishments, 
consumers, other Federal entities, such as FDA, and State for foreign 
food safety authorities. The procedures FSIS has in place are designed 
to handle any kind of food safety emergency, whether it is naturally 
occurring or a planned assault on the food supply.
    Product information received by FSIS is reviewed by the Agency's 
Recall Staff and, if appropriate, with the establishments that produced 
the product. After a preliminary investigation and determination that a 
recall potentially is warranted, FSIS forms a Recall Committee, 
including scientists, technical experts, field inspection managers, 
enforcement personnel, and congressional and public affairs 
representatives. The Committee reviews all available data and 
determines whether there is reason to believe that product that is 
adulterated or misbranded has entered the stream of commerce. If this 
is the case, the Committee assigns a classification to the situation 
based on the health risk presented by the product. Class I means that 
reasonable probability exists that an implicated product may cause 
serious health consequences or death if consumed (for example, a ready-
to-eat product that was contaminated with Listeria Monocytogenes. Class 
II means there is a remote possibility of adverse health consequences, 
such as a product containing very small, non-toxic foreign material. 
Class III means that the product would not cause adverse health 
consequences, such as if the product is economically adulterated. When 
the hazards are unique or unusual, the Recall Committee consults with 
the FSIS Health Hazard Evaluation Board to assess the risk associated 
with consumption of the product. The Recall Committee also identifies 
production and distribution information so that all the recalled food 
can be identified and returned.
    When its work is completed and a recall is found to be warranted, 
the Recall Committee advises the company of its recommendation that a 
Class I, II, or III recall be conducted. The Committee also provides an 
opportunity for the firm to offer any information it wishes FSIS to 
consider regarding the recall. The Recall Committee then considers all 
information and makes a final recommendation to the FSIS Deputy 
Administrator for Public Health and Science.
    Recall procedures are the same for domestic and imported product. 
If a problem is found with imported product after it has entered the 
United States, it is treated the same as domestic product with regard 
to disposition. It cannot be re-exported; and must be either destroyed 
or converted to animal food, expect in some specific cases where it can 
be further processed or re-labeled to bring it into compliance with 
U.S. regulatory requirements.
    For every recall, FSIS notifies the public through press releases 
and with Recall Notification Reports (RNRs), which are sent 
electronically to Federal, State, and local food safety and public 
health officials. The press release and RNR are also posted on the FSIS 
Recall web site.
    FSIS has a dedicated electronic database of recall information 
through which each recall is tracked from the point of initiation until 
it is closed. FSIS enforcement personnel perform effectiveness checks 
to ensure that recalled products are being removed from distribution 
channels. Additionally, FSIS maintains a database of information on 
product recalls associated with outbreaks of foodborne illness. The 
Agency's field epidemiology officers work cooperatively with State 
public health officials and the Centers for Disease Control and 
Prevention (CDC) to initiate and trace back recalled product to 
determine possible linkages to foodborne illness or outbreaks. This is 
followed by laboratory analysis of food product samples. State 
investigators and CDC can compare patient isolates to meat isolates 
using Pulsed Field Gel Electrophoresis (PFGE) patterns, or ``genetic 
fingerprints'' to help establish the link between a particular food 
vehicle and cases of human illness. This information is helpful in 
conjunction with other evidence (HACCP plans, sanitation records, and 
epidemiological data) in assisting the FSIS recall and human health 
staff to determine the source of the outbreak.
    Question. Do you support mandatory recall authority for USDA?
    Answer. The Administration has not taken a position on whether 
legislation is needed giving mandatory recall authority and other 
enforcement measures to improve food safety.
    Question. What are the most critical food safety threats and what 
resources do federal agencies need to be fully prepared?
    Answer. USDA has in place a number of programs aimed at protecting 
the agricultural infrastructure from a variety of food safety threats, 
including pests and diseases that can cause serious harm to agriculture 
and the food system. In addition, we have food safety programs designed 
to reduce all types of hazards in the food supply, whether they are 
chemical, physical, or microbiological. These programs have been very 
successful and are recognized worldwide as the most appropriate means 
for controlling food contamination, whether intentional or 
unintentional. The 2003 budget includes increased funding to strengthen 
training and technology to enhance homeland security and protect 
agriculture and the food supply. Highlights of these increases include: 
(A) $19 million increase in the AQI program for improved point-of-entry 
inspection programs; (B) $5 million increase to strengthen the 
capability of APHIS to assess and monitor outbreaks of diseases in 
foreign countries that have the potential to spread to this country; 
(C) $48 million increase for plant and animal health monitoring; (D) 
$12 million increase for other APHIS programs to expand diagnostic, 
response, management, and other scientific and technical services; (E) 
$28 million increase to support FSIS food safety activities; and (F) 
$34 million to support research aimed at protecting the Nation's 
agriculture and food system.
    Question. Do we need a single food safety agency or do you believe 
the current bifurcated system is effective for handling potential 
terrorist threats to our food supply?
    Answer. The Administration's report, Food and Agricultural Policy: 
Taking Stock for the New Century, indicates that where possible, 
Federal policies and programs must be coordinated and integrated to 
reduce duplication of effort, regulatory burden, and program cost. This 
is especially important for the food safety area where several agencies 
share regulatory responsibilities or have a role in research, 
development, and implementation of food safety policies. At this time, 
the Administration has not taken a position on whether it is necessary 
to develop alternative organizational food safety structures.
    Question. The fiscal year 2002 supplemental provides $75 million 
for USDA to provide resources to finance rising participation in the 
Special Supplemental Nutrition Program for Women, Infants, and Children 
(WIC) and increased costs of WIC food and administration.
    Is $75 million sufficient to growing needs under the WIC program, 
and what are your anticipated needs in the coming fiscal year?
    Answer. We believe that the proposed supplemental for $75 million 
for the WIC program is sufficient to ensure unrestricted access to the 
program for eligible women, who choose to participate, and their 
children. The President's fiscal year 2003 budget requests a base 
appropriation of $4.6 million and a contingency reserve of $150 
million. The Department remains confident that this request is 
sufficient to meet anticipated demand for program services in the 
coming fiscal year.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. There has been a lot of money appropriated to each 
cabinet member for the sole purpose of Homeland Security. As I see it, 
the Food Safety and Inspection Service (FSIS) will carry most of the 
load for the USDA's contribution to the security of the United States 
and its food supply. It troubles me that very little of the food that 
enters this country is inspected.
    How can the United States be expected to protect itself if we 
cannot be 100 percent certain that the food we eat is safe?
    Answer. FSIS has an extensive program in place to ensure that 
imported meat and poultry products meet U.S. food safety requirements, 
including foreign equivalency audits, on-site inspection of foreign 
establishments exporting products to the United States, and 
reinspection of imported products at ports-of-entry by specially 
trained inspection personnel. FSIS in-plant inspectors inspect imported 
products that are further processed in domestic meat and poultry 
establishments. In addition, ARS provides research support and we are 
strengthening APHIS to keep diseases out of the country that would 
affect the food supply.
    Question. Should the FSIS be more closely working with other 
government agencies (Customs) to better inspect the foodstuffs coming 
into the United States?
    Answer. Using funds provided by the Homeland Security Supplemental, 
FSIS will hire an additional 20 import inspectors, an increase of 25 
percent, for a total of 100. The inspectors will be located at various 
ports-of-entry to augment the existing inspection force. Some funds 
will also be allocated to support improvements in information system 
linkages among FSIS, the Animal and Plant Health Inspection Service 
(APHIS), and U.S. Customs Service that are used to identify shipments 
of prohibited food animals and food products into the United States.
    Since September 11, FSIS has placed increased attention on the need 
to coordinate biosecurity efforts within the Agency and Department, as 
well as with other Federal, State, and local agencies, consumer and 
industry groups. The Agency has a strong emergency preparedness plan in 
place to respond to an intentional attack on the meat, poultry, or egg 
products supply. FSIS recently formed the Food Biosecurity Action Team 
(F-BAT) to coordinate and facilitate all activities pertaining to 
biosecurity, countering terrorism, and emergency preparedness within 
the Agency.
    Within the Department, F-BAT coordinates with FERRET--the Food 
Emergency Rapid Response and Evaluation Team--the Department-wide 
mechanism to ensure expeditious and effective response in the event of 
a food security threat. FSIS also is a participant in the Food Threat 
Preparedness Network, (PrepNet), which functions across departments to 
ensure food security throughout the government. PrepNet is co-chaired 
by the FSIS Administrator and the Director of the Center for Food 
Safety and Applied Nutrition (CFSAN) at the Food and Drug 
Administration (FDA). This group is a strong example of USDA's 
commitment to working with other public health agencies to take 
proactive measures against bioterrorist threats against the food 
supply. Other members of PrepNet include APHIS, the Centers for Disease 
Control and Prevention, the Department of Defense, and the 
Environmental Protection Agency.
    With these collaborative groups in place, FSIS is well situated to 
respond to food safety threats to our nation's food supply, regardless 
of whether they occur as a result of intentional or accidental action. 
FSIS will continue to coordinate its prevention and response activities 
on all levels, both internally and externally among all stakeholders.
    Question. After September 11th, there was a fear raised of 
cropdusters passing over populations and spreading clouds of various 
dangerous chemical agents over populous areas. I'm not sure that this 
threat is over, but I am wondering what is the USDA doing to protect 
against the spread of harmful chemical agents over fields where the 
country's corn, wheat, or other grains are grown?
    Answer. The USDA cooperates in a number of programs that involve 
the aerial application of materials to control plant and animal pests.
    Most of the aircraft used in USDA programs are required to maintain 
radio communication with program personnel on the ground. Contract 
applicators are also ``checked-in'' each morning before starting 
program operations. In many cases, global positioning systems (GPS) are 
used to monitor exactly where the aircraft have traveled.
    Several things would have to happen in order for someone to 
discharge dangerous materials in an inappropriate manner from an 
aircraft. They would have to: (1) be trained in how to operate the 
specific aircraft; (2) overcome ground security measures and gain 
access to the aircraft; (3) gain access to a large amount of a 
``restricted use'' material, and get it loaded into the aircraft 
without being noticed by ground personnel; (4) be able to start the 
loaded aircraft and get airborne without being noticed; and (5) be 
familiar with local terrain in order to find their target area.
    Question. What types of reserves (or contingency plan that you are 
able to discuss) does the United States have in the event of a 
catastrophic attack on our nation's agricultural producers?
    Answer. The Department has offices in every major agricultural 
county in the nation. Our staffs at the Farm Service Agency and the 
Cooperative State Research, Education and Extension Service are in 
close contact with farmers and ranchers. They stand ready to quickly 
communicate the need to respond to terrorist threats or to bring 
experts to the scene of a possible terrorist attack. APHIS' 
Surveillance and Emergency Program Planning and Coordination Staff 
plans and coordinates exotic plant pest emergency programs and they 
collaborate with stakeholders to develop and implement policies to 
strengthen the emergency response capabilities. They also coordinate 
the planning and development of budget proposals to transfer funds from 
the Commodity Credit Corporation to support exotic emergency program 
activities.

                            COMMITTEE RECESS

    Chairman Byrd. Now, the next hearing will occur on 
Thursday. The full committee will meet in open session at 10 
a.m., and at 2:30 p.m. on Thursday, May 2, in room SD-192 of 
the Dirksen Senate Office Building. The subject of the hearing 
will be homeland security and the fiscal year 2002 supplemental 
appropriations. The witnesses at that time will be Hon. Norman 
Y. Mineta, Secretary of Transportation, who will appear before 
the committee at 10 a.m. He will be followed by Hon. Tommy 
Thompson, Secretary of Health and Human Services, at circa 11 
a.m., and he will be followed by the Attorney General Hon. John 
Ashcroft at 2:30 p.m., who will then be followed by Joe M. 
Allbaugh, Director of FEMA, on that date. And until that time, 
the committee will stand in recess.
    [Whereupon, at 2:05 p.m., Tuesday, April 30, the committee 
was recessed, to reconvene at 10 a.m., Thursday, May 2.]













HOMELAND SECURITY AND THE FISCAL YEAR 2002 SUPPLEMENTAL APPROPRIATIONS 
                                  BILL

                              ----------                              


                         THURSDAY, MAY 2, 2002

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Harkin, Kohl, Murray, Dorgan, 
Durbin, Reed, Stevens, Cochran, Specter, Domenici, Burns, 
Shelby, Gregg, and DeWine.

              OPENING STATEMENT OF CHAIRMAN ROBERT C. BYRD

    Chairman Byrd. The committee will come to order. I am 
informed that my colleague, Senator Stevens, is on his way, but 
I am told that it would be his wish that I proceed for the time 
being.
    Today marks the Senate Appropriations Committee's fourth 
day of homeland defense hearings. So far, the committee has 
heard about significant needs at the State and local levels. 
The committee has been asked to devote considerable resources 
to law enforcement, emergency health response, ports, 
utilities, fire fighters, and so many other priority areas. We 
have learned that while the American people expect their 
homeland security to be an absolute, at this point it is 
nothing more than an aspiration.
    On Tuesday, we heard from three Cabinet Secretaries. Today, 
we will hear from four others. Last year, the Commerce, 
Justice, State Subcommittee led by Senator Gregg and Senator 
Hollings held 3 days of hearings to assess the readiness 
capabilities of 46 Federal agencies responsible for dealing 
with a terrorist act.
    One thing that emerged from those hours of hearings is that 
our Nation's homeland defense is falling victim to bureaucratic 
turf battles. Instead of a seamless procedure that is met 
without resistance by Federal agencies, homeland defense 
priorities are mired in conflicting department missions. The 
one person with the responsibility and the authority to cut 
through that conflict and to help resolve those turf battles is 
gagged by his own Administration. Director Ridge is the one 
person in this Administration who does not have a conflicted 
mission. He is the single figure with the responsibility to 
protect the lives and property of the American people from 
terrorist attack. He has been given that mission through an 
executive order by the President.
    This committee wants to help Director Ridge to fulfill his 
mission. This committee has shown its commitment to homeland 
security when Members crafted the emergency supplemental bill 
last December that included substantial funds for bioterrorism, 
first responder training, and transportation security. We 
addressed immediate needs in food and water safety, nuclear 
security, and border security. This committee has not been shy 
about funding the critical safety needs of this Nation, nor 
will we be shy in the days ahead, but I do fear that we will 
not have the entire homeland security plan, nor will we have an 
understanding of the priorities that Director Ridge feels ought 
to be addressed immediately without his testimony.
    I must note that later this morning Director Ridge is 
scheduled to provide a briefing to Senators on the topic of 
border security. This orchestrated event, apparently 
orchestrated event, comes on the precise date that Senator 
Stevens, the Ranking Member of this committee, and I, the 
Chairman of this committee, offered an opportunity for Director 
Ridge to testify before this committee. Instead of allowing 
Director Ridge to testify before this Senate Appropriations 
Committee, the Administration would rather trivialize homeland 
security with these made-for-television stunts.
    This committee is engaged in serious business, crafting 
legislation to address the many, many critical vulnerabilities 
in our homeland defenses. This committee is seeking information 
as we make funding decisions that will affect the safety of 
every single American in this country.
    To make the best possible decisions, we have asked for the 
advice of this Administration point man on homeland security. 
If Director Ridge will appear before our committee, we will 
welcome him in formal, open, public hearings. The invitation is 
open, but if the Administration continues to deny the 
bipartisan request, the committee will simply have to do its 
best without him. The committee cannot be distracted from our 
efforts by these sophomoric political antics. The committee has 
a job to do, and the committee will do it.
    Just this week, the Brookings Institution released a 
comprehensive study of the Administration's current homeland 
security policy. The Brookings team found a number of 
shortfalls in the current Administration approach, including 
the fact that the primary missing ingredient from all of the 
debate and the discussions is a clear, coherent plan that 
identifies our most critical vulnerabilities and the steps 
necessary to address those vulnerabilities.
    The Administration testimony that we have heard to date 
focuses on steps taken to prevent the type of attacks we have 
already suffered. Little attention has been paid to the real 
vulnerabilities that we all know do exist. That again is why we 
want to hear from Director Ridge.
    Secretary Mineta today will speak to issues involving the 
Transportation Department, but he does not have the whole 
picture when it comes to homeland security, nor does Attorney 
General Ashcroft, Secretary Thompson, or Director Allbaugh. 
Each Cabinet Secretary and agency head holds a piece of the 
puzzle, but only Mr. Ridge is privy to the whole picture, and 
that is what the American people need to see.
    I continue to hope that the President will come to realize 
the seriousness of this matter, acknowledge the public's right 
to know, and allow Director Ridge to testify in open hearings 
before this Senate Appropriations Committee. Now, I want to 
turn to Senator Stevens, my colleague, for any comment he 
wishes to make at this point.
    [The statements follow:]
             Prepared Statement of Chairman Robert C. Byrd
    Today marks the Senate Appropriations Committee's fourth day of 
homeland defense hearings. So far, the committee has heard about 
significant needs at the state and local levels. We have been asked to 
devote considerable resources to law enforcement, emergency health 
response, ports, utilities, firefighters, and so many other priority 
areas. We have learned that, while the American people expect their 
homeland security to be an absolute, at this point it is nothing more 
than an aspiration.
    On Tuesday, we heard from three Cabinet secretaries, and today we 
will hear from four more. Last year, the Commerce-Justice-State 
Subcommittee, led by Senator Gregg and Senator Hollings, held three 
days of hearings to assess the readiness capabilities of forty-six 
federal agencies responsible for dealing with a terrorist act. One 
thing which emerged in all of those hours of hearings is that our 
nation's homeland defense is falling victim to bureaucratic turf 
battles. Instead of a seamless procedure that is met without resistance 
by federal agencies, homeland defense priorities are mired in 
conflicting department missions. And the one person with the 
responsibility and the authority to cut through that conflict and to 
resolve those turf battles is gagged by his own Administration.
    Tom Ridge is the one person in this Administration who does not 
have a conflicted mission. He is the single figure with the 
responsibility to protect the lives and property of the American people 
from terrorist attack.
    This committee wants to help Director Ridge. This committee has 
shown its commitment to homeland security when members crafted the 
emergency supplemental bill last December that included substantial 
funds for bioterrorism, first responder training, and transportation 
security. We addressed immediate needs in food and water safety, 
nuclear security, and border security. We have not been shy about 
funding the critical safety needs of this nation, nor will we be in the 
days ahead. But I fear that we will not have the entire homeland 
security plan nor an understanding of the priorities that Director 
Ridge feels ought to be addressed immediately without his testimony.
    I must note that, later this morning, Director Ridge will provide a 
briefing to Senators on the topic of border security. This orchestrated 
event comes on the precise date that Senator Stevens and I offered to 
Tom Ridge to testify before this committee. But, instead of allowing 
Director Ridge to testify, the Administration would rather trivialize 
homeland security with these made-for-television stunts.
    This Committee is engaged in serious business, crafting legislation 
to address the many, many critical vulnerabilities in our homeland 
defenses. We are seeking information as we make funding decisions that 
will affect the safety of every single American. And, to make the best 
possible decisions, we have asked for the advice of this 
Administration's point man on homeland security. If Mr. Ridge will 
appear before our committee, we will welcome him. The invitation is 
open. But if the Administration continues to deny our bipartisan 
requests, we will do our best without him. We cannot be distracted from 
our efforts by these sophomoric political antics. We have a job to do, 
and we will do it.
    Just this week, the Brookings Institution released a comprehensive 
study of the Administration's current homeland security policies. The 
Brookings team found a number of shortfalls in the current 
Administration approach, including the fact that the primary missing 
ingredient from all of the debate and discussion is a clear, coherent 
plan that identifies our most critical vulnerabilities and the steps 
necessary to address those vulnerabilities. The Administration 
testimony that we have heard to date focuses on steps taken to prevent 
the type of attacks we have already suffered; little attention has been 
paid to the real vulnerabilities that we all know exist. That, again, 
is why we want to hear from Director Ridge.
    Secretary Mineta today will speak to issues involving the 
Transportation Department, but he does not have the whole picture when 
it comes to homeland security. Nor does Attorney General Ashcroft, 
Secretary Thompson, or Director Allbaugh. Each Cabinet secretary and 
agency head holds a piece of the puzzle, but only Mr. Ridge is privy to 
the whole picture, and that is what the American people need to see. I 
continue to hope that the President will come to realize the 
seriousness of this matter, acknowledge the public's right to know, and 
allow Director Ridge to testify.
    Secretary Mineta, no federal agency was more immediately and more 
stunningly affected by the events of September 11 than yours. Increased 
airport security is probably the most visible aspect of America's new 
focus on homeland security, and transportation security remains at the 
top of our list of national concerns.
    Airport security is one issue, and a very important one, but as 
this Committee heard during our first round of Homeland Security 
hearings, port security is another extremely important element of 
homeland security.
    I look forward to hearing your comments on the state of our 
national transportation policies and infrastructure as they relate to 
homeland security, and on what steps you are taking to strengthen 
transportation security, both for passengers traveling in this country, 
and for goods entering our ports.
                                 ______
                                 
               Prepared Statement of Senator Tim Johnson
    Mr. Chairman, I thank you and Senator Stevens for organizing 
today's hearing on homeland security and the fiscal year 2002 
Supplemental Appropriations bill. Securing our nation from the threat 
of future terrorist attacks remains our highest priority, and your 
continued leadership on this issue is greatly appreciated. The 
seriousness and diversity of the threats we face make this a difficult 
challenge. However, I remain confident that by working together, the 
Congress and the Administration will do what is needed to keep the 
American people safe.
    Once again, we are fortunate to have a distinguished panel of 
witnesses appearing before the Committee today. Secretary of 
Transportation Norman Mineta, Secretary of Health and Human Services 
Tommy Thompson, Attorney General John Ashcroft, and FEMA Director Joe 
Allbaugh will share with the Committee how their agencies and 
departments are addressing our homeland security needs.
    The events of September 11 propelled the Department of 
Transportation into the forefront of our homeland security debate. Soon 
after the tragedies of September 11, Congress passed legislation to 
tighten security at America's airports, which I believe has made travel 
in the United States safer.
    However, reports have emerged about continuing security lapses. 
Moreover, there is concern about whether there are sufficient resources 
for future security needs, especially for small airports. I introduced 
legislation after the attacks that would give small airports the 
resources needed for additional security equipment. It is important to 
remember that two of the terrorists began their trip in Portland, 
Maine, a town that is smaller than Rapid City, South Dakota. Small 
airports are required to meet many of the security requirements that 
were enacted into law, and Congress and the Administration have a 
responsibility to help them meet those standards.
    The fiscal year 2002 Supplemental request includes $2.4 billion to 
fund and operate the Transportation Security Administration (TSA). This 
will provide funding for initial contracted airport screeners and for 
hiring federal airport screeners, managers, and checkpoint law 
enforcement officers. The Department of Transportation is still 
implementing the new airport security requirements, but I encourage 
Secretary Mineta to continue to investigate vulnerabilities at our 
nation's airports and to work with Congress to ensure adequate funds 
are being appropriated to transportation security needs.
    September 11 also awakened us to the potentially devastating 
consequences of a bio-terrorist attack on the United States. In my 
discussions with South Dakota health officials, it has become clear to 
me that we cannot mount a successful response to bio-terrorism or other 
public health threats without substantially improving the core 
capacities of local health agencies. As a result, I have worked with my 
colleagues on legislation to direct federal funds to state and local 
health officials.
    I was very pleased that last year Congress provided Health and 
Human Services $3.3 billion for emergency expenses related to 
countering potential biological, disease, and chemical threats to 
civilian populations. Much of this funding was directed to hospitals, 
clinics, and health care facilities for grants to improve their 
capacity to respond to bio-terrorist threats.
    Providing funds so that local hospitals have both the equipment and 
knowledge necessary to quickly respond to a potential threat should be 
one of Secretary Thompson's highest priorities. It was surprising to me 
that the fiscal year 2002 Supplemental request did not include any 
additional funds for bio-terrorism response. I hope Secretary Thompson 
will explain to the Committee how the previously appropriated funds are 
being spent, and will also tell us about any unmet needs.
    The Department of Justice has also been on the front lines of our 
response to the September 11 attacks, both tracking down information on 
those involved in the attacks and working to prevent future terrorist 
acts against the United States. This afternoon, we will hear from 
Attorney General John Ashcroft.
    The fiscal year 2002 Supplemental request contains two important 
items for the Department of Justice. First, is a request for $5.8 
million for the Automated Biometric Identification System/Integrated 
Automated Fingerprint Identification System project. This system is 
designed to assist the Immigration and Naturalization Service in 
determining if a suspect is subject to a Want/Warrant posting or is on 
the FBI's Criminal Master File. Funding this technology is critical to 
making the recently passed Enhanced Border Security and Visa Entry 
Reform Act an effective tool to secure U.S. borders and points of 
entry.
    The Supplemental request also includes funding for the FBI's multi-
agency Task Force to deny entry into the United States by foreign 
terrorists. The $100 million in this request will provide space and 
support infrastructure for the Task Force.
    Currently, the Department of Justice administers the Equipment 
Acquisition Grant program through the Office for Domestic Preparedness. 
This grant program is a vital source of federal funds for equipping 
first responders. There is a proposal to move the Office for Domestic 
Preparedness from the Department of Justice to FEMA. I would like to 
hear more about the consequences of this proposal, but I am generally 
supportive of the idea that FEMA should take the lead in building state 
and local capacity to respond to disaster situations.
    One of the common themes of these hearings is that we must provide 
local agencies with sufficient funds to fulfill their homeland security 
missions, including adequately equipping and training our first 
responders. Work in this area has already begun, thanks in large part 
to Senator Byrd's insistence that we make a down payment on homeland 
security needs in last year's budget.
    As a result of that money, the South Dakota Division of Emergency 
Management is providing equipment acquisition grants to South Dakota 
cities to identify, isolate, and clean-up hazardous materials. FEMA is 
providing grants to local firefighters to make certain they have the 
equipment necessary to respond to new threats. Federal dollars are 
being used to upgrade ambulance services across South Dakota with new 
computers and software that will streamline data collection and improve 
communications. These resources will allow the ambulance services to 
communicate and share information in the event of a widespread bio-
terrorism attack.
    The fiscal year 2002 Supplemental request includes $327 million for 
FEMA to provide additional grants to the states and localities for 
planning, equipment, and training to respond to chemical and biological 
attacks. As FEMA moves forward in distributing these funds, I would 
encourage Director Allbaugh to pay particular attention to ensuring 
first responders are able to achieve a high degree of compatibility in 
equipment and communications with federal, state, and local officials.
    Mr. Chairman, once again thank you for your dedication to the issue 
of homeland security. I appreciate you calling today's hearing and the 
witnesses' willingness to come before the Committee to share with us 
how they are responding to our homeland security needs.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you, and good morning to Secretary 
Mineta. Mr. Chairman, in my position I do agree with you about 
the need to have Governor Ridge appear before us so that we can 
obtain the whole picture of how these pieces fit together. I am 
sure you understand I cannot subscribe to the other comments 
you have made, although I understand them, and understand why 
you make them, and I seem to recall making similar remarks 
myself about the last Administration at times, so I understand 
your frustration.
    But before I make a comment about my good friend the 
Secretary of Transportation, let me say this. I see behind the 
Secretary Admiral Loy, and one of the main reasons that I have 
joined with you on the request to have Governor Ridge come up 
is that I keep hearing rumors that the Coast Guard is going to 
be merged with other agencies in terms of homeland defense 
objectives.
    The Coast Guard is our lifeline in a State that has half 
the coastline in the United States. They are more than law 
enforcement. They are search and rescue. They probably deliver 
more babies than most ambulances in major cities. They are our 
real savior in many ways in a State that has such a sparse 
population spread out in an area over one-fifth the size of the 
United States. I am deeply concerned about the rumor that this 
agency might become a homeland defense agency rather than the 
guardian of our coasts and enforcement of our fisheries laws.
    But let me say this, Secretary Mineta is before us as I 
think the one man that demonstrates the kind of leadership that 
is required by crisis. When he ordered every commercial airline 
to land, not to go back to where they came from and not to get 
where they were intended to go immediately, but to land, he 
saved many lives, and he really, I think, put the aviation 
industry into high gear to deal with a crisis. So I welcome my 
friend and all of our friend, the Secretary of Transportation, 
and look forward to his comments.
    Chairman Byrd. Mr. Secretary, no Federal agency was more 
immediately and more stunningly affected by the events of 
September 11 than yours. Increased airport security is probably 
the most visible aspect of America's new focus on homeland 
security, and transportation security remains at the top of our 
list of national concerns.
    Airport security is one issue, a very important one, but as 
this committee heard during our first round of homeland 
security hearings, port security is another extremely important 
element of homeland security. I look forward to hearing your 
comments on the state of our national transportation policies 
and infrastructure as they relate to homeland security, and on 
what steps you are taking to strengthen transportation security 
both for passengers traveling in this country and for goods 
entering our ports.
    I will first of all, before asking any questions of my own, 
turn to the Chairman and the Ranking Member of the Subcommittee 
on Transportation for any statements they may have. Now, we 
have a crowded witness list and, Mr. Secretary, if you can keep 
your answers as brief as you possibly can. I would appreciate 
it. I know how strongly you feel about these matters. As a 
former Member of Congress you are probably as used, as we are, 
to saying what we think and taking our time, but we do have to 
move along, and if you would make your responses as brief as 
possible and do whatever you can to help us to secure as much 
information as we can, it would be helpful to this committee 
and its future deliberations with respect to the 
appropriations. The Chairman will appreciate that.
    Mr. Secretary, I am reminded you should make your 
presentation first, if you will proceed.
STATEMENT OF HON. NORMAN Y. MINETA, SECRETARY OF 
            TRANSPORTATION, DEPARTMENT OF 
            TRANSPORTATION
    Secretary Mineta. Thank you very much, Mr. Chairman. To 
you, Mr. Chairman, and to Senator Stevens and members of this 
committee, let me thank you first of all for your leadership 
during this time. I have appreciated not only the leadership, 
but the counsel and the friendship that all of you have 
extended to me in this position, and the counsel has been very, 
very good.
    I want to thank the Senate for its support and 
encouragement as we continue to establish the new 
Transportation Security Administration, now known as TSA. The 
Department is working diligently to meet the deadlines that 
were established in the Aviation and Transportation Security 
Act, and as mandated by Congress, and I am proud of the work 
achieved to date at the Department of Transportation.

              DEPARTMENT OF TRANSPORTATION ACCOMPLISHMENTS

    We successfully established a system for screening all 
checked baggage by the January 18 deadline. On February 17, TSA 
assumed civil aviation security functions that were previously 
performed by the FAA. It also assumed airline screening company 
contracts until the Federal security screeners are hired, 
trained, and assigned, and deployed to all U.S. airports.
    Over the next several months, we are working to federalize 
the screening contracts, hire and train passenger screeners 
before the November 19 deadline, and then hire and train 
baggage screeners before the December 31 deadline, recruit and 
train Federal Security Directors at our 429 commercial 
airports, and then hire and train Federal and State law 
enforcement officers at every local airport throughout our 
Nation.
    Although aviation security has to date been the major 
emphasis at the Transportation Security Agency, or 
Administration, we must also remain focused on potential 
threats, as you have indicated, Mr. Chairman, in other 
transportation systems. The Department of Transportation is 
working to address those vulnerabilities in our Nation's ports 
and waterways.
    Every day, thousands of containers enter the U.S. ports 
from abroad, providing possible avenues for terrorist threats. 
Since September 11, we have been taking critical steps to 
improve port security, including number one, the Coast Guard 
has enhanced its presence to protect critical bridges, port 
facilities, and other infrastructure, and has issued an 
emergency regulation requiring 96 hours of advance notice for 
ships that are arriving in U.S. ports.
    The Coast Guard is also tracking high interest vessels 
entering our ports, and is providing intelligence on the 
people, cargo, and vessels to appropriate agencies. We have 
also deployed Sea Marshals and small boat escorts to accompany 
vessels containing critical cargoes and those traveling through 
sensitive areas. The Maritime Administration is working jointly 
with the United States Customs Service, businesses, carriers, 
and governmental agencies to enhance security practices for 
containers. And finally, we are actively working with the 
Congress on enactment of port security legislation.
    Now, since surface transportation security is a priority, 
because every American depends on our Nation's highways, mass 
transit and rail systems to get us where we need to go, the 
Federal Highway Administration has increased their efforts to 
heighten security and protect vital connectors to our ports, 
railroads, and military bases.
    The Federal Motor Carrier Safety Administration is working 
to ensure that trucks crossing the borders into the United 
States have been properly inspected and meet security and 
safety requirements.
    The Federal Transit Administration is assessing the 
security of transit assets, subway tunnels and stations.
    The Federal Railroad Administration is assisting industry 
in conducting security assessments of the freight rail system, 
and assisting Amtrak in developing a plan for using the $100 
million in emergency supplemental funding for securing the New 
York City tunnels.
    Pipeline security is another priority at the Department of 
Transportation. We have improved communications with Federal, 
State, and industry partners, ensuring that threat warnings are 
available on a real-time basis.
    To address some of the needs for improved communication 
right after the horrific attacks of September 11, I established 
within the Department of Transportation the National 
Infrastructure Security Committee, a coordinated effort to 
address transportation security. Through several direct action 
groups, the NISC has evaluated transportation's structural 
vulnerabilities and recommended improvements. In addition, to 
address the critical issue of cargo security, the Department of 
Transportation spearheaded the establishment of a Container 
Working Group, cochaired with the United States Customs 
Service, that includes representatives from 7 other Federal 
departments. The Office of Homeland Security provides 
coordination and oversight for this initiative.
    Thanks to the Congress, we received nearly $2 billion in 
supplemental funds in the aftermath of the September 11 events. 
As a result, we have been able to press forward on many fronts. 
Because of your support, I was able to announce the new port 
security grant program from which TSA will distribute some 
$93.3 million to improve airport security, or seaport security, 
pardon me.

              REQUEST FOR CONTINUED CONGRESSIONAL SUPPORT

    Today, I must ask for your continued support in providing 
the resources we need to meet the continuing challenges before 
us during the remaining months of fiscal year 2002 and in 
fiscal year 2003. In March, President Bush requested $4.4 
billion in 2002 supplemental funds for TSA through this year, 
and the passage of the President's request is critical. In 
addition, the same supplemental request includes $255 million 
for homeland and port security activities assigned to the Coast 
Guard, $19.3 million for the Federal Motor Carrier Safety 
Administration to strengthen oversight at the U.S. borders both 
with Mexico and Canada, and $3.5 million to upgrade the 
Department of Transportation's Crisis Management Center into a 
new Transportation Information Operations Center, called TIOC.
    The proposed TIOC will be a 24-hours-per-day, 7-days-per-
week operation that will collect, analyze, and distribute 
information pertaining to the impacts of natural and man-made 
disaster, and national security-related events as they affect 
transportation, and your support will be critical to achieving 
the goals and the deadlines that the Congress has set for us 
for the remainder of the balance of this fiscal year.
    Your support is also critical to our success in 2003. Added 
emphasis on homeland security is reflected throughout the 
President's 2003 request. In total, the 2003 President's 
request for DOT includes $8.6 billion for homeland security, 
and this includes $4.8 billion for the first full year 
operation of TSA. In addition, funding is requested for the 
Coast Guard to provide expanded operations to meet homeland 
security needs while maintaining traditional safety and law 
enforcement missions.
    So I look forward to working with this committee on the 
specific requests that are before you as you consider our 2003 
appropriations request. I believe that we are on the right path 
to success in strengthening our homeland security at this 
critical juncture in our Nation's history. I am confident that 
with your continued support, together we will provide all 
Americans with a safe, reliable, efficient, and secure 
transportation system. We owe this to the American people, and 
they will expect nothing less.
    Mr. Chairman, I ask unanimous consent that my entire 
written testimony be made a part of the record, and yield the 
balance of my time.
    Chairman Byrd. Without objection, the entire statement will 
appear in the record as though read in its entirety.
    [The statement follows:]
                 Prepared Statement of Norman Y. Mineta
    Good morning Mr. Chairman, Senator Stevens, and members of the 
Committee. I am pleased to have the opportunity to appear before you 
today to discuss the ongoing work of the Department of Transportation 
(DOT) in addressing our Nation's homeland security challenges. The 
events of September 11th underscore the importance of transportation 
security as a major part of America's homeland security. Protecting 
airports, seaports, railroads, bridges, highways, and mass 
transportation facilities against the threat of terrorism is 
imperative. The terrorist attacks have resulted in a renewed focus on 
the security of our transportation systems and we at DOT are moving 
forward aggressively to meet these challenges on several fronts.
    Today, I would like to share with you some of the initiatives 
underway at the Department that I believe demonstrate our commitment to 
improving homeland security for all Americans and to ask for your 
support in providing the resources we need to get the job done as 
quickly and efficiently as possible.
Protecting our Nation's Airways
    Let me begin by thanking the Congress for its support and 
encouragement as we continue to establish the new Transportation 
Security Administration (TSA). The Department is working diligently to 
meet the deadlines established in the Aviation and Transportation 
Security Act and I am proud of the work achieved to date. This new 
Agency has met each of its deadlines, and is on the path to continued 
success.
    TSA successfully established a system for screening all checked 
baggage by the January 18th deadline. It required continuous use of 
bulk explosive detection systems (EDS) to screen checked bags at those 
airports where EDS are located, and ensured the use of positive 
passenger bag match for checked baggage screening at those airports 
where EDS is currently unavailable. TSA has provided other security 
improvements as well, including greater use of trace explosive 
detection systems (ETD) on checked baggage, more use of explosive 
detection canine teams, and physical inspection of checked bags.
    TSA developed a plan for training Federal screeners, which was 
written with input from leading government and private sector training 
experts. It also issued interim final rules to implement the $2.50 
September 11th Passenger Security Fee on airline tickets sold on or 
after February 1st, as well as the Aviation Security Infrastructure Fee 
that will be paid by air carriers to help finance TSA operations. In 
addition, United States and foreign air carriers now electronically 
transmit passenger and crew manifests to the U.S. Customs Service prior 
to arrival, and the Federal Aviation Administration (FAA) issued its 
guidelines for flight crews who face threats onboard an aircraft.
    On February 17, the Under Secretary of Transportation for Security 
took over all civil aviation security functions performed by the FAA. 
On that date, the TSA also assumed airline-screening company contracts 
in the interim until Federal security screeners can be hired, trained 
and assigned to all U.S. airport security screening checkpoints. TSA 
also published a rule requiring certain aircraft operators using 
aircraft weighing 12,500 pounds or more to implement a security program 
that includes criminal history records checks on their flight crews and 
restricted access to the flight deck. These security regulations apply 
to both all-cargo and small scheduled and charter passenger aircraft 
not already covered by a security program, and will take effect on June 
24, 2002.
    Additional key components of securing our airports will be a 
combination of technology and alternative inspection methods. The use 
of explosive detection equipment is a vital part of our enhanced 
baggage-screening program. TSA is committed to ensuring that every 
available explosive detection system and device will be continuously 
used.
    We are confronted with numerous initiatives over the next several 
weeks and months, and need your support to be successful in meeting 
these challenges. We must Federalize the screening contracts; hire and 
train passenger screeners to meet the November 19, 2002 deadline; hire 
and train baggage screeners to meet the December 31, 2002 deadline; 
recruit and train Federal Security Directors at 429 airports; and hire 
and train a mix of Federal and State law enforcement officers to 
support our efforts at all local airports.
    These new initiatives are among many the TSA is using to achieve 
its aviation security goals. I would now like to discuss some specific 
security initiatives involving TSA and other parts of DOT.
Protecting our Nation's Waterways and Maritime Borders
    Although aviation security has to date been the major emphasis at 
TSA, we must also remain focused on the threats to our homeland from 
vulnerabilities in other transportation systems as well. TSA is working 
closely with the other Operating Administrations within DOT--the United 
States Coast Guard, the Maritime Administration, and the Saint Lawrence 
Seaway Development Corporation--to address potential vulnerabilities in 
our Nation's ports and waterways.
    Every day thousands of containers enter our U.S. ports and 
waterways from abroad providing another possible avenue for a terrorist 
threat. Since September 11th the Department has taken a number of 
critical steps to improve port security:
  --The Coast Guard has enhanced its presence to protect critical 
        bridges, port facilities, and other infrastructure.
  --The Coast Guard, in collaboration with the U.S. Customs Service, 
        has issued an emergency regulation requiring 96-hour advance 
        notice of arrival for ships entering U.S. ports, and is taking 
        steps to make this a standard operating procedure by the summer 
        of 2002.
  --The Coast Guard Intelligence Coordination Center, working with the 
        Office of Naval Intelligence, has been tracking high-interest 
        vessels entering our ports and is providing intelligence on the 
        people, cargoes and vessels to operational commanders and 
        interested agencies.
  --The Coast Guard has deployed Sea Marshals and small boat escorts to 
        accompany vessels containing critical cargoes and those 
        traveling through sensitive areas. The Coast Guard is assessing 
        ports to make Federal, State, and local government agencies and 
        other appropriate stakeholders aware of the susceptibility of 
        all facets of maritime critical infrastructure.
  --The Maritime Administration is working jointly with U.S. Customs, 
        exporters and importers, carriers and governments to establish 
        business and security practices that will push the Nation's 
        virtual borders outward to the point of loading of containers.
  --The Coast Guard has engaged the International Maritime Organization 
        (IMO) in the development of international maritime security 
        procedures that we hope will be adopted by the IMO later this 
        year.
  --The Maritime Administration, Research and Special Programs 
        Administration, and TSA are working to examine ways that 
        advanced technologies, including ``smart cards'' and 
        biometrics, can be used throughout the maritime and related 
        industries in order to accurately identify employees working in 
        security-sensitive areas.
  --The Research and Special Programs Administration is leading an 
        effort within DOT to identify innovative concepts or new 
        applications of proven technology, methods, or processes for 
        improving security of containers throughout global 
        transportation supply chains.
  --The St. Lawrence Seaway Development Corporation has been working 
        closely with its Canadian counterpart and the Coast Guard to 
        heighten security on the St. Lawrence River and ensure the 
        protection of ocean access to our Great Lakes ports. These 
        initiatives illustrate some of the many ongoing activities 
        underway at the Department to address security concerns 
        affecting our ports and waterways. Also, we are actively 
        working with the Senate and the House on enactment of port 
        security legislation in this Congress.
Improving Border Security
    In the aftermath of the September 11th attacks, we know we cannot 
have border security without effective transportation security. But 
President Bush and I believe that America can and must accommodate both 
reliable security and economic growth. Within the last four months this 
Administration has signed ``smart border'' accords with both Canada and 
Mexico precisely to develop joint action plans to ensure the secure and 
efficient flow of people and goods across not only our borders, but 
across trade corridors that stretch from northern Canada to southern 
Mexico and beyond. Transportation security and effective border 
management are different sides of the same coin. As the lead Federal 
department for Intelligent Transportation Systems, and overseeing the 
transportation systems that move both people and goods, I am proud of 
the Department's role in supporting innovative projects that pull 
together key Federal and State agencies for transportation safety, 
security and efficiency.
Protecting Surface Transportation Facilities
    Surface transportation security must also be a priority focus for 
our Department. Every American depends on our Nation's highways, and 
mass transit and rail systems to get us where we need to go. The 
Federal Highway Administration (FHWA) has increased efforts to heighten 
security and surveillance of critical highway infrastructure including 
vital connectors to our ports, railroads, and military bases. FHWA is 
working with State Departments of Transportation and local 
transportation officials to conduct vulnerability assessments and to 
establish protection strategies. Furthermore, the Federal Motor Carrier 
Safety Administration is working to ensure that trucks crossing the 
borders into the United States have been properly inspected and meet 
security and safety requirements.
    The Federal Transit Administration (FTA) is assessing the security 
of high-risk transit assets including vulnerabilities in subway tunnels 
and stations where large numbers of people converge and where an attack 
would cause the greatest disruption to transportation services. FTA is 
working with local systems to develop best practices to improve 
communication systems and develop emergency response plans.
    Similarly, the Federal Railroad Administration (FRA) is assisting 
the rail industry in conducting security assessments of our freight 
rail system. The security of hazardous materials including radioactive 
materials and defense related shipments are two areas that have 
received special emphasis. FRA is also assisting Amtrak in enhancing 
the security and safety of New York City tunnels under the East and 
Hudson Rivers. FRA is currently developing with Amtrak a grant 
agreement specifying the projects that will utilize the $100 million in 
emergency supplemental funds provided to Amtrak for improving the 
security of these tunnels. Funds are anticipated to be obligated 
shortly.
    Another area of concern with respect to public safety is the 
security of our Nation's pipeline systems. To keep our pipelines secure 
to the maximum extent possible, we have streamlined the communication 
process with our Federal, State and industry partners, to ensure 
security information and threat warnings are available on a real-time 
basis. The Research and Special Programs Administration continues to 
focus on implementing a coordinated set of protocols for our inspectors 
to use to verify that operators are putting security practices into 
place at critical facilities.
Coordination Both Within DOT and Among Other Agencies
    A key element in our continued success to address our homeland 
security objectives requires improvements in communication and 
coordination among DOT Operating Administrations, and other Federal 
agencies.
    To address some of the need for improved communication, last fall I 
established the National Infrastructure Security Committee (NISC), a 
coordinated effort to address transportation security. Through several 
direct action groups, the NISC has evaluated transportation 
infrastructure vulnerabilities, security protocols, and processes, and 
recommended changes to improve security. The work of this committee has 
led to the establishment of several key intra-departmental groups to 
tackle very specific security issues.
    In addition, DOT spearheaded the establishment of a Container 
Working Group, established through the NISC in December. The Container 
Working group is co-chaired with the U.S. Customs Service and includes 
representatives from the Departments of Defense, Energy, Commerce, 
Justice, Agriculture, Health and Human Services (Food and Drug 
Administration) and others. The Office of Homeland Security provides 
coordination and oversight for this initiative.
Working Together with the Office of Homeland Security and Federal, 
        State, and Local Agencies
    The challenge to improve our homeland security requires a 
coordinated effort among State, and local government agencies, as well 
as the private sector. Communication among these entities is key to 
assisting our officials at all levels to protect and defend against 
future terrorist attacks, and to effectively manage incidents should 
they occur.
    To help meet these needs, the Administration has implemented a 
uniform national threat advisory system to inform Federal agencies, 
State and local officials, as well as the private sector, of terrorist 
threats and appropriate protective actions. The President's Budget for 
fiscal year 2003 supports this effort by funding the development and 
implementation of secure information systems to streamline the 
dissemination of critical homeland security information. The Department 
is requesting funding to upgrade its current Crisis Management Center 
into a new Transportation Information Operations Center (TIOC). The 
proposed TIOC will be the centralized information center for the 
Department of Transportation and will serve as the Secretary's 
information center. The proposed TIOC will be a ``24 hours per day, 7 
days per week'' center that will collect, analyze, and distribute 
information pertaining to the impacts of natural or human made 
disasters, national security related events, and special events and 
incidents as they affect transportation infrastructure and systems.
    We are working with the States, airport authorities, and local 
governments as TSA transitions to a Federal workforce of screeners and 
law enforcement personnel. In addition, we will be working with States, 
localities, and airports through the newly appointed Federal Security 
Directors. The Federal Security Directors are the front-line managers 
who will bring a standardized airport security system across America, 
and will work with the public to ensure that airline passengers know in 
advance of new security procedures.
    TSA will also rely on assistance from the States, airport 
authorities, and local law-enforcement agencies as it rolls out pilot 
programs to test security procedures. For instance, the State of 
Maryland is helping the TSA by supporting the use of the Baltimore-
Washington International Airport as a laboratory site to study airport 
security operations, test TSA deployment techniques and technology, and 
pilot the deployment of the new screener workforce. This type of real-
life coordinated support is key to our continued success.
Resource Requirements
    As we continue to move forward in addressing the requirements 
established in the Aviation and Transportation Security Act, I have 
focused my efforts intensively on complying with or exceeding the 
deadlines established in the new law. In my view, the Department must 
consider the law's tight deadlines as promises made to the American 
people, and we will do everything possible to keep these promises.
    Thanks to the support of the President and the Congress, the 
Department received nearly $2 billion in supplemental appropriations in 
the aftermath of the September 11th events. As a result, we have been 
able to press forward on many fronts and have been able to make great 
strides in establishing TSA, making airports and aircraft more secure 
and enhancing the Coast Guard's presence on our waterways. Also because 
of this support, I was able to announce the implementation of the Port 
Security Grants Program, from which TSA will distribute $93.3 million 
in grant money to seaports to finance port security assessments and the 
costs related to enhancing facility and operational security. These 
important achievements would not have been possible without the 
additional financial support you provided that has gotten us through 
the past seven months.
    Now I must ask for your continued support in providing the 
resources we need to meet the continuing challenges before us during 
the remaining months of fiscal year 2002 and in fiscal year 2003. In 
March, the President requested $4.4 billion in fiscal year 2002 
supplemental funds to support the continuing operation of the 
Transportation Security Administration through fiscal year 2002. Absent 
these additional resources, we will have to look further within the 
Administration to develop options to ensure the availability of funds 
within existing authorities to maintain operations beyond the end of 
the month. The passage of the President's supplemental request is 
necessary for TSA to meet the remainder of its statutory obligations.
    In addition, the same supplemental request includes $255 million 
for homeland and port security activities to be carried out by the U.S. 
Coast Guard, $19.3 million for the Federal Motor Carrier Safety 
Administration to strengthen motor carrier oversight at the U.S. land 
borders with Mexico and Canada, and $3.5 million to upgrade DOT's 
current Crisis Management Center into a new Transportation Information 
Operations Center. This center will serve as a point of contact for 
other Federal, State, local and industry groups and will ensure an 
efficient and coordinated response from the Department in the event of 
future crises. These fiscal year 2002 financial resources request will 
be critical to achieving our goals and the deadlines Congress set for 
us for the remainder of the fiscal year.
    Your support is also critical to our planning for fiscal year 2003. 
Added emphasis on homeland security is reflected throughout the 
President's fiscal year 2003 request for resources for personnel, 
technology and equipment to meet transportation security challenges. In 
total, the fiscal year 2003 President's request for DOT includes $8.6 
billion in homeland security related needs. This includes $4.8 billion 
for the first full year of operation for the Transportation Security 
Administration. In addition, funding is requested for the Coast Guard 
at a level that will enable this critical service to continue to 
provide its expanded operations required to meet our homeland security 
needs while maintaining its traditional safety and law enforcement 
missions. I look forward to working with this Committee on the specific 
requirements as you consider our fiscal year 2003 appropriations 
request.
    I believe we are on the right path to success in strengthening our 
homeland security at this critical time in our Nation's history. I am 
confident that with your continued support we will be able to provide 
all Americans with a safe, reliable, efficient, and secure 
transportation system. We owe this to the American people and they will 
expect nothing less. I want to again thank you for your continued 
support of our Department and I would be happy to answer any questions.

    Chairman Byrd. Now, the plan is this. The Chairman of the 
subcommittee, Senator Murray, will proceed with questions. She 
will have 10 minutes, then she will be followed by the Ranking 
Member of the Subcommittee on Transportation, Senator Shelby. 
He will have 10 minutes. I will then follow with some 
questions, as will Senator Stevens, then the committee will 
proceed to have other members of the committee on both sides, 
those who are listed as having come to the meeting in order, as 
nearly so as possible, and please keep your answers as brief as 
you can, Mr. Secretary.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman, and let me just 
briefly associate myself with Senator Stevens' comments 
regarding merging the Coast Guard into another agency. I concur 
with that.
    I am pleased that Secretary Mineta is here with us today. 
He was not able to testify before the Transportation 
Subcommittee earlier this year because of surgery, and I am 
happy he is on the mend and able to join us today.

                       SCREENING CHECKED BAGGAGE

    His agency has the massive task of getting the 
Transportation Security Administration up and running. Even 
though President Bush signed the Aviation and Transportation 
Security Act back in November, we are just now coming to grips 
with the overall cost of this new agency. One of the more 
expensive assignments given to the agency is to screen every 
piece of checked airline baggage for explosive by the end of 
this calendar year.
    Within the last several weeks, there has been a quiet but 
fiercely fought battle between the Department of Transportation 
and OMB over how to implement this and other requirements of 
the Transportation Security Act. In fact, an entire month 
passed between the time that the Administration submitted its 
supplemental request for $4.4 billion for this agency and the 
time that they sat down to tell us precisely what they wanted 
to spend it on.
    To his credit, Secretary Mineta sat down with me as soon as 
the battle between OMB and DOT was resolved. Our subcommittee 
is now beginning to get the details on how the Administration 
plans to move forward and frankly, Mr. Chairman, I find some of 
the details disturbing. It appears that the negotiations 
between DOT and OMB have resulted in the Administration cutting 
by more than half the number of explosive detection systems 
that will be deployed within the airports around the country.
    Instead of using the larger machines that you feed bags 
into to be scanned, the DOT instead plans to deploy thousands 
of cheaper, less cumbersome trace detection systems. Those are 
much cheaper desktop devices that do a quick vacuum of bags to 
determine if there is any residual traces of explosives. Some 
airports are currently using these to screen laptop computers.
    When the Administration announced their new plan, a lot of 
people breathed a sigh of relief. The airports are relieved 
because they will not need to make room for the much larger 
explosive detection systems. OMB was relieved because the trace 
detection machines are much cheaper, and the airlines were 
relieved, because they have complained that the failure rate of 
the larger machines is too high, but I believe and am concerned 
that the Administration's plan for deploying all these trace 
detection machines has a flaw that is going to create huge 
challenges for our airlines that are already posting record 
losses.

                       AIRLINE PASSENGER PRIVACY

    Yesterday, Mr. Chairman, I received a briefing on the 
Department of Transportation's intended protocol on how they 
will use thousands of trace detection machines. In order for 
these trace detection machines to have the identical explosive 
detection capability as the larger, EDS machines, a lot of 
passengers are going to have their baggage opened by the 
screening personnel right there in the terminal.
    Now, I do not want to get into classified matters here, but 
it is fair to say that more than half of all of our passengers 
who are subject to trace detection screening will have their 
bags opened as they are checking in for the flight. Currently, 
there are no plans to assure the privacy and dignity of these 
airline passengers while Federal employees go through their 
baggage.
    If the Administration intends to follow this course, I 
think they had better act and act fast to develop a methodology 
that will allow passengers some privacy and dignity as Federal 
employees are opening their bags in full view of other 
passengers. If they do not, we are going to give passengers yet 
one more reason to choose to drive to their destination or 
simply not travel at all.
    I recognize the need for security. We all do. But 
passengers will not fly if they expect to be treated like 
criminals from the minute they enter the terminal. They will 
not fly if a long line of passengers is going to be peering 
into their baggage. We have got to find a way to give the 
American flying public the assurance that they can travel with 
some basic level of privacy and dignity, and meet the security 
needs that we all know are out there.
    Mr. Secretary, I discussed my concern over passenger 
privacy with you last week and with the Deputy Secretary 
yesterday, and I do not believe we can expect passengers to 
accept the notion that their bags are going to be opened in the 
middle of the terminal for all other passengers to see while 
they are waiting in line to get their boarding pass. What 
alternatives are you investigating that might grant the 
passengers some basic level of privacy and dignity, and how is 
it going to work?
    Secretary Mineta. First of all, with regard to the use of 
the ETDs, the explosive trace detectors, their most effective 
use will be through the use of the ETDs with an open bag 
environment. The open bag environment does not mean a dumping 
of the bag. All you have to do is take that swab and put it 
around----
    Senator Murray. But the bag will be open?

                  PRIVACY AREAS FOR SCREENING BAGGAGE

    Secretary Mineta. It will be open. Now, they can go to a 
secure area behind a privacy panel.
    Senator Murray. Are we providing for those secure areas?
    Secretary Mineta. We are, or we will take them to a private 
room.
    Senator Murray. Are those private rooms available now in 
airports?
    Secretary Mineta. Those are not all available, but one of 
the things we are doing, as we have at BWI, where our 
laboratory at Concourse C is, we have tried various schemes on 
how to deal with this. Now, at BWI there is a private room. 
There is also a screened area where the person can go behind 
after getting their bag off the conveyor, and after having been 
wanded, then go behind the screened area or go to the private 
room.
    Senator Murray. Will we have that provided for at all 
airports by the end of the year, when these trace detection 
systems will be in place?
    [The information follows:]

    As TSA begins the roll-out process of Federalizing 429 
airports, site surveys are being conducted to establish the 
optimal design and configuration of passenger checkpoints based 
on lessons learned at Baltimore Washington International 
Airport. The ability to provide private secondary screening at 
checkpoints is being considered in the design and 
reconfiguration process.

    Secretary Mineta. I hope there will be some kind of 
facility. I know I went through this screening last week, 
because under our system, if you come into a destination by one 
airline and you leave by another airline, as I did coming out 
of Milwaukee last week, my bag had to be checked. I was a 
selectee, so everything I had had to be gone through, so they 
took me to a screened area, and I was then wanded. The EDT was 
put into the bag.
    Senator Murray. I think you are aware that is unique in the 
country, in terms of taking you to a secure private area in 
order to look----
    Secretary Mineta. No, I would think if you are dumping bags 
in an open area right now, with our new training protocol, our 
new method of operation, maybe some airports and some of our 
operations have not caught up with what we are requiring of 
them, but the basic requirement is that there is no bag dump, 
but that they are taken to a secured, marked-off area, or to a 
private room.
    Senator Murray. But you will have the requirement in place 
by the end of the year?
    Secretary Mineta. That is our intention.
    Senator Murray. For the more than half of the bags that 
will be opened?
    Secretary Mineta. For the bags that will be opened, we 
intend to have them, again, handled in that manner.

      EXPLOSIVE DETECTION SYSTEMS VERSUS EXPLOSIVE TRACE DETECTORS

    Senator Murray. Well, Mr. Secretary, the larger explosive 
detection machines do not require bags to be open when they are 
screened for explosives, and in earlier briefings you provided 
to Senator Shelby and me, you said that you expected to procure 
roughly 2,200 explosive detection machines. Now you are telling 
us you intend to procure less than 1,000. The difference will 
be made up by 5,000 trace detector machines you intend to 
deploy. How much was this decision driven by OMB's insistence 
on constraining costs, versus the practical challenges of 
procuring and deploying so many explosive detection machines?
    Secretary Mineta. Well, first of all, it was a question of 
balancing limited financial resources. We did take a look at 
this original--when we took the original Aviation and 
Transportation Security Act and we saw in there the requirement 
for explosive detection systems, it was thought that that meant 
explosive detection system machines, the CT, the computer 
tomography type machine. Then as we took a look at the whole 
need that we had at 429 commercial airports, and looking at the 
need for 2,200 machines, it was--really, in terms of budget, it 
was just very, very large.
    And the question also comes up, what other alternatives are 
there? Well, when you take a look at the EDS machines and there 
are 35 percent or so false positives, then we knew we had to 
have something to back up what the machine told us to look at. 
That was the ETD, so it is a combination of ETD plus the basic 
EDS.
    Senator Murray. But it was a basic budget-driven decision?
    Secretary Mineta. No, because as we looked at it we found 
these machines are very effective, and in looking at category 
X, 1, 2, 3, 4 kinds of airports, and when you have 3 million 
bags a day to deal with, 90 percent of the passengers are going 
through 100 airports a day, so we figured we could use the CT 
machine at category X and 1, which might be this many airports. 
At the other airports we then would be able to use trace 
detectors, and as we went through the protocol on this we found 
that the combination of CT plus ETD here at the major airports, 
or the ETDs, are equivalent in terms of security detection.

          IMPACT OF SCREENING PROCEDURES ON RURAL COMMUNITIES

    Senator Murray. My time is running out. I do want to ask 
one final question that goes to that. Do you expect to use the 
trace detection systems at only the busiest airports, three-
quarters of the Nation's----
    Secretary Mineta. I am sorry, the EDS plus the ETD.
    Senator Murray. At three-quarters of the Nation's airports 
there are going to be exclusively trace detection systems, as I 
understand, and I am concerned about the impact of the proposal 
on air service to our smaller cities and rural communities. At 
present, the economics of the airline industry are dismal, and 
a large number of rural communities are being threatened with a 
loss of air service.
    Unless we find a dignified way to open all of the 
passengers' bags at these rural airports, I am really concerned 
that even fewer people are going to fly out of these airports 
and airlines are going to abandon these points. Did you 
consider the impact on rural communities when you developed 
your methodology calling for more than half of all passengers 
bags to be opened at these airports using the trace detection 
machines?
    Secretary Mineta. Again, in all of our testing of the 
protocols we have found them to be equivalent in terms of 
security and detection.
    Senator Murray. They are equivalent in security and 
detection, but the trace detection systems require more than 
half the bags to be opened, so it is much more a requirement 
upon passengers to have their bags opened in front of people. 
My concern is, especially at small, rural airports, that 
passengers who are flying less than a couple of hundred miles 
will say, I am not going through that, I am just going to 
drive, and it is going to have an impact, an economic impact, 
unless we provide a dignified, secure way for people to have 
their bags opened.
    Secretary Mineta. That really is what we are aiming to do 
through the process that we are trying to build, plus the 
training of the screeners.
    Senator Murray. But the EDS machines do require fewer bags 
to be opened, correct?
    Secretary Mineta. They do require fewer bags to be opened, 
but again, because of their high false rate, we still have to 
have the ETD backing them up.
    Chairman Byrd. Senator Murray, your time is up.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                      BAGGAGE SCREENING DEADLINES

    Mr. Chairman, before I ask any questions I would like to 
offer a few comments regarding the Department of 
Transportation's efforts relating to homeland security. I am 
concerned with the Department's effort to meet the December 31 
deadline to screen luggage for explosives. The Department was 
so focused on the explosive detection machine and finding 
another manufacturer, or forcing a licensing agreement, that I 
believe it did not finalize a plan until last week, a full 6 
months after the enactment of the security act.
    Now, the only way enough EDS equipment will be deployed by 
the December 31 deadline perhaps is if Santa Claus delivers 
them; who knows, Mr. Secretary? Although the plan may indeed be 
sound, I am concerned that the Department cannot look past the 
deadline and is now operating as if it is the finish line.
    Mr. Chairman, this is not an effort that will conclude once 
we reach the December 31 deadline here. This is really an 
interim plan to meet the statutory deadline, as I see it. I 
believe, Mr. Chairman, that we must view baggage and passenger 
screening systems as an evolutionary process, not as a one-time 
deployment. This requires pursuing technology initiatives that 
complement our current EDS capability and certifying the next 
generation of explosive detection machines.
    I believe we really must continue to improve all of our 
aviation security systems, and to continually reevaluate their 
effectiveness and the nature of the threat we defend ourselves 
against. While we cannot afford to waste any more time, we 
should be careful not to fall into the trap, Mr. Secretary, of 
focusing exclusively on meeting artificial deadlines and 
forgetting that the goal here is to improve security for the 
passengers. The test we should hold ourselves to, I believe, is 
whether we have taken every prudent and effective measure to 
ensure the safety of the passengers, the crew, and aircraft 
traveling through the national air space system. That is an 
ongoing challenge, and one which will not be completed just 
because there is a deadline.
    Mr. Secretary, I believe it is up to you, Deputy Secretary 
Jackson, and Under Secretary Magaw to provide the oversight and 
approve the policy guidance and to manage this effort and all 
others relating to standing up and staffing the TSA. If the 
three of you are spending your time interviewing airport 
security managers, or formulating procurement strategies, I 
fear that no one will be taking the long-term strategic view--
yes, the long-term strategic view--of providing the critical 
internal oversight to make sure the effort does not get off-
track.

        CRITICAL ISSUES FACING THE DEPARTMENT OF TRANSPORTATION

    I have spent most of my statement focusing on the explosive 
detection issue, and there are so many other critical issues 
regarding homeland security that I wanted to raise. They 
include among other things, (1) the ability to sustain the 
current increased pace of Coast Guard operations--that has been 
raised here already by Senator Stevens and Senator Murray, (2) 
the need to review the Deepwater procurement strategy, in light 
of the fact that two or three teams were disqualified because 
each proposal exceeded budget and schedule parameters, (3) the 
steps being taken to ensure Coast Guard interoperability with 
the Department of Defense and with State and local first 
responders, (4) the need for oversight to control 
Transportation Security Administration mission creep, or 
empire-building, and to keep salaries in line with those at 
other Federal agencies, and (5) the need to apprehend those who 
hold secure area badges through fraudulent means and have 
unfettered access to airplanes, instead of harassing honest 
passengers at the security checkpoints.
    I hope to explore some of these issues later, but will 
close with one final thought, Mr. Secretary. Mr. Secretary, the 
Aviation and Transportation Security Act presented you, the 
Secretary, with the opportunity of a lifetime to stand up and 
staff a Federal agency from scratch. The choices you make today 
in terms of management programs and resources will have a 
lasting impact, and it is our obligation to the Nation to 
ensure that this agency is set on the right course from the 
start. I think you understand that well.
    If your critics--and I hope you do not have any--want to 
second-guess your decisions, make it be because they thought 
you were too bold in protecting the flying public, not because 
of how long it takes to make the decisions, not because of how 
inaccessible people are when policies are being formulated, and 
not because of how often decisions are revisited as soon as the 
questions are raised.

                        EDS PROCUREMENT CONTRACT

    Mr. Secretary, I have several questions if I have got the 
time here. The fiscal year 2002 Transportation Appropriations 
Act provided $40 million in explosive detection system funding, 
and another $108 million in supplemental funding that was 
appropriated in a title of the Defense Appropriations Act. 
Furthermore, Congress took the historic step of appropriating 
$20 billion in the aftermath of the September 11 attacks and 
gave the Administration an unprecedented amount of discretion 
in allocating those funds.
    With that background, and with that level of funding, why 
hasn't a procurement contract to acquire EDS machines been 
signed?
    Secretary Mineta. Well, we have signed a contract for a 
total of 500 EDS machines from the two contractors that we have 
right now.
    Senator Shelby. 500 and what?
    Secretary Mineta. I believe it is 500 machines, both 
InVision and L-3, plus we have the package of parts, which are 
total kits for the construction of, I believe, 300 additional 
machines above the 500 machines that the manufacturers will 
provide. Plus we have gotten from the manufacturers their 
intellectual property rights. What we have on the street right 
now is a proposal to get companies to submit to us how they 
would be able to go ahead by bending metal with the IPR rights 
that we will be giving them from both L-3 and InVision, to make 
sure that we get up to the necessary machines that we will have 
deployed by December 31 in order to do the baggage screening.
    I am comfortable, as we look at what we are doing, of 
making sure that we have the machines manufactured in a timely 
way, that we will be able to deploy them to the airport to meet 
the December 31 date. Now, there are certain glitches that can 
always occur, but to the extent that we--and I guess it is like 
everything else. In fact, now that I think about it, I am 
probably walking myself into a trap. It is like a pyramid, in 
terms of making decisions. At the top, we really are very 
holistic about looking at it. We are not segmented.
    The Department of Transportation to me has always been sort 
of a stovepipe agency, and what I am trying to say to everybody 
in DOT----
    Chairman Byrd. Would you get right to the point, Mr. 
Secretary?
    Secretary Mineta. We are trying to use all the resources in 
the Department of Transportation to deal with the mandate 
against us as a result of the Aviation and Transportation 
Security Act, so we are not being narrow. We are taking a much 
broader view, as you have indicated to us, so that we might be 
able to deal with research and development. We are not stuck 
with just today's technology. We have a very aggressive program 
at Atlantic City, at our technical center, to try to deal with 
new technologies.
    Senator Shelby. It is evolutionary, is it not?
    Secretary Mineta. It is evolutionary. We have every 
salesman, 20,000 of them, approaching us about how they have 
some machine that will take care of everything we do, including 
not only detecting explosives, but athlete's foot as well. So 
again we are working and looking at all of these technologies 
that are being presented to us so that we can evolve into the 
next generation, whether it is for efficiency or to look at new 
explosives.
    Chairman Byrd. Can we please move a little faster, Mr. 
Secretary?
    Secretary Mineta. The problem is, Mr. Chairman, we are 
trying to deal with new explosives that are going to come 
online, and we are trying to deal with this evolutionary 
approach that Senator Shelby has indicated.

                   AIRPORT EMPLOYEE BACKGROUND CHECKS

    Senator Shelby. Mr. Secretary, recently, about 150 
individuals were indicted on charges of lying about their 
identities or criminal past in order to secure jobs with 
airport contractors and tenants at the Washington, D.C. area 
airports. All of these employees had access to the most secure 
areas of the airports, including access to airplanes, runways, 
and cargo areas. What steps can you take or have you taken to 
keep criminals from having unescorted access to aircraft and 
other security areas of the airports? It seems to me like that 
is a porous area of security.
    Secretary Mineta. Again, these are employees who were 
employed by companies that have access to the airport. They may 
be airline employees, airport employees, catering companies for 
the airlines, whatever, and to me what this really says is that 
our aggressive oversight in checking all of these employees 
since we have taken over responsibility for transportation 
security is what surfaced these people who ought not to have 
been employed, or if they were employed and had no security 
check, that subsequently we have found out about their 
background and that they are all out.
    We are going to continue that aggressive oversight in doing 
background investigations for airport people and airports, 
airlines, whoever has access to secure areas.
    Senator Shelby. Mr. Chairman, I have a number of other 
questions I would like to submit for the record.
    Chairman Byrd. Very well. You have a little time remaining.
    Senator Shelby. I do not have enough time for these 
questions. Thank you. I will put them in the record.
    Secretary Mineta. And I will respond to them.

                          PORT SECURITY GRANTS

    Chairman Byrd. Very well. I have a few questions.
    Mr. Secretary, fully 25 percent of our Nation's Gross 
Domestic Product is derived from international trade. 95 
percent of that trade passes through our seaports. Over 6 
million metal containers enter our ports every year, any one of 
which could contain a weapon of mass destruction or a toxic 
substance designed to disrupt our ports. If terrorists want to 
disrupt our economy, our ports make an outstanding target.
    Last year, the Congress provided $93 million in direct 
grants for our port authorities to enhance their security 
efforts. Congress envisioned that appropriation as an initial 
down payment, but your budget is now proposing that this grant 
program be terminated in 2002, despite the fact that you 
received $700 million in applications for that $93 million.
    Why do you propose to terminate this program when there is 
such a clear, demonstrated need for port security grants?
    Secretary Mineta. If you look at the port applications we 
have gotten under this, there are three categories that most of 
these applications can be piled in. One is in terms of 
vulnerability assessments, the other in terms of construction 
of facilities, or perimeter security, and third is in terms of 
proof of concept. Frankly, I am not interested in proof of 
concept or vulnerability assessments. I think those 
vulnerability assessments ought to be the responsibility of the 
ports. If they come to us and say, hey, we need some help on 
this kind of facility, or in terms of perimeter security, I 
think that is what we ought to be involved in.
    We were provided $93 million and, as you indicated, we 
received a flood of applications, and so we are going through 
those right now, and my preference is to try to deal with those 
that only deal with facilities and perimeter security.
    In terms of our 2003 budget, again, because of the 
financial constraints, we feel that this is one in which we 
will not--at least right now we would not consider providing 
further moneys in 2003, although we are still taking a look at 
that issue as we assess where we are on the applications we 
have received so far. And those determinations I am hoping to 
make by, I believe the end of June time period, Mr. Chairman, 
we hope to have all of the $93 million committed.
    Chairman Byrd. Well now, Congress wants to be a partner 
when it comes to dealing with homeland security. Congress saw 
fit to provide $93 million in direct grants for public port 
authorities to enhance their security efforts. Your budget, as 
I say, is now proposing that this grant program be terminated 
in 2003, despite the fact that you received $700 million in 
applications for that $93 million.

                           FUNDING PRIORITIES

    You say that you have selected, you have narrowed these 
various categories down to one in which you think the emphasis 
should be placed. Let me ask you this question. You have 
testified you needed to drop from the President's request 
funding for some airport security equipment because of limits 
that were imposed by the Office of Management and Budget. If 
the committee here is able to provide additional resources for 
homeland defense programs, are there airport security or port 
security items that you would recommend to the committee?
    Secretary Mineta. Of course, if the money is provided to 
us, we would assess where the priorities ought to go.
    Chairman Byrd. The committee would like to know where your 
priorities would be. That will help us to make our decision 
here.
    Secretary Mineta. Mr. Chairman----
    Chairman Byrd. What would be your priorities?
    Secretary Mineta. I would say that one of my priorities 
would be in the area of port security, the other area would be 
aviation, or EDS, aviation security equipment. The other would 
be law enforcement at local airports, and probably perimeter 
security at airports as well.
    Chairman Byrd. Mr. Secretary, a little earlier you 
indicated in response to a question from the committee, as I 
tried to write it down, quote, a question of balancing limited 
financial resources.
    Secretary Mineta. Absolutely.
    Chairman Byrd. We are dealing with the security of the 
American people and the security of this Nation, and you say 
that there is a question of balancing limited financial 
resources. What would be your recommendation to this committee 
as to where it could best add financial resources to help you 
to help the American people to have security?
    Secretary Mineta. Well, as I indicated, I would say first 
of all port or maritime security. Again, I was talking about 
aviation security equipment relating to passenger security. I 
would also think of the fact that the National Guard is being 
pulled out by May 15, and so we will have to provide law 
enforcement, as under the Aviation and Transportation Security 
Act we will have to have officers at every one of the screening 
points. And I believe the other one would be perimeter 
security, or what would be referred to otherwise as the 
physical security at the airport.
    Chairman Byrd. Was port security one of those items?
    Secretary Mineta. Yes, absolutely.
    Chairman Byrd. Well, then I get back to my initial 
question. Congress provided $93 million in direct grants for 
our public port authorities to enhance their security efforts.
    Now, we have heard from some port authorities here. We had 
some good testimony recently from people at the local level, 
first responders, and you say port security would be one of 
your items. I believe you listed it first, as a matter of fact, 
and yet your budget is now proposing that this grant program be 
terminated in 2003, despite the fact that you received $700 
million in applications for that $93 million, applications from 
people at the local level, the people who probably know what 
their problems are and what is needed most.
    Now, why don't you submit to this committee an addendum as 
to items that you would like for this committee to add to this 
budget, and you might also recommend where the committee might 
cut, if you wish. Now, this committee needs guidance. That is 
why we are holding these hearings. We want to be helpful. We 
want to be helpful to the Administration.

                     PORT VULNERABILITY ASSESSMENTS

    Now let me get on with the next. You mentioned 
vulnerability assessments. Three weeks ago, this committee took 
testimony from Admiral Rick Larrabee from the Port of New York 
and New Jersey. He is a former Coast Guard Admiral who was 
sitting in his office in the World trade Center at the time the 
terrorists struck. He lost 76 of his coworkers. He was greatly 
disturbed by the fact that the Coast Guard currently plans to 
conduct its vulnerability assessments for the Nation's ports 
over a 5-year period. His port is the second largest container 
port in the Nation, but will not receive a vulnerability 
assessment until next year.
    Why is your Department willing to wait 5 years to determine 
the vulnerabilities of these ports? Surely you do not believe a 
potential terrorist will wait until you have finished the work. 
Why are you willing to wait, and why have you not included 
funding in your supplemental budget request to expedite these 
assessments?
    Secretary Mineta. I think what we were doing was responding 
to the congressional mandate relating to the $93 million. We 
never anticipated at the time that legislation was passed that 
there would be that kind of a flood of applications coming in, 
and that came in after we had submitted the supplemental for 
2002.
    Chairman Byrd. All right. Now, this committee is getting 
ready to mark up a supplemental. How can we help you? What 
additional funding do you need?
    Secretary Mineta. I would have to go back, Mr. Chairman, 
and see what it is we would have to request, if there is a 
possibility of even submitting an additional request.
    Chairman Byrd. You can submit a request to this committee.
    Secretary Mineta. I would still have to coordinate with OMB 
on that.
    Chairman Byrd. I understand, but you do not have much time 
to do that in. What you are saying is, you do not have much 
time left, you did not realize in time the needs, or you would 
have made that request in a supplemental. You would have gone 
to OMB, perhaps, or maybe you did, I do not know, but now you 
are facing this dilemma.
    Has the Office of Homeland Security advised you that the 
potential threat is sufficiently low that we could wait 5 years 
for assessments, let alone construction of security 
improvements based on those assessments?
    Secretary Mineta. We have not heard from them specifically, 
I believe, on the 5-year time frame. I would have to check. I 
do not believe we have heard from Homeland Security 
specifically on our 5-year schedule. That was done in June, and 
we have not heard from Homeland Security on that issue.
    Chairman Byrd. I note in the White House Weekly this 
headline, ``U.S. Remains Ill-Prepared for Another Attack.'' 
President Bush's Homeland Security Office Director, Tom Ridge, 
admits he does not have the answers. There is no blueprint to 
securing the U.S. There is no role model. I will include this 
statement in the record without reading it.
    [The information follows:]

             [From the White House Weekly, April 30, 2002]

              U.S. Remains Ill-Prepared for Another Attack
    President Bush's Homeland Security Office Director Tom Ridge admits 
he doesn't have the answers. ``There is no blueprint'' to securing the 
United States. ``There is no role model,'' he says.
    But, it seems, so far so good, and not just because of all the 
federal attention in the post-9/11 world. Credit also goes to the 
locals, he says.
    ``At the end of the day, the homeland is secure when the hometown 
is secure.''
    Ridge arrived at an 8 a.m. Sperling Group breakfast hosted by The 
Christian Science Monitor last week a little nervous, probably 
expecting the one question never posed: Why was he balking at 
testifying publicly before Congress?
    He skipped the Danish, strawberries, eggs and bacon in favor of 
coffee with cream, no sugar. But it wasn't long before he stopped 
wiggling his leg and foot and settled in to answer pretty much the same 
questions he delivered in several dozen private congressional meetings: 
The federal government is providing cash and direction in the homeland 
security effort, but it's up to the local governments to do the job.
    ``We have to drive it down to the locals,'' he says. ``We're trying 
to get everybody engaged, not just the federal government.''
    Still, he says, the country remains ill-prepared for another 
attack, though in better shape than on Sept. 11. ``I don't believe we 
are where we need to be or where we want to be.''
    But he's not scared, says he doesn't lie awake at night, and just 
shrugs when questioned about the likelihood of suicide bombers.
    ``There's an enduring vulnerability in this country . . . we just 
have to accept that.''
    Despite some reports that Ridge backs trading civil liberties for 
better security, he dismissed all proposals like that put before him. 
Sure, he says, people will be inconvenienced with new security 
measures, but he isn't pushing for new databases on Americans or 
limiting speech.
    Ridge brought with him a couple of the ideas he's promoting in his 
private congressional meetings, such as:
  --Encouraging Wall Street to add business security and cybersecurity 
        to an analysis of whether a publicly traded company is worth 
        investing in. It's part of the effort to tell every company--
        from Victoria's Secret to General Motors--that it's up to them 
        to provide security to their manufacturing plants, employees 
        and consumers. ``If you're for-profit . . . then I believe you 
        should be responsible,'' not the government, he says.
  --Create a ``fast pass'' for cars that regularly cross the Canadian 
        border into the United States. It would be for regular users, 
        workers and trucks alike, who agree to a security background 
        check. It would turn a one- to two-hour wait at the border into 
        ``15 seconds.''
  --Let frequent flyers pay for quick passage onto jets. It's not an 
        elitist thing, he says, simply a way to speed things up. Those 
        people would to the airlines security information and probably 
        pay a fee. And, anyway, he adds, those random searches of 
        little old ladies and children aren't doing anything to thwart 
        terrorists. ``I don't think random checks enhance security 
        much.''
    In the end, Ridge is asked how he can tell if he's had an impact, 
to which he compares himself to a fire marshal. ``You don't learn of 
the fires that don't occur,'' he says.

            INTERIM REPORT FROM THE CONTAINER WORKING GROUP

    Secretary Mineta. Mr. Chairman, could I suggest that maybe 
I could submit to you an interim report on what our Container 
Working Group is doing? This is cochaired by the Department of 
Transportation, by the Coast Guard, and the U.S. Customs 
Service, as it relates to the whole issue of containers, and I 
think that will go a long way--we recognize that there are 6 
million containers coming into the country and, as you have 
said, 95 percent of our world trade comes through the ports, 
and that has been a critical issue with me about MANPADS and 
chemical, biological, radiological, nuclear weapons, and dirty 
bombs.
    Chairman Byrd. What is this you are proposing to submit to 
the committee?
    Secretary Mineta. An interim report of our container 
working group.
    [The information follows:]

    The report to the Office of Homeland Security, entitled 
``Ensuring the Security of Cargo Container Transportation: 
Recommendations for Action,'' has recently been provided to the 
committee. In view of the fact that the document is ``Law 
Enforcement Sensitive,'' a copy of the report is not provided 
for inclusion in the public record of the hearing.

    Chairman Byrd. That is all well and good. We will be glad 
to have that, but we also want your advice as to how this 
committee can help you to provide security to this country, and 
if you need additional funds, let us know.
    Secretary Mineta. I appreciate that. Thank you.
    Chairman Byrd. And soon.
    Secretary Mineta. We will do it soon.
    Chairman Byrd. I have one further question, and then I want 
to turn to my colleague, Senator Stevens.

             TRANSPORTATION SECURITY ADMINISTRATION FUNDING

    Can the Transportation Security Administration absorb a 32-
percent funding cut, and shall I elaborate a little?
    Secretary Mineta. I would hope you would, sir.
    Chairman Byrd. The new Transportation Security 
Administration has funding for aviation activities totaling 
$2.7 billion to date. In your pending supplemental budget 
request, you are seeking an additional $4.4 billion to bring 
total funding for fiscal year 2002 to $7.1 billion. However, 
your budget request for fiscal year 2003 is seeking only $4.8 
billion. That amount will be 32 percent less than the amount 
you will have for fiscal year 2002 if we approve your entire 
supplemental budget request. Can this agency absorb a 32-
percent funding cut in fiscal year 2003? If not, do you intend 
to amend your budget request for this agency soon?
    Secretary Mineta. First of all, let me go to the 2002 
number. My figures were $4.4 billion in the supplemental, and 
$2.2 billion that we requested in the 2002 for a total of $6.6 
billion, and I thought my 2003 request was for something like, 
close to $8.1 billion, so that it was not a cut.
    I stand corrected. The 2003 request was $4.8 billion. I 
guess what we did, we put a lot of capital costs and start up 
costs in the 2002 budget in order to keep the 2003 budget down. 
When we put our budget together we had a lot of capital and 
one-time start up costs in the 2003, which we moved into 2002 
to keep 2003 down.
    Chairman Byrd. I want to keep my word with Senator Stevens. 
Let me yield briefly to the Chairman of the subcommittee.
    Senator Murray. Mr. Chairman, the request for TSA is--the 
request for 2003 for TSA is $4.8 billion, and we still, Mr. 
Chairman, do not have the details of what they want for this 
request.
    Secretary Mineta. The justification has not been submitted 
yet?
    Senator Murray. No.
    Secretary Mineta. I apologize. I thought I told you last 
week we would get that in by the end of the week.
    Chairman Byrd. Very well. Now, Mr. Secretary, could you 
provide us with answers to those questions?
    Secretary Mineta. Yes, sir.
    Chairman Byrd. Plus answers to additional questions I have 
and which other Senators might have.
    [The information follows:]

    The President's 2003 budget request was an estimate based 
on the best information available at the time. Since the budget 
was submitted, TSA has been working diligently to develop a 
master roll-out plan and an equipment deployment plan for the 
Federalization of passenger and baggage screening at 429 
commercial airports, a very complicated process. Many of the 
variables in this plan will have a direct impact on resource 
requirements. In addition, establishment of the budgetary base 
for fiscal year 2002 will have a direct impact on TSA's 
requirements for subsequent fiscal years. TSA is reviewing its 
previous budget estimates based on this updated information and 
expects to have details to support the President's budget 
request to Congress soon.

    Chairman Byrd. I will turn now to Senator Stevens for any 
questions he may have.

                          COAST GUARD FUNDING

    Senator Stevens. Thank you very much. Mr. Secretary, I will 
be brief. The Coast Guard is under a real heavy up tempo. I 
think it is severely stressed, and it is consuming, I am 
informed, spare parts and wearing down equipment at a very high 
rate because of its involvement now in homeland defense as well 
as the intense involvement in the containment of the Iraqi oil 
transfers. I do believe that it needs some additional funds, 
and I want to be able to address that, and I mirror my friend 
the Chairman in saying I hope we can find some way to get some 
definite amount of what is needed for that.

                    COMMUNICATIONS INTEROPERABILITY

    I note that it is not in the budget, but my main question 
is about communications and interoperability. As we have held 
these hearings now, every single area that has come before us, 
local, county, State, and Federal agencies have mirrored the 
problem that comes to our country from the fact that we award 
communications contracts to the low bidder in every area, and 
we have got such a patchwork quilt of communications that the 
ability of one area to communicate with another is severely 
limited in time of stress.
    I am reminded of my late and great friend, the astronaut 
Rusty Schweikart, who, as they came back on the Apollo 13 
stated that he had great confidence in returning to Earth 
because he remembered that every bolt or bucket of bolts was 
manufactured by the low bidder.
    Now, we have a syndrome of low bidders here, and the 
difficulty is, we cannot find a way to develop the 
interoperability. I think your Department is one of the key 
departments which must lead in the quest for interoperability. 
Your Department and FEMA, in my judgment, are the keys at the 
Federal level on the nondefense side.
    Interoperability on the defense side has been our goal for 
a long time, and we are making pretty good progress there, but 
my question to you is, is this subject in the forefront as far 
as you are concerned and, if it is, what are you doing, and how 
much money is here to try to bring it about? It cannot come 
about by continuing to have each agency award the bids on the 
basis of low bidder alone. It must be made on the basis of the 
low bid in terms of the ability to assure interoperability with 
other systems. If we get interoperability with other systems, I 
am sure there will be some variation in bids, but we should no 
longer accept any bid for communications equipment that will 
not be interoperable across the board.
    Secretary Mineta. Senator Stevens, I have been sensitized 
to that ever since the Loma Prieta Earthquake was in my 
district. The local fire department could not talk to Federal 
agencies, and it was just a mishmash, and so one of the things 
I keep interjecting as we are dealing with these things, 
especially communications, and it is not only oral 
communication, but it is also cyber communication, computers. 
Computers in our Department cannot talk to each other. FAA 
cannot get INS or Customs, and so one of the recommendations we 
made to the Office of Homeland Security is that there be a data 
fusion center so that there is interoperability at the highest 
level so that we can exchange information.
    Senator Stevens. With due respect, that does not help the 
first responder.
    Secretary Mineta. We are trying to do that here in terms of 
first responders. At the Coast Guard level we found this, at 
the Port of New York as well.
    Senator Stevens. They are not the first people there. The 
first people there are the local sheriff and the local people 
in any area, and in New York the first ones there were the 
local fire departments. They have got to be able to communicate 
with anyone else that comes in, so to have the communication up 
here is not what is needed. It has got to be a communication on 
a broad base throughout the first responder network.
    Secretary Mineta. Exactly right. I use the Coast Guard as 
an example, as a first responder, but in any instance, whoever 
the first responder is, we want interoperability and that 
seamless communication system, there is no question about that.
    Senator Stevens. What I want you to tell us is whether we 
should legislate that no equipment can be purchased by the 
Federal Government unless it is interoperable with the systems 
that are existent at the time in that Department.
    Secretary Mineta. I believe that would be a good approach, 
as long as it does not just deal with a sole source vendor. I 
think that is the other part of what we have to look at, making 
sure that the technology is interoperable, that we do not end 
up with a sole source, because otherwise the prices will go out 
of sight on us. Other than that, I would say sure, why not.
    Senator Stevens. The trouble is, when we had Ma Bell and we 
had a lot of local systems throughout the country we told the 
local systems they had to be interoperable with Ma Bell. We do 
not have that luxury now, because, as you say, the computer 
systems are so variable, but we can, we can legislate that we 
cannot buy in the Federal Government any system that is not 
interoperable, and that would lead the way, I think, to all the 
systems--they want to be interoperable with the Federal 
Government, but we must find some way to break this deadlock, 
in my opinion. I would urge you to look at it and give us some 
advice.
    Thank you, Mr. Chairman.
    Chairman Byrd. What is your response?
    Secretary Mineta. Well, we do that in the Department, Mr. 
Chairman, in terms of what we are trying to get at in our 
communications and computer equipment. That is what we are 
driving towards right now.
    Chairman Byrd. My colleague here urges you look at this and 
give us some advice.
    Secretary Mineta. We are looking at it, and we are in our 
bids and practices trying to make sure that is in there. The 
only thing I am wary about is the whole issue of ending up with 
a sole vendor being able to provide something. To the extent 
that this expands opportunities for routers and other kinds of 
equipment, that is great. I have no objection to that at all.
    Senator Stevens. Well, that is a Band Aid approach in my 
opinion, Norm. It will get us across the first bridge, but it 
will not get us across the Golden Gate. We have got to find a 
nationwide way of interoperability, and what happened in New 
York is a good example. When that equipment came into New York 
and could not be used because it could not communicate with the 
dispatchers, now, that has got to be solved, and that is 
transportation, my friend.
    Secretary Mineta. Yes, sir.
    [The information follows:]

    Although reliable communications between first responders 
at all levels of government is critical, Federal legislation is 
not necessary at this time. The National Communications System 
and the Office of Science and Technology Policy have been 
working with Federal agencies in this important area. One 
possible solution is to establish a network of communications 
centers that may serve as communications bridges between first 
responders operating on incompatible systems.

    Senator Stevens. Mr. Chairman, thank you.
    Chairman Byrd. Senator Cochran.

             REIMBURSING AIRPORTS FOR SECURITY EXPENDITURES

    Senator Cochran. Mr. Chairman, thank you very much for 
convening this hearing. Mr. Secretary, we appreciate your 
cooperation with our Appropriations Committee. The airports in 
my State are a little worried about the status of 
reimbursements for the security measures that they have already 
implemented in response to the mandates from the Federal 
Government.
    My largest airport, for example, has submitted a request 
for reimbursement of about $431,000, and has been told that 
only $250,000 has been allocated for those purposes at that 
airport. Does this supplemental contain funds that can be used 
to fully reimburse airports that are small, and not the major 
airports in the country, for these security measures that they 
have had to implement in response to Federal requirements?
    Secretary Mineta. What we have done is to expand the 
Airport Improvement Program to be eligible for reimbursing the 
airports for the increased security cost that they have taken 
on.
    Senator Cochran. Are they going to be able to reimburse the 
airports for the full expenses that have been incurred, or what 
percentage can they anticipate getting? Is there a plan?
    Secretary Mineta. I think that will be up to each 
individual airport using their allocated Airport Improvement 
Program funds. Since AIP moneys are distributed by formula, 
they would then be able to use their AIP moneys towards 
reimbursing themselves.
    Senator Cochran. How are they going to get the money, then, 
for additional improvements, and aeronautical improvements that 
are necessary to continue operating those airports in an 
efficient and a safe way?
    Secretary Mineta. Prior to September 11, all of our 
concerns were about capacity and delays. September 11 turned 
the tide on us in the sense that since September 11 the focus 
has really been more on security. Since September 11, or even 
in the year 2001, we found travel starting to decline, so then 
it was thought in the interim to let us go ahead and use the 
AIP for security purposes.
    We know that in 2004 and beyond, air travel will start 
picking up again, so I think in the interim we ought to be able 
to use those moneys from delay and capacity issues to deal with 
security, and then after fiscal year 2003, go back to using AIP 
funds for delay and capacity issues as we see air travel coming 
back in 2004.
    The Air Transport Association and every major study has 
shown how passenger traffic has dipped right now, so for us 
right now, capacity and delays are not the problems. We ought 
to use the money right now for security purposes, and revert to 
a focus on capacity and delays in 2004 and beyond.

    REIMBURSING JACKSON MUNICIPAL AIRPORT FOR SECURITY RELATED COSTS

    Senator Cochran. One other reimbursement issue has been 
brought to my attention, and that is that FAA's facilities have 
been ordered to improve their security situation, too, with 
barriers around facilities and other changes at FAA facilities. 
This airport that I mentioned is the Jackson Municipal Airport, 
and the airport authority helped the FAA immediately before it 
had additional funds allocated to it by doing some of the 
things that the FAA is now responsible for doing itself under 
the direction of the Department of Transportation, and they 
have asked for $100 million to pay for some of those costs, or 
for all of those costs around the country, I guess.
    The question is, does the Jackson Municipal Airport 
Authority stand to get any reimbursement for the cost of funds 
expended by it to help FAA meet its security needs now that 
additional funds are being asked for for FAA for that very 
purpose?
    Secretary Mineta. Senator, I do not know the direct answer 
to that. Let me look at that and get an answer back for you, 
since it was before the advent of the program. The question is, 
since the advent of the program, will airports get reimbursed 
for what they had done?
    [The information follows:]

    The Department of Defense's 2002 Appropriations Act 
provided $175 million in supplemental funds in FAA's Grants-in-
Aid for Airports account for FAA's Airports office to reimburse 
eligible airports' direct costs in complying with new security 
requirements as a result of September 11, 2001. These funds 
fell short of airports' total security funding demands, so FAA 
distributed them in a manner to assist those airports that are 
facing the greatest financial challenges in complying with new 
security directives. FAA's final allocation of the $175 million 
included funding 50 percent of eligible project costs at small 
hub airports. Jackson International Airport (a small hub) 
therefore received 50 percent of its requested amount, or 
$215,750.
    While the FAA's pending supplemental request would shift 
funds to cover guard services at staffed air traffic control 
facilities, that would only be for services contracted directly 
by FAA. As a result, additional reimbursement will not be 
provided to the Jackson, Mississippi Airport Authority from the 
pending supplemental proposal.
    Jackson and other airports may, however, choose to use 
their AIP formula grants for security expenses, in support of 
direct operating costs of the airport since AIP eligibility has 
been expanded (only in fiscal year 2002) to reimburse airports 
for security costs associated with September 11.

    Senator Cochran. It is almost like being a good neighbor 
and not getting any benefit at all from things that were done 
in cooperation with the Federal agencies.
    Secretary Mineta. I understand.

                         SCREENER QUALIFICATION

    Senator Cochran. One other issue that to me is very 
important, I know we are in a transition period with respect to 
screening personnel, hiring and training of personnel, and 
moving to a Federal employee system. What steps are being taken 
to ensure that these employees are competent and trained to do 
their job, carry out their duties and also that they carry them 
out with a sense of respect and courtesy for the traveling 
public?
    Secretary Mineta. First of all, I think in terms of the 
hiring and training program, I am trying to think of the 
National Skills Standards Board.
    There is a group we turn to which is a Federal agency group 
dealing with qualification standards. We turned to them and 
asked, ``Can you help us out in terms of the qualification 
standards that we will be using and all the people we are 
hiring?'' We are very confident of the program that has been 
laid out.
    One of the very basic things that Under Secretary Magaw 
said right from the beginning was that we want to provide world 
class security and world class customer service. He intends to 
have every passenger treated with respect and dignity, and so 
the whole training program has been built from that core, so 
that you not only have new people coming in who are by the law 
U.S. citizens, speak English, have proficiency in English, and 
have a high school diploma or GED or work experience. To me we 
have an elevated workforce with a good training program, so 
that you will find uniformity and consistency at every airport 
throughout the country. What people go through in Miami, San 
Francisco, Chicago, and Iowa will be the same, because I do not 
want our checkpoints to become the choke points in the revival 
of the aviation industry, or the revival of the economy.
    So we are gearing everything to give confidence to 
travelers to come back to the airlines. Right now, we know they 
are depressed, but we want to do everything to get them back, 
to get their confidence back about flying again.
    Senator Cochran. Thank you, Mr. Secretary.

        REIMBURSING RURAL AIRPORTS FOR SECURITY RELATED EXPENSES

    Chairman Byrd. Mr. Secretary, I am going to call on the 
next Senator, but at some point I would like to hear your 
answer to Senator Cochran's question as to whether or not there 
is money in the supplemental to provide rural airports with the 
kind of security that is needed.
    Now, I am just paraphrasing the question. I do not think we 
got an answer to that question. I think you started talking 
about 2004, if there are certain moneys that are not used, et 
cetera, et cetera, but I am going to want a specific answer to 
that question, because that is the purpose of this hearing.
    Secretary Mineta. Mr. Chairman, as I understood Senator 
Cochran's question, it was whether airports get reimbursed for 
past expenses prior to a new program being instituted.
    Chairman Byrd. That was one of his questions, but I thought 
he asked a question as to whether or not there was money in the 
supplemental. Would you mind repeating that question?
    Senator Cochran. Well, I was curious because of the 
experience that the Jackson Municipal Airport has had. They did 
what the Federal Government told them they needed to do. They 
spent $431,000. They submitted a request for reimbursement, and 
they were told they were allocated $250,000. My question is, do 
they have to live with that? Or--and they have got other things 
they have got to do, and I am sure there are other airports, I 
know there are in my State, that are doing things that cost a 
lot of money, and to what extent is the Federal Government 
going to be able to reimburse them?
    They thought they were going to be reimbursed for this to 
the full extent of their expenditures. Now they are being told 
they are not going to be. Is the supplemental that is pending 
before this committee designed to help provide funds to make up 
those deficits in the small airports around the country?
    Secretary Mineta. As I said earlier, what we did was to 
expand the eligibility under the Airport Improvement Program 
for the local airport to be reimbursed for those additional 
funds. There is no supplemental request, we have no money in 
the supplemental for those kinds of expanded uses.
    After the program was devised, and given the money we were 
given by the Congress, then we found that there are more 
requests than the money available, so then we told airports 
that they could use their AIP money to draw down for 
reimbursement those additional law enforcement expenses and 
those kinds of security program expenses. There is no 
additional money in the supplemental for 2002 for this purpose, 
but there is enough money in the AIP program to be able to have 
airports reimburse themselves for it.
    And I said the reason I felt comfortable about doing it 
that way is because capacity and delays were not a problem in 
2001 and 2002, and I do not think in 2003, given the advance 
bookings on what is happening on airline travel.
    [The information follows:]

    If the Secretary directs an airport to institute specific 
security measures or activities, costs associated with these 
requirements are eligible for Airport Improvement Program (AIP) 
funding. Through the end of fiscal year 2002, this includes 
direct operating costs related to security. If an airport has a 
question on a security improvement, the airport should work 
with the local FAA Airports office and the Transportation 
Security Administration (TSA).

    Senator Cochran. That is not good news, Mr. Chairman.
    Chairman Byrd. I do not think it is a good answer, either.
    Senator Domenici.
    Senator Domenici. Mr. Secretary, first, I am glad you are 
feeling better. I happen to have shared a hospital with him, 
and that was his hip replacement. That is when I was getting 
well for these two little fingers that hurt.

                        HIRING OF TSA EMPLOYEES

    But I want to ask just in three areas, just real quick, Mr. 
Secretary, there had been a lot of criticism, some of it 
implied and some direct, about the quality of help, the 
employees that the airlines had hired to do the work in our 
airports of checking luggage and checking people in, and the 
comments had led people like this Senator to think that maybe 
they had not used very qualified people, had not hired very 
qualified people to help with that in these various private 
companies, and that the amount of pay that was being paid to 
these people was probably minimum wage, or just slightly more.
    And up here, as a result of the concern about quality of 
personnel, and the adequacy of these companies to do these 
jobs, we did something, and a lot of us did not think it was 
really right, but we had to get something done. We turned that 
job of hiring them over to the Federal Government, and we said 
they will set the criteria, and we gave a preference, it is my 
recollection, to those who were currently employed.
    I wonder how that program is going? I see that as one of 
the most difficult of all things that the Federal Government is 
going to have to do in the implementation of its new safety 
responsibilities. Have you set new criteria for the employees 
that are checking American citizens as they enter these 
airports, and how well are you able to find qualified people 
for these jobs? And if you might, for the record, tell us how 
many of the employees of the old companies were kept in this 
transition.
    Now, that is three questions. They are pretty forthright, 
and I think we need answers to them. It is very important.
    [The information follows:]

    It is too early to tell how many of the current contract 
passenger screeners will be hired as Federal screeners. All 
contract employees who meet the statutory requirements for the 
position are encouraged to apply. Experience, education and 
training, which are directly related to the work of the 
position are factors considered in the selection process. The 
number of contract screeners who become Federal screeners may 
vary greatly from airport to airport.

    Secretary Mineta. Well, first of all, the Congress mandated 
that on February 17 we take over all of the contracts that 
existed between the airlines and the security companies. We 
executed those contracts by February 17, so we have the 
contracts with the companies that were in place prior to 
February 17, except for one. All of those employees are still 
with those contractors.
    We have since started to hire our own Federal employees to 
be the screeners. We have done the recruiting, hiring, 
background investigations, testing, and now deploying to the 
various airports of our new Federal security workforce. I would 
imagine that the vast majority of those employees at the 
checkpoints are still those who were employees of these 
contractors prior to February 17, but it is our full intention 
to have the Federal workforce on the job by November 19 of this 
year.
    In June of this year, we will be probably transitioning at 
100 airports, starting to get in all of our Federal employees 
at that point. We are now at BWI, I believe at Gate A, B, and 
C, and so we are already starting that process of getting our 
new employees on board.
    Now, in terms of preference, preference is given under the 
law to airline employees who were displaced by the September 11 
attack, and, I believe, to veterans. Those are the only two. I 
do not believe we have one for present employees of contracted 
companies, but I believe it was airline employees displaced by 
September 11, and the veterans' preference. The rest of it is 
all mandated by law, U.S. citizen and all the other 
requirements that you are familiar with.
    Senator Domenici. Are you going to be able to get these 
employees screened and on board?
    Secretary Mineta. Yes, sir. We are doing the background 
investigations and I again am very comfortable with the 
schedule that Under Secretary Magaw has set up, and the 
procedures by which we are going through this, that we will 
have a good training program once we select the people. We have 
a very comprehensive examination for them to pass before we 
certify them to go deploy at an airport.

                            TSA SCREENER PAY

    Senator Domenici. Mr. Chairman, when we were passing this 
law, there was kind of an undercurrent of concern as to whether 
the number of employees that we talked about the Federal 
Government hiring was an adequate number, or would it be 
higher, and also whether the amount of money per year for pay 
for these employees was a good number, or whether it was going 
to be substantially more.
    Now, I do not know how to get a feel for that, but I think 
that would be important for this committee to have the earliest 
possible evaluation of these two issues that I just raised. Do 
you want to comment on them? I am almost finished.
    Secretary Mineta. Mr. Chairman, may I comment?
    Chairman Byrd. If you will, briefly.
    Secretary Mineta. Most of the employees at the screening 
companies were minimum wage employees. They probably had 150, 
250 percent turnover. At $8 an hour, that is $16,640 a year 
that they were getting paid. We were fearful that on February 
17 a lot of people would leave their job as screeners, so in 
order to retain them, those pay levels went up to about 
$21,000. But we also subjected those folks to our new training 
regimen in order to make sure that we did not have all these 
people leaving. So we did have that delta of $16,000 per 
employee going to $21,000, which we had to absorb in order to 
keep them on the job, but we also made sure that they were 
going to treat passengers with dignity and respect, and we 
upgraded the screeners' training.
    Chairman Byrd. Thank you. Senator Burns.

            USING AIP FUNDS TO PAY FOR SECURITY IMPROVEMENTS

    Senator Burns. Thank you, Mr. Chairman. I will not take 
long. There are a couple of areas that I want to caution the 
Secretary and the committee, AIP funds are collected to build 
infrastructure for airports. We put on a new tax to take care 
of airport security and then whenever we start dipping into 
that, I would assume--and I am going to ask the Secretary--will 
those funds that have been extracted out of the AIP funds for 
reimbursement to some of our airports, will that money be 
replaced?
    Secretary Mineta. I would assume not. One of the things 
that this whole program, again, as you are well aware of----
    Chairman Byrd. Mr. Secretary, you said you would assume 
not. Can you give the Senator an answer?
    Secretary Mineta. I said I would assume not in terms of 
reimbursing the aviation trust fund for the expenditure of 
funds under the AIP program, for these purposes.
    Chairman Byrd. Can you tell us who could give us the answer 
without assuming?
    Secretary Mineta. I will say directly that I do not intend 
to reimburse the aviation trust fund.
    Chairman Byrd. There is your answer, Senator.
    Senator Burns. Then we have a situation. I think we are on 
a very slippery slope, Mr. Secretary. To be right honest with 
you I am distressed with that answer, and on the case of, if 
there is no reimbursement in some cases, and when we have 
violated our law that calls for unfunded mandates put on local 
authorities by the Federal Government.
    Secretary Mineta. But if they are eligible under the AIP 
program to reimburse themselves, what is the unfunded mandate? 
Let us say, taking this example of Jackson, Mississippi, if 
$450,000 is what it is going to cost them, but under this 
specific program relating to reimbursement to the airport for 
law enforcement security purposes, they are only going to get 
$250,000, and then we say, but the balance can be made up from 
drawing down against your AIP formula fund, they are going to 
be made whole. But to me money is fungible. The reason I feel 
comfortable right now is because there is a downturn, 
unfortunate as it is, in air travel, so we do not have the 
capacity and the delay problem that we have had.
    We have got 2-hour lines in Seattle. Well, we ought to be 
able to help Seattle relieve that 2-hour security line up 
there, and the same thing here, because we do not have all the 
wherewithal we need.
    Senator Burns. Well, I think we had better monitor that 
very closely.
    Secretary Mineta. Absolutely. I am with you.
    Senator Burns. I just think--now, so far, we have talked 
about an interoperability, this is one of my concerns on 
communications. I do not know why your computers are not 
talking to one another. I have no clue about that, but I want 
to say also, we started out with this whole thing that you 
thought the total, probably, increase in Federal employees 
would be around 28,000, because that is what we talked about 
when we passed the bill. I think it is going to be double that, 
is it not, before it is all over?
    Secretary Mineta. Well, at the time, the 28,000 was as it 
related to passenger screening and did not include baggage 
screeners.

                          SECURITY PRIORITIES

    Senator Burns. Now, we are spending a lot of time talking 
about baggage screeners and explosives. That was not what 
happened on September 11. That was not what happened. We are 
spending all this time--this is a case of hijacked airplanes 
used as a weapon, as a missile, and the fuel that was on those 
airplanes as the explosive, and it seems to me we are spending 
a lot of time worrying about explosives on airplanes when we 
should be talking more about what actually goes on with the 
passenger as he boards the airplane, and that requires an 
increased operation on their part on what goes on there.
    But why are we worrying about what is going on in the belly 
of the airplane, because we have been pretty successful in 
ferreting that out without too much expenditure, and we 
continue to worry about explosives when it was box cutters that 
were the main weapon used in the hijacking of those airplanes, 
and so I am saying, let us not be like a moonlight horse and 
start jumping at shadows, and deal with the problem at hand, 
which was a hijacking, and that is the only concerns I have.
    And also the waivers, as far as on these airports where 
they park, we have still got economic distress. You say you are 
going to get a waiver, yet they put up another expense on you, 
because they have got to look at each car before they park in 
the parking lot, and I just do not understand a lot of that, 
and that is the only question I have.
    But I am saying that we had better put our emphasis at our 
weakest point, and that is the ability of certain parties to 
board an airplane and hijack it, because all this thing about 
explosives, I think you have got a bigger problem in the rail 
transportation with explosives than you have on the airlines.
    Secretary Mineta. Senator, I have two dates----
    Chairman Byrd. What is your question, Senator?
    Senator Burns. I would just ask him to respond to that.
    Secretary Mineta. There are two dates that I have tattooed 
on my forehead. One is November 19 for passenger screening, to 
have all our Federal security employees on board, and the other 
is December 31, to have all baggage checked by EDS.
    Now, I do not have a choice. I have got to do both, so when 
I think back to the history of Pan Am 103, and move forward 
from then in terms of explosives being what brought it down, 
and now with the new Aviation and Transportation Security Act, 
I have no alternative, I had to meet a November 19 date. I had 
to meet a January 18, February 17, May 18, November 19, and 
December 31 date.
    Now, those are all on my sleeves. I live with those dates 
every day, so I am trying to comply with the law and make sure 
that we shoe-horn everything in terms of our responsibility to 
comply with the law that Congress passed, and that is what I 
intend to do.
    Chairman Byrd. Very well. Senator DeWine.

                          COAST GUARD FUNDING

    Senator DeWine. Mr. Chairman, thank you very much. Mr. 
Secretary, thank you. I have a short statement, then a 
question. I agree with Senator Stevens' concern about the Coast 
Guard. We ask the Coast Guard to do a great deal, and frankly 
we are asking them to do a lot more now than they have ever 
done. Those of us from the Great Lakes, we are concerned about 
safety there, and we are concerned about commerce. Those of us 
who worry about, as all Americans do, the drug trade, know what 
the Coast Guard is capable of doing and has done to help us in 
that battle.
    We have all the reasons--the Coast Guard is now being 
deployed more because of 9/11. When we look at your 
supplemental request, it just seems to me that there is not 
enough money in there. Much of the funding, it would appear to 
me, will be used to address pay, annualizing programs that were 
started in response to September 11, but it does not 
necessarily help cover counterdrug, search and rescue, and 
other missions, really at the full 100 percent, so I am very 
concerned about that and about the dollar figure that I see in 
your supplemental request.

    COAST GUARD DETECTION AND INTERDICTION OF HIGH INTEREST VESSELS

    Let me ask you a specific question that has to do with 
merchant vessels and the ability of the Coast Guard to try to 
push out further away from our ports when we are able to 
intercept and when we are able to make an inspection. What is 
the Department doing to improve command, control, 
communications, and intelligence mechanisms so that the Coast 
Guard will be able to push our borders really outward and to 
identify and board high interest vessels before they get close 
enough to threaten our ports?
    Secretary Mineta. First of all, on September 11, or up to 
that point, ships coming in were required to give us 24-hour 
notice. On September 11, we changed it to 96 hours of advance 
notice so that we are able to deal with high interest vessels. 
That may be tankers, passenger cruise lines, whatever may be of 
high interest to anybody.
    We also instituted thereafter a Sea Marshal program to have 
Coast Guard people board the ship, and that they would be 
essentially in three areas. One would be up on the bridge, one 
would be down in the engine room, and another where the 
steering mechanism is located. Those are the three areas where 
we put Coast Guard people on high interest vessels coming into 
major ports.
    The other is the whole issue of safety and security. There 
are two parts to this. One is port security units, which are 
Coast Guard units usually deployed overseas to help U.S. naval 
vessels guarding their own ships overseas. The other relates to 
marine safety in the continental United States. So we have port 
security overseas, and marine safety teams in the United States 
dealing with port security.
    What we are doing now with the Container Working Group is 
to expand that work in conjunction with the U.S. Customs 
Service, and the Container Working Group is cochaired by the 
Coast Guard and U.S. Customs Service to look at the whole area 
of ports and marine safety.
    Senator DeWine. Well, I appreciate your answer very much, 
and congratulate you for the movement you have made.
    Secretary Mineta. We want to thank you, Senator, for your 
support for the Coast Guard. It was always air, rescue, and 
other missions, and in those days security was a small part of 
the total picture.
    Chairman Byrd. Can we please expedite the answers?
    Senator DeWine. Mr. Chairman, I am satisfied. Thank you 
very much.
    Chairman Byrd. Senator Gregg.
    Senator Gregg. The Secretary has been here for a long time. 
I have not listened to much of his testimony, so I will submit 
my questions.
    Chairman Byrd. Senator Kohl.

                     SECURITY OF CHARTERED AIRCRAFT

    Senator Kohl. Thank you, Mr. Chairman. Mr. Secretary, I am 
sure you know, the Aviation Security Act provided requirements 
for security for chartered aircraft. As a result of this 
provision, the Transportation Security Administration has 
authored a rule to be implemented by June for aircraft larger 
than 18 seats.
    I have raised this issue of security charter aviation with 
Administrator Garvey, Deputy Secretary Jackson, and Under 
Secretary Magaw, as well as yourself. Despite the attention you 
are all focusing on this issue, I am still concerned about the 
threat posed by large, unsecured charter aircraft. Would your 
new rule prevent an individual from chartering a 747, for 
example, and carry on explosives and weapons? If so, I would 
appreciate a fully explanation, because this is not my 
understanding at all.
    Secretary Mineta. The whole issue of how to deal with 
charters has been a very difficult one, and right now we do not 
screen baggage on charters. Let me check on that.
    Now I recall this. On charters, on departure they are not 
screened. If they come into an airport in a secure area, then 
they will be screened on deplanement, but not on enplanement. I 
understand why you would look at me cross-eyed like that, 
because it is a legitimate issue and we have got to take a look 
at that. When we take a look at charters, it should not be much 
different from scheduled service, so I will make sure we 
examine that.
    Senator Kohl. Well, I have raised the question a dozen 
times already, and with all due respect, the answer I get is 
about the same as what you are giving me here today.
    You know, at the very least, Mr. Mineta, it costs 
approximately $200 to buy a metal-detecting hand wand, you 
know, so you do not go through this machine, just a hand wand 
at the very least that can be used to examine individuals who 
are bordered chartered aircraft to see what they are carrying 
on their body, or whatever. It does not do much good to examine 
them on deplanement, because obviously then it is too late.
    Is it not reasonable for me to request an answer to that 
simple question, at least to insist that people who are getting 
on a chartered aircraft of size be examined with a hand-held 
wand to be sure that they are not getting on a plane with a gun 
or a knife, or whatever, and we are talking about large 
aircraft, as large as a 747, which can do the exact same 
damage, or wreak the exact same havoc as what occurred on 9/11?
    Secretary Mineta. You are absolutely correct, Senator Kohl, 
and I will take a look at that specifically and get back to 
you. The charter provision right now applies to aircraft of, I 
believe, 12,500 pounds and over, and there ought to be a 
distinction between the 12,500-pound plane and the Boeing 747 
or the Boeing 757 or other aircraft you are talking about, and 
I will take a look at that.
    Senator Kohl. I will be hopeful that sometime in the very 
near future I can get just a reasonable response to what I 
think is a clear and present danger. Thank you so much.
    Secretary Mineta. I will do that.
    Senator Kohl. Thank you, Mr. Chairman.
    Senator Stevens. If you would yield, Senator, it seems to 
me, Mr. Secretary, one of the problems is if you look at the 
small passenger planes, private planes, they are getting more 
security now than the large ones. For instance, small passenger 
planes are taking off 30 miles from the cities, but the larger 
ones are still coming into the major cities because they are 
large passenger planes and they have to have the facilities for 
off-loading all of those passengers. They are coming right into 
the cities, whereas the small private planes are landing 30, 40 
miles out of town.
    I think the Senator has raised a question about really 
looking to the specifics of these private planes and altering 
the regulations to fit the situation. He is absolutely right 
about--those passenger planes are so large they are being 
chartered transcontinental. They are no different than the ones 
that came in and hit the Pentagon.
    Thank you, Senator.
    Chairman Byrd. Mr. Secretary, you have indicated you would 
get back to the Senator.
    Secretary Mineta. Absolutely.
    Chairman Byrd. This question is of interest to the whole 
committee. You say you will look into it?
    Secretary Mineta. I will respond to you, sir.
    Chairman Byrd. The committee wants a response.
    Secretary Mineta. I will respond to you.
    [The information follows:]

    There are two types of charters, public and private. Public 
charters are required to have the same level of security as 
commercial airlines. Public charters go through airport 
terminals and are screened in the same fashion as other 
passengers or they are screened at the Fixed Base Operator 
facility. Private charters have not traditionally had the same 
level of security because there are no tickets sold to the 
public. We believe this is a weakness in the system. Under 
Secretary Magaw has directed his staff to examine the 
feasibility of requiring enhanced security measures for large 
private charter aircraft that would include screening by third 
parties.

    Chairman Byrd. And thank you for your appearance before the 
committee. The chair apologizes for the length of time you have 
had to spend before the committee, but we thank you for your 
testimony. The committee will stand in recess for about 3 
minutes, after which Secretary Tommy Thompson will appear 
before the committee.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
    Question. In light of the news reports of repeated bus bombings in 
Israel, what is your assessment of the security risk to the over-the-
road bus system in the United States? What needs to be done to enhance 
the security of that system?
    Answer. (FMCSA/TSA) The war on terrorism increases the risk of 
potential terrorist attacks in the United States. Unfortunately, the 
attributes that make our transportation systems efficient make them 
equally attractive targets to terrorist attacks. Our over-the-road bus 
system is at high risk of attack by terrorists because of the potential 
for a large number of casualties, coupled with the location of bus 
terminals in major cities, and transporting passengers through dense 
urban areas and underground tunnels. Moreover, several of our large 
intermodal facilities (like New York's Grand Central Station and 
Washington D.C.'s Union Station) are internationally known icons, and 
may be viewed by terrorists as symbols of America.
    Security for over-the-road bus operations poses a significantly 
greater logistical challenge than, for instance, air travel. Airport 
terminal access to airplanes is controlled by relatively few entry 
points. Conversely, over-the-road bus systems are very open in order to 
promote passenger accessibility, convenience, and low costs. Unlike 
airplanes, which make relatively few passenger transfers, buses make 
numerous stops along vast open and penetrable corridors. Greyhound 
Lines, Inc., the nation's predominant scheduled regular route passenger 
carrier alone has five times more passenger embarkation locations than 
Amtrak and the airlines combined.
    The Department of Transportation is committed to achieving the 
highest level of security for all modes of transportation. The Federal 
Motor Carrier Safety Administration, in coordination with TSA, has been 
working in partnership with the over-the-road bus industry to improve 
security. A threat and vulnerability assessment of the industry is 
underway through the Department's Volpe National Transportation System 
Center in Cambridge, MA. We expect this assessment, which will also 
include the development of cost-effective measures for mitigating 
identified vulnerabilities, to be completed in the fall. The assessment 
will be useful in guiding the collective efforts of government and 
industry. It is likely that the countermeasures will include enhanced 
training, the implementation or modification of carrier operational 
procedures, and the use of technologies.
    FMCSA is also working with its sister agency, the Federal Transit 
Administration, to modify two transit security courses for over-the-
road bus company use. The over-the-road bus industry is working with us 
on this endeavor, also. One course is designed for drivers. The other 
is designed for company management. These courses will enhance the 
industry's ability to identify suspicious passengers and packages and 
to report any unusual activity to the proper authorities. A heightened 
awareness of potential threats can prevent attacks before they happen.
    Question. What efforts are being made to ensure that safety 
regulations, procedures, and equipment now being installed at large 
airports across the country will be timely implemented at smaller 
airports? Is there enough money in the fiscal year 2002 transportation 
budget and the fiscal year 2002 supplemental for all airports--big and 
small--to be properly secured? Are proper measures being taken so that 
the unique needs of smaller airports will be adequately taken into 
account when security steps are imposed, such as waivers on the 300 
foot rule?
    Answer. (TSA) The Federalization process is ongoing and is involves 
airports both large and small. For example, a large airport such as New 
York's JFK and Wyoming's Jackson Hole both have activities underway 
that will involve the control of Federal Security personnel and the 
introduction of security technology. Moreover, the TSA has established 
a pilot program that covers airports of all size and classification. 
TSA is committed to meeting the passenger and checked baggage-screening 
deadlines mandated in the Aviation and Transportation Security Act with 
the 2002 supplemental and 2003 requests. TSA will continue to procure 
the services of state and local law enforcement as well as hire and 
deploying federal law enforcement officers. The needs of the small 
airport operator are being considered against the larger airports as 
well. Currently, and since the imposition of the 300-foot rule, airport 
operators have been able to submit requests for relief from the 
requirement and TSA staff has addressed those requests.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. During a Subcommittee hearing earlier this year, Admiral 
Loy testified that one of the Coast Guard's greatest strengths was its 
ability to shift gears when necessary. I couldn't agree more! But one 
concern I have is that, when the Coast Guard boosts its efforts in one 
mission, its other critical missions pay a price. Last week, the U.S. 
Coast Guard withdrew its rulemaking relating to barges carrying bulk 
liquid hazardous material cargoes in order to focus its resources on 
rulemakings that more closely affect homeland security.
    Mr. Secretary, I am deeply concerned about the Coast Guard's 
departure from addressing critical safety issues that just six months 
ago were one of its greatest priorities. What is being done to ensure 
that Safety and Security move forward hand in hand, and other necessary 
safety rulemakings are not sacrificed?
    Answer. (USCG) The Coast Guard anticipates a delay in the subject 
rulemaking of at least 12 months; a delay that is not expected to have 
a deleterious effect on maritime safety. This segment of the maritime 
transportation sector has had a particularly safe record and the 
regulatory project is intended to modernize regulations that are still 
effective in ensuring public safety.
    Since the tragic events of September 11, 2001, the Coast Guard has 
conducted a detailed review and evaluation of all pending rulemakings 
in consideration of anticipated homeland security rulemakings. This 
review resulted in certain safety projects that are in the early stages 
of rulemaking to be delayed with consideration of possible impact upon 
the public. To ensure that the overall regulatory agenda and priorities 
are current and appropriate, the Coast Guard reviews the status and 
priorities every three months of all regulations, and on a semi-annual 
basis publishes the regulatory agenda describing current and projected 
regulatory projects. The Coast Guard will reevaluate this and all other 
delayed/withdrawn projects to maintain an effective regulatory balance 
of safety, security, and environmental protection.
    Question. Mr. Secretary, you testified today about the benefits of 
the Coast Guard's deployment of Sea Marshals that provide an armed 
security force on board certain commercial ships that have been 
determined to be high risk. Ships like Cruise Ships, Tankers, and Ships 
carrying Hazardous cargoes that might be used as a weapon or target by 
terrorists. I now understand that the Port of San Francisco has 
dramatically reduced, if not eliminated altogether, their Sea Marshal 
Program. Is this cut back due to the loss of Coast Guard Reservists, 
many of whom are trained law enforcement officers who were originally 
performing this function? What are you doing to ensure that critical 
security programs are not lost due to operating constraints placed on 
the Coast Guard?
    Answer. (USCG) The reduction in the number of Coast Guard forces, 
including reservists, providing a ``Sea Marshal'' capability is in part 
linked to the Reserve drawdown. The reduction is also a result of a 
Ports, Waterways, and Coastal Security strategy that uses risk-based 
decision making to match security forces with threats.
    The Coast Guard has employed a ``Sea Marshal'' capability to 
mitigate certain threats posed by vessels of interest within Captain of 
the Port (COTP) zones of responsibility and operation. However, Sea 
Marshals are just one of the capabilities available to address threats 
to port and vessel security. The COTPs have risk matrices to assist in 
a thorough evaluation of the risk of vessels entering and departing 
ports. They select different security measures to address different 
levels and types of risk. All Maritime Homeland Security forces 
currently assigned within the Port of San Francisco post September 11th 
are assigned duties which span multiple programs, including vessel 
security and safety boardings, facility/container security inspections, 
harbor patrols, vessel escorts and security zone enforcement. While 
there has been a reduction in the number of Coast Guard personnel 
providing a ``Sea Marshal'' capability, there are adequate Coast Guard 
resources available to cover the port's risks.
    In the months following September 11, Coast Guard operational 
commanders re-balanced resources to a sustainable level across all 
missions keeping Ports, Waterways and Coastal Security as the number 
one mission alongside Search and Rescue. In addition, the President's 
fiscal year 2003 budget request includes funding for critical Homeland 
Security initiatives that continue our fiscal year 2002 progress and 
facilitates achieving the goals of: building Maritime Domain Awareness 
(knowledge of people, vessels and cargo traveling on our Nation's 
waters); ensuring positive/controlled movement of High Interest 
Vessels; enhancing presence with improved deterrence and response 
capability; protecting critical infrastructure and ensuring Coast Guard 
force protection; and, increasing domestic and international outreach. 
The President's fiscal year 2003 request includes $7.7 million to 
acquire and support 160 Sea Marshal Program personnel.
    Question. Mr. Secretary, even though you now require ships to 
submit the names of its crewmembers 96 hours before arrival, the Coast 
Guard cannot actually check all these names against all the necessary 
watch lists and clear each crewmember before the ship arrives in port. 
What are you doing to ensure that the Coast Guard has access to the 
critical information necessary to be able to make this early 
notification of some use?
    Answer. (USCG) In association with the temporary emergency 
regulations implemented in October 2001 requiring 96 hour advance 
notification of port visits and crew lists by commercial ships enroute 
to U.S. ports, the Coast Guard (USCG) established the National Vessel 
Movement Center (NVMC). The staff of the NVMC receive the advance 
required notice of arrivals via either fax or email. Within two hours 
of receipt, the information is then input into a database which is 
accessible by all USCG offices including the Marine Safety Offices or 
Captains of the Port who are responsible for ensuring compliance with 
the appropriate regulations for each of the ports within the United 
States. The database is called the Ship Arrival Notification System 
(SANS).
    The name check process is carried out by the USCG Intelligence 
Coordination Center (ICC).
    Question. At the recent meeting of the International Maritime 
Organization, most foreign nations rejected the notion of requiring 
international credentials for all vessel crews. Do you believe an 
international credentialing system is feasible? Is it something we 
should require of all ships entering the United States and Canada?
    Answer. (USCG) Yes, an international credentialing system is 
feasible; and, the Secretary of Transportation should be granted the 
flexibility to develop and implement a system of positive 
identification for foreign merchant mariners entering all U.S. ports. 
The Maritime Safety Committee (MSC) Working Group on Maritime Security 
considered a comprehensive set of proposals to improve maritime 
security submitted by the United States. One of these proposals was to 
include in the Safety of Life at Sea (SOLAS) Convention a requirement 
for seafarer identification verification. The Inter-Sectional Working 
Group (ISWG) agreed that there was a need for an updated seafarer 
identification document, and that action would be sought through the 
revision of the International Labor Organization Seafarers' Identity 
Documents Convention (ILO), 1958 (No. 108). Based on this agreement, 
the ISWG requested the Secretary General to write to the Director-
General of the ILO requesting early action on this matter. The ILO has 
since made significant progress internationally to develop a seafarers' 
ID requirement. The U.S. Department of State, Immigration and 
Naturalization Service, Maritime Administration, and Coast Guard 
officials are all working to coordinate this issue and determine how 
the ILO's proposals can be incorporated into the U.S. visa/passport 
requirements for seafarers. The United States also believes the 
seafarer's identification system must have the capability to gather and 
exchange information among member states to assure entry and exit of 
seafarers is only allowed to those with valid and properly issued 
documents.
    Question. Mr. Secretary, earlier this year your Undersecretary of 
Transportation for Security testified about the Administration's new 
``Smart Border Declaration.'' This initiative is designed to expedite 
the travel of cargo across the United States-Canadian border. I am 
concerned about cargo that is destined for the United States will be 
sent to Canadian ports instead of U.S. ports because the security 
requirements will be more lax. Mr. Secretary, can you assure the 
Committee that containers coming into the United States via Canada and 
containers entering U.S. ports will be subject to the exact same 
security requirements? Will containers entering U.S. ports be more 
likely to be inspected by the Customs Service or the Coast Guard than 
containers entering through Canada?
    Answer. (TSA) Our aim is to reduce the time it takes for freight to 
cross the border from Canada into the United States while not reducing 
the overall level of security. In fact, our goal is to improve our 
security efficiencies by utilizing technology and modifying business 
practices to speed the process and to properly coordinate and 
disseminate intelligence information to more accurately target 
potential harmful freight. We intend to accomplish this by setting 
national container security standards, administered by appropriate 
federal agencies, requiring that all shippers, brokers, and all persons 
handling freight fulfill certain security procedures before containers 
enter the country. We are and will continue to work closely with U.S. 
Customs in implementing these standards. TSA and the other DOT agencies 
are working with Customs to ensure that the right technology is 
utilized to safely accomplish this goal. The best example of this 
cooperative effort is the joint Container Working Group and the 
emerging Operation Safe Commerce initiative, both of which seek to 
prevent a situation as you presented.
    In all probability, a higher percentage of containers entering U.S. 
ports directly will be inspected by U.S. personnel than containers 
entering through Canada but only if the Canadian containers meet 
equally stringent security requirements and have applied those 
standards to their inspections.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                            transit security
    Question. Secretary Mineta, on September 11th, transit systems 
evacuated thousands from Ground Zero, the Pentagon, and their environs. 
What steps has the Administration taken to ensure that our nation's 
transit systems are protected from terrorist threats?
    Answer. (FTA/TSA) While TSA has focused significant attention on 
aviation security mandates, the Associate Under Secretary for Maritime 
and Land Security (MLS) has initiated a land transportation security 
program that will provide the highest level of protection for all the 
transit systems. Working with FTA and the transit industry, we will 
develop enhanced security for transit systems. Outreach efforts with 
MLS and FTA are underway with meetings to develop an MOA delineating 
roles and responsibilities between the agencies in accomplishing this 
quickly and efficiently.
    TSA will work closely with FTA and the transit industry on existing 
security measures, identifying the gaps, and making improvements. 
Efforts will continue to focus on protection, prevention, response 
preparedness, and recovery.
    Focusing on prevention through people, we believe that counter-
terrorism training enhances the performance of our first responders. We 
continue to support the Land Transportation Antiterrorism Training 
Program that was developed for transit law enforcement and security 
personnel who protect the land transportation system. DOT and the 
Department of Treasury's Federal Law Enforcement Training Center 
entered into a partnership and developed this program in 1999. The 
course is being offered to various transit agencies throughout the 
United States.
    In the wake of September 11th, FTA undertook a five-part security 
initiative to enhance the security of the nation's public 
transportation systems and help our public transportation agencies cope 
with these new threats.
    Assessment.--Enhancing transit security must begin with an in-
depth, professional assessment of the threats to and vulnerabilities of 
each transit system. On December 17, 2001, FTA began deploying expert 
security assessment teams to the 32 largest transit agencies. The teams 
are using proven threat and vulnerability assessment methodologies to 
assess the security gaps in the agencies' high consequence assets and 
make specific recommendations to reduce the risks to acceptable levels. 
In addition, the teams are assessing the agencies' emergency response 
plans and the coordination of their emergency response efforts with 
associated fire, police, and other emergency response agencies.
    The assessments are proving extremely beneficial for both the FTA 
and the transit agencies, even at the most well-prepared agencies. The 
assessments are helping to identify best practices for the industry and 
will assist FTA in developing a road map for future programs.
    Through the assessments we have learned that transit environments 
have many high risk, high consequence assets. Due to the challenge of 
protecting these assets in a transit environment that is inherently 
open, it is more important than ever that agencies are able to respond 
as well as mitigate the impact of emergencies.
    Planning.--Effective response to an act of terrorism requires 
instantaneous and sound decision-making in a volatile, high-pressure 
environment. Our largest transit operations already have emergency 
response plans, but need to reexamine their plans in light of today's 
potential threats. FTA is deploying Technical Assistance Teams to 
provide hands-on assistance to transit agencies as they develop and 
refine their emergency response plans in light of their security 
assessment findings and heightened terrorist threats. These plans will 
serve as blueprints for action in the wake of an attack. They 
articulate the steps to take in order to notify authorities of the 
incident, evacuate passengers, protect personnel and equipment, 
activate a unified command and communications system among transit, 
police, fire and emergency medical units, and restore the system to 
normal. This approach was successfully used to develop emergency 
response procedures and deliver on-site training programs to Utah 
Transit Authority employees in preparation for the Winter Olympics.
    Testing.--In the ``lessons learned'' from the tragic events of 
September 11th, New York and Washington transit officials have 
emphasized how important it was that they had conducted regular 
emergency drills. In addition to having an emergency response plan in 
place, they recommend that every transit agency conduct regular 
emergency drills--not just fire drills--to keep skills sharp, update 
response plans, and build personal relationships with counterparts in 
the police, fire and emergency medical response organizations. FTA has 
recently sent a Dear Colleague Letter to the top 100 agencies to make 
them aware of grants available in amounts up to $50,000, for organizing 
and conducting emergency preparedness drills. Again, these funds will 
enable transit agencies to coordinate response with local and regional 
emergency personnel.
    Training.--It is imperative that we have a transit workforce that 
understands security issues and is fully prepared to respond should an 
emergency occur. To meet this need, FTA is launching the ``Connecting 
Communities: Emergency Preparedness and Security Regional Forums.'' The 
forums kicked-off in May in Orlando, Florida, and will continue in 16 
additional cities across the country. Forum registration is being 
offered at no charge. The forums are designed to bring together small 
to mid-size transit agency management and security personnel; police 
and fire personnel responsible for emergency management coordination; 
emergency medical services and hospital disaster relief coordinators; 
and state and local government emergency management coordinators. 
Participants will gain a better understanding of the roles played by 
each agency and begin the process of developing the plans, tools and 
relationships necessary to respond effectively in an emergency 
situation.
    In addition, FTA is working with the Transportation Safety 
Institute (TSI) and the National Transit Institute (NTI) to expand 
current course offerings to a broader audience.
    Technology.--The last component of our security initiative involves 
technology and research. First, $2 million of fiscal year 2002 research 
funding will be used to fund security-related transit research under 
the auspices of the Transit Cooperative Research Program of the 
National Academies of Sciences. In addition, FTA has reprioritized the 
fiscal year 2002 budget to devote funds to improve the Transit Safety 
and Security Reporting Module of the National Transit Database; and to 
implement the recently developed Bus Safety Program. We have also 
received $4 million to accelerate the implementation of the Project 
PROTECT chemical detection system, which is being prototyped in the 
Washington D.C. subway system. In order to assist all systems in the 
near term, however, FTA has issued guidelines for the handling of 
chemical and biological incidents in a subway environment.
    Question. Mr. Secretary, what portion of the $4.4 billion in the 
President's supplemental budget request for the Transportation Security 
Administration will be used to address the threats facing our nation's 
transit systems or is all of that money slated for airline security 
efforts?
    Answer. (TSA) The President's initial fiscal year 2002 supplemental 
request included operating and personnel funds for Maritime and Land 
Security staff. The staff is currently working to develop national 
security standards in all non-aviation transportation modes (maritime, 
highway, rail, mass transit and pipelines) to ensure the security of 
passengers, transportation conveyances and cargo and prevent disruption 
to the transportation system from terrorism, sabotage and/or other 
disruptive acts. The staff is working with the cognizant transportation 
agencies (FHWA, FTA, FRA, FMCSA, RSPA, and the Coast Guard) and 
industry to identify best practices. TSA will set standards, issue 
regulations and monitor execution in all the non-aviation modes. The 
President's fiscal year 2003 request now before Congress contains 
operational funds for these start-up efforts as well as $100 million 
for security grants.
    Question. Secretary Mineta, in testimony before my Subcommittee on 
Housing and Transportation we have heard from numerous experts that the 
demand for new security measures is very high. Looking to the future, 
does the Administration plan to include new resources in next year's 
budget or its TEA-21 reauthorization proposal to address the threats 
facing our nation's transit systems?
    Answer. (FTA) We are unable to provide specifics of the provisions 
of the TEA-21 reauthorization bill or TSA's 2004 budget requests 
because both are still in the formative stages. However, the Department 
has articulated a set of core principles that will frame our approach 
to the reauthorization of our surface transportation system. One of 
those core principles is to ``address the security of the nation's 
transportation system''.
                            airline security
    Question. Mr. Secretary, I have been impressed with the effort you 
and Under Secretary Magaw have put into aviation security. Obviously, 
as we know from the President's supplemental request, this is not an 
inexpensive proposition, but quality work never is. With that said, 
what assurances can you give Congress that your department will not 
succumb to pressure from bean counters and simply assign security 
services to the lowest bidder?
    Answer. (TSA) We agree that cost is not the only factor that should 
be weighed when awarding a contract. We will follow guidance to ensure 
that the quality of security provided is also a key factor.
    Question. What is the likelihood that TSA will meet the 
Congressional mandate to provide 100 percent EDS (Explosive Detection 
Systems) screened checked bags by 31 December 2002?
    Answer. (TSA) TSA remains totally committed to meeting the 
requirements of the congressional mandate for 100 percent screening of 
checked baggage.
    Question. It seems to me that while we are working to catch 
potential terrorists coming through the gate, we should also be working 
to thwart these acts while in the planning and rehearsal stages--not 
when they have already stepped off the proverbial line of departure. Is 
TSA looking to develop an antiterrorism program for airport 
infrastructure protection?
    Answer. (TSA) The Federal Security Directors are joining Anti-
Terrorism Task Forces at the local level and therefore TSA is ensuring 
that airports are part of local anti-terrorism efforts.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
    Question. What is your plan to continue implementation of the 
explosive detection system requirement beyond the December 31st 
deadline in the Aviation and Transportation Security Act?
    Answer. (TSA) TSA's focus for the remainder of 2003 will be on 
Research and development of next generation EDS equipment while 
maintaining the equipment deployed in the field.
    Question. If screening baggage is a priority for the 
Administration, why weren't any of the 9-11 emergency funds ($20 
billion) allocated to purchase and install explosive detection machines 
at airports?
    Answer. (TSA) About $200 million was provided to the FAA from the 
emergency supplemental funds to support explosives detection systems 
efforts. In addition, $100 million in appropriated funding was provided 
to FAA for EDS. Lastly, the Administration requested $1.9 billion in 
its initial supplemental request to hire, train, and deploy roughly 
22,000 baggage screeners and buy, install, and maintain about 7,000 
pieces of explosives detection equipment to meet the December 31, 2002 
deadline.
    Question. The fiscal year 2002 supplemental request totals $27.1 
billion in new spending. For FAA operations, however, the request of 
$100 million is to be derived by transferring funds from the FAA's two 
capital accounts. What effect would this transfer have on programs to 
modernize the national airspace system and on airport safety, capacity, 
and other improvement projects?
    Answer. (FAA) The amount proposed for transfer represents less than 
two percent of the total capital funding available to the FAA in fiscal 
year 2002. This action would not significantly affect airport safety or 
capacity programs.
    Question. With the National Guard withdrawing its presence at 
airport screening checkpoints at the end of May, the TSA has issued a 
security directive to local officials to place law enforcement 
personnel at all security screening checkpoints. Do you intend to 
reimburse airports and local governments for all costs associated with 
meeting this federal requirement? Please provide your rollout schedule 
for putting federal law enforcement at airports. It is my understanding 
that the federal government will not provide liability protection to 
the local governments whose officers are placed at airports. Why are 
you not offering liability protection when these officers are acting in 
a federal capacity?
    Answer. (TSA) The TSA is willing to provide reasonable 
reimbursement for certain costs based on locality and within the 
allocated federal budget. We have been processing requests since 
approximately April 2002. Generally, overhead costs are not authorized. 
Reimbursable costs may include an hourly charge for ``straight-time'', 
``over-time'' (if necessary), or an annual salary cost (incrementally 
funded) if new law enforcement personnel must be hired. Reimbursement 
also will be considered for benefits required by federal, state, or 
local law. In most cases, we are able to cover ``overhead'' as well as 
the basic rate. The rollout schedule is tentative at this time and has 
not been finalized.
    Question. Mr. Secretary, although it is not as costly to install 
trace detection equipment in airports as it is to install EDS machines, 
the overall effort to install explosive detection equipment will be 
significant. Furthermore, the greater the complexity of the 
installation, the greater the costs will be, and the shorter the time 
frame for installation, the greater the costs will be. Do you have an 
updated cost estimate for EDS installation given last week's 
announcement of the intended mix of equipment TSA intends to use to 
meet the year-end requirement, and does that take into account 
variables like those I mentioned? Do you intend to require airports to 
use Airport Improvement Program funds to offset any funding shortfalls 
in this area?
    Answer. (TSA) TSA has revised its average cost per EDS installation 
to reflect the differences between lobby installations and the more 
complex and costly installations in integrated installations in baggage 
rooms. The average cost has been revised upward to $350,000 per EDS 
installation.
    AIP funds as well as PFC charges are among the options available to 
airports to fund the development of infrastructure necessary to support 
the operation of checked baggage screening equipment procured, 
installed and operated by TSA.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
    Question. Mr. Secretary, Section 110 of the Aviation and 
Transportation Security Act States the ``Undersecretary shall provide 
for the screening of all passengers and property, including U.S. mail, 
cargo, carry-on and checked baggage, and other articles that will be 
carried aboard a passenger aircraft . . .'' The article goes on to 
state, ``In the case of flights and flight segments originating in the 
United States, the screening shall take place before boarding and shall 
be carried out by a Federal Government employee . . .''
    Mr. Secretary, this language seems clear. It is my understanding 
that the Transportation Security Administration (TSA) continues to rely 
on airlines to perform certain screening functions, namely screening of 
the catering function supplied to carriers at airports. Does TSA plan 
to assume this function, as the law clearly intended, or will this 
important function continue to be delegated to the airlines?
    Answer. (TSA) TSA does not plan to assume the responsibility for 
screening of the catering function. The Aviation and Transportation 
Security Act (``ATSA'') distinguishes between security functions that 
must be performed by TSA and security functions for which TSA must set 
standards. 49 U.S.C. Sec. 44901 deals with passengers and their 
property, and with other items accepted by an air carrier for 
transport. Screening functions for these categories must be carried out 
by federal employees, and at federal expense \1\, subject to limited 
exceptions.\2\
---------------------------------------------------------------------------
    \1\ The statute imposes fees on passengers and on air carriers to 
offset costs related to passenger and property screening. See 49 U.S.C. 
44940.
    \2\ Under 49 U.S.C. Sec. 44901(a) screening conducted through the 
CAPPS and known shipper programs is not required to be done by Federal 
employees.
---------------------------------------------------------------------------
    In contrast, 49 U.S.C. Sec. 44903(h), deals with services and 
supplies related to aircraft, and to services and amenities, including 
catering, provided by the air carriers for their passengers. This 
section requires TSA to establish standards for the performance of 
security functions related to such services and supplies. 49 USC 
Sec. 44903(h)(4)(C) specifically mentions catering supplies and other 
passenger amenities and requires only that the TSA ``establish 
procedures'' for ensuring the safety and integrity of such supplies and 
persons providing such supplies. It does not require that Federal 
employees carry out the procedures created by the TSA, or that the 
government bear the costs associated with these procedures.
    At this time, air carriers are responsible to ensure required 
security procedures are implemented for catering services. Currently, 
we are working on establishing uniform requirements for catering 
security in order to assure consistency across the commercial aviation 
system.
    Question. Mr. Secretary, airlines are continuing to perform certain 
security functions at substantial cost. Congress' intent was for the 
federal government to assume ALL security functions related to aviation 
security and to get airlines out of the law enforcement business. Do 
you concur with the view that TSA should be performing ALL security 
functions and that airlines should be reimbursed for the 
responsibilities they have been performing until TSA is fully staffed 
and operational?
    Answer. (TSA) Under ATSA, TSA was given responsibility for Federal 
civil aviation security policy, regulations, and law enforcement, but 
it was not assigned ``all security functions.'' On February 17, 2002, 
TSA began to assume civil aviation security functions, as provided in 
ATSA. Some of these functions are security services that TSA will 
provide directly; other functions are of a regulatory or enforcement 
nature. However, many security-related functions and costs are the 
responsibility of private parties in the aviation industry. For 
instance, certain airports, air carriers, and foreign air carriers are 
required to have security programs for their own operations and they 
are responsible for these expenses. Under these security programs, and 
as necessitated by the operation of their businesses, the airports, air 
carriers, and foreign air carriers will have costs for security 
functions that are not TSA's responsibility and will also have 
employees with security duties or with duties that complement Federal 
security functions.
    As part of their security programs, carriers employ ground security 
coordinators to manage the security responsibilities that they retain. 
Other carrier employees have limited security-related functions among 
their duties. These include ticket agents, who ask passengers several 
security-related questions before accepting their baggage, and also 
baggage runners, who transport bags from the carriers' facilities to 
TSA screening locations and, after screening by TSA, to the entry point 
for the airport's baggage handling system. Further, as discussed in the 
reply to the question above, carriers are responsible for ensuring the 
safety and integrity of catering supplies and other passenger 
amenities. TSA's role in the carriers' security programs and in 
complementary activities is generally limited to regulation and 
enforcement. TSA does not perform or pay for the carriers' security 
programs.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
                     surface transportation issues
    Question. One of the biggest surface transportation security issues 
facing the State of Colorado is the safety around tunnels on major 
interstates. For example, I-70 is a major transportation artery through 
the Rocky Mountains. It has several major tunnels, which could have 
security risks. From your experience, what can be done to make these 
tunnels safer?
    Answer. (FHWA) The major road tunnels on I-70 in the state of 
Colorado are the Eisenhower/Johnson Memorial Tunnels near Vail and the 
Hanging Lake Tunnels near Glenwood Springs.
    These tunnels were designed, constructed and retrofitted to be in 
compliance with National Fire Protection Association (NFPA) 502, 
Standard for Road Tunnels, Bridges and Other Limited Access Highways, 
and incorporate the following operational, life safety and emergency 
systems:
  --The tunnels are fully manned, 24 hour a day, every day. There are 
        50 full time personnel assigned to the Eisenhower/Johnson 
        Memorial Tunnels and 33 full time personnel at the Hanging Lake 
        Tunnels.
  --There are TV cameras installed throughout the tunnels and the 
        closed circuit television (CCTV) system is continuously 
        monitored at the Operations Control Center.
  --Emergency and fire fighting equipment is located and maintained at 
        the tunnel site.
  --Fire water lines and fire valves are installed throughout the 
        tunnels and are capable of providing a 500 gallons-per-minute 
        supply of water.
  --Emergency electrical power and tunnel lighting is available if the 
        power source is destroyed or damaged.
  --Emergency training of maintenance and operation personnel is 
        conducted periodically, including first aid and medical 
        attention.
  --The existing mechanical ventilation system is capable of handling 
        the smoke and heat of a major fire within the tunnel.
  --An incident management plan, which contains an emergency response 
        plan, exists for each tunnel facility,
    Presently, all road tunnels that receive federal-aid, are in 
compliance with NFPA 502 and incorporate the same life safety systems 
as the above-mentioned tunnels. This has been the general practice 
during the past fifteen years.
    To make the tunnels safer, against terrorist attack for example, 
the following additions to the existing operations could be made:
  --Hire security personnel, with patrol vehicles, to patrol the 
        approach highways to the tunnels.
  --Provide advance detection of any unauthorized trucks or vehicles 
        carrying explosives or dangerous gases. In a limited access 
        highway there usually is a distance of several miles between 
        the nearest on-ramp and the tunnel portals.
  --Install portable blockades at tunnel portal areas to physically 
        prevent unauthorized trucks or vehicles from entering the 
        tunnels.
  --Upgrade the medical training for tunnel personnel from first aid 
        and medical assistance to emergency medical technicians.
  --Include in the incident management plan a tunnel structural team to 
        immediately assess any structural damage to the tunnel.
    Question. Are there technologies in place that could be used to 
make this type of infrastructure more secure?
    Answer. (FHWA) Tunnels benefit immediately from the technologies 
that are contained within the ``intelligent infrastructure,'' including 
video surveillance, traffic flow monitoring, and traveler information. 
These technologies not only assist in monitoring the facility and 
detecting any suspicious activity, but then also serve to verify any 
conditions resulting from an event. They also assist in managing 
travelers to help them flee or avoid entering a damaged facility. 
Technologies that detect chemical (and possibly biological) agents may 
also be useful, particularly in quickly detecting possible releases in 
a tunnel, whether caused by a terrorist act or by a crash involving 
hazardous materials. Technologies that detect heat and monitor 
visibility are similarly helpful. The many technologies applied 
regularly in tunnel management, such as those that control airflow, 
pumping, and illumination within the facility all contribute to 
increasing tunnel security.
    Question. What advances in the Intelligent Transportation Systems 
(ITS) have been made that can be applied to transportation security?
    Answer. (FHWA) Though there are no ITS systems which address the 
specific issue of tunnel security; however, every attempt is being made 
to utilize all areas of ITS to enhance the overall security of the 
Nation's transportation facilities. The full capability of the 
transportation system must be harnessed and optimized, including use of 
Intelligent Transportation Systems (ITS), to effectively move people 
and goods and to help plan for, detect, prevent, and respond to a 
national security event.
    Planning for evacuations and quarantining.--Transportation 
professionals who work daily to maximize the operational efficiency of 
the system are key players in planning the best methods to carry out an 
evacuation or quarantine. They have technologies at their disposal such 
as advanced traffic signal systems, ITS surveillance and traffic flow 
monitoring systems and traffic operations centers that can detect 
disasters as they occur and provide a centralized response team with 
the tools to manage traffic on city streets, highways, and transit 
systems. Traffic flow information collected through vehicle count 
stations and ITS technologies allow planners to plan optimal evacuation 
routes. ITS resources such as variable message signs, highway advisory 
radio, 511, and the Internet provide essential ways to get information 
on the best routes and safe locations to travelers.
    Traffic signals, surveillance and detection.--Surveillance 
technology may be used to monitor roads for suspicious vehicles and 
activities, and thus becomes a key element in detecting and preventing 
possible terrorist acts. Once an incident occurs, many evacuees travel 
only as far as the first traffic signal before they encounter delays. 
These same closed circuit television cameras, traffic sensors, 
transponders, and optical image sensors can provide information to 
traffic and other emergency managers to help ease traffic congestion 
under emergency conditions. Advanced signal systems that can be 
remotely changed or can automatically adapt to accommodate heavy 
evacuation movements are critical to an effective and safe evacuation.
    Emergency communications integration and redundancy.--Integrated 
communications capability--sharing of traffic conditions and video 
images--can greatly aid coordinated emergency response. Interoperable 
communications between emergency responders and traffic managers 
through shared radio/phone systems and advanced technologies in 
emergency vehicles are essential. Additionally, ITS communications 
often employ deeply buried fiber optic cables, resulting in a hardened 
communication system. Such systems may be crucial if terrorist attacks 
damage or destroy other telecommunications facilities.
    Asset tracking for commercial vehicles, transit systems, and 
cargo.--Asset tracking involves the use of electronic means to locate 
and track freight and passenger movements, whether static or in 
transit. The security goal of the tracking function is to quickly 
recognize deviations from planned routes or other baseline information, 
and to take measures to interrupt further movement of an errant asset 
within the United States and at border crossings. After an event, the 
tracking function may assist in determining the origin of the asset and 
its operator. ITS technologies also support verification of the 
credentials of operators of hazardous loads, and such operators at 
intermodal interfaces such as in the air cargo environment.
    Question. Are such systems eligible for funding under the funds 
already allocated for homeland security?
    Answer. (TSA/FHWA) Although the funds provided to date to the 
Transportation Security Administration for homeland security do not 
include any funding for any highway systems, most of the ITS systems 
described are already eligible for funding under various Federal-aid 
highway program funding categories.
                      asr-11 radar (eagle county)
    Question. This issue might not be crucial to the arena of national 
security, but in eyes of my constituents, it is equally important. We 
must be able to monitor flights as they come in and out of every 
airport in the country. Eagle County Airport, in my home state of 
Colorado is in desperate need of an upgraded radar system in order to 
accommodate the increasing number of large commercial flights landing 
and taking off from this airport, especially in inclement weather with 
low visibility. The ASR-11 was slated to be the radar for this airport, 
however concerns over the radar's viability have halted its 
installation. I understand that my colleagues, Senator Murray and 
Senator Stevens are also in need of the ASR-11 or a viable alternative 
in their own states. What is the Department doing to develop the ASR-11 
or comparable radar that will be available in the immediate future?
    Answer. (FAA) We share your view that safety is the most important 
factor in determining how operations are handled at this airport. Air 
traffic procedures have been established to assure that safety is not 
compromised. The Denver Air Route Traffic Control Center utilizes long-
range radars to vector aircraft to approximately 1,500 feet above 
ground level in the vicinity of Eagle County Airport. In poor 
visibility conditions, special procedures limiting the number of 
aircraft operations at the airport are implemented to assure safety.
    The Federal Aviation Administration (FAA) uses benefit-cost 
analyses as a tool to help determine how best to utilize its resources. 
These analyses support those projects that provide the greatest benefit 
to the greatest number of aviation users. A benefit-cost study 
conducted for Eagle County indicated that the benefits of an Airport 
Surveillance Radar, Model 11 (ASR-11) radar system are significantly 
less than the cost of such a system.
    The ASR-11 is a digitized radar that is being jointly procured by 
the FAA and the Department of Defense (under a DOD contract 
administered by the Air Force). The FAA's intent was to buy off-the-
shelf radars (non developmental item) to replace the existing, aging, 
ASR-7 and ASR-8 radar systems that are approximately 30 and 25 years 
old, respectively. The FAA will be installing 112 ASR-11 systems into 
the National Airspace System by 2008. This new digital radar has 
greater capability than the system(s) it replaces, and is designed to 
be compatible with, and operate in conjunction with, the Standard 
Terminal Automation Replacement System (STARS). The contract for the 
procurement of ASR-11's will permit the FAA to buy additional systems 
in the future should they prove to be cost beneficial.
                   cross-check of passenger identity
    Question. As you may know or have read, two of the accused 
hijackers were listed on the FBI's list of terrorists to watch. We know 
that these men were on the planes because their names were listed on 
the flight manifests. Somehow, some way, these men were able to 
purchase tickets and board a plane despite the fact that they were on 
an FBI list of terrorists without any second glances. It is so easy to 
check whether a person is using a stolen credit card or trying to cash 
a bad check or has bad credit. Why is it so difficult to have a cross-
check system, not only with the FBI, but with all law enforcement 
agencies, to see if there are any threatening or suspicious people 
purchasing tickets or checking onto our nation's airplanes?
    Answer. (TSA) Presently, the existing law enforcement databases do 
not have the technical capability to interact with each other nor with 
private industry [airlines]. There are four main reasons that make 
information checking between agencies difficult; (1) different 
operating systems; (2) different types of data storage; (3) different 
types of computer hardware; and (4) interaction with private industry. 
Thus, technically, the current sharing of data amongst government 
agencies and private industry is extremely difficult.
    Question. Has there been any progress made on developing such a 
cross-check system?
    Answer. (TSA) Presently, the U.S. Intelligence Community provides 
threat information, which includes names of suspect persons to the TSA/
FAA 24-hour Intelligence Watch. The TSA/FAA Intelligence Office works 
closely with the producer agency to develop appropriate unclassified 
versions of the information, which may be used throughout the aviation 
security system. That information is then provided to the air carriers. 
The air carrier security departments use the information to identify 
suspect individuals who may make reservations or attempt to fly and 
alert appropriate law enforcement authorities. TSA/FAA continues to 
work with U.S. law enforcement and intelligence agencies and with the 
air carriers to refine the way in which this type of information is 
used.
    Further, the architectural design of the CAPPS II [Computer 
Assisted Passenger Pre-Screening System] will allow for the capability 
of cross-checking against any law enforcement agency database made 
legally available to the system. We continue to work with various 
government and law enforcement agencies and legal counsel in this 
endeavor.
                          fixed base operators
    Question. During a previous hearing with Administrator Garvey, 
Senator Kohl and I raised questions about the security of the fixed 
base operator, or FBO, at airports around the country. As it stands 
now, I could drive out to Manassas, rent a wet or dry plane myself, and 
fly anywhere or into anything I want to. This is not to mention that 
fuel trucks just sit around to sides of building there, just waiting 
for something to happen. What types of security measures can you take 
to make sure that the FBO is as secure as a commercial airport?
    Answer. (TSA) There are a number of changes that could be 
implemented to assure the security of airports that are served by Fixed 
Base Operators. Of course, any such plans would be subject to a grant 
of the necessary legislative or regulatory authority to issue rules 
that would address previously unregulated activities or facilities such 
as an FBO.
    Fixed Base Operators are an important part of the allied aviation 
industry. In some case, the Fixed Base Operator is the heartbeat of the 
airport. Not only does the FBO offer services and facilities for pilots 
and aircraft, FBOs often function as private air terminals, albeit on a 
much smaller scale than their commercial airport counterparts that 
provide the operating environment for large passenger carrying aircraft 
operations.
    Because of this critical role, FBOs could be brought under the same 
umbrella of security requirements that apply to the facilities where 
commercial passengers are processed. Comprehensive security plans that 
address access to facilities and aircraft, identification systems that 
determine who and what vehicles may move across airport ramps; and the 
requirements for security services or law enforcement presence are just 
a few of the improvements that could be implemented to the large number 
of general aviation airports that have FBOs as their focal point.
    This level of regulation and control would obviously need to be 
tailored to the type and level of service.
    Question. Have you taken any such measures so far?
    Answer. (TSA) Yes, as a voluntary measure the general aviation 
community was provided with a set of advisory instructions following 
the Following the September 11, 2001, multiple terrorist attacks. 
Public and private airport operators were provided with a circular to 
address basic security responsibilities and to raise the level of 
security awareness for the foreseeable future. It addressed procedures 
for notifying law enforcement about suspicious activities.

    Chairman Byrd. The committee will resume its hearings.
    The committee is pleased to have appear before it this 
afternoon, lacking about 5 minutes, Tommy Thompson, Secretary 
of Health and Human Services, and we appreciate very much your 
appearance, Mr. Secretary, as we continue to examine the 
President's homeland security budget request.
    At the committee's first round, we heard from several 
mayors and representatives of local government organizations. 
What they reported to us was not comforting. According to one 
of our witnesses, the National Association of Counties recently 
conducted a survey of county health departments and found that 
fewer than 10 percent of the county health departments in this 
country are fully prepared to deal with a bioterrorism crisis 
in their communities.
    We were told flat out that the majority of county hospitals 
do not have the capacity to deal with a surge of casualties 
such as might be expected from a bioterrorism attack. One mayor 
reported that an emergency management official in one rural 
county had a three-point plan to cope with bioterrorism attack, 
(1) pick up the phone and call for help, (2) hope that somebody 
comes, (3) stack the body bags in the gym.
    Mr. Secretary, it is clear that our local communities need 
a significant amount of help from the Federal Government if 
they are to be prepared to cope with a bioterrorism attack. It 
is clear that we must do more to expand the capacity of 
Federal, State, and local labs to detect bioterrorism attacks 
and to test samples for dangerous pathogens. The committee 
looks forward to hearing from you as to the assistance that the 
Department of Health and Human Services is providing, how you 
are helping our local communities to improve their ability to 
respond to such crisis.
    We will first have your statement, and then I will turn to 
Senator Harkin, who is the chairman of the appropriations 
subcommittee that immediately has your Department under its 
jurisdiction, and Senator Specter, the ranking member of the 
subcommittee will be here shortly. After we complete your 
statement and turn to those two Senators for questions, the 
Chair may have some questions and the ranking member of the 
full committee. Senator Harkin will be limited to 10 minutes, 
Senator Specter will be limited to 10 minutes, other Senators 
will be limited to 5 minutes each.
    The Chair apologizes to you for the length of time you have 
been waiting. We appreciate your patience, and we thank you 
very much for your appearance here, and we thank you for what 
you are doing to deal with this major problem that confronts 
our country. Why don't you begin. Your entire statement will be 
included in the record as though read. You may read it, or you 
may summarize it, whichever you prefer.
STATEMENT OF HON. TOMMY THOMPSON, SECRETARY OF HEALTH 
            AND HUMAN SERVICES, DEPARTMENT OF HEALTH 
            AND HUMAN SERVICES
    Secretary Thompson. Thank you, Chairman Byrd, Senator 
Stevens, members of the committee. I first want to thank you 
for inviting me here today to discuss the President's fiscal 
year 2003 homeland security request. As well as the efforts of 
my Department of Health and Human Services to continue our 
preparation for bioterrorism attacks, you have all been strong 
advocates for building America's readiness, and on behalf of 
President Bush and on my own behalf, I thank you so very much 
for your support.
    Senator Byrd, let me express my condolences on the death of 
your beloved dog, Billy. Lord Byron wrote of his own dog that 
he had----
    Chairman Byrd. That is a great quote by Lord Byron. Please 
read it into the record.
    Secretary Thompson. Beauty without vanity, strength without 
insolence, courage without ferocity. I know you felt that way 
about Billy, Mr. Chairman.
    Chairman Byrd. That is not quite all of the quotation, but 
please include it, or I will. Thank you very much.
    Secretary Thompson. I shortened it, Mr. Chairman, because 
of the luxury of time, sir.
    Chairman Byrd. That is one statement that should not be 
shortened.
    Secretary Thompson. As someone who has owned many dogs 
throughout my life, please know that I understand your sorrow.
    Let me begin by noting our progress on bioterrorism 
preparedness funding to date. Within 3 weeks after the 
President signed the supplemental appropriation on January 10, 
the Department of Health and Human Services put together a 
program and structure for dispensing $1.1 billion to the States 
for public health system improvements. We gave States 20 
percent of their share of the $1.1 billion program immediately, 
and asked them to send us by April 15 their proposals for 
spending the remaining 80 percent to build a stronger, more 
unified public health system.
    The vast majority of those plans came in last week, Mr. 
Chairman and members. We are reviewing them. We have given 10 
extensions to three States and seven territories, and given 
them until May 15 to prepare their proposals. We now have 11 
teams in place reviewing the submitted plans. We will approve 
and modify them and release the funds by the end of this month.
    The fiscal year 2003 bioterrorism budget request for HHS is 
$4.3 billion, an increase of $1.3 billion, or 45 percent above 
fiscal year 2002. This request constitutes the largest one-time 
spending increase in bioterrorism preparedness ever, and I 
believe we have set up our preparedness program more rapidly, 
Mr. Chairman, than any comparable Federal program has ever been 
recognized or organized.
    These efforts are evidence of the President's commitment 
and my own to make sure that our country is ready to respond 
effectively and immediately should an attack occur. The 
President's budget supports a variety of activities to prevent, 
identify, and respond to incidents of bioterrorism. These 
include epidemic detection, response, maintaining security in 
the national pharmaceutical stockpile, performing research to 
improve our methods, training in health care service delivery, 
and assisting our State, local, and other Federal partners in 
improving our capability in order to respond to an emergency.
    We continue, Mr. Chairman, to get stronger every day, and I 
am extremely proud of the progress we have made with your 
support. In short, we are building a cohesive public health 
system and doing so faster than many people thought possible.
    The fiscal year 2003 budget request, $1.5 billion to fund 
State and local preparedness activities, such as improving, as 
you indicated, laboratory capacity, enhancing epidemiological 
and surveillance capacity, and improving communications 
systems.
    Of this unprecedented request, $518 million is going to be 
used to build hospital preparedness, to upgrade treatment in 
infection-controlled areas, expend medical surge capacity, and 
purchase decontamination equipment. Strengthening our public 
health and medical systems and improving the coordination with 
first responders is absolutely our highest priority. We have 
moved quickly, and an unprecedented amount of money has been 
made available to States in a very short period. This is 
indicative of commitment to move faster and build quickly.
    The fiscal year 2003 budget also includes $184 million to 
construct, repair, and secure facilities at the CDC, of which 
$120 million is for facilities directly related to bioterrorism 
research.
    We are ensuring a ready supply of essential vaccines, and a 
robust national pharmaceutical stockpile. State and local 
public health workers and hospitals must have access to 
adequate supplies of medicines, and must be trained to receive 
and distribute these essential supplies once they are 
delivered, so we purchased enough antibiotics to treat 20 
million individuals exposed to anthrax, and enough smallpox 
vaccine for every American. With the recent donation of 
smallpox vaccine by Aventis Pasteur, we can respond in an 
emergency even sooner than I had earlier anticipated.
    Thanks to all of your support in the fiscal year 2002 
appropriation, tremendous progress has been made, yet even with 
this progress we still have a lot of work left to do. We must 
invest in the development of new drugs, vaccines, and 
diagnostic procedures. The biomedical research enterprise of 
this Nation is one of our greatest assets in the war against 
terrorism, and the President's request for the National 
Institutes of Health is $1.7 billion for these research 
activities.
    Mr. Chairman, I was also personally troubled when I took 
over this job by the challenges faced by the FDA to ensure the 
safety and security of our food supply. For this reason, I 
requested emergency funding last year to increase inspection at 
our ports and across America.
    With the funds this committee provided, and I thank you for 
that, we are now in the process of hiring 645 new field staff 
for food safety. Hiring and training these new inspectors is 
FDA's top priority. I am very pleased to be able to report to 
you today that FDA, as of today, has hired 624 of the 655 
already, and just 3 months after these funds were provided, as 
these inspectors are trained, FDA will double physical 
examination of food imports in fiscal year 2002 and double them 
again in fiscal year 2003. We have also asked for an additional 
$17 million just for food safety, above the 2003 request.
    While food safety has been FDA's most visible role in 
protecting against bioterrorism, I have also asked for an 
additional $5 million for blood safety efforts. FDA must expand 
its capacity to ensure the availability of safe blood and blood 
products at the time of an emergency.
    Finally, let me note, Mr. Chairman, that we also have 
strong relationships with our Federal counterparts, most 
notably homeland security. Tom Ridge and I have a very strong 
working and personal relationship going back to our days as 
Governors. We and our teams have worked well together, and I am 
very pleased with our working relationship with Justice, the 
FBI, and Defense. We work closely together, and we share 
information effectively.
    It was Theodore Roosevelt who reminded us that, in his 
words, the chief factor in achieving triumph is what has been 
done in thorough preparation and training before the beginning 
of the war. It is also our hope that our terrorist enemies will 
not strike again, but if they do, we are following Teddy 
Roosevelt's counsel. We will be ready.
    Mr. Chairman, Senator Stevens, members of the committee, 
thank you again for your attention to these most serious 
matters, and for your support of the Administration's efforts. 
I would be pleased now to answer questions you might have.
    [The statement follows:]
                Prepared Statement of Tommy G. Thompson
    Good morning, Chairman Byrd, Mr. Stevens and Members of the 
Committee, thank you for inviting me here today, to discuss the 
President's fiscal year 2003 request for bioterrorism preparedness 
efforts in the Department of Health and Human Services (HHS). I am 
confident that a review of the full details of our budget will 
demonstrate that we are proposing a balanced and aggressive approach to 
ensuring the safety of our nation, and improving our ability to deal 
with the public health consequences of bioterrorism and other public 
health threats and emergencies stemming from a terrorist attack.
    The fiscal year 2003 bioterrorism budget request for HHS is $4.3 
billion, an increase of $1.3 billion, or 45 percent, above fiscal year 
2002. Of this amount, $2.3 billion is requested in the Public Health 
and Social Services Emergency Fund, $1.75 billion in the National 
Institutes of Health, $120 million in the Health Facilities 
Construction and Management Fund for the Centers for Disease Control 
and Prevention facilities, and $159 million in the Food and Drug 
Administration.
    Under the Federal Response Plan, HHS is the lead agency within the 
Federal government for addressing the medical and public health 
consequences of all manner of mass casualty events whether terrorist-
induced, accidental, or naturally occurring. This budget supports a 
variety of activities to prevent, identify, and respond to incidents of 
bioterrorism. These include epidemic detection and response; 
maintaining and securing the National Pharmaceutical Stockpile; 
performing research to improve our methods, training, and health care 
service delivery; and assisting our State, local and other Federal 
partners in improving our capability to respond to an emergency.
    These activities are administered through the Centers for Disease 
Control and Prevention (CDC), the National Institutes of Health (NIH), 
the Office of Emergency Preparedness (OEP), the Health Resources and 
Services Administration (HRSA), the Substance Abuse and Mental Health 
Services Administration (SAMHSA), the Agency for Healthcare Research 
and Quality (AHRQ), and the Food and Drug Administration (FDA).
    I take preparedness efforts very seriously. That is why I created 
the Office of Public Health Preparedness (OPHP) within the Office of 
the Secretary to direct and coordinate the Department's activities, and 
recruited as its first Director Dr. Donald A. Henderson, an 
internationally acclaimed leader in public health. In addition to the 
Office of Public Health Preparedness' role in improving the management 
and coordination of HHS's bioterrorism response, it has served as 
liaison with key organizations outside HHS, such as the White House 
Office of Homeland Security and the academic and industrial 
communities.
State and Local Public Health Capacity (CDC)
    Our State and local public health system is our first line of 
defense against bioterrorism--both in terms of detecting a silent 
release, and coordinating a response if an attack is detected. In order 
to create a blanket of preparation against bioterrorism, the fiscal 
year 2003 budget provides $940 million in funding to State and local 
health departments to improve laboratory capacity, enhance 
epidemiological expertise in the identification and control of diseases 
caused by bioterrorism, and provide for better electronic communication 
and distance learning. This will continue the unprecedented infusion of 
funds provided this year for State and local health departments and 
their partners to equip and train themselves to respond to potential 
acts of bioterrorism and other public health threats and emergencies 
stemming from a terrorist attack.
    Priorities for the use of these funds include: a fully staffed, 
fully trained, and properly protected public health workforce; 
strengthened public health laboratory capacity; increased surveillance 
and epidemiological capacity; secure, up-to-date information systems; 
and solid health communication capabilities.
    We have already made a good start, but have far to go. According to 
an October 2001 survey to assess local preparedness for bioterrorism 
conducted by the National Association of County and City Health 
Officials: 20 percent of local public health agencies already had 
comprehensive response plans in place; 75 percent of local health 
officials indicated they were fairly or somewhat prepared for the many 
roles they are now being expected to play; and only 9 percent indicated 
that they were not prepared at all.
    We all saw how overburdened local, State, and Federal labs were 
after the anthrax attacks, and the fear of more attacks. Improving the 
Laboratory Response Network is a key part of our investment. This 
effort enhances a system of over 100 public health labs specifically 
developed for identifying pathogens that could be used for bioterrorism 
and supports their linkages to local clinical microbiology 
laboratories.
    My request will further expand the rapid and secure communications 
that are crucial to ensuring a prompt and coordinated response to an 
intentional release of a biological agent. Strengthening communication 
among clinicians, emergency rooms, infection control practitioners, 
hospitals, EMS, pharmaceutical companies, public health personnel and 
first responders is of paramount importance. To this end, CDC is making 
a significant investment in building the nation's public health 
communications infrastructure and is enhancing the Health Alert Network 
(HAN), a nationwide program to establish internet communications via 
connectivity with public health departments in at least ninety percent 
of our nations' counties.
    The CDC will also enhance the communication backbone for next-
generation disease surveillance, via the National Electronic Disease 
Surveillance System (NEDSS). NEDSS is an initiative to promote the 
adoption of data and information system standards needed for efficient, 
integrated, and interoperable disease surveillance systems at the 
Federal, State and local levels; these standards are based on those 
used in clinical medicine. NEDSS and HAN are well coordinated on 
several fronts--connected on the Internet, developing consistent 
standards for States, building an information infrastructure, and 
training the public health work force.
    These systems will assist, but never replace, the interaction of 
alert clinicians and well trained public health epidemiological 
response and outbreak control staff. We saw how that interaction worked 
in Florida in identifying the first case of inhalational anthrax, and 
how improvements were needed where several anthrax cases were not 
diagnosed in a timely manner. The funds I request will enable State and 
local health departments to improve their interaction with the clinical 
providers, provide essential information and training, and 
significantly expand epidemiological capacity. This essential 
combination of electronic and human systems will provide for more rapid 
detection of unusual outbreaks of illness that may be the result of 
bioterrorism, and facilitate a robust response that protects our 
citizens.
    The Department will continue to develop and enhance workplace 
safety, personal protective equipment and occupational safety and 
health procedures and training to safeguard workplaces targeted by 
terrorist threats as well as the first responders on scene and the 
emergency responders within the health care system.
    With the funding you have already provided, and the funding 
requested in the fiscal year 2003 budget, I look forward to telling you 
when I appear before you next year about the progress we as a Nation 
have made toward a robust public health infrastructure.
Hospital/Medical Preparedness
    Our medical system must work hand in glove with the public health 
system in both detection of bioterrorist attack, and treatment of its 
victims. HRSA is responsible for leading this aspect of preparedness. 
HRSA will operate five programs which are requested under the Public 
Health and Social Services Emergency Fund in fiscal year 2003 for a 
total of $618 million. These programs will assist the Nation in 
preparing for possible Bioterrorism and other attacks. HRSA will 
continue the Hospital Preparedness program begun in fiscal year 2002. 
$235 million, an increase of $100 million, is requested to continue 
cooperative agreements with health departments in States and other 
eligible entities to care for victims of bioterrorism by: upgrading the 
capacity of hospitals, outpatient facilities, emergency medical 
services systems, and poison control centers. To address hospital 
infrastructure development for laboratories, infection control and 
decontamination issues, HRSA will use $283 million to: (1) ensure 
adequate hospital laboratory capacity to diagnose and report on 
potential biological and chemical agents that might be used by 
terrorists; (2) help hospitals improve their capabilities to control 
infection; and (3) assist hospitals with the purchase of personal 
protective equipment, infectious disease containment systems and other 
equipment for decontamination of biological and chemical agents.
    HRSA will operate the new Educational Incentives for Curriculum 
Development and Training Program at a level of $60 million. HRSA will 
work with its partners in medical training and at CDC to ensure that 
the workforce of public health and healthcare professionals is properly 
equipped with the knowledge, skills and abilities to recognize 
indications of a terrorist event in their patients; treat their 
patients in a safe and appropriate manner; and rapidly and effectively 
alert the public health system. Working with HRSA, CDC and FDA will 
provide support for a series of exercises to train public health and 
hospital workers to work together to treat and control bioterrorist 
outbreaks.
    HRSA will continue to operate the Emergency Medical Services for 
Children Program at a level of $19 million. This program will maintain 
support assisting States to improve care, as well as enabling States to 
promote regionalized care and develop systems improvements ensuring all 
components that an effective EMS system is in place for children.
    HRSA will also continue to operate the Poison Control Center 
program, a vital part of the continuum of necessary emergency services 
needed by all Americans facing the threat of bioterrorism. Poison 
Control Centers will continue to enhance expert services to inquiries 
regarding bioterrorism, especially related to chemical exposures. This 
program will operate at a level of $21 million.
Coordination of State and Local Funding--HRSA and CDC
    I have made it a top priority to ensure that our public health and 
clinical medical systems work seamlessly to protect our citizens. So 
while our public health and hospital preparedness programs are operated 
by two different agencies, we in the Office of the Secretary, and HRSA 
and CDC are working closely with the States to ensure integration of 
our efforts at all levels. We asked States to develop their public 
health and hospital preparedness plans in tandem. As we review those 
plans, we are looking not just for completeness, but how well States 
and locals are working together, as well as collaboration between HRSA, 
CDC, and OEP. HRSA has encouraged a regional collaboration, and some 
states have indicated this is in place or will be in place in the near 
future.
    Since we first sent formal guidance to States on February 19, State 
and local public health officials have been actively developing work 
plans for enhancing State and local bioterrorism preparedness of their 
health departments and hospitals. The deadline for receipt of these 
work plans was April 15. Of the 50 states HRSA received 47 state 
workplans and have granted three extensions, CDC received 48 state 
workplans and have granted two extensions. Of the four municipalities, 
HRSA and CDC have received all four workplans. Of the territories HRSA 
received two workplans and have granted three extensions, CDC received 
one workplan and have granted seven extensions. Our commitment is to 
complete review of State and municipal work plans within 30 business 
days of receipt. The ``clock'' starts when both CDC and HRSA work plans 
are deemed complete, and I have received a letter of endorsement from 
the governor, or mayor in the case of the four municipalities granted 
awards. Once the inter-agency HHS review teams complete their 
evaluations, Dr. Henderson will present their recommendations. Upon my 
approval that each work plan has satisfactorily addressed the critical 
benchmarks defined in the cooperative agreement guidance, all grant 
funds will become available to the States.
Federal Response Capacity
    We must complement this strengthening of public health and medical 
systems with expanded Federal capacity, and improved coordination with 
first responders. For this work, the Budget includes $159 million for 
CDC response capacity (+18 percent), $120 million in bioterrorism 
funding for CDC facilities, and $150 million for coordination and 
response funding in the Office of the Secretary. I think we all 
understand the importance of a strong, vibrant CDC bioterrorism 
capacity. CDC deployed 588 employees in response to the World Trade 
Center event and the anthrax investigation, and several hundred CDC 
staff assisted from their regular posts. The request for CDC's internal 
capacity will create laboratory capacity to rapidly detect and identify 
agents of terrorism. It will also expand CDC capacity to identify a 
terrorist attack and deploy personnel, stockpile assets, and other 
resources in response. It will expand the number of Epidemic 
Intelligence Service officers, by providing a Federal Epidemiologist 
officer in every State, provide for 24/7 surveillance and response 
operations at CDC, and fund safety inspections and consultations for 
labs handling select biological agents.
    The fiscal year 2003 budget also includes $184 million to 
construct, repair and secure facilities at the CDC, of which $120 
million is bioterrorism funding. Priorities include the construction of 
an infectious disease/bioterrorism laboratory in Fort Collins, 
Colorado, and the completion of a second infectious disease laboratory, 
an environmental laboratory, and a communication and training facility 
in Atlanta. This funding will enable the CDC to handle the most highly 
infectious and lethal pathogens, including potential agents of 
bioterrorism. Funding will also be allocated to the ongoing maintenance 
of existing laboratories and support structures. My request funds all 
the new infectious disease and environmental health laboratory needs 
that CDC has identified to me.
    The Office of the Secretary carries out three key roles: HHS is 
requesting $107 million for the Office of Emergency Preparedness, $33 
million for activities coordinated by the Office of Public Health 
Preparedness, and $10 million for work to protect the Department's 
information technology infrastructure from cyber-terrorist attacks.
    I am requesting funds to both expand the efforts of OEP, and 
integrate them with our public health and hospital preparedness 
efforts. The request for OEP would complete the 25 new Metropolitan 
Medical Response Systems (MMRS) begun in fiscal year 2002, reaching the 
planned total of 122. Funds will also further improve the readiness of 
the Disaster Medical Assistance Teams, and National Disaster Medical 
Systems assets OEP manages. The new Citizen Preparedness effort for 
which we request $10 million will seek to recruit retired and inactive 
medical professionals to help respond to potential attacks, and will be 
an integral part of our hospital preparedness activities.
    I have asked OPHP to both oversee bioterrorism activities 
Department-wide, and fund several cross-cutting activities. These 
include the National Security Early Warning Surveillance activity that 
would deploy epidemiologists to several international population 
centers to provide early warning to the United States, work with the 
major media networks on how to cover bioterrorism events without 
inciting panic, and develop multi-disciplinary response teams.
Pharmaceuticals and Vaccines
    An important part of the war against terrorism is having a ready 
supply of essential vaccines and a robust National Pharmaceutical 
Stockpile. If a bioterrorism attack occurs, our State local public 
health workers and hospitals must have access to adequate medicines. My 
goals for the pharmaceutical and vaccine stockpiles include:
  --Antibiotics for anthrax.--Maintain a sufficient quantity of 
        antibiotics to care for 20 million exposed individuals; these 
        antibiotics are also available for other agents, such as plague 
        and tularemia.
  --Anthrax vaccine.--Procure up to 25 million doses of a next-
        generation anthrax vaccine currently under development.
  --Smallpox.--Have sufficient stockpiles of vaccine (and treatment for 
        vaccine side effects) to immunize the entire population in the 
        event of an attack.
  --Rapid deployment.--Federal, State, and local governments are 
        prepared to distribute NPS assets if deployed.
    Thanks to your support in the fiscal year 2002 appropriation, 
tremendous progress has been made. The day that appropriation was 
signed into law, we bought 100 million doses of Cipro. You have given 
us the funding we need to order enough quality smallpox vaccine to 
protect all Americans. With the recent donation of some 1950's smallpox 
vaccine by Aventis, we can respond in an emergency even sooner than I 
had anticipated. We have also given States the first round of grants to 
prepare themselves to be able to use these resources in an emergency.
    Even with this progress, we still have more work to do. That is why 
the Budget includes $650 million for procurement of vaccines and 
pharmaceuticals, stockpile management, and related preparedness 
activities. My request includes $300 million for the National 
Pharmaceutical Stockpile in CDC to procure additional pharmaceuticals 
to treat critical biological agents, ensure the proper storage and 
maintenance of these assets, and improve Federal, State, and local 
preparation to use them effectively. For smallpox, we are asking for an 
additional $100 million for CDC to buy vaccinia immune globulin (VIG) 
that would be needed to treat adverse reactions to the smallpox 
vaccine, continue work needed to license the new smallpox vaccine, and 
manage the vaccine stockpile. We also need a new anthrax vaccine. NIH 
is working on that research now, and NIH's fiscal year 2003 request 
includes $250 million for procurement of a next-generation vaccine.
NIH Research
    While we stockpile the pharmaceuticals and vaccines that are 
available today, we must also make major investments in the development 
of new drugs, vaccines, and diagnostic procedures. Over the long term, 
the biomedical research enterprise of this Nation is one of our 
greatest assets in the war against terrorism. My bioterrorism request 
for the National Institutes of Health is $1.75 billion, including the 
$250 million for anthrax vaccine. The request includes $977 million for 
basic and applied research, $150 million for construction and 
renovation of extramural BioSafety Level (BSL) 3/4 facilities and $371 
million for new NIH-owned BSL 3 and 4 facilities and physical security 
improvements to the NIH campuses. This $1.75 billion request is over a 
six-fold increase above NIH's bioterrorism spending in fiscal year 2002 
and represents approximately 40 percent of the total NIH increase for 
fiscal year 2003.
    NIH's bioterrorism research plan calls for NIH to: (1) expand basic 
research on the physiology and genetics of potential bioterrorism 
agents, the immune system function and response to each potential 
agent, and the pathogenesis of each disease; (2) accelerate discovery, 
development, and clinical research of next generation vaccines, 
therapies, and diagnostic tests, such as those using zebra chip 
technology, for potential bioterrorism agents; and (3) expand research 
infrastructure at both the intramural and extramural levels in order to 
be able to conduct this research in safe and up-to-date facilities. 
Examples of research areas include a third generation smallpox vaccine 
that could be used in all segments of the population, including 
pregnant women and people with weakened immune systems. NIH is carrying 
out research essential to developing drugs to treat potential 
bioterrorism agents, and develop vaccines for a broader range of threat 
agents, such as ebola.
    At the heart of the NIH bioterrorism research plan is the 
establishment of a series of extramural Centers of Excellence for 
Bioterrorism and Emerging Infections, which will provide researchers 
with specialized equipment and tools, including biosafety level (BSL) 3 
or 4 research laboratories; and conduct specialized research training. 
Another initiative is the use of challenge grants to attract the long-
term interest and support of industry and academia in developing 
biomedical tools to combat, detect, and diagnose diseases caused by 
bioterrorism agents.
    These investments will help protect the nation from bioterrorism, 
and will have many positive ``spin-offs'' for other diseases. The 
planned NIAID research on microbial biology and on the pathogenesis of 
organisms with bioterrorism potential will certainly lead to an 
enhanced understanding of other more common and naturally occurring 
infectious diseases that afflict people here and abroad. In particular, 
the advancement of knowledge should have enormous positive impact on 
our ability to diagnose, treat and prevent major killer-diseases such 
as malaria, tuberculosis, HIV/AIDS, and a spectrum of emerging and re-
emerging diseases such as West Nile fever, dengue, influenza, and 
multi-drug resistant microbes. Furthermore, and importantly, the NIAID 
research agenda on counter-bioterrorism will greatly enhance our 
understanding of the molecular and cellular mechanisms of the innate 
immune system and its relationship to the adaptive immune system. This 
clearly will help in the search for new ways to treat and prevent a 
variety of immune-mediated diseases such as systemic lupus 
erythematosus, rheumatoid arthritis and other autoimmune diseases. In 
addition, new insights into the mechanisms of regulation of the human 
immune system will have positive spinoffs for diseases such as cancer, 
immune-mediated neurological diseases, allergic and hypersensitivity 
diseases, as well as for the prevention of rejection transplanted 
organs.
FDA Regulatory Oversight
    My request of $159 million for the Food and Drug Administration 
reflects the President's commitment to promote and protect the public 
health by ensuring that safe and effective products reach the market in 
a timely way, and to monitor products for continued safety after they 
are in use. This includes $98 million for food safety, $54 million for 
work on vaccines, drugs, and diagnostics, and $7 million to continue 
security improvements. Funding will build upon the activities begun in 
fiscal year 2002 for the safety of imported foods through expanded 
inspection and surveillance of imports; and activities related to 
medical products, including measures to help patients exposed to 
terrorist agents such as anthrax, smallpox and plague.
    I brought to you my concern for the safety of our imported food 
supply this past year, and I applaud you for your response. With the 
funds you provided, we are in the process of hiring 635 new field staff 
for food safety. Hiring and training these new staff is one of FDA's 
top priorities, and I am proud to tell you that FDA hired two-thirds of 
these new people by April 12, just three months after these funds were 
enacted. As these staff come on board and come up to speed, FDA will 
double physical examinations of food imports in fiscal year 2002, and 
double them again in fiscal year 2003.
    Funding will be used for the field's Operational and Administrative 
System for Import Support, OASIS, and computer software, including a 
real-time interface with multi-agency import databases to help target 
inspection resources and secure electronic communications. Funding will 
also be used for equipment for State laboratories to participate in the 
Electronic Laboratory Exchange network (eLexnet) and exchange 
information on select agents. Mobile laboratories will also be designed 
and purchased to enhance import capability along with the purchase of 
rapid detection instruments needed for rapid analysis of suspect foods 
for select agent toxins.
    To further stretch these human and financial resources, FDA will 
emphasize those types of examinations that will increase the likelihood 
of detecting intentional acts of potential terrorism, such as looking 
for inconsistencies between shipping documents and the physical 
product, evidence of tampering, substitution, counterfeiting, or 
suspicious or damaged merchandise. Also, additional samples will be 
collected and analyses will be performed to detect toxins, poisons and 
microorganisms.
    In addition, the new authorities included in the Bioterrorism 
legislation currently under consideration will substantially strengthen 
FDA's ability to protect the food supply and make the dollars you 
provide go further. The first key food safety provision would grant new 
authority to detain food in order to prevent potentially contaminated 
foods from entering into commercial channels. Currently the FDA cannot 
require the owners of food to hold distribution until a product's 
safety can be determined. This provision will ensure that we can 
quickly move to protect Americans in case of a future emergency. 
Another provision would allow the FDA to debar importers who refuse to 
play by the rules and repeatedly import adulterated foods into this 
country. A third provision would require importers to give the agency 
advance notice that their shipments are approaching U.S. borders. These 
new authorities will enhance FDA's efforts to protect the public 
health.
    While food safety has been FDA's most visible role in protecting 
against bioterrorism, its other roles are just as essential. My request 
includes an added focus on blood safety, with an increase of $5 million 
for this work. FDA must expand its capacity to ensure the availability 
of safe blood and blood products at the time of an emergency.
    As we seek to rapidly develop, produce, and procure 
pharmaceuticals, FDA must have the resources to provide close 
consultation and rapid regulatory review of drugs, diagnostic tests, 
and vaccines. FDA's role is to work with other agencies and the private 
sector to ensure that the pharmaceuticals and vaccines we buy are 
effective. Many of these products are still investigational--or the 
uses of them are. FDA needs the resources to work closely with CDC as 
we seek to move drugs rapidly from investigational to approved status. 
To accomplish this work, FDA must in some cases develop new regulatory 
models, as it would not be ethical to expose individuals to 
bioterrorist agents to test pharmaceuticals.
SAMHSA
    At my request, last November SAMHSA convened a national summit, 
``When Terror Strikes: Addressing the Nation's Mental Health and 
Substance Abuse Needs--Strengthening the Homeland Through Recovery, 
Resilience and Readiness''. This summit helped bring focus to the 
mental health problems arising from a bioterrorism or other traumatic 
event. The fiscal year 2003 budget includes $10 million to assist State 
and local organizations in developing solutions to these unique mental 
health problems. These funds would focus on the following elements: 
technical assistance to States to assist them in incorporating 
bioterrorism readiness and response into their State emergency 
preparedness planning; behavioral health triage in health care 
settings, bioterrorism crisis intervention, and dissemination of 
knowledge to public officials to prepare them in averting widespread 
public fear and panic, fear-induced overutilization of health care 
facilities and loss of confidence in public institutions.
Conclusion
    As you can see, we have made substantial progress to date in 
enhancing the nation's capability to respond to biological or chemical 
acts of terrorism. I thank you for the resources you made available 
this year, and look forward to working with you to further strengthen 
our defenses against bioterrorism.
    Mr. Chairman, that concludes my prepared remarks. I would be 
pleased to answer any questions you or members of the Committee may 
have.

    Chairman Byrd. Thank you, Secretary Thompson, for your 
statement.
    Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman, Senator Stevens, 
and my great working companion on this subcommittee, Senator 
Specter. I want to thank you for holding these very important 
hearings, Mr. Chairman, and I am pleased to be here today for 
Secretary Thompson's testimony on homeland defense.
    As the chairman of the Labor, Health and Human Services, 
and Education Subcommittee, the homeland defense focus in our 
area is, of course, the area of bioterrorism. Last fall, I 
worked with you, Mr. Chairman, along with Senator Stevens and 
Senator Specter, to develop a bipartisan, $2.5 billion funding 
plan for bioterrorism preparedness.
    I am pleased that the President signed our plan into law in 
January. We put the bulk of the funding, $1 billion, into 
improving our first responders at the State and local level. 
This money will help upgrade our public health departments, 
beef up local lab capacity, and help hospitals train staff and 
build much-needed surge capacity.
    A few weeks ago, Mr. Secretary, I had a conference call 
with bioterrorism experts and first responders in my State of 
Iowa about their preparedness training and planning. They told 
me that while these funds are an important first step, much 
more remains to be done. They told me that our public health 
infrastructure needs better coordination. It requires more 
personnel at the local level, as well as improved 
communications, and they really hit hard on the communications 
aspect.
    While the earlier funding marked a major step forward, I 
think we clearly have much further to go to prepare America for 
a possible bioterrorist attack, and hearing your comments and 
reading your statement, Mr. Secretary, I want to thank you for 
your great leadership on this. I believe you are pointing us in 
the right direction. I commend you for the guidance and the 
direction you are giving the Department, and for the request 
you have made to us in this Appropriations Committee to help 
you meet your commitments and to do your job in meeting this 
threat of bioterrorism.
    So Mr. Secretary, I want to thank you and all of your staff 
for the great working relationship and communications you have 
had with our staff here. I have always felt we have had a great 
open channel to you and to your staff to make sure that we had 
up-to-date information and good coordination on these policies 
and programs, and I appreciate that very much.
    I just have a couple of questions, Mr. Chairman, that I 
wanted to ask. One has to do with food safety, and you hit hard 
on that in your opening statement. We right now have 12 
different agencies governed by 35 different statutes dealing 
with food safety. Two days ago, the Brookings Institution 
released a report that recommended consolidating food 
inspection into a single independent agency.
    I understand that recently Governor Ridge indicated he is 
looking at combining Federal food safety responsibilities into 
a single agency. Mr. Secretary, I know you have thought about 
this. We have spoken about it. Can you give us your thoughts on 
the fact that we have 12 different agencies and 35 different 
statutes governing food safety, and how we might better control 
this? Also, what are your views on what the Brookings Institute 
had recommended in terms of a single agency?

                              FOOD SAFETY

    Secretary Thompson. Well, thank you, Senator Harkin. I am 
so concerned about this particular subject, as you know, 
Senator Harkin, and I have talked to you personally about it, 
and I thank you for your leadership on it.
    We are not doing a good enough job, and maybe it is because 
it is so dispersed. Maybe it is because Agriculture and the 
Department of Health and Human Services have divided functions. 
There needs to be better coordination without a doubt, and I 
think the more we study this, more recommendations come forth. 
I think the stronger we become, the better off we will be.
    In regards to the Brookings study, I think it should be 
reviewed. I know Tom Ridge is looking at it. I know we are 
looking at it through FDA. I know Ann Veneman is looking at it 
through the Department of Agriculture, and I think these are 
all positive things.
    I know Senator Durbin from Illinois is also passionate 
about this, and I think we should set up a committee and really 
get down and roll up our sleeves and start looking at the 
possibility of either consolidation or better coordination. We 
have good coordination, but I think it can all be improved, and 
we can do a better job, Senator.
    Senator Harkin. Well, thank you, Mr. Secretary, and again, 
we do need your best thoughts and your best input into this. Of 
course we will wait to see what Governor Ridge might recommend 
also, but I really believe that this year we have got to do 
something about moving in that direction. Maybe we cannot do it 
all at once, but we have got to start moving in that direction 
and find some way of coordinating this.
    I keep pointing out, I do not have the exact dollar figures 
in my head, but right now, in terms of food inspection in the 
United States, USDA does about 20 percent of inspecting food. 
FDA does about 80 percent.
    Secretary Thompson. With 20 percent of the resources.
    Senator Harkin. But it is just the other way around with 
the resources. USDA gets about 80 percent of the resources, and 
FDA gets about 20 percent of the resources. Somehow, this has 
got to be worked into a more coherent and streamlined agency.
    I have worked with Senator Durbin. We have drafted 
legislation, and I do not know if that is the exact right way 
to go, but we need the expertise of your Department and others 
on how we can better coordinate this. I hope we can start 
moving, and I think the fact that 9/11 happened, that now 
perhaps we can focus. That event focused our attention, and 
perhaps now we have a really good reason to move more rapidly 
than we ever have in the past on consolidation.
    Secretary Thompson. We have 56,000 sites we have to 
inspect. We have 700 inspectors. We have over 175 points of 
entry into the United States in ports and airports with about 
121 inspectors currently, and it is just impossible. We are 
inspecting less than 1 percent of the food coming in.
    Senator Harkin. One of your recommendations is that when we 
get these imports in, that we be notified ahead of time.
    Secretary Thompson. We want to be notified. We want to be 
able to disbar companies that send in food that is adulterated 
with pathogens, or just plain adulterated. We want to be able 
to disbar them. We want to be able to trace back. We do not 
have those powers right now, and we want to be able to be 
notified when companies are shipping into the United States, 
what they are shipping in, and when they are shipping it in, so 
that if we have some suspicions we can be there.
    We do not have that authority right now, and it is like a 
one-legged person.

                           SMALLPOX VACCINES

    Senator Harkin. I do not think many people in this country 
realize that about 1 percent of the food coming into this 
country is inspected, 1 out of 100. People do not even realize 
that. We have got to do more in that area.
    A last question, and this is on smallpox vaccine. You 
recently announced 85 million more doses exist, and we have 
also heard the existing vaccine can be diluted and still be 
effective. As you know, your Department made a contract with 
Acambis last year to deliver 155 million doses of smallpox 
vaccine later this year. So my question is, is the new smallpox 
vaccine still needed? Do we need that?
    Secretary Thompson. Yes, we do. We have 15.6 million doses 
in inventory right now that we can distil 5 to 1, and this is 
controlled by Wyeth, and then we have just received 85 million 
doses from Aventis Pasteur which was manufactured in 1958. It 
is not quite as potent as the 15.6 million we have from Wyeth, 
but it is very effective. We are going to be doing human trials 
sometime this month, Senator, and we should have a better idea 
at that point.
    We have 54 million doses under contract from Acambis, and 
then 155 million under contract with Acambis-Baxter. This is a 
new vaccine that is being designed in a different way, and 
should be more effective, and they should be delivered, we 
should have 115 million doses delivered by the end of the 
September. It is actually on target, in fact a little bit ahead 
of time, and we should have the full 209 million by the end of 
this year.
    Senator Harkin. Okay. Now, this gets to the area that I 
know you, Mr. Chairman, are concerned about. We want to meet 
the threat, but we do not need to go way overboard. When I add 
this up, I add up 209 million doses of the new vaccine, plus 
163 million doses of the old vaccine, and that gives us----
    Secretary Thompson. It should be about 363 with 286 million 
people.
    Senator Harkin. Do we need that much?
    Secretary Thompson. Yes, we do.
    Senator Harkin. Before you answer that, let me ask, 
regarding the 85 million doses, are they dilutable also?
    Secretary Thompson. We do not think so. We think it is 
already diluted, Senator.
    Senator Harkin. How are we going to find that out?
    Secretary Thompson. We are checking it. We are going 
through inspections right now at FDA, and we are going to do 
human trials. We do not think it can be diluted any further, 
but this is old stuff. This was in 1958.
    Senator Harkin. Assuming that it cannot be diluted, then 
you have got approximately 360 million doses?
    Secretary Thompson. We will have about 363 million, but 
this is added insurance in case the world becomes--if there is 
going to be a smallpox epidemic, which we do not think there is 
a high probability of that, but if there is, we are going to 
have--we have it right now. The 85 million is added insurance 
right now.
    If smallpox hits us right now, we would have enough 
vaccines. The company was very generous, they actually gave the 
vaccines to us for a small amount of money for packaging it and 
storage, and so we feel that it is just added insurance, but 
the new vaccines, we do not think we would give the 85 million 
out at this particular point in time. If we had to, if we got 
the 209 million we would use that first, because it is better, 
and newer. This 85 million doses is just insurance.
    Senator Harkin. Okay, so you think that the additional 
doses are just good insurance. Can I interpret that to mean 
that if there was a smallpox epidemic some place we could use 
that to contain it, perhaps? Are you talking about vaccinating 
people in other parts of the world?
    Secretary Thompson. This is going to have to be a decision, 
but you know as well as I do, if it is going to break out, we 
would want to help contain it immediately, and the 85 million 
doses is there, so we are very fortunate that we found it. We 
are very fortunate the company gave it to us, and we are very 
fortunate to have it as an added insurance right now.
    Senator Harkin. Thank you very much, Mr. Secretary. Thank 
you, Mr. Chairman.
    Chairman Byrd. You say, Mr. Secretary, this will have to be 
a decision. By whom?
    Secretary Thompson. Well, it is going to have to be a 
decision, I presume, by the Department of Health, by the 
Administration, and I presume Congress would want to be 
involved in it.
    Chairman Byrd. What input have you had from the Office of 
Homeland Security in respect to this subject?
    Secretary Thompson. We have not. This is a subject that has 
not been broached as of yet, Senator, because right now, as you 
probably know, we were not expected to get any smallpox vaccine 
until 4 or 5 years in the future. We have now accelerated that.
    I have personally negotiated the contracts, and we have now 
been able to come up with 209 million new doses this year, and 
in the meantime we have done the distillation study on the 15.6 
million we have, and we feel very, very secure about the fact 
that we could actually distil that down 5 to 1, and actually 
some of the experts out at NIH believe it could be 10 to 1 and 
still be able to be covered.
    That is an older vaccine, and now we have the 85 million 
doses which came from Aventis Pasteur, which was actually 
manufactured in 1958. It is not quite as potent as the 15.6 
that is currently in the inventory by Wyeth, and we believe the 
new vaccine from Acambis and Acambis-Baxter will be even 
better, and should be delivered to us by the end of this year. 
In fact, we are expecting 160 million doses of the new vaccine 
by the end of September, Senator.
    Chairman Byrd. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman, and thank you for 
convening these hearings. They just started a vote. I do not 
know that I will be able to get in my full 10 minutes, but 
there are a number of questions I do have for you, Mr. 
Secretary.
    Chairman Byrd. Senator, may I interrupt you? Why don't you 
proceed with your questions and Senator Stevens, perhaps you 
and I could go vote, and we could return in time to relieve 
Senator Specter.
    Senator Specter. That makes me the chairman?
    Chairman Byrd. Yes, for the moment.
    Senator Specter. But I will be chairman all the time you 
are gone.
    Chairman Byrd. You are.
    Senator Specter. Okay. I just want to be sure.
    Mr. Secretary, we are dealing with a matter of the utmost 
seriousness, which we all know, and last year the 
Administration announced they were going to wait until this 
year's budget to face up to the problems of bioterrorism. 
Senator Harkin and I went to work on what produced a 
multibillion appropriation.
    We had a hearing on October 5 in the bowels of the 
Congress, we could not get into our offices at that time, as I 
recall, and we asked CDC what the list of possible threats 
consisted of, what we could do by way of responding in dollars, 
and how long it would take, and we had a terrible time in 
getting an answer, and we were told that CDC had reported to 
HHS, and HHS had reported to OMB, and we have the alphabet soup 
at work, and finally when we had a hearing, getting back into 
this room, we were not given figures, but only the professional 
judgments of the officials at CDC and NIH, and my question to 
you is, what happened there? Why could we not get the 
information in a prompt way and an official way?
    Secretary Thompson. Senator, I am not familiar with the 
question you have asked. I thought for sure we gave you all the 
information immediately. My modus operandi is to give you 
information immediately, Senator.
    Senator Specter [presiding]. Well, we finally got it, but 
it was really, really tough going, and we took the CDC to task, 
notwithstanding our great respect for Dr. Koplan, who I think 
is an outstanding scientist and an outstanding administrator.
    Secretary Thompson. He is a wonderful person.

                      CDC BUILDINGS AND FACILITIES

    Senator Specter. I want to talk to you about him 
personally, but the Centers for Disease Control and Prevention 
in my opinion has not done its job. They are supposed to be the 
center for the control of diseases, and they have never come to 
this subcommittee, and I have been on it 21\1/2\ years, and 
told us what they needed, and Senator Harkin and I have taken 
the lead in providing money for the National Institutes of 
Health, which is very well-known.
    It was our initiative, the initiative of this subcommittee 
which raised NIH from $11 billion to $23 billion, and now the 
President has asked for $3.4 billion more, and when we have 
faced this subcommittee, or the subcommittee has faced health 
needs, we have provided the money, but CDC never came to us and 
I only heard through the Atlanta community about the deplorable 
physical plant of CDC.
    Three years ago I went down to visit it. Senator Harkin did 
the same thing, and in our last year's budget we came up with 
$55 million, and the year before $170 million, and I do not 
have to tell you how tough it is to find money in our budget 
because you are facing that every day.
    Nobody had ever told us about that. Every year we heard 
from your predecessor--and this was not on your watch. October 
5 is on your watch, but in 1991 they did not tell us what they 
needed, and that left us in a situation where we were really, 
really in very, very bad shape and had to play catch-up, and I 
appreciate what you have done playing catch-up.
    Dr. Koplan's departure disappointed me greatly when I heard 
about it. I fired off a letter to him asking him to reconsider. 
We had a little ceremony for him here yesterday.
    Secretary Thompson. I came after you had left, Senator.
    Senator Specter. Well, I started to say I am pleased to--
then I thought to myself, I am not pleased to be here, seeing 
Dr. Koplan go. To have a change at CDC in this perilous time 
just seemed to me to be very, very undesirable for the public 
interest. Why did he go, Mr. Secretary?
    Secretary Thompson. I tried to ask him to stay. I tried, I 
did. I asked him to stay. I asked him to reconsider. He is a 
fine individual. I came here and spoke on his behalf last 
evening. I have the utmost respect for Dr. Koplan. He told me 
that he has been in the public service long enough, and he 
wanted--he had a good opportunity in a medical school, and that 
is what he wanted to do. I think he is a fine individual. I 
think he did a great job, and I think the people that are still 
there are doing a fine job today.
    In regards to the buildings, there is no question, I spent 
a week down there as the Secretary, and recognized the fact 
that we have three campuses down there, but we are renting 25 
to 26 other buildings around the city, and it is not a good 
situation for productivity or for safety, and I commend you and 
Senator Harkin for your leadership in this effort of getting 
the $250 million each year, and that is sort of the glide path 
over the next 5 years if we can achieve that. I requested that 
from OMB, and we came back with $175 million, which I am very 
happy to support.
    Senator Specter. Well, Mr. Secretary, as to Dr. Koplan, I 
would appreciate it if you would report to the committee, or at 
least our subcommittee, on the circumstances. I do not know 
what else I could have done, but I think it is really very, 
very serious to have him leave at this time. We almost might 
have to pass a bill of attainder that it is unconstitutional, 
to keep him or draft him, but we hate to lose men like Koplan 
when we are in this kind of a crunch.
    [The information follows:]

    Dr. Koplan's departure as CDC Director was a surprise to me, and a 
loss for the Department and Administration. The many accomplishments of 
the CDC during his tenure illustrate his leadership role in improving 
the nation's public health. Dr. Koplan personally met with me in 
Washington about his decision to resign. While I understood his desire 
to make a change in his career before retiring, and knew that he had 
been thinking about resigning before the tragedy of September 11, I 
encouraged him to reconsider. Dr. Koplan explained to me that he had 
actually expected to stay in the position only two years--until the 
change in administrations--but was pleased that he was able to serve 
under President Bush and continue for an additional 18 months.
    The Department and this Administration are indebted to Dr. Koplan 
for his continued service. His support and assistance during my tenure 
as Secretary have been much appreciated, and his expertise will be 
missed. He will be difficult to replace and has set a benchmark by 
which all candidates will be measured. For your information, I have 
attached the kind letter he gave me explaining his decision to pursue 
other career opportunities.

Tommy G. Thompson,
The Secretary of Health and Human Services, Hubert H. Humphrey 
        Building, 200 Independence Avenue, S.W., Washington, D.C.
    Dear Secretary Thompson: It has been an honor and a privilege to 
serve the past three and one-half years as Director of the Centers for 
Disease Control and Prevention (CDC), the premier public health 
institution in the United States. I sincerely appreciate the 
opportunity to continue in this role, serving under you and President 
Bush. Being the Director of the CDC has been the highlight of my 26 
years of public service.
    While the nation faces numerous public health challenges from old 
scourges and new threats, CDC is in a strong position to address them. 
I have been the beneficiary of the efforts of a group of superb, 
dedicated and hard working colleagues who have allowed me to bask in 
the glow of their accomplishments. Leaving these outstanding colleagues 
is difficult for me as I make the decision to pursue other options.
    I thus submit my resignation today to be effective by March 31, 
2002 or earlier as you may desire.
    I appreciate your support for me and for CDC and wish you the 
greatest success in your leadership of the Department of Health and 
Human Services.
            Sincerely yours,
                            Jeffrey P. Koplan, M.D., M.P.H.
                                                          Director.

    Secretary Thompson. When he announced to me--he came up to 
see me. We sat down for a good hour and I asked if there was 
anything we could do to convince him to stay, and he said no, 
he made the decision and he was going.
    Senator Specter. Mr. Secretary, I would like you to carry 
back to the Administration--I will talk to the Director of OMB 
myself. There has got to be a little more flexibility from the 
Administration and the Office of Management and Budget on 
allowing the experts in the Departments to tell the Congress 
what is going on.
    There is too much iron-clad rule that once OMB makes a 
decision--and I know that can be appealed to the President, and 
I know you do that, but we ought to have a little more 
information. Where you have very, very critical issues like 
bioterrorism, we need to be able to pierce the veil, and I know 
the doctrine of separation of powers thoroughly, as do you, but 
in these really critical times there has got to be some safety 
valve so that we can find out, and we can act, and in 
disagreement, but in knowledgeable disagreement, in 
appropriating what the Congress thinks it has to.
    We have the responsibility to establish the priorities, and 
when OMB muzzles people--and I am not saying they did Dr. 
Koplan, but I would like to find out--we really need to sort of 
break that chain when it comes down to these kinds of very 
critical issues.
    Secretary Thompson. It is a difficult balancing situation, 
as you know, Senator. OMB has a tough job, you have a tough 
job, we all have a tough job, but OMB I think does a credible 
job, but they are balancing the war, bioterrorism, and all 
their other demands, and the money is only finite, and it is 
pretty difficult to stretch it farther than it is.

                       OTHER BIOTERRORIST THREATS

    Senator Specter. Mr. Secretary, my time is running down 
because I have to go vote, but we have talked about anthrax, we 
have talked about smallpox, what are the other major 
bioterrorist threats out there?
    Secretary Thompson. We have requested $1.7 billion in NIH 
for some new research. About $988 million of that, Senator, is 
going to go for new research on a new vaccine, a new 
recombinant vaccine for anthrax.
    Senator Specter. Can you enumerate for the committee, give 
us a list of all of the bioterrorist threats, all of the ones 
you know about?
    Secretary Thompson. Sure.
    [The information follows:]

    The following is a list of biological diseases likely to be 
used in the case of a terrorist attack:
    Anthrax--caused by bacterial agent (B. Anthracis).
    Smallpox--caused by a viral agent (Variola major).
    Botulism--caused by a bacterial agent (C. Botulirum).
    Plague--caused by a bacterial agent--(Y. Pestis).
    Tularemia--caused by a bacterial agent--(F. Tularensis).
    Viral hemorrhagic fever--caused by a variety of viral 
pathogens.

    Senator Specter. And what you are doing to find out about 
any others that may not be known at the present time?
    Secretary Thompson. We are trying to come up with vaccines 
for all of the hemorrhagic fever viruses, tularemia and so on.
    Senator Specter. I would like to see a list, I would like 
to see what it costs, and see to it that you are adequately 
funded, because last year there was an inclination to wait 
until this year, and this subcommittee took the lead to get you 
the multibillion appropriation.
    Secretary Thompson. I appreciate that, Senator Specter.

                         SMALLPOX VACCINATIONS

    Senator Specter. Dr. Fauci was here a few months ago. We 
were talking about smallpox vaccinations. He thought we should 
not vaccine the general public, and I had a little discussion 
with him saying that I thought it was the duty of the 
Government to have the vaccines available and inform the 
citizenry of the risks, and asked him what the risks were, and 
it came down to something like two to six out of a million 
would die, and I told him that it was not my decision, but I 
would like to have my grandchildren vaccinated.
    I do not have control over that. It is in wiser hands, my 
son and daughter-in-law, but I thought that the Government 
ought not to make that decision, to say people ought not to be 
vaccinated, because the risks were too great, and after a while 
Dr. Fauci agreed that he wanted his grandchildren vaccinated. I 
was for him for NIH Director before he made that change in 
testimony, but that certainly persuaded me, but I am glad to 
hear you say you will have enough vaccines available.
    Has there been a publication of the risk assessment to 
people who are vaccinated for smallpox?
    Secretary Thompson. We are trying to get that information 
out, Senator. We are waiting until we get the balance, at least 
the 109 million doses of the new vaccine in September. We have 
what is called a Vaccine Advisory Committee set up, and they 
are meeting at the end of May and in June, and we are reviewing 
the inoculation of first responders, hospital workers, 
policemen and so on.
    Senator Specter. When do you expect to have a risk 
assessment that I can give to the parents of my grandchildren?
    Secretary Thompson. I would say we could give you a very 
good risk assessment right now, Senator, and we would be more 
than happy to. We feel it would be about 18 individuals out of 
1 million--about 2 to 4 would die, but 18 would have serious 
repercussions from taking the vaccine.
    Senator Specter. And what would those serious repercussions 
be, aside from death?
    Secretary Thompson. Some would have some brain damage, some 
the sore would grow and you would touch it, the pus, and it 
would get into your eye. You could get an infection.
    Senator Specter. I would like to see the specifics on that, 
and I may want to talk to Dr. Fauci again about our 
grandchildren.
    [The information follows:]

    One person in 10,000 who receive the vaccine will have 
serious side effects that require a doctor's care; we would 
need to be prepared to treat 30,000 adverse events. Also, if 
the vaccine were given to everyone in the United States, it is 
estimated that 350 to 500 people would die from the vaccine.
    Serious complications of smallpox vaccination occur more 
frequently in those receiving their first dose of vaccine, and 
among young children. The most frequent serious complications 
are encephalitis (brain inflammation), progressive destruction 
of skin and other tissues at the vaccination site, and severe 
and destructive infection of skin affected already by eczema or 
other chronic skin disorder. The vaccine is not recommended for 
those who have abnormalities of their immune system because the 
complication of progressive destruction of skin and other 
tissues at the vaccination site has occurred only among 
recipients in this group. The vaccine is also not recommended 
for recipients who have eczema or other chronic skin disorders 
because the complication of severe and destructive infection of 
skin has occurred only among recipients in this group. As this 
is a live virus vaccine, these complications can occur among 
individuals who, while not vaccinated themselves, are in close 
contact with others who were recently vaccinated.

    Secretary Thompson. I would like to also have you talk to 
Dr. D.A. Henderson, who is the father of the smallpox 
eradication, who gave me my primer on smallpox vaccines.
    Senator Specter. I would like to do that.
    In my capacity as chairman, I have been authorized to 
recess this committee until the chairman returns. He will be 
back momentarily.
    Chairman Byrd. The committee will resume its hearings. I 
understand that Secretary Thompson needs to leave the hearing 
no later than 1:00. We will accommodate the Secretary. I 
apologize to the Secretary for these interruptions.
    Senator Reed, would you have 5 minutes of questions, 
please?
    Senator Reed. Thank you very much, Mr. Chairman. Welcome, 
Mr. Secretary. Let me congratulate you first on your great race 
yesterday. You seem to have endured, as I did, without serious 
medical complications.
    Secretary Thompson. Without a heart attack in the meantime.

                             STATE FUNDING

    Senator Reed. You were showing great style and leadership, 
and for a good cause.
    Mr. Secretary, your agency has just completed the first 
phase of funding to States on bioterrorism, and my State of 
Rhode Island was delighted with receiving $8 million, and I 
understand to receive the second installment States have to 
submit plans to your Department no later than May 15, and this 
generally raises the set of issues about----
    Secretary Thompson. Rhode Island has their plan in and we 
are already reviewing it. We will have the money out by the end 
of May.
    Senator Reed. Thank you, but generally speaking do you have 
an idea of how the money is being spent? Have you been looking 
closely at what areas, and do they roughly fit into your view 
of what has to be done on a national basis to provide 
protections?
    Secretary Thompson. We have sent out templates. In fact, we 
sent one out in regards to communication from Rhode Island and 
Delaware, because they had some of the best. We have a list 
here of 14 points that we would like to have the plan encompass 
from CDC, and 3 from HRSA. HRSA and CDC are reviewing the plans 
as they go through right now. The plans had to be in by April 
15, and then we have set up 11 teams of experts to review those 
plans, work with the States in regards to these particular 
points.
    I would be more than happy to give you those points so that 
you can take a look at them, but we are trying to look at 
communication, number 1, coordination between the emergency 
wards as well as the first responders and the local law 
enforcement and the public health departments. We want to make 
sure that the communication with the public health departments, 
the CDC is hooked up and done correctly.
    We want to expand the laboratory capacity at the States. We 
are looking at ways for the regional hospitals to develop surge 
capacity to take care of a type of increase, and we also are 
looking for overall surveillance to make sure that the doctors 
are going to be able to diagnose correctly, so all of these 
things are put out, and we put out templates which States can 
look and say, which States are doing the best in these areas, 
so we have got a plan, a comprehensive plan that I think you 
are going to be proud of, and I know I am.
    Senator Reed. Thank you. Are you also looking at how the 
money is being expended? Oftentimes the plan will propose 
spending in categorical ways, and then specifics. Are you 
looking at those specifics?
    Secretary Thompson. We are looking at the plans, we are 
looking at how the money is going out. Right now the States 
have only drawn down $2.8 million of $229 million that is 
available to them, and we are expecting that to go out 
hopefully much more rapidly than it has in the past, and then 
we have 80 percent more to be sent out by the end of this 
month, and we have got experts from the Department, from CDC 
and from NIH and from HRSA making up the 11 teams, and they are 
going to be working in conjunction and consultation with the 
State health departments and the Governor's office to make sure 
that the plan is comprehensive, one that is going to benefit 
Rhode Island, but one that is going to benefit the whole 
Northeast sector as well as the country.
    Senator Reed. One final point, Mr. Secretary. Your 
experience as a Governor, I am sure you are sensitive to the 
issue of whether or not this money is simply displacing State 
funds rather than adding to State efforts, which I think it has 
to be in addition not simply displacement. Are you sensitive to 
those issues?
    Secretary Thompson. The worst thing in the world would be 
to have all of this money go out and we do not build a strong, 
vibrant local-State public health system. We are demanding of 
that, and you know as well as I do and everybody on the 
committee that we have not invested in our local/State public 
health system, and it has a lot of problems, so this money is 
going to go in for new things, and it is not going to supplant 
State money that is already going in. This is going to be 
setting up for a comprehensive plan to deal with bioterrorism 
and infectious diseases.

                          HEALTH ALERT NETWORK

    Senator Reed. I thought I had a final point, but if I may 
have one other point, I think I am echoing what you said. Part 
of this effort is for a comprehensive surveillance system which 
will be based on computer communications between hospitals, 
emergency rooms, and CDC, and we are constantly moving in that 
direction.
    Secretary Thompson. That is what we are trying to do. Our 
Health Alert Network hopefully by the end of the year is going 
to be connected to 90 percent of the population in America, and 
that right now, we are at about 65 percent. We are expecting 
that to be up to 90 percent. We also want to be able to have 
interactive kind of communications so that if something were to 
happen in a hospital in Rhode Island, the doctors could have 
interactive responses from CDC or from NIH or from our office 
here in Washington, D.C.
    We have set up an information room right next to the 
Secretary's room in the Humphrey Building, and we have all of 
our computers in there. We can deploy medical personnel, we can 
deploy equipment, and we can deploy pharmaceutical supplies 
wherever it is needed in the country.
    Senator Reed. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.

                          LABORATORY SECURITY

    Chairman Byrd. Thank you, Senator.
    Mr. Secretary, the Brookings Institution released a report 
on Tuesday that calls for $5 to $10 billion more in homeland 
security funding above the President's fiscal year 2003 
request. Part of their recommendations include more funding for 
improved security measures at our biological research 
facilities, which includes NIH and the CDC.
    Your Department did not ask for any funds in the fiscal 
year 2002 supplemental appropriations request before the 
committee today. Does this mean you believe we have done all we 
can do and need to do this year to prepare against a possible 
bioterrorist attack?
    Secretary Thompson. No, absolutely not, Senator. In fact, 
we are doing quite a bit. We are looking at all of our 
laboratories as far as security is concerned. We are putting a 
lot of new dollars into security measures at our laboratories. 
It is also one of the reasons why we are trying to upgrade the 
facilities at CDC and get the ones that we are renting back 
onto a campus. We have three campuses in Atlanta.
    That is why we are also upgrading the laboratory out at 
Fort Collins, Colorado and actually building a brand new 
laboratory, and it is also why we are putting in a new 
laboratory in Montana. We are also putting in a new laboratory 
at the NIH campus, and why we are putting in a brand new BLS-4 
lab at Fort Dietrick in conjunction with the United States 
Army.
    Chairman Byrd. Mr. Secretary, if the CDC's capacity 
problems are all this bad, why did you not request a fiscal 
year 2002 supplemental to begin expanding lab capacity as soon 
as possible?
    Secretary Thompson. Well, because we think the $1.1 billion 
right now is what we are trying to put our emphasis on, Senator 
Byrd, and we think for CDC we are putting in $74 million for 
the brand-new lab at out Fort Collins, Colorado, which is CDC, 
and we are adding some new lab capacity and a CDC campus with 
this new budget request?
    Chairman Byrd. Why did you request only $90 million for CDC 
buildings and facilities in your fiscal year 2003 request?
    Secretary Thompson. We have $175 million, of which $75 
million goes to Fort Collins, which is a CDC thing, and we had 
requested $250 million for CDC, but we received back $175 
million, is what OMB gave us.
    Chairman Byrd. So you requested how much more than OMB gave 
you?
    Secretary Thompson. We requested $250 million.
    Chairman Byrd. $250 million more?
    Secretary Thompson. No. There is a glide path. We figure it 
takes about $250 million for 5 years for the CDC facilities to 
upgrade them in order to give the lab security, in order to 
consolidate the buildings on the three campuses, and be able to 
give up the renting we are doing. I do not know if it is 24 or 
26 buildings we are renting outside of our campus areas, and it 
is going to take about $250 million a year for the next 5 years 
to get this done.
    Chairman Byrd. How much was requested?
    Secretary Thompson. We requested $250 million. We got $175 
million.
    Chairman Byrd. You requested $250 million and you got $175 
million approved, so OMB determined that you had asked for $75 
million too much?
    Secretary Thompson. Well, OMB has a tough job.
    Chairman Byrd. I understand that. We all have a tough job. 
I am trying to help you.
    Secretary Thompson. I know you are, Senator, and I am just 
saying that we will just have to go a little bit slower.
    Chairman Byrd. You will have to go slower. Maybe you do not 
have to. Maybe we can help you. That is why we are holding 
these hearings.
    Secretary Thompson. I appreciate why you are holding the 
hearings, and I thank you so very much, Senator.

                           HOMELAND SECURITY

    Chairman Byrd. In your recent testimony before the Senate 
Governmental Affairs Committee on April 8 you said that HHS is 
the lead agency in charge of addressing the health consequences 
of a bioterrorist attack. You said the Congress may have to 
intervene to clear up conflicting regulations over whether law 
enforcement or health agencies are in charge of bioterrorism 
investigations. The committee is concerned that these 
conflicting regulations will cause a great deal of confusion if 
there is another bioterrorism attack.
    During last fall's anthrax attacks there were severe 
communication and coordination problems between HHS and law 
enforcement. Now, this seems to me to be a recipe for 
confusion. How much valuable time will be wasted before we 
decide who is in charge? Who is in charge? What has the Office 
of Homeland Security done to resolve this interagency conflict?
    Secretary Thompson. I think the Homeland Security Office 
has done an excellent job, Senator Byrd, in regards to bringing 
together the disparate pieces and bringing it into a 
comprehensive, cohesive force.
    Chairman Byrd. Can you explain how that was done?
    Secretary Thompson. We have a series of meetings, weekly 
meetings, as a matter of fact, Senator Byrd, in regards to the 
Department of Justice, the Department of Defense, the Office of 
Homeland Security and the Department of Health and Human 
Services, there are meetings going on constantly on how we can 
improve the coordination. And I would have to add that the 
coordination and communication between the various Departments 
has been excellent, and Tom Ridge has done an outstanding job 
of bringing all of these together.
    We are working closely together. We also are consolidating 
things in the Department of Health and Human Services in order 
to have a comprehensive and cohesive voice. That is working out 
well. We have set up an information office right next to 
Secretary's office, which is manned by individuals from CDC, 
NIH, and FDA, and those individuals will have a coordinated 
voice, and if there is something dealing with health care we 
will have experts from NIH, CDC, and FDA, and the Secretary's 
office all communicating directly to you, to other Members, and 
to the American public.
    Chairman Byrd. The chair compliments you, Secretary 
Thompson, on what you are doing, and we appreciate your 
response to my question. We get the same response from everyone 
who appears before this committee. It seems everyone is working 
with Mr. Ridge, except he does not appear before the committee 
and give us explanations or answers to our questions.
    You cannot help that, but there seems to be things that--
there seems to be ends that still remain to be tied together. 
You cannot do it. Other Secretaries cannot do it. You can 
defend the Administration's refusal to have Mr. Ridge appear, 
and even though the Secretaries have done a good job, you are 
good soldiers, you have attempted to make a good defense, the 
questions of this committee, however, are not answered. They 
remain unanswered, and that is too bad, because this committee 
is here to help you and here to help the Administration, and is 
here to help the American people to feel more secure against 
terrorism and against potential attacks.
    Secretary Thompson. I would like to add thank you for your 
support, Senator Byrd. You have been out there, and I 
appreciate it.
    Chairman Byrd. Thank you very much.
    Senator DeWine.

                    CHILD VACCINES AND ANTITERRORISM

    Senator DeWine. Mr. Secretary, thank you for joining us 
today. Mr. Secretary, could you tell us what the plans are in 
regard to the smallpox vaccine, in regard to testing, in regard 
to children, and if you have any plans to do that at all? Also, 
if you could tell us in your budget, antiterrorism budget, what 
we are doing in regard to children there?
    You and I have talked about this before, and I have been 
satisfied with your response before, but I would kind of like 
to get an update about how children fit into the overall scheme 
of things. We know they are not young adults. We know that. 
They are not small adults. We know that they are different, and 
they have different medical needs. They have different 
vulnerabilities. We have to plan differently to make sure our 
children are taken care of.
    That would be my only question, Mr. Chairman.
    Secretary Thompson. Well, Senator DeWine, first let me just 
compliment you on your passion for children. I applaud you for 
it and thank you for it. In regards to children, we have set up 
this advisory committee on vaccine practices, and that is going 
to be meeting throughout the summer months to make 
recommendations in case of a smallpox epidemic, what would 
happen.
    It is taking into consideration children and people with 
immune deficiencies, and people that have had organ 
transplants, and people that have had cancer, and had 
chemotherapy, because their immune systems may not be the types 
that can take a smallpox vaccine, and so we are taking that 
into consideration, and we have a specialized committee of 
experts doing that.
    Secondly, we are looking at the Aventis Pasteur vaccine 
that we got, the 85 million doses that just came in. We are 
looking at that. We are going to be doing some human trials. 
Some of those human trials will be investigating what we should 
do with children.
    The new vaccine from Acambis, which is 54 million doses, 
which should be delivered sometime this summer, 155 million 
doses from Acambis-Baxter, and that will be coming in later 
this year. We will have 109 million doses of a new vaccine 
hopefully by the end of September, and it is on schedule, and 
those new vaccines will be taken into consideration, all of the 
adult population, the children population, the different races, 
in order to do the testing on it to make sure it is safe.
    Senator DeWine. Thank you. Thank you, Mr. Chairman.
    Chairman Byrd. Senator Stevens.

                             COMMUNICATIONS

    Senator Stevens. Thank you, Mr. Secretary. We do appreciate 
you being here. I am sort of a broken record on communications, 
so let me ask you this question. How confident are you that the 
local health departments will be able to communicate directly 
with the Department in the event there is a crisis? We are 
dealing with interoperability now of systems.
    Secretary Thompson. It is getting better. It is not as good 
as I would like, Senator Stevens, but it is getting better, and 
with this new money that this committee appropriated, the $1.1 
billion, the communications is the number 1 item on our list 
that we are going to improve and update, and we are hopeful 
that by the end of this year we will have 90 percent of the 
population that will be able to be covered, local health 
departments, emergency wards, State health departments that 
will have direct communication with CDC, NIH, and with my 
information office in the Department of Health and Human 
Services.
    Senator Stevens. And you can do that with the money that is 
already there?
    Secretary Thompson. We believe we can.
    Senator Stevens. Thank you very much.
    Chairman Byrd. Senator Kohl.

               FUNDING FOR STATE AND LOCAL HEALTH SYSTEMS

    Senator Kohl. Thank you, Mr. Chairman. I will be brief, 
with one question, Governor.
    Secretary Thompson. How are you, Senator?
    Senator Kohl. Good. As you know, the anthrax attack showed 
us how important our State and local public health systems are 
in funding. The CDC is important, but it is clear that without 
adequate staff communication systems and fully equipped labs at 
the State and local levels, our ability to detect, prevent, and 
respond to a bioterrorist attack is greatly hampered if not, in 
fact, crippled.
    Unfortunately, our public health infrastructure has been 
seriously underfunded in recent years. Fiscal year 2003 funding 
that you described will be a great start in meeting these 
needs, but I am told by Wisconsin and local officials that it 
will take sustained funding over many years to bring the public 
health network to full capacity.
    Through news accounts, we know that Tom Ridge is planning 
to rank our Nation's homeland defense priorities and direct 
funding accordingly. As you work with him in this effort, where 
will State and local public health fall on that list compared 
to other needs, such as, does the Administration plan to 
sustain this level of funding over several years?
    Secretary Thompson. I think it has got to be at the top of 
the list, Senator Kohl. We have to face it. You cannot point 
fingers at any political party or any State or local officials. 
The truth of the matter is, we just have not invested very much 
in our local and State public health systems in America. It is 
just that money went to other places.
    We have now the greatest opportunity, Senator, to build a 
local/State public health system that you can be proud of, and 
that I can be proud of, and that America can feel secure about, 
and that is why this first tranche of money, the $1.1 billion 
that you voted for, and I thank you for that, is a giant step 
in the right direction.
    We are going to ask in the fiscal year 2003 budget for $4.3 
billion, a 45-percent increase. We are going to be able to not 
only replicate the $1.1 billion for next year, if the Congress 
goes along with it, and I am fairly confident that you and the 
Congress will, and we will have an additional $1.1 billion to 
go to the next step to help improve and upgrade the facilities, 
and also look towards communication, look towards coordination, 
surveillance, increased laboratory capacity, and then we have 
an additional $564 million for hospitals, which is in this 
request, and this is going to go hopefully for hospitals to 
come together on a region.
    There are several regions in the State of Wisconsin, as you 
know, and we are hoping that there would be hospitals that come 
together to build surge capacities. Maybe one hospital would be 
for the biotech pathogens, or maybe one would be for chemical 
spills, one for decontamination. All of those things we are 
hopeful will come out of this $564 million.
    We have $125 million set aside right now for hospital 
planning, and the next tranche, the $564 million would go for 
building in and filling in those resources. And then hopefully 
after that we can take a good look, an assessment of where we 
are, what our needs are, and be able to share that with you and 
other members of this committee and hopefully come back and 
continue to build upon this until we have the local/State 
public health system so secure and so modernized that it will 
be able to take care of any kind of bioterrorism attack that 
may come in the future.
    Senator Kohl. I appreciate that. I appreciate your great 
sense of priority, and the way in which you talk about it, 
which I totally agree with. Thank you so much.
    Secretary Thompson. Thank you.
    Senator Kohl. Thank you, Mr. Chairman.

                      STATE AND LOCAL HEALTH PLANS

    Chairman Byrd. Thank you, Senator.
    Mr. Secretary, we approved last fall $1.1 billion to help 
State and local health care agencies expand their capacity to 
respond to a bioterrorist attack. What steps are you taking to 
assure the committee that those funds will get to the local 
level, where the funds are most needed, and as soon as 
possible?
    Secretary Thompson. Senator, we have sent out 20 percent, 
authorized 20 percent of the money to go out. We have requested 
the States come back in with their plans by April 15, the 
States have only committed $2.9 million of $229 million, so 
there is plenty of money left there.
    We have 11 teams, Senator Byrd, that are reviewing plans as 
they come in. We will have all of those plans reviewed. There 
are experts from NIH, CDC, and from the Department of Health 
and Human Services, and those plans will be sent out, will be 
either modified or approved, and we will be counseling with the 
States and the health departments who set this up, and the 
balance of the money, the 80 percent will be able to be 
committed by the States by the end of May.
    Chairman Byrd. What is the hold up? What do you see the 
hold up being? You say you have only had this minimal response.
    Secretary Thompson. Well, the States have been very good. 
We have been working with them, Senator, but they have got the 
plans, and they just have not taken the money and used it yet. 
It is available to them. They just have not spent it.
    Chairman Byrd. To what do you attribute that?
    Secretary Thompson. I think they are going slow. They want 
to make sure they are correct. They want to make sure that what 
they do fits in with their plans so that, as I indicated to 
Senator Kohl, they can develop the best local/State public 
health system. They are meeting with the communities, they are 
meeting with the legislators, they are meeting with the public 
health departments, the first responders, and they want to make 
sure that the money goes in the right direction, is the only 
answer I can come up with.
    Chairman Byrd. Do you think they are being straitjacketed 
by Federal regulations or red tape?
    Secretary Thompson. Absolutely not. They have complete, 
unfettered use of the 20 percent right now. They could spend it 
on--10 percent of it could be on planning, 50 percent of it 
could be spent on any category they want for any of the anthrax 
outbreak of last year. The money is there. They just have not 
spent it yet.
    Chairman Byrd. Can something be done at the Federal level 
to help to cut through this labyrinth of problems at the State 
level, whatever it is?
    Secretary Thompson. I just think they are being cautious 
and want to do what is right, Senator. I do not think there is 
any redtape at all. There is not on our end, because we just 
sent out 20 percent and they just have not used the money, and 
they are planning. Their plans are all in except for three 
States.
    One of the States is Utah, and they could not get their 
plan in because they were tied up on the Olympics, and there 
are two other States that have not sent their plans in, and 
seven territories, and the other States have come in. We are 
reviewing those plans. CDC and HRSA have them right now, and 
they are being reviewed.
    We have 11 teams set up that are in the process of 
reviewing them. We want to make sure that these plans are 
consistent, so we build a strong local/State public health 
system, and we are expecting to have all those plans done and 
approved by the end of the month, and the money is ready to go, 
in accordance with the planning and documents that have been 
submitted.
    Chairman Byrd. What assurance can you give the committee 
that the money will not be held at the State level, and that 
the money will, indeed, get to the local level?
    Secretary Thompson. I want you to take a look, Senator, at 
our 18 items we are requesting. The first thing is, establish 
an advisory committee to include representatives from State and 
local health departments, emergency management agencies, 
emergency medical service, office of rural health, police, fire 
department, emergency rescue, and occupational health workers, 
Red Cross and other voluntary organizations, hospital, 
community health centers, and other health care providers. That 
is the first thing they have to do, and prepare a time line for 
assessment for emergency preparedness and response capabilities 
and develop a coordinated plan with all of these people at the 
local level.
    Chairman Byrd. That sounds like that is enough to 
intimidate anybody. It seems to me, can't something be done 
here to help the States to move faster in this regard?
    Secretary Thompson. Well, they have not been intimidated, 
because their plans reflect they have done all these things, 
Senator, and we signed the bill on January 10, and on April 15 
they had their plans in. They are moving very rapidly. They 
just have not spent the money yet.
    Chairman Byrd. That is strange.
    Secretary Thompson. We are doing workshops. We have done 
eight workshops throughout the country for the Department to 
assist them and help them. We have experts on call, Senator, 
that will advise the State health departments on how to put 
their plans together and what they need to do, and we have been 
reaching out, because I know of your concern. You want this 
money out, as I do.
    You want us to move. I want to move. I think the worst 
thing we could do, however, is just send the money out willy 
nilly without any kind of planning whatsoever and end up with a 
system, end up by spending the $1.1 billion and not have a 
strong, coordinated, local and State public health system, and 
I do not want to be part of that without building the best 
thing I can for you, Senator.
    Chairman Byrd. Have you been in touch with West Virginia, 
the State health department there?
    Secretary Thompson. Yes, we have.
    Chairman Byrd. What kind of a response did you get from 
them?
    Secretary Thompson. I have not personally, but Jerry has on 
West Virginia.
    Mr. Hauer. We are reviewing the plan right now. It was sent 
in. CDC and HRSA both have approved it to come up to us for 
review. We should have it reviewed within the next 20 days.
    Chairman Byrd. Well, Mr. Secretary, I thank you for your 
patience and your attendance here. I think we have got work to 
do. I hope the committee can help you, and certainly you have 
done your part as Secretary. You have come before the 
committee, and the committee appreciates your testimony.
    Secretary Thompson. I thank you, Senator, for your 
leadership, and I thank you for your support.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
                            anthrax vaccine
    Question. Mr. Secretary, your budget request for fiscal year 2003 
includes $250 million for the second generation anthrax vaccine. This 
is a wise investment, given the problems surrounding the current 
vaccine. However, I have several questions about this request:
    How much of the $250 million is for the development of the vaccine, 
and how much is for procurement?
    Answer. The new generation anthrax vaccines are not currently ``off 
the shelf'' items. These vaccines need to go through a development 
process before they can be purchased. It is important to appreciate the 
complex nature of vaccine development and the relationship of initial 
development of candidate products to the production and purchase of the 
end product. First, there is the development of the candidate vaccine 
as a proof of concept. This is actually a series of endeavors that 
takes the candidate product from basic research through pre-clinical 
testing to early clinical testing to show that the candidate product 
will be safe and work as intended in humans. Second is the 
manufacturing process development of the vaccine product. This activity 
requires significant investment, and includes scale up of the 
production of the product from pilot lots of a few thousand doses to 
producing millions of doses under Good Manufacturing Practices with 
extremely tight manufacturing tolerances. This is usually the most 
expensive area as it may require designing, developing and equipping 
the physical production plant if these are not available, consistency 
testing of multiple batches of vaccine, product validation studies and 
clinical trials to provide the product and clinical data needed for 
licensure of the manufactured product by the FDA. The final stage is 
the actual production and distribution of the manufactured product.
    We currently anticipate a course of action comparable to that taken 
for the smallpox vaccine. Once we are reasonably confident that the 
clinical trials will show the vaccine safe and effective, we would 
begin production and commit to the buy before completing trials. That 
is why the budget requests $250 million for this work.
    There are three points that should be considered as we move forward 
in our efforts to develop, test and purchase the new-generation anthrax 
vaccine candidates. First, the anthrax vaccine candidate is still under 
development and not available to be purchased ``off the shelf.'' 
Second, the development and testing of the new-generation anthrax 
vaccine is under an extremely tight schedule. Third, the process of 
vaccine development is inherently unpredictable. We do not know what 
developmental challenges may yet be encountered with these vaccine 
candidates. In this regard, although the $250 million will go towards 
investment in the second-generation anthrax vaccine product, it is 
difficult to project the precise proportion of the $250 million that 
will be used for development, under a manufacturing setting, versus 
``purchase'' of the product off the production line.
    Question. How many years will it take for this vaccine to go 
through the clinical trial process and be approved by the FDA?
    Answer. It is not possible to estimate accurately when the FDA will 
license the new anthrax vaccine. The vaccine approval process consists 
of three principal elements: testing for safety and effectiveness in 
pre-clinical and clinical studies, preparing and submitting information 
to the FDA through the Investigational New Drug (IND) process and FDA 
review of the data. Based on the preliminary studies done to date, we 
anticipate that the IND for the vaccine candidate that will ultimately 
be purchased can be obtained within 6 to 18 months. As this will be one 
of the first vaccine products for which licensure will be requested 
under the new animal model rule, it is not clear how long licensure 
will take.
    Question. How does this vaccine differ from the one being developed 
by the Defense Department? Are you coordinating with DOD?
    Answer. Over the last few years, NIAID has been working closely 
with the U.S. Army Medical Research Institute of Infectious Diseases 
(USAMRIID) in the development of a second-generation anthrax vaccine 
using the recombinant Protective Antigen (rPA) approach. The vaccine 
specified in NIAID's recently-released Request For Proposal (RFP), 
Development and Testing of Vaccines Against Anthrax, is based on the 
use of the rPA vaccine approach that was developed by the USAMRIID with 
NIAID support.
    Question. If the $250 million includes procurement costs, why is 
NIH funding the procurement of this vaccine? My understanding is that 
CDC has responsibility for the stockpile. Shouldn't CDC be funding 
this?
    Answer. The nation has an urgent and compelling need to have a 
second-generation anthrax vaccine product quickly available. At the 
moment, a second-generation anthrax vaccine still needs to be developed 
and tested. Although it may be unusual for NIH to purchase a vaccine, 
in this case, there is logic to having NIH take the lead due to the 
accelerated nature needed to do the research, develop, test and 
purchase this vaccine in a short time. Ultimately, the vaccine, when 
purchased, will be managed by CDC as part of the national stockpile. No 
one is expecting that NIH will become a stockpile manager for this 
vaccine.
                           biological agents
    Question. We have included $10 million for tracking and control of 
biological agents in the emergency supplemental appropriation in 
December. How is the money being spent?
    Answer. The supplemental appropriation allowed CDC to use ``up to'' 
$10 million for this purpose. To date, CDC has allocated $4.3 million 
for this work. This amount is consistent with the proposals in the 
fiscal year 2003 budget. Currently anticipated expenditures include:
Contracted Services: $2.4 million
    Laboratory Registration.--The purpose of this task order is for 
technical assistance and support services for document processing and 
information gathering and dissemination, including evaluation and 
review of applications and supporting information, in order to manage 
the laboratory registrations and data associated with the transfer of 
select agents; gather, respond and process information; evaluate 
existing database then develop and transfer data into a more capable 
software product; and provide database management, in order to meet the 
requirements of Section 511 of Public Law 104-132, and to provide a 
rapid means to disseminate critical health information to constituents 
and officials.
    Laboratory Inspection.--The Contractor, as an independent 
organization, and not as an agent of the Government, shall furnish all 
necessary personnel, facilities, equipment and supplies to establish 
and manage a laboratory inspection program. These services shall adhere 
to CDC's requirements as specified under Section 511 of Public Law 104-
132 (Attachment J.1), and its implementing regulations.
    The Contractor shall be required to register all Biosafety Level-2 
(BSL-2) and Biosafety Level-3 (BSL-3) laboratories who submit 
applications, inspect all registered BSL-3 laboratories, in addition to 
establish and maintain a database and files of all activity required 
under Section C.
    Additional smaller contracts for computer support, editorial 
support, and data entry.
Cooperative Agreements: $0.4 million
    Association of Public Health Laboratories (APHL) cooperative 
agreement for train-the-trainer courses.
    NCCL cooperative agreement for diagnostic proficiency testing.
Operational Costs: 1.5 million
    Funding operational costs and funding for staff, including program 
managers, health safety specialists, microbiologists, mechanical 
engineers, an administrative officer, and program operations 
assistants.
    Travel for laboratory inspections, professional meetings, technical 
assistance, biosafety classes, and safety training presentations.
    Question. I have heard that while the money has been available, the 
small office in CDC that regulates transfers of these biological agents 
does not have approval to hire more people, so they can't use it. Can 
you tell me if this is correct?
    Answer. CDC is currently assessing the needs of the select agent 
program. The program is in the process of hiring new staff that will 
include a senior microbiologist, an administrative officer, program 
managers, health safety specialists, microbiologists, mechanical 
engineers, and program operations assistants.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                       public health surveillance
    Question. Mr. Secretary, I have become increasingly interested in 
the need to build strong public health surveillance systems, not only 
so we will be able to detect the first signs of a bioterrorist event, 
but also so that we can improve our ability to track common disease 
trends in this country. We have the technology and ability today have a 
computer terminal in every hospital emergency room in this country 
where disease symptom information could be transmitted over the 
Internet to agencies, such as county and state health departments and 
the CDC that would analyze aggregate data for any unusual patterns. 
These ``dual systems'' are important to our homeland defense, but are 
absolutely critical to our public health. One of the major challenges I 
foresee with achieving fully function systems not only paying for it 
but also making sure systems can ``talk'' to one another because 
diseases do not know state or regional boundaries.
    I understand that there are public-private sector initiatives 
focused on driving standardization in the way that clinical data is 
transmitted, to reduce burden and cost for health care providers, labs, 
and others that will be reporting this data for public health purposes 
and to enable surveillance that cuts across localities (for example, 
regional initiatives). These initiatives are centered around the 
Centers for Disease Control and Prevention's National Electronic 
Disease Surveillance System (NEDSS). What can we be doing to encourage 
states and local health departments to forgo ``customized'' 
surveillance systems, in return for more data that is comparable and 
more useful?
    I have heard that any surveillance system that requires physicians 
or other health care providers to ``do something extra'' will not be 
successful. As a matter of fact, I understand that even now, 80 to 85 
percent of data that is currently required to be reported to public 
health does indeed, not get reported, because reporting processes are 
cumbersome and require an extra step (e.g. faxes, postcards, etc.) . 
What can we be doing to encourage local health departments to leverage 
health care information systems that already exist within hospitals, 
labs, and emergency departments to get the data they need? What are the 
barriers?
    Answer. Public health surveillance is the ongoing, systematic 
collection, analysis, interpretation, and dissemination of health data, 
including information on clinical diagnoses, laboratory-based 
diagnoses, specific syndromes, health-related behaviors, and use of 
products related to health (for example, sales of antimicrobial drugs). 
Epidemiologists use these data to detect outbreaks; characterize 
disease transmission patterns by time, place, and person; evaluate 
prevention and control programs; and project future health care needs. 
Our nationwide system of surveillance requires involvement and 
resources from all levels of government, as well as a reversal of the 
trend towards decreasing state and local support for disease 
surveillance.
    Historically, HHS has provided both resources, and standards and 
specifications to be used by state and local health departments so that 
information systems will be interoperable and information can be 
shared. The standards are widely accepted national industry standards, 
and are therefore accessible to HHS, DOD, and VA systems.
    These efforts have intensified with the establishment of the HHS 
Office of Public Health Preparedness. Standards of interoperability are 
being advanced through block grants now being provided through 
cooperative agreements with all U.S. states, territories and major 
municipalities The grant guidance requires inclusion of the local 
health departments as active partners in developing the state 
preparedness plan for use of Federal resources. Finally, CDC is 
developing an extensive plan to provide technical assistance to state 
and local partners, including access to independent verification and 
validation services.
    Connectivity is a first step in accomplishing interoperable 
systems. Various levels of standards are necessary for 
interoperability: Internet connections, common electronic message 
formats, and shared vocabularies.
    Public health surveillance is primarily a responsibility of state 
and local health departments. But CDC is assisting the states with the 
National Electronic Disease Surveillance System (NEDSS). One of the 
benefits of the NEDSS architecture is that it will define functions and 
specifications for elements of a system based on national standards. 
CDC has provided funding for states to develop systems based on these 
standards. CDC has also commissioned development of the NEDSS Base 
System which states may choose to implement. Either one of these 
options implementation of NEDSS Base system and/or state-based 
development according to national standards will promote interoperable 
systems and avoid ``customized'' proprietary, non-interoperable 
systems.
    One of the main goals of NEDSS seeks to organize surveillance by 
the source of information. An example of this is surveillance 
information from laboratories, specifically, electronic laboratory-
based reporting (ELR). CDC is working with large national laboratories 
to implement NEDSS standards; some states have ELR implementation 
projects as well.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
                             trauma centers
    Question. The medical response to a terrorist act clearly includes 
not only first responders such as paramedics, but also hospitals, 
particularly Level I (highest level) trauma hospitals. These hospitals 
would be required to provide emergency, surgical and intensive care. 
Since there has been substantial funding identified for first 
responders, will there be comparable funding identified for major 
trauma hospitals?
    Answer. Congress appropriated $135 million in fiscal year 2002 for 
the new Bioterrorism Hospital Preparedness Program with the eligible 
applicant for these grants being the State Health Departments. 
Approximately 75 percent of these funds will be distributed to 
hospitals and other health care entities to upgrade their ability to 
respond to biological events. Within the funds provided, trauma 
hospitals will be eligible to receive some of these funds. They would 
have to work with their State Health Department and carry out 
activities consistent with the overall plan. No specific funds have 
been identified for major trauma hospitals. The fiscal year 2003 
President's Budget includes $235 million for this program as well as 
$283 million for a new Hospital Infrastructure Program.
    Question. Who would administer such funds?
    Answer. At the Federal level, the HRSA's Maternal and Child Health 
Bureau (MCHB) administers the Bioterrorism Hospital Preparedness 
program. At the State level, the program grants ($125 million in fiscal 
year 2002) are administered by the State Health Department. The State 
Health Officer in many States has delegated the Hospital Preparedness 
Program to the Emergency Medical Services (EMS) Division. The proposed 
Hospital Infrastructure Program for fiscal year 2003 would be 
administered by HRSA's Office of Special Programs.
    Question. How would such funds be distributed?
    Answer. Funds distributed under the Bioterrorism Hospital 
Preparedness Program are awarded as cooperative agreements with the 
States under a population-based formula. The State Health Departments 
then allocate approximately 75 percent of funds to hospitals and other 
supporting entities to implement the Governor approved hospital 
preparedness plan.
    Question. Regional Level I (highest level) trauma centers are 
located throughout the country and are always ready 24 hours a day, 
seven days a week to manage mass casualties. These institutions are 
unique resources upon which to build a national system for the medical 
response to terrorism. Has there been any consideration to designate 
some of these centers as Federal medical disaster centers?
    Answer. HRSA's Bioterrorism Hospital Preparedness Program 
cooperative agreements provide funds for the development of a multi-
tiered system in which local hospitals and other health care entities 
are prepared to triage, isolate, treat, stabilize, and refer multiple 
casualties of a bioterrorist incident to identified regional ``centers 
of excellence'', which may be regional trauma centers.
    Question. How would you pick these centers?
    Answer. Under the Bioterrorism Hospital Preparedness Program 
cooperative agreement, States are given the flexibility to create their 
own regional hospital plans that meet their geographic needs. States 
are empowered to select regional centers of excellence, which would 
serve as referral centers in the case of a bioterrorist event causing 
mass casualties. The criteria for these centers would be to have the 
surge capacity to deal with large numbers of casualties as well 
infectious patients who need to be kept in isolation to prevent disease 
spread.
    Question. How would they relate to each other and to the military?
    Answer. The HRSA Bioterrorism Hospital Preparedness Program 
requires the development of a State Hospital Preparedness Planning 
Committee. Military hospitals and hospital associations are among the 
required members of these planning committees. The Hospital 
Preparedness Planning Committee oversees the development of the State 
preparedness plan and its implementation. States are given the 
flexibility to develop and implement their own regional hospital plans, 
including multi-state collaboration if necessary.
                           hospital capacity
    Question. Throughout the country, particularly in large urban 
centers, there is no unused hospital bed capacity. Hospitals are often 
full. Patients, even patients needing intensive care, are often forced 
to wait in emergency rooms for a bed. In many cities ambulances drive 
around trying to find a hospital with an available bed. Thus, there is 
no surge capacity to handle a sudden large increase inpatients such as 
would occur in a terrorist act. Have you considered any mechanisms such 
as Federal dollars for hospital expansion for certain key hospital 
facilities throughout the country?
    Answer. Current HRSA cooperative agreements under the Bioterrorism 
Hospital Preparedness Program include the requirement to identify surge 
capacity to handle a potential epidemic involving at least 500 victims. 
Metropolitan Medical Response Systems (MMRS) contracts, managed by the 
HHS Office of Emergency Preparedness, also require surge capacity to be 
addressed at the local level. It is important to note that the existing 
licensed facility expansion capability is only a small part of surge 
capacity which must include plans for alternate care facilities, home 
care, and movement of victims to other parts of the country via the 
National Disaster Medical System. The Hospital Preparedness grant 
guidance asks its state health department grantees to perform a needs 
assessment of bioterrorism preparedness and to develop implementation 
plans to handle a surge in patients. The focus is not on specific 
hospital capacity expansion, but rather on improved coordination and 
triage to make the best use of available facilities. Specific items in 
that needs assessment include:
  --Need for a bioterrorism plan that addresses triage, isolation, 
        quarantine, decontamination, stabilization, treatment and 
        referral of multiple casualties (whether presenting all at once 
        or gradually over time).
  --Needs for reconfiguration of hospital space for quarantine of 
        communicable diseases and treatment of infectious disease 
        epidemics, including provision of security services.
  --Need for personnel augmentation (physicians, nurses, pharmacists, 
        mental health professionals and others) to handle large 
        influxes of patients.
  --Need for infrastructure and collaboration between hospitals and EMS 
        systems that support effective diversion and referral plans.
    The guidance for the implementation plan to address those needs 
includes the following specific points:
  --Describe the plan for increasing hospital bed capacity to 
        accommodate increases in admissions from an infectious disease 
        epidemic over an extended period of time.
  --Describe the plan to address overcrowding and the need for hospital 
        diversion, with large numbers of acute casualties arriving on 
        their own or by ambulance, including a rapid communication plan 
        with EMS units that allows them to determine a destination 
        immediately at any time.
  --Describe how hospitals will receive patients on a daily basis when 
        several hospitals are on diversion simultaneously.
  --Describe the plan for electronic tracking of bed status across the 
        State with a central device or system, and how this information 
        will be updated continuously to maintain currency.
  --Describe how additional hospital and EMS personnel will be 
        recruited and deployed at the local level to implement an 
        effective medical bioterrorism response plan. Plans should 
        address the capability of immediately deploying 50 or more 
        extra personnel in urban areas, and 20 or more in rural areas.
  --Describe the plan for ensuring support for hospitals and EMS 
        systems through mutual aid agreements, metropolitan medical 
        response systems or disaster medical assistance teams.
  --Describe how patients could be triaged to make additional hospital 
        bed space available during a terrorism event.
  --Describe the plan for using nonhospital facilities to shelter and 
        treat mass casualties or epidemic victims if hospitals are 
        overwhelmed.
    Question. In the event of a disaster there would be many people who 
are actually not hurt or injured, but who have concerns about their 
well-being. These worried-well could overwhelm emergency departments if 
there is no alternative for them to use. Regional poison centers handle 
many calls every day from people who are worried about some exposure 
that they or their children may have had to a poison or a drug. 
Therefore, these regional poison centers offer the potential to handle 
thousands of phone calls from such patients preventing emergency 
departments from being overwhelmed. Have you considered funding such a 
system to handle the worried-well? Have you considered utilizing 
regional poison centers for this task?
    Answer. The Hospital Preparedness implementation plan guidance 
covers the following specific points:
  --Describe how the general public will be educated as to where and 
        when to present to the hospital or to activate EMS.
  --Describe the public relations plan for dealing with large numbers 
        of patients, worried well, family and friends, and media.
  --Describe the plan for enhancing the ability of poison control 
        centers serving the State to respond immediately to requests 
        for information from clinicians and the general public 
        following a bioterrorist incident.
    In addition, the Department is proposing to fund the Poison Control 
Center program at a level of $21 million in fiscal year 2003, the same 
as fiscal year 2002. The intent is to utilize these centers as a source 
of accurate and up-to-date information, including on biological or 
chemical attacks.
                        national trauma network
    Question. In Colorado, Denver Health has created the Rocky Mountain 
Regional Center for the Medical Response to Terrorism, Mass Casualties 
and Epidemics. It has integrated the 911 paramedic system, the Level I 
trauma center, the Rocky Mountain Poison Center, the Public Health 
Department, the CDC Exemplar site for Public Health Preparedness and 
the Metropolitan Medical Response System and the key physicians from 
each of these areas to develop an organized system for the response to 
terrorist events. Has there been any consideration to identifying such 
unique resources like this throughout the country, coordinating them 
into a national network and providing funding to them for the further 
development of such unique centers?
    Answer. Yes, there has been consideration given to identifying 
exceptional model(s) programs that could provide expert technical 
assistance and training to others. These discussions have been framed 
within the context of the proposed President's budget (fiscal year 2003 
for $235 million) for the Bioterrorism Hospital Preparedness Program. 
All of the Congressionally appropriated funds for fiscal year 2002 have 
already been committed.

                            COMMITTEE RECESS

    Chairman Byrd. The committee will stand in recess until 
2:30, at which time Attorney General John Ashcroft and the 
Director of FEMA, Mr. Joe Allbaugh, will appear.
    [Whereupon, at 1:05 p.m., the committee was recessed, to 
reconvene at 2:30 p.m., the same day.]
         (Afternoon Session, 2:33 p.m., Thursday, May 2, 2002)

    The committee met at 2:33 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Leahy, Mikulski, Murray, Dorgan, 
Stevens, Specter, Domenici, Bond, Gregg, Craig, and DeWine.
STATEMENT OF JOHN ASHCROFT, ATTORNEY GENERAL, 
            DEPARTMENT OF JUSTICE

              OPENING STATEMENT OF CHAIRMAN ROBERT C. BYRD

    Chairman Byrd. The committee will resume its hearings. The 
committee is honored this afternoon to welcome a very special 
guest from our country's northern neighbor, Canada. And that 
special guest is The Honorable Peter Milliken, Canada's Speaker 
of the House of Commons. Mr. Speaker, we support you in your 
efforts to promote interparliamentary dialogue, and we 
appreciate your presence at this afternoon's hearings.
    I want you to know that probably the foremost Anglophile in 
Congress is sitting at this microphone doing the talking right 
now. I can tell you, I can name the English monarchs--of 
course, I know I'm speaking to the Canadian speaker, but I 
don't think these statements are out of place--I can name the 
English monarchs from the year 519 to the present. I know how 
much this country owes England, the motherland, and I say the 
motherland--I am conscious of the fact that the Spanish were in 
the southern part of this country and in the Southwest. They 
established the first city in this country, St. Augustine, and 
then on to Sante Fe, New Mexico.
    But the people who were at the Constitutional Convention in 
1787 were, in the main--in the main--British, and I'm conscious 
of that fact, and I'm conscious of how much this country owes 
England, the British Isles, including the Irish and the Welsh, 
and the Scots, for our Constitution, our laws, our language, 
and our way of life.
    And I want you to know that I particularly appreciate your 
presence here this afternoon, as homeland security is an issue 
of universal concern. We hope that you'll find this meeting to 
be informative. And so I just want to take a minute to salute 
you and the people of your country, of Canada.

               WELCOME OF JOHN ASHCROFT, ATTORNEY GENERAL

    Chairman Byrd. General Ashcroft, we welcome you to the 
Senate Appropriations Committee as we conduct our hearings on 
homeland security. The Justice Department is perhaps the 
linchpin civilian agency in America's homeland security 
architecture. The agencies within the Department, particularly 
the FBI and the INS, headline the Federal Government's campaign 
to provide security at home for the American people.
    Unfortunately, the Immigration and Naturalization Service 
has become the poster child for what's wrong with America's 
homeland security. I know that there are many dedicated men and 
women who go to work for the INS every day determined to serve 
the American people to the very best of their ability, so the 
fault lies not with the employees of that agency. The fault 
lies somewhere with the leadership and the organizational 
structure of the agency.
    Those are problems that can be fixed, and they ought to be 
fixed. I hope that whatever emerges from the reorganization 
will amount to more than just a reshuffling of the decks, as it 
were, the deck chairs on the Titanic, which happened to go 
down, as I remember, on April 15, 1912. As I recall, there were 
1,517 persons who lost their lives in that tragic accident. I 
hope, then, that the INS will be the key to protecting our 
borders and securing the homeland. It must be an effective, 
reliable, and accountable agency.
    I have long been a supporter of the FBI. It's a class 
agency and has an excellent Director in Robert Mueller. I look 
forward to hearing from you on the homeland security needs of 
that agency, especially in the area of cyberterrorism.
    General Ashcroft, you're a key player in implementing 
America's homeland security strategy. The Department of Justice 
supports the Nation's first responders with several Office of 
Justice programs and through the Office of Domestic 
Preparedness. The Appropriations Committee has heard testimony 
from first responder organizations in support of continuation 
of the existing programs, and we will look forward to your 
testimony in this regard.
    The President has proposed to consolidate a number of 
homeland defense programs that are under the jurisdiction of 
the Justice Department and FEMA, and so that is why we have 
asked you to testify with the FEMA Director today, Mr. Joseph 
Allbaugh.
    We will ask the Attorney General to make his opening 
remarks, and then we will ask the Director of FEMA to make his 
remarks. This will allow members to ask both witnesses about 
how their agencies would relate to each other in implementing 
the President's proposal. We appreciate your courtesy in 
following this procedure. We welcome you before the committee 
today, and we look forward to your testimony.
    Senator Stevens.
    Senator Stevens. Thank you, Mr. Chairman.
    Chairman Byrd. Incidentally, may I say, Senator Stevens, 
since we've been talking about England, my forebear on my 
father's side came to this country from England in 1657. He 
settled on the Rappahannock River in Virginia. He worked 7 
years to pay for his trip across the water. He was brought to 
this country by a man named Stevens. That may be one of the 
reasons why I think so very much of you.
    I believe his name was spelled, however, S-t-e-p-h-e-n-s. 
So much for that. Senator Stevens, would you give----

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. My grandfather used to say they kicked 
that one letter out of our family a long time ago, but I'd have 
to think about that.
    I do welcome both of you, and I welcome our Canadian--my 
southern neighbors here, Mr. Chairman. My brother emigrated to 
Canada. And I'm always pleased to see our southern neighbors 
come visit our country.
    And for those who didn't really pick up the total impact of 
what the chairman said about his knowledge of lineage of the 
British crown, I can vouch that I listened to that once, and I 
can also say that I sat down about one-third of the way 
through. It's a very long lineage, I can tell you that. But 
Senator Byrd has the most prodigious memory I've ever seen in 
any human being.
    Senator Leahy. If the Senator from Alaska would yield on 
that point, I heard him in the presence of Queen Elizabeth II 
at a luncheon here point out that he knew all the monarchs of 
England. Her response was that, as Queen of England, she could 
say that he was about the only person that she'd ever met who 
could name them from memory.
    Senator Stevens. And their consorts or queens. But I say to 
you, Mr. Chairman, in the time of the colonies, Stevens was 
sort of like Jones. There were lots of Stevens around, and I 
don't understand why, but they were.
    I welcome the two of you, because I do think these hearings 
are doing some good for us, and we need this information. I 
continue to be disturbed about some of the ways in which the 
funding requests have been presented to us, and so these 
hearings have helped us try to understand that. So I hope that 
you will understand why it's necessary for us to get these 
details.
    But in particular, right now, I think that the difficulty 
we have is trying to separate out why some of the monies are 
asked for in the supplemental and others in the 2003 budget, 
and there's no indication of whether the 2003 budget will be 
followed by another supplemental. We thought we had done away 
with supplementals, but September 11th taught us that that's 
not true. But if we're to have another supplemental, I assume 
it would be, again, in 2003, a continuation of the battle 
against global terrorism. This one right now is a little 
confusing to us, and I thank you for taking the time to help us 
straighten it out.
    Chairman Byrd. Please proceed, Mr. Attorney General. 
Afterwards, I shall call on Mr. Allbaugh.

             OPENING STATEMENT OF ATTORNEY GENERAL ASHCROFT

    Attorney General Ashcroft. Mr. Chairman, I thank you for 
the honor of appearing before you and Senator Stevens and 
members of the committee. I'm not only honored to be before 
you, but to be here with the Director of FEMA, Joe Allbaugh, to 
discuss the efforts of the Department of Justice to protect and 
secure the homeland, the United States of America.
    The Department's ability to respond effectively to the 
horrific events of September 11th and to move forward to 
prevent similar events from occurring in the future is 
strengthened by the leadership of this committee. Long before 
the attacks of September 11th, you recognized the importance of 
interagency coordination and planning, information sharing with 
State and local enforcement, and the need to train and equip 
first responders for such eventualities. I appreciate the 
committee's continued support, and I commend you for organizing 
this series of hearings.

                 NATIONAL SECURITY COORDINATION COUNCIL

    The Department of Justice is marshaling its resources to 
prevent and disrupt terrorist attacks. On March 5, 2002, 
consistent with the fiscal year 2002 appropriations act and the 
President's budget request for 2003, I announced the creation 
of the National Security Coordination Council of the Department 
of Justice. That National Security Coordination Council is 
chaired by the Deputy Attorney General. Its principal mission 
is to facilitate a more seamless coordination of all functions 
of the Department relating to national security, particularly 
our efforts to combat terrorism. The National Security 
Coordinating Council is also the Department's voice on these 
issues to other Federal agencies.

                           HOMELAND SECURITY

    For fiscal year 2003, the President's budget identifies 
$37.7 billion for homeland security. Of that total, 19 percent, 
or $7.1 billion, supports the homeland security activities of 
the Department of Justice. Homeland security touches on almost 
all of the Department's components and accounts.
    My testimony on February 26th before the Senate 
Subcommittee on the Departments of Commerce, Justice, and 
State, the Judiciary, and Related Agencies, described in detail 
the Department's budget request for fiscal year 2003. Rather 
than repeating that testimony here, I would highlight our most 
significant homeland security initiatives, border security and 
counterterrorism.
    The President's fiscal year 2003 budget recognizes that 
border security is vital to ensuring the safety of our citizens 
and homeland. Currently, our Nation does not have a 
comprehensive, reliable system to track the entry and exit of 
individuals who enter the United States on temporary visas in 
order to determine who may have overstayed their visas or who 
may be inappropriately staying behind. In addition, we do not 
have sufficient ability to detect, identify, and locate short-
term visitors who may pose a security risk to the United 
States.
    The homeland security component of the fiscal year 2003 
budget request for INS totals $4.69 billion. To strengthen the 
security of our Nation's borders, we are proposing program 
improvements totalling $856 million, including $362 million to 
begin constructing an entry-exit system, and $187 million for 
the ongoing activities funded in the fiscal year 2002 
Counterterrorism Supplemental Appropriation.
    The fiscal year 2003 budget will support an increase of 
over 2,200 new enforcement positions for the Immigration and 
Naturalization Service, including 570 new Border Patrol agents, 
1,160 new inspectors for air, land, and sea ports of entry. It 
will enable the INS to deploy additional enforcement personnel, 
together with advanced state of the art technology and systems 
to prevent illegal entry into the country and to identify and 
to remove individuals who threaten the safety of America.

                       BORDER SECURITY INITIATIVE

    Components of the Border Security Initiative include 
implementing a comprehensive entry and exit system, deploying 
force-multiplying equipment, integrating separate information 
systems to ensure timely, accurate, and complete enforcement 
data, among other objectives. As part of the effort to 
strengthen our border security, we hope to build upon the 
success we have already seen from a pilot deployment of 
fingerprint databases at certain ports of entry. In just the 
first 4 months of 2002, the INS was able to use fingerprint 
checks to apprehend over 1,000 aliens who were wanted by 
Federal, State, and local law enforcement agencies.
    Let me give you just a couple of examples. February 28, 
2002, an individual wanted by the Los Angeles Police Department 
for a triple homicide was identified and apprehended, as a 
result of a secondary referral to the IDENT system of the INS. 
February 7, 2002, an alien arriving from Colombia seeking entry 
as a tourist, who was the subject of an outstanding warrant by 
the FBI's violent crimes unit in Los Angeles, was identified 
and apprehended. April 2, 2002, a homicide suspect wanted by 
Harris County, Texas, authorities on a 1989 warrant was 
identified and apprehended.

                           INS RESTRUCTURING

    Our ability to strengthen border security also requires an 
Immigration and Naturalization Service that is accountable and 
well-managed. The administration is committed to building and 
strengthening an immigration services system that ensures 
integrity, provides services accurately and efficiently, and 
emphasizes a culture of respect. I appreciate the committee's 
efforts to work with the Department on the critical issue of 
restructuring the INS, and we look forward to continuing to 
work with Members of the House and Senate, and this committee, 
in particular, on this issue.

                    FBI COUNTERTERRORISM ACTIVITIES

    As a result of the events of September 11, 2001, the 
Federal Bureau of Investigation, with the cooperation of other 
Federal, State, local, and international law enforcement 
agencies, is conducting the largest criminal investigation in 
the history of the United States. The men and women of the FBI 
continue to be the front line of our Nation's efforts against 
terrorism, working in concert with other Federal, State, and 
local agencies to prevent additional terrorist attacks, and to 
bring to justice those who commit crimes against our citizens 
and our interests. The work of the FBI is critical to winning 
the war against terrorism.
    The homeland security component of the FBI's budget totals 
$1.26 billion. In order to enhance the FBI's counterterrorism 
programs, our fiscal year 2003 budget seeks $411.6 million in 
program improvements, including 221 new FBI special agents, 
$109.4 million to enhance information technology projects, 
$224.1 million for increased intelligence, surveillance, and 
response capabilities, and $78.1 million for enhanced personnel 
and information security.
    The establishment of Joint Terrorism Task Forces has 
enhanced the FBI's ability to coordinate terrorism 
investigations among FBI field offices and their respective 
counterparts in Federal, State, and local law enforcement 
agencies. Our fiscal year 2003 budget supports a total of 56 
Joint Terrorism Task Forces throughout the country. That's one 
for each of the FBI district field offices.

                      SUPPLEMENTAL APPROPRIATIONS

    For the fiscal year 2002 supplemental appropriations 
request pending before you, it's a request that includes $51 
million for three critical initiatives of the Department of 
Justice. That's $6 million to deploy IDENT/IAFIS fingerprint 
database pilot program capability for 30 additional ports of 
entry--and that's the pilot program that has picked up the 
examples that I talked about. When you put the information from 
the IAFIS fingerprints of the FBI into a system that's 
recognizable at ports of entry by people checking fingerprints, 
we get that kind of return. There is also $35 million to 
replace lost immigration revenues resulting from a decline in 
international air travel since September 11th that normally 
would fund INS objectives.
    And there is $10 million for the Foreign Terrorist Tracking 
Task Force. Now, the Foreign Terrorist Tracking Task Force was 
established at the President's direction to coordinate Federal 
agency efforts to bar from the United States all aliens who are 
representatives, members, or supporters of terrorist 
organizations. The task force will also lead the Government's 
efforts to track, to detain, to prosecute, and deport any such 
aliens who manage to enter our country.

                          INFORMATION SHARING

    One of our most important responsibilities in the war on 
terrorism is to share appropriate information with our State 
and local law enforcement partners. In response to the events 
of September 11th, I directed each United States Attorney's 
Office to establish an Anti-terrorism Task Force for broader 
coordination of our antiterrorism efforts across the country. 
Our ATTFs facilitate information sharing between Federal and 
State authorities and coordinate local antiterrorism efforts 
within each judicial district, all of the different judicial 
districts in the country. The Criminal Division of the Justice 
Department provides overall policy guidance and direction to 
these task forces in each of the Federal judicial districts of 
America.
    Congress acted to fund these task forces in the fiscal year 
2002 Counterterrorism Supplemental Appropriation, and I 
appreciate the committee's support and action in that respect. 
The fiscal year 2003 budget request proposes to continue that 
funding, with a total of $55.6 million for the task forces 
identified as homeland security funding.

                         U.S. MARSHALS SERVICE

    As accused terrorists are brought to justice, and the 
threat of terrorism is understood on a continuing basis, there 
will be a need for enhanced security measures at our 
courthouses. The U.S. Marshals Service protects the Federal 
courts and ensures the effective operation of our judicial 
system. A total of $147.9 million, requested for the U.S. 
Marshals Service in fiscal year 2003, is identified as homeland 
security-related.

                          IT INTEROPERABILITY

    Another critical element of our battle against the 
terrorist threat is developing and enhancing interoperable 
databases and telecommunications systems for the Department's 
law enforcement activities. For these efforts, the homeland 
security budget seeks $60 million to continue narrowband 
investment in radio infrastructure to allow the various law 
enforcement agencies and operations to communicate effectively 
with each other in times of need.

                        TRANSFER OF ODP TO FEMA

    The administration has proposed transferring the programs 
of the Office of Domestic Preparedness to the Federal Emergency 
Management Agency in fiscal year 2003. In May 2001, the 
President stated his desire that the numerous Federal programs 
offering training and assistance to State and local governments 
be, and I quote, ``seamlessly integrated in order to maximize 
their effectiveness.'' This desire, stated months before the 9/
11 tragedy of last year, is part of the budget as reflected in 
the budget submission this year. The Office of Domestic 
Preparedness is continuing to work expeditiously with State and 
local first responders to review and approve the State domestic 
preparedness strategies that are required before grants can be 
awarded.
    I'm pleased to report that, as of April 26th, the Office 
has received 51 State strategies, of which we have approved 49, 
and has awarded approximately $77 million to enhance the 
capacity of State and local jurisdictions to respond to and 
mitigate the consequences of terrorist incidents.

                    TERRORISM AND TERRORIST ATTACKS

    Chairman Byrd, Senator Stevens, members of the committee, 
the orchestrated terrorist attacks of September 11th forever 
changed our perception of homeland security. With these 
attacks, terrorism ceased to be seen as a distant threat and 
became an imminent danger to our families, institutions, and 
freedoms. The first and the overriding priority of the 
Department of Justice is to protect Americans against future 
acts of terror and to bring terrorists to justice. You may be 
assured that we take our homeland security responsibilities 
seriously. Your leadership and assistance in assuring that the 
Department of Justice has the resources necessary to carry out 
these responsibilities is greatly appreciated. And obviously, 
after we listen to my colleague, I'd be very pleased to respond 
to questions.
    [The statement follows:]
                  Prepared Statement of John Ashcroft
    Mr. Chairman, Senator Stevens, Members of the Committee: It is an 
honor to appear before you to discuss the efforts of the Department of 
Justice to protect and secure our nation's homeland. The Department's 
ability to respond effectively to the horrific events of September 
11th, and to move forward to prevent such events from occurring in the 
future, is a direct result of the leadership of this Committee. Long 
before the attacks of September 11th, you recognized the importance of 
inter-agency coordination and planning, information sharing with state 
and local law enforcement, and training and equipping first responders. 
I appreciate the Committee's continued support and commend you for 
organizing this series of hearings.
    Countering a threat as vast and as complex as terrorism requires 
unprecedented cooperation and coordination. No single individual, 
agency, department or government can succeed alone. We must weave a 
seamless web of prevention, involving not just government, but 
businesses and communities, state and local governmental organizations, 
and all of our citizens in a united effort to identify, disrupt and 
dismantle terrorist networks.
    The Department of Justice is marshaling our resources to fight 
terrorism in the most effective manner possible. On March 5, 2002, 
consistent with Section 612 of the fiscal year 2002 Appropriations Act 
and the President's budget request for fiscal year 2003, I announced 
the creation of the National Security Coordination Council (NSCC) of 
the Department of Justice, chaired by the Deputy Attorney General. The 
principle mission of the NSCC is to ensure a more seamless coordination 
of all functions of the Department relating to national security, 
particularly our efforts to combat terrorism. It also is the 
Department's voice on these issues to other federal agencies.
    For fiscal year 2003, the President's budget identifies $37.7 
billion for homeland security. Of that total, 19 percent or $7.1 
billion supports the homeland security activities of the Department of 
Justice. In addition to over $539 million to continue activities begun 
under the fiscal year 2002 Counterterrorism Supplemental, our budget 
includes $1.5 billion in new resources to enhance law enforcement 
support to prevent, combat, and protect against acts and threats of 
terrorism and to strengthen enforcement along our nation's borders.
    Homeland security touches on almost all of the Department's 
components and accounts. My testimony before the Subcommittee on the 
Departments of Commerce, Justice, and State, the Judiciary and Related 
Agencies on February 26, 2002 described in detail the Department's 
budget request for fiscal year 2003. Rather than repeating that 
testimony here, I will highlight our most significant homeland security 
initiatives--border security and counterterrorism.
  preventing and combating terrorism, including securing the nation's 
                                 border
    The first and overriding priority of the Department of Justice is 
to protect Americans against acts of terrorism and to bring terrorists 
to justice. In response to the heinous attacks on September 11, 2001, 
the full resources of the Department of Justice, including the Federal 
Bureau of Investigation, the Immigration and Naturalization Service, 
the U.S. Attorneys offices, the U.S. Marshals Service, the Bureau of 
Prisons, the Drug Enforcement Administration and the Office of Justice 
Programs, were deployed to investigate these crimes, to protect our 
country from further attacks, and to assist survivors and victim 
families.
    In addition, the Department of Justice, including all 94 U.S. 
Attorneys offices and 56 FBI field offices, is implementing the USA 
PATRIOT Act that was passed overwhelmingly by Congress and signed by 
President Bush. This legislation has enabled law enforcement to make 
use of new powers in intelligence gathering, criminal procedure and 
immigration violations. With these new provisions, the fight against 
terrorism has the full force of the law while protecting Constitutional 
civil liberties, and we thank the Congress for its leadership in 
providing these critical tools.
Border Security
    The President's fiscal year 2003 budget recognizes that border 
security is vital to ensuring the safety of our citizens and our 
homeland. Illegal overstays of visitors and others coming temporarily 
into the United States pose a potential risk to homeland security. 
Overstays result in approximately 40 percent of individuals remaining 
in this country illegally. Currently, our nation does not have a 
reliable system to track the entry and exit of these individuals in 
order to determine who may have overstayed. In addition, we do not have 
sufficient ability to detect, identify and locate short-term visitors 
who may pose a security risk to the United States.
    The Homeland Security component of the fiscal year 2003 budget 
request for INS totals $4.69 billion. To secure gaps in our nation's 
borders, we are proposing program improvements totaling $856 million, 
including $362 million for an entry/exit system, and $187 million for 
ongoing activities funded in the fiscal year 2002 Counterterrorism 
Supplemental Appropriation.
    The fiscal year 2003 budget will support an increase of over 2,200 
new positions for INS--570 new Border Patrol agents and 1,160 new 
inspectors for air, land, and sea ports of entry. It will enable the 
INS to deploy additional enforcement personnel together with advanced, 
state-of-the art technology and systems to prevent illegal entry into 
the country; target individuals who threaten our safety; and assist 
with non-citizens entering and exiting the United States. Components of 
the border security initiative include implementing a comprehensive 
entry/exit system, deploying force multiplying equipment, and 
integrating separate information systems to ensure timely, accurate, 
and complete enforcement data.
    In addition, the President's recent supplemental request for fiscal 
year 2002 includes $35 million to sustain the Immigration User Fee 
account and enable INS to implement fully our initiatives for increased 
air and seaport security that were provided in fiscal year 2002. This 
supplemental funding is necessary to offset the significant decline in 
international air travel that has occurred since September 11th, and 
the resulting decline in immigration fee revenues.
    Our ability to ensure border security requires a well managed 
Immigration and Naturalization Service. This Administration is 
committed to building and strengthening an immigration services system 
that ensures integrity, provides services accurately and efficiently 
and emphasizes a culture of respect. I appreciate the Committee's 
efforts to work with the Department on the critical issue of 
restructuring the INS, and we look forward to continuing to work with 
you on this issue in the future.
    For the Executive Office for Immigration Review, the fiscal year 
2003 budget identifies $14.5 million to coordinate with INS 
initiatives. Of that total, $9.2 million is new funding requested for 
fiscal year 2003 to meet anticipated growth of 27,800 cases in the 
caseload of Immigration Judges and the Board of Immigration Appeals.
Enhancing the FBI's Counterterrorism Capabilities
    As a result of the events of September 11, 2001, the FBI, with the 
cooperation of other federal, state, local and international law 
enforcement agencies, is currently conducting the largest criminal 
investigation in the history of the United States. The men and women of 
the FBI continue to be on the front line of our nation's efforts 
against terrorism, working in concert with other federal, state and 
local agencies to prevent additional terrorist attacks and to bring to 
justice those who commit crimes against our citizens and our interests. 
The work of the FBI is critical to winning this war.
    The homeland security component of the FBI's budget totals $1.26 
billion. The FBI's efforts to identify and neutralize terrorist 
activities require a comprehensive understanding of current and 
projected terrorist threats. In order to enhance the FBI's 
counterterrorism programs, our budget seeks $411.6 million in program 
improvements, including 221 new FBI special agents; $109.4 million to 
enhance information technology projects; $224.1 million for increased 
intelligence, surveillance, and response capabilities; and $78.1 
million for enhanced personnel and information security. Our budget 
also reflects $238 million for ongoing activities funded in the fiscal 
year 2002 Counterterrorism Supplemental Appropriation.
    The establishment of the Joint Terrorism Task Force program has 
enhanced the FBI's ability to promote coordinated terrorism 
investigations among FBI field offices and their respective 
counterparts in federal, state, and local law enforcement agencies. Our 
fiscal year 2003 budget supports a total of 56 Joint Terrorism Task 
Forces throughout the country--one for each FBI field office.
    The fiscal year 2002 supplemental appropriations request pending 
before you includes a request for $10 million to support the 
Department's Foreign Terrorist Tracking Task Force. On October 29, 
2001, the President directed the Department to establish this task 
force to coordinate federal agency efforts to bar from the United 
States all aliens who are representatives, members or supporters of 
terrorist organizations. In addition, aliens who are suspected of 
engaging in terrorist activity or aliens who provide material support 
to terrorist activity are barred from the United States. The task force 
will also lead the government's efforts to track, detain, prosecute and 
deport any such aliens who have managed to enter our country.
Additional Enhancements To Counterterrorism Infrastructure
    One of our most important responsibilities in the war on terrorism 
is information sharing with our state and local law enforcement 
partners. In response to the events of September 11th, I directed each 
United States Attorney's Office to establish an Anti-terrorism Task 
Force for broader coordination of our anti-terrorism efforts across the 
country. Our ATTFs facilitate information sharing between federal and 
state authorities, coordinate local anti-terrorism efforts within each 
judicial district, and serve as a standing organizational structure for 
a coordinated response to any terrorist incidents that might occur in 
the district. The Criminal Division provides overall policy guidance 
and direction to these task forces. Congress acted to fund these task 
forces in the fiscal year 2002 Supplemental Appropriation, and the 
fiscal year 2003 budget request proposes to continue that funding. A 
total of $55.6 million for the task forces is identified as homeland 
security funding.
    As accused terrorists are brought to justice in the federal court 
system, there will be a need for enhanced security measures. The United 
States Marshals Service protects the Federal Courts and ensures the 
effective operation of the judicial system. A total of $147.88 million 
requested for the United States Marshals Service in fiscal year 2003 is 
identified for homeland security. The fiscal year 2003 budget proposes 
enhancements of $34.7 million to support heightened security measures 
at federal courthouses and $2.4 million to enable the U.S. Marshals 
Service to participate in the FBI's Joint Terrorism Task Force program.
    Another critical element in our battle plan against the terrorist 
threat is developing and enhancing interoperable databases and 
telecommunications systems for the Department's law enforcement 
activities. For these efforts, the homeland security budget seeks $60 
million to continue narrowband investment in radio infrastructure. An 
increase of $23 million is requested for Identification Systems 
Integration, along with a supplemental request for fiscal year 2002 of 
$5.7 million.
    The fiscal year 2003 budget request for the Department seeks an 
increase of $35 million for homeland security in the Attorney General's 
Counterterrorism Fund to reimburse the Drug Enforcement 
Administration's Special Operations Division for the cost of providing 
intelligence support to the FBI and other agencies conducting 
counterterrorism activities. It also includes $24.7 million for 
additional information and anti-terrorism physical security measures at 
DEA.
    The Administration has proposed to transfer the programs of our 
Office of Domestic Preparedness to the Federal Emergency Management 
Agency in fiscal year 2003. In May 2001, the President stated his 
belief that the numerous federal programs offering training and 
assistance to state and local governments be ``seamlessly integrated, 
in order to maximize their effectiveness.''
    During fiscal year 2002, the Office of Domestic Preparedness is 
continuing to work expeditiously with state and local first responders 
to review and approve the state domestic preparedness strategies that 
are required before grants can be awarded. Prior to September 11th, 
only 4 states had submitted plans. On September 21, 2001, I sent 
letters to the Governors of all 56 States and territories, urging them 
to submit their required three-year domestic preparedness strategies by 
December 15, 2001. As of April 26, 2002, the Office of Domestic 
Preparedness had received 51 strategies, approved 49, and has awarded 
approximately $77 million to enhance the capacity of state and local 
jurisdictions to respond to and mitigate the consequences of terrorist 
incidents.
    Chairman Byrd, Senator Stevens, Members of the Committee, the 
orchestrated terrorist attacks of September 11th forever changed our 
perception of our homeland security. With these attacks, terrorism 
ceased to be seen as a distant threat and became an imminent danger to 
our families, our institutions, and ourselves. As I mentioned earlier, 
the first and overriding priority of the Department of Justice is to 
protect Americans against future acts of terrorism and to bring 
terrorists to justice. You may be assured that we at the Department of 
Justice take our homeland security responsibilities seriously. Your 
leadership and assistance in assuring that the Department has the 
resources necessary to pursue these responsibilities is greatly 
appreciated. I look forward to responding to any questions you may 
have.

    Chairman Byrd. Thank you, General Ashcroft.
    Now the Chair will present Mr. Allbaugh to the committee. 
Mr. Allbaugh, I am pleased to welcome you to this hearing on 
homeland security. FEMA has a long history of providing Federal 
disaster assistance to communities affected by natural 
disasters. In my State, FEMA has been of great assistance to 
communities in the wake of floods and other disasters. FEMA's 
ability to mobilize quickly in response to a disaster makes 
FEMA a key player in the Nation's homeland security program.
    The events of September 11 brought new responsibilities and 
new pressures to FEMA. You have a big task in front of you, and 
the committee appreciates your efforts to tackle that task. The 
President has proposed to consolidate a number of first 
responder programs within FEMA. The committee has heard 
testimony from numerous first responder organizations that 
existing programs are effective and productive. The committee 
will listen with interest to your justification of this 
proposed consolidation.
    Senator Stevens, do you have anything at this point?
    Senator Stevens. No, I generally welcome my friend--and he 
is a friend, Mr. Chairman, one of my fishing buddies. Glad to 
see him here. Thank you very much.
    Chairman Byrd. Mr. Allbaugh, I speak as a person who's 
never caught a fish in his life. That is correct. I never shot 
a shotgun except an antique shotgun that I managed to pull the 
trigger on once over in West Virginia, and I haven't stopped 
running yet.
    So would you please proceed with your statement.
STATEMENT OF JOE M. ALLBAUGH, DIRECTOR, FEDERAL 
            EMERGENCY MANAGEMENT AGENCY
    Mr. Allbaugh. Thank you, Mr. Chairman, Senator Stevens, 
members. I am honored to be here today. I'm especially honored 
to be sitting with my friend, the Attorney General of the 
United States. You should know this is the one day of my life 
that my mother knows that I will not get in trouble, because 
I'm seated next to the chief law enforcement officer of our 
country.
    Chairman Byrd. And you're seated in front of the chief law 
enforcement committee in this country, the committee that 
provides the monies.
    Mr. Allbaugh. Yes, sir, duly noted.
    I'm glad to have the opportunity to report on FEMA's plans 
to meet some of America's new homeland security challenges. I 
thank the members for their continued support of FEMA, our 
responsibility in homeland security under the President's 2003 
budget, but primarily the first responders and emergency 
managers in communities across the country. If approved by this 
committee, and subsequently Congress, the President's first 
responder initiative would make a $3.5 billion investment in 
America's fire, police, and other emergency services and would 
become the largest such investment in history. This money, 
which we hope will be the first installment in a multiyear 
plan, will be initially targeted at four areas: planning, 
equipment, training, and exercising. A grant process will be 
designed to ensure the money gets to the communities which need 
it the most, while providing Governors the flexibility they 
need in the process, as well.
    In addition to distributing this grant money, FEMA's Office 
of National Preparedness will also be developing nationwide 
standards for States and local governments pertaining to first 
responder training, equipment interoperability, emergency 
planning, mutual aid, and evaluation. These standards will 
improve America's emergency response system, eventually 
eliminating incompatibility problems that have plagued 
catastrophic response management for years and were even more 
evident on September 11th.
    We also desire to streamline the relationship between the 
first responder community and the Federal Government. The 
President has requested the transfer of the Justice 
Department's Office of Domestic Preparedness to FEMA, where we 
can merge our preparedness and response capacities into a more 
efficient and successful program. Integrating planning and 
preparedness activities into FEMA makes sense, because it will 
reduce program redundancies and provide the first responder 
community with clarity in the relationship with the Federal 
Government.
    Now, Mr. Chairman, above and beyond all other reasons for 
merging these programs is our concern for the safety of the 
American people and the first responders sworn to protect our 
citizens. Bringing the expertise and resources of these offices 
together will not only enhance our Nation's ability to prevent, 
prepare, and respond to terrorist events, it is, in my opinion, 
vital to homeland security interests of the United States.
    Americans understand homeland security cannot be a 
spectator sport, which is why the President directed FEMA to 
develop Citizen Corps, to let citizen volunteers do their part 
to make their community safer and stronger nationwide. As 
everyone knows in this room, Americans across the country asked 
what they could do to help, following September 11th. Citizen 
Corps is one part of the President's plan to channel that 
selfless spirit and energy to make our Nation more secure, one 
community at a time. FEMA will assist that effort by providing 
local communities and assistance in planning and training 
volunteers.
    Finally, let me take this opportunity to provide you with 
an overview of FEMA's portion of the supplemental appropriation 
request. Of the $3.07 billion we requested, $2.75 billion would 
be allocated to New York City for continued disaster relief to 
aid those recovery efforts. The remaining money, if 
appropriated, would be spent on the other priorities I 
mentioned above: first, first responder planning, training, and 
equipment; second, mutual aid coordination within and among 
States; third, secure communications infrastructure for 
Governors and their designees to receive classified homeland 
security information; and, last, funding for Citizen Corps 
Volunteer Preparedness Initiative.
    Let me also add, for the record, that when FEMA takes on 
its homeland security responsibilities, I can assure the 
members of this committee that we will not do so at the expense 
of another core responsibility, which is to help Americans 
prepare for and recover from natural disasters. FEMA has always 
taken an all-hazards approach to our job, and that will 
continue in the future.
    We all know that there is a lot of work ahead to secure 
America's homeland, but I am confident that, with the 
President's leadership and your guidance, the American people 
can meet whatever challenges may hold in the future. I 
appreciate the opportunity to appear before you today and join 
the Attorney General in answering any questions.
    The world changed dramatically September 11th. We have a 
huge task ahead of us, an awesome responsibility, and I'm 
honored, for the past 14 months, to hold this position, just an 
ordinary guy in an extraordinary situation, and I appreciate 
the honor that you and many others have given me to serve our 
country.
    Thank you, Mr. Chairman.
    [The statement follows:]
                 Prepared Statement of Joe M. Allbaugh
    Good afternoon, Mr. Chairman and Members of the Committee. I am Joe 
Allbaugh, Director of the Federal Emergency Management Agency. I am 
pleased to be with you today to talk about our mission to help this 
Nation be better prepared to respond to acts of terrorism.
    Just over seven months ago, several thousand people lost their 
lives in the terrorist attacks at the World Trade Center, the Pentagon, 
and when United Airlines Flight 93 crashed into a field in rural 
Pennsylvania. Four hundred and fifty of them were first responders who 
rushed to the World Trade Center in New York City--firefighters, police 
officers, and port authority officers.
    These events have transformed what was a mostly theoretical ongoing 
dialogue about terrorism preparedness and first responder support into 
action. Although the President had directed me to establish the Office 
of National Preparedness fully four months before September 11, our 
responsibilities today are greatly expanded in light of the new 
challenges and circumstances. The creation of the Office of National 
Preparedness is intended to address a long-recognized problem--the 
critical need that exists in this country for a central coordination 
point for the wide range of federal program dealing with terrorism 
preparedness.
    The mission and overriding objective of the Office of National 
Preparedness at FEMA is to help this country be prepared to respond to 
acts of terrorism.
    This work is underway now, although further action by Congress is 
needed to fund the First Responder Initiative, and, to consolidate the 
myriad of federal preparedness efforts under the Federal Emergency 
Management Agency.
    Our effort has three main focuses--the First Responder Initiative, 
providing a central coordination point for federal preparedness 
programs and Citizen Corps.
First Responder Initiative
    For many years now, emergency responders and state and local 
governments have been telling us that they need our help so they can be 
better prepared to respond to acts of terrorism. They need 
standardized, practical, compatible equipment that works in all 
possible circumstances. They need our assistance in developing response 
plans that take into account the new challenges this country is facing. 
They need to practice and refine those response plans with all possible 
partners at the local, state and federal level. These needs--clearly 
articulated by our first responders and emergency managers over several 
years--were brought even more into focus by our experiences in the 
aftermath of the September 11 attacks. The First Responder Initiative 
is designed to help meet these needs.
    FEMA is the lead agency for the President's First Responder 
Initiative. This effort focuses on providing the support that local 
responders--firefighters, police officers, and emergency medical 
teams--need to do their jobs and work together effectively. One of the 
most important things we learned from our experience responding to 
September 11 is the value of a strong, effective local response 
capability. And that capability was there in full and heroic force in 
New York and Virginia and Pennsylvania on that tragic day.
    Local first responders are the first ones there when there is a 
fire, accident, chemical spill, earthquake or flood. And they are 
certainly the first on the scene when terrorists strike.
    The President's budget seeks $3.5 billion for this initiative and 
our work is going forward on a grants process that will give the first 
responder community critically needed funds to purchase equipment, 
train personnel and prepare for terrorist incidents. The funds are to 
be used in four areas that are key to enhancing first responder 
capabilities:
  --Planning.--Funds to support the development of comprehensive 
        response plans for terrorist incidents.
  --Equipment.--Funds to purchase equipment needed to respond 
        effectively, including better, more interoperable 
        communications systems.
  --Training.--Training for responding to terrorist incidents and in 
        contaminated environments.
  --Exercises.--Coordinated, regular exercise programs to improve 
        response capabilities, practice mutual aid, and evaluate 
        improvements and deficiencies in response operations.
    We are developing a streamlined and accountable procedure that will 
speed the flow of resources to first responders, and ensure that the 
funds are used effectively and appropriately.
    In addition, we are working to resolve other issues critical to the 
success of this initiative:
  --National standards for compatible, interoperable equipment for 
        first responders and other emergency workers.
  --A national mutual aid system that allows the entire response 
        network to work together smoothly and efficiently.
  --Personal protective equipment for first responders that is designed 
        for long-term response operations and incidents involving 
        weapons of mass destruction.
  --National standards for training and exercises for incidents 
        involving weapons of mass destruction and other means of 
        causing death and destruction.
    While the National aspects of our approach are very important to a 
comprehensive program, we fully intend to keep the focus of the First 
Responder program at the State and local level. The program will be run 
through and coordinated by the States. States will be allowed to use up 
to 25 percent of the funds, with at least 75 percent of the funds 
distributed to the local jurisdictions.
    Also, though we recognize the importance of getting the funds out 
quickly, we will also insist on a plan for the use of these funds being 
in place. As a condition of receiving these grants, States will submit 
their own plans, receive plans from local jurisdictions, and allocate 
funding based on locally driven needs identified through various 
assessments.
    The funding will have a matching requirement, and in-kind matches 
will be allowable. This match can be, for example, part of the money 
that States have spent to secure a facility for training or the costs 
that have been incurred paying overtime to employees who are providing 
coverage for other employees participating in exercises or training.
    The final component we will insist on at all levels: from FEMA to 
the State to the local governments, is full accountability. We must 
maintain the confidence of our citizens that the funds are being used 
swiftly but wisely to provide increased protection for our nation.
Federal Terrorism Preparedness Programs: Coordination, Centralization
    In addition to the right equipment, planning capabilities and 
training, first responders have been telling us that they need a single 
point of contact in the federal government. This is too serious a 
matter for a turf battle among Federal agencies and Departments. The 
President's budget recognizes a need for a single entity to take the 
lead in coordinating programs, developing standards, and providing 
resources and training to help them respond to terrorist events.
    We've heard this from other sources too, the Gilmore Commission, 
for example, has pointed out that the federal government's terrorism 
preparedness programs are ``fragmented'', uncoordinated'' and 
``unaccountable.'' It also has stressed the need for a single authority 
for state and local terrorism preparedness support. Other independent 
studies and commissions also have recognized the problems created by 
the current uncoordinated approach.
    At the request of this Committee FEMA recently completed an 
``Assessment of Federal Terrorism Preparedness Training'' report that 
we transmitted to the Committee last month. The study found that 
Federal training is generally effective, but that it is also fragmented 
and, in some instances, redundant. State and local officials continue 
to be frustrated by the lack of a single coordinating point through 
which they can obtain needed training.
    It is that reality that shapes our view of how we should proceed. 
We believe it is absolutely essential that the responsibility for 
pulling together and coordinating the myriad of federal programs 
designed to help local and state responders and emergency managers to 
respond to terrorism be situated in a single agency.
    FEMA is the natural place for this responsibility to rest. We have 
been coordinating America's response to disasters for more than 20 
years. This work involves not only response activities, but 
preparedness, recovery and mitigation efforts also. Our success is 
based on our ability to organize and lead local, state and federal 
agencies; volunteer organizations; private sector groups and first 
responders.
    In my first year at FEMA I have come to appreciate that what we are 
very good at is bringing the Federal family together and drawing on the 
singular strengths and talents of a diverse array of Federal 
Departments and Agencies.
    We coordinate disaster responses that involve up to 26 federal 
agencies. In the past ten years alone, we, along with our local, state, 
federal and volunteer agency partners, have handled the response to 
events as different in the problems they posed as the Northridge 
Earthquake, Hurricane Floyd, the bombing of the Murrah Building in 
Oklahoma City and September 11. We are the lead federal agency for 
managing the consequences of terrorist events.
    We have strong ties to emergency management organizations at the 
state and local level, especially the fire service, search and rescue, 
emergency medical communities as well as state and local emergency 
management agencies. We routinely plan, train, exercise, and work with 
all these partners to prepare, respond and recover from disasters of 
all kinds.
    Since I've spent time bragging on my Agency, and I am proud of my 
team and the work they do, let me also address what we won't be doing. 
FEMA will not be training criminal investigators or forensic scientists 
or crime scene specialists. The crisis management element of a 
terrorist event, must and will remain with the Department of Justice. 
They are the experts.
    FEMA excels at consequence management. And with the new First 
Responder program we can also bring some clarity and cohesion to the 
preparedness arena. But crisis management will remain the vital 
province of DOJ. We have learned a great deal from DOJ during the 
terrorist events we have handled together. The Justice Department is a 
terrific partner and we intend to continue to work closely with them 
under the new preparedness program.
    The President's budget seeks to consolidate our nation's terrorism 
preparedness efforts under one federal agency--the Federal Emergency 
Management Agency. We believe that the centralization of terrorism 
preparedness efforts in FEMA will truly enhance the effort to address 
the needs of homeland defense.
Citizen Corps
    An important component of the preparedness effort is the ability to 
harness the good will and enthusiasm of the country's citizens. The 
Citizens Corps program is part of the President's new Freedom Corps 
initiative. It builds on existing crime prevention, natural disaster 
preparedness and public health response networks.
    It initially will consist of participants in Community Emergency 
Response Teams (FEMA), Volunteers in Police Service, an expanded 
Neighborhood Watch Program, Operation TIPS (DOJ) and the Medical 
Reserve Corps, (HHS). The initiative brings together local government, 
law enforcement, educational institutions, the private sector, faith-
based groups and volunteers into a cohesive community resource.
    These are unique and useful programs that deserve the extra 
attention and coordination that the Citizen Corps will provide. They 
are programs based in the communities with local support and direction. 
We hope to supplement those efforts and provide encouragement for 
greater participation. Also, through Citizen Corps we hope to spread 
the good ideas around. There are terrific programs and approaches to 
problems being developed all around this great country and we will have 
the opportunity for communities to share their creative ideas with 
other communities searching out the best ways to meet the challenges 
they face.
    Citizen Corps is coordinated nationally by FEMA, which also 
provides training standards, general information and materials. We also 
will identify additional volunteer programs and initiatives that 
support the goals of the Corps.
Moving Forward
    In addition to our First Responder and the Citizens Corps programs, 
we are implementing a number of other important, related initiatives. 
These include:
    Training Course Review.--As I noted earlier, we recently completed 
this review which provides a complete accounting of all FEMA and 
Federal emergency and terrorism preparedness training programs and 
activities to submit to Congress. The National Domestic Preparedness 
Office's Compendium of Federal Terrorism Training was used as a 
baseline for the FEMA Report to Congress on Terrorism and Emergency 
Preparedness and Training. To supplement the data, we met with a key 
players in a representative group of 10 cities to determine the 
effectiveness of the courses, identify unmet training needs, and 
examine the applicability of private sector training models.
    Mutual Aid.--In conjunction with the First Responder Initiative, we 
are working to facilitate mutual aid arrangements within and among 
States so the nationwide local, State, Tribal, Federal and volunteer 
response network can operate smoothly together in all possible 
circumstances. This idea is to leverage existing and new assets to the 
maximum extent possible; this involves resource typing for emergency 
teams, accreditation of individuals using standardized certifications 
and qualifications, equipment interoperability and communications 
interoperability.
    National Exercise Program.--This National Exercise Program involves 
the establishment of annual objectives, a multi-year strategic exercise 
program, an integrated exercise schedule and national corrective 
actions.
    Assessments of FEMA Regional Office Capabilities.--We are reviewing 
the capabilities of our Regional Offices to respond to a terrorist 
attack.
    Costing Methodology to Support State and Local First Responders.--
We are updating a methodology to better estimate the costs of building 
viable local and state responder capabilities, including developing 
plans, acquiring equipment, undertaking training, and conducting 
exercises to respond to terrorist attacks. The information will be used 
by FEMA to support the Office of Homeland Security in developing the 
National Homeland Security Strategy.
Close
    I am looking forward to working with this committee and each one of 
you to help this Nation be better prepared to respond to acts of 
terrorism. It's a very big challenge. We are humble in our approach, 
but we know it is something we have to do. With your help we will make 
this nation far better prepared to meet the real threats we face. I 
appreciate your ongoing support for FEMA and the time and attention you 
have given me today.
    Thank you for the opportunity to be here today. I will be happy to 
answer any questions you may have.

    Chairman Byrd. Thank you, Mr. Allbaugh. The full statements 
of the Attorney General and the Director of FEMA will be 
included in the record.
    And with Senator Stevens' agreement and understanding and 
support, the committee will now proceed with recognizing the 
chairmen and the ranking members of those subcommittees having 
jurisdiction over the programs and activities of the various 
departments and agencies that are represented at this 
afternoon's hearing.
    Following the testimony, then, and the questions by these 
personages, the chairman and the ranking member of the full 
committee will ask questions. The various chairmen of the 
subcommittees and ranking members will have 10 minutes each, 
following which, then, when committee members are recognized, 
they will be given 5 minutes each for remarks and questions.
    And so we shall begin with Mr. Hollings, who is not present 
at the moment--Mr. Gregg, who is the ranking member on 
Commerce, Justice, State, and the Judiciary Subcommittee. Mr. 
Gregg.
    Senator Gregg. Thank you, Mr. Chairman. And obviously it's 
nice to have the Attorney General and the Director of FEMA join 
us today. There are a whole series of questions which I'd like 
to ask and move through reasonably promptly.

          ATTORNEY GENERAL AUTHORITY TO DIRECT CRISIS RESPONSE

    One of the questions which I asked of the Secretary of the 
Treasury, when he was here yesterday, was if there is an event, 
a major event, a terrorist event such as occurred in New York 
or such as was practiced in Operation TOPOFF, in Portsmouth, 
New Hampshire, and in Denver, Colorado, and ATF arrives at the 
scene, FBI arrives at the scene, and FEMA arrives at the scene, 
who is in charge, Mr. Attorney General?
    Attorney General Ashcroft: Senator, I believe that the law 
allocates the primary investigative responsibility for all 
Federal crimes of terrorism to the Justice Department, and the 
Justice Department is in charge during what would be called the 
``crisis phase.'' The law specifically states that the 
Secretary of the Treasury shall assist the Attorney General at 
the request of the Attorney General. That sort of indicates 
that other agencies have a responsibility, not only under 18 
U.S.C. 2332, which provides this primary investigative 
responsibility to the Attorney General and the Justice 
Department, but under Presidential Decision Directive 39, the 
Department of Justice is the lead agency for terrorist 
incidents which occur in the United States. Within the 
Department, of course, the FBI is delegated operational control 
of the response. So we believe that it is the responsibility of 
the Justice Department, during the crisis phase. And I might 
add that the definition of the ``crisis phase,'' as opposed to 
the ``consequence-management phase,'' includes the sense that 
in all of these incidents, you're never sure whether the 
incident has been completed. During the early stages of the 
Oklahoma bombing investigation, we weren't sure whether there 
was not another bomb to go off. I'm sure we wished during the 
early stages of September 11th that we had seen the last of the 
planes to crash, but there were additional ones.
    So it is during the time of the management of the crisis 
and during the time of the settlement of those issues that the 
primary responsibility, I think, is the responsibility of the 
Justice Department, and the Federal Bureau of Investigation is 
designated with operation control of response in the Justice 
Department.
    Senator Gregg. Director Allbaugh, do you agree with that?
    Mr. Allbaugh. I do agree with that. Fortunately, we have a 
great relationship with the Justice Department and the FBI, 
that when an incident takes place, we're at the scene at the 
same time. It is helpful to, as events unfold, understand from 
the beginning what has taken place, so when the crisis period 
has ended and our responsibility becomes even greater, we have 
a comprehensive picture of what has taken place so that we can 
better manage the response period, which is still going on in 
New York City.
    Attorney General Ashcroft. May I add something?
    Senator Gregg. Certainly.
    Attorney General Ashcroft. I think this committee 
recognized and began funding several years ago the Joint 
Terrorism Task Forces that are managed in the FBI offices 
around the country. In those task forces, the potentials of 
these kinds of disasters are discussed in advance, and they are 
exercised both informally and occasionally practiced in 
advance. By working together in advance, I think it facilitates 
our ability to work together in crisis, and it also facilitates 
the time when transition requires that the controlling 
authority at the scene moves from the crisis phase to the 
consequence-management phase.
    Senator Gregg. Thank you. I appreciate that very specific 
statement as to your role and FEMA's role, and I hope that it's 
being communicated across the Government, because I'm afraid 
there continues to be some confusion.
    You listed, Mr. Attorney General, a whole series of funding 
events that involve----
    Chairman Byrd. Senator, is your microphone----
    Senator Gregg. Yes, it is.
    Chairman Byrd [continuing]. Picking up?
    Senator Gregg. I don't know if it's picking up, but it is 
on.

                    SEPARATE COUNTERTERRORISM BUDGET

    You listed a whole series of funding events which covered 
the Justice Department across all sorts of different agencies. 
I'm wondering--and I've been thinking about this for a little 
while--I'm wondering if it isn't appropriate at this time for 
us, as a Government, and for the administration to develop a 
counterterrorism budget separate from the general budget so 
that we could look rather easily at all those numbers you just 
threw out, rather than have to go through the pages and pages 
of general operation activity that are within the Justice 
Department budget. And, of course, Justice having just a big 
chunk of this whole exercise, how would you react to us asking 
you to develop sort of a separate one-pager or a two-pager that 
simply listed the terrorism undertakings of the Justice 
Department as a separate submission, and then asked other 
departments to do the same thing, and merge them into one 
document? Would that be useful to you? It would certainly be 
useful to me.
    Attorney General Ashcroft. Senator, if you asked us to do 
it, we would snap to it as quickly as we could and do the best 
we can. Let me say to you that I think there's great value in 
the integration of law enforcement. At the very fundamental 
basis of this, we need for everyone in the law enforcement 
community to be sensitive to the terrorism components of public 
order. And it might be very difficult to try and allocate 
everything to either terrorism or nonterrorism.
    One of the challenges we face now is the additional 
information sharing we need to do with local agencies. How do 
we train police to be sensitive to things they might come 
across in the conduct of their responsibilities that should be 
moved up the intelligence pipeline to the Federal Government? 
How do we train them to receive things on the intelligence 
basis that should come from the Federal Government to them?
    Senator Gregg. Mr. Attorney General, I don't want to cut 
you off, but I only have a limited amount of time. But you were 
able to list where your budget is being grossed up. I think it 
might be helpful if we got a document that reflected that. And 
I understand that there's obviously tremendous overlap in 
dollars, and dollars are fungible, and that you've been before 
committees before.

                   NEW TECHNOLOGY FOR COMMUNICATIONS

    So on another subject, could you tell us what's happening 
with the INS system which we've been trying to put in place, 
the Chimera system, which is the new technology for 
communications crossing general agency lines? It's basically a 
mirror-image of Trilogy at FBI. If you're not comfortable----
    Attorney General Ashcroft. I'm not comfortable in answering 
that question at this time. I think I need to say simply I 
don't know.
    Senator Gregg. Well, if you could get me some specifics on 
that----
    Attorney General Ashcroft. I will.
    Senator Gregg. It's a huge technological investment which 
the INS----
    Attorney General Ashcroft. This is sort of the parallel at 
INS to what the Trilogy system is at FBI.
    [The information follows:]

                           INS Chimera System

    The events of September 11 have reaffirmed the law 
enforcement community's recognition of the importance of 
ensuring that data and information collected and maintained by 
one federal component is shared with other components in need 
of that data and information in order to optimally fulfill 
their missions. As required by sections 201-202 of the Enhanced 
Border Security and Visa Entry Reform Act (``Border Security 
Act''), Public Law No. 107-173, the President, working through 
the Office of Homeland Security, must develop and implement the 
``Chimera System'' to improve information-sharing between the 
law enforcement and intelligence communities and the agencies 
responsible for immigration. Chimera will be a fully 
interoperable system containing that information collected by 
federal law enforcement agencies and the intelligence community 
that is relevant to determinations of aliens' admissibility or 
deportability.
    The system will be accessible to the INS, the Department of 
State, and other federal agencies determined by regulation to 
be responsible for the investigation and identification of 
aliens. The Department will work closely with the Office of 
Homeland Security both in developing the President's initial 
required report to Congress on the law enforcement and 
intelligence information that must be included in the Chimera 
System and in designing and implementing the system (Border 
Security Act, sec. 201(b-c)). Supported by its enterprise 
architecture project, INS is currently taking steps to 
integrate its own databases and systems that process or contain 
information on aliens. We will ensure that this integrated INS 
system is fully interoperable with the Chimera System, as 
required by section 202(a)(1) of the Border Security Act.

                        FIRST RESPONDER FUNDING

    Senator Gregg. Right. Yes. When Domenici-Nunn was 
originally passed, which gave the money to the Defense 
Department to get our local communities up to speed, and then 
it came over to ODP, and now it's being moved over to FEMA 
under the proposal of the executive branch, there was at that 
time a clear understanding that we would prioritize that 
funding to the top--at that time, it was the top 185 most 
populous cities in the country, and that they would be the 
first priority for the funding for first responder capability 
and for upgrading.
    I'm wondering, is this new, what, $3.5 billion, whether 
it's administered by you or whether it's administered by 
Director Allbaugh, and that hasn't been settled out yet, I 
don't think, from the standpoint of the Congress, but is this 
going to be sent out in a per capita way, or is it going to be 
sent out on the basis of targeting what are the most sensitive 
targeted areas, such as the top 185 cities or ports or however 
you see the sensitive targeted areas? How is this money, how 
are we prioritizing the distribution of these funds?
    Attorney General Ashcroft. I believe that's already a FEMA 
program, that aspect of things.
    Senator Gregg. Could you respond to that, then, Director 
Allbaugh?
    Mr. Allbaugh. Thank you, Senator. Our plan, and it has been 
the plan from the beginning, is to distribute this money on a 
per capita basis initially, making sure that we have the 
flexibility to take care of communities that may have sensitive 
areas that need to be fortified in some fashion, or extra 
training or extra exercises or equipment. But that is a part of 
our formula that we plan on using.
    Senator Gregg. So you're going to say that a community in 
New Hampshire and, say, the middle part of the State of New 
Hampshire would get the same per capita funding as Charleston, 
South Carolina, which is----
    Mr. Allbaugh. Not necessarily. It'll be per capita on a 
State-by-State basis; 25 percent of the money will be allowed 
to remain at the State level to address their needs. We want to 
ensure that 75 percent of the money is passed on down to 
communities to address their needs. Communities and States will 
create a plan that will be subsequently funded based on those 
two criteria.
    Senator Gregg. And that's the plan that ODP is originally 
requesting--or requested over 1 year ago, and we now have all 
the States complied with? Is that the plan we're talking about?
    Mr. Allbaugh. I don't believe so, sir. This is a new 
program, the $3.5 billion the President's requesting in the 
2003 budget.
    Senator Gregg. No. I believe that that money, though, if 
flowing pursuant to the plans which this committee basically 
enforced, but working with the Justice Department over 1 year 
ago, requested that every State produce a plan. And as of 9/11, 
there are only three plans. After 9/11, all the States 
complied, and that money is going to flow pursuant to those 
plans? Is that----
    Mr. Allbaugh. I can't answer that question. I know that we, 
at FEMA, did a 2-week study for Governor Ridge at Homeland 
Security reviewing all 50 States and the six territories, and 
it covered every aspect of their current capabilities.
    Senator Gregg. Thank you. I guess my time's up.
    Thank you, Mr. Chairman.
    Chairman Byrd. Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman, and I 
thank you for the opportunity, as someone who chairs the VA, 
HUD, and independent agencies, of which FEMA is certainly one 
of our flagship independent agencies, for the opportunity to 
participate in this very important conversation on homeland 
security.
    To both Mr. Allbaugh and Attorney General Ashcroft, 
welcome. Mr. Allbaugh, first, let me speak wearing the hat of 
the Senator from Maryland. I would like to thank you and 
President Bush for declaring Maryland and its three counties 
that were hit by a class-five tornado to be a Federal disaster 
area. The President's prompt response to the Governor's request 
was very appreciated, and it shows that, really, when it comes 
to protecting our citizens and homeland security from all 
hazards, it really doesn't matter what party you're from or 
whatever, we've got to go out and help our American people.
    Mr. Allbaugh. Absolutely.
    Senator Mikulski. So thank you.
    Mr. Allbaugh. Thank you.
    Senator Mikulski. We'll be holding our regular 
appropriations meeting on Tuesday, and I will be talking more 
about Maryland there. I would hope you and the President would 
consider coming to Maryland, but if he can't----
    Mr. Allbaugh. I'll be there.
    Senator Mikulski. Well, let me know, and we can travel the 
blue highways of Maryland together.
    Mr. Allbaugh. Great.

                       FIRST RESPONDER INITIATIVE

    Senator Mikulski. Let me go to some of the questions. And 
one of the things--my line of questioning deals first with the 
$3.5 billion request for the President's first responder 
initiative, which would combine the Office of Domestic 
Preparedness in Justice with the Fire Grant Program at FEMA. I 
want to acknowledge the role of Senator Judd Gregg, long before 
September 11th, and the role that he played in this committee 
in organizing a 3-day set of hearings on terrorism, and then 
also really being the prime mover, along with Senator Hollings, 
but the prime mover for the Office of Domestic Terrorism. So 
we've been working together on this.
    Let me come to my questions. Mr. Allbaugh, perhaps you 
could start. With great respect to what the President wants to 
accomplish, in your testimony, on page 3 and 4, really, are our 
priorities: planning, equipment, training, interoperability, 
mutual aid, national standards. What was the rationale for 
combining the Justice Program, ODP, with the Fire Grant 
Program, given the philosophy, ``If it ain't broke, don't fix 
it''?
    And then, number two, there's no authorization for this new 
approach, and how could we proceed with this? Could you share 
with the committee the rationale? There is a lot of feelings 
about that, and both the police officers and the firefighters 
would like to keep the programs intact. Could you share with us 
the thinking?
    Mr. Allbaugh. I will do my best, Senator. First, with 
regard to the tornado that hit LaPlata, I remember very vividly 
in 1998, when President Bush was Governor of Texas, just north 
of Austin he and I watched, witnessed, an F-5 tornado hit 
Texas: 28 individuals lost their lives. An entire community was 
wiped out. And I think, with that in mind, knowing that two 
individuals lost their lives as a result of the LaPlata 
tornado, it was absolutely the right thing to do to move as 
quickly as we can. And sometimes I worry that we don't move 
quickly enough to further protect lives and protect property, 
but I appreciate your comments and will pass them along to the 
President.
    I think there is a concern, I know that has been 
articulated by the President to me on several occasions, I have 
witnesses this myself and articulated back to him that there 
needs to be a designated lead Federal agency when it comes to 
training and preparedness for our first responders. And I know 
that ODP, over the years, has done a fabulous job when other 
agencies, quite frankly, would not step up to the plate and 
assume this responsibility. So, Senator Hollings, Senator 
Gregg, I appreciate their leadership, Senator Domenici, for 
making sure that someone cared about this before caring was 
appropriate.
    We have, since September 11th, taken numerous measures to 
strengthen our compatibility, our dialogue among Federal 
agencies, which has improved dramatically. And the thought, 
quite frankly, is to make it as simple as possible for the 
recipients of the training, the grants, because they're the 
ones who receive the 9-1-1 phone call. We provide training to 
first responders, ODP provides training to first responders.
    It needs to be as simple as possible, regardless of whether 
it's FEMA or Justice or somewhere. It needs to be consolidated 
for States and communities in one location. I've heard many 
first responders articulate their confusion. When they want 
specific training, they don't know who to call, whether it's 
FEMA or Justice or some other entity. And we have a great 
cooperative spirit between the two agencies, but I think it 
would be a mistake to continue business as usual since 
September 11th.
    Senator Mikulski. So you're saying, that number one, it's 
for simplicity, and also to ensure training.
    Mr. Allbaugh. I would add to that, it's our core mission at 
FEMA. This is what we do.
    Senator Mikulski. It is our support and my support, and I 
know my own Republican, wonderful colleague, Senator Bond, will 
speak to this--is that we really do believe that local people 
need to be all-hazards responders and whether it's a malevolent 
attack on the United States, or it's an accident, like in a 
chemical factory. But right now, in looking at the President's 
proposal, number one, there's no authorization for this, and so 
I wonder how you think we're supposed to do this.
    And, number two, I am puzzled that there is no real 
mechanism in what we've talked about how the money will be 
distributed. The President's budget provides no guidance as to 
how the funding for the First Responders Initiative will be 
distributed among the States. And, therefore, the question 
becomes--we'll be back to the same quagmire. And I believe, 
like you, there needs to be a sense of urgency about this.
    So, number one, do you believe that you'll--that an 
authorization is required? And, number two, what would be the 
mechanism for distribution among the States? And how could we 
be sure that local governments, who really are the first gang 
on the scene, would get their fair share of both the very much-
needed equipment that needs to be done? And, of course, that 
they would be first in line for the training, rather than the 
coordinators within a State bureaucracy?
    Mr. Allbaugh. Number one, we believe we have general 
authority to receive this program from Justice. Number two, 
we're working currently with members of EPW to design the 
proper authorization. Number three, I believe that it is our 
intent to make sure that States, local governments, receive the 
money that they need so they will help increase our capability 
nationwide.
    I witnessed, myself, on many occasions in New York City 
equipment showing up that was incompatible with New York City 
standards. Out here at the Pentagon, we had firefighters from 
Prince George's County using their own breathing apparatus. And 
when those bottles became empty, they went out in the pile 
outside of the Pentagon to retrieve new bottles of oxygen. They 
were incapable of using those bottles, because the threads were 
different. Fire trucks from Yonkers, fire trucks from Jersey 
came across the Hudson River. We could not use those pumper 
trucks that we desperately needed, because the threads, the 
couplers, were incompatible.
    There needs to be nationwide standardization. We believe we 
have the capability to provide that standardization. It needs 
to start now. In the supplemental of the $3.07 billion that 
we're asking for, $175 million will be sent immediately to 
every State to start this planning process, so we will then 
have the groundwork laid, the predicate laid, for the 2003 
money.
    Senator Mikulski. Well, just to be clear, when we talk 
about--first of all, the issue of interoperability. You and I 
have talked about it. We are very much on, shall we say, the 
same broadband. But you see that in the $3.5 billion first 
responder?
    Mr. Allbaugh. Yes, ma'am, I do.
    Senator Mikulski. Is that all part of what you want to do 
with first responder money?
    Mr. Allbaugh. Yes, ma'am.
    Senator Mikulski. Let me go, then, to something called the 
Incident Command Management. My colleague, Senator Gregg, asked 
about who's in charge. And Attorney General Ashcroft said, 
``The FBI's in charge. We're in charge of the crisis 
management,'' and cited the law about that. And you concurred.
    But yet at the local scene, that's very different than the 
Incident Command Management person, you know, who's calling the 
ambulances or coordinating the fire, and all the operational 
detail you're so familiar with.
    Who is in charge of the incident command at the incident? 
Who's in charge? Is it the FBI? At that time, we're not 
investigating a command--we're not investigating a criminal 
situation. Who do you see in charge? And is that really the 
function of State and local government? And isn't that part of 
the necessity for greater clarification?
    Mr. Allbaugh. It is the responsibility of State and local 
government when an incident takes place. They're in control and 
in charge of that site and incident. The biggest problem I run 
into, disaster after disaster, when I visit a community is that 
oftentimes it is the first time that police, fire, utilities, 
emergency medical technicians have sat around a table trying to 
figure out who is in charge before State and Federal agencies 
can show up to offer assistance. We teach the incident command 
structure for that very reason.
    One of the benefits of Citizen Corps is that as we go 
across the Nation teaching the teachers, training the trainers, 
we're trying to instill in those communities the ability before 
an incident takes place to establish an incident command 
structure. That will do more to save lives and protect property 
than just about anything I can think of immediately, save the 
communication interoperability problem that we have nationwide.
    Senator Mikulski. Well, I believe that interoperability 
will be very important, not only for mutual aid, but also for 
the private sector, who will be designing and manufacturing 
this equipment. To have national standards will be in 
everyone's interest.
    Mr. Allbaugh, when we meet on Tuesday, I'd like to pursue 
the incident command management issue in more detail.
    Mr. Allbaugh. Yes, ma'am.
    Senator Mikulski. Because it's not a mandated structure. 
But it could, I think, could be serving to deal with a lot of 
confusion at the local level.
    Thank you, Mr. Chairman. I note my time's expired.
    Chairman Byrd. Thank you, Senator. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman, and thanks 
for calling this hearing, a very important series of hearings. 
I extend my welcome to FEMA Director Joe Allbaugh, and our 
former colleague and fellow Missourian and good friend, 
Attorney General Ashcroft.
    General, this is the first time we've been in a public 
forum together since the rather stimulating confirmation 
hearings a little over 1 year ago, and I wanted to express the 
appreciation of a lot of our fellow Missourians for the great 
job that you're doing in disrupting the terrorist efforts. I 
have found that in any group in Missouri, wherever I am, when I 
talk about the job that you're doing, I'm interrupted by 
applause, a phenomenon that does not otherwise occur in my 
speeches. Those who have heard me speak will understand. So you 
are warmly regarded and most appreciated.
    This is a very important hearing today, and we are 
delighted to have the two leaders here to talk about the very 
important areas of coordination and the responsibilities you 
have. I'm going to ask that my full statement be included in 
the record.
    [The statement follows:]
           Prepared Statement of Senator Christopher S. Bond
    Thank you, Mr. Chairman, for calling this series of hearings on 
Homeland Security. I also want to extend my sincere welcome to FEMA 
Director, Joe Allbaugh, and a fellow Missourian and old friend, 
Attorney General John Ashcroft. FEMA and DOJ are the two primary 
domestic Federal agencies that are responsible for the coordination and 
management of our Nation's efforts to prevent and respond to acts of 
terrorism. As such, it is most appropriate that these leaders of FEMA 
and DOJ are the last 2 witnesses called in the culmination of this 
series of hearings to respond to questions concerning the 
Administration's plans and efforts to address acts of terrorism.
    This testimony is critical in helping us understand the 
Administration's proposal to focus primary responsibility in FEMA for 
both the prevention and consequence management associated with acts of 
terrorism. This especially is true since many Members see DOJ as the 
key to terrorism prevention and FEMA as the key to our efforts to 
respond to an acts of terrorism. And to confuse this issue even more, a 
number of Members believe that success against and in response to acts 
of terrorism will only be accomplished fully with the creation of a 
cabinet-level superagency that encompasses FEMA, border security and 
immigration as well as other possible responsibilities. These are 
complex but compelling issues and I thank my good friends for coming 
before this committee to help clarify these issues and our concerns.
    Mr. Chairman, I have followed all the Homeland Security hearings 
very closely and you have provided a service to all Members of Congress 
through comprehensive testimony and thoughtful questions coverings 
every major topic of issue and concern with regard to Homeland 
Security. In addition, Senator Mikulski, Chair of the VA/HUD 
Appropriations Subcommittee, has made Homeland Security issues a 
priority. Under her leadership, the VA/HUD Appropriations Subcommittee 
has held four hearings since September 11th on homeland security issues 
which included testimony from mayors on local needs and capacity, 
testimony by the EPA on anthrax and the clean-up of the Senate Hart 
building, testimony on the needs of America's firefighters, and 
testimony by FEMA on its role in terrorism response.
    Nevertheless, we have many issues and concerns on Homeland Security 
that must be resolved as we move forward on the President's budget 
requests for fiscal year 2003 and the fiscal year 2002 Supplemental 
appropriation and, Mr. Chairman, I again applaud your efforts to use 
these hearings as microscope to understand all the relevant issues and 
costs.
    While the President has advanced a plan since September 11th which 
the Congress has begun to fund, there is still significant work that 
needs to be finished before we have in place the necessary protection 
and capacities to respond to both the threat of acts of terrorism and 
the consequences of such acts. In particular, as I have previously 
stated, we need a statutory structure that will enable the various 
agencies and emergency response entities of the federal government, 
states and localities to coordinate and build a comprehensive federal, 
state and local capacity that is able respond fully and quickly to acts 
of terrorism, including acts involving weapons of mass destruction.
    We must do more to ensure that states and localities have the 
needed resources, training and equipment to respond to threats and acts 
of terrorism and the consequences of such acts. In response, the 
President is proposing to fund FEMA at an unprecedented $3.5 billion 
for fiscal year 2003 to ensure that the Nation will not be caught 
unaware again by a cowardly act of terrorism. More recently, the 
President has requested $327 million in the fiscal year 2002 
Supplemental appropriation as an additional downpayment this year for 
FEMA to provide equipment and training grants to states and localities 
to improve terrorism and chemical-biological response capabilities. 
These funds include $50 million for the President's new Citizen Corp 
initiative.
    Despite the response to September 11th, the current capacity of our 
communities and our First Responders vary widely across the United 
States, with even the best prepared States and localities lacking 
crucial resources and expertise. Many areas have little or no ability 
to cope or respond to the consequences and aftermath of a terrorist 
attack, especially ones that use weapons of mass destruction, such as 
biological or chemical toxins or nuclear radioactive weapons.
    The recommended commitment of funding in the President's Budget for 
fiscal years 2002 and 2003 is only the beginning. A quick response to 
build a comprehensive terrorism prevention and response system is 
critical. However, there also needs to be a comprehensive approach that 
identifies and meets state and local First Responder needs, both rural 
and urban, pursuant to federal leadership, benchmarks and guidelines. 
We need to find the right balance of a quick response to state and 
local needs and a structured system that ensures accountability.
    As part of this approach, I introduced S. 2061, the National 
Response to Terrorism and Consequence Management Act of 2002. This 
legislation is intended to move the federal government forward in 
developing that comprehensive approach with regard to the consequence 
management of acts of terrorism. The bill establishes in FEMA an office 
for coordinating the federal, state and local capacity to respond to 
the aftermath and consequences of acts of terrorism. This essentially 
represents a beginning statutory structure for the existing Office of 
National Preparedness within FEMA as the responsibilities in this 
legislation are consistent with many of the actions of that office 
currently. This bill also provides FEMA with the authority to make 
grants of technical assistance to states to develop the capacity and 
coordination of resources to respond to acts of terrorism. In addition, 
the bill authorizes $100 million for states to operate fire and safety 
programs as a step to further build the capacity of fire departments to 
respond to local emergencies as well as the often larger problems posed 
by acts of terrorism. America's firefighters are, with the police and 
emergency medical technicians, the backbone of our Nation's prevention 
and emergency system and the first line of defense in responding to the 
consequences of acts of terrorism.
    The legislation also formally recognizes and funds the urban search 
and rescue task force response system at $160 million in fiscal year 
2002. The Nation currently is served by 28 urban search and rescue task 
forces which proved to be a key resource in our Nation's ability to 
quickly respond to the tragedy of September 11th. In addition, Missouri 
is the proud home of one of these urban search and rescue task forces, 
Missouri Task Force 1. Missouri Task Force 1 made an invaluable 
contribution in helping the victims of the horrific tragedy at the 
World Trade Center as well as assisting to minimize the aftermath of 
this tragedy. These task forces currently are underfunded and 
underequipped, but, nonetheless, are committed to be the front-line 
solders for our local governments in responding to the worst 
consequences of terrorism at the local level. I believe we have an 
obligation to realize fully the capacity of these 28 search and rescue 
task forces to meet First Responder events and this legislation 
authorizes the needed funding.
    Finally, the bill removes the risk of litigation that currently 
discourages the donation of fire equipment to volunteer fire 
departments. As we have discovered in the last several years, volunteer 
fire departments are underfunded, leaving the firefighters with the 
desire and will to assist their communities to fight fires and respond 
to local emergencies but without the necessary equipment or training 
that is so critical to the success of their profession. We have started 
providing needed funding for these departments through the Fire Act 
Grant program at FEMA. However, more needs to be done and this 
legislation is intended to facilitate the donation of used, but useful, 
equipment to these volunteer fire departments.
    Thank you, Mr. Chairman.

    Senator Bond. But I would note that after September 11th, 
the chair of the VA, HUD Appropriations Subcommittee, Senator 
Mikulski, had a series of four hearings talking on local needs 
and capacity, the EPA talking about anthrax cleanup of the Hart 
Building, testimony on the needs of America's firefighters, and 
testimony by FEMA on its role in terrorism response. So we are 
very much involved in this and appreciate the opportunity to 
join with the full committee in this hearing.
    The recommended funding by the President, I believe, is a 
good first step, a quick response to building a comprehensive 
terrorism prevention and response system, but we also think 
that there's tremendously important needs to support the first 
responders, both rural and urban, with Federal leadership, 
benchmarks, and guidelines.
    I have introduced a National Response to Terrorism and 
Consequence Management Act that establishes in FEMA an office 
for coordinating Federal, State, and local capacity. The 
statutory structure provides $100 million for States to operate 
fire and safety programs and also recognizes the importance of 
the urban search and rescue teams which came together around 
the country and provided a vitally important service. We would 
provide $160 million to them and establish permanent funding 
for these vital resources. They are dedicated volunteers. We're 
very proud of Missouri Task Force 1. We want to fund them and 
other first responders.
    I have visited many fire departments in Missouri, and there 
are, in many areas, firefighters who go to fires without any 
protective equipment. They have on their blue jeans, and that's 
about it. We need to make sure that our fire departments, our 
first responders, are prepared. And I also would include 
protection against litigation to encourage the donation of 
used, but usable, equipment to volunteer fire departments.
    Let me turn to the questions. One of the most pressing 
concerns among members that I've talked to is, Mr. Allbaugh, 
whether we're asking too much of FEMA and whether these new 
responsibilities will interfere with your primary mission, your 
continuing mission to respond to natural disasters. Can you 
handle all of these responsibilities?
    Mr. Allbaugh. The short answer is yes. We have the unique 
ability to expand as the need arises. It's one of the blessings 
written into the Stafford Act. Our disaster assistance 
employees, which is a cadre between 5,000 and 6,000 individuals 
that we use regularly in a variety of ways nationwide, they 
give us that flexibility and add to our talent, our constant 
talent of 2,600 employees throughout the agency.
    The additional unique tool that we have as a result of the 
Stafford Act is, when the President declares all the Federal 
resources are at our disposal, so we may not own any particular 
assets, but we have the ability to reach out to any given 
agency and request those assets to be at our disposal, to be 
thrown into the line of fire, so to speak, to further save 
lives and protect property.
    Senator Bond. I have discussed with you my concern about 
the Citizen Corps.
    Mr. Allbaugh. Yes, sir.
    Senator Bond. I think that we have volunteer management 
agencies within, actually within the AmeriCorps, mobilizing 
volunteers across the country. My view is, and we'll discuss 
this more next Tuesday, that you would be in the best position 
to define the task, the guidelines, and what's expected of 
them. And the agency that's set up to manage volunteers would 
be better able to manage the volunteers.

                         BORDER SECURITY AGENCY

    Turning to structure, there are some people who say we need 
a new department, taking FEMA, or parts of FEMA, Border 
Security, Immigration, creating a new Cabinet-level department, 
creating some new entity. I would ask both of you for your 
comments. Is it feasible? Is it necessary? Or would we simply 
be rearranging the deck chairs while the ship is going down? 
Mr. Attorney General?
    Attorney General Ashcroft. Thank you, Senator. The 
President has understood for a long time, even substantially 
before September 11th, that in regard to our borders, that we 
needed a new approach. He had, during his campaign, talked 
about the need to separate the enforcement function from the 
service function at INS.
    I think we want to do a couple of things that are very 
important, and I believe this is fair to say, what the 
administration wants is that for those who would violate 
America in some way, and our laws, we want our borders to be 
far more secure. For trade and for access to what America has 
to offer, to those who are our friends, we want the borders to 
be a more friendly, convenient, and facilitated place. For 
trade, we want the exchange to be substantial. And I don't 
believe that there is in the administration at this time a 
consensus about the need for developing a new agency to do 
that. There is a desire to find a way to facilitate these 
objectives.
    There is a firm commitment, I would add, though, that there 
needs to be reform in the Immigration and Naturalization 
Service. And in November, the administration filed a proposed 
division administratively--done by regulation to divide the 
service function from the enforcement function. The 
administration believes that the separation of these functions 
in a way that still provides a basis for very strong 
cooperation is essential to having the right kind of security 
and facilitation of our borders. For that reason, there was a 
statement of administration policy regarding moving the measure 
through the House, and I think the administration is eager to 
see the Senate act in ways that can facilitate this division of 
function in the Immigration and Naturalization Service.
    Senator Bond. Before I turn to Mr. Allbaugh, I would say 
that when we prepared a bipartisan bill, the Visa Integrity and 
Security Act, it included the PATRIOT Act and provided 
resources for biometric identification. For example, I spend a 
lot of time traveling and working with the INS officials. And 
many of these people gave me a very strong argument that the 
combination of the two can be very helpful, where the service 
function of the INS can provide--can move directly, seamlessly, 
into the enforcement area where there is a problem and, 
similarly, when working on enforcement matters, very often the 
service-related matters come up. But that's a concern that I 
have, and I would ask Mr. Allbaugh if he has any thoughts on 
additional agencies or anything to expand upon the Attorney 
General's comments.
    Mr. Allbaugh. No, sir, I really don't, except that I think 
that Tom Ridge is absolutely the right person for the time to 
crystalize those issues for the President. I think the 
President recognizes that this will evolve over time.
    Senator Bond. Okay.
    Mr. Allbaugh. The jury's still out.
    Senator Bond. Let me----
    Mr. Allbaugh. I would also say, Senator, that I have not 
seen any hinderance of operation among the agencies. Quite 
frankly, quite the opposite. The agencies' dialogue has 
improved dramatically since September 11th.

                SUPPLEMENTING HOMELAND SECURITY FUNDING

    Senator Bond. Let me ask you the thing that really, the 
major question that's troubling a lot of us. Everybody wants to 
support homeland security, but how do we ensure that funding 
needs are set at a reasonable level and do not become a black 
hole for seeking unlimited spending, on the one hand? And on 
the State role, I have talked with a lot of firefighters who 
say, ``If we get more money in support for our activities, are 
we going to get a cutback on the State funding or even local 
support?'' So how do we make sure that we have a reasonable 
amount of funding and that we don't get the displacement of 
existing funding from State or local levels?
    My time is up, so do you have a ready response on that? 
I'll start with Mr. Allbaugh on this one and let the Attorney 
General solve it.
    Mr. Allbaugh. With regard to funding, I believe one of our 
principal tasks ahead of us is to set standards nationwide and 
allow that to drive the needs of those departments, first and 
foremost. With regard to the EMPG or EMPA money that you might 
be referring to, and the first responder money, I see no 
cutback. Quite frankly, I would like to increase EMPG money 
that has been flatlined for a number of years to assist those 
States and local communities.
    Senator Bond. General?
    Attorney General Ashcroft. Well, I hate to recommend more 
hearings--and I won't--but I think accountability is the key to 
making sure the money is spent effectively. And we are doing 
our best in the programs that we are administering, and I'm 
sure FEMA is, as well. For instance, you have required for 
certain programs for equipment grants that States have 
coordinated and well-documented plans. And now 51 of the 
jurisdictions, out of 56 that are eligible, have submitted 
plans. And I think if we--even in times of crisis, we ask that 
those kinds of documentation and that kind of planning take 
place, we will maximize the potential of making sure we get 
return for the value that we invest.
    I think oversight and accountability and the requirement 
that we stick by the procedures designed to provide integrity 
in the program are essential.

                 PREVENTING ATTACKS ON COMPUTER SYSTEMS

    Senator Bond. Thank you, Mr. Chairman.
    Chairman Byrd. Previous testimony before this committee 
indicates that terrorist groups have the knowledge, the 
ability, and the intent to attack computer systems, such as 
those that control the banking system or the electrical grid 
system, with catastrophic consequences to the American economy. 
Terrorists also are adept at exploiting computer systems for 
their own uses, such as intelligence gathering and 
communications purposes. The National Infrastructure Protection 
Center, NIPC, is housed within the FBI and is intended to be 
the Nation's cyber-cop. What is the department doing to ensure 
that the FBI is coordinating with other agencies, such as the 
Department of Defense and the Secret Service, to combat cyber-
terrorism? Mr. Attorney General?
    Attorney General Ashcroft. Well, the FBI has made progress 
in addressing several of these issues. And, for example, the 
NIPC has become an interagency center fostering cooperative 
relationships among participating agencies. For example, the 
National Infrastructure Protection Center at the FBI currently 
contains detailees from the FBI, the Department of Defense, the 
Department of the Treasury, the General Services 
Administration, the Department of Transportation, the 
Department of Energy, the Department of Commerce, the National 
Security Agency, the CIA, the Army, the Air Force, the Navy, a 
municipal police sergeant to represent local police operations, 
and representatives from several foreign governments. It has 
been understood that we need to have this kind of cooperation 
if we are going to be effective in thwarting assaults on our 
infrastructure, which, frankly, can result, given the way in 
which the Internet and other communications devices work, that 
these can be assaults on the infrastructure of other societies, 
as well. And by combining these kind of detailees and people 
from these various departments together at NIPC, our capacity 
to coordinate and to communicate is much better.
    It's to be noted that the senior leadership at NIPC is 
spread among several agencies, including the center's deputy 
director who is a Navy rear admiral from the Department of 
Defense, so that the FBI, in this respect, has emphasized the 
need for cooperation and the interrelationship between the 
various agencies of Government, not only of ours, but of other 
governments, as well, that have an interest in avoiding the 
kind of attack that can come through information systems.

              NIPC SHARING INFORMATION WITH PRIVATE SECTOR

    Chairman Byrd. The private sector is an enticing target, as 
Senator Bennett recently pointed out to this committee, to 
terrorists intent on crippling our economy. What is the 
Department of Justice doing to ensure that NIPC shares critical 
information with those private interests?
    Attorney General Ashcroft. Well, the various industries 
generally have associations or groups of individuals that help 
them with sharing information about avoiding attack and 
avoiding subverting activity that would be destructive. NIPC 
has developed, along with various sector organizations from 
sectors of different companies--companies in different sectors, 
like oil and gas, banking and finance, emergency services, 
those kinds of things--and information sharing agreements have 
been drafted for those kinds of sector organizations. And we 
actively share information with those companies through what we 
call an InfraGard Initiative. There are 65 InfraGard chapters 
and over 4,000 InfraGard member companies.
    NIPC advisories and warnings are transmitted, in addition 
to that, to all the 18,000 State and local law enforcement 
organizations through the National Law Enforcement 
Telecommunications System, which is called NLETS. So not only 
is there this integration of the various kinds of governmental 
agencies at the FBI NIPC headquarters, but there is this 
information sharing through these initiatives with these 
various industry groups pursuant to information sharing 
arrangements.

                         TRACKING CYBER ATTACKS

    Chairman Byrd. General, it is imperative that the people 
who are tasked with tracking terrorist computer networks have 
the training and the research and development resources they 
need to stay on the cutting edge of software and hardware 
developments. I am told that the FBI does not have a foolproof 
system of immediately detecting cyber attacks, identifying the 
source of those attacks, and shutting down the attacker before 
the destruction is complete. Rather, the FBI must investigate 
after the fact and after the damage has been done. Why isn't 
the implementation of a plan to put the FBI in a position to 
immediately act on cyber attacks at the top of your priority 
list?
    Attorney General Ashcroft. Mr. Chairman, that is an 
important objective, and it is a top priority of the 
Department. We are in the process of developing the resources 
and procuring the nonpersonnel resources that were included in 
the Emergency Supplemental Appropriations Act for 2002 to 
achieve those objectives. And the sooner they are achieved, the 
better off we'll be. While we have some very significant 
capacities in the FBI to both alert people to attack in the 
public and private sector and to thwart those attacks, there is 
work yet to be done. We appreciate the cooperation and work of 
this committee to assist us in getting that work done.
    Chairman Byrd. Senator Stevens.

                             CITIZEN CORPS

    Senator Stevens. Thank you very much. The Attorney General 
mentioned Citizen Corps. That harkens back to the days of World 
War II, when we had a Civilian Defense Organization, we had the 
air raid wardens, we had--I lived along the coastline of 
California, we had people, including my uncle, who raised me, 
he walked the beaches each night. Every single family had 
volunteers. Even the housewives saved----
    Chairman Byrd. Would the Senator let me interrupt? I'm told 
that the leadership is very much wanting to reach a vote on the 
amendment concerning the resolution with respect to Israel. 
Senator Leahy--I'm asking him to take the gavel, but I'm told 
that he will have to leave at no later than 10 after 4. Would 
the distinguished Senator from Alaska, my friend, continue to 
Chair the hearings following Senator Leahy until I can return?
    Senator Stevens. Certainly.
    Chairman Byrd. Thank you. I thank you for letting me 
interrupt you.
    Senator Stevens. I remember I was asked to wait for one 
Senator because he was at the airport, but I failed to ask 
which airport. He said, ``Philadelphia.''
    Those elements of activity on the part of individual 
citizens in World War II, particularly, like I was starting to 
say, even housewives saved the drippings from the cooking so 
that that fat could be used in making munitions at that time, 
kept the people of the United States alert to the fact that it 
was a very serious proposition we were involved in.
    I don't see much in terms of volunteers around here today. 
As a matter of fact, I see people, the same people working at 
the airport in security whose pay has just been doubled and 
they're doing the same thing they were doing 1 month ago. When 
are we going to get into volunteers, Mr. Attorney General? How 
deep is it going to go? And can we find some way to assure that 
the framework for those volunteers will be extended out to the 
hinterlands, even out to Alaska and to Hawaii and places that 
need to be able to know they're part of the whole system in 
this global war against terrorism?
    Attorney General Ashcroft. Senator, the President has 
called upon every American to give 2,000 hours of his life, and 
that's the equivalent of 50 work weeks of 40 hours, in service 
to his community or to her community, and I would hope that we 
are able to capitalize on the citizenship doing that. We also 
believe, however, that in addition to formalized volunteer 
training, we need citizens to demonstrate the kind of alertness 
that helps them be the first line of defense against terrorism.
    The most heroic of those who defended against terrorism 
were those on Flight 93, I believe, who decided that the plane 
would crash in Pennsylvania instead of on Pennsylvania Avenue, 
and they were alert to what was happening, having gotten 
information, and changed, perhaps, the course of history by 
crashing that plane. Obviously, the people on Flight 63 out of 
Paris who subdued an individual with shoes allegedly filled 
with explosives were similarly heroic.
    So we want people to be alert, sensitive to things, but I 
think your call for formal volunteer programs is important, and 
we would like to be a part of encouraging that at every level, 
including the local law enforcement level.
    Senator Stevens. Well, I thank you. As a former U.S. 
Attorney, I appreciate hearing about your U.S. Attorneys' task 
forces. I'd be happier to see the U.S. Attorneys and others 
being involved in organizing the civilians of the area, to 
understand their roles during a time of a crisis, should, God 
forbid, one come. But, in any event, to get into the point of 
training people, if you're on Flight 63, how do you select the 
person that goes after the terrorist? I mean, there are lots of 
things out there that people want to know. How can they learn 
more about protecting themselves and their families? I really 
think we need some volunteer structure here before we're 
through, because--I may be over alarmed.
    Senator Inouye and I are just back from a trip, as you 
know, to Afghanistan and that area. And 1 month later, we went 
to the Pacific and Indonesia and the Philippines. And I'm 
convinced this terrorist threat is global, and it's deep, and 
it's all a threat against us. The people who are threatened in 
Singapore were our friends. The people who are threatened in 
Indonesia were our friends, people working with the United 
States. And I think it's high time that we woke up, that this 
is going to be a long struggle, and we ought to get more people 
involved in it, because I don't think we can hire the whole 
populous to protect each other from themselves. It's got to 
have some volunteer structure, and I hope, John, you'll pursue 
that.

                            INTEROPERABILITY

    Last, I'm back to my friend--maybe we'll talk about it in 
some quiet time, Joe, but I wonder about--and you talked about 
this before the Commerce Committee--how are we coming through 
the problem of interoperability in terms of communications? You 
talked about that before the Commerce Committee. How do the 
first responders respond? You remarked about it here today, but 
it's deeper than that. It's the interoperability of the command 
posts, on the Internet. It's the interoperability of the 
Defense Department that's got that AWACS up above and with the 
civilians. We just don't--and I am harping about this, but the 
idea of interoperability, we do not have a mandate for 
interoperability.
    I'm thinking about putting a rider on the first bill that 
comes along saying that somehow or other, General, you should 
come up with standards for interoperability and communications 
that are essential to protect us in a crisis devolving from 
terrorist attacks. And that would cover the concepts of the 
Federal Government not buying any more devices that are not 
interoperable with first responders. Somehow or other we've got 
to lay down a mandate here against ourselves, not against the 
State and local governments. We're the ones that ought to buy 
the basic equipment that they can communicate with. But what 
would you think about that?
    Mr. Allbaugh. Well, two points, responding for myself, and, 
in this point, I know the Attorney General is aware, there is 
an interagency committee that exists right now where all the 
Federal agencies are putting these interoperability issues on 
the table as we speak to come up with a set of standards.
    Senator Stevens. But Joe?
    Mr. Allbaugh. Sir?
    Senator Stevens. That's communicating with ourselves, not 
with the counties and the local governments and the State 
governments.
    Mr. Allbaugh. I understand, sir, but I think, first and 
foremost, we have to get our act together before we can tell 
others how to do it. I think it is extremely important that the 
Federal Government figure out how we can communicate with one 
another. We're getting better at it every day. We're not there 
yet.
    And the second point I would make is that the U.S. Fire 
Administrator, Dave Paulison, and myself are going to host, in 
short order, with regard to first responders, all the 
manufacturers who produce any type of equipment, whether it's 
threads on bottles or communication devices or apparel--we're 
going to host an informal discussion where I would like to have 
the opportunity to tell them how the cow ate the cabbage, 
because this has got to stop. We're costing lives, not only of 
innocent citizens, but of those individuals who put their lives 
in harm's way every day. They're not thanked for it. They're 
always the first in line for budget cuts. And that has to stop.
    Senator Stevens. Thank you.
    Senator Mikulski. May I just offer a helpful suggestion? On 
the issue of interoperability, and particularly with the 
equipment that responders will need, I hope we're involving the 
National Institutes of Standards. They are the best. That's why 
they were created in the first place. They can do your work for 
you and with you. Enough said.
    Mr. Allbaugh. I appreciate that.
    Senator Leahy. The distinguished Senator from Maryland took 
the words out of my mouth. I'd point to another example of how 
it can work. We had a terrible situation on the New Hampshire-
Vermont border a few years ago, the so-called Draga shooting. A 
man shot police officers and a judge in New Hampshire, came 
over to Vermont--it's a case where these are about a few miles 
apart--shot several people there. And we had a very difficult 
time between the local authorities, the State authorities for 
both New York and Vermont, plus Federal authorities, including 
Border Patrol and others, because it's up near the Canadian 
border, being able to talk with each other. In fact, during one 
shootout, they actually had cars under fire where they'd drive 
up close to each other and have doors open and try to radio 
back and forth, ducking bullets.
    It so happened while that was going on, the then-Director 
of the FBI, Louis Freeh, and his family were staying at my 
farmhouse in Vermont, and we started talking about how to do 
this. We got through a Justice Department grant, Senator Gregg 
and I did, and put together a way so the Federal, State, and 
local can speak to each other. It just seemed amazing that they 
could not, but these are the things--I know, Mr. Allbaugh, what 
you're saying. It's just, we see this in the real world all the 
time. We see it in floods in Vermont, I'm sure in Missouri and 
everywhere else people have seen this. So I understand what 
you're saying.

                ARMING NATIONAL GUARD ON NORTHERN BORDER

    Incidentally, Mr. Milliken, the Speaker from Canada, the 
Speaker of the House from Canada, has left, but I should note 
also how much I appreciate that they were here, appreciate our 
long border with them. I also, I can't say that it's my 
southern neighbor, as the Senator from Alaska can, but where I 
live, an hour from the Canadian border, I call it the giant to 
the North. But I would note this, in all seriousness. My wife 
is a first-generation American of Canadian descent. And our 
family, as so many families in our State, we felt the terrible 
loss the Canadians suffered in Afghanistan. And I know that 
everybody in our Government feels sorrow for them. This was a 
tremendous loss, the first combat troops lost since Korea, and 
it was a matter of mourning in Canada, and certainly it was in 
our border States.
    Mr. Attorney General, I'm concerned that the National Guard 
troops helping Customs and INS agents at the border, in regular 
law enforcement matters, remain unarmed. The Customs and INS 
agents are armed, appropriately so because of the potential 
danger they face, but the National Guard troops are not. Now, 
58 Senators, Republicans and Democrats, joined me in a letter I 
sent to the President about this. I understand DOD has 
recommended arming the Guard. Does the Justice Department have 
a position on this question? And if so, what is it?
    Attorney General Ashcroft. Well, first of all, we're 
grateful to the Department of Defense for agreeing to assist 
INS in border security issues.
    Senator Leahy. We're all grateful, but are they going to be 
armed?
    Attorney General Ashcroft. The Department of Defense has 
recently modified its position and has proposed arming a 
limited number of National Guard soldiers. And draft language 
has been provided by DOD for consideration in amending the 
memorandum with INS.
    Senator Leahy. What's your position? Should they be armed?
    Attorney General Ashcroft. In circumstances where they need 
to be armed, I think they should be armed.
    Senator Leahy. If they are taking a position--let me put 
out a very simple thing. You and I have both served in law 
enforcement, and I think we understand what's involved here. If 
you have a situation where a Customs agent or an INS agent on 
the border has to be armed because it's felt, appropriately, 
that they are, and if you put a National Guard troop in that 
same position, should they be armed?
    Attorney General Ashcroft. People who are involved in 
functions that require arming should be armed.
    Senator Leahy. I happen to agree completely with you. I 
point this out for those here who think that we don't have a 
number of areas where we agree. I agree with you on--very much 
on----
    Attorney General Ashcroft. We could probably make a list.
    Senator Leahy. I'm sure we could.

                     INTEROPERABILITY SUCCESS STORY

    Attorney General Ashcroft. May I remark about the 
interoperability issue----
    Senator Leahy. Yes.
    Attorney General Ashcroft [continuing]. For just a moment? 
One of the times when we had an opportunity to try an 
experiment with what we could do to be successful in promoting 
interoperability was regarding Utah and the effort in regard to 
the Olympics. The COPS program funded Utah's efforts to create 
a single multi-agency radio communications system that served 
over 91 Federal, State, and local public safety agencies. And I 
think that's a signal that it can be done and----
    Senator Leahy. I agree.
    Attorney General Ashcroft [continuing]. And I just wanted 
to say that it worked well, and those people who were operating 
the systems worked extremely well together. That's an example 
of some of the pilot efforts that are being done.
    Senator Leahy. Yeah, I happen to agree with you on that. 
Every report I've had says this is a case where all of these--
sheriff's department, local police, State police, FBI, Secret 
Service, other agencies, and others and had to interoperate. 
And you had a number of international agencies there, too, and 
you made it work. And I applaud you, Mr. Attorney General, and 
I applaud everybody else, Director Mueller and others, who 
worked on that.
    Because this vote is on, I will leave a question with you. 
The supplemental request for FEMA includes about $125 million 
for State grants that we've been talking about already, first 
responder training and so on. I want to know how those are 
going to be distributed to the States. Will any of that funding 
carry out the functions currently designated to the Justice 
Department's Office of Domestic Preparedness--and we'll give 
you this question in writing, because it's pretty specific.
    [The information follows:]

    The President's fiscal year 2002 Supplemental Budget 
Request includes $175 million for assistance to first 
responders, under the Federal Emergency Management 
Administration (FEMA). The supplemental request is consistent 
with the President's fiscal year 2003 Budget which proposed 
that the counterterrorism programs of the Office of Domestic 
Preparedness in the Department of Justice be transferred to 
FEMA. The President has stated his belief that the numerous 
Federal programs offering training and assistance to State and 
local governments should be ``seamlessly integrated, harmonious 
and comprehensive to maximize their effectiveness.''

    Senator Leahy. I authored the provisions of the USA PATRIOT 
Act to revise the Domestic Preparedness Program giving 
additional flexibility to purchase needed equipment, training 
and technical assistance to State and local first responders, 
and the small State minimums that have been referred to here. 
So I just want to make sure that this program operates as we 
wrote it in the PATRIOT Act, and the needs of the small States 
are going to be taken into consideration in the supplemental. 
Again, I refer to what happened in New Hampshire and Vermont, 
two very small States, about how well it can be done if it's 
done right.
    So, Mr. Attorney General and Mr. Director, I'm going to 
give you that question in writing and look at it, because I 
think it goes to the core of how this money might be 
distributed. I think we all want to accomplish the same thing, 
but we want do it right.
    Senator Stevens. Could I ask a couple of questions before I 
leave, Senator?
    Senator Leahy. Sure. I don't know whether--Joe, did you 
want to say something?
    Mr. Allbaugh. No, I just wanted to say I'm sure we'll both 
respond for the record on that question.

                       EXECUTIVE BRANCH MANDATES

    Senator Stevens. Mr. Attorney General, while you were a 
member of this body, before you reached your distinguished 
elevated status, you assisted others on the concept of 
mandates. As these hearings have proceeded, we've found a 
series of mandates now, but they're emanating from the 
executive branch without being in law. They are mandates--one 
of them that's coming along, I understand, is the standard 
driver's license concept--that will go directly to the States 
as a request, in effect, of the Federal Government. There are 
other items throughout there now that are coming out of the 
homeland defense office. One changes the standard for giving 
notice of what is the level of the alert. We used to have a 
five-stage level. Now I understand we have a three-stage level. 
Or maybe I got it backwards. It's three-stage, now it's five-
stage for everybody? The impact of that is that that, too, 
changes a lot of State and local governments. Where are we 
going to come out in terms of these mandates as far as paying?
    This morning at the hearing, we discovered that airports 
that had responded to the request to upgrade their security, 
and received 40 percent of the money from the supplemental, are 
now told, ``Well, you can get the balance of your money from 
the money you're already entitled under the airports program.'' 
Now, I think we're getting into a very cloudy picture, as far 
as our relationship with the State and local governments. If we 
tell them that, they're not going to respond next time, and I 
don't think that's healthy.
    Have you been asked to review this at all, as Attorney 
General?

                       CATEGORIES OF ALERT SYSTEM

    Attorney General Ashcroft. Sir, I have not. I could comment 
on the alert, the three categories of alert versus five 
categories of alert. That's a proposal that is now subject to 
review. We're receiving comments from State and local agencies 
on it. That is not a mandate, in terms of States using an alert 
system. It's a proposed way of communicating to State and local 
governments so that they know more specifically where we are 
and at what level of activity we think it would be wise for 
people to remain--what level of alertness.
    So obviously, when I was in the Senate--and I still do have 
great concern over mandates that are unfunded. In some respects 
I would have concern over mandates whether they were funded or 
not, because we have to respect State and local prerogatives. 
But I have not been asked to opine on issues relating to 
mandates, generally.

              REORGANIZATION OF HOMELAND SECURITY AGENCIES

    Senator Stevens. Well, let me ask you one last question. 
And that is, we keep hearing about reorganizations of the 
Government, particularly one including the Coast Guard and INS 
and Customs and perhaps even FEMA. Have you looked at that 
issue? Will that take legislation to achieve?
    Attorney General Ashcroft. I believe a reorganization that 
combined those agencies would require legislation, and 
significant legislation. I don't want to suggest that I believe 
something like that is imminent. I do know that this 
administration is eager to do the best job possible of securing 
our borders and providing a capacity to defend America from 
terrorism, but I don't think any conclusions have been reached 
regarding items like that.
    Senator Stevens. Well, I'm informed that time is up on the 
vote. I'm going to ask you, though, if you'd stand at ease 
until Senator Byrd gets back.
    Attorney General Ashcroft. Thank you.
    Mr. Allbaugh. Thank you.

                       WEBSTER COMMISSION REPORT

    Senator DeWine [presiding]. The committee will come to 
order. Senator Byrd asked me to proceed with my questions. He 
will be back in just a moment.
    Mr. Attorney General, first, let me just publicly 
congratulate you for the job that you have been doing as 
Attorney General. We are very proud of that job, and we deeply 
appreciate it. Let me also specifically commend you for 
establishing the seven-member commission headed by William 
Webster, which recently completed an investigation of the 
internal security problems at the FBI.
    As you know, in its report, the Webster Commission 
identified, and I quote, ``a pervasive inattention to security 
which enabled former FBI special agent Robert Hanssen to engage 
in espionage activities for more than two decades.'' I wonder 
if I could ask you, Mr. Attorney General--you have that report. 
It's a lengthy report. The Judiciary Committee has taken some 
testimony concerning the report. Let me ask you first whether 
or not you have had an opportunity to examine it, and then 
whether or not you, and specifically the team at the FBI, has 
had an opportunity to do a cost analysis of that. You know, 
this town is full of reports that remain on shelves. And I know 
that you're not going to do that with this report, but I also 
know that unless you have the money that you need, you're not 
going to be able to implement the recommendations contained in 
that report.
    Attorney General Ashcroft. Senator, I am aware of the 
report. The leadership of the FBI, Robert Mueller, is aware of 
the report. Fortunately, a number of the recommendations of the 
report have been remedial measures that were started and have 
been undertaken. The completion of those and the effectuation 
of all of the recommendations could require additional 
resources, and we don't have a tab run yet on this report.
    Senator DeWine. Well, let me just say that I think this is 
critical. I have spent some time looking at this, and I know 
other members have, and I know the FBI has, and this rises to 
the level of very, very high importance. I know you deal with 
things that are important every single day, but if we're going 
to fix this problem, we have to move. And this committee is 
very interested in knowing your analysis of the cost. And so 
this is something that we're going to continue, bluntly, to ask 
you about and ask the FBI to give us the estimate of what it's 
going to cost, because we want to provide the money for you, 
but we can't do that unless you give us the estimate.

                        INSPECTOR GENERAL REPORT

    Attorney General Ashcroft. May I just indicate--and I thank 
you--that the difficulties that we experienced that provoked, 
and the Webster Commission prompted me to call upon the 
Inspector General of the Department of Justice to conduct 
another study. That study is expected, as a complete study, 
this summer, and we really felt that we should look at these 
reports together, the Inspector General's report together with 
the Webster Commission's report.
    Now, I don't want to create the impression that we've 
waited to try and start reforms until this happened. A new 
security division has been established at the FBI with the 
centralized responsibility for internal security, and the FBI 
has also taken steps to limit access to classified information 
in ways to eliminate vulnerabilities of information technology 
systems, to expand the use of polygraph examinations, which had 
met a resistance in the culture of the FBI for quite some time, 
and to increase security awareness and training. These things 
have already been undertaken. The Webster report is taken very 
seriously. We would like to have the value of the Inspector 
General's report, as well as the Webster report, as we go 
forward.
    Senator DeWine. Mr. Attorney General, that report, the 
Inspector General's report, is due when?
    Attorney General Ashcroft. It's due later this summer, or 
late this summer is the last word I had. I have inquired of the 
Inspector General, when the Webster report came out, and I have 
regular meetings with him. I said, ``We've got this one set of 
suggestions. I'd like to have your set of suggestions so that 
we can construe them together.''
    The kind of work we want to do at the FBI is ``better.'' We 
want to do better work than we've done before, and I think 
we're on our way to continuously improving that work. And 
having that additional report, I think, would be helpful to us.

                         FBI SECURITY DIVISION

    Senator DeWine. Well, I appreciate your answer. I think 
that the problem, and you've identified this, to some extent, I 
think, in your answer and some of the things that you've 
already begun to implement, but I think that one of the 
problems that was identified in the Webster report was not just 
a money problem, but it was a culture problem. And, to be quite 
candid, I think historically it's clear that the advancement 
for an agent in the FBI has been through cases. It's a logical 
way to measure success or failure. How are you doing? How many 
cases are you handling? What's the success rate of your cases? 
That's what I would look at.
    But what happens when we do that, of course, is that the 
security detail is looked at just that, a detail. It's not 
looked at as the career path. It's not looked at as how you get 
ahead in the FBI. It's not looked at as the highest status, as 
someone who's cranking cases out every day. And so I wonder if 
you could just address that, because the security internally of 
the FBI, it seems to me, has to have just as high a prestige 
level, just as good a career path, just as good everything else 
as the other path, which is the path of being the agent who is 
out doing the cases.
    Attorney General Ashcroft. I think this was part of the 
intention of FBI Director Robert Mueller when he created a 
security division that had the authority to move across the 
Department and to require security as something that was worthy 
of its own doing, not just as an incident to piling up more 
cases or building up a record in one division or another. So 
putting a new security division, having established it at a 
high level, at the executive level of the Department, signals 
that this is not incidental to the rest of the Department; it's 
fundamental to the rest of the Department. And the success is 
beginning to be apparent.
    But we don't believe that we've done all that we can, and 
we don't believe that we're ready to make a final sort of 
assessment of all that ought to be undertaken immediately until 
we see the Inspector General's report to add to the Webster 
Commission's information.

                         IAFIS--BORDER SECURITY

    Senator DeWine. Mr. Attorney General, you touched on this a 
little bit, but I would like for you to expand on it, if you 
could, because I think it is so critical to the importance of 
what we are doing in this country, and what, specifically, you 
are doing. Use of biometrics certainly can enhance our ability 
to identify known terrorists and prevent them from accessing 
areas where they could cause great damage. During consideration 
of the counterterrorism provision of the USA PATRIOT Act, I 
authored a provision that requires the Department of Justice to 
report to Congress on the feasibility on applying the FBI's 
Integrated Automated Fingerprint Identification System, IAFIS, 
and to apply this to border security. You've touched on that a 
little bit. The President's budget, I believe, calls for 
spending $23 million on identification systems integration, 
including $9 million for implementing this IAFIS reporting 
requirement. I'm pleased that you're moving forward on that. I 
congratulate you on that, and I wonder if you could elaborate 
any more on that.
    Attorney General Ashcroft. Well, frankly, some of the 
benefits are substantial, because by checking the fingerprints 
of individuals at the border, we've found that by cross-
referencing those prints to people in the FBI or the national 
database for wanted individuals, we've apprehended several 
hundred people now who have been fugitives from justice.
    At present, there are just 10 sites where we've got this 
INS system, which is called the IDENT system, integrated with 
this IAFIS system, or the Integrated Automated Fingerprint 
Identification System of the FBI. We are seeking an additional 
10 sites, implemented at Border Patrol stations in ports of 
entry later this year. And the fiscal year 2003 budget request 
includes funds for employment of an additional 10 sites.
    The IDENT system of the INS is a one-finger system. And, of 
course, it's enough to identify a person. If you get that 
person to give you a print from that finger over and over 
again, it's a very reliable biometric identifier.
    The IAFIS system of the FBI is a 10-print system, because 
at a crime scene, frequently you can't make sure that the 
criminal leaves his right index finger. And the IAFIS system 
has been a rolled-print system, which is a system for printing 
using all 10 fingers and printing, historically, with ink. The 
IDENT system has been an electronic system where a person just 
puts a finger into the machine, the right index finger, and 
that's checked.
    The integration of these systems has taken some technology, 
but we are now able to compare the IDENT fingerprint at the 
border with the IAFIS fingerprint system of the FBI and the 
national NCIC system. And we believe that this system has a lot 
of promise for helping us identify who's come into the country, 
who's left the country, and if they have overstayed visas, et 
cetera, and are very pleased to have funding to be continuing 
to deploy this system, which is a real plus-up in terms of our 
border security.
    Senator DeWine. Well, Mr. Attorney General, let me just 
thank you for your testimony. Mr. Allbaugh, thank you very much 
for your testimony. We appreciate it very, very much.
    Senator Murray has to preside at this point and has 
requested that her questions be submitted for the record, which 
will be submitted.
    And as you know, under the committee rules, other questions 
may be submitted, as well.
    Let me make a statement on behalf of Senator Byrd. This 
does conclude our hearing for this afternoon. We appreciate the 
testimony from Attorney General Ashcroft and from Director 
Allbaugh. It has been extremely helpful to us.
    We will continue our hearings next Tuesday afternoon at 
2:30, with the Secretary of Defense, Donald Rumsfeld. He'll be 
followed by former-Senator Sam Nunn, of Georgia.
    Senator Nunn will appear as an expert witness on the 
subject of nuclear non-proliferation as it relates to homeland 
security.
    At this point, I ask unanimous consent that Chairman Byrd's 
closing statement be incorporated into the record as if read. 
Without objection, it will be included.
    Chairman Byrd. The picture which has emerged in testimony 
before the Appropriations Committee during these hearings is 
disturbing and, to this Senator, alarming. It is a picture of 
confusion, of overlapping duties and jurisdictions, of 
vagueness, of ill defined goals, of delays and of inadequate 
dedication of resources.
    In sum, we are a nation conflicted--a giant inept 
bureaucracy, whose glaring inadequacies have been brought into 
sharp focus by the events of September 11. We cannot seem to 
prioritize our many new and critical needs. We are unable to 
even make clear choices about how to balance security concerns 
with the need for efficiency in commerce because of turf wars 
in departments and agencies which are expected to address both 
needs.
    Eight months after September 11th, there appears to be no 
coherent plan at the Federal level to help first responders 
address their new responsibilities. Vulnerability assessments 
have not been done. Perfectly good government programs such as 
COPS and firefighting and port security grants are being 
cancelled or needlessly reorganized.
    Working groups are swirling around like birds before a 
storm, yet there seems to be little or no coordination of the 
flurry of activity.
    Even in the area of bioterrorism, after the very real 
threat demonstrated by the anthrax attacks on this Nation, 
little has been done to better equip our public health 
apparatus to respond to a serious outbreak of some exotic and 
deadly disease.
    Paradoxically, all of the analysis and soul-searching done 
after last September has resulted in a strange kind of gridlock 
and inertia. No one is in charge because everyone is in charge. 
No plan has emerged because too many plans have emerged.
    From the testimony offered to this Committee to date, it 
seems as though Director Ridge is being second-guessed at 
almost every turn. His plans and priorities appear to be 
running head first into a bureaucratic brick wall. The 
competing goals of homeland security and efficient commerce at 
our borders have not yet been sorted out. In my opinion, 
Director Ridge should not have to stand by and watch as the 
interests of private businesses are juggled with the safety 
needs of our Nation by Cabinet officers whose primary charge is 
not homeland security.
    If the Director of Homeland Security believes that this 
Nation should be inspecting 5 or 6 or even 50 percent of the 
cargo containers arriving in our ports, instead of the current 
2 percent, then agencies which have the mission of promoting 
commerce should not cry, ``Foul!'' They should work to 
implement the goal. If the Director of Homeland Security states 
that we should have a centralized border security agency with a 
significant increase in the number of agents and inspectors at 
our border crossings, he should not be met with others in the 
administration suggesting that volunteer efforts can do the 
job.
    This Committee is seeking guidance regarding how to 
allocate the people's tax dollars to best protect their safety 
from terrorist attacks, yet the Director of the Office of 
Homeland Security will not come before us to help us do our 
duty. I fear that the Director of Homeland Security has had his 
function reduced to media spokesman without any real authority. 
I want him to come here, where the decisions are being made, 
where his voice will have real authority, and his opinions will 
have real weight.
    Earlier this week, Director Ridge told reporters that the 
Nation was ill-prepared for another attack. I agree with him. 
But it seems odd that he should make such an alarming public 
pronouncement, and yet continue to refuse to come before this 
committee while it is struggling to allocate resources to help 
protect Americans from another tornado of devastation and 
death.
    This committee will do its best, working with what we have, 
incomplete and confusing though it is, to craft a package which 
funds America's security priorities. The rest is in God's 
hands. May God keep watch over the good people of this nation.
    ``Except the Lord build the house, they labor in vain that 
build it: except the Lord keep the city, the watchman waketh 
but in vain.'' (Psalm 127:1)
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
         Questions Submitted to Attorney General John Ashcroft
             Questions Submitted by Chairman Robert C. Byrd
     office of community oriented policing services (cops) program
    Question. General Ashcroft, this Committee has long supported the 
Office of Community Oriented Policing Services, commonly called the 
COPS Program. It has successfully provided funds for officers and 
communications equipment to over 13,000 of the nation's 18,000 state 
and local law enforcement agencies. And there continues to be a large 
demand for COPS grants.
    The COPS Office had carried over $300 million in requests from last 
year because their fiscal year 2001 funds could not meet the demand 
that existed. Now, since September 11th, state and local law 
enforcement agencies are being asked to be the front line of defense 
against domestic terrorism, and those agencies are looking to COPS to 
help strengthen their already thinly stretched resources. But, 
amazingly, your fiscal year 2003 budget request eliminates all COPS 
hiring programs, and replaces most of last year's COPS appropriation 
with an $800 million Justice Assistance Grant Program (JAG) that will 
not even be administered by the COPS Office.
    In truth, the President's fiscal year 2003 budget request is the 
beginning of the end for a program that you yourself called a 
``miraculous success.''
    Please explain to this Committee why you have chosen to effectively 
eliminate the COPS program.
    Answer. Since 1995, the COPS Hiring program has received sufficient 
funding to support the hiring or redeployment of over 117,000 officers, 
17 percent more than the previous Administration's goal. COPS has 
awarded grants supporting 114,000 officers to date, so there are more 
than 3,000 officer positions still to be funded by the end of the 
fiscal year.
    The Department is recommending the creation of a comprehensive 
state and local assistance grant program: the Justice Assistance Grant 
Program (JAG), to give police departments greater flexibility to 
address their locally-determined priorities. As you know, COPS grants 
currently may only be used to support the hiring new officers or 
acquiring technology that frees officers for street duty.
    Additionally, total Federal assistance to state and local law 
enforcement will increase in fiscal year 2003 due to the creation of a 
new $3.5 billion ``first responder'' grant program in FEMA, which will 
provide anti-terrorism equipment and training to police, fire, and 
rescue personnel. This initiative includes domestic preparedness 
activities previously funded within the Office for Domestic 
Preparedness.
                            interoperability
    Question. General Ashcroft, September 11th clearly demonstrated the 
need for our first responders to be able to communicate with one 
another when responding to an event. We all are now familiar with the 
stories of the local law enforcement and fire department personnel from 
multiple jurisdictions passing hand-written notes to one another 
because they weren't on the same communications frequencies.
    At our initial hearings on homeland security, where we heard from 
an array of first responders, the need for inter-agency 
interoperability was a theme that was repeated over and over again. You 
cannot have a coordinated and effective response to a terrorist event, 
or any disaster for that matter, if your first responders cannot 
communicate.
    What is the Department doing to help State and local first 
responders be able to better communicate in the event of a crisis? The 
President proposes to give a modest amount of money to address this 
problem in fiscal year 2003. Why should we make our State and local 
first responders wait for a year before they are given resources to 
improve their ability to communicate with each other?
    Answer. The Department of Justice has long supported efforts to 
improve state and local public safety communications interoperability 
through both the Office of Justice Programs and the COPS Office.
    Created in 1998, Project AGILE (Advanced Generation of 
Interoperability for Law Enforcement) pulls together interoperability 
efforts within the National Institute of Justice. The AGILE Program is 
dedicated to solving communication problems at the State and local 
level by focusing on outreach and education, research and development, 
and the development of standards for voice and data. It has supported 
projects in San Diego, Tucson, Alexandria, and is currently 
coordinating the Capital Wireless Integrated Network (CAPWIN) funded in 
the first fiscal year 2002 Supplemental.
    Since fiscal year 1998, through the COPS Law Enforcement Technology 
Program, the COPS Office has been administering grants to several law 
enforcement agencies to assist with improving interoperability efforts:
  --The COPS Law Enforcement Technology Program has provided funds 
        since 1999 for Utah's efforts to create a single multi-agency 
        radio communications system. The system currently serves over 
        91 federal, state, and local public safety agencies. This 
        program has also provided funding to South Dakota, New 
        Hampshire, Vermont, Alabama, and Kansas to establish or 
        strengthen communications between law enforcement and other 
        public safety entities. Grant funding has assisted in the 
        development or enhancement of communications infrastructures, 
        including mobile data systems, to reach law enforcement and 
        other public safety entities statewide, and purchase mobile and 
        portable radios to operate on statewide radio systems across 
        all levels of government.
  --The 2003 President's Budget proposes a $50 million COPS Information 
        Technology Program to replace the COPS MORE Program. This 
        program is intended to help state and local law enforcement 
        agencies to upgrade existing information systems and vastly 
        improve their intelligence gathering and analytic capabilities. 
        Grantees would be encouraged to engage in collaborative 
        information technology acquisitions through interagency 
        consortia that would directly contribute to the sharing of 
        information across jurisdictions to accelerate criminal 
        identification, criminal apprehension, and critical incident 
        management.
    FEMA's First Responder Initiative includes a major effort to expand 
funding and coordination for improved communications interoperability. 
This will also be a major focus for the recently-announced Department 
of Homeland Security, which will help State and local first responder 
agencies to purchase a wide range of equipment needed to respond 
effectively to a terrorist attack, including interoperable 
communications gear.
                    office of domestic preparedness
    Question. Last December, Congress approved a $212 million emergency 
supplemental for the Department of Justice Office of Domestic 
Preparedness to provide equipment grants and $79 million to provide 
training to our State and local first responders. We wanted to make 
sure that State and Local first responders had an immediate infusion of 
resources to develop their capacity to respond to events like September 
11th.
    It has been four and one-half months since Congress approved this 
funding, yet I understand that you have not even released applications 
to the States to apply for the funds. During this same period, you have 
issued numerous public warnings of potential terrorist attacks. Yet, 
you are holding onto the money. Why are you holding up this money 
instead of getting it out to our State and local law enforcement 
personnel?
    Answer. Under the CT Supplemental, $400 million was appropriated to 
the Office of Domestic Preparedness (ODP). This amount can be further 
broken down into five categories: equipment ($262.1 million), training 
($79 million), exercises ($42.9 million), technical assistance ($8 
million), and management and administration ($8 million). This response 
will concentrate on the equipment and training aspects of this funding.
    Equipment.--Of the $262.1 million available, ODP has obligated 
$29.8 million. Obligations to date include:
  --A total of $20 million for the Preposition Equipment Program was 
        obligated in February 2002.
  --A total of $9.8 million for the New York City Aircraft was awarded 
        in April 2002.
    The remaining $232.3 million is expected to be obligated as 
follows:
  --A total of $20 million for the Capitol Wireless Network project is 
        expected to be obligated in the third quarter of fiscal year 
        2002.
  --A total of $212.3 million provided for state equipment grants, 
        together with $107.4 million provided through regular 
        appropriations, is expected to be awarded in August 2002. As 
        the Committee may be aware, ODP had not yet received many of 
        state preparedness plans needed to award fiscal year 2001 
        equipment funding. In order to release that funding as quickly 
        as possible, ODP focused on reviewing these plans and the 
        associated fiscal year 2001 applications. Once this process was 
        complete, ODP could develop a consolidated fiscal year 2002 
        formula program based on the regular CJS appropriation for 
        equipment funds plus the 2002 supplemental funds. This 
        consolidated approach will assist states in planning more 
        comprehensively for these activities, as well as encourage them 
        both to institutionalize basic first responder training, 
        allowing ODP to eventually address more complex training 
        issues, and to allow them direct funds for participation in 
        exercises. ODP issued the solicitation in May 2002, and has 
        requested applications to be submitted by July 31, 2002. Any 
        applications received by that date should be approved by the 
        end of the fiscal year.
    Training.--Of the $79 million available in training resources, 
$15.3 million has been obligated. The remaining $63.7 million is 
expected to be obligated during the third and fourth quarters.
  --Of the $63 million provided for the National Domestic Preparedness 
        Consortium (NDPC), $17 million for the Center for Domestic 
        Preparedness (CDP) was immediately allocated and will be 
        obligated as the CDP trains first responders. To date, $7.6 
        million has been obligated with the remaining $9.4 million 
        expected to be obligated as it is needed in the training 
        process by the end of the fiscal year. Because of the 
        additional supplemental funds, the CDP will train at least 
        10,000 first responders in 2002.
  --A total of $46 million was provided for the remaining four NDPC 
        members. To date, $2.2 million has been obligated to the Nevada 
        Test Site, with the remaining $43.8 million anticipated to be 
        obligated during the remainder of the third quarter. Because 
        the funds represent about a three-fold increase from previous 
        levels, NDPC members required additional time to develop plans 
        for the appropriate use of these funds. Applications from all 
        NDPC members have been received, are under review and will be 
        approved and awarded shortly.
  --Of the $16 million available for other counterterrorism training 
        grants and support activities, a total of $5.5 million has been 
        obligated. Obligations include $1.5 million for a State 
        Awareness Basic Training Program, $2 million for State and 
        Local Terrorism Awareness Training (SLATT), and $2 million for 
        the Naval Post-Graduate School Pilot Program to develop a 
        homeland defense security certificate program focusing on 
        civil-military issues regarding weapons of mass destruction 
        programs. The remaining $10.5 million is in various stages of 
        being obligated--ODP expects to have most of these funds 
        obligated during the third quarter.
                        border security agencies
    Question. Mr. Attorney General, last year, Governor Ridge proposed 
that the various border security agencies be consolidated under a 
single federal entity. That proposal was trumped by another proposal, 
endorsed by the Justice Department, to consolidate the Customs Service 
and the Immigration and Naturalization Service within the Justice 
Department. Meanwhile, both consolidation proposals have taken a back 
seat to another Justice Department proposal, and the subsequent House-
passed bill, that would split the INS into a service agency and a 
separate enforcement agency.
    Are Governor Ridge's border security proposals being trumped by the 
Justice Department?
    Why is Governor Ridge advocating a consolidation of these border 
defense agencies?
    Answer. The President has stated that he wants our borders secure 
against those who would violate our laws, while at the same time 
ensuring the free flow of commerce and economic activity. The 
Department understands that the Homeland Security Council and Governor 
Ridge have been discussing these issues and weighing various options, 
prior to making a recommendation to the President.
    It is essential that, as we review border integration, and we do 
not cause law enforcement disintegration. Since September 11th, the 
Department has used consolidated law enforcement assets of the Federal 
Bureau of Investigation, the Immigration and Naturalization Service, 
and the United States Attorneys to prevent and disrupt possible 
terrorism networks. It is important to the Department to maintain this 
cooperation and synergy. I strongly believe that consolidating and 
coordinating our law enforcement resources is critical in our fight 
against terrorism.
                office of domestic preparedness to fema
    Question. The President's budget request includes a new $3.5 
billion First Responder Initiative that would eliminate the Office of 
Domestic Preparedness and roll it into a new Office of National 
Preparedness at FEMA. In other words, the proposal would dismantle the 
Office of Domestic Preparedness at Justice and rebuild it at FEMA. It 
sounds to me like we are just reinventing the wheel.
    The Committee had numerous witnesses from the law enforcement 
community, including the International Association of Chiefs of Police, 
testify in support of continuing to provide assistance to State and 
local law enforcement through the Justice Department.
    What's the point of moving the Office of Domestic Preparedness to 
FEMA when it is already functioning at the Justice Department?
    Answer. In the fiscal year 2003 President's budget, the 
Administration proposed that ODP's counterterrorism programs be 
transferred to the Federal Emergency Management Agency (FEMA). This 
transfer supports the Administration's coordination and streamlining of 
all terrorism-related activities to provide greater program cohesion 
and efficiency. The transfer will provide state and local first 
responders with a single funding source for $3.5 billion in equipment 
grants, training programs, and other preparedness efforts. This 
transfer also helps lay the groundwork for the Administration's 
proposal for the transfer to the Department of Homeland Security.
                            counterterrorism
    Question. As the federal law enforcement agency with a principal 
mission of counterterrorism and counterintelligence, the FBI has had to 
take on a tremendous role with the investigations of the September 11 
terrorist attacks and the subsequent Anthrax letters and hoax letters. 
I understand that 67 percent of the agents in the field, who previously 
worked criminal investigative matters, were originally diverted to 
conduct these investigations.
    Do you believe that the FBI is spread too thin? What percentage of 
FBI agents is currently reassigned to work on the terrorist 
investigations?
    Answer. Based on the terrorist attacks at the World Trade Center 
(WTC), the Pentagon, and in Pennsylvania on September 11, significant 
resources from all FBI criminal programs were redirected to support 
these unprecedented investigations. The FBI continues to maintain its 
major initiatives within the criminal programs. As of April 20, 2002, 
17 percent of the agents in the field who previously worked criminal 
investigative matters are still diverted to conduct counterterrorism 
investigations.
    Question. What impact is that having on the FBI's criminal 
investigations?
    Answer. The FBI is developing a comprehensive strategy to 
permanently shift resources to supplement the substantial new resources 
Congress provided in the Counterterrorism Supplemental for the 
prevention of and fight against terrorism. Given the gravity of the 
current terrorist threat to the United States, the FBI must focus its 
available energies and resources on preventing additional terrorist 
acts and protecting the Nation's security. At the same time, the FBI 
will ensure that the pursuit and combating of international and 
domestic organized crime groups and enterprises, civil rights 
violations, major white-collar crime and serious violent crime are 
consistent with the available resources and the capabilities of our 
federal, state, and municipal partners.
    In the area of Crimes Against Children (CAC), there has been no 
significant reduction in the ability of the FBI to investigate and 
prosecute significant cases. The FBI has continued its work on current 
initiatives, such as ``Operation Candyman,'' which is part of the 
Innocent Images National Initiative. As of April 3, 2002, ``Operation 
Candyman'' has resulted in 483 consent and search warrants, and 85 
arrests. Many of those arrested were in positions of trust in relation 
to children.
    The FBI has seen an increase in the number of civil rights 
investigations as a result of the September 11 attacks. Many of these 
are allegations of hate crime violations against the Arab community.
    The challenge of disrupting and dismantling drug trafficking 
organizations has become more difficult since September 11, due to the 
necessary redirection of resources. As the Congress is acutely aware, 
drug abuse in the United States is devastating American families, 
businesses, and neighborhoods. It impedes education and chokes the 
criminal justice, health, and social service systems. Annually, the 
social and crime-related costs of drug-use on the American economy are 
estimated at over $110 billion.
    Question. Has the Office of Homeland Security given you guidance on 
how to reorganize the FBI?
    Answer. In consultation with the Administration, the FBI proposed a 
reorganization to the Congress May 29, 2002. This reorganization was 
approved by the Congress July 31, 2002. With respect to the Department 
of Homeland Security (DHS), the Department and FBI are having ongoing 
discussions with the Administration about functions that would be 
transferred to DHS.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
    supplemental request for fema--state grants for first responder 
                                training
    Question. Mr. Attorney General, the supplemental request for FEMA 
includes about $125 million for state grants for first responder 
training and equipment and to respond to acts of terrorism, including 
incidents involving weapons of mass destruction. Can you tell me how 
you intend to distribute these funds to states? Also will any of that 
funding carry out the functions currently designated to Justice 
Department's Office of Domestic Preparedness?
    I asked you that because the question of whether this office should 
transferred from Justice to FEMA is far from resolved. I authored 
provisions of the USA Patriot Act that revises the domestic 
preparedness program, giving (1) additional flexibility to purchase 
needed equipment; (2) training and technical assistance to State and 
local first responders; and (3) small-state minimums to ensure a more 
equitable allocation of funds to all States. Before we move any 
bureaucratic boxes, I want to ensure that this program is going to 
operate as effectively as possible and that the needs of small states 
will be taken into consideration in the Supplemental.
    Answer. The President's fiscal year 2002 Supplemental Budget 
Request includes $175 million for assistance to first responders, under 
the Federal Emergency Management Administration (FEMA). The 
supplemental request is consistent with the President's fiscal year 
2003 Budget, which proposed that the counterterrorism programs of the 
Office of Domestic Preparedness in the Department of Justice be 
transferred to FEMA. The President has stated his belief that the 
numerous federal programs offering training and assistance to state and 
local governments should be ``seamlessly integrated, harmonious and 
comprehensive to maximize their effectiveness.''
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
                           wisconsin sheriffs
    Question. Mr. Attorney General, I had a conversation with the head 
of the Wisconsin Sheriff's Association and he expressed several 
concerns about federal funding. Let me share the most important with 
you. He questioned whether FEMA was the appropriate agency to 
distribute funds to all first responders--most particularly from his 
perspective, local law enforcement. And he was concerned that including 
police needs with those of firefighters and EMT's in one funding pool 
would disadvantage law enforcement because they would have to contend 
with the more expensive requests of other first responders. As he put 
it, a sheriff's request for a new squad car costs only a fraction of a 
fire department's need for a new fire truck. In addition, this sheriff, 
who is from a rural county, is fearful that he will be unable to 
compete with large urban areas that have extensive and complex needs.
    How would you respond to this Wisconsin sheriff? We already have a 
program that police and sheriffs are very pleased with, namely the COPS 
program. Yet, you are choosing to strip $484 million from the program. 
Wouldn't COPS satisfy all of my sheriff's concerns?
    Answer. The fight against terrorism is the first and overriding 
priority of the Department of Justice. The fiscal year 2003 President's 
budget request reflects this new focus, and proposes the reduction or 
elimination of several state and local assistance programs to support 
it. A new program, the Justice Assistance Grant program, is proposed to 
replace the Byrne and the Local Law Enforcement Block Grant programs 
and will support a broad array of state and local law enforcement 
needs. There are neither current nor planned programs which support the 
purchase of fire trucks, although squad cars may be purchased under 
certain scenarios.
    However, while assistance to state and local governments is reduced 
in the Department of Justice's budget, significant new resources of 
$3.5 billion are included in the Federal Emergency Management Agency's 
(FEMA) budget. We understand that a portion of these funds will be 
available for firefighter equipment, including fire trucks.
    In the fiscal year 2003 budget, the Administration proposes to 
transfer the Office of Domestic Preparedness (ODP) from the Office of 
Justice Programs to FEMA as part of the Administration's coordination 
and streamlining of all terrorism-related activities to provide greater 
program cohesion and efficiency. This transfer also supports the 
Administration's initiative to seamlessly integrate the numerous 
federal programs offering training and assistance to state and local 
governments to maximize their effectiveness. The transfer will provide 
state and local first responders with a single funding source for $3.5 
billion in equipment grants, training programs, and other preparedness 
efforts. ODP's counterterrorism programs have supported the first 
responder community, which has been broadly defined to include state 
and local law enforcement as well as firefighters and emergency medical 
and bomb technicians due to the variety of expertise needed to deal 
with incidents of terrorism involving the use of weapons of mass 
destruction.
                 immigration and local law enforcement
    Question. We have heard a lot of discussion about the role of local 
law enforcement in the war on terrorism. Most recently, news accounts 
suggest there is disagreement within the Administration about whether 
to permit local law enforcement officials to enforce the immigration 
laws. The Justice Department believes local police should enforce these 
laws, yet there are reasons that they may not want to. For example, 
many local police rely on immigrant populations for leads in solving 
crimes and do not want those groups to be afraid to cooperate with 
police. More importantly perhaps, since 9/11, demands on local law 
enforcement have never been greater, while, at the same time, their 
resources are limited due to budget shortfalls in our local 
communities.
    Does the Justice Department believe that local law enforcement is 
becoming too burdened in the wake of added responsibilities after the 
events of September 11?
    Will you comment on the role of local police in enforcing the 
immigration laws?
    Finally, can you tell us how the Justice Department intends to 
train these officers to handle immigration issues?
    Answer. Section 287(g) of the Immigration and Nationality Act (INA) 
allows the Attorney General to enter into a written agreement with a 
State (or political subdivision of a state) pursuant to which ``an 
officer or employee of the State who is determined by the Attorney 
General to be qualified to perform a function of an immigration officer 
in relation to the investigation, apprehension or detention of aliens 
in the United States may carry out such function.''
    In the past, INS officials have pursued section 287(g) written 
agreements with state and local officials who expressed interest. The 
INS has recently entered into negotiations with State of Florida 
officials in an effort that resulted in the first written agreement 
with a state or local jurisdiction for the delegation of immigration 
law enforcement authority under section 287(g). As the first such 
agreement achieved pursuant to section 287(g), the State of Florida 
agreement will provide the blueprint for our approach in establishing 
written agreements with other jurisdictions. Under the Florida model, 
35 Florida law enforcement officials will be trained by the INS, at INS 
expense, in immigration law and will be certified, after passing a 
training examination, to enforce certain provisions of the INA. Florida 
officers will be under direct INS supervision and will only exercise 
their immigration authorities in the limited context of investigations 
involving national security.
    At this time, this is the only mechanism under which local law 
enforcement officials can enforce immigration law.
                             cops and fema
    Question. As it's been discussed here already, this supplemental 
would set aside $175 million in grants to the states for first 
responder training and equipment. This grant program would be 
administered by FEMA. Now we know that DOJ has many years of experience 
with awarding grants directly to local and state law enforcement. And 
these are worthy grant programs--one program in particular Mr. Ashcroft 
that I recall you described here before as a ``miraculous sort of 
success''--that directly award grants to state and local law 
enforcement. Unfortunately, these programs are scheduled to be cut, if 
not eliminated. The COPS Universal Hiring Program has been zeroed out 
to the tune of $84 million; the COPS MORE Program was eliminated--a $66 
million cut; the COPS in School Program has been entirely cut--a $180 
million program; and the COPS Law Enforcement Technology Program has 
been zeroed out--a $154 million program last year. In total, the 
President's Budget would slash the COPS program $484 million.
    What's going on here? At a time when we are asking local law 
enforcement--all of whom are first responders--to remain vigilant and 
on alert, why is DOJ cutting their federal funding in such grand 
fashion?
    Answer. Since 1995, the COPS Hiring program has received sufficient 
funding to support the hiring or redeployment of over 117,000 officers, 
17 percent more than the previous Administration's goal. COPS has 
awarded grants supporting 114,000 officers to date, so there are more 
than 3,000 officer positions still to be funded by the end of the 
fiscal year.
    For fiscal year 2003, the Department of Justice is proposing to 
realign and streamline all of the State and local law enforcement grant 
programs. This is why the Department is recommending the creation of a 
comprehensive state and local assistance grant program: the Justice 
Assistance Grant Program (JAG) that will give police departments 
greater flexibility to address their locally-determined priorities. As 
you know, COPS grants may only be used to support the hiring of new 
officers or acquiring technology that frees officers for street duty.
    Furthermore, total Federal assistance to state and local law 
enforcement will actually increase due to the creation of a new $3.5 
billion ``first responder'' grant program in FEMA, which will provide 
anti-terrorism equipment and training to police, fire, and rescue 
personnel. This initiative includes domestic preparedness activities 
previously funded within the Office for Domestic Preparedness.
                        material witness ruling
    Question. On Tuesday, a federal judge in New York, dismissed 
perjury charges against a Jordanian student because evidence in the 
investigation was collected from a witness who had been unlawfully 
detained. The question is whether the law lets the government 
indefinitely imprison people who haven't committed a crime just because 
they might need to testify in a criminal case. The judge in the case 
held in her ruling, ``to detain people who are presumed innocent under 
our Constitution in order to prevent potential crime is . . . 
illegitimate.''
    According to news outlets, there are at least two dozen witnesses 
currently being detained as material witnesses for grand jury 
proceedings.
    Mr. Attorney General, if this judge's interpretation of the 
material witness statute is correct, doesn't this put in jeopardy many 
of the ongoing Justice Department terrorism investigations?
    Does the Justice Department intend to appeal the ruling?
    Answer. Shortly after 9/11, agents found a slip of paper in the car 
left by the hijackers at Dulles Airport bearing the name ``Osama'' and 
a phone number. This information led the agents to Osama Awadallah, a 
Jordanian national living in San Diego. Further investigation indicated 
that Awadallah knew two of the hijackers. Agents first interviewed 
Awadallah on 9/20, and arrested him the following day as a material 
witness in the 9/11 investigation. He was transferred to New York 
pursuant to a material witness warrant issued by a judge in the 
Southern District of New York. Awadallah testified before the grand 
jury, and was thereafter charged with two counts of perjury. He was 
released on bail in December 2001.
    On April 30, 2002, Judge Shira Scheindlin issued two decisions in 
this matter. First, she dismissed the indictment finding that 
Awadallah's grand jury testimony was the fruit of his illegal detention 
on an invalid material witness warrant. Judge Scheindlin held that 18 
U.S.C. 3144, which authorizes the detention of a person whose testimony 
``is material in a criminal proceeding,'' applies only after an 
indictment has been returned and does not authorize the detention of a 
grand jury witness.
    Judge Scheindlin raised the material witness issue sua sponte and 
did not give the government an opportunity to brief the applicability 
of Section 3144 to grand jury witnesses before she rendered her 
decision.
              bureaucracy of the first responders program
    Question. With the creation of the First Responders Initiative in 
FEMA, the local police, firefighters and emergency medical technicians 
will be forced to deal with a new federal program and the bureaucracy 
that goes with it. We know that police departments around the country 
are very experienced in dealing with the COPS office in the Department 
of Justice because they have been doing it for more than eight years.
    Terrorism response and emergency aid by its very nature must be 
provided immediately.
    Should we be concerned that a new bureaucracy with new forms to 
fill out and new rules to follow will slow the distribution of the 
emergency aid to our local officials? Will this bureaucracy impede its 
very purpose?
    Answer. Because state and local first responders must be able to 
seamlessly cooperate in their preparedness efforts, the Administration 
believes that first responder preparedness assistance must be well-
planned and coordinated at the Federal, state and local levels. In May 
2001, the President stated that the numerous Federal programs offering 
training and assistance to state and local governments should be 
``seamlessly integrated, harmonious and comprehensive to maximize their 
effectiveness.'' This is why the fiscal year 2003 budget proposes to 
consolidate such efforts within the Federal Emergency Management Agency 
(FEMA).
    This would involve the transfer of the Office of Domestic 
Preparedness counterterrorism programs, including $234.494 million and 
59 positions, to FEMA. The transfer will provide state and local first 
responders with a single funding source at FEMA for $3.5 billion in 
equipment grants, training programs, and other preparedness efforts.
    The Administration expects that FEMA will begin operating the first 
responder program immediately following the passage of FEMA's fiscal 
year 2003 appropriations bill. During fiscal year 2002, FEMA, through 
its Office of National Preparedness, will assemble a qualified staff to 
design the grant making process, and the current ODP staff will also 
continue to provide experience and expertise for these programs. We 
understand that FEMA is making every effort to design an efficient, 
streamlined grant process. FEMA and DOJ will coordinate and plan the 
transfer of ODP activities, personnel, and facilities for fiscal year 
2003.
                      failure to distribute grants
    Question. The Justice Department's Inspector General reported that 
the Department failed to distribute more than $141 million in grants 
set aside for emergency equipment in response to the threat of 
terrorism. And, in some cases, even when the money was awarded some 
state and local governments failed to spend it in a timely way or 
failed to accept readily available equipment. The equipment was for 
police, fire departments and emergency response teams.
    Can you comment on the problems that occurred with these grants and 
are there ways to ensure that the money and equipment gets to the 
people who need it in a more efficient manner?
    Answer. The Inspector General report provided a helpful evaluation 
of program delivery, and the Office of Justice Programs has taken a 
number of steps to begin to address the problems noted. Specifically, 
the following changes are being implemented:
  --To ensure that State grant applications are submitted in a timely 
        fashion, the recently-issued fiscal year 2002 State Domestic 
        Preparedness Program solicitation specifies that grant 
        applications are due by July 31, 2002. The Office of Domestic 
        Preparedness (ODP) will provide follow-up support to 
        territories and states that demonstrate difficulty in meeting 
        the established application deadline.
  --As noted in the OIG report, grantees are unable to use funds in a 
        timely fashion because many manufacturers have back orders on 
        specialized first responder equipment. Moreover, some 
        jurisdictions encounter bureaucratic obstacles in the 
        procurement process. To address these problems, ODP has 
        established alternative procurement processes through 
        agreements with the Defense Logistics Agency and the Marine 
        Corps Systems Command. These agreements allow ODP grantees to 
        purchase equipment from the agencies' GSA schedules, and should 
        result in cost and time savings for procurement.
  --Recognizing the challenges that jurisdictions face with respect to 
        the procurement of specialized first responder equipment, ODP 
        will strengthen its grant monitoring efforts to ensure that 
        grant funds are expended as quickly as possible and 
        expenditures are in compliance with program guidance.
  --In addition, a 2-year limit has been imposed for grantee 
        expenditure.
    ODP has also made substantial progress in obligating the remaining 
CT equipment grants. The $212.3 million provided for state equipment 
grants appropriated in the fiscal year 2002 Counterterrorism 
Supplemental, together with the remaining $107.4 million provided 
through regular appropriations, is expected to be awarded in August 
2002. For the fiscal year 2002 program, ODP for the first time will 
incorporate funds available under the fiscal year 2002 regular 
appropriation state equipment funds and the fiscal year 2002 
supplemental equipment, exercise and basic awareness training funds 
into one formula program. This will assist states in addressing these 
activities more comprehensively, as well as encourage them to 
institutionalize basic first responder training, allowing ODP to 
eventually address more complex training issues, and allow them direct 
funds for participation in exercises.
    Through the conference reports accompanying the fiscal year 2000-
2002 Appropriations Acts for this program, Congress expressed its 
intent that the funds be expended only upon completion of, and in 
accordance with a needs and risk assessment and statewide domestic 
preparedness strategy. The assessment and planning process, which 
involved local jurisdictions in the states, required considerable time 
to complete. Prior to September 11, the urgency to complete the 
strategies was not apparent in many jurisdictions. As of September 11, 
only 4 states had submitted plans.
    On September 21, the Attorney General sent a letter to the 
Governors of all 56 states and territories, urging them to submit their 
3-year domestic preparedness strategies by December 15, 2001, in order 
to expedite the state and local equipment grant process in the 
aftermath of the September 11th terrorist attacks. As of May 31, 2002, 
52 of the 56 eligible states and territories had submitted their 3-year 
domestic preparedness strategies, and 50 of these have been approved.
    As of May 31, 2002, 39 states have applied for fiscal year 2000-
2001 equipment funds. Of these 39 applications, 29 were awarded, 
totaling $79.307 million.
                  proactive role for first responders
    Question. There is no question that our communities need to be 
better prepared to respond to terrorism if and when it occurs. We 
wonder, however, whether there is a more proactive role for state and 
local authorities to play in preventing terrorism and stopping suspects 
before they act.
    Is it short-sighted in your view, to shift funds away from police 
hiring and the Justice Department and to FEMA for the purpose of 
responding to terrorist attacks?
    Is there a way for both prevention and response needs to be met?
    Are there currently programs in place to prepare and train state 
and local police for preventing terrorism?
    Answer. Since September 11, the primary and overarching priority 
for the Department is to prevent terrorist attacks. As a result, the 
Department was compelled to redirect existing resources from other 
program areas in the fiscal year 2003 budget.
    The fiscal year 2003 President's Budget proposes several new OJP 
programs that can help address the need for both terrorism prevention 
and response. The new $800 million Justice Assistance Grant (JAG) 
program, replacing the Byrne Formula and the Local Law Enforcement 
Block Grant programs may fund activities that enhance state and local 
authorities' roles in preventing and responding to terrorist incidents. 
Within the JAG program, $15 million has been requested for the new 
Citizens Preparedness and Response Program, an initiative that will 
support citizen volunteers, who, through their local police 
departments, Neighborhood Watch, and the FBI's TIPS hotline, will help 
report suspected terrorist activity before it occurs. In addition, the 
$24.9 million Regional Information Sharing System (RISS) and the $9.23 
million National White Collar Crime Center support the reporting and 
sharing of information that would help local law enforcement in 
identifying and preventing terrorist activity. Finally, FEMA has 
requested $3.5 billion for first responder training and equipment.
    Far from being ``short-sighted,'' the Administration's proposal to 
consolidate first responder assistance in FEMA is an important first 
step towards ensuring that preparedness efforts are well-planned and 
coordinated at the federal, state, and local levels.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                    ins enforcement by local police
    Question. Attorney General Ashcroft, it has been reported that the 
Department of Justice will shift INS enforcement responsibilities to 
state and local police. I have many concerns about this change. 
Enforcing the laws that regulate the entry, movement, and actions of 
foreign nationals is clearly a federal responsibility.
    Furthermore, local and state police are overburdened. New security 
requirements at our airports, seaports, and public facilities are 
driving law enforcement costs out the door. Officers are working 12 to 
14 hour days and weekends in order to keep up with new requirements for 
homeland security while still performing their standard duties. How can 
we now expect them to enforce federal INS regulations, which they are 
not trained to do and which they don't have the resources or time to 
perform?
    This would also be a drain on already strapped budgets. Many county 
and local governments in my home state have seen their budgets slashed 
since September 11th. How can we now expect them to investigate, 
arrest, prosecute and even jail individuals suspected of violating our 
federal immigration laws?
    Would local law enforcement be required to take up the new duties 
or would it simply remain an option?
    Has the White House reviewed this policy shift? Do they support it?
    Would you reimburse these local and state law enforcement officers 
for performing this federal function? Are there funds in the 
Supplemental or your fiscal year 2003 budget request for these 
reimbursements?
    Have you spoken to local and state law enforcement groups, civil 
liberty groups or immigrant rights organizations about this change? Do 
they support it?
    Answer. These questions relate to an unpublished opinion of the 
Department of Justice's, Office of Legal Counsel, stating that federal 
law does not preempt from the states the authority to make arrests for 
federal violations. The opinion is under review by the Attorney 
General.
    The questions do not relate to Section 287(g) of the Immigration 
and Nationality Act. However, these two issues are often confused. 
Section 287(g) allows the Attorney General to enter into a written 
agreement with a state (or political subdivision of a state) pursuant 
to which ``an officer or employee of the state . . . who is determined 
by the Attorney General to be qualified to perform a function of an 
immigration officer in relation to the investigation, apprehension or 
detention of aliens in the United States . . . may carry out such 
function.''
    In the past, INS officials have pursued section 287(g) written 
agreements with state and local officials who expressed interest. The 
INS has recently entered into negotiations with State of Florida 
officials in an effort that resulted in the first written agreement 
with a state or local jurisdiction for the delegation of immigration 
law enforcement authority under section 287(g). As the first such 
agreement achieved pursuant to section 287(g), the State of Florida 
agreement will provide the blueprint for our approach in establishing 
written agreements with other jurisdictions. Under the Florida model, 
35 Florida law enforcement officials will be trained by the INS, at INS 
expense, in immigration law and will be certified, after passing a 
training examination, to enforce certain provisions of the INA. Florida 
officers will be under direct INS supervision and will only exercise 
their immigration authorities in the limited context of investigations 
involving national security.
               ins staffing levels at the northern border
    Question. I have been working on securing more staffing and 
resources for the Northern Border even since I was first elected to the 
U.S. Senate. I am grateful that this issue is finally getting the 
attention it deserves from the White House and Congress in the wake of 
the 9/11 attacks.
    The Administration's proposed budget for fiscal year 2003 provides 
additional funding for new INS Border Patrol agents, more INS 
Inspectors, technology aimed at balancing security and the free flow of 
commercial traffic, and for improving existing facilities. The 
supplemental request also asks for additional funding for these 
purposes.
    The USA PATRIOT ACT also authorizes the tripling of the Border 
Patrol, INS agents and inspectors in each Northern Border crossing. You 
mention your intent to fulfill the provisions of this Act in your 
prepared statement.
    How many new Border Patrol Agent and Inspectors will you deploy on 
the Northern Border this year?
    If we honor your fiscal year 2003 and Supplemental Appropriations 
requests, how many new INS Agents and Inspectors will that mean for the 
Northern Border?
    Are you on track to fulfill the staffing increases for the Northern 
Border contained in the USA PATRIOT ACT?
    Answer. Two hundred forty-five Border Patrol agents will be 
deployed to the northern border this year. One hundred forty-five of 
these are coming from the regular appropriations budget as an 
enhancement. One hundred of these are coming from the fiscal year 2002 
counterterrorism supplemental budget. The fiscal year 2003 budget 
requests 570 agents, of which half would go to the northern border--a 
total of 285 agents. INS is on track to meet the mandate of the Patriot 
Act to triple the number of agents on the northern border.
    INS will deploy to the Northern Border, 500 counterterrorism 
immigration inspector positions and 125 enhancement immigration 
inspector positions, from the fiscal year 2002 appropriation. The 
Border Patrol will deploy 245 agents to the Northern Border in fiscal 
year 2002, 145 from appropriations, and 100 from the Counter Terrorism 
supplemental.
    The INS expects to hire more than 1,700 inspectors in total by the 
end of the year. The INS is also experiencing record losses this year 
and may lose as many as 800 to 900 inspectors to other agencies and 
occupations by the end of the fiscal year. The INS is actively 
recruiting and selecting candidates to fill existing and projected 
vacancies. The INS has an on-going open hiring period and is 
administering tests and oral board interviews continuously to keep 
sufficient numbers of applicants in the pre-appointment clearance 
process (medical/drug screening and background investigation) queue.
    The Federal Law Enforcement Training Center is running at capacity. 
The Immigration Officer Academy is starting a new basic training class 
every week. To meet the hiring demands, training classes now are being 
held six days per week.
                   northern land border and commuters
    Question. Improving technology and procedures at the Northern 
Border is a way we can enhance security and alleviate the congestion 
that is amassing at the Border. The NEXUS program is one such system 
that can achieve these two goals. This program establishes a dedicated 
commuter lane for low risk individuals. To use the system, an 
individual must preregister, undergo a background check, and be 
affirmatively identified as an approved user when crossing the border. 
The program has been running with great success at the Port Huron, 
Michigan crossings. It will next be implemented at the Blaine, 
Washington Crossings.
    Are you still on schedule to implement NEXUS at Blaine at the end 
of May?
    If not, when do you intend to have the system up and running? In 
the interim, are there any additional steps that can be taken to reduce 
the economically consequences of congestion while still maintaining a 
secure border?
    Answer. The NEXUS program is currently scheduled for opening in 
June, 2002. In January 2002, a target date of late June was set for 
opening of the system. This date was refined to June 26, 2002 to fix 
the opening date of the enrollment center and the lane operations. The 
progress of the NEXUS project is monitored daily by INS Headquarters, 
Regional offices and through weekly reporting to INS Executive staff.
    INS is currently operating at a heightened state of alert at all 
ports of entry. Despite intensified operations, the INS, in concert 
with the U.S. Customs Service and the National Guard, has drastically 
reduced the wait times at ports of entry while maintaining a heightened 
state of alert.
            arming the national guard at the northern border
    Question. I have been very involved in the arming of the National 
Guard soldiers deployed along the Northern Border. To date we have made 
no progress on this issue. Today we have guardsmen deployed along the 
border who are unarmed and unprotected. This is creating a significant 
security issue for these soldiers and law enforcement officials. I am 
very concerned by the fact that this situation has not been corrected.
    On February 24, I asked you if you support arming the National 
Guard deployed along the Northern Border. You indicated that, in your 
mind, they were there to support INS and Customs, but you did not know 
if they should be armed. You also indicated that you would try to get 
back to me with an answer. Two months later, you have yet to get back 
to me with an answer to that very important question. I do not know 
what your internal process is for responding to a Senator's request, 
but I would like an answer soon.
    The Department of Defense is trying to get the parties involved to 
agree on a Memorandum of Agreement with the National Guard to allow the 
arming of certain guardsmen. Mr. Attorney General, I believe the 
Customs Commissioner has made a statement that he supports arming the 
guard.
    Mr. Attorney General, do you support arming the National Guard 
deployed in this vital security role?
    What can be done to finally resolve this issue in a timely manner?
    Answer. The INS and the Department of Defense have entered into a 
Memorandum of Agreement (MOA) that would permit the arming of certain 
soldiers, after receiving training, along the Northern Border. The MOA 
was signed on June 7, 2002.
                               user fees
    Question. Attorney General Ashcroft, recently the administration 
has sought and we have approved various new INS user fees. Last year, 
you asked a $3 fee be placed on marine operations between the United 
States and Canada, United States and Mexico, or the United States and 
the Caribbean. This fee is assessed on cruise ships, and, for the first 
time, it also includes international ferry service. You also asked for 
a $1 increase--from $6 to $7--on the INS fees assessed on passengers 
aboard international commercial flights who enter the United States. 
These increased fees where intended to expand the levels of staffing at 
our ports of entry, who are currently overworked.
    Are those funds collected from user fees being used for their 
intended purposes, which is to increase staffing at our ports of entry?
    Is your hiring and training schedule on track for these new agents?
    These fee increases have a significant impact on the travel 
industry, by virtue of raising the price of travel. The Pacific 
Northwest has the largest passenger ferry system in the country, 
operates 75 percent of the nation's marine operations between Canada 
and the United States, has a cruise ship business that is growing at a 
rapid rate, and operates one of these most frequently used 
international airports in the world. These fees have a disproportionate 
impact on my state's economy. You have requested $35 million in the 
supplemental to fund your initiatives for air and seaport security 
through user fees.
    Will you require further increases on maritime and aviation fees to 
recover the full $35 million?
    Are you concerned what the impacts these fees could have on areas 
of the country like the Pacific Northwest that depend on international 
aviation and marine traveling industries?
    Answer. All funds collected from airport user fees are used to 
support inspection activities at air ports-of-entry. This includes 
funding for new and existing staff, technology, and detention costs 
related to airport enforcement actions.
    The INS is aggressively recruiting for the newly authorized 
positions provided in the fiscal year 2002 budget. Due to projected 
shortfalls in fee collections since September 11, 2001, 214 of the 
positions have not been funded at this time.
    The INS hiring plan anticipates that selections for 202 of the 417 
newly authorized positions will be made in this spring. We have the 
capability of selecting the remaining 215 if funding is provided 
through the supplemental. Background investigations and other necessary 
screening will be completed as soon as possible and the newly selected 
candidates will be scheduled for training. Inspectors should begin 
entry on duty upon completion of training in the early fall.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                  arab speaking agents or translators
    Question. One of the things we learned after 9/11 was that the FBI 
and probably other law enforcement agencies did not have enough, or 
any, Arabic speaking agents or translators. What steps have you and the 
Department taken to address this need? Will there be specific 
recruiting funding set aside for hiring Arabic-speakers for the FBI?
    Answer. The FBI's critical need for additional translation support, 
particularly among Middle Eastern languages, received national 
attention following statements made by Director Mueller during a 
televised news conference on September 17, 2001. During this news 
conference, Director Mueller asked for assistance from United States 
citizens proficient in English and Arabic, Pashto, or Farsi, to assist 
in the investigation into the September 11 terrorist attacks.
    Prior to the September 11 attacks, the FBI was processing a high 
number of linguist candidates to address escalating translation demands 
with a particular focus on those candidates with a proficiency in 
Middle Eastern languages. However, the FBI was only modestly successful 
with meeting this requirement, and approved for contract or hire 218 
linguists in fiscal year 2001. Since September 17, 2001, the FBI has 
received more than 20,000 applications for its Contract Linguist 
positions. The FBI has been able to selectively screen and expedite the 
processing of these applications in order to best meet current and 
projected FBI needs.
    The FBI expects to meet its current objectives in the priority 
languages over the next few months, and is still actively screening 
applicants in other languages. Recent funding enhancements, including 
$9.6 million for additional contract linguists ($5.6 million in fiscal 
year 2001 and $4 million in the fiscal year 2002 Emergency 
Supplemental) and 30 additional language specialist positions, have 
provided the FBI with sufficient funding to accommodate this growth and 
will sustain the additional growth necessary to meet current and 
projected translation demands. The following table represents 
established hiring objectives, the number of linguist applicants in 
process, the number of linguists hired or contracted with since 
September 11, 2001, and expected hiring based on current applicant 
levels.

                           FISCAL YEAR 2002 FOREIGN LANGUAGE PROGRAM HIRING STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                      Hiring/
                                                    Contracting      Number of        Number         Projected
                    Language                      Objectives for   Applicants in   Contracted or   Number of New
                                                    Fiscal Year       Process     Hired Since 09/    Hires or
                                                       2002                           11/2002       Contractors
----------------------------------------------------------------------------------------------------------------
Arabic..........................................             150             380              52             150
Farsi...........................................              35             283              10              35
Pashto..........................................               6              26               4               7
Urdu............................................              12              62               4              15
Other \1\.......................................             141             732              67             156
                                                 ---------------------------------------------------------------
      Totals....................................             344           1,483             137             363
----------------------------------------------------------------------------------------------------------------
\1\ Includes all other languages that traditionally support FBI criminal, counterintelligence, and
  counterterrorism investigations.

                            first responders
    Question. The President's fiscal year 2003 budget proposes $3.5 
billion to support the homeland security needs of first responders. I 
applaud the Administration's proposal. The Committee has heard from a 
wide range of local officials--police officers, firefighters, mayors, 
county supervisors--who have urged us to provide this funding directly 
to local agencies. I agree with them.
    But these local officials also asked us to restore the funding for 
the COPS hiring program. The Administration's budget provides no 
funding for community policing for the COPS-in-Schools program and zero 
funding for the Universal Hiring Program.
    What is the justification for those cuts? Do you believe that 
putting more police on the beat has no effect on fighting crime? Does 
the Department of Justice believe that local police do not have a role 
to play in homeland security?
    Answer. In an attempt to realign and streamline all of the 
Department of Justice's state and local law enforcement grant programs, 
the Department is recommending the creation of a comprehensive state 
and local assistance grant program: Justice Assistance Grant Program 
(JAG). The Department has reprioritized and shifted funding to address 
counterterrorism efforts and as such, funding for state and local law 
enforcement has decreased in the Department's funding request. There 
is, however, an overall increase in the total Administration's budget 
request for fiscal year 2003.
    Since 1995, the COPS Hiring program has received sufficient funding 
to support the hiring or redeployment of over 117,000 officers, 17 
percent more than the previous Administration's goal. COPS has awarded 
grants supporting 114,000 officers to date, so there are more than 
3,000 officer positions still to be funded by the end of the fiscal 
year.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
               background check interoperability with ins
    Question. Mr. Attorney General, as you and I discussed at our CJS 
Subcommittee hearing earlier this year, an important component of our 
homeland security effort is keeping firearms out of the hands of 
terrorists and other criminals. Can you give us an update on your 
ongoing efforts to better coordinate the FBI's criminal background 
check systems with databases of the Immigration and Naturalization 
Service?
    Answer. The Department of Justice has taken action to prevent 
prohibited aliens from purchasing guns in violation of federal law by 
improving the comprehensiveness of National Instant Criminal Background 
Check System (NICS) checks relative to data in INS databases.
    On February 12, 2002, I requested that the Federal Bureau of 
Investigation (FBI) send all non-citizen firearm purchase requests to 
the Immigration and Naturalization Service (INS), Law Enforcement 
Support Center (LESC), to check against INS databases to ensure that 
prohibited persons, including prohibited aliens, do not receive 
firearms in violation of the law. All non-citizen checks are being 
delayed until INS systems are queried and the response is evaluated by 
the FBI. This process allows the FBI to inquire about a person's 
immigration status and whether the person is illegally or unlawfully in 
the United States. Further, the FBI has initiated an interim manual 
procedure, the Immigration Alien Query, to implement this improvement 
in the NICS process. The FBI expects this process to be fully automated 
in late fiscal year 2002.
    Additionally, the FBI and INS are working to add more recent 
Deportable Alien Control System (DACS) data to the NICS Index. The NICS 
Index, which is automatically checked during all NICS transactions, 
includes a large number of individuals who are in the INS DACS 
database. Currently, the NICS Index includes DACS data from 1995 and 
earlier. The DACS includes information on aliens who are arrested, 
detained, subject to a removal order, or formally removed from the 
country.
 upgrading state criminal history records to improve background checks
    Question. In fiscal year 2002, Congress provided $35 million for 
the National Criminal History Improvement Program to help states 
upgrade and automate criminal history records so that these records can 
interface with databases holding information on other categories of 
individuals who are prohibited from purchasing firearms, for example, 
people who are subject to domestic violence restraining orders.
    What progress are states making to upgrade and automate their 
criminal history records under this program? I understand that your 
fiscal year 2003 budget provides $60 million for this grant program. I 
welcome this proposed increase and I look forward to working with you 
to improve state and federal criminal history records so that no person 
prohibited by law from possessing a gun slips through the cracks in our 
system.
    Answer. Initiated in fiscal year 1995, the National Criminal 
History Improvement Program's (NCHIP) goal is to ensure that accurate 
records are available for use in law enforcement, including sex 
offender registry requirements, and to permit states to identify 
ineligible firearm purchasers; persons ineligible to hold positions 
involving children, the elderly, or the disabled; and persons subject 
to protective orders or wanted, arrested, or convicted of stalking and/
or domestic violence. NCHIP provides direct funding and technical 
assistance to the states to improve the quality, timeliness, and 
immediate accessibility of criminal history and related records. Funds 
and technical assistance are also provided to support the interface 
between states and the national record systems, including the FBI-
operated National Instant Criminal Background Check System (NICS) 
established pursuant to the permanent provisions of the Brady Handgun 
Violence Prevention Act, the National Sex Offender Registry (NSOR), and 
the National Protection Order File, which facilitates compliance with 
federal full faith and credit requirements.
    States have made good progress in automating their criminal history 
files. Since the inception of NCHIP, the number of criminal history 
records held nationwide grew 28 percent while the number of automated 
records grew 33 percent. Over the same years, the number of Interstate 
Identification Index (III) accessible records increased 60 percent.
    Since 1995, NCHIP has provided support to states for--
  --Record improvement and interstate access.--All states have received 
        funds under NCHIP to upgrade the quality of criminal history 
        record systems. Funds have been awarded for acquisition of 
        advanced equipment, development of software, and conversion of 
        manual records to an automated format, which permits instant 
        access and linkage. Automated criminal records permit immediate 
        access for law enforcement and other purposes such as 
        background checks. To ensure compatibility, all record 
        enhancements funded under NCHIP are required to conform to FBI 
        standards for III participation, which is critical since it 
        constitutes the primary system through which the FBI accesses 
        state-held data for NICS checks. Over the period, the number of 
        records available for sharing under the FBI's III climbed 60 
        percent, about twice the rate of increase for all records. 
        Since 1993, the number of states participating in III grew from 
        26 to 43.
  --Automation of records and fingerprint data.--Funds have been used 
        by states to establish automated fingerprint identification 
        systems (AFIS), and to purchase livescan equipment for state 
        and local agencies. AFIS systems enable states to conduct 
        automated searches for records based on fingerprint 
        characteristics and to interface with the FBI's Integrated 
        Automated Fingerprint Identification Systems (IAFIS). 
        Currently, 36 states and three territories participate in 
        IAFIS, which became operational in July 1999. In addition to 
        ensuring that records are properly matched to the correct 
        offender, AFIS minimizes the time required for searching 
        fingerprint databases, which facilitates matching of latent 
        prints obtained at a crime scene. Livescan equipment permits 
        law enforcement to take fingerprints without use of inkpads or 
        other similar procedures and to transfer fingerprints to the 
        state's AFIS for comparison and matching against state and FBI 
        held prints. Almost all states have received NCHIP funds to use 
        in connection with fingerprint automation systems.
  --National Instant Background Check System (NICS).--The NICS is now 
        supporting over 8 million checks annually at the presale stage 
        of firearms purchases. The NICS infrastructure, developed 
        through NCHIP funding, seamlessly transitioned from the Interim 
        Brady system of checks to the current permanent system. To 
        ensure that checks are made against the most current and 
        complete records, the NICS configuration encourages states to 
        serve as a ``Point of Contact'' interfacing between firearm 
        dealers and the FBI's national record system. From the 
        inception of the Brady Act on March 1, 1994, to December 31, 
        2000, about 30 million applications for firearm transfers were 
        subject to background checks. About 689,000, or about 2 percent 
        of all applications, were rejected, primarily for the presence 
        of a prior felony conviction history. State and local agencies 
        maintain a significant role in background checks, conducting 
        checks on almost half of the applications for firearm transfers 
        or permits in 2000, while the FBI was responsible for the 
        remainder. NCHIP funds have facilitated the integration of 
        databases within states--the number of rejections for reasons 
        other than felonies (misdemeanor domestic violence convictions, 
        restraining orders, mental illness or disability, drug 
        addiction, etc.) increased 250 percent from the beginning of 
        the Brady Act to year-end 2000. Currently, all states 
        participate in NICS, with 25 states serving as points of 
        contact.
  --Sex offender registries.--Beginning in 1998, awards were also 
        provided under the NCHIP program to assist states in the 
        development and enhancement of state sex offender registries 
        capable of interfacing with the FBI's National Sex Offender 
        Registry (NSOR). These funds have been used for purchase of 
        equipment, training, and development of procedures required to 
        ensure that released offenders are registered with proper 
        authorities, and that state systems are capable of interfacing 
        with the FBI's NSOR system. Timely collection, maintenance, and 
        exchange of information on released sexual offenders is 
        critical to supporting the effective operation of the FBI's 
        national sex offender file. The FBI's permanent national sex 
        offender registry became operational in July 1999. Thirty- 
        eight states plus the District of Columbia and Guam have 
        provided more than 197,000 records to the NSOR.
  --Domestic violence and protection orders.--States have used NCHIP 
        funds to initiate the flagging of criminal history records 
        including convictions for domestic violence or the issuance of 
        a protection order. There are now 41 states submitting data to 
        the National Protection Order File, which became operational in 
        May 1997 and includes nearly 669,000 records of protection 
        orders.
    The fiscal year 2003 President's budget request includes an 
increase of $25 million to NCHIP to focus on improved communication of 
dispositions and other case outcomes from courts and prosecutors to the 
repositories housing criminal history records. Nearly 30 percent of the 
8 to 9 million checks conducted under NICS annually to screen firearm 
purchasers cannot be completed instantly and require additional 
research to establish the absence or presence of felony convictions 
when open arrests are apparent on the record. In addition, immediate 
access to protection orders on an interstate basis is vital for 
protection of victims of domestic violence. Improvement of the 
mechanisms for ensuring that court-based data are properly transferred 
to the criminal record will result in cost reductions related to 
background check research; greater accuracy in the conduct of 
background checks; and greater integration of record systems across the 
criminal justice system.
    The BJS report summarizing the status of the NCHIP Program is 
available at http://www.ojp.usdoj.gov/bjs/pub/pdf/ichrbc.pdf, a 
statistical bulletin providing information on the operations of the 
background check program since 1994 is available at http://
www.ojp.usdoj.gov/bjs/pub/pdf/bcft00.pdf, and a recent BJS publication 
which describes in detail the procedures and laws governing firearms 
checks in each state is available at http://www.ojp.usdoj.gov/bjs/pub/
pdf/ssprfs01.pdf.
                               crime labs
    Question. Another important component of our homeland security 
effort is to improve forensic science capabilities in crime labs across 
the country that are, unfortunately, using outdated equipment and aging 
facilities, meaning that law enforcement cannot accurately and 
efficiently process criminal evidence. In 2000, Congress passed and the 
President signed the Paul Coverdell National Forensic Sciences 
Improvement Act, authorizing $512 million in federal grants to help 
state and local governments improve the physical infrastructure and 
equipment of forensic science laboratories.
    In fiscal year 2002, Congress appropriated $5 million for the 
Coverdell forensic science grants to states. I understand that your 
fiscal year 2003 request did not include funding for this important 
program. Can you explain why you chose not to fund these grants and 
tell us how the Department plans to help improve criminal forensic 
science capabilities across the country? Do any of the existing Justice 
grant programs fund so-called ``bricks and mortar'' needs so that labs 
can upgrade their facilities?
    Answer. Although the President's fiscal year 2003 budget does not 
request funding for the grant programs authorized by the Coverdell Act, 
it does request more than $80 million to continue OJP's initiatives in 
support of ongoing state and local crime laboratories, including:
  --$35 million for the Crime Lab Improvement Program (CLIP), which 
        provides grants to state and local forensic science agencies to 
        improve the quality and timeliness of forensic science services 
        offered by state and local laboratories. CLIP funds are 
        available for improving all analytical and technological 
        resources of public crime laboratories and increasing crime 
        laboratory access to specialized forensic services.
  --$40 million to address the backlog of convicted DNA and crime scene 
        DNA samples that exist nationwide. The DNA data will then be 
        added to the FBI Combined DNA Index System (CODIS) database, 
        which provides information that helps to solve crimes and 
        convict individuals who threaten the safety of our citizens.
  --$5 million will be used from within the National Institute of 
        Justice's base funds for DNA research and development.
    The Coverdell Act authorizes appropriations for a formula grant 
program to improve the quality and timeliness of forensic science 
services offered by state and local laboratories and for reduction of 
the DNA backlog. Grant funds could be used for construction.
    The Administration did not request funding for this program because 
states vary in their need for these types of assistance, and the 
formula-based structure limits the Department's ability to target funds 
as effectively as under the DNA Analysis Backlog Elimination Act. It 
should be noted that the $5 million in Coverdell funding was 
reallocated to increase DNA Backlog funding from $35 million to $40 
million in fiscal year 2003.
    None of the requested grant programs may be used for ``bricks and 
mortar'' construction of new crime lab facilities. Rather, the 
Department has targeted improved capacity and capability to allow 
existing labs to be able to process existing sample backlogs and solve 
cases, thereby making our communities safer. Construction is a 
significantly more expensive activity that may be addressed after the 
sample backlog is under control and lab capabilities and capacities are 
improved through training and new technologies. However, CLIP funds are 
available to fund renovations or expansions of lab areas or rooms in 
order to provide additional space for new equipment purchased under the 
program.
    Further, there is no evidence that suggests that the forensics case 
backlog may be eliminated by constructing new labs. The key to reducing 
the case backlog is primarily related to technological innovations that 
increase productivity, not increases in the amount of physical plant. 
To raise but one example, if existing labs could modernize their 
equipment by adding new technology to the mass spectrometers used in 
analysis of controlled substances, which is the type of improvement 
funded under the current programs, they could double the number of 
controlled substances they examined on each machine, but actually 
decrease the manpower needed. (Testimony of D. Boyd before Senate 
Judiciary Committee, May 15, 2001) This would free up critical human 
resources, which are already in short supply, for other pressing lab 
work.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
                        mock terrorism disasters
    Question. The events of September 11th caught many of our ``first 
responders,'' as it did the rest of us, by surprise. Some of the 
various agencies had difficulty communicating with each other in the 
confusion. Earlier this year, officials in Denver conducted a disaster 
training exercise to test the preparedness of the city's first 
responders. As I understand, this went well.
    How many cities have held mock terror attacks and how many plan to 
in the future?
    Will the Department of Justice provide funding for other cities to 
conduct mock disasters as well?
    Answer. The Department of Justice, Office of Domestic Preparedness 
(ODP) Exercise and Evaluation Program assists State and local 
government agencies charged with crisis and consequence management in 
improving and sustaining their preparedness against the threat of 
terrorist use of weapons of mass destruction (WMD), which may include 
chemical, biological, radiological, nuclear, and/or explosive weapons. 
Experience and data show that performance-based exercises, referred to 
by some organizations as ``mock terror attacks,'' are a practical and 
efficient way to prepare for crises. They test critical resistance, 
identify procedural difficulties, and provide a plan for corrective 
actions to improve crisis and consequence management response 
capabilities without the penalties that might be incurred in a real 
crisis. Exercises also provide a unique learning opportunity to 
synchronize and integrate cross-functional and intergovernmental crisis 
and consequence management response. ODP supports domestic preparedness 
exercises through the following programs:
    The Nunn-Lugar-Domenici Domestic Preparedness Program (NLD DPP) 
provides training, exercises, and equipment support to enhance the 
capacity of State and local emergency responders and support agencies 
to prepare for and respond to terrorist incidents involving weapons of 
mass destruction. The NLD DPP provides support to the 120 largest 
cities in the United States. Under the NLD DPP, ODP supports the 
planning and conduct of three types of exercises: a chemical weapons 
table top, a biological weapons table top, and a chemical weapons full-
scale exercise. The facilitated, multi-media tabletop exercises give 
local decision-makers and responders an opportunity to discuss 
interagency strategies for response to a chemical or biological 
terrorist event in their jurisdiction. The full-scale exercises enable 
local response agencies to test their plans and procedures in a real-
time drill covering the first hours of response to a simulated chemical 
weapons incident. To date, ODP has completed 45 exercises: 29 
biological weapons table top, 1 chemical weapons table top, and 15 
chemical weapons full-scale exercises. An additional 10 biological 
weapons table top, 5 chemical weapons table top, and 24 chemical 
weapons full-scale exercises are scheduled through January 2004. At 
that time, all 120 largest cities will have been served by this 
program.
    The State and Local Preparedness Exercise Program provides direct 
funding and technical assistance to state and local governments to 
support local and regional interagency exercise efforts. ODP provides 
policy, guidance, standards for scheduling, and uniformity in design, 
development, conduct and evaluation of domestic preparedness exercises 
and related activities. The Three-Year Domestic Preparedness State 
Strategies submitted to ODP by states, territories and the District of 
Columbia identify state and local requirements to design, develop, 
conduct and evaluate nearly 2,500 exercises. Their execution will be 
detailed in State Assistance Plans developed jointly by the states and 
ODP. In fiscal year 2001, ODP supported 50 state and local exercise 
requirements. Through the fiscal year 2002 State Domestic Preparedness 
Program, ODP will provide grant and contract support to state and local 
jurisdictions to conduct approximately 200 WMD exercises in fiscal year 
2002. The remainder of the exercises will be supported in subsequent 
fiscal years.
    The National Exercise Program began in May 2000, with the Top 
Officials (TOPOFF) 2000 exercise. This exercise, the largest federal, 
state and local exercise of its kind, demonstrated the ability of the 
participating federal, state and local departments and agencies to 
respond to a national scale WMD terrorism campaign with simultaneous 
chemical, biological and radiological attacks across the country. The 
disaster training exercise conducted earlier this year in Denver, 
supported by grant funds from FEMA, was based in part on lessons 
learned from the city, county and state's participation in the TOPOFF 
2000 exercise. ODP is currently designing the second Congressionally-
mandated TOPOFF exercise series, involving a series of eight 
preparatory WMD seminars and table top exercises, which will culminate 
in a national full-scale exercise in May 2003. This exercise will be 
the first to include international elements. The Department of Justice 
and the Department of State are co-chairing TOPOFF 2.
    The ODP Exercise and Evaluation Program also supports National 
Security Special Events. ODP provided extensive assistance in the 
conduct of 43 preparedness exercises in support of host venues and 
departments and agencies charged with public safety and emergency 
services in support of the Salt Lake City Winter Olympics.
    As you may know, the Administration's fiscal year 2003 budget 
proposes to transfer administration of these preparedness exercises and 
other ODP activities to the Federal Emergency Management Agency, which 
will eventually form part of the recently-announced Department of 
Homeland Security.
                          division of the ins
    Question. I have heard the Immigration and Naturalization Service 
called one of the worst run federal agencies in the government. I'm 
sure that many of my constituents might disagree, especially around tax 
time. But the events of September 11th really put the INS under the 
gun. It became apparent that changes needed to be made with all of the 
violations of student visas and other means of entry into the country 
that went overlooked.
    The House of Representatives recently voted to divide the INS into 
two divisions: one for immigrant and visitor services and one for law 
enforcement. I'd like your comments on this and how it may prevent 
future incidents and the vast oversights that occurred.
    Answer. The Administration feels strongly that the INS must be 
restructured in a manner which enhances agency's enforcement and 
services missions. In that regard, the Administration has submitted its 
Homeland Security proposal that would pursue INS' restructuring within 
that framework. The Administration looks forward to working closely 
with the Congress to develop a comprehensive Homeland Security plan 
which achieves these objectives.
                                 ______
                                 
                 Questions Submitted to Joe M. Allbaugh
             Questions Submitted by Chairman Robert C. Byrd
    Question. Mr. Allbaugh, the President's budget for FEMA includes 
$3.5 billion for the ``First Responder Initiative.'' This new program 
would combine the Office of Domestic Preparedness from the Department 
of Justice and the Fire Grant Program from FEMA into a new block grant 
program for all first responders. The Office of National Preparedness 
at FEMA would administer the new program. Around this town, you often 
hear the comment, ``if it's not broke, don't fix it.'' I can tell you 
that at the Homeland Security hearings that this Committee held last 
month, firefighters and representatives of firefighting organizations 
pleaded with us to continue the Fire Grant Program as it now stands. 
Representatives of the law enforcement community urged the Committee to 
retain the COPS and State and local law enforcement programs. On what 
basis do you propose to eliminate the Office of Domestic Preparedness 
at Justice and the Fire Grant program at FEMA? Why create a new program 
to replace programs that are effective and productive?
    Answer. To clarify, the fiscal year 2003 Budget does not propose to 
eliminate the Office of Domestic Preparedness but rather transfer all 
of its programs, functions and activities to FEMA. FEMA will continue 
the preparedness activities at facilities currently funded by ODP, and 
will build upon and enhance those activities at a greater level.
    There will be less chance of gaps with coordination provided by a 
single agency. The possibility of gaps is greater under the current 
stovepipe approach without the coordination necessary to eliminate 
confusion and duplication. In fact, numerous outside studies, 
commissions and organizations have recognized the problems inherent in 
having some forty Federal Departments and Agencies involved in the 
overall effort to build the national capability for preparedness and 
response to the consequences of terrorist incident.
    With regard to the First Responder Initiative and the Assistance to 
Firefighters Grant Program, the two programs are fundamentally 
different. The Fire Grants are designed to provide basic assistance 
directly to local fire departments and the First Responder Program is 
designed to provide assistance to the local governments through the 
State for specialized terrorism/WMD training and equipment. For this 
reason FEMA is concerned about the proposed combination of the two 
programs. The Assistance to Firefighters Grant Program is currently 
underway. FEMA will be distributing the entire $360 million fiscal year 
2002 appropriation by the end of this calendar year. The Assistance to 
Firefighters Grant Program includes firefighting gear and equipment, 
personal protective clothing, firefighting vehicles, etc. The First 
Responder Program is far more specialized than the basic fire grant 
program. The First Responder Program will help to increase the level of 
preparedness for our first responders above and beyond their basic day-
to-day responsibilities. While it is true that there is some overlap on 
certain protective equipment and training due to recent changes in the 
Fire Grant statute, this will be the exception rather than the rule.
    Question. The President's budget included just one line of 
authorizing language to create a new $3.5 billion program, which 
involves the re-organization of two federal agencies. No authorizing 
committees have approved this proposal. The Administration is asking 
the Appropriations Committee to approve a new $3.5 billion program, and 
re-organize two Departments without any legislative authorization.
    Mr. Allbaugh, why hasn't the Administration submitted any 
authorizing language, beyond the one line in the Budget?
    The Administration's budget provides no guidance as to how funding 
for the First Responder Initiative will be distributed. Do you intend 
to have FEMA decide how to distribute the funds? Shouldn't the 
authorizing committees make that decision?
    The President's proposal expresses the goal of having the majority 
of funding passed through to local governments. Numerous witnesses at 
our homeland defense hearings stressed the need to get First Responder 
dollars to the local level where the work gets done. How can the 
Congress be sure that the States will actually pass the funding through 
to local governments?
    Answer. FEMA believes it has existing authority to administer the 
First Responder Initiative. FEMA derives this authority from its 
primary disaster relief and assistance statute, the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act (the Stafford Act or the 
Act), 42 U.S.C. Sec. Sec. 5121-5206.
    Title VI of the Stafford Act sets forth FEMA's core mission with 
respect to emergency preparedness and ties this mission to State and 
local entities to ensure effective and efficient coordination of a 
comprehensive emergency preparedness system. Section 601 of the Act (42 
U.S.C. Sec. 5195) provides:

          The purpose of this title is to provide a system of emergency 
        preparedness for the protection of life and property in the 
        United States from hazards and to vest responsibility for 
        emergency preparedness jointly in the Federal Government and 
        the States and their political subdivisions. The Congress 
        recognizes that the organizational structure established 
        jointly by the Federal Government and the States and their 
        political subdivisions for emergency preparedness purposes can 
        be effectively utilized to provide relief and assistance to 
        people in areas of the United States struck by a hazard. The 
        Federal government shall provide necessary direction, 
        coordination, and guidance, and shall provide necessary 
        assistance, as authorized in this subchapter so that a 
        comprehensive emergency preparedness system exists for all 
        hazards.

    Perhaps historically FEMA is better known for responding to 
hurricanes, tornadoes, and other natural disasters. However, FEMA's 
all-hazards mission also includes responsibility for preparedness and 
response to terrorist or other man-made events as well. In section 602 
of the Act (42 U.S.C. Sec. 5195a), the term ``Hazard'' is defined as 
``an emergency or disaster resulting from (A) a natural disaster; or 
(B) an accidental or man-caused event.''
    Grant making or other financial assistance authority is found in a 
number of sections of the Stafford Act, including the following:
  --Section 201(d) (42 U.S.C. Sec. 5131(d)) authorizes the award of 
        grants ``not to exceed 50 per centum of the cost of improving, 
        maintaining and updating State disaster assistance plans.''
  --Section 611(j) (42 U.S.C. Sec. 5196(j)) authorizes the FEMA 
        Director to ``make financial contributions, on the basis of 
        programs or projects approved by the Director, to the States 
        for emergency preparedness purposes, including the procurement, 
        construction, leasing, or renovating of materials and 
        facilities.''
  --Section 613 (42 U.S.C. Sec. 5196b) provides that ``to further 
        assist in carrying out the purposes of this title, the Director 
        may make financial contributions to the States (including 
        interstate emergency preparedness authorities established 
        pursuant to Section 611(h)) for necessary and essential State 
        and local emergency preparedness personnel and administrative 
        expenses, on the basis of approved plans (which shall be 
        consistent with the Federal emergency response plans for 
        emergency preparedness) for the emergency preparedness of the 
        States.''
    However, if Congress believes that additional language is needed to 
further clarify FEMA's existing authority to undertake these missions, 
we would be pleased to work with you as we continue to move forward.
    One of the primary reasons for locating the new consolidated 
program within FEMA is the agency's strong record for quickly 
distributing emergency planning and assistance grants. FEMA has 
extensive experience providing direct assistance to local governments 
through its disaster assistance programs and its Fire Grant program. In 
the case of the Fire Grant program, FEMA established the new program 
and distributed $100 million in competitive grants in less than one 
year. Because First Responder grants will be allocated to states 
according to a formula, FEMA will be able to disburse these funds 
quickly and without difficulty. FEMA intends to monitor closely that 
the funds are awarded based on risk and need and that mutual aid 
agreements are in place as a prerequisite to funding.
    The Administration expects that FEMA will begin operating the First 
Responder program immediately following the passage of FEMA's 2003 
appropriations bill. FEMA intends to award grants to the States shortly 
after receiving the appropriation from Congress. FEMA will establish 
performance for States to make funding available to local governments.
    The grants will be given to and through State Governors, which 
provides a basis of accountability well grounded in the Constitution, 
Executive Orders on federalism, and the electoral process. Each State 
has completed a self-assessment of capabilities for terrorism 
preparedness and response. These capability assessments, along with 
other assessments conducted by FEMA and the Department of Justice, will 
provide a comprehensive picture of each State's current strengths and 
shortcomings in key emergency management functions. When States apply 
for assistance funds under the First Responder Initiative, they will be 
required to submit a State Administration Plan that will delineate how 
they will expend funds for planning, training, exercises, and equipment 
to decrease the vulnerabilities and enhance the strengths identified in 
the capability assessments.
    As each State implements its preparedness programs and expends 
funds received via this Initiative, the State will be required to 
demonstrate improved capabilities in key emergency management functions 
via an evaluation process. For example, the National Emergency 
Management Association (NEMA) currently is pilot-testing an evaluation 
program called the Emergency Management Accreditation Program (EMAP). 
This program involves sending a team of NEMA-trained evaluators into a 
State to assess the applicant's emergency management programs and teams 
against common performance standards. Successful completion of this 
evaluation process results in accreditation of the State. NEMA 
anticipates being ready to evaluate and accredit States in 2002, and 
localities in 2003. FEMA will work closely with NEMA and other 
stakeholders in the emergency management community to adapt and 
implement an evaluation process along EMAP lines, which will provide 
results-oriented measurement of each applicant's key emergency 
management capabilities. Successive evaluations will provide the Office 
of Homeland Security and FEMA with a basis to gauge progress and ensure 
accountability of results.
    In addition, FEMA intends to update and revise the Capability 
Assessment for Readiness to ensure it is consistent with revised 
national emergency management standards that include all facets of 
Consequence Management, specifically response to a WMD/Terrorist 
incident. This will become an important evaluation tool in helping to 
measure capabilities of State and local response community, and will 
help complement and support future funding priorities.
    Program performance reports will be required quarterly, or 
according to other terms that will be set in FEMA's annual guidance to 
applicants. Annual audits will be conducted. Program evaluations will 
be conducted at least annually to assess performance against planning 
goals, objectives, and targets.
    Question. By all accounts, FEMA has done a good job of 
administering the Fire Grant Program. FEMA publishes its regulations, 
receives applications, and awards grants all within one year. If 
Congress were to approve the First Responder Initiative, FEMA would 
have to begin a formal rule-making process before making any grants to 
the States. A formal rule-making procedure could take anywhere from 
several months to a year, thereby delaying the release of funds to 
first responders. Mr. Allbaugh, why should we ask first responders to 
wait additional months for a regulatory process to be completed before 
they can get any funds when they can get their funding now through 
existing programs, such as the firefighters grant program?
    Answer. We agree that our nation's first responders should not have 
to wait for these funds. FEMA will expedite the process to the greatest 
extent possible to ensure funds are distributed quickly. We are working 
closely with Governors ahead of time to identify any potential problems 
with the quick disbursal of funding. We hope these actions will help to 
avoid a lengthy process. FEMA will condense the application process by 
electronic means. It is the intent of the program, with the cooperation 
of the Governors, that the assistance will reach the local level within 
30 days after the State receives its award from FEMA.
    Question. Under the fire grant program, over 50 percent of the 
funds go to rural areas. The elimination of this program eliminates 
this guarantee for our rural areas. Mr. Allbaugh, under the ``First 
Responder Initiative,'' will rural areas get the same level of funding 
for fire equipment as they do now under the fire grant program? If a 
State has a large urban or suburban population, will rural areas in 
that State receive the funding they need to do their job?
    Answer. FEMA is concerned about the proposed combination of the two 
programs. They are fundamentally different in that the Assistance to 
Firefighters Grant Program is designed to provide basic assistance 
directly to fire departments, specifically rural departments, and the 
First Responder Program is designed to provide assistance to the local 
governments through the state for specialized WMD training and 
equipment. The Assistance to Firefighters Grant Program is currently 
underway and includes firefighting gear and equipment, personal 
protective clothing, firefighting vehicles, etc. The First Responder 
Program is not designed to provide basic firefighting needs but instead 
is designed to provide WMD equipment and training. The First Responder 
Program is far more specialized than the basic fire grant program. This 
program will help to increase the level of preparedness for our first 
responders above and beyond their basic day-to-day responsibilities. 
While it is true that there is some overlap on certain protective 
equipment and training due to recent changes in the Fire Grant statute, 
this will be the exception rather than the rule.
    States will assess their overall emergency management requirements 
throughout the State, including rural areas. As a condition of 
receiving these grants, States will submit their own plans, receive 
plans from local jurisdictions, and allocate funding based on locally 
driven needs identified through various assessments.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. I think that FEMA will play a vital role in today's 
Homeland security mission. Today FEMA has the lead role in post 
disaster mitigation. However it remains to be seen how this agency will 
operate in the expanded Homeland security mission. In 2001 the U.S. 
Commission on National Security Co-Chaired by Gary Hart and Warren 
Rudman found that ``the United States is very poorly organized to 
design and implement any comprehensive strategy to protect the 
homeland.'' The commission went on to recommend the development of a 
National Strategy and create a National Homeland Security Agency 
(NHSA). This organization would plan, coordinate, and integrate various 
governmental activities regarding homeland security. The Office of 
Homeland Security comes close to this conceptual entity, however it 
falls short in its ability to truly coordinate activities due to the 
lack of budget authority. One current fiscal year 2003 budget proposal 
is that FEMA would coordinate the First Responder Grant Initiative. 
This initiative has great merits, however I am concerned how this and 
other initiatives are coordinated at the National level. These 
initiatives should have a clear linkage to a National Strategy that 
coordinates efforts across the implementing agencies. I hope we are 
moving in that direction, however I am concerned that we have completed 
all of the necessary steps to ensure success. To finalize our actions 
it would seem logical that the Office of Homeland Security would 
exercise budget authority to implement such a grand endeavor. 
Unfortunately, that critical step of establishing such an organization, 
as recommended by the Hart-Rudman Commission, has yet to be fully 
implemented.
    (1) I have read through the First Responder Initiative, I 
completely agree that the funding of state and local first responders 
is a critical step towards securing our country. Do you feel that this 
effort has been fully coordinated at the National Level?
    (2) I want to make sure we do not buy systems that do not 
interface. After we have spent this considerable sum of money we do not 
want to find out that the systems in Washington State will not work 
with systems in Oregon, or Idaho. How will you ensure that the funds 
will go towards the right types of equipment and training necessary to 
successfully execute this initiative?
    (3) Previous programs have had difficulties in the past spending 
the money, and when spent, ensuring the right items and training 
packages were purchased. This will be the ultimate test for this 
initiative, can you tell me how you will ensure success?
    Answer. (1) FEMA believes the First Responder Initiative has been 
fully coordinated at the national level. Currently, the following 
agencies have detailed individuals to the ONP: Department of Health and 
Human Services (HHS); U.S. Army Corps of Engineers; the Environmental 
Protection Agency; and the U.S. Coast Guard. We are expecting to add 
detailees from the Department of Justice, the Department of Energy, as 
well as additional support from HHS. We expect the number of liaisons 
to grow significantly and have proposed reassignment of the military 
support liaison office function from the Readiness, Response and 
Recovery Division to ONP.
    (2) Each State has completed a self-assessment of capabilities for 
terrorism preparedness and response. These capability assessments, 
along with other assessments conducted by FEMA and the Department of 
Justice, will provide a comprehensive picture of each State's current 
strengths and shortcomings in key emergency management functions.
    When States apply for assistance funds under the First Responder 
Initiative, they will be required to submit a State Administration Plan 
that will delineate how they will expend funds for planning, training, 
exercises, and equipment to decrease the vulnerabilities and enhance 
the strengths identified in the capability assessments. It is the 
intent of the program that the assistance will reach the local level 
within thirty days after the State receives its award from FEMA. States 
will follow their own laws and procedures when awarding and 
administering subgrants of financial assistance to localities and 
Tribal governments.
    Any investment in communications equipment will be based on the 
State's analysis and their plan for communications purchase or upgrade.
    (3) It is our belief that coordinated planning is essential in 
order to provide the basis for the most effective and efficient use of 
first responder grant funds requested in fiscal year 2003. FEMA is 
requesting $175,000,000 in fiscal year 2002 supplemental funding to 
enable the recipient States to plan and gear up for effective 
implementation of the First Responder Initiative in fiscal year 2003. 
These funds will provide comprehensive planning assistance to State and 
local governments to conduct strategic statewide planning and to 
develop and improve State and local all-hazard emergency operations 
plans that include response to a terrorism event. This coordinated 
planning at the State and local level is essential to meet urgent needs 
identified by the States for improving their planning initiatives of 
State and local emergency management and first responder organizations 
to effectively use the resources requested in fiscal year 2003 and 
thereby build and enhance the nation's capability to respond to the 
imminent threat or actual occurrence of a terrorist attack.
    It is our belief that objective, comprehensive, and coordinated 
planning by the States is critical in order to provide the basis for 
the most effective and efficient use of first responder grant funds 
requested in fiscal year 2003. With the planning money requested, 
States, with assistance from FEMA, will shore up the deficiencies in 
their emergency operations plans. We will also require that the plans 
include management and performance measures to ensure timely and 
appropriate distribution of funds.
    FEMA plans to develop a prototype strategic plan for States, which 
incorporates best practices and will result in measurable performance 
standards.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. This is a very important issue for the people of the 
State of Louisiana. I understand that part of your plan for FEMA flood 
insurance reform is to phase out premium subsidies for certain types of 
policies. I believe this would affect almost 20,000 policies in 
Louisiana, and would raise the average premiums for these citizens by 
more than $1,000. I understand that there are pressing budgetary 
reasons behind this change, however, if I have to explain to my 
constituents why they now have to pay an additional $1,000 a year in 
flood insurance premiums, I'm going to need a lot more specific 
information. Can you provide me with some details about this plan--how 
it was devised, why this particular approach was chosen, what the 
phase-in period is, and just how much money it will save?
    Answer. Pre-Flood Insurance Rate Map (FIRM) subsidized 
policyholders are currently charged premiums that are on average 
somewhere between 35 percent to 40 percent of their true full-risk 
premium. FEMA believes that it has identified a subset of these 
policyholders for which the continuation of this subsidy, after 30 
years of implementation, is difficult to continue justifying. This 
subset includes structures that are not the primary residence of the 
owner. This subset includes second homes, vacation homes, rental 
properties, and non-residential properties. It does not include the 
contents-only policies of renters where the rental unit is their 
primary residence. Under this proposal, those individuals would still 
be charged Pre-FIRM subsidized premiums.
    Pre-FIRM subsidized policies insure structures that were built 
prior to the existence of a Flood Insurance Rate Map for their 
community, and were probably built without the full knowledge of the 
true flood risk. It was the original intent of the Congress that Pre-
FIRM structures would not be charged full-risk premium rates in the 
early years of the Program, as an incentive for communities to 
participate in the NFIP and adopt and enforce minimal floodplain 
management measures, including building safety standards aimed at 
providing safer new construction in flood hazard areas. It was 
anticipated that this stock of older higher-risk Pre-FIRM (i.e., 
structures built before the issuance of the FIRM) would dwindle and be 
replaced by newer construction that was built to conform to current 
building standards. For a variety of reasons, this has happened at a 
much slower rate than was expected at the NFIP's inception. As a 
result, a significant portion (about 30 percent) of our current 
business consists of older Pre-FIRM structures, that pay subsidized 
rates.
    FEMA estimates that currently for the NFIP, that expected annual 
losses from all subsidized policies exceed revenue by about $800 
million. It is further estimated that this proposal, would affect only 
this subset of subsidized policies and would reduce that shortfall by 
$200 million, or almost 25 percent. Subsidized policyholders currently 
pay an average of about $650, increasing to an average of between 
$1,600 and $1,800 per year.
    As required by the 1994 National Flood Insurance Reform Act, a 
study was commissioned of the potential economic effects of eliminating 
the subsidy. That study was performed by Price Waterhouse/Coopers and 
was released in 2000. Although it demonstrates that the immediate 
elimination of the subsidy would have severe adverse affects on 
affected policyholders, those effects would be significantly lessened, 
if the subsidy were to be phased out over a series of years.
    The current proposal calls for a five-year phase-out of subsidized 
premiums for structures that are other than principal residences. 
Premiums will increase about 20 percent a year during this phase-out.
    Question. I am concerned about the provision increasing premiums to 
pay for coastal erosion. It is my understanding that premiums will be 
increased for individuals whose property has a high risk of erosion. 
There is a great deal of coastal erosion in my state, and it is 
certainly not caused by the people who purchase flood insurance 
policies. How do you justify making the property owners pay to offset 
these costs?
    Answer. The 1994 National Flood Insurance Reform Act called for a 
study of the erosion risk. The H. John Heinz III Center for Science, 
Economics and the Environment performed this study and released their 
results in 2000. Among the conclusions was that over the next sixty 
years, the existing NFIP policyholder base would be subject to an 
annual average of an additional $80 million of insured damages from the 
increased risk of flooding due to coastal erosion. The study made two 
recommendations: (1) ``Congress should instruct the Federal Emergency 
Management Agency to develop erosion hazard maps that display the 
locations and extent of coastal areas subject to erosion. The erosion 
maps should be made widely available in both print and electronic 
formats.'' and (2) ``Congress should require the Federal Emergency 
Management Agency to include the cost of expected erosion losses when 
setting flood insurance rates along the coast. Both of these 
recommendations are addressed by the erosion rate proposal that is part 
of FEMA's fiscal year 2003 budget proposal.
    Each year coastal erosion will expose existing structures to an 
ever-increasing amount of damage from flooding. This will occur whether 
or not FEMA maps the erosion risk and includes the cost of the risk 
associated with coastal erosion, in its rates. This proposal will 
enable FEMA to identify and more equitably charge those structures that 
are most at risk.
    In those coastal areas where erosion is a problem, structures are 
placed at a significantly greater risk from flooding both in terms of 
frequency and severity. As their expected average annual losses 
increase, it raises the question as to the source of the funds needed 
to pay for these increased losses. The question is who should shoulder 
the financial burden of these increased losses?
    Should it be: the general taxpaying public, through FEMA's ability 
to tap its borrowing authority after these losses occur, or a broad 
portion of current NFIP policyholders through an across-the-board 
increase in their premiums, or the owners of those structures that are 
most at risk?
    FEMA believes that the most equitable approach to those property 
owners outside coastal erosion-prone areas, whose property is not 
exposed to this risk, is to pass on the cost of the coastal erosion 
risk to the owners of those property that are subject to this risk. 
This will also allow those owners to understand the full nature and 
costs related to that risk.
    Without this change, FEMA is concerned that the cost of the erosion 
risk will potentially be masked so that owners acquiring new property 
or rebuilding in the wake of a flood event do not have adequate 
knowledge to make good location and mitigation decisions ahead of time.
    FEMA also recognizes that there must be a balance in how risk zones 
are delineated so that the premium structure is equitable and promotes 
good decisions, but does not result in unnecessarily onerous premium 
charges. It is anticipated that any related premium increases would be 
phased in over a ten year period and that there very well should be 
restrictions made for new verses existing construction.
    FEMA fully intends to work with these local communities in 
developing effective mitigation efforts to help these individuals.
    Regarding the potential impact of this proposal for Louisiana, it 
would appear that there would be a very limited number of policyholders 
who would be affected. The very nature of the coastline in Louisiana is 
such that very little of it is shoreline that would meet NFIP criteria 
for mapping as to identify areas subject to coastal erosion. As such, 
only those policyholders whose property was located in those limited 
areas would be impacted by this proposal.
    Question. I understand that all of the details for distribution of 
the $3.5 billion in grants to first responders have not yet been worked 
out, however, I do have some concerns. One of the issues that I have 
raised in the past is that less affluent areas often cannot take 
advantage of Federal funds because they cannot meet Federal match 
requirements--even small local matches. For instance, places like 
Miami, New Orleans, or Atlanta, may not be as able as other cities 
around the country to come up with a match. If you could, I would 
appreciate it if you could elaborate just a bit on how you think this 
program will be structured; what the local match funding will be, if 
there are matches; will there be a process in place to assist areas 
that may not be as able to meet the match; and, if so, what you 
envision this process as being?
    Answer. FEMA has held several listening sessions and briefings with 
our state, local and tribal partners, to understand their concerns and 
receive their recommendations on how the First Responder Grants should 
be administered. As a result, we are aware of some of the concerns you 
have raised and will continue to work toward addressing them as this 
proposal moves forward. For instance, FEMA requested $175 million in 
the pending Emergency Supplemental specifically to ensure that States 
and localities have the resources necessary to begin planning for 
receiving the grants. This money would be distributed without a match 
requirement.
    The First Responder Grant program will be run through, and 
coordinated by the States. In fiscal year 2003, States may be allowed 
to keep up to 25 percent of the funds, with at least 75 percent 
distributed to local jurisdictions. As a condition of receiving these 
grants, States will submit their own plans, receive plans from local 
jurisdictions, and allocate funding based on locally driven needs 
identified through various assessments. By promoting and insisting upon 
a strong State and local partnership in developing these plans, FEMA 
hopes to be able to identify and address any of the types of concerns 
you have raised.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question. I understand that your fiscal year 2002 supplemental 
request includes funds to help states and localities plan for the 
monies they would receive under the President's proposed $3.5 billion 
first responder initiative in fiscal year 2003. My state of Rhode 
Island, like many states, has completed a statewide emergency 
management strategy in coordination with the Department of Justice's 
Office of Domestic Preparedness (ODP).
    Since the President proposes to move ODP's functions from the 
Justice Department to FEMA, how would the extensive planning work that 
has been done under the auspices of ODP be incorporated into the FEMA 
planning process?
    Would there be new regulations?
    Are there currently instances where some state emergency management 
agencies deal with the Justice Department while others work with FEMA? 
In other words, would the President's ``one-stop shop'' proposal 
require states to reorganize their emergency management structure?
    Please describe the planning activities that will be required of 
local governments to be prepared for the President's first responder 
initiative.
    Answer. The planning that has been conducted by the States 
utilizing the Office for Domestic Preparedness (ODP) funds were used to 
conduct a needs assessment and develop a three-year Statewide domestic 
preparedness strategy. While the plans provided to DOJ by the States 
provide a starting point to develop an objective, comprehensive, 
coordinated emergency operations plan that includes the possibility of 
a terrorist or WMD event, we do not believe that they are adequate to 
use as the basis for the first responder grants.
    It is our belief that objective, comprehensive, and coordinated 
planning by the States is critical in order to provide the basis for 
the most effective and efficient use of first responder grant funds 
requested in fiscal year 2003. Work done under the ODP program by 
States will be enhanced. With the planning money requested, States, 
with assistance from FEMA, will shore up the deficiencies in their 
emergency operations plans. We will also require that the plans include 
management and performance measures to ensure timely and appropriate 
distribution of funds. FEMA will issue guidance to help States submit 
their grant application and will do all it can to ensure an expedited 
process.
    I can think of no instances where a State does not have an 
established relationship with FEMA. FEMA, through its Regional offices, 
has established an excellent working relationship with every State and 
territory emergency management agency. However, some States do not 
designate emergency management agencies as the State Administrating 
Agency under the Justice Department grant program.
    FEMA does not envision that States would need to reorganize their 
emergency management structure. We believe that the President's ``one-
stop shop'' plan answers the call of numerous Commissions, Reports, 
States and localities for better coordination and less duplication in 
the Federal terrorism grant process. FEMA expects to unify and simplify 
a fragmented system through such a consolidation.
    Under the First Responder Initiative, FEMA expects States to 
upgrade their emergency plans to make them comprehensive, address all-
hazards, reflect mutual aid agreements, facilitate communication 
interoperability protocols, and establish a common command and control 
system to facilitate effective cross-jurisdictional mutual aid support.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. We recently had a Homeland Security hearing where this 
committee talked to members of fire and police departments and their 
representative organizations. We heard straight from the horse's mouth 
about their need for funding for equipment and training in order to 
respond to any type of worst-case scenario. And they all said that they 
need the funding quickly. There is often a tug-of-war between the 
states and localities, which would each like to have the funding 
channeled through their governments. Could you shed some light as to 
how much of the funding that we will give you will pass through states 
to localities and how much will be given in direct grants to the 
localities? What criteria will you use to determine which funding goes 
through the state and which goes through the locality? Will there be a 
formula to determine how much each state and locality will receive?
    Answer. The First Responder Initiative for fiscal year 2003 will be 
a formula grant given directly to the Governors. Although a definitive 
formula has not yet been developed, conceptually, each State will be 
guaranteed a minimum block of funding with additional monies being 
determined by such criteria as population. As a condition of receiving 
these grants, States will submit their own plans, receive plans from 
local jurisdictions and allocate funding based on locally driven needs 
identified through assessments done by FEMA, the Department of Justice, 
and the Department of Health and Human Services. States may be allowed 
to keep up to 25 percent of the funds, with at least 75 percent 
distributed to local jurisdictions. It is the intent of the program 
that the assistance will reach the local level within 30 days after the 
State receives its award. The funding will have a matching requirement, 
and in-kind matches will be allowable.
    Question. Emergency Medical Technicians and Physicians (FEMA)--Over 
the last recess, I was back in my state holding town meetings as did 
most of my colleagues. During these meetings, I heard that while 
funding is reaching the police and fire departments, very little 
funding has reached the emergency medical technicians (EMT), 
paramedics, and physicians. Have you directly engaged the EMT and 
paramedic and other members of the medical community in discussions as 
to their needs for training and equipment?
    Answer. FEMA hosted a listening session on April 10-11, 2002, and 
included representatives from law enforcement, fire service, the 
emergency medical services communities, as well as State and local 
emergency management leaders. As a result of this listening session and 
meetings with other stakeholders, their recommendations will be used to 
develop a process to ensure expeditious delivery of funds and to ensure 
that funding will not duplicate other federal programs.
    Most of the grant funding provided to the Department of Health and 
Human Services for bioterrorism preparedness and response is more 
specialized than the proposed FEMA First Responder Initiative grant 
program. For example, proposed HHS grant funding will support: Medical 
surveillance systems to link the public health and emergency response 
networks; improvements in state public health lab capacity; incentives 
for hospitals to cooperate with each other and enhance their levels of 
preparedness for mass casualty events; and curriculum developments to 
better prepare medical professionals for bioterrorism.
    FEMA's First Responder Initiative will be broken down into four 
essential categories:
  --Planning: to support state and local governments in developing 
        comprehensive plans to prepare for and respond to a terrorist 
        attack;
  --Training: to train firefighters, police officers, and emergency 
        medical technicians to respond and operate in a chemical or 
        biological environment;
  --Equipment: to allow state and local first responder agencies to 
        purchase a wide range of equipment needed to respond 
        effectively to a terrorist attack; and
  --Exercises: to support a coordinated, regular exercise program to 
        improve response capabilities, practice mutual aid, and assess 
        operational improvements and deficiencies.

                            COMMITTEE RECESS

    Senator DeWine. Again, I thank you both. The committee 
stands in recess, subject to the call of the chair.
    [Whereupon, at 4:30 p.m., Thursday, May 2, the committee 
was recessed, to reconvene at 2:30 p.m., Tuesday, May 7.]


















HOMELAND SECURITY AND THE FISCAL YEAR 2002 SUPPLEMENTAL APPROPRIATIONS 
                                  BILL

                              ----------                              


                          TUESDAY, MAY 7, 2002

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 2:32 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Inouye, Hollings, Leahy, Murray, 
Dorgan, Feinstein, Johnson, Stevens, Cochran, Specter, 
Domenici, Bond, Burns, Shelby, Gregg, Bennett, Hutchison, and 
DeWine.
STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF 
            DEFENSE, DEPARTMENT OF DEFENSE
ACCOMPANIED BY:
        DR. DOV ZAKHEIM, COMPTROLLER
        DR. STEPHEN CAMBONE, PRINCIPAL DEPUTY UNDER SECRETARY OF 
            DEFENSE FOR POLICY

              OPENING STATEMENT OF CHAIRMAN ROBERT C. BYRD

    Chairman Byrd. The committee will come to order. The 
Appropriations Committee has a heavy responsibility to carry as 
we craft the supplemental appropriations bill and later the 
fiscal year 2003 defense appropriations bill. With the men and 
women of our Armed Forces engaged in extended military actions 
overseas, there will be added pressure to approve a Defense 
Department budget quickly, and there is already pressure from 
the executive branch, but this committee needs answers before 
acting. We need a better understanding of ultimate goals. We 
need more specifics about the plans and the objectives, and we 
need a better explanation as to the duration and scope of 
various missions.
    We also need more information on how the funding that 
Congress has already approved has been spent. There are many 
questions surrounding the scope of our military efforts in 
Afghanistan, in the Philippines, in Colombia, and in Iraq. This 
committee should not endorse a blank check for military 
operations that are yet to be determined. We will hope to make 
sound judgments based on the information that we are given.
    Our Nation's effort to combat terrorism is a multifaceted 
challenge. We must be realistic about what is achievable. I 
have great confidence in our military. I have great confidence 
in Secretary Rumsfeld. I have great confidence in Secretary of 
State Powell, but I also understand that this Nation, in the 
name of a global war on terrorism, can very easily be led down 
a path paved with good intentions, only to see that path lead 
into a tangled web where missions are unclear, lives are lost 
needlessly, and the American people are left in the dark.
    Former President Theodore Roosevelt understood the need for 
clarity and understanding. He also understood that the needs of 
the military must be balanced reasonably with other needs of 
the Nation. We Americans, he said, have many grave problems to 
solve, many threatening evils to fight, and many deeds to do, 
if, as we hope and believe, we have the wisdom, the strength, 
and the courage and the virtue to do them, but we must face the 
facts as they are. We must neither surrender ourselves to 
foolish optimism nor succumb to a timid and ignoble pessimism.
    This committee will not surrender to foolish optimism. We 
will try to keep our feet planted firmly on the ground. We will 
work to craft a responsible spending plan for the Defense 
Department. We must not shortchange the men and the women of 
our Armed Services. At the same time, we must not shortchange 
the many other priorities that are before this committee. We 
must remain skeptical of any military plan that lacks specific 
goals, objectives, and benchmarks for success.
    This committee looks forward to hearing from Secretary of 
Defense Donald Rumsfeld, who has had a steady hand on the helm 
of our global efforts to fight terrorism since the awful events 
of September 11. We also look forward this afternoon to the 
testimony of former Senator Sam Nunn and to his seasoned and 
always well-reasoned views on our national and international 
goals and objectives. We welcome the insights and viewpoints of 
both men.
    There are many important issues before this committee 
today, issues that likely will shape the debate of Congress 
over the course of the next months, if not longer. It is my 
hope that we will examine these issues in a true spirit of 
bipartisanship and cooperation, remembering that our efforts 
are better served by thorough examination before the court of 
the American people who we serve.
    I now turn to Senator Stevens for any remarks he may wish 
to make. Senator Stevens is not only the ranking member of the 
full committee, he is also, of course, the ranking member of 
the Subcommittee on Appropriations for Defense. Following 
Senator Stevens and Senator Inouye, we will hear from Secretary 
Rumsfeld, who will proceed to read his statement in its 
entirety, if he wishes, or summarize it, if he so chooses. 
Should he choose to summarize his prepared remarks, without 
objection, the entire statement will be in the record as though 
read.
    When the chair turns, then, to the subcommittee chairman, 
the subcommittee chairman will have 10 minutes, as again will 
Senator Stevens, if he so chooses to take time as the ranking 
member of that subcommittee, and all other Senators will be 
limited to 5 minutes each.
    Senator Stevens.
    Senator Stevens. Could I yield to the chairman of the 
subcommittee, Senator Inouye.
    Chairman Byrd. Yes. I was just yielding to the ranking 
member of the full committee. Senator Inouye.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Thank you very much. Mr. Secretary, it is 
good to see you again. In this supplemental that you are 
submitting, you are requesting $14 billion to support the 
global war on terrorism. According to the papers, it is in 
addition to the $17 billion Congress has already provided your 
Department. The amount you are seeking today includes $7 
billion to support combat operations, $4 billion to pay 
reservists called up to support this war, nearly $1\1/2\ 
billion to support command, control, communications, and 
intelligence, $500 million to replace expended ordnance, and 
another billion for other miscellaneous activities.
    The committee fully understands your activities are a key 
element of homeland defense. Every member of Congress supports 
your efforts in your fight against terrorism. We all marvel at 
the terrific work being done by our men and women in uniform, 
and we all agree there is nothing we will not do to support 
them, therefore we look forward to hearing your views today on 
the need and justification for this additional funding to 
support your efforts. I thank you very much.
    Thank you, Mr. Chairman.
    Chairman Byrd. Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you, Mr. Chairman. I thank you very 
much for inviting the Secretary to join us today. He is one of 
the significant voices we should listen to as we review not 
only homeland security matters but also the supplemental, and I 
commend you on the job that Dr. Zakheim is doing, Mr. 
Secretary.
    We were pleased to join you on the trip to San Guantanamo. 
Since then, Senator Inouye and I have been out in the field in 
Afghanistan, Uzbekistan, Pakistan, Indonesia, the Philippines, 
and we are certain that our forces that are in the field have 
what they need to prosecute, pursue their duties now. We are 
reviewing the concept of how much should be involved in 
homeland defense, and I do think we have got to mention the 
selfless commitment of the men and women of the National Guard 
and Reserves, and the difference they have made in responding 
to the crisis of September 11. They stepped in to fill the 
breach, and now we have to determine how much role they will 
play in the future, how to get the right law enforcement 
agencies to execute their mission without reliance on the 
military for day-to-day activities in the future. I note with 
interest that the National Guard has announced they are 
withdrawing from the airports in Alaska this week.
    We thank you for appearing before us. Senator Inouye has 
spoken for our subcommittee in terms of the supplemental. I do 
hope that we will learn your role in the homeland security 
matters. There is an overlap there. I think that is one of our 
jobs, is to determine where the military responsibility ends 
and homeland security measures and command begin, and the 
recent reorganization of the Continental Command I think has a 
lot to do with this overall problem.
    So again, Mr. Chairman, thank you very much for the 
hearings. I look forward to the comments of my colleagues and 
to the questioning we will have following that.
    Chairman Byrd. Thank you, Senator Stevens.

                     ADDITIONAL SUBMITTED STATEMENT

    Senator Tim Johnson asked that he be allowed to submit a 
statement for the record, and it will be placed in the record 
at this point.
    [The statement follows:]
               Prepared Statement of Senator Tim Johnson
    Mr. Chairman, I would like to thank you and Senator Stevens for 
calling today's hearing on Homeland Security and the fiscal year 2002 
Supplemental Appropriations bill. Your continued dedication and 
leadership on the important issue of defending the American people from 
the threat of future terrorist attacks should be commended. In my 
opinion, this series of hearings is critical to ensuring Congress 
wisely invests our homeland security budgetary resources.
    Today, we are joined by two distinguished witnesses. Secretary of 
Defense Donald Rumsfeld has been at the center of our fight against 
global terrorism. I appreciate his willingness to come before the 
Appropriations Committee to share with us his thoughts on the war on 
terrorism and to talk about the Department of Defense's fiscal year 
2002 Supplemental Appropriations request.
    We are also joined by former Senator Sam Nunn. During his time in 
the Senate, Senator Nunn was widely recognized as an expert on defense 
policy and has remained actively engaged in foreign policy and national 
security issues. I look forward to hearing his testimony and having the 
benefit of his expertise.
    I believe the reaction of the American people to the September 11 
tragedy was nothing short of remarkable. Despite the unthinkable 
devastation and uncertainty that followed the attack, there was no 
panic. Instead, the American people were resolute in their 
determination to honor those who had died, to rebuild from the 
destruction, and to track down those responsible for terrorism, 
wherever they may be hiding.
    I believe one of the reasons the American people reacted with such 
determination was the confidence we all have in the men and women 
serving in the Armed Forces. Each time we have called on them to defend 
our nation and our values, they have responded. While Operation 
Enduring Freedom is far from over, the actions of our servicemembers 
have made all Americans proud.
    I am especially proud of the contributions the military men and 
women from South Dakota have made to the war on terrorism. They are 
serving in every branch of the military throughout the world. I am 
thankful for their sacrifices and for the sacrifices of their families. 
In particular, I would like to note the members of the South Dakota Air 
National Guard who have been flying CAP missions over New York City and 
Washington, D.C. since the September 11 attacks and the men and women 
from Ellsworth Air Force Base whose work has played a major role in the 
success of Operation Enduring Freedom.
    Secretary Rumsfeld, as you know, Ellsworth Air Force Base is home 
to the B-1 bomber's 28th Bomb Wing. The B-1 has played a central role 
in Operation Enduring Freedom. In fact, this has been the most 
significant combat role in the B-1's history, and its performance has 
been exemplary. To highlight this, the B-1 has delivered 40 percent of 
all munitions dropped over Afghanistan since October. This compares 
with 29 percent for the B-52 and just 1 percent for the B-2. 
Additionally, because dust storms and other weather impedes laser 
guided weapons, the weapon of choice has generally been the satellite 
guided Joint Direct Attack Munitions (JDAM), and the B-1 has delivered 
more of these weapons than all other aircraft combined. The combination 
of the B-1's large weapon load, new tactics, and great accuracy were 
critical to our ability to quickly free Afghanistan from the Taliban 
and al Qaeda forces.
    The Air Force has recently informed me that certain wing components 
are wearing out faster than anticipated and that additional money above 
the President's fiscal year 2003 budget request will be needed to 
ensure the future safety of the B-1 fleet. The funding will go towards 
the repair of a pivot bearing that allows the B-1 to pull its wings 
forward or sweep them back to fly at varying speeds and land on runways 
of different lengths. This is normal wear and tear, but I believe we 
should address the problem now, so as not to risk the safety of our Air 
Force personnel with a mechanical issue that can be remedied in the 
short term. I intend to work with Senators Inouye and Stevens, the 
Chairman and Ranking Member of the Defense Appropriations Subcommittee, 
to address this problem. I look forward to hearing Secretary Rumsfeld's 
thoughts on this issue and his general impressions of the role the B-1 
has played during Operation Enduring Freedom.
    Mr. Chairman, the fiscal year 2002 Supplemental request includes 
approximately $14 billion for the Department of Defense. This money 
will fund the ongoing operations associated with the war on terrorism, 
replace depleted reserves of equipment and munitions, improve command, 
control, communications, and intelligence capabilities, and pay reserve 
and guard personnel who have been called to active duty.
    To maintain the best-equipped and best-trained military in the 
world requires a significant financial investment. If approved, the 
addition of the $14 billion in this supplemental request will raise 
total defense spending in fiscal year 2002 to over $360 billion. I 
intend to work with the members of the Appropriations Committee to 
carefully consider this request so that we ensure we are providing the 
men and women of our Armed Forces the equipment and resources needed to 
defend our nation.
    Once again, I am pleased both Secretary Rumsfeld and Senator Nunn 
are appearing before the full Committee this afternoon to share with us 
their thoughts about homeland security and the war on terrorism. I 
thank both of them for their service to our nation, and look forward to 
hearing their testimony.

    Chairman Byrd. Mr. Secretary, would you please proceed.

                            OPENING COMMENTS

    Secretary Rumsfeld. Mr. Chairman, Senator Stevens, I have 
asked Dr. Dov Zakheim, who is the Comptroller of the Department 
of Defense, to join me. He has been intimately involved in the 
details of the supplemental and the budget, and I have also 
asked Dr. Stephen Cambone, who is Principal Deputy Under 
Secretary of the Department of Defense for Policy----
    Chairman Byrd. Mr. Secretary, could you turn your 
microphone on?
    Secretary Rumsfeld. How is that, better?
    Chairman Byrd. Yes.
    Secretary Rumsfeld. I have asked Dr. Steve Cambone to join 
me, also the Principal Under Secretary of the Department of 
Defense for Policy, who has been involved in both the 
organization of the Department with respect to homeland 
security, and also the unified command plan, which is the 
document which will stand up the Northern Command later this 
year, so I appreciate this opportunity to meet with you on the 
subject of the Department of Defense, and the important subject 
of homeland defense.

                           HISTORICAL CONTEXT

    While September 11 was a call for the military to do more 
with regard to homeland defense, defending the United States, 
of course, has been the number 1 priority of the U.S. military 
since the founding of the Republic. In fact, providing for the 
common defense was so basic an obligation of Government that 
the Founding Fathers saw fit to place in the Constitution, the 
very words providing for the common defense.
    For most of our history, our security has benefitted from 
excellent geography, two vast oceans, two friendly countries to 
the north and the south, and with the exception of the Soviet 
Union during the Cold War, no nation has had the power to 
destroy our cities or our way of life, but on September 11, our 
Nation awoke to new dangers. We suffered the first attack on 
the United States territory since World War II, and the first 
attack on our capital by a foreign aggressor since the war of 
1812. Today, Americans well understand that the security of the 
United States is our top defense priority.
    In the early days our Nation, the Army and the Navy 
provided for the Nation's defense with internal forts, fixed 
harbor defenses, and occasional naval cruisers abroad. Since 
the end of the 19th century, however, U.S. military forces have 
focused their efforts on engaging enemies abroad. For more than 
50 years, defending the Nation has entailed the permanent 
basing and deployment of U.S. forces around the world to deter 
and defend against attacks on our country, on our forces, on 
our friends, and on our allies.
    During the Cold War, it was clear that physical distance 
from an adversary, the Soviet Union, no longer assured that we 
would be safe at home. Accordingly, we developed the forces 
necessary to deter a Soviet attack. NORAD was created to serve 
as an early warning system for aerospace attack, including 
ballistic missiles. Because of the determination of the West, 
the Cold War ended without an attack on our people or our 
territory. Today, the brave men and women waging the war 
against terrorism in Afghanistan and in other locations around 
the world are America's first and most important line of 
defense against homeland attack. By going directly to the 
source and seeking to root out terrorists and their networks 
where they are, they prevent and help to deter terrorist 
attacks before they occur.

                    APPROACHES TO DEFENDING AMERICA

    September 11 taught us, to our regret, that our people and 
our territory is still vulnerable to attack, but it is a 
vulnerability that is different from that of the Cold War. To 
be sure, we remain vulnerable to missile attack, which is why 
we are working to develop and deploy defenses against the most 
likely forms of ballistic and cruise missile attack, but the 
significant difference today is that we are vulnerable not only 
to external attack, but to hostile forces among us, who enter 
our country easily, who remain anonymous, and who use the 
freedom America affords to plan and execute their violent 
deeds. It is this vulnerability that has prompted the President 
to take the following approach to defend the Nation.

                    PROSECUTION OF WAR ON TERRORISM

    First, prosecution of the war on terrorism abroad. The 
President understands that a terrorist can attack at any time 
at any place, using any conceivable technique. He also 
understands that it is physically impossible to defend against 
every conceivable threat in every place at every time. To 
successfully defend against terrorism and other 21st century 
threats requires that we take the war to the enemy, and our 
task is to put pressure on terrorists wherever they are, in 
Afghanistan, across the globe, to ensure that they have no safe 
haven, no sanctuary. That is why the President has marshalled 
all of the Nation's capabilities, political, economic, 
financial, law enforcement, military, intelligence, to attack 
and destroy and put pressure on terrorist organizations with 
global reach and those who harbor them.
    Those organizations threaten the United States, our 
interests, and our allies, and while these organizations are 
operative in the United States, their headquarters and the 
majority of their people and resources are abroad.

                      OFFICE OF HOMELAND SECURITY

    Second, the President established the Office of Homeland 
Security to coordinate the efforts of Federal, State, and local 
agencies, to provide for security here at home. Both efforts 
are crucial, and the role of the Department of Defense differs 
in important ways. With respect to the war abroad, U.S. 
military forces, at the direction of the President, are charged 
with engaging terrorist forces and the Governments or other 
entities that harbor them. In this effort, the Department works 
closely with other Government agencies, including the 
Department of State, Treasury, Justice, and the international 
community. In military operations, the Department of Defense 
takes the lead with other Departments and agencies working in 
support of our efforts.

                  SUPPORTING SECURITY EFFORTS AT HOME

    With regard to supporting the effort to improve security 
here at home, there are three circumstances under which the 
Department of Defense would be involved in activity within the 
United States. First, under extraordinary circumstances that 
require the Department to execute its traditional military 
mission. In these circumstances, DOD would take the lead. 
Combat air patrols and maritime defense operations are examples 
of such missions. As with military missions abroad, DOD has the 
lead role in the conduct of traditional military missions in 
defense of the people and the territory of our country. In 
these instances, DOD is supported by other Federal agencies. 
Plans for such contingencies, to the extent possible, would be 
coordinated as appropriate with the National Security Council 
and with the Homeland Security Council.
    As an example, in the case of combat air patrols, the FAA, 
a civilian agency, provides data to assist the efforts to Air 
Force fighter pilots and the Guard and Reserve in identifying 
and, if necessary, intercepting suspicious or hostile aircraft. 
Also included in the category of extraordinary circumstances 
are cases in which the President, exercising his constitutional 
authority as Commander in Chief and Chief Executive authorizes 
military action. This inherent constitutional authority may be 
used only in cases such as terrorist attack where normal 
measures are insufficient to carry out Federal functions.
    Second, in emergency circumstances of a catastrophic 
nature. For example, responding to an attack, or assisting in 
response to forest fires or floods, hurricanes, tornadoes, and 
so forth. In these instances, the Department of Defense may be 
asked to act quickly to provide or to supply capabilities that 
other agencies simply do not have.
    Third, missions or assignments that are limited in scope, 
where other agencies have the lead from the outset. An example 
of this would be security at a special event like the Olympics, 
where we literally had more men and women in uniform in the 
State of Utah for the Salt Lake City Olympics than we had in 
Afghanistan at the same time.
    Another example is assisting other Federal agencies in 
developing capabilities to detect chemical and biological 
threat. The first of those three categories, extraordinary 
circumstances when DOD conducts military missions to defend the 
people or territory of the United States at the direction of 
the President, falls under the heading of homeland defense. In 
these cases, the Department is prepared to take the lead.

                       HOMELAND SECURITY SUPPORT

    The second and third categories, which are really emergency 
or temporary circumstances in which other Federal agencies take 
the lead and DOD lends support, are appropriately described as 
homeland security. In these cases, Governor Ridge, as the 
President's Advisor for Homeland Security, coordinates the 
planning among civilian Federal agencies, as well as State and 
local agencies. DOD is represented in these deliberations of 
the Homeland Security Council. DOD is prepared to support the 
plans that are developed in that process.
    In the event of multiple requests for the Department of 
Defense assets, whether domestic or international, the 
President would be the one to make the allocation decisions 
using the coordinating mechanisms of the National Security 
Council and the Homeland Security Council.
    To take another example, in the case of an incident that 
might exceed the capacity of a State or local authority to 
address such an attack--for example, employing chemical 
weapons--the Federal response plan assigns to FEMA 
responsibility for coordinating and directing the activities of 
Federal agencies. Under this plan, resources of the Department 
of Defense could be made available to support these activities. 
This could include the deployment of soldiers to control crowds 
or assist in evacuation, the provision of transportation or 
medical facilities and supplies or communications equipment.
    In sum, the Department of Defense really has two roles to 
play in providing for the security of the American people where 
they live and work. The first is to provide forces to conduct 
those traditional military missions under extraordinary 
circumstances such as the defense of the Nation's air space or 
its maritime approaches. The second is to support the broader 
efforts of the Federal domestic Departments and agencies and, 
indeed, the State and local government, as coordinated by and 
in cooperation with the Office of Homeland Security under 
emergency conditions for special purposes.

                       ROLE OF THE NATIONAL GUARD

    Before turning to the steps the Department has taken since 
September 11, I would like to discuss the role of the National 
Guard briefly. The National Guard can support homeland security 
in several ways, first, in State service, under the direction 
of the Governors. For example, on September 11 the National 
Guard in New York and New Jersey and Connecticut responded to 
the attacks on the World Trade Center Towers.
    Second, in State service, but performing duties of Federal 
interest, the so-called title 32 status. This is primarily 
designed to compensate Guardsmen for Federal training, but most 
recently it was used also to support patrols in over 400 
airports across the country.
    Third, in Federal service, the so-called title 10 status. 
For example, when the National Guard is mobilized to serve 
under the direction of the President or the Secretary of 
Defense.
    These arrangements have worked well in the past. The 
challenge today is to translate them into our new security 
environment. There are many proposals for doing so, and we will 
work with the Congress, the National Guard Bureau, the 
Governors, and the Office of Homeland Security to make certain 
that we have an approach that meets the Nation's needs.

                     DOD ACTIONS SINCE SEPTEMBER 11

    Having said that, let me be more specific about what the 
Department of Defense has been doing since September 11 with 
regard to homeland security and defense. Recognizing that these 
complex missions demand a comprehensive and coordinated 
approach, the Department has taken a number of steps. The first 
step has to do with the budget. For fiscal year 2002, $14 
billion in supplemental DOD funds has been requested, and an 
increase in $48 billion in defense spending has been requested 
for fiscal year 2003. Both are essential for continuing the 
prosecution of the war on terrorism.
    That $48 billion represents the largest increase in 
generation. However, the war on terrorism is the greatest 
challenge this Nation has faced, indeed, the greatest challenge 
the world has faced in a generation.
    Even as we fight today's war on terrorism we must prepare 
for the wars of the future by modernizing our forces for the 
wars they may have to fight still later in this decade, and by 
transforming our forces for the wars they may have to fight in 
2010 and beyond.
    Nothing is more important than our Nation's security. On 
that, we all agree. But, if true, nothing can be more important 
than passing the defense budget, and so if I may digress, I 
would like to take this opportunity to urge that you take up 
the defense budget first, not last, to give our fighting forces 
the tools they need to do the job, to help us better plan for 
the war in which we are and must remain committed, and to help 
us transform the force so we are prepared for the wars of the 
future.

                            NEW COMMAND PLAN

    Second, the unified command plan makes a number of 
important changes to the military command structure around the 
world. Indeed, it is described by the chairman of the Joint 
Chiefs of Staff, Dick Myers, as the most important set of 
changes in his military career. The President has approved a 
major revision of the command plan. Of interest today is that 
it will establish a combatant command for homeland defense, 
U.S. Northern Command, or what will undoubtedly be called 
NORTHCOM. NORTHCOM will be devoted to defending the people and 
territory of the United States against external threats, and to 
coordinating the provision of U.S. military forces to support 
civil authorities.
    In addition, NORTHCOM will be responsible for certain 
aspects of security, cooperation, and coordination with Canada 
and with Mexico. It will also help DOD coordinate its military 
support to Federal, State, and local Governments in the event 
of natural or other disasters. Peterson Air Force Base in 
Colorado is the site that the Department has selected as the 
preferred location for the new NORTHCOM headquarters.

                     DOD OFFICE OF HOMELAND DEFENSE

    Third, DOD has established its own interim Office of 
Homeland Defense, and intends to establish by summer a 
permanent office within the Office of the Secretary of Defense 
to ensure internal coordination of DOD policy direction, to 
provide guidance for Northern Command for its military 
activities in support of homeland defense, and support to civil 
authority, and third, to provide for coordination with the 
Office of Homeland Security and other Government agencies.
    Fourth, in addition to establishing an internal Office of 
Homeland Defense and the Northern Command, the Department is 
conducting a study on the DOD role in homeland defense as 
directed by the 2002 National Defense Authorization Act. The 
law calls for a comprehensive plan on the organization of the 
Office of Secretary of Defense that addresses the most 
beneficial organizational structures for combatting terrorism, 
defending the U.S. homeland, and securing intelligence. We 
expect the study to be completed this summer.
    Where we go in the future will be informed not only by the 
result of that study, but also by a rigorous examination of the 
evolving threat environment, our success in the global war on 
terrorism, and the evolving national homeland security 
strategy. The Department has and will continue to coordinate 
its plans for supporting lead Federal agencies with the Office 
of Homeland Security, just as we do on the other side of the 
house with the National Security Council.

                                CLOSING

    In announcing the creation of a Cabinet-rank position to 
coordinate the Nation's homeland security effort, President 
Bush said that a comprehensive national strategy to safeguard 
America against attack and respond to any that might occur is 
essential. The Department of Defense supports that effort 
through its assistance to civil authorities and to the Homeland 
Security Council.

                           PREPARED STATEMENT

    But the President also said that the only way to defeat 
terrorism as a threat to our way of life is to stop it, to 
eliminate it, and to destroy it where it grows, and after just 
returning from visiting with our troops in Afghanistan and the 
surrounding countries, I can assure you that the men and women 
in uniform are prepared to accomplish that mission.
    Thank you very much, Mr. Chairman.
    [The statement follows:]
                Prepared Statement of Donald H. Rumsfeld
    Mr. Chairman and Members of the Committee: Thank you. I appreciate 
the opportunity to meet with you on the subject of the Department of 
Defense and Homeland Defense.
    While September 11th was a call for the military to do more with 
regard to homeland defense, defending the United States has been the 
number one priority of the U.S. military since the founding of the 
Republic.
    In fact, ``providing for the common defense'' was so basic an 
obligation of government that the Founding Fathers saw fit to place it 
in the Preamble to the Constitution.
    For most of our history, our security has benefited from excellent 
geography--two vast oceans and friendly neighbors to the north and 
south. With the exception of the Soviet Union, no nation has had the 
power to destroy our cities or our way of life. But on September 11th 
our nation awoke to new dangers. We suffered the first attack on U.S. 
territory since World War II, and the first attack on our capital by a 
foreign aggressor since the war of 1812. Today, Americans well 
understand that the security of the United States is our top defense 
priority.
    In the early days of our nation, the Army and the Navy provided for 
the Nation's defense with internal forts, fixed harbor defenses, and 
occasional naval cruises abroad. Since the end of the 19th century, 
however, U.S. military forces have focused their efforts on engaging 
enemies abroad.
    For more than 50 years, defending the nation has entailed the 
permanent basing and deployment of U.S. forces around the world to 
deter and defend against attacks on our country, our forces, our 
friends, and our allies.
    During the Cold War it was clear that physical distance from our 
adversary, the Soviet Union, no longer assured that we would be safe at 
home. Accordingly, we developed the forces necessary to deter a Soviet 
attack. NORAD was created to serve as an early warning system for 
aerospace attack, including ballistic missiles. Because of the 
determination of the West, the Cold War ended without an attack on our 
people or our territory.
    Today, the brave men and women waging the war against terrorism in 
Afghanistan and other places around the world are America's first and 
most important line of defense against homeland attack. By going 
directly to the source and rooting out terrorists and their networks 
where they are, they prevent and help to deter terrorist attacks before 
they occur.
    September 11th taught us, to our regret, that our people and our 
territory are still vulnerable to attack.
    But it is a vulnerability different from that of the Cold War. To 
be sure, we remain vulnerable to missile attack. That is why we are 
working to develop and deploy defenses against the most likely forms of 
ballistic and cruise missile attacks.
    But the significant difference today is that we are vulnerable not 
only to external attack, but to hostile forces among us, who enter our 
country easily, who remain anonymous, and who use the freedom America 
affords to plan and execute their violent deeds.
    It is this vulnerability that has prompted the President to take 
the following approach to defending the nation.
    First, prosecution of the war on terrorism abroad.
    The President understands that terrorists can attack at any time, 
in any location, using every conceivable technique. He also understands 
that it is physically not possible to defend against every conceivable 
threat, in every place, at every time. To successfully defend against 
terrorism, and other 21st century threats, requires that we take the 
war to the enemy. Our task is to put pressure on the terrorists 
wherever they are, in Afghanistan and across the globe, to ensure that 
they have no safe haven, no sanctuary, anywhere in the world.
    That is why the President has marshaled all of the Nation's 
capabilities--political, economic, financial, law enforcement, military 
and intelligence--to attack, destroy and put pressure on terrorist 
organizations with global reach, and those who harbor them. Those 
organizations threaten the United States, our interests, or our allies. 
And while these organizations have operatives inside the United States, 
their headquarters, and the majority of their people and resources, are 
abroad.
    Second, the President established the Office of Homeland Security 
to coordinate the efforts of federal, State and local agencies to 
provide for security here at home.
    Both efforts are crucial, and the role of the Defense Department in 
each differs in important ways.
    With respect to the war abroad, U.S. military forces, at the 
direction of the President, are charged with engaging terrorist forces 
and the governments or other entities that harbor them.
    In this effort, the Department works closely with other government 
agencies, including the Departments of State, Treasury and Justice, and 
the intelligence community. In military operations, the Department of 
Defense takes the lead, with other Departments and agencies working in 
support of our efforts.
    With regard to supporting the effort to improve security at home, 
there are three circumstances under which the Department of Defense 
would be involved in activity within the United States.
    First, under extraordinary circumstances that require the DOD to 
execute its traditional military missions. In these circumstances, DOD 
would take the lead. An example of these missions are combat air 
patrols and maritime defense operations.
    As with military missions abroad, DOD has the lead role in the 
conduct of traditional military missions in defense of the people and 
territory of the country.
    In these instances, DOD is supported by other Federal agencies. For 
example, in the case of combat air patrols, the FAA provides data to 
assist the efforts of Air Force fighter pilots in identifying and, if 
necessary, intercepting suspicious or hostile aircraft.
    Also included in the category of extraordinary circumstances are 
cases in which the President, exercising his Constitutional authority 
as Commander-in-Chief and Chief Executive, authorizes military action. 
This inherent Constitutional authority may be used only in cases, such 
as a terrorist attack, where normal measures are insufficient to carry 
out Federal functions.
    Second, in emergency circumstances of a catastrophic nature, for 
example responding to an attack, or assisting in response to forest 
fires, floods, hurricanes, tornadoes and so forth. In these instances, 
the Department may be asked to act quickly to provide or to supply 
capabilities other agencies do not have.
    Third, missions or assignments that are limited in scope where 
other agencies have the lead from the outset. An example of this would 
be security at a special event like the Olympics. Another example is 
assisting other Federal agencies in developing capabilities to detect 
chemical/biological threats.
    The first category--extraordinary circumstances--when DOD conducts 
military missions to defend the people or territory of the United 
States at the direction of the President, falls under the heading of 
homeland defense. In these cases, the Department is prepared to take 
the lead.
    The second and third categories--emergency or temporary 
circumstances--in which other federal agencies take the lead and DOD 
lends support, are appropriately described as homeland security. In 
these cases, Governor Ridge, as the President's advisor for homeland 
security, coordinates the planning among civilian federal agencies, as 
well as State and local agencies. DOD is represented in the 
deliberations of the Homeland Security Council. DOD is prepared to 
support the plans developed in that process. In the event of multiple 
requests for DOD assets, domestic and international, the President 
would be the one to make the allocation decisions, using the 
coordinating mechanisms of the National Security Council and the 
Homeland Security Council.
    To take another example, in the case of an incident that might 
exceed the capacity of State or local authorities to address such as an 
attack employing chemical weapons, the Federal Response Plan assigns to 
FEMA responsibility for coordinating and directing the activities of 
federal agencies.
    Under this plan, resources of the Department of Defense could be 
made available to support these activities. This could include the 
deployment of soldiers to control crowds or assist in evacuation, the 
provision of transportation or medical facilities and supplies, or 
communications gear.
    In sum, the Department of Defense has two roles to play in 
providing for the security of the American people where they live, work 
and play.
    The first is to provide forces to conduct traditional military 
missions under extraordinary circumstances, such as the defense of the 
nation's airspace or its maritime approaches.
    The second is to support the broader efforts of the federal 
domestic departments and agencies and the state and local governments--
as coordinated by and in cooperation with the Office of Homeland 
Security--under emergency conditions or for specific purposes.
    Before turning to the steps the Department has taken since 
September 11th, I would like to discuss the role of the National Guard.
    The National Guard can support homeland security in several ways:
    First, in state service, under the direction of Governors. For 
example, on September 11th, the National Guard in New York, New Jersey 
and Connecticut responded to the attack on the World Trade Center.
    Second, in state service, but performing duties of federal 
interest--the so-called Title 32 status. This is primarily designed to 
compensate Guardsmen for federal training, but most recently it was 
also used to support patrols in over 400 airports.
    Third, in federal service--the so-called Title 10 status. For 
example, when the National Guard is mobilized to serve under the 
direction of the President or the Secretary of Defense.
    These arrangements have worked well in the past. The challenge 
today is to translate them into our new security environment. There are 
many proposals for doing so. We will work with the Congress, the 
National Guard Bureau, Governors and the Office of Homeland Security to 
make certain that we have an approach that meets the Nation's needs.
    Having said that, let me be more specific about what DOD has been 
doing since September 11 with regard to homeland defense.
    Recognizing that these complex missions demand a comprehensive and 
coordinated approach, the Department has taken a number of steps.
    The first step has to do with the budget. For fiscal year 2002, $14 
billion in supplemental DOD funds has been requested, and an increase 
of $48 billion in defense spending has been requested for fiscal year 
2003. Both are essential for continuing the prosecution of the war on 
terrorism.
    That $48 billion represents the largest increase in a generation. 
However, the war on terrorism is the greatest challenge this nation has 
faced--indeed, the greatest challenge the world has faced--in a 
generation.
    Even as we fight today's war on terrorism, we must prepare for the 
wars of the future--by modernizing our forces for the wars they may 
have to fight later in this decade, and by transforming our forces for 
the wars they may have to fight in 2010 and beyond.
    Dr. Zakheim, Comptroller of the Department, is here to discuss the 
details of our budget.
    Nothing is more important than our nation's security. On that we 
all agree. But if true, nothing can be more important than passing the 
defense budget, and so--if I may digress--I would like to take this 
opportunity to urge that you to take up the defense budget first, not 
last--to give our fighting forces the tools they need to do the job; to 
help us plan for the war to which we are--and must remain--committed; 
and to help us transform the force so we are prepared for the wars of 
the future.
    Second, the Unified Command Plan makes a number of important 
changes to the military command structure around the world. The 
President has approved a major revision to the Unified Command Plan. Of 
interest today is that it will establish a combatant command for 
homeland defense, the U.S. Northern Command or NORTHCOM.
    NORTHCOM will be devoted to defending the people and territory of 
United States against external threats and to coordinating the 
provision of U.S. military forces to support civil authorities. In 
addition, NORTHCOM will be responsible for certain aspects of security 
cooperation and coordination with Canada and Mexico. It will also help 
DOD coordinate its military support to federal, state and local 
governments in the event of natural or other disasters.
    Peterson Air Force Base in Colorado is the site the Department has 
selected as the ``preferred'' location for NORTHCOM headquarters.
    Third, DOD has established its own interim Office of Homeland 
Defense and intends to establish, by summer, a permanent office within 
the Office of the Secretary of Defense, to: ensure internal 
coordination of DOD policy direction; provide guidance to Northern 
Command for military activities in support of homeland defense, and 
support to civil authorities; and provide for coordination with the 
Office of Homeland Security and other government agencies.
    Fourth, in addition to establishing an internal office of Homeland 
Defense and the Northern Command, the Department is conducting a study 
on the DOD role in homeland defense, as directed by the 2002 National 
Defense Authorization Act.
    The law calls for a comprehensive plan on the organization of the 
Office of the Secretary of Defense that addresses the ``most beneficial 
organizational structures'' for combating terrorism, defending the U.S. 
homeland, and securing intelligence.
    We expect the study to be completed this summer.
    Where we go in the future will be informed not only by the results 
of that study, but also by a rigorous examination of the evolving 
threat environment, our success in the global war on terrorism, and the 
evolving National Homeland Security Strategy.
    The Department has, and will continue to, coordinate its plans for 
supporting lead federal agencies with the Office of Homeland Security.
    In announcing the creation of a Cabinet-rank position to coordinate 
the Nation's homeland security efforts, President Bush said that a 
comprehensive national strategy to safeguard America against attack, 
and respond to any that might occur, is essential.
    The Department of Defense supports that effort through its 
assistance to civil authorities and the Office of Homeland Security.
    But the President also said that ``the only way to defeat terrorism 
as a threat to our way of life is to stop it, eliminate it, and destroy 
it where it grows.''
    And, after just returning returned from visiting with our troops in 
Afghanistan and the surrounding countries, I can assure you that the 
men and women in uniform are also prepared to accomplish that mission.
    Thank you, Mr. Chairman.

    Chairman Byrd. Thank you, Mr. Secretary. Thank you for your 
appearance before this committee, and we certainly want to 
thank you for any light you may be able to shed on the need for 
the appropriations requested. We would also be happy if the 
Director of the Office of Homeland Security would also appear 
before this committee and make a contribution to our effort.
    I have a few questions here before I turn to Senator 
Inouye.

                   ACCOUNTING FOR APPROPRIATED FUNDS

    Of the $14 billion you are requesting for the Defense 
Department in the supplemental appropriations bill, more than 
$11 billion is earmarked for a central account called the 
defense emergency response fund for loosely defined purposes to 
support the global war on terrorism. We all support the fight 
against terrorism, but the Defense Department has a terrible 
record--and we have discussed this before, you and I have.
    Secretary Rumsfeld. We have indeed.
    Chairman Byrd. A terrible record of managing similar 
contingency funds, those for Kosovo, Bosnia, and Southwest 
Asia. The General Accounting Office has reported that a portion 
of those contingency funds had been used in the past for 
repairing facilities here in the United States that were never 
used in a contingency, to pay for golf course memberships 
overseas, to pay for sightseeing tours, to pay for the purchase 
of cappuccino machines, and to pay for ceremonial chinaware.
    The funding for the war on terrorism is too important to be 
wasted. Now, $11 billion is a lot of money. It is more than we 
can contemplate, coming from a rural State like Mississippi or 
West Virginia, and I know you are personally opposing this kind 
of waste. However, under the funding mechanism that is 
proposed, how can you assure this committee that any 
supplemental appropriations provided in the defense emergency 
response fund will be used only for the costs of the war, and 
not for unrelated or frivolous items?
    Secretary Rumsfeld. Mr. Chairman, you are, of course, 
correct, we have talked about this before, and what has 
happened in the time that I have been in the Department is, 
besides bringing Dr. Zakheim in as the Comptroller, he has 
undertaken a major, truly significant effort to try to deal 
directly with the issues that you have raised about not so much 
the management of DOD funds, but the tracking and ability to 
connect specific accounts with the expenditures of specific 
dollars, and I would be happy to have Dr. Zakheim give a brief 
update on the progress in that effort. It is not a cheap 
effort. It is an expensive effort, I am afraid, but it is 
something that you and I both agree needs to be done urgently.
    Would you like to comment, Dov?
    Chairman Byrd. Very well. Dr. Zakheim.
    Dr. Zakheim. Yes, Mr. Chairman. First of all, on the 
emergency response fund itself, that actually is a vehicle that 
allows us to have much more visibility into the way the moneys 
are being spent in connection with the war and, indeed, it 
actually makes it a little more difficult to push all the 
paper, but the intent was to work more closely with OMB in 
order to have the kind of scrutiny over the funds that you are 
talking about.
    More generally, Mr. Chairman, I have been working with the 
General Accounting Office, with the Office of Management and 
Budget, to completely overhaul the way we manage our financial 
reporting system and, in fact, we have just let a major 
contract for developing a new, what is called an architecture 
that will allow us to deal with the hundreds upon hundreds of 
systems that all are supposed to talk to one another and 
frequently do not do so. We are on a strict timetable, and we 
would be happy to report to you in detail at your convenience.
    Chairman Byrd. I think it is well for us from time to time 
if I can read the Constitution. In the Constitution we are told 
in section 9, Article I, no money shall be drawn from the 
Treasury but in consequence of appropriations made by law, and 
a regular statement and account of the receipts and 
expenditures of all public money shall be published from time 
to time.
    So the Constitution requires accountability in the 
expenditures of these sums, and in the past, defense officials 
have been given the flexibility to use the funds where they 
appear to be needed most, but accountability suffers. 
Accountability suffers, as the funds do not go through the 
traditional appropriations accounts for procurement of items, 
or for specific operations, or maintenance activities.
    So I wonder what kind of strings we might be able to write 
into the appropriations bills that will give to the elected 
representatives of the people in the legislative branch the 
wherewithal that they may be assured that accountability is 
being given to the expenditure of the taxpayer's money.

                  REPORTS ON WAR-RELATED EXPENDITURES

    Secretary Rumsfeld. Mr. Chairman, I am advised that we have 
an arrangement with the Office of Management and Budget whereby 
we are currently providing them with, I believe, monthly 
reports that are related to war-related expenditures. These 
reports are also coming up to the Hill, although I honestly do 
not know where they are going on Capitol Hill--apparently the 
staffs. Of which committees, do you know?
    Dr. Zakheim. This one.
    Secretary Rumsfeld. This committee is being briefed not on 
a monthly basis, I would think.
    Dr. Zakheim. Pretty much.
    Secretary Rumsfeld. Pretty much?
    In any event, I am not sure that the reports we are talking 
about will go directly to your question, but we have, in fact, 
been supplying on a monthly basis the war-related expenses.
    Chairman Byrd. Well, anyway, I just feel that we ought to 
be ever vigilant. This request for $11 billion is a tremendous 
amount of money, and I think Congress ought to have better 
strings attached than simply to put this money into a fund and 
allow the Defense Department to disburse it without further 
ado, virtually.
    Congress has provided the Defense Department $17.4 billion 
to date to support the war on terrorism. The Department has 
informed us that it will run out of money to prosecute the war 
by the end of May, but I have been informed that you are not 
yet able to inform the Congress how much of the $17.4 billion 
you have expended, how much the Department has expended, or how 
it has been expended. Can someone now tell us how much has been 
spent, and on what it has been spent?
    Secretary Rumsfeld. Well, yes, indeed, we can. I think 
first, with respect to the fund you were referring to, I 
believe that is a transfer fund, and that as the money goes 
into the transfer fund it then is moved out of the transfer 
fund for very specific purposes, and that is all knowable and 
known to the extent it has thus far been transferred.
    Dr. Zakheim is in a position to give you some granularity 
on your question.
    Dr. Zakheim. Yes, Mr. Chairman. Actually of that $17-odd 
billion, the Department of Defense actually received $16.4 
billion. We have already committed nearly $14 billion, and 
actually obligated approximately $12\1/2\ billion. We can 
provide you for the record with the details of exactly where 
that money has gone, sir.
    Chairman Byrd. Very well, if you will do that. We need that 
information, otherwise the committee cannot be expected to 
approve the additional $11 billion that is being requested and 
feel confident that the funding is fully justified and will be 
spent for the purposes for which it was appropriated.
    [The information follows:]

    The Department was provided $17.4 billion for the Global 
War On Terrorism (GWOT), however, $227 million was realigned to 
the Department of State. The Department of Defense (DOD) 
actually received $17.2 billion. The following table shows the 
amount obligated from supplemental funding as of April 30, 2002 
for the funds the DOD has received:

                        [In millions of dollars]

Increased Situational Awareness................................... 3,588
Enhanced Force Protection......................................... 1,007
Improved Command and Control......................................   978
Increased Worldwide Posture....................................... 4,273
Offensive Counterterrorism........................................ 1,430
Initial Crisis Response...........................................   309
Pentagon Repair/Upgrade........................................... 1,305
Other Requirements................................................     3
Airport Security..................................................   198
                                                                  ______
      Total.......................................................13,091

    In addition to the above funds obligated by the DOD Components, the 
Military Department have used $501 million of their 4th quarter O&M 
funding to cash flow GWOT requirements. The Military Department will 
reimburse their O&M accounts from funds made available by the Congress 
from the fiscal year 2002 Emergency Supplemental.

                             CYBER ATTACKS

    Chairman Byrd. The Department of Defense is subject to 
almost daily attacks on its computer infrastructure. As our way 
of fighting wars becomes more dependent on computers, these 
cyber attacks constitute a growing threat to our national 
security. Of the thousands of cyber attacks on the Department 
of Defense each year, how many of the perpetrators of these 
attacks do we catch, and what do we need in order to track down 
more of these criminals?
    Secretary Rumsfeld. Mr. Chairman, a couple of answers 
there. First, it is my understanding that the Federal Bureau of 
Investigation as well Defense Investigative Services look into 
cyber attacks. The exact number of people that are tracked 
down, I cannot say, but certainly there is no question that a 
number of them are tracked down and caught, and stopped, and a 
number of them are not, and it is the nature of the beast, I am 
afraid, that we live in a time when that is the case.
    We are investing funds in the capability to defend against 
cyber attacks in a variety of different ways, and we have to 
expect that as a society that is dependent on computers and 
electronic capabilities and satellites that we are going to be 
as vulnerable as any other country on earth to attacks because 
of the degree of our dependency being what it is.
    Chairman Byrd. Now, this committee is interested in being 
of help to you in dealing with these cyber attacks, so if you 
would, please give us the response to my first question, how 
many of the perpetrators of these attacks do we catch, 
secondly, what do you need in order to track down more of these 
criminals, and finally, are you satisfied that the Pentagon has 
the best cyber security that we can buy? If not, what are we 
not doing that we should be doing?
    Now, we want to help you here, and we are preparing a 
supplemental appropriations bill, and if you can think of 
something we need to help you with by way of funding, and if 
you can give us the reasons and the justification, we would 
like to be of assistance, because we think it is vital that 
this country be better able to defend itself against these 
cyber attacks, especially your Department.
    Secretary Rumsfeld. We will certainly supply the answers to 
your first question for the record, and I thank you for that 
suggestion, and we will be happy to respond to it in writing.
    Chairman Byrd. Very well. Senator Inouye.
    [The information follows:]

                             Cyber Security

    As of this month (May 2002), the department has detected 
about 12,000 cyber-security incidents, of which about 100 (or 
slightly less than 1 percent) involved gaining unauthorized 
access to our unclassified networks. These incidents or attacks 
are referred to law enforcement as a matter or course and are 
generally pursued by the FBI, where the information is 
restricted to law enforcement channels. The Department does not 
maintain consolidated figures on how many are ``caught'' 
through law enforcement channels--which can be variously 
interpreted as identified, prosecuted or convicted.
    The Department continues to work on improving its abilities 
to detect and identify attackers, but unfortunately current 
technology makes it fairly easy for an attacker to disguise his 
identity, which means we rely on the investigative capabilities 
of law enforcement, primarily of the FBI, to track the source 
of these attacks.
    With respect to whether I am satisfied that the Pentagon 
has the best cyber-security that it can buy and what could be 
done to improve that, the Department has made significant 
progress over the past few years to protect its information 
infrastructure, but it's an ongoing effort that will never 
reach a final conclusion--especially in a field where 
technology is changing rapidly and the threat is enabled by 
this same technology. We must, and are continually working to 
find new ways to do business to respond more rapidly. Adequate 
resources are allocated in the President's budget for 
protection of our information systems. That does not mean that 
an increase in resources would not improve the situation--
clearly it would. But resource needs for this task must be 
balanced against other critical requirements.

                  JUSTIFICATION MATERIAL AND QUESTIONS

    Senator Inouye. I thank you very much, Mr. Chairman.
    Mr. Chairman, traditionally supplemental requests do not 
contain much justification material, and accordingly, as you 
have noted, I instructed my staff to submit to the Department a 
set of questions relating to the use of funds that have been 
appropriated. Mr. Chairman, I am pleased to advise you, sir, 
that I have been advised that the responses are now at the 
final stage of compilation, and we should be receiving the 
responses by the end of this week. At that time, I will make 
certain that every member of the committee is not only made 
aware, but made privy to these responses, because without that 
information it might be very difficult for us to tell our 
colleagues in the Senate the justification for such funds. I 
would like to thank you very much, Mr. Secretary, for 
expediting this request.
    Secretary Rumsfeld. Thank you, Senator. I am told by Dr. 
Zakheim that he still is working on one of the answers, but all 
of the others were sent up yesterday, and so the complete 
package ought to be ready shortly.
    Senator Inouye. Thank you, sir.

                     OPERATIONS IN THE PHILIPPINES

    Mr. Secretary, during the Easter recess, Senator Stevens 
and I visited China, Singapore, Indonesia, and the Philippines 
to meet with leaders of these countries to discuss the one 
thing on all of their minds, terrorism, and in Manila we 
received an extremely important and informative briefing from 
General Worcester of the Pacific Command concerning the 
Philippine U.S. action exercise, Politikan. I am pleased to 
report to you, Mr. Secretary, that the Commanders in the 
Philippines have been very sensitive to their mission. They 
have struck an appropriate balance in instructing and 
supporting the Filipinos while letting them focus on their 
operations.
    I look upon this not from a military standpoint but from my 
standpoint as a member of the committee that this has been a 
success. Do you consider this a military success?
    Secretary Rumsfeld. Senator, I do, although it is not 
completed. The activities that we have in the Philippines, but 
they have gone along very well, and the work that is being 
done, and the degree of cooperation that has been achieved, it 
seems to me certainly fits that description.
    The work that is being done on Basilan Island by way of 
training in the Philippines has as one of its goals to assist 
the 4,000 or 5,000 Philippine Army members in that portion of 
their country to do a more effective job in dealing with their 
very serious problem, and of course we do have two Americans 
still being held hostage, probably on that island, by a 
terrorist organization, and I guess I will feel more successful 
if and when those folks are found and released, and the 
terrorist organization has been dealt with, but all in all I 
think it is going along quite well.
    Senator Inouye. Does this supplemental include sufficient 
funds to carry on this activity?
    Secretary Rumsfeld. It does. We not only are doing that, 
but as I am sure you were briefed and know, we are also doing 
some civil affairs work on Basilan Island and assisting with 
some roads and some other activities that we believe make the 
Philippine Army more successful and more effective.

                      GUARD AND RESERVE PERSONNEL

    Senator Inouye. Mr. Secretary, on something else, the 
matter of the National Guard, I note in your supplemental that 
you requested $4.1 billion for Reserve and Guard personnel 
called upon active duty. I presume that this request assumes a 
mobilization limited to 80,000, but I note you have 81,000 at 
this time. Is that a sufficient number?
    Secretary Rumsfeld. My recollections of the numbers we 
currently have is that it is 71,500 Guard and Reserves who have 
been activated. I could be wrong, but at least in recent days I 
think it was roughly that, and we believe that we--we are 
working with the Office of Management and Budget now to 
calibrate it. One of the problems is that it is always a moving 
target. A budget is a budget. It is not something that actually 
happens. It is something that people project and intend to have 
happen if events evolve in exactly that way, but we are, for 
example, making changes with respect to the combat air patrols 
over the United States.
    Now, to the extent the number of patrols goes up, the cost 
goes up. To the extent it goes down, the cost goes down, and 
that is threat-based as opposed to budget-based, and my 
response to you is that I feel comfortable that at the present 
time, insofar as I am aware, the work we are doing with the 
Office of Management and Budget, that we are going to end up 
with sufficient funds for the Guard and Reserves.
    Senator Inouye. History has noted, Mr. Secretary, that at 
times of stress and danger, we may have some difficulty in 
recruiting personnel for military service. Since September 11, 
have the first term reapplications increased or decreased?

                   MILITARY RECRUITING AND RETENTION

    Secretary Rumsfeld. I would really want to sit down with 
the numbers by service to answer that perfectly, but we are 
fully able to attract and retain the numbers that we currently 
need for end strength. We are doing two things. One, we have 
about a 71,500 Reserve and Guard call-up. The second thing we 
have done is, we have something between 20,000 and 25,000 so-
called stop losses, where people serving were due to get out 
and have stayed in because of our request that they stay in.
    An awful lot of the Guard and Reserve are on a volunteer 
basis, and a large number of those--for example, the ones that 
were helping with the airports were in their own locale, so 
they were not moved, which is a help in terms of the issue you 
are asking, but we do have to continuously concern ourselves, 
because we are competing in the civilian manpower market for 
both full-time people as well as Guard and Reserves, and we 
have to see that we can attract and retain what we need.
    Dov tells me that he does not have the hard numbers, but 
the first-term retention has increased, but by how much I do 
not know. I know that morale is high, and you know that from 
your visits, Senator. You have been out there visiting with the 
troops, and I am sure you have experienced what I have 
experienced.
    Senator Inouye. I know that on active duty, for example, we 
had a hearing on the Navy, before September 11 it was 55 
percent reenlistment on a first term. Today, it is over 71 
percent, and I was just wondering if that is the same in the 
Reserves and the National Guard.
    Secretary Rumsfeld. We will check in the other services and 
in the Reserve and Guard and get back to you.
    Senator Inouye. Mr. Chairman, I have a few other questions. 
May I submit them, sir?
    Chairman Byrd. Absolutely.
    Senator Inouye. I thank you very much.
    Chairman Byrd. Senator Stevens.

         ELIGIBILITY TO ATTEND UNITED STATES MILITARY ACADEMIES

    Senator Stevens. Mr. Secretary, first a sort of unrelated 
question, but when we were in the Philippines Senator Inouye 
and I attended the 60th anniversary of the Bataan March and 
spoke to quite a few of the veterans who at that time were 
really considered members of the United States forces, and I 
learned that--I did not know this--that after we removed our 
forces from Subic Bay and Clark Field, I believe it was the 
Department, the Department canceled the eligibility of 
Filipinos to attend our military academies. Are you aware of 
that?
    Secretary Rumsfeld. No, sir.
    Senator Stevens. I wish you would take a look at that. I do 
not think any country in the world has suffered more during 
World War II as a result of having been a friend of the United 
States to the very end, and that was one of the backbones of 
building of their rather superb military in that period of time 
when they did come here and train with us, the officers trained 
with us. I would hope you would reinstate it.
    Secretary Rumsfeld. When those bases were closed, of 
course, there was a significant change in the U.S.-Filipino 
military relationship, and it undoubtedly involved a whole host 
of educational exchange programs.
    Senator Stevens. I think it did, but this was not IMET now. 
They were coming directly here and going through the full 
academy training, and I think that is the relationship we ought 
to maintain with those people who fought so well with us in 
World War II.

                          RESERVE MOBILIZATION

    Mr. Secretary, it is my understanding that the budget now 
before us, the request now before us is for a supplemental of 
$4.1 billion to pay for Reserve and National Guard personnel. 
You have already talked about the numbers that have been 
mobilized. It is my understanding the policy of the Department 
is to just mobilize them for 1 year. The authority is to bring 
them in for 2 years. That is a more expensive way to do 
business. Is that going to continue to be your policy?
    Secretary Rumsfeld. I think that I cannot project on that 
question. It seems to me that we are currently reviewing a 
whole host of things involving personnel. It is pretty clear 
that the global war of terrorism is not going to end in a 
matter of months. It is a problem that I am afraid we are going 
to have to live with for a somewhat longer period, and 
therefore, as that occurs, we do have to address things like 
end strength.
    We have to address the demands on the Guard and Reserve, 
and we have to address the problem, as the Senator pointed out, 
of recruiting and retaining people if, in fact, we have got 
stop losses in that affect their ability to do the things they 
would like to do, and it is a very complex situation. It is 
something that varies from service to service, and I am not 
personally in a position to give you a definitive answer.

                     WITHDRAWING GUARD FROM AIRPORT

    Senator Stevens. Well, let me go back--I made the comment 
about withdrawing the Guard from airports up my way. It is my 
understanding that that is going to be a national policy now. 
You are going to stand down the National Guard's activities at 
airports?
    Secretary Rumsfeld. I do not know whether I would call it a 
national policy. What happened was, when the United States 
decided that we needed people quickly in airports, the 
Department of Defense entered into an agreement at the request 
of the President with the Department of Transportation whereby 
we would arrange with the Governors to provide the national 
Guard officials necessary, but that we would have a memorandum 
of understanding which would recognize the truth that it is not 
a military job, it is basically a civilian job, and that we 
were doing it on an interim basis, and that we would have an 
agreement with them that they would undertake a training 
program immediately so that they could replace us within a 
reasonable period of time.
    That time is now here, and the month of May is the month 
when the individuals in the Guard who have been serving, 
assisting in the airports, will begin being phased out, and 
their places will be taken by the individuals that the 
Department of Transportation has either trained or contracted 
for to take their places.
    Senator Stevens. I am going to lead up to a question that I 
am going to ask at the very last, but can you tell me, is there 
anything in your policy today that would lead to the activation 
and deployment of uniformed personnel for homeland security 
measures on a full-time basis for a prolonged period?
    Secretary Rumsfeld. Well, let me think. The places we are 
currently doing things, one is the airport, another is Customs, 
which is part--temporary, just like the airports, another is 
the Border Patrol, where we have some military people there, 
another is INS. All of those are temporary.
    Now, if you think of combat air patrol, and characterize 
that as homeland defense, those are Guard and Reserve and 
active duty people, and whether they are flying AWAC's or 
flying a combat air patrol or whether they are on strip alert, 
that is a job that very likely is going to be a long-term task 
of some level, depending on the threat level.
    Senator Stevens. Will you bill those costs to homeland 
security, or will you continue to finance them through the 
military accounts, when they are over the United States?
    Secretary Rumsfeld. They would certainly be billed through 
the Department of Defense, if that is the question.
    Senator Stevens. Well then, let me ask a final question. 
The House added $1.4 billion for this supplemental, for Guard 
and Reserve personnel costs, as I understand it, for 2002. If 
these people are being released now, and we are not really 
assigning military personally to the Homeland Security Agency, 
do you need that money?
    Secretary Rumsfeld. I think it is a mischaracterization to 
say, assigned to Homeland Security Agency, because they never 
were. The combat air patrols have been a part of the Department 
of Defense from the beginning to the end. They always would be. 
They are part of the Defense Department's assets, and at the 
request of the President those assets were allocated for a task 
that is characterized as homeland defense, properly so, but the 
same people could within a week be assigned overseas some 
place, to Hawaii, or to Japan for another Department of Defense 
function.
    Senator Stevens. I understand, and I accept that 
correction, but I am looking at the need for the $1.4 billion. 
I think that is going to be one of the key issues in the 
supplemental when we get to conference if the House maintains 
its $1.4 billion increase Guard and Reserve personnel costs for 
2002, and my question is, in view of the fact that the forces 
you have been using, the National Guard and Reserve, that they 
are being--I understand it is the policy now to reduce the use 
of those people. Will you need $1.4 billion more this year for 
that activity?
    Secretary Rumsfeld. And the answer is, we have not asked 
for that money. We are working with the Office of Management 
and Budget, and as we see the levels change, we will know more 
as we go through the year, but the short answer is that the 
administration is not requesting the $1.4 billion.
    Senator Stevens. Thank you, Mr. Chairman. Thank you very 
much, Mr. Secretary.
    Chairman Byrd. Thank you, Senator.
    Senator Stevens. Oh, I do have one question.

                            POSSE COMITATUS

    Chairman Byrd. Very well.
    Senator Stevens. You advocate a change in the legal status 
of military forces assigned to the mission within the United 
States under the posse comitatus doctrine, or are you looking 
for any long-term change in the posse comitatus?
    Secretary Rumsfeld. No, Senator, we are not. We are not 
looking for any long-term or short-term change with respect to 
posse comitatus.
    Senator Stevens. Thank you very much.
    Secretary Rumsfeld. The roles and missions of the military 
will remain exactly as I have stated in the opening statement, 
and as they have been historically, and until and unless the 
President makes a judgment that that is not appropriate, in 
which case he would have to under certain circumstances make a 
waiver or come to the Congress.
    Senator Stevens. Thank you very much.
    Chairman Byrd. Thank you. Senator Gregg.

                              LAW CHANGES

    Senator Gregg. Thank you, Mr. Chairman. Following up on 
that question from Senator Stevens, are there any other laws 
that you need adjusted in order for you to effectively support 
homeland security either in operational areas or in 
intelligence areas?
    Secretary Rumsfeld. I think the answer is yes. There are 
some laws that have been proposed for amendment by the 
executive branch that the Department of Defense I do not 
believe is making any specific request, that I would restrict 
totally to homeland security. Is that fair?
    Senator Gregg. If you have some, could you get them to us?
    Secretary Rumsfeld. Yes, sir.

                          ROLES FOR THE GUARD

    Senator Gregg. One of the issues that I have been 
interested in is the role of the National Guard as we develop 
homeland defense, and originally the concept was that there 
were going to be I think 34 specialist units which I call 
second responders who are going to come in with weapons of mass 
destruction capability, as consequence management teams. They 
would be centered around the country. I think we have 12 up and 
running or something like that now, that would be National 
Guard units. That has had fits and starts as an exercise for a 
variety of reasons, and one example of the fits and starts was 
that one of the units that was up and running during the New 
York crisis took 12 hours to get from Albany to New York City 
because of local official problems.
    I am wondering if you still see that as a viable role for 
the Guard, to have these second responder teams, which are 
highly trained in weapons of mass destruction abatement and 
consequence management, and if so, what sort of progress are we 
making on that?
    Secretary Rumsfeld. Insofar as I am aware, that is a 
perfectly appropriate task for the Guard. They are, as I 
recall, being trained and certified at the Federal level. They 
can do that task well, and I do think it is appropriate.
    Senator Gregg. Has anybody taken a look at the New York 
situation and what happened with the CST unit that could not 
get from Albany to New York for 12 hours because of paperwork 
issues involving local officials?
    Secretary Rumsfeld. That is surprising to me, because as I 
recall these are under the control of the Governors.
    Senator Gregg. Right. That was the problem. It was a local 
issue, a local political issue.
    Secretary Rumsfeld. Well, it is not as though it was 
between two States. It was within a State.
    Senator Gregg. Right, but it happened.
    Secretary Rumsfeld. You can be sure I have not addressed 
it.
    Senator Gregg. Well, as you are bringing these units up, it 
might be worth taking a look at the experience there.
    Secretary Rumsfeld. When you say political, you mean 
bureaucratic, or actually disagreements politically?
    Senator Gregg. I understand there was an issue of local 
officials and the inability to get the Guard units authorized 
to come into New York as a result of lack of official 
designation. It took them 12 hours to get there as a result of 
that.
    Secretary Rumsfeld. My recollection is they are supposed to 
be able to respond within 6 or 8 hours, in that range, so 12 
sounds long. We will check it.
    Senator Gregg. Well, it may have been involved with the 
death of some local officials who had to sign paperwork or 
something. In fact, that is I think what caused it to happen.

                                NORTHCOM

    NORTHCOM, to what extent will NORTHCOM bring into play the 
issues of border security such as the management of the Coast 
Guard as it tries to intersect coast activity as coming into 
our ports that may be a threat?
    Secretary Rumsfeld. The precise arrangements for NORTHCOM, 
needless to say, are in the very early stages. A combatant 
Commander has not been named as yet. We expect to do that 
within a very short period of time, and the command would stand 
up October 1. Exactly how it would--right now, the relationship 
between the defense establishment and the Coast Guard is, of 
course, intimate in that regard, and there is a high degree of 
cooperation, coordination, and in some instances deconfliction, 
so that the Coast Guard, which has a significant role in that 
regard, is able to function.
    I do not know that it would necessarily change at all with 
the standing up of Northern Command. I cannot imagine quite how 
it would change, but that would be premature to judge that.
    Senator Gregg. But it just seems to me that if you have got 
the Coast Guard, which is essentially responsible for 
protecting the coasts, for protecting the access to our 
borders, especially from ships that are coming in, in the Navy 
you have container units, and they represent a significant 
threat, which I think we all deem to be one of the more higher 
probability threats, and now you have got a Northern Command, 
which is responsible for protecting North America, that I was 
just wondering if there was going to be some sort of line 
responsibility there, or is it just going to continue to be the 
transportation agency and the Defense Department working 
together.
    Secretary Rumsfeld. They have been working together 
intimately all year in a very effective way, and with the 
division of labor depending on the location and the 
circumstance.

                       CRUSADER ARTILLERY SYSTEM

    Senator Gregg. Is the Crusader artillery piece needed for 
terrorism defense?
    Or any other type of defense, for that matter.
    Chairman Byrd. Let the hearing show that the Secretary 
smiled, and that there was much laughter throughout the hearing 
room.
    Senator Gregg. I see my time is up, so you are not even 
going to get to answer that question.
    Secretary Rumsfeld. I see the red bulb.
    Chairman Byrd. Mr. Secretary, the time is extended.
    Secretary Rumsfeld. Well, Mr. Senator, I think that there 
is a strong probability that the Department of Defense will be 
commenting on that tomorrow or the next day.
    Senator Gregg. Thank you, Mr. Secretary. We look forward 
with bated breath to that comment.
    Chairman Byrd. Thank you, Senator. Senator Dorgan, I 
believe you are next on this list.

                       BALLISTIC MISSILE DEFENSE

    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Secretary, what will we be spending this year on 
national missile defense, roughly?
    Secretary Rumsfeld. I doubt--first of all, we hardly use 
the phrase any more, national missile defense. We really talk 
about ballistic missile defense, because the division line is 
imperfect, and I guess national depends a bit on where you 
live.
    The figure in the budget that I think--that is concentrated 
in the Ballistic Missile Defense Office, as opposed to being 
spread throughout the other portions of the budget, I believe 
is $7.6 billion. As a budget target.
    Senator Dorgan. $7.6 billion?
    Secretary Rumsfeld. Yes, sir.
    Senator Dorgan. I wanted to ask that question because there 
is a range of, or there are a range of threats to this country, 
one of which is by kind of a ballistic missile with a nuclear 
warhead, another by a cruise missile and a range of other 
threats.
    Secretary Rumsfeld. You bet.

                    OTHER HOMELAND DEFENSE SPENDING

    Senator Dorgan. Among those threats represent the threats 
suggested by Senator Byrd in questioning last week, and it 
seems to me like it also is a threat. You talked about the 
number of containers coming into this country at seaports, 5.7 
million containers, 15,000 per day coming into our seaports, 
and I assume they are coming in at 2, 3, 4, 5 miles an hour. 
They are not a speeding ballistic missile, but 2 percent of 
them are inspected, 98 percent are not.
    I tried to get some information on what we are spending on 
that, and I believe it is around $66 million that we are 
spending on trying to evaluate whether one of these containers 
might contain a weapon of mass destruction, for example, and I 
am wondering how you see that issue on the threat meter.
    I understand the concern. Many of our colleagues are very 
anxious to build a system that would defeat a ballistic missile 
that would be incoming. What approach are we using to defeat a 
much, much slower vehicle, that would be a container with a 
weapon of mass destruction that comes at a seaport?
    Secretary Rumsfeld. Well, we are spending a good deal more 
than $7.6 billion if one approaches it the following way. Your 
question is a critically important one, because there is no 
question but that the success of our Armies, Navies, and Air 
Forces have been so notable that the more likely threats that 
we are going to see because of the deterrent effect of our 
Army, Navy, and Air Force, are asymmetrical threats, the kinds 
of that take advantage of not having to compete with Armies, 
Navies, and Air Forces, and that means ballistic missiles, 
cruise missiles, terrorist threats, satchel bombs, cyber 
attacks, as was raised by the chairman, and other types of 
attacks.
    The amount of money that the United States Government is 
now spending on homeland security in the broadest sense, what 
you would have to include would be the funds we are spending 
going after terrorists all over the world, the very people who 
would be putting something in one of those containers, and then 
all across the spectrum to the $66 million which you mentioned, 
but it is very hard to disaggregate all of that, because when 
we go out and arrest a terrorist, or we shut down a bank 
account, or we put pressure on in the Philippines, or we put 
pressure on in Afghanistan, all of that, it seems to me, is 
addressed to that problem.
    Senator Dorgan. The reason I asked the question, I think 
September 11 suggests once again that terrorist weapons might 
well be low tech rather than high tech.
    Secretary Rumsfeld. You are exactly right.
    Senator Dorgan. Low tech was an airplane loaded with fuel, 
or it could be a container containing a device that could cause 
mass destruction.

                       ARMING MOBILIZED GUARDSMEN

    Let me ask you two other very quick questions. The 
Department of Defense has resisted arming guardsmen mobilized 
to assist the Customs Service, INS, and Border Patrol. The 
Commissioner of the Customs Service in testimony before my 
subcommittee a week or so ago indicated that he had recommended 
last December that some members of the military and National 
Guard that had been assigned the role to assist, especially in 
remote locations, be armed. He indicated that he made that 
recommendation last December. There has been a great deal of 
discussion, as you know, about the advisability of having men 
and women in uniform out performing duties with customs and 
others and not being armed.
    Can you tell me what is being done? The recommendation was 
made in December. If we continue to use Guard and Reserve in 
the future, will they be armed? Are you aware of the 
recommendation being made by the Customs Commissioner?
    Secretary Rumsfeld. I am, and the response is this. The 
initial decision under the rules of engagement was that the 
uniformed personnel would not be armed. The issue was raised, 
as you suggest, and it was under review in the Department, and 
the initial decision was not based on the military viewpoint, 
it was based on the INS and the customs people, as I understand 
it.
    A proposal is pending before, I believe, General Myers at 
the present time, the Chairman of the Joint Chiefs, to provide 
an ability for U.S. military to be armed, as you point out, in 
remote locations. Apparently, to get that accomplished it has 
to go through the people that are in charge of the 
organizations to whom we are loaning military people, and that 
is the INS and the Border Patrol.
    Senator Dorgan. Well, my time is up. The Customs 
Commissioner gave testimony that differs with that. He 
indicated last December that they had recommended that some be 
armed.
    Secretary Rumsfeld. Well, let me just check and clear it 
up.
    Senator Dorgan. If you would, I would appreciate that.
    Secretary Rumsfeld. Go ahead.
    Dr. Cambone. We have, sir, taken that advice, and at the 
moment there are some 411 people who are undergoing training 
for the purposes of being deployed with arms.
    Senator Dorgan. Thank you, Mr. Secretary.
    Chairman Byrd. Senator Shelby. Let the Chair explain, the 
Chair is attempting to call on Senators in the order of their 
appearance, but also within that wheel, another wheel. The 
Chair is attempting also to go from side to side and alternate, 
so I hope the Chair will have the understanding of Senators.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Secretary, I welcome you to this committee again, like 
everyone else has, and I look forward to supporting the 
supplemental appropriation. I think it is very, very important.

                       CHEMICAL DEMILITARIZATION

    Having said that, when you take a broad look at your 
Department's homeland security responsibilities, where does the 
chemical demilitarization program appear in your field of view?
    Secretary Rumsfeld. Well, the responsibility for it is with 
the Under Secretary of Defense--Pete Aldridge--for Acquisition, 
and your point clearly is a fair one, that the existence of 
those materials that need to be treated and taken care of could 
conceivably pose an attraction to somebody.
    Senator Shelby. Sure, whether it is in my State or 
somewhere else, right?
    Secretary Rumsfeld. And as you know, we have funds in the 
budget that Dr. Zakheim tells me is being increased by $465 
million in the fiscal year 2003 DOD budget.
    Senator Shelby. Mr. Secretary, the chemical 
demilitarization program was labeled, quote, ineffective by the 
President's 2003 budget, and just this week received 
certification by Secretary Aldridge, that you just mentioned, 
for a Nunn-McCurdy breach. How much funding is included in the 
supplemental request for the chemical demilitarization program, 
and for what purpose will the funding be used? Doctor, do you 
know that?
    Dr. Zakheim. Senator, we do not have money in the 
supplemental for the chem-demil program.
    Senator Shelby. Do you think there is enough money in the 
regular budget?
    Dr. Zakheim. We believe that there is money that would get 
our program moving quite well. It is something below $1 
billion. I believe we have added several hundred million in the 
2003 budget, but as you may know, in terms of the supplemental 
we put in money for only two things, one, those items that we 
knew we would spend that money on before October 1, and 
secondly, money that was directly related to the war effort. 
Obviously, where we felt that we had sufficient funds in our 
current budget request, then we just did not ask for more.
    Senator Shelby. Do you believe, Mr. Secretary, that the 
chemical demilitarization program is on the right track, and 
our chemical weapons stockpiles are safe and secure?
    Secretary Rumsfeld. Senator, it cannot be on the right 
track if it is in Nunn-McCurdy breach----
    Senator Shelby. That is right.
    Secretary Rumsfeld [continuing]. And requires a waiver. You 
know that, I know that.
    Senator Shelby. But I wanted you to say that.
    Secretary Rumsfeld. You wanted me to say that.
    Senator Shelby. And you did. Thank you.
    Secretary Rumsfeld. I was afraid of that--and I would feel 
a lot better if those stockpiles were not there----
    Senator Shelby. Absolutely.
    Secretary Rumsfeld [continuing]. In terms of security. Have 
I responded appropriately, in a fulsome and complete manner?
    Senator Shelby. Yes, sir, you have responded appropriately, 
and you have worked with us, and I believe Secretary Aldridge 
is working with us, but what we want to do is just what you 
just said. You would feel better, as a Secretary of Defense and 
as a citizen, if these stockpiles were dispensed with safely, 
right? That is why we keep raising these issues, because some 
of us, including my home State of Alabama, we have some serious 
problems in reaching that, and I want to commend you for trying 
hard to work with us. We are trying to work it out, and that is 
why I continue to raise it until it is worked out safely.
    Secretary Rumsfeld. Thank you, sir.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator. Senator Feinstein.

                             PORT SECURITY

    Senator Feinstein. Welcome to the committee, Mr. Secretary. 
I wanted to follow up on Senator Dorgan's comment on port 
security. Is there anything in this supplemental to meet what 
is a grievous need in our country, which is increased port 
security, to be able to search and certify containers coming 
into our country?
    Secretary Rumsfeld. Not in the supplemental.
    Senator Feinstein. Is there anything in your budget? If so, 
what is it, and how will this money be utilized?
    Secretary Rumsfeld. Senator, we have approximately $43 
million in the fiscal year 2002 budget precisely for port 
security. We are going to spend about $16 million of that for 
Coast Guard support for Navy equipment on Coast Guard ships to 
ensure interoperability between the Navy and the Coast Guard in 
these matters.
    We also have another, close to $27 million regarding 
monitoring of key ports, harbors, shipping approaches, and 
shoreline facilities, so yes, there is money specifically for 
the kind of concern you have just raised.
    Senator Feinstein. But actually a rather small amount of 
money. I know the ports in California, particularly the 
Southern California port, Long Beach, San Pedro, Los Angeles, 
where huge amounts--I mean, that has got to be the biggest 
incoming port in the United States in terms of cargo, and very 
few of these containers, as Senator Dorgan pointed out, less 
than 2 percent are searched.
    We heard from the Customs Department at a prior hearing 
Chairman Byrd held that they were trying to extend the 
perimeters to get a system in other countries where ports could 
search, seal, and certify containers that would then come into 
the United States, but the vulnerability in our ports is 
extreme at the present time. A container can come in, not be 
opened at Long Beach, go into New Mexico, go all the way back 
to Missouri and Mississippi, and no one has looked at that 
container.
    Secretary Rumsfeld. Senator Feinstein, Dov Zakheim I am 
sure responded correctly with respect to the Department of 
Defense budget, but of course the Department of Treasury budget 
has customs, and that is the principal responsibility, and the 
Coast Guard, of course, is budgeted through the Department of 
Transportation, as of course you know, so what he has cited 
ought not to be taken by anybody as the totality of the Federal 
Government's efforts with respect to that problem, and I quite 
agree with you that it is a problem.

                      STANDING UP NORTHERN COMMAND

    Senator Feinstein. Mr. Secretary, last year's quadrennial 
defense review stated that homeland defense is the Pentagon's 
primary mission, hopefully above ballistic missile defense, but 
accordingly, a few weeks ago you announced that a North 
American Command would be established to coordinate the 
disparate agencies involved in homeland defense. I understand 
that many of the statutory and command relationships have not 
yet been worked out, but is there funding in this supplemental 
for that, and if so, what is it, and how will it tie into the 
Office of Homeland Security?
    Secretary Rumsfeld. First, let me say that it will not 
require statutory adjustment. What has not yet been worked out 
precisely is the actual organization and arrangements within 
the Northern Command when it is going to be, I think October 1 
is the date that we planned to stand up that command, and the 
work is currently being done to determine the number of people 
and how it ought to be arranged.
    There is some money in the supplemental for the Northern 
Command, and Dov, it is how much?
    Dr. Zakheim. The supplemental has $10 million for what we 
call CINC-identified, Commander in Chief-identified 
requirements to satisfy immediate war-fighting needs. The $10 
million will support the task force that is currently 
operated--it is called the Joint Task Force Civil Support--the 
Homeland Security Directorate, and the NORTHCOM transition 
team, because NORTHCOM, as you know, does not stand up until 
the next fiscal year. In the next fiscal year we have $81 
million to stand up the Northern Command as well as an 
interrelated category, $215 million for secure command, 
control, and communication.
    Secretary Rumsfeld. If you think about it, the Northern 
Command is going to take the existing activities and 
responsibilities and pull them together under a single command. 
At the present time, for example, the Space Command has 
responsibility for NORAD. NORAD will be moved over to Northern 
Command. Joint Forces Command, down in Norfolk, has a variety 
of activities that will become part of the new Northern 
Command, so it will be in some instances some new funds, but in 
other instances it will be moving funds from one CINC-dom to 
another.
    Senator Feinstein. So if I understand it, between this 
supplemental and the 2003 budget, total there will be about 
$300 million set up for the North American Command, is that 
correct?
    Dr. Cambone. Senator, that is not quite right. The $10 
million for 2002, and the $81 million for 2003, related to the 
Northern Command are specifically----
    Senator Feinstein. And the $215 million?
    Dr. Cambone. That $91 million between those two budgets is 
specifically for Northern Command. The other $215 million is 
meant for the National Guard, for example, to prove their 
capability, so it is not specifically earmarked for use by the 
Northern Command.
    Dr. Zakheim. There are three categories there for command 
and control, which as I said was related to the general 
homeland security effort. But you have secure communications, a 
Reserve component, the National Guard Bureau communications, 
and equipment to support information systems security program, 
all of which is related to the homeland security, but it is not 
specific to the Northern Command.
    Senator Feinstein. Mr. Chairman, would you allow me just to 
ask how that interfaces with the Director of Homeland Security?
    Chairman Byrd. Very well.
    Senator Feinstein. I appreciate that, thank you.
    Secretary Rumsfeld. In my prepared remarks I tried to 
analyze the relationship between the Northern Command and the 
Office of Homeland Security and the Department of Defense and 
the Homeland Defense piece of it, and the Homeland Security 
Council, and the Homeland Security Council is a coordinating 
body, as the National Security Council is a coordinating body, 
and we worked very closely with them. The Department of Defense 
serves on the Homeland Security Council, full stop. The 
Northern Command is a one more combatant command for the United 
States, just as the Pacific Command in Hawaii, and in the 
European Command, General Ralston, Tom Franks in Central 
Command, and the chain of command there, under the statute, of 
course is from the President to the Secretary of Defense to the 
combatant Commander, and the relationship between the Homeland 
Security Council would be from the civilian side of the 
Department of Defense, and the relationship there would be 
intimate, because we serve on the Homeland Security Council.
    Senator Feinstein. In other words, that would be under your 
direct control?
    Secretary Rumsfeld. NORTHCOM, absolutely, and the 
President's.
    Senator Feinstein. Thank you. Thank you very much.
    Chairman Byrd. Senator Cochran.
    Senator Cochran. Mr. Chairman.
    Mr. Secretary, I want to first compliment you and 
congratulate you on the outstanding leadership you are 
providing as head of the Department of Defense in defending the 
security interest of our country and the citizens of the United 
States.
    Secretary Rumsfeld. Thank you very much, Senator.
    Senator Cochran. I think we all take very seriously the 
request that has been submitted to us for consideration, 
supplemental funding for the Department of Defense and other 
departments of the Government as well. A little over half, I 
think, of the funding is for the Department of Defense in this 
supplemental appropriation request of $27 billion for defense 
use, and we have before us an outline of how those funds will 
be allocated for functions among the services and that kind of 
thing. I wonder, does the National Guard end up deriving any 
financial benefit in terms of training or support in this 
supplemental appropriation?

                   BENEFITS FOR NATIONAL GUARD PEOPLE

    Secretary Rumsfeld. Gee, that is a hard thing to 
disaggregate. The National Guard has gotten a lot of exercise 
since September 11, and God bless them. They have done a 
wonderful, wonderful job. They are serving in places like 
Kosovo and Bosnia, there are National Guard people who are 
performing all kinds of services here in the United States, 
there are Guard and Reserve who have been called up providing 
the combat air patrols over our country, they are flying 
missions in Afghanistan, so the total force concept that the 
United States has fashioned over the years exists, it works, it 
works well, and they are doing a superb job.
    So are they deriving any benefit? You bet. They are getting 
a lot of exercise, a lot of training, a lot of experience, and 
the country is benefitting enormously from them.

                   ASSIGNMENT OF NATIONAL GUARD UNITS

    Senator Cochran. In the establishment of the Northern 
Command, is there any plan to assign specific National Guard 
units to the Northern Command?
    Secretary Rumsfeld. Not as such. What we are doing is, the 
biggest thing that is being assigned to Northern Command is 
NORAD, in terms of numbers of activities and organization 
structure. There have been suggestions that the role of the 
National Guard should be homeland defense. We hear that from 
time to time, and there is no question but that the Guard does 
play a role in homeland defense.
    The problem is, it also plays a role in world-wide defense 
and national defense, as we all know, and I think that trying 
to divide it up and say, this is for that particular activity, 
it does not really reflect the reality of the world we live in, 
where forces have to be able to function in different theaters 
for different purposes at different times.

                     ASSISTANCE FROM OTHER NATIONS

    Senator Cochran. I know that one example of a mission that 
I did not think we would have to call on NATO for was providing 
some AWAC's flights, overflights of the United States after the 
attacks on New York City and Washington, D.C. As I understand 
it, those flights have been discontinued now, and those units 
are no longer flying, is that correct?
    Secretary Rumsfeld. I think that takes place this month, 
but they have just done a wonderful job for many, many months 
now, from any number of countries. 12, 14 different countries 
have participated, and it has been an enormous benefit to the 
United States to have that work being done by our NATO allies 
and friends.
    Senator Cochran. Is there any plan to involve NATO or any 
units of NATO in our homeland defense effort in the future?
    Secretary Rumsfeld. Well, if you think about it, we have a 
close and, indeed, intimate relationship with our friends to 
the North. NORAD is the North American system, and the United 
States and Canada are connected very closely to our mutual 
benefit, so I would say there is an example of homeland defense 
where our NATO ally, as opposed to NATO as an entire entity, is 
directly connected to homeland security.
    Senator Cochran. One thing that some people may wonder 
about is, local police responsibilities such as in these pipe 
bombs that have been put in mailboxes and other Federal 
agencies have responsibilities for investigating and bringing 
to justice people who are responsible for things like that, and 
not necessarily the military.
    We talked about the posse comitatus statute, and restraints 
on military action in law enforcement activity. Will there be 
an effort made to clearly define the difference between police 
action? Will we need to modify statutes with respect to the new 
homeland security responsibilities of the military so people 
will not get the idea they can call on the military to come in 
and try to deal with problems of that kind?

                          CHANGES TO STATUTES

    Secretary Rumsfeld. Well, Senator, I do not at the moment 
know of any statutes we need changed in the Department of 
Defense with respect to posse comitatus. We have addressed it. 
We feel it is fair, we can live with that, we do not plan to 
change the roles and the missions of the military in a way that 
would inject the Department of Defense and uniformed personnel 
into the responsibilities of State and local governments. We 
would do most everything we did in a supporting role, as we did 
for the Superbowl, for example. We were asked to provide some 
security for the Olympics and various events like that. We do, 
but we do it as a supporter, as opposed to the entity that is 
directly in charge.
    Dr. Cambone. Part of the discussion having to do with the 
personnel up on the northern border had to do with what role 
they would be playing, and part of the issue whether they were 
armed or not then entered into this question. I mean, how do 
you carefully place our people so that they are not caught in 
that situation, and I misspoke with Senator Dorgan. We got the 
MOA's almost signed, and as soon as those MOA's with INS and 
customs are signed, we will be able to have a small number who 
are in isolated places armed for their self-protection, not for 
the purposes of law enforcement, and there is an important 
distinction between those two.
    Chairman Byrd. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here. I know you were out at Fort Lewis in 
my home State of Washington a few weeks ago, and had a chance 
to see some of the work they are doing in laying a foundation 
for transformation for the Army, and we are very proud of their 
work, and I am really pleased that you had an opportunity come 
out and see what they were doing there.
    Secretary Rumsfeld. They do a great job.

                        ARMING OF NATIONAL GUARD

    Senator Murray. Well, I want to follow up with a question 
Senator Dorgan had, and you just referred to it again, and that 
is the issue of arming the National Guard, and not to beat a 
dead horse, but it took 3 months from the time Attorney General 
Ashcroft said that we were going to get the National Guard 
until they were finally deployed, and now it has been 6, almost 
8 weeks since we were told they were going to be armed so that 
they could be effective, and we have been told it is close for 
so long now that it has become part of the rhetoric of the 
bureaucratic agencies working together more in my State, so if 
you could give us a better than we are this close estimate of 
time, I would really appreciate it.
    Secretary Rumsfeld. Well, the last I heard about this 
subject was about 48 hours ago, and my recollection is, I was 
told it is on General Myers' desk, and he is the Chairman of 
the Joint Chiefs, and it goes from his desk to my desk, and 
what it involves is a calibration of the rules of engagement 
which is required by the Department of Defense before, 
supposedly before military personnel can be deployed so that 
there is clarity with respect to whether or not they are armed, 
and under what instances they are supposed to use those 
weapons.
    Senator Murray. That is a bureaucratic response, and I 
appreciate it, but I hope that we can come to a conclusion on 
this fairly quickly. We do have these people deployed in very 
difficult situations. They are not armed. We end up having our 
border guard protecting them, rather than them having them do 
the job that they were trained and should be out doing, so I 
hope we can resolve that.
    And let me just follow up quickly with that. It is clear 
that we may not have the trained personnel in place very 
quickly to actually do INS-Border Patrol-Customs positions that 
they were sent there to augment. If they are still needed, the 
National Guard beyond 179 days that is in the original MOA, 
would you support having them stay there until we get those 
people in place?
    Secretary Rumsfeld. I would support doing whatever the 
President told me to do, but if you want to know my first 
choice, it is to get the INS and the customs hustling and find 
the people they need to do the job that they are statutorily 
required to do, and if it is humanly possible to not put 
further demands on the defense establishment and the uniformed 
men and women that we need for lots of other tasks.
    Senator Murray. I would completely agree with you that I 
want the correct people in those positions doing them, but we 
do have a concern, and I will come back to you if we return in 
79 days and we do not have them in place.

                             PORT SECURITY

    Let me also follow up on Senator Feinstein's question on 
port security, and as chair of Transportation Appropriations I 
am working with the chairman on dealing with port security. It 
is a very real concern out there. But I also am concerned about 
the burden that we have placed on the Coast Guard today. We 
know that they are not able to fulfill some of their role in 
search and rescue, in fisheries enforcement and drug 
enforcement interdiction that we do require of them, because 
they have had to take on significant responsibility elsewhere, 
and I want to make sure that the Department of Defense, 
especially the Navy, is providing the necessary personnel and 
equipment to adequately provide force protection on our naval 
installations.
    And let me just ask you, is the reliance on the Coast Guard 
a function of mission, or does the Navy need additional assets 
so that they can secure their naval installations?
    Secretary Rumsfeld. So that they can secure what?
    Senator Murray. Naval installations. For example, in Puget 
Sound we have a number of naval installations on the water that 
we have had to have the Coast Guard doing some of the force 
protection there. Do you need additional assets directly to the 
Navy so that they can take back over those functions so we are 
not pulling the Coast Guard away from their other missions?
    Secretary Rumsfeld. When you say take back over those 
functions, it is not clear to me they were Navy functions. The 
Coast Guard's responsibilities are what they are, and the 
threat has gone up, and so I suspect the demands on the Coast 
Guard have gone up because the threat has gone up, not to my 
knowledge because they have assumed any responsibilities for 
the Navy that they ought not to have assumed.
    The relationship between the Navy and the Coast Guard is, 
as you know, very, very close, and it works very, very well. I 
do not doubt for a minute that everybody who has installations 
along a coast, indeed, installations anywhere--we were talking 
earlier about a chemical installation inside of our country, 
far away from oceans, all of which need greater force 
protection.
    Senator Murray. The challenge is that we now have calls on 
our Coast Guard to take care of our ports, to take care of our 
Navy installations, to do a number of other functions that have 
increased dramatically, obviously, since September 11.
    Secretary Rumsfeld. Sure.
    Senator Murray. And they are now not doing the safety 
inspections, or safety--actually, mission that they have, 
inspections, fisheries enforcement, a number of other things, 
and if the Navy needs additional dollars to secure their naval 
installations, I think we need to know where the functions are.
    You are saying to me it is not the Navy that is responsible 
for providing naval protection on our installations on the 
water.
    Secretary Rumsfeld. I hope I did not try to answer 
definitively. I said, to the best of my knowledge, no roles or 
missions have been altered. That is to say, the Coast Guard is 
continuing to do what it is charged to do, but that the threat 
level being up, there is more of it being asked of them. The 
same thing is true of the Department of Defense. I mean, the 
Navy is being asked to do lots of things they had not 
previously been asked to do all over the world, and so it is 
more a question of where the Government decides they want to 
increase capabilities, and maybe it is in both.
    Senator Murray. I totally understand that, but if it is a 
matter of, we need additional dollars to secure these 
installations, we cannot have different institutions saying it 
is their problem, or it is their problem. We need to know what 
the costs are so that we can provide them.
    Secretary Rumsfeld. Sure. That is fair enough.
    Chairman Byrd. Thank you, Senator Murray. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. Mr. 
Secretary, I apologize for being late. I had a responsibility 
on the floor or I would have been here earlier, and I do not 
want to keep the committee very long with questions, so I would 
like to, Mr. Chairman to submit for Senator Nunn two questions, 
if he can answer them for us within whatever time you set.
    I would just observe that one of the most difficult 
problems that I think the appropriators are going to end up 
having is distinguishing what functions are homeland defense, 
and what functions are defense, and as I understand it, the OMB 
and the Defense Department have worked that out in terms of, if 
OMB says something is homeland in their requests of us, then it 
gets attributed to the homeland part of the budget. Is that 
correct?

                 WHAT TO ATTRIBUTE TO HOMELAND DEFENSE

    Secretary Rumsfeld. I think that the changes in our 
activities is leading to the issues you are mentioning. That is 
to say, how do you want to allocate a certain expenditure, and 
there is no question but that OMB gets involved in that, as 
does the Congress and this committee.
    Senator Domenici. Well, Mr. Secretary, it is already being 
done, and I am just trying to ask, as they do it, who is in 
charge, the national security community, or the defense 
community in several activities, the Office of Management and 
Budget has defined as homeland defense security in the 2003 
budget, and OMB and the national security community requested 
$7.8 billion for homeland security out of a total of $37 
billion.
    What I am trying to find out is, when we put our bills 
together, how do we know the distinction between that which is 
defense and that which is homeland security is what we would 
think? I do not think that should only be a decision of OMB, or 
you. I think we ought to be able to look at it, and how can we 
do that? Is there some designation? Does Dov have that? Who 
would have that information?
    Dr. Zakheim. Senator, OMB has looked at our budget and has 
essentially identified certain elements of that budget as being 
homeland security. Now, we have a group of programs, whether 
they are antiterrorism or counterterrorism, or consequence 
management, or intelligence, that we have budgeted for, and we 
work with OMB on those programs.
    Having put that together, Senator, OMB in effect stars them 
and says, ``these are homeland security programs.'' This year 
the number, as you well know, was $7.9 billion, but 
fundamentally we put our budget together, the Secretary 
approves it, we coordinate with OMB.
    Senator Domenici. So you all are going to end up being 
happy if we appropriate money for defense and it is a certain 
amount, and we appropriate an amount for homeland defense, and 
it has some of your money in it? You are going to be satisfied 
with OMB's designation which will continue on as homeland and 
which will be defense in subsequent appropriation bills?
    Dr. Zakheim. Senator, if you appropriate the funds we ask 
for, then we are certainly going to be happy. In terms of the 
specifics you just mentioned, again, if there is a given 
program, and that was in our budget and the Secretary and the 
President have sent it on up, and OMB then labels that as 
homeland security, in practice it is the same program. 
Therefore in effect you are killing two birds with one stone.
    Senator Domenici. Well, I had a couple of research and 
development questions that I will submit to the Secretary and 
we can do that in due course. Thank you.
    Chairman Byrd. Thank you, Senator Domenici. The questions 
are very pertinent. It would have been very helpful to this 
committee if Director Tom Ridge had appeared before the 
committee and helped to resolve some of the good questions you 
have asked.
    Senator Hollings.
    Senator Domenici. Mr. Chairman, what I am concerned about 
is, we have to get to a point where we say, this is a defense 
budget, this is a nondefense budget.
    Chairman Byrd. Yes, absolutely.
    Senator Domenici. We are making that designation based on 
the OMB Director putting stars along certain ones and saying 
that is and that is not, and then 2 years from now will it 
still be that way, defense and nondefense? I do not know.
    Chairman Byrd. Senator Hollings.
    Senator Hollings. Thank you very much, Mr. Chairman.
    Mr. Secretary, it was last September 10 when you made an 
appearance and gave a rundown of the reorganization of the 
Department of Defense, and I commented at the time that that 
was perhaps the best presentation by a Secretary of Defense in 
my 35 years.
    Hearkening back, I want to talk about money. I remember you 
said, now, wait a minute, what we are doing is, we are taking 
and going from the old line defense into high tech defense. We 
are going to take the legacy savings and apply it to the new 
defense, but we caution you, you were saying we caution the 
Congress to realize that we still, next year, which is now, 
will need $33 billion more, even though you were reallocating 
from the old to the new, and that was coming at $347 billion, 
and now the appropriation for this subcommittee to look at in 
defense is $396 billion. It is increased almost $100 billion in 
the last 2 years. We have had a $17 billion supplemental 
emergency last year, $14 billion this year.
    Dr. Zakheim, do not worry about the exact figures. I am 
just talking about a lot of money, and I want to help the 
Secretary. I am going to support him. I support getting rid of 
that Crusader. You can put the V-22 on that list, too, because 
we have got to save some. I know Senator Stevens will have a 
heart attack, but don't worry about it.

                            DEFICIT CONCERNS

    But Mr. Secretary, we are going to have a budget here, and 
Senator Domenici, myself, and all others are going to be trying 
to take care and get a budget before Memorial Day. I think it 
is wrong, wrong, wrong to say that we have got a war now and 
therefore we are going to run a deficit, and incidentally, the 
war is never going to end.
    I am ready and have been talking around proposing a 2-
percent value-added tax allocated to taking care of this 
terrorism war, at least part of the expenses moving along. I 
want to help you with all of these billions more that I think 
and you think are absolutely necessary. But, we are already 
$162 billion in the red this fiscal year, even with all of the 
revenues from April 15, and it is going up. I am willing to bet 
anybody in the room it will be at least $350 billion by 
September 30.
    Now, we have got to mark that down. I say that publicly. We 
have got to pay for these things. Can I get your help while I 
am helping you?
    Secretary Rumsfeld. No, sir. I want your help, but I am 
supporting the President's budget.
    Senator Hollings. Yes, but you are about the only 
uncontrolled Cabinet member I know.
    And that is why I asked you the question. I mean, heavens 
above, we cannot get through to the rest of them, but you know, 
Cheney used to work for you, the President is still working for 
Cheney. We have got to get somebody responsible over there.
    We have got to have sacrifices. You see, all of this is 
about seaport security, and we passed a seaport security bill 
before Christmas. It languishes in the House. We have ground 
our horse. We are not doing anything. We are talking about 
cloning, we are talking about estate tax cuts, we are talking 
about $4 trillion permanent tax cuts, and anything else it is 
just up, up, and away. Nobody wants to talk sense, and yet we 
are supposed to give an honest budget here in the next 2 or 3 
weeks, and you are the only fellow over there that I know I can 
rely on.
    Secretary Rumsfeld. Senator, we have got a good team down 
there, the President and the Vice President, and they have 
spent a lot of time focusing on the overall budget, and come to 
the conclusion that our defense budget is, I guess, what is it, 
2.9 percent of the gross national product, maybe a little more, 
3 percent? It is a big amount of money, and yet as a fraction 
of our national----
    Senator Hollings. Oh, I am not saying it is too much. I am 
supporting it, and supporting the President.
    I see they are going to cut my time here. With respect to 
the Philippines as was mentioned here, and heaven knows, 
military exchanges and joint training, let us move along, too, 
with the People's Republic of China. I visited there four times 
now since 1976, and they are making a miraculous drive towards 
a heck of a lot of capitalism. I can tell you that, and I found 
over the years up there that the best calling card we have is 
the military friends that we have made through those exchanges 
and everything else. So anything you can do to stop cussing and 
talking about communism--I will get right to the point. Way 
back, I had to control crowds for all of marryings, buryings, 
lay-ins, sit-ins and everything else, and it took up 50 percent 
of my time as Governor.
    If I had to run the country of China and they started these 
demonstrations around, and if you ever let one get out of hand 
and you have got 1.3 million, then you have lost the 
Government, and you have lost control. So unfortunately it has 
got to be traumatic in some cases. We all regret Tiananmen 
Square, but I have got an understanding of trying to control 
different ideas where the law says one thing and yet the demand 
is otherwise, and those kind of things. So I think we ought to 
move forward, and you are the best one to move forward with us 
in trying to develop an influence there. We are not developing 
an influence the way we are going after it now.

                              CHINA ISSUES

    Secretary Rumsfeld. Senator, I met with the vice president, 
Mr. Hu, and we discussed this issue of military-to-military 
relationships, and of course it was interrupted by the EP-3 
disaster, where this incident--they call it an incident. 
Incident is a little too small a word for me, but it was a 
terribly dangerous situation, and the relationships were 
interrupted there, and we had a good discussion about it, and I 
expect that we will begin to reinitiate some military-to-
military relationships.
    I, too, think they can be important. I think that they can 
be particularly important in a multinational environment where 
people in the region can see the United States involved in 
military-to-military contact with the countries in that region, 
so I suspect that, oh, sometime in the months ahead we will see 
some movement in that area.
    Senator Hollings. Thank you, Mr. Chairman.
    Secretary Rumsfeld. Thank you.
    Chairman Byrd. Thank you, Senator Hollings.
    Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman. Welcome, 
Mr. Secretary. I will forego the normal comments and get right 
down to the point. As you said, the National Guard has gotten a 
lot of exercise, and correctly, we are very proud of the role 
they played.
    As co-chairman of the National Guard Caucus, I would agree 
with you that the Guard has a very important role in its 
worldwide mission as well as homeland defense, and homeland 
defense, as a former Governor I can tell you they are the eyes 
and the ears. They have done a tremendous job, and I think they 
ought to be a fully and vibrant coordinated player in homeland 
security, and I am a little concerned in your response to 
Senator Cochran's question about the role of the National Guard 
and Reserve, and I am concerned that in the homeland security, 
in the Northern Command they may not have the role that they 
should.

                    NATIONAL GUARD ROLE IN NORTHCOM

    I introduced a bill, and I had written to you to urge 
consideration of making a National Guard officer as the Deputy 
Commander of the Northern Command. I think that having the 
Guard more fully involved, and we know the tradition in the 
Pentagon has been to keep the Guard at a rather low level, but 
when it comes to homeland defense and the Northern Command, 
these are men and women who live in almost every community in 
America. They are undoubtedly not only the most readily 
available, but also the eyes and ears for national defense, so 
I would urge you to give a careful consideration to that role 
for the Guard.
    Secretary Rumsfeld. Well, thank you, Senator. I am aware of 
that proposal, and it is certainly something that the new 
commander ought to think about. I have not developed a 
conviction on the subject, to be perfectly honest. I think of 
the National Guard as a national asset. In that sense I think 
of it as an asset to be used anywhere in the world where it is 
needed, for the kinds of functions that are appropriate to it, 
and certainly one of those is homeland security.
    I do not think of homeland security as the sole 
responsibility of the Guard, and I think that it would--we are 
not organized and arranged for that to be the case. Clearly, we 
need to recognize the connection between the northern command 
and the Guard, and I am sure we will do that in one way or 
another.
    Senator Bond. I thank you, and I agree with you, and 
several of us will work to try to help convince you of the 
importance of that.

                             CBRN TRAINING

    A couple of questions I will ask you, perhaps, Dr. Zakheim. 
On chemical, biological, radiological, and nuclear CBRN 
training, that is a critical part of homeland defense. We are 
very proud of the U.S. Army Chemical School located in Fort 
Leonard Wood, and they are training all elements. Their first 
class Coast Guard personnel went on to perform admirably at the 
Olympic Games, but as I understand it, the chemical school is 
only resource-staffed to provide traditional training to 
soldiers' programmed for assignment to the field Army. Their 
CBRN training is resource-intensive.
    Given the current needs for training on a much wider scale, 
can you give a more detailed look at the budgetary requirements 
and the resources necessary for that training?
    Dr. Zakheim. Senator, as you know, we have put quite a bit 
of money in for the chem-bio defense program generally. I will 
give you an answer for the record on your specific question.
    [The information follows:]

    The United States Chemical School currently spends 
approximately $7.2 million on Chemical, Biological, 
Radiological and Nuclear (CBRN) training. This amount covers 
expenses for civilian payroll (52 percent), recurring contracts 
and wastewater treatment (29 percent), consumable supplies and 
equipment (18 percent), and travel (2 percent).
    The scope of the training provided by the Chemical School 
has been expanded to conduct CBRN training to all Army 
installations. This includes developing training and support 
for Mobile Training Teats and developing and conducting over 14 
different CBRN courses. This expanded training will require an 
additional $4.6 million annually to hire additional 
instructors, increase contractual support and purchase 
additional supplies and equipment. In addition to the increased 
annual recurring requirement, the Chemical School requires and 
additional $4.6 million as a one-time increase in fiscal year 
2003 for initial start up equipment, doctrine/training 
developments and Mobile Training Team travel and support.

                        WMD CIVIL SUPPORT TEAMS

    Senator Bond. We will look forward to working with you. I 
just wanted to call this one to your attention.
    The second question, the GAO report of September 2001 said 
that there was specialized National Guard teams, the weapons of 
mass destruction civil support teams are supposed to assist 
States and local authorities in responding to a terrorist 
incident, but the GAO found numerous problems with readiness 
and deployability, and the DOD Inspector General said the 
Army's process for certification lacks rigor, the program 
schedule has slipped, there are no plans to arrange for 
dedicated aircraft to get the teams in position.
    Could you tell me what response the Department of Defense 
has made to the GAO report and whether our troops are being 
adequately equipped to respond to CBRN attacks here at home and 
abroad?
    Dr. Zakheim. As you know, we have now gone up from 27 to 32 
of these teams, and there are about 22 people each, as I 
recall. They are supposed to be responsive within 6 to 8 hours, 
although we heard earlier some problems took place in New York.
    My understanding is that we have, in fact, addressed many 
of those GAO concerns, and again I will give you an answer for 
the record on that, sir.
    Senator Bond. Thank you very much. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator. Senator Inouye, you had 
another question.
    Senator Inouye. Yes. Before I do, if I may just comment, 
several questions were asked on the port security matter. It is 
true that there are about 400 visitations on average per day in 
our harbors, but I do not want to leave the impression here 
that only 2 percent of the containers on these ships are being 
inspected, because we do have memorandums of understanding and 
agreement with many other countries, most of them, and most of 
these countries do monitor and inspect these vessels, and these 
containers, and as a result, many of the inspections that we 
make in the 2 percent are done out on the high seas because of 
our fear that if you bring it in to inspect it, it may just 
explode.
    Our Coast Guard is inspecting containers out on the high 
seas. That is how we find smugglers coming in. That is how we 
find drug dealers, so our containers are inspected and they are 
monitored. Not all of them. It is not perfect. It is just like 
the airlines.
    Secretary Rumsfeld. Thank you.

                 ATTACK BY WEAPONS OF MASS DESTRUCTION

    Senator Inouye. I had just one question. Because of the 
importance of the person who had made the statement during this 
weekend, Mr. Warren Buffet said it is not whether it is going 
to happen. It will happen, he said, and this country will be 
hit by a nuclear attack. Now, is he privy to classified 
information?
    Secretary Rumsfeld. Senator, not to my knowledge. I know of 
no particular information he would have.
    I think, if you would like me just to comment on the 
subject broadly, the reality is that weapons of mass 
destruction, chemical, biological, nuclear, radiation weapons 
have been around a long time, and the longer things are around, 
the more information is available and the more the technologies 
are available, and the more people with the technical 
competence to make them and deliver them are around to assist 
people who may want them.
    We know there are six or seven terrorist states that exist. 
We know that they have active weapons of mass destruction 
programs. We know they test them. We know they weaponize these 
things. We know they trade among themselves, and one's 
comparative advantage is given to another in exchange for their 
comparative advantage, and the reality is, we are arriving at 
time in our world's history where more of these things are 
available than have been previously, and more of them are in 
the hands of people who are perfectly willing to use them 
against their neighbors, and more of them are in the hands of 
people who have a relationship with terrorist networks.
    Now, what that means and when it might mean it is something 
that is not knowable. What it does mean is that the task we are 
embarked on to try to put pressure on these terrorist states 
and terrorist organizations is terribly important, because our 
margin for error is much more modest today.
    Each of those countries has fewer years before they achieve 
those, and it seems to me that we have an obligation to 
ourselves to do everything humanly possible to try to prevent 
that from happening. If September 11 involved the death of 
thousands of people, the use of weapons of mass destruction 
could involve the deaths of tens of thousands, or hundreds of 
thousands of people.
    To put a different cast on the question, however, I think 
it is useful from time to time to reflect on the fact that 
nuclear weapons have been around since 1945, and they have not 
been fired in anger since the end of World War II. That is an 
amazing accomplishment. I do not know when in history there has 
been a situation where a weapon, a major weapon of that kind of 
power, or any major power has existed that long and not been 
used in anger.
    So we have got a pretty darned good record, and I would 
like to see us extend it a good long time in the future, but I 
do not think we will extend it by hoping. I think we need to be 
very willing to go out and do what we can to see that those 
weapons do not fall into the wrong hands.
    Senator Inouye. Thank you very much.
    Chairman Byrd. Thank you, Senator Inouye. Senator Stevens, 
you had another question.
    Senator Stevens. Well, I really had a comment more than a 
question, Mr. Chairman. We have been reading a lot about these 
tankers that we have tried to deal with in the appropriations 
bill at the end of last year, the bill that was signed in 
January. I still have feelings as a former transport pilot of 
people who have to fly airplanes that were made before they 
were born, some of them made before their fathers were born, 
and how long they are going to last.
    Somehow or other people seem to be getting the idea this is 
pork. It was my idea. We do not produce those airplanes in my 
State. We have no interest at all in the manufacturing process. 
What we are interested in is the safety of the people who fly 
them, and a lot of them are stationed in my State.
    Now, I do think that this is being dragged on a long time, 
and it seems to me that as every day goes by there are more and 
more of those world-weary tankers going out every night 
refueling people, and one of these days one of those tankers is 
going to have to abort, and about a whole flight is going to 
not get home. People do not seem to be thinking about the 
military people who are flying that old equipment. I do not 
know of anything--anything--even the Navy ships are not 44 
years old. These tankers are 40-plus years old, and I would 
hope that somehow or other the Department would get beyond 
criticism and be part of the solution rather than part of the 
problem, Mr. Secretary.
    I do not need an answer. I just want you to know I am very 
disturbed when I read these magazines that are coming out 
accusing--my God, they have got--one of them written this last 
week says it is because I slipped three items into the budget 
at midnight for one of the Senators that he did not object to 
it any more. Specious, specious speculation, no connection at 
all, but I do think about the guys who are flying those 
airplanes, not just the tankers.
    The guys who are flying the other planes that have to be 
refueled two and three times a night, and I really have serious 
worry about them at night, when I start thinking about those 
kids over there, and we saw them, you know. They are barely 
older than we were when we were in World War II, and we were 
flying planes that were made 10 or 12 years before, but 40 plus 
years before they were--God, I cannot understand opposition to 
replacing those planes.
    135E should not be in inventory 1 year from now, we all 
know that, and if they are not there we have lost one-third of 
our tanker fleet, and the whole concept of a deployable force 
comes down if those tankers are not there.
    I hope you will help us get some solution. I do not know 
what. If the solution we came up with is not right, we need a 
solution. Those boys should not--and they are not all boys now. 
There are men and women flying those airplanes. They need to 
know that we are thinking about them and are going to give them 
better equipment in the future.

                        BETTER TANKER EQUIPMENT

    Secretary Rumsfeld. Senator, I was in a transport company 
out of Afghanistan en route north to Moscow last week, and it 
was about 1:00 in the morning, 12:00, 1:00 in the morning, and 
they did an in-flight refueling, and I agree with you, those 
folks do a superb job, and there is no question but that this 
is an issue that needs to be addressed.
    Dov, do you want to comment?
    Chairman Byrd. Could we move along quickly? We have another 
witness. Senator Nunn is being kept waiting.
    Senator Stevens. Thank you Mr. Chairman. I am sorry to take 
the time.
    Senator Inouye. I want to associate myself with his 
remarks.
    Chairman Byrd. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman. I congratulate 
you, Mr. Chairman and Senator Stevens and Senator Inouye for 
conducting these hearings, especially this one, and I thank 
you, Mr. Secretary, for the job you are doing----
    Secretary Rumsfeld. Thank you, Senator.
    Senator Specter [continuing]. Traveling the world.
    I want to ask a question relating to homeland security, for 
which, as Secretary of the Department of Defense, you have a 
lot of responsibility, perhaps the primary responsibility. We 
have a Director of Homeland Security, and from our 
conversations before, I know you are reluctant to get into 
territory that is outside of your specific realm, but I think 
that there is sufficient overlap with the Department of Defense 
that your view would be valuable, as we are struggling with 
what to do on this subject.
    Senator Lieberman and I have introduced a bill which would 
create a Cabinet position, and I have concern that Governor 
Ridge, who I think is doing an excellent job to date, given the 
limited power he has, runs into some very, very difficult turf 
battles.

                   CONSULTATIONS WITH GOVERNOR RIDGE

    The air patrols were withdrawn over New York, according to 
media reports--and I take them with a grain of salt. I identify 
them as only media reports--that he was not consulted, and that 
an Assistant Secretary of Defense, or a DOD official who was 
unnamed, not an uncommon reference to officials all over this 
town who are unnamed, said that Governor Ridge is not 
consulted, he is told, in effect.
    Secretary Rumsfeld. Could I stop you there and respond to 
that piece of it?
    Senator Specter. Sure.
    Secretary Rumsfeld. It would be helpful, I think.
    The individual who was so quoted was in my view quoted out 
of context. I have discussed it with him, and it is true, there 
are instances where Governor Ridge is intimately involved and 
has the responsibility for coordinating things. There are also 
aspects of things where in fact he is not the coordinator, the 
National Security Council is the coordinator, and you are quite 
right, each of these things, as we move to a new era, new 
security environment, need to be sorted through well, and the 
individual did not mean anything other than the fact that in 
some instances the coordinator is the National Security 
Council, and in some instances the coordinator is the Homeland 
Security Council, so I would really love to put that to rest, 
if I could.
    Senator Specter. Okay. I am glad to have your comment, Mr. 
Secretary, but I hardly think it puts it to rest, because they 
are overlapping responsibilities, and I am not picking at that, 
but there is a pattern here. When there was a terrorist threat 
against the banks, the Attorney General went before the cameras 
and took charge, really preempting Governor Ridge. When there 
was a classified briefing about a so-called dirty bomb, or at 
least these are according to news reports, again, Tom Ridge was 
out of the loop.
    Now, Governor Ridge has said that he does not need any more 
authority, because he can walk down the hall and get the 
President to arbitrate all of these disputes, but it is a long 
way down the hall sometimes, and my thinking--and I am 
interested in your view, obviously--is that you need to 
institutionalize the Department.
    The Department of Defense was created by an act of 
Congress, not an advisor, an act of Congress, as were all the 
other Departments, and the next man in charge of homeland 
security may not have the close personal relationship with the 
President which Governor Ridge and President Bush enjoy, and I 
do not have to tell you, Mr. Secretary, about the seriousness 
of what we are doing here.
    When I think back about when President Reagan was shot, and 
Vice President Bush was flying back home, and Alexander Haig 
appeared and made the famous statement, I am in charge here, 
does there not have to be somebody beside the President who is 
in command? Can the National Security Council have part of the 
responsibility, a la the air patrols over New York, and 
Governor Ridge have some other responsibility? Should there not 
be one person who has total control of all facets of homeland 
security?

                 RESPONSIBILITIES FOR HOMELAND SECURITY

    Secretary Rumsfeld. Let me address that in three pieces. 
First, I briefed the National Security Council and I believe 
the Homeland Security Council combined, with Governor Ridge 
present, on the subject of the combat air patrols over the 
United States. General Myers and I briefed. It was in the 
situation room. We explained what we had been doing, what the 
alternative possibilities might be, they were discussed, and 
Governor Ridge was in my view not out of the loop on that. Now, 
that is my recollection.
    Second, with respect to the broader question, I do not know 
the answer, except that I have never seen anything where one 
person is totally in charge. Our Government is so big and so 
complex that when the Attorney General gets up and talks about 
some person that we have captured in Afghanistan in the 
Department of Defense, and they are prosecuting them or 
deciding to prosecute or indict them, that does not surprise or 
bother me at all.
    When the Department of State gets up and talks about 
something that is in that blurred area between Defense and 
State, which happens every single day--there are things where 
we are constantly connected. The Central Intelligence Agency 
and the Department of Defense, we are constantly into each 
other's areas, and there is not one of us that is in charge in 
any one of those instances, nor do I think it is even 
conceivable that you are going to end up with one single person 
in charge of homeland security.
    Let me give you an example. Let us go to those combat air 
patrols. The Department of Defense has as its responsibility 
the defense of our country, and if you took for example, NORAD 
and combat air patrols and took them away from the Department 
of Defense and put one person in charge of everything involving 
homeland security, you would then have kind of bifurcated 
responsibilities over assets which need to be allocated across 
the world depending upon what is the single most important 
thing that needs to be done then to provide for our country's 
national security, and therefore it is not clear to me that it 
is ever going to be possible to get perfect clarity and 
responsibility of a single individual over really any aspect, 
because our responsibilities do run up and touch very close to 
each other, but it is not for me to say, and I do not really 
have a well-developed opinion on it. I just think it is hard to 
achieve the goal that you have set.
    Chairman Byrd. Senator Specter, you had another question?

                  CONGRESSIONAL ACCESS TO INFORMATION

    Senator Specter. I do have one more question.
    Mr. Secretary, I am concerned about access by the Congress 
to key information, and I took this up with Secretary Thompson 
at some length. It was my Subcommittee on Bioterrorism matters, 
where we had made a request to the Centers for Disease Control 
and Prevention, and CDC sent it on to HHS, Health and Human 
Services, and they sent it on to OMB. We could never get the 
answer, and I know there is a considerable controversy now 
about the chain of command in the Department of Defense and the 
weapons systems. I am not going to get into the details, and I 
may have a parochial interest which I am not pursuing at the 
moment as to Pennsylvania's interest, but it seems to me that 
even where subordinates to the Secretary of Defense have 
information which is critical to a congressional decision, that 
Congress ought to have access to it.
    If the Secretary and the President disagree with the 
Congress about a weapons system, Congress has the authority 
under the Constitution to legislate and make a direction. The 
President can veto it, and then we have the constitutional 
authority to override the veto, so my question to you is, 
should we not have access to information, even if it is from 
the Secretary of the Army, who has disagreed with the Secretary 
of Defense, so that Congress could make the ultimate decision 
on the question?
    Secretary Rumsfeld. I have no idea what you are referring 
to, Senator Specter. You say there is a discussion or a debate 
going on in the Pentagon on this issue?
    Senator Specter. Well, there is a dispute as to a major 
weapons system where you were quoted as saying that you have a 
minimal amount of regard.
    Secretary Rumsfeld. Oh, you are talking about the Crusader 
issue.
    Senator Specter. Yes.
    Secretary Rumsfeld. I thought you were talking about 
bioterrorism.
    Senator Specter. I started there.
    Secretary Rumsfeld. It is late in the day, and you lost me.
    Senator Specter. I started there, Mr. Secretary, because 
that was one that I had an intimate familiarity with and a 
detailed responsibility. I could not find out, and when I talk 
about the weapons system, it is an analogy. I may come back to 
you. We have some defense contractors in Pennsylvania, but I am 
not on that point now. I am on the point of having Congress 
having access to all the information so we can make a decision 
on the Crusader weapons system, for example.
    Secretary Rumsfeld. Well, there is no question but that 
Congress can get briefed on weapons systems. We do all the 
time. The Secretaries of all the services are up here 
frequently. The staffs are briefed, and there is just mountains 
of information available on these weapons systems.
    Senator Specter. Even after the Secretary of Defense has 
made a decision.
    Secretary Rumsfeld. Well, at some point a decision has to 
be made.
    Senator Specter. By the Secretary of Defense.
    Secretary Rumsfeld. Yes.
    Senator Specter. But then the Congress has to make a 
decision.
    Secretary Rumsfeld. You bet. That is the way it works.
    Senator Specter. Okay.
    Secretary Rumsfeld. Absolutely.
    Senator Specter. Thank you, Mr. Secretary.
    Secretary Rumsfeld. Yes, sir.
    Senator Specter. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator Specter. Mr. Secretary, 
do not close your books yet. You have been very generous with 
your time, and we had very good attention by our full committee 
here. That is why you are being kept longer than we had 
expected to ask you to be here.
    I want to go back to my original question. I am not 
satisfied at all with the answers that I got with respect to 
the $14 billion you are requesting for the Defense Department 
in the supplemental appropriations bill, of which more than $11 
billion is earmarked for a central account called the defense 
emergency response fund for loosely defined purposes to support 
the global war on terrorism.
    Congress has provided the Defense Department $17.4 billion 
to date to support this war on terrorism, and as I repeat what 
I said earlier, the Department has informed us it will run out 
of money to prosecute the war by the end of May, but I have 
been informed that the Department is not yet able to inform the 
Congress how much of the $17.4 billion has been expended, or 
how it has been expended.
    Now, I have to tell you that if we do not get some answers, 
Dr. Zakheim, on this question, I cannot be fully supportive of 
this request. Of the $40 billion that the Congress made 
available to the administration to support the war on terror, 
homeland defense and the recovery efforts for New York, 
Pennsylvania, and Virginia, the other half, $17.4 billion was 
for the Defense Department. I am informed that the DOD 
Comptroller, Dr. Zakheim, has informed the committee that they 
are not yet able to identify how they have spent the funding.
    Now, when I first came to Congress, John Taber of New York, 
a Republican, was chairman of the Appropriations Committee in 
the House. John Taber would not have been satisfied with the 
answer, and I believe that the last year I was in the House, 
Styles Bridges, a Republican, was chairman of the 
Appropriations Committee in the Senate, and I was in the House. 
Carl Vinson, who I believe was the great uncle, perhaps, of our 
next witness, former Senator Sam Nunn, was chairman of the 
Armed Services Committee in the House. He would not have been 
satisfied with this answer, and I am not satisfied with it.

            INFORMATION ON HOW $17.4 BILLION IS BEING SPENT

    Now, you indicated that you would provide the committee 
with your analysis of how the $17.4 billion approved by 
Congress last fall is being spent, yet as recently as last 
week, I am told that Dr. Zakheim told Senator Inouye that 
information on how the funds are being spent is not available. 
I want to stress that it is very important--it is very 
important for the committee to have this information this week.
    Now, we will not take no for an answer. We want the 
information as we prepare to mark up the supplemental. I want 
to be supportive. I want to help the Defense Department, but I 
also have a responsibility to the taxpayers and to the Senate, 
and to the other members of the committee. We want this 
information. If you have it, let us have it, otherwise you are 
not going to get the support from this chairman for what you 
are asking for. I am just not made that way.
    I came here 50 years ago, and I am a little bit of the old 
school, so we just cannot slide by on these answers. I say this 
in a good spirit. I am not mean-spirited, but we have a 
responsibility to our people who send us here, and we have a 
responsibility to ask these questions, and we expect to get the 
answers if they are available at all.
    Mr. Zakheim. Mr. Chairman, I certainly appreciate your 
concern. To the best of my knowledge, the answers were sent up 
yesterday. These are the answers I believe Senator Inouye 
referred to. It is difficult for me to have discussed anything 
with Senator Inouye last week, since I was not in the country 
last week. I have given you my word before, Senator, and I 
believe you know that I have kept it. You will get what you 
need this week, and I will double-check to make sure that what 
I was told--it went up yesterday. I was told it went up 
yesterday. I will double-check again today. We will get you the 
final answer, and if you or your staff feel as the week moves 
on that you still do not have what you need, please let me know 
and I will respond immediately.
    Chairman Byrd. Thank you. We will do that.
    Mr. Secretary, thank you. You are a very busy man, and we 
have a great deal of confidence in you. We apologize for 
keeping you as late as you have been here, but we do thank you.
    Secretary Rumsfeld. Thank you so much, Mr. Chairman.
    Chairman Byrd. This committee will stand in recess for 3 
minutes. Senator Nunn will then appear before the committee. 
Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Chairman Robert C. Byrd
                          policy toward china
    Question. On our policy toward China, as you know, there is a 
growing contradiction between the huge amount of economic resources and 
technology the Chinese are acquiring from the United States, both 
legally and illegally, and the growing security issues arising over 
their military build-up off of Taiwan and their proliferation of 
weapons of mass destruction and delivery systems to so-called ``rogue'' 
states or the axis of evil.
    How does the Department cost out the resources necessary to combat 
these military trends? Do we know what the proliferation practices are 
costing us in the way of systems which will defend against these 
threats in the next decade?
    Answer. There is no doubt that the proliferation of weapons of mass 
destruction and their delivery systems is expanding the number and 
types of scenarios with which we must be prepared to deal, requiring 
ever-more capable and flexible U.S. military forces.
    While the Department of Defense does not develop its budget or 
capabilities to deal with a specific adversary, it does develop forces 
capable of countering and defeating the means any adversary might 
employ against us.
    Recognizing that the nature and scale of the capabilities that 
potential adversaries might use to threaten U.S. interests are both 
changing and proliferating, the Department has mounted an aggressive 
transformation effort to exploit new operational concepts, 
capabilities, organizational arrangements and technological 
opportunities to address key emerging operational challenges. Secretary 
of Defense Rumsfeld laid out six critical operational goals in the 
Quadrennial Defense Review that the Department's transformation efforts 
must focus on meeting. Two of these--(1) protecting critical bases of 
operations and defeating weapons of mass destruction and (2) projecting 
power in anti-access environments--were formulated precisely with the 
sort of worrisome proliferation trends noted in the question.
    Question. Secondly, the Chinese leader Mr. Hu Jin Tai visited with 
you, and seemed to emphasize a policy of renewing a high level 
``strategic dialogue'' with us. What is your assessment of Chinese 
motives here; what would be the nature of such a dialogue, and of 
military exchanges with the Chinese?
    Answer. The motivation of Chinese leaders is their belief that 
stable military relations, in addition to political and economic 
relations, are an integral component of the overall bilateral 
relationship. As a result, the Chinese leadership strongly supports a 
resumption of the annual United States-China defense talks first held 
in 1997. The talks were last held in December 2000. In the aftermath of 
the April 2001 EP-3 incident, no talks were held in 2001. During my May 
1 meeting with Chinese Vice President Hu, I agreed to send Assistant 
Secretary of Defense for International Security Affairs, Peter Rodman, 
to Beijing this spring to discuss the possibility of resuming these 
talks. I believe that any United States-China military exchanges must 
be based on the principles of reciprocity, transparency and 
consistency. In addition, they must directly benefit the United States 
and strictly adhere to congressional restrictions.
    Question. There seems to be a debate in the Administration over the 
assessment of the Chinese threat or challenge to the United States. 
Would you favor the funding of so-called alternate assessment teams to 
give you and other officials the full range of thinking and options on 
the Chinese?
    Answer. It is important for policymakers to have alternative 
analyses of important issues. Competitive analyses can help to develop 
such alternative views.
       unmanned air vehicles vs. u-2 upgrades, or an unmanned u-2
    Question. Your budget has proposed new resources for unmanned 
aerial vehicles, or UAV's, but my understanding is that they are not 
ready to be fielded yet, and have a number of development problems. Are 
we going to maintain our U-2 fleet, and do you think we need to reopen 
the U-2 line to keep this asset in the ready inventory while we develop 
the UAV's over the next decade?
    Answer. The resources in the President's fiscal year 2003 Defense 
budget fully fund acceleration of the Predator, Global Hawk, and X-45 
unmanned combat aerial vehicles (UCAVs). Predator is a fielded system 
which has been deployed almost continuously since 1996. Global Hawk is 
currently supporting operations in Operation ENDURING FREEDOM and 
winning great acclaim from the supported Commander in Chief as a source 
of highly persistent battlefield intelligence. Clearly Global Hawk is 
not yet ready to be declared operational--as there are only a few 
vehicles and they are all in the Advanced Concept Technology 
Demonstration configuration--but they are funded and programmed to 
achieve maturity with the Spiral 2 configuration within the time frame 
of this budget. UCAV, an even more autonomous vehicle, is the 
Department's lead effort to achieve Senator Warner's goal of one-third 
of our strike aircraft being unmanned by 2010.
    The Department does not plan to phase out the U-2 before we have a 
like capability elsewhere in our intelligence, surveillance, and 
reconnaissance collection fleet. Global Hawk will offer a multi-
intelligence capability in its Spiral 2 version, but will not achieve 
parity with U-2 sensors until later spirals. We intend to maintain the 
U-2 fleet and will continue to monitor requirements and development of 
our UAVs leaving reopening the U-2 line as an option. At this time, we 
believe the pace of UAV development and production will provide 
sufficient force structure so we need not produce more U-2s.
    Question. I have suggested that you consider an unmanned U-2. What 
is your reaction to this proposal?
    Answer. The U-2 is performing well as the nation's premier 
collection platform for high altitude imagery and signal intelligence. 
The Global Hawk unmanned aerial vehicle, although still developmental, 
has surpassed our expectations in its support of Operation ENDURING 
FREEDOM. We believe the optimum airborne reconnaissance fleet includes 
the Global Hawk for long endurance missions as well as the U-2 with its 
more capable sensor suites. We continue to upgrade the U-2's airframe 
and sensors to insure the ability to collect against evolving targets 
of interest. We are also working to harmonize sensor development 
between the U-2 and Global Hawk to reduce cost and shorten fielding 
schedules. As with previous opportunities for ``unmanning'' the 
aircraft, we do not believe that modifying the U-2 to an unmanned 
configuration would be prudent; the costs involved are substantial, and 
many of the airplane's systems would require redesign or replacement to 
allow automatic flight control. The U-2 is notoriously difficult to fly 
and land, and the risk of aircraft losses in the attempt to develop an 
unmanned version could cripple the already high-demand U-2 fleet.
                           treaty with russia
    Question. It appears that the President may sign a new arms control 
treaty with Russia before the end of the month.
    Does this treaty create any new programs or legal obligations for 
Russia and the United States to control and secure excess nuclear 
weapons before they are destroyed?
    Answer. No. The United States has pre-existing programs to address 
the control and security of the United States and Russian nuclear 
weapons.
    Question. During the course of negotiations with your Russian 
counterparts, did you raise the issue of accelerating the 
implementation of the Nunn-Lugar programs, which are designed to 
prevent the theft of nuclear warheads by terrorist groups?
    Answer. Yes. The Nunn-Lugar program was specifically mentioned by 
the U.S. side at several points during the course of negotiations with 
Russia over possible transparency measures that might have accompanied 
the treaty.
    Question. What was the reaction of the Russians?
    Answer. We do not detect a great deal of Russian interest in our 
proposals. Department of Defense officials will continue discussions 
with their Russian counterparts on this in the future and will continue 
to explore ways to foster transparency and bolster security at Russian 
facilities.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                            northern command
    Question. I recently read about the creation of Northern Command, 
which will coordinate military forces helping governmental agencies--
civilian, local, and federal--in domestic missions. The command might 
be a good idea, especially if the command truly facilitates 
communication among supporting military units and civilian 
organizations leading up counterterrorist efforts. However, there are 
obviously a lot of restrictions on the military's involvement in 
civilian affairs, and it will be critical to ensure that the command 
doesn't take on responsibilities better handled by other federal 
agencies. Can you please tell me how you addressed some of those issues 
in developing the command? Did you solicit input from other federal 
agencies, such as the Department of Justice?
    Answer. On April 17, 2002, Gen. Myers and I publicly announced our 
intention to create the new Northern Command and other key revisions in 
the 2002 Unified Command Plan (UCP). The President approved the 2002 
UCP on April 30, 2002. The UCP changes will be effective on October 1, 
2002.
    Northern Command will be responsible for defense of the United 
States, including its land, sea, and aerospace approaches, and for 
providing forces to assist civil authorities in accordance with U.S. 
law. The new command will also be charged with responsibility for 
security cooperation and military coordination with Canada and Mexico. 
While the UCP revision process was underway, the Department consulted 
with other federal organization, including the National Security 
Council, the Office of Homeland Security, and the State Department.
    I fully agree with your comment that it is critical that Northern 
Command not take on responsibilities better led by other federal 
agencies. As I stated in my testimony, the Department of Defense does 
not seek to change Posse Cumitatus. The establishment of Northern 
Command is an organizational realignment that will enable the 
Department to continue to conduct its existing missions--defending the 
nation and providing support to civil authorities--but with greater 
organizational effectiveness. It does not change the Department's role 
in homeland defense nor does it add new missions. Additionally, a 
newly-established component within the Office of the Secretary of 
Defense will both provide policy oversight for Northern Command and 
represent the Department at meetings hosted by the staff of the 
Homeland Security Council. This will serve to ensure that the 
activities of the Department of Defense are appropriately coordinated 
with those of other federal agencies such as the Department of Justice 
and the Federal Emergency Management Agency.
                             national guard
    Question. Thousands of National Guard troops were called to duty 
after September 11 under Title 32 of the U.S. Code. Under this status, 
National Guard troops were able to carry out national mission, such as 
increasing security at out airports, the Capitol, and the Olympics. Yet 
they served under the command-and-control of the nation's governors and 
could carry out a full-range of the law enforcement missions. That gave 
maximum flexibility to the Guard and more accountability at the local 
level. In future crises, it seems advisable to exploit the advantages 
of call-ups under this authority, and I would like to know if DOD has 
plans to recommend further activations under this title.
    Answer. The Department of Defense assesses and makes 
recommendations on each activation based on individual merits and 
circumstances. We plan to continue this approach in the case of future 
activations.
                                 ______
                                 
              Question Submitted by Senator Arlen Specter
                           manufacturing work
    Question. I am very concerned about Bechtel, Nevada's performance 
of manufacturing work on behalf of the Department of Energy, displacing 
Pennsylvania private industry manufacturing capabilities and jobs that 
have been in place for 16 years. What is the justification for this 
move?
    Answer. Bechtel, Nevada is not displacing private industry by 
performing manufacturing work. The Department of Energy requested 
proposals (RFPs) from a number of qualified companies to produce a 
different product from the products currently produced by Osram 
Sylvania. Bechtel, Nevada was selected to procure those products after 
a fair competition under the Federal Acquisition Regulations was 
completed. The initial proposal from Osram failed to meet the 
requirements of the RFP, and Osram was invited to resubmit its 
proposal. The contract was subsequently awarded to an Indiana company, 
one of two companies that submitted proposals that were responsive to 
the contract requirements. Osram will continue the work that it has 
performed for the Department of Energy for the last 16 years. The 
relevant information requested by Osram is classified. Osram, a foreign 
owned company, is not approved for access to U.S. classified 
information, and the request was, therefore, denied.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                         dod homeland security
    Question. The National Security Community (the Department of 
Defense and the Intelligence Community) engages in several activities 
that the Office of Management and Budget (OMB) defines as Homeland 
Security in the fiscal year 2003 Budget. According to OMB, the National 
Security Community requested $7.8 billion for Homeland Security 
activities (out of a total Homeland Security request of $37.7 billion). 
This request includes: $4.6 billion for the protection of over 500 
military installations and their associated personnel in the United 
States; $835 million for research and development activities that focus 
on combating terrorism, including $420 million in funding to support 
bioterrorism; $140 million in assistance to state and local law 
enforcement; $777 million in training for civil support and emergency 
response activities, information technology and information security, 
the purchase of chemical and biological protective equipment, and 
domestic continuity of operations activities; and $1.3 billion in 
funding for Combat Air Patrols (CAP) that increase homeland air space 
security (This activity was shifted from a short-term response activity 
in fiscal year 2002 to a more permanent homeland defense deterrence 
activity in fiscal year 2003).
    For similar homeland security activities, OMB estimates that the 
National Security Community was appropriated $4.6 billion in fiscal 
year 2001 and $5.7 billion in fiscal year 2002. Of those amounts, $580 
million was appropriated in fiscal year 2001 in Public Law 107-38 (the 
Emergency Supplemental Appropriations Act for Recovery from and 
Response to Terrorist Attacks on the United States) and $981 million 
was appropriated in fiscal year 2002 in Public Law 107-117 (the 
Department of Defense and Emergency Supplemental Appropriations Act).
    As Secretary of the Department of Defense, do you agree with OMB's 
definition of the Homeland Security activities within your purview?
    Answer. The Department of Defense is in the process of developing 
definitions of Homeland Security and Homeland Defense to be used for 
budgeting and organizational purposes. Until these definitions have 
been finalized, it is premature to say whether they are consistent with 
those presently used by OMB.
    Question. How much of the $14 billion in the President's fiscal 
year 2002 supplemental request for the Defense Department (out of a 
total supplemental request of $27.1 billion) will be used for Homeland 
Security activities, as defined by OMB?
    Answer. The OMB definition of Homeland Security activities included 
the Combat Air Patrols (CAP). The President's fiscal year 2002 
supplemental request for DOD of $14 billion includes $300 million for 
Combat Air Patrols.
                        research and development
    Question. Mr. Secretary, you know that I have had the benefit of 
seeing firsthand the incredible work that the scientists at our 
national laboratories in New Mexico are capable of achieving.
    Throughout the years I have been vociferous in advocating the use 
of their expertise in addressing both our military and domestic needs.
    Once again, I have great confidence in their ability to apply 
technology in a way that will help us both in our war on terrorism 
abroad and right here at home.
    Within the Department of Defense, as you know, we also have great 
work being done at our research labs. Much like our national labs, our 
military labs have been working on innovations to address the special 
problems posed by terrorism.
    For example, the Air Force Research Lab at Kirtland Air Force Base 
has been doing crucial work in the area of Unmanned Aerial Vehicle 
(UAV) technology and directed energy.
    Mr. Secretary, I know that you have also been forward-thinking 
about the application of research and development both in the war on 
terrorism and in the overall transformation of the armed forces.
    Can you give us a sense of how the R&D priority has been has been 
accounted for in the supplemental request?
    Answer. The primary purpose of the fiscal year 2002 Supplemental 
request is to enable the Department to continue the global war on 
terrorism through the end of the fiscal year, while fulfilling our 
other national security responsibilities. As such, the supplemental 
requests very little research and development funding--a total of $83 
million for all Services. The majority of this funding is for continued 
command, control, communications, and intelligence (C\3\I) support to 
military operations and for enhanced communication and control between 
the Combatant Commanders and the White House.
    Question. Is there a plan to accelerate R&D initiatives within DOD 
to ensure more timely integration of new technologies into the war on 
terrorism?
    Answer. Again, there is very little RDT&E funding requested in the 
supplemental. Most is oriented toward Intelligence, Surveillance, and 
Reconnaissance programs. While not an acceleration, there is 
approximately $20 million requested for the Air Force to continue 
development of their SIGINT High Band Subsystem for the Unmanned Aerial 
Vehicle program.
    Question. To what extent might such a plan integrate directed 
energy technology?
    Answer. There is no RDT&E funding requested in the supplemental for 
directed energy technology efforts.
                    49th material maintenance group
    Question. I had the opportunity last week to meet with the base 
commander from Holloman Air Force Base. Holloman is home of the F-117 
Stealth Fighters that we are all so proud of. But it is also home to 
the 49th Material Maintenance Group, known as ``bare base.''
    The 49th responds worldwide for the deployment, setup, and 
maintenance of support equipment such as tents, electric generators, 
heating and ventilation, and many other amenities our troops need to 
sustain themselves while they serve in far away places.
    Mr. Secretary, I know that you are aware of how critical the 
support efforts of units like the 49th Material Maintenance Group are 
to our military missions abroad. Without them, our forces cannot be 
successful in carrying out their operations.
    How has the war on terror in Afghanistan affected the readiness of 
and resources available to maintenance groups like the 49th?
    Answer. Support for Operation Enduring Freedom (OEF) required 28 of 
the 50 mission capable Bare Base sets (56 percent) available prior to 
September 11, 2001. There were 22 mission capable sets available after 
the initial deployment. Since that time the Air Force has reconstituted 
4 sets. The Air Force currently has 26 mission capable sets available.
    Question. Does the supplemental request seek additional funds to 
ensure that maintenance groups will be able to provide the first-rate 
support our fighting men and women may need in any possible future 
conflicts?
    Answer. The Supplemental requests funding for the deployment of 
military forces. Embedded in the deployment request are funds necessary 
to maintain equipment in support of deployed military forces and the 
funds necessary to reconstitute equipment when forces are redeployed.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
                             cbrn training
    Question. Chemical/Biological/Radiological/and Nuclear (CBRN) 
Training is a critical part of Homeland Defense. Under Public Law 103-
160 all CBRN training of the Department of Defense is required to be 
conducted at the U.S. Army Chemical School, which is located at Fort 
Leonard Wood, MO. Fort Wood is host to CBRN training detachments from 
all branches of service. In fact, the first class of Coast Guard 
personnel just graduated earlier this year and went on to successfully 
help defend the Olympic Games in Salt Lake City, UT.
    However, the Chemical School is only resourced, staffed, and 
equipped to provide ``traditional'' training to soldiers programmed for 
assignment to the field Army. CBRN training is resource intensive and 
will bring thousands of additional trainees to Fort Leonard Wood. Given 
the current environment, will the CBRN training taking place at Fort 
Leonard Wood get a more detailed look from the Department of Defense?
    Answer. The Department of Defense recognizes that the current 
strategic environment highlights capabilities needed for Homeland 
Security and the emerging Service requirements to conduct non-
traditional CBRN training and certification. With additional resources, 
a CBRN Center of Excellence could provide a needed focal point for 
future investments to provide needed Full Spectrum non-traditional CBRN 
training, doctrine, facilities, and instruction. DOD supports further 
consideration of a CBRN Center of Excellence by the new Joint 
Requirements Office on the Joint Staff and inclusion into the Joint 
CBRN Strategic Plan.
                              cbrn attacks
    Question. In a recent GAO report (dated September 2001) it was 
reported that specialized National Guard teams, known as Weapons of 
Mass Destruction Civil Support Teams, have been developed to assist 
state and local authorities in responding to a terrorist incident 
involving weapons of mass destruction. However, there are numerous 
problems with readiness and deployability. According to the DOD 
Inspector General the Army's process for certification lacks rigor; the 
program schedule has slipped; and there are no plans to arrange for for 
dedicated aircraft to get the teams in position. Can you tell us what 
has happened since this GAO report was released? Are our troops 
adequately equipped to respond to Chemical, Biological, Radiological, 
and Nuclear (CBRN) attacks at home and abroad?
    Answer. Since the January 2001, DOD Inspector General Report on the 
WMD-CST program, the Department conducted a detailed program review 
that established a rigorous certification criteria that includes: 
attaining the highest readiness rating level in the areas of personnel, 
training and equipment on the Unit Status Report, without subjective 
upgrades; successfully completing a comprehensive External Evaluation 
(EXEVAL) conducted by either 1st or 5th U.S. Army; and a validation by 
the state Adjutant General of the unit commander's request for 
certification.
    The DOD IG was a full participant in reviewing the process for 
validating the requests for certification of the first 10 teams prior 
to these packets being submitted to the Chief, National Guard Bureau 
and Secretary of the Army, who also validated each request prior to 
submitting them to the Secretary of Defense. In accordance with Public 
Law 105-261, a CST is not considered deployable until the Secretary of 
Defense certifies that the CST has attained the requisite skills, 
training, and equipment to be proficient in all mission requirements. 
As of May 1, 2002, the Secretary of Defense has certified 27 of the 32 
teams as being fully operational and ready for deployment. The 
remaining five teams, which were formed in November 2001, are projected 
to be equipped, manned, and certified by April 2003. Since September 
11, 2001, the WMD-CSTs have performed 421 operational missions at the 
request of civil authorities. The 27 certified WMD-CSTs are adequately 
equipped, manned and trained to respond to CBRN attacks at home. The 
teams do not have an overseas mission.
                    goco vaccine production facility
    Question. I am aware that there is great concern in the Pentagon 
regarding the threat posed by biological weapons. Many in the Congress 
had anticipated that DOD's fiscal year 2003 budget submission would 
contain the down payment for the construction of a government-owned, 
contractor-operated (GOCO) vaccine production facility. Regrettably, 
the Department's initiative has stalled. Instead of measurable 
progress, I understand DOD has now convinced HHS to consider paying for 
the facility. Do you believe that HHS is going to build a vaccine 
production facility whose laboratory space would be dominated by the 
production of DOD-specific vaccines?
    Answer. DOD and HHS are continuing to work together identifying 
requirements for vaccines that address unique military requirements and 
the larger need for public heath vaccines. Each Department will need to 
identify resources necessary to meet its needs. If a dedicated facility 
is needed to meet national requirements, it is expected that multiple 
agencies will share the cost to construct and operate such a facility.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                 foreign terrorist tracking task force
    Question. Is the Department of Defense coordinating with the 
Department of Justice on an initiative entitled the Foreign Terrorist 
Tracking Task Force?
    Answer. Yes. Identifying terrorists preparing to attack DOD 
facilities and personnel within the United States is a priority for DOD 
counterintelligence. DOD's counterintelligence assets can enhance the 
anti-terrorism efforts of other government agencies.
    Due to DOD's authority and purview to protect its facilities and 
personnel from terrorist attacks, a logical and significant partnership 
began with the Foreign Terrorist Tracking Task Force (FTTTF). The Joint 
Counterintelligence Assessment Group (JCAG) is the element DOD has 
identified to work with the Department of Justice led task force.
    Question. What is the mission of this Foreign Terrorist Tracking 
Task Force?
    Answer. The mission of the FTTTF is to provide information that 
keeps foreign terrorists and their supporters out of the United States.
    Question. Has the Foreign Terrorist Tracking Task Force identified 
a need to acquire available personal information from the following 
twenty-six nations in which terrorists have been known to originate and 
dwell, as well as from Germany and Canada: Saudi Arabia, Algeria, 
Egypt, Kazakhstan, Afganistan, Qatar, Philippines, Malaysia, Iran, 
Bahrain, Thailand, Tajikistan, Libya, United Arab Emirates, Morocco, 
Uzbekistan, Pakistan, Oman, Jordan, Turkmenistan, Sudan, Lebanon, 
Somalia, Yemen, Indonesia, and Syria?
    Answer. The FTTTF does wish to acquire commercially available 
personal information from these countries and additional countries not 
listed above. FTTTF has already reached agreements with and received 
terrorist information from several foreign countries and Interpol.
    Question. According to what prioritization procedure would you 
commence obtaining this information?
    Answer. We will prioritize the type of information and the 
countries from which that information is to be attained based on the 
ease of acquisition and the expense required in obtaining that data.
    Question. What is the cost to obtain this information?
    Answer. FTTTF estimates $2 million per country as an initial 
requirement.
    Question. Is Department of Defense appropriations PE #0305146D8Z an 
appropriate account in which to fund this activity?
    Answer. Yes. This is the account code for the Joint 
Counterintelligence Assessment Group, which has been the DOD component 
most directly involved with the FTTTF data acquisition and processing 
efforts.
    Question. What other unmet needs have been identified by the 
Foreign Terrorist Tracking Task Force, and what is the cost to meet 
these needs?
    Answer. The degree to which the FTTTF can fulfill its detection and 
tracking mission is a function of the quality and quantity of available 
data. Accordingly, the FTTTF's primary need will always be for richer 
data sets from a wide variety of both government and public sources. 
However, as these data nodes have not yet been definitively identified, 
it is difficult to predict the likely costs.
STATEMENT OF HON. SAM NUNN, CO-CHAIRMAN AND CHIEF 
            EXECUTIVE OFFICER, NUCLEAR THREAT 
            INITIATIVE AND FORMER UNITED STATES SENATOR
    Chairman Byrd. May we have order. Senator Nunn, I am 
pleased to welcome you to this hearing on homeland security, 
and it is a great pleasure to see you in the halls of the 
Senate complex again. As one of the Nation's foremost experts 
on national security issues, you have a very clear perspective 
on the state of our homeland defense strategy, and the 
committee is eager to hear from you.
    I apologize for the lateness of the hour. We had a full 
committee when we started these hearings earlier today, and 
Senators had questions, lots of them, and the hearing has been 
prolonged beyond what we expected. I apologize to you on behalf 
of the committee for the delay in having the opportunity to 
hear you. It is a real pleasure, I want to tell you, to see you 
back here. We miss you. We miss you.
    When I first came to Congress 50 years ago, I remember Carl 
Vinson in the House. He was chairman of the Armed Services 
Committee, and he was your relative, and he was tight-fisted, 
and he ran a tight ship, and he knew the subject matter that 
his committee had jurisdiction over. I had great admiration for 
him.
    And then later, when I was in the Senate, I kind of looked 
upon the late Senator Richard Russell as perhaps my foremost 
mentor, and the State of Georgia has much to be proud of in the 
services rendered by these two fine individuals.
    I believe that Carl Vinson--I believe he lived to be 97 or 
98 years old. I will never forget the part that the State of 
Georgia has played in the founding of this country, when 
William Few and Abraham Baldwin were the two representatives 
who signed the Constitution of the United States on behalf of 
the State of Georgia.
    I have always felt, as I have watched you come here, 
watched you grow--I remember going to Georgia on one occasion 
when they were having Sam Nunn Day, and I said on that occasion 
that here was a young man--I think I was Whip in the Senate at 
that time--that would go places, he would amount to something, 
and I have been proud to see that prophesy well-placed, and to 
see it come true.
    I have considered you as being a Senator who had good 
judgment, the kind of good, cool, sound judgment that Senator 
Richard Russell always displayed in his work and his services 
in the Senate, and you certainly have made the people of the 
State of Georgia proud. They have had great confidence in you, 
and that confidence has never been in vain. I wish you were 
still here. We really, really miss you.
    We are particularly interested in your viewpoint as co-
chairman of the Nuclear Threat Initiative, a nonprofit 
organization which has a global focus on reducing the threat of 
nuclear, biological, and chemical weapons, and so I thank you 
for appearing before this committee, and before you begin your 
testimony I would like to recognize Senator Inouye for any 
comments that he might wish to make.
    Senator Inouye. If I may, Mr. Chairman, I would like to 
associate myself with your remarks and tell you, Sam, we miss 
you.
    Chairman Byrd. Thank you. Thank you, Senator Inouye.
    Senator Nunn.
    Senator Nunn. Thank you, Mr. Chairman, and thank you, 
Senator Inouye. You do not need to apologize to me. First of 
all, I enjoyed watching in the back room the hearing. I had not 
seen one in total for a long time, and it brought back a lot of 
memories, and one of those memories is being the last Senator 
in the room where a lot of witnesses had not yet been heard 
from. I suspect that I have done that as often as anybody in 
the present Senate except the two gentlemen in front of me 
right now.
    So I am delighted and honored to be here, Mr. Chairman. I 
have always, as a Senator or as a citizen, basically responded 
to the beck and call of the chairman of the Appropriations 
Committee, and will continue to do so.
    In the interest of time, and I know that all of you--hello, 
Senator Stevens. Nice to see you.
    Senator Stevens. Sorry to be late, Senator.
    Senator Nunn. No, I am delighted to be here. I was just 
saying, I feel at home.
    In the interest of time, I have a shortened version and I 
think I will present that, and then if you have time remaining 
for questions, then I will submit my entire statement for the 
record.
    Chairman Byrd. Thank you. It will be included in the record 
as so stated.
    Senator Nunn. I remember Senator Inouye's question right at 
the end of the hearing with Secretary Rumsfeld about the whole 
question of Warren Buffett's statement about nuclear weapons 
and so forth, and my testimony is going to concern that, and I 
was gratified both to hear that question, Senator Inouye, and 
also to hear Secretary Rumsfeld and his answer where he said 
that we ought to do everything, we must do everything possible 
to keep that from happening, and we ought to go out and do it 
wherever we need to, and so I will take up with that point.
    I think the most pressing national security issue of our 
times is how to protect our homeland, and that includes our 
homes, our cities, and our people, from terrorist attacks. Last 
October, according to news accounts, and I have had no briefing 
on this from intelligence community, so this is all open 
sources, top U.S. Government officials received a highly 
classified intelligence report. The report warned that 
terrorists had stolen a 10-kiloton nuclear bomb from the 
Russian arsenal and planned to smuggle it into New York City. 
That was just last October.
    As far as we know, no one in Government claimed that this 
was impossible that a nuclear weapon could have been stolen 
from Russia, or that a nuclear weapon could be smuggled into 
New York City, or that a terrorist group would want to kill 
several hundred thousand Americans with a nuclear weapon. To 
the contrary, the experts knew that this was all possible, and 
even before the October warning from the intelligence community 
they took it dead seriously.
    Senior level Federal managers in Washington were moved 
outside the city so the Government could continue to function 
in the aftermath of a possible nuclear or other catastrophic 
attack. The Washington Post reported that following a CIA 
briefing in October, President Bush told his national security 
staff to give nuclear terrorism priority over every other 
threat to America.
    In the end, officials came to two conclusions. Number 1, 
that the particular intelligence report was false. Thank God 
for that. Number 2, if terrorists were to succeed in acquiring 
a nuclear weapon, or enough materials to make a nuclear weapon, 
there is a low probability that we would intercept it at our 
borders or find it once it is here.
    Today, I think it would be useful to ask ourselves two 
questions. If that report had been true and a bomb had gone off 
in New York City, what could we have done to prevent it, how 
would we second-guess ourselves if that had happened, and if we 
came up with a list of things that we wished to had done, why 
are we not doing them now?
    Mr. Chairman, we are in a new arms race between those 
seeking to acquire weapons of mass destruction and those trying 
to stop that from happening. Keeping terrorists from acquiring 
weapons of mass destruction is either a priority, or it is an 
afterthought. If it is a priority, our budget should reflect 
that. If it is an afterthought, I pose the subsequent question, 
after what? What is more important?
    Homeland defense begins abroad, and I think we see that 
from the actions in Afghanistan that Secretary Rumsfeld, 
President Bush and our military have taken firmly, and I think 
with great effectiveness. Cooperative threat reduction and 
homeland defense are different phases of the same mission to 
prevent a catastrophic terrorist attack.
    The most effective and least expensive way to prevent 
nuclear terrorism is to secure weapons and materials at their 
source. Acquiring weapon materials is the hardest step for 
terrorists to take. Some in the military would use the term, 
that is the long pole in the tent if you are a terrorist. The 
hardest step for them to take, and the easiest step for us to 
stop. By contrast, every subsequent step in the process is 
easier for the terrorist to take and harder for us to stop.
    I have a little chart here, and if I could get someone to 
come up I will share it with the members of the committee, and 
I have a few extra here, but I think it demonstrates this point 
pretty vividly. If you look at the color blue, you will 
basically see the cooperative threat reduction program. Some 
call it the Nunn-Lugar program.
    All three of you, Senator Byrd, Senator Inouye, and Senator 
Stevens have been champions of supporting that program both in 
its inception, because I remember when we presented it on the 
floor in 1991, and since then, and then if you look in yellow, 
you will see where homeland security efforts begin, and then if 
you look over on the right-hand side in red you will see a 
chart showing what a terrorist group would have to do to 
detonate a weapon, starting with stealing the fissile material 
or nuclear weapon, and this is just one continuum here that 
basically is one--these are different phases in the same kind 
of effort.
    Mr. Chairman, my point is, in protecting America from 
nuclear terrorism, an ounce of prevention is worth a megaton of 
consequence management. That is why homeland defense must begin 
by securing weapons and fissile materials in Russia, where they 
are there in huge quantities, as well as in every country with 
dangerous weapons or materials.
    There are 58 nations with research reactors designed to use 
HEU. My longer statement goes into some detail on this. Suffice 
it to say, we are talking about the raw material of nuclear 
terrorism stored in hundreds of facilities in more than 50 
nations, some of it secured by nothing more than an underpaid 
guard sitting inside a rather insecure fence.
    There are no international standards for securing nuclear 
materials within countries. The IAEA has the jurisdiction to 
determine whether there are missing materials, but there are no 
standards within countries, and many countries have small 
amounts of HEU, some of them enough to make bombs in and of 
themselves, and others combined with other stockpiles would be 
enough to make weapons that would produce a catastrophe.
    I think this situation must change. Right now, we would 
only be notified by the IAEA if they found material had been 
missing, and we would not have--no one has jurisdiction to 
prevent that from happening within individual countries, other 
than the country themselves.
    In November, at his joint White House press conference with 
President Putin, President Bush said, quoting him, our top 
priority is to keep terrorists from acquiring weapons of mass 
destruction, end quote. Unfortunately, the President's priority 
is not yet his administration's priority. Even as the 
administration seeks increases of tens of billions for fighting 
terrorism, for homeland security and for developing a missile 
defense system, all of them legitimate needs, it seeks no 
increase for efforts to keep weapons of mass destruction out of 
the hands of terrorists.
    The Government's total threat reduction programs for 
securing nuclear weapons and materials in Russia and the New 
Independent States is requested at approximately $1 billion in 
the President's 2003 budget request before you, roughly the 
same level appropriated last year. Last year, the President's 
request would have reduced this overall effort by over $100 
million. Fortunately, instead Congress increased these programs 
by $200 million, primarily in the supplemental.
    We may even be losing ground, Mr. Chairman. Some of the 
vital work that is being done to protect America from a nuclear 
attack is being put on hold because the administration has not 
certified Russia's commitment to comply with arms control 
agreements, which is a requirement of law. I believe that 
Russia should and must fully implement its strong verbal 
commitments to comply with its arms control obligations.
    I strongly support, however, the administration's request 
to Congress, which is also before you on the supplemental, for 
permanent waiver authority to allow this work that is vital to 
our nation, security to go forward. Whatever our differences 
with Russia over its arms control commitments, suspending 
efforts to reduce the nuclear threat to the United States, 
which these programs are all about, should not be viewed as 
leverage, and is not the answer. To me, this is a top priority 
in preventing catastrophic terrorism.
    Mr. Chairman, at your hearings on homeland security last 
month, you repeatedly returned to the question of priorities, 
stating, how could we better prioritize our funding decisions 
to best protect the safety of our citizens. I agree with your 
question and the emphasis of your point. I submit that we must 
begin with an objective, comprehensive national security 
estimate that assesses each major risk, ranks each major 
threat, and estimates each major cost.
    From this analysis, we can begin to build a broad-based 
strategy, one that would allow us to direct the most resources 
to prevent the threats that are the most immediate, the most 
likely, and the most potentially devastating. Our best 
Government and non-Government sources should submit to this 
committee their best estimates of the risks, the priorities, as 
well as the cost. I also recommend, and this is perhaps the 
most important point, that your funding decisions be based on 
such an analysis. The cost incurred must be proportionate to 
the threat deterred.
    President Bush this month has a second summit with 
President Putin. I think it is essential for our two presidents 
to bring our nations together, the United States and Russia, 
together as lead partners in a global coalition against 
catastrophic terrorism. I believe that today the challenges of 
preventing catastrophic terrorism, that challenge is important 
enough, is urgent enough, and geographically broad enough to 
become our organizing security principle for the 21st century, 
so let me close with a few recommendations based on these 
abbreviated remarks.
    First, both President Bush and President Putin should 
commit each nation to the highest international standards of 
weapons of mass destruction security to ensure that nuclear, 
chemical, and biological weapons and materials are safe, 
secure, and accounted for, with reciprocal monitoring 
sufficient to assure each other and the rest of the world that 
this is the case, and I am talking about a partnership here, 
not simply the United States furnishing funds and the Russians 
being in a supplicant position. I am talking about having the 
Russians step up to the plate and be a leader in this effort.
    The United States and Russia must lead the rest of the 
world, encouraging and assisting all countries to adopt these 
high standards. Both presidents should find a way to build on 
their commitments from their Crawford, Texas meeting to speed 
the pace of reducing the numbers of nuclear weapons by both the 
United States and Russia without losing--and this is very 
important--the transparency, the verifiability, and the 
stability that are the benefits of traditional arms control.
    In other words, I agree with accelerating the process from 
the 10, 12-year procedures in the past on arms control, but we 
must not lose the verifiability and the transparency and the 
stability. We have an example of that in 1991, where we had the 
tactical nuclear reductions, which I applauded. I think it was 
a great initiative, but there was no follow-through, no 
parallel written commitment, so now we have no baseline on 
tactical nuclear weapons, perhaps the most likely weapons to be 
stolen by a terrorist group.
    Numbers are important, but what is even more important than 
the numbers of nuclear weapons is that we find a way to reduce 
the risk of a catastrophic accident or miscalculation. Both the 
United States President and the Russian president should order 
their military leaders, in joint consultation and 
collaboration, to devise operational changes in the nuclear 
forces of both nations that would reduce towards zero the risk 
of accidental launch or miscalculation, and provide increased 
launch decision time for each president.
    Mr. Chairman, I think it is really unacceptable, 10 years 
after the so-called end of the Cold War, that our two 
presidents have about the same amount of time to decide whether 
to blow up the world after a warning as they did during the 
peak of the confrontation, but that is the case.
    The two presidents should insist on an accurate accounting 
and guarantee adequate safeguards for tactical nuclear weapons, 
as I mentioned a moment ago. These are the nuclear weapons most 
attractive to terrorists, far more valuable to them than 
fissile material itself, and much more portable than strategic 
warheads.
    The two presidents also should combine our biodefense 
knowledge--and this is enormously important, and will be 
difficult but has a huge, huge potential up-side--should 
combine our defense knowledge and scientific expertise and 
apply these joint resources to defensive and peaceful 
biological purposes.
    When the same investment can improve international 
security, advance public health, and promote global 
partnership, it is an investment that ought to be made, and the 
Russians, because unfortunately they did not follow the 
applications in the biological treaty, at least that is our 
strong suspicion, probably know more about this area than we 
do, so I am saying that we must work together with them, get 
them inside the tent, leading, rather than outside the tent.
    Finally, the two presidents should link Russia and the 
United States capabilities to plan and practice in advance for 
a joint response if weapons or materials ever get loose from 
the custody of either State, or from any third nation.
    Mr. Chairman, Senator Stevens, Senator Inouye, members of 
the committee, we must think anew. It is difficult, but I think 
it is time for us to do it. The threat of weapons of mass 
destruction is global. The United States and Russia cannot meet 
it alone, but the actions of many nations often follow the 
actions of a few, particularly when the actions of the few are 
in the interest of the many.
    Our two nations have done more than any others to build up 
these nuclear, chemical, and biological arsenals. We have to 
take the lead in building them down and, of course, in our case 
we have already done so with biological, and we hope the 
Russians have. Until we do so, we will not have the credibility 
to gain the world's full cooperation in reducing the global 
threat of catastrophic terrorism.
    The initial steps in building a coalition against 
catastrophic terrorism must begin with the action from the 
United States and Russia, and I would hope that would begin at 
the summit conference in about 2 weeks. We must set the example 
and ask others to join.
    Thank you, Mr. Chairman.
    [The statement follows:]
                     Prepared Statement of Sam Nunn
    Mr. Chairman and Members of the Committee, it's an honor to come 
before my former colleagues today to testify on the most pressing 
national security issue of our times--how to protect our homeland and 
homes, our cities and people from terrorist attacks.
    Last October, according to news accounts, top U.S. government 
officials received a highly classified intelligence report. The report 
warned that terrorists had stolen a 10-kiloton nuclear bomb from the 
Russian arsenal and planned to smuggle it into New York City.
    As far as we know:
  --No one claimed it was impossible that a nuclear weapon could have 
        been stolen from Russia;
  --No one claimed it was impossible that a nuclear weapon could be 
        smuggled into New York City;
  --No one claimed it was impossible for terrorists to disarm the 
        safeguards and explode the bomb; and
  --No one said it was impossible that a terrorist group could want to 
        kill several hundred thousand people with a nuclear weapon.
    On the contrary, the experts knew this is all possible, and even 
before the October warning, they took it very seriously:
  --Senior-level federal managers in Washington were moved outside the 
        city so the government could continue to function in the 
        aftermath of a nuclear or other catastrophic attack.
  --The Washington Post reported that--following a CIA briefing in 
        October--President Bush told his national security staff to 
        give nuclear terrorism priority over every other threat to 
        America.
    In the end, officials came to two conclusions. Number one: That 
particular intelligence report was false, thank God. Number two: If 
terrorists were to succeed in acquiring a nuclear weapon, there is low 
probability we would intercept it at our borders or find it once it's 
here.
    Mr. Chairman, let's imagine for a moment we had not been so 
fortunate, and a 10-kiloton bomb had exploded in New York City. Beyond 
the horror and human catastrophe, we can imagine the bitter public 
comment on our government's stewardship of homeland defense. Without a 
doubt, the media would have catalogued exhaustively and scathingly all 
of the warnings policymakers heard and should have heeded, but did not.
    Today, I think that it would be useful to ask ourselves two 
questions: (1) If that report had been true and a bomb had gone off, 
what could we have done to prevent it? and (2) Why aren't we doing it 
now?
    Former Senate Majority Leader Howard Baker and former White House 
Counsel Lloyd Cutler headed a panel in the year 2000 that studied the 
threat to our country posed by nuclear weapons, materials, and know-how 
in the former Soviet Union. The Baker-Cutler report, which came out in 
January of 2001, stated: ``The most urgent unmet national security 
threat to the United States today is the danger that weapons of mass 
destruction or weapons-usable material in Russia could be stolen and 
sold to terrorists or hostile nation states.''
    When Senator Baker testified on this report before the Senate 
Foreign Relations Committee about six months before September 11, he 
said: ``If I were arguing this matter on the floor of the Senate of the 
United States on a matter of appropriations, I would simply say that 
there aren't any issues of national defense that are more important . . 
. [than] the protection and safeguarding of existing sources of nuclear 
material.''
    Mr. Chairman, we are in a new arms race--between those seeking to 
acquire weapons of mass destruction and those trying to stop them.
    Keeping terrorists from acquiring weapons of mass destruction is 
either a priority or an afterthought. If it's a priority, our budget 
should reflect that. If it's an afterthought, after what?
    In my view, both before September 11 and after, the greatest threat 
to the United States is, was, and remains nuclear, biological and 
chemical weapons. On the nuclear side, the greatest specific threat to 
our national security is, in my view, the danger that terrorists could 
acquire weapons-grade materials, build a rudimentary nuclear device or 
a radiological bomb, and blow it up in a U.S. city. I believe this is 
the most likely nuclear threat we face. Together with a biological 
attack with a contagious agent, I believe it is the most potentially 
devastating terrorist threat we face.
    To prevent our worst nightmare from becoming a reality, we have to 
determine the steps terrorists would take to carry it out, and the best 
ways to block them.
    First, the terrorists would have to acquire nuclear material. 
Second, they would have to build the weapon. Third, they would have to 
transport the weapon (or the material to make the weapon) to the target 
location--which could include smuggling it across international borders 
into the United States. Fourth, they would have to explode it.
    Analyzing the pathway to a terrorist nuclear weapon helps us 
understand several points:
    First: Homeland defense begins abroad. Cooperative threat reduction 
and homeland defense are different words for the same mission--to 
prevent a catastrophic terrorist attack.
  --Our threat reduction initiatives in Russia are responsible for 
        helping Russia monitor stockpiles and secure warheads and 
        materials to prevent theft.
  --If we fail to protect these materials at the source, the 
        international law enforcement and intelligence communities are 
        responsible for identifying the threat and interrupting 
        transport.
  --If we fail there, Customs and Coast Guard officials are responsible 
        for keeping the weapon or material from entering our borders.
  --If we fail there, nuclear emergency search teams and law 
        enforcement tackle the nightmare job of searching for, finding 
        and defusing a nuclear weapon.
  --If all of these steps fail and a nuclear device is exploded in an 
        American city, we turn to the terrible task of managing the 
        consequences.
    It becomes obvious from analyzing the terrorist path to a nuclear 
weapon that the most effective, least expensive way to prevent nuclear 
terrorism is to secure weapons and materials at the source. Acquiring 
weapons and weapons materials is the hardest step for the terrorists to 
take, and the easiest step for us to stop. By contrast, every 
subsequent step in the process is easier for the terrorists to take, 
and harder for us to stop.
    When I say ``we'' and ``us,'' I do not mean the United States 
alone. I mean the United States, Russia, China, India, Europe, Japan, 
and all our allies, and all nations who have dangerous weapons and 
materials. Even as the strongest country on earth, America cannot 
prevent catastrophic terrorism alone.
    Mr. Chairman, our top priority must be to prevent terrorists from 
gaining possession of nuclear material. Once they gain access to 
nuclear materials, they've completed the most difficult step. 
Recruiting individuals with physics knowledge, explosive expertise and 
machining capability to build a weapon or device is a much easier task.
    Mr. Chairman, my point is this--in protecting America from nuclear 
terrorism, an ounce of prevention is worth a megaton of consequence 
management.
    That is why homeland defense must begin with securing weapons and 
fissile materials in Russia--and in every country with dangerous 
weapons or materials.
    U.S. work in threat reduction has so far been limited to Russia and 
the new independent states, but the threat extends beyond these 
countries. There are 58 nations with research reactors designed to use 
highly enriched uranium. That means 58 nations where terrorists might 
go to steal premium material to build a nuclear weapon. I don't know 
for certain how many of these reactors still have dangerous materials. 
I hope someone in the government does. While the International Atomic 
Energy Agency checks to make sure that the material has not been stolen 
or diverted, there are no international standards for securing nuclear 
materials within countries. This has to change. We are talking about 
the raw material of nuclear terrorism, stored in hundreds of facilities 
in more than 50 nations--some of it is secured by nothing more than an 
underpaid guard sitting inside a chain-link fence.
    As Senator Lugar wrote in The Washington Post: ``We have to make 
sure that every nation with nuclear, biological, or chemical weapons 
capacity accounts for what it has, secures what it has, and pledges 
that no other nation or group will be allowed access.''
    President Bush has made some strong statements on this matter. In 
November, at his joint White House press conference with President 
Putin, President Bush said: ``Our top priority is to keep terrorists 
from acquiring weapons of mass destruction.''
    Unfortunately, the President's priority is not yet his 
Administration's priority. Last September, Congress approved $40 
billion to respond to the events of September 11. On top of that, 
Congress now has a $27 billion request from the President to fight 
terrorism abroad, and a $38 billion request from the President for 
homeland defense initiatives. As Senator Stevens has pointed out (and I 
quote), ``This is a combination of $65 billion and reflects the largest 
commitment of federal resources to any security threat since the 
Vietnam War, and significantly exceeds the $15 billion appropriated 
during the Gulf War.''
    Yet, even as the Administration seeks increases of tens of billions 
for fighting terrorism, for homeland security and for developing a 
missile defense system, it seeks no increase for efforts to keep 
weapons of mass destruction out of the hands of terrorists. Last year, 
the Administration's request [$745 million] would have reduced these 
programs by approximately $100 million, but the final appropriations 
approved by Congress, including the supplemental bill, increased the 
programs by $257 million to approximately $1 billion. The government's 
total threat reduction programs for securing nuclear weapons and 
materials in Russia and the new independent states is requested at 
approximately $1 billion in the President's 2003 budget--roughly the 
same level appropriated last year.
    We may even be losing ground on current work. The Nunn-Lugar and 
Nunn-Lugar-Domenici programs, which this committee helped establish and 
has strongly supported, has contributed to a decade of improvements in 
U.S. national security and reduced the threats from weapons of mass 
destruction terrorism. These programs have also greatly enhanced 
Russian compliance with its arms control commitments and have greatly 
increased the transparency of Russia's weapons programs. But we have a 
long, long way to go.
    I'm very concerned, Mr. Chairman, that some of the vital work that 
is being done to protect America from a nuclear attack is being put on 
hold because the Administration has not certified Russia's commitment 
to comply with arms control agreements. I believe that Russia should 
fully implement its strong verbal commitments to comply with arms 
control treaties. I strongly support, however, the Administration's 
request to Congress for permanent waiver authority to allow this work 
that is vital to our national security to go forward. It is indeed 
ironic and disturbing that the United States and Russia--both nations 
with a huge security stake in preventing catastrophic terrorism--allow 
this critical work to be interrupted or slowed. Whatever our 
differences with Russia over its arms control commitments, suspending 
efforts to reduce the nuclear threat to the United States should not be 
viewed as leverage, and is not the answer. To me, this is a top 
priority in preventing catastrophic terrorism.
    Mr. Chairman, at your hearings on homeland security last month--in 
your opening statement and in your questions to the witnesses, you 
repeatedly returned to the question of priorities--how we could 
``better prioritize our funding decisions to best protect the safety of 
our citizens.''
    I agree with your emphasis on this point. Designing an effective 
defense against the full range of risks is a formidable challenge. To 
do this, I believe we must begin with an objective, comprehensive 
national security estimate that assesses each major risk, ranks each 
major threat, and estimates every major cost. From this analysis, we 
can begin to build a broad-based strategy--one that would allow us to 
direct the most resources to prevent the threats that are the most 
immediate, the most likely, and the most potentially devastating. We 
must confront the full range of dangers in a way that defends against 
one without making us more vulnerable to another. In the absence of an 
infinite budget, relative risk analysis must be the beginning point in 
shaping our strategy and allocating our resources.
    Our best government and non-government sources must be involved in 
conducting this relative risk analysis of the threats we face, and they 
should submit to this Committee their best estimates of the risks, the 
priorities, and the costs. I also recommend--and this is the most 
important point--that your funding decisions be based on such an 
analysis. The cost incurred must be proportionate to the threat 
deterred.
    We have now a window of opportunity to reduce these risks and to 
build a framework to address these ongoing threats on a continuing 
basis. President Bush, this month, has a second summit with President 
Putin. I believe it is essential for our two Presidents to bring our 
nations together as lead partners in a global coalition against 
catastrophic terrorism.
    Mr. Chairman, during the last half of the century, our organizing 
security principle was to contain Communism. I believe that today, the 
challenge of preventing catastrophic terrorism is important enough, 
urgent enough and geographically broad enough to become our organizing 
security principle for the 21st century. Preventing catastrophic 
terrorism is a mission that demands unparalleled security cooperation. 
To be effective, it must include our traditional allies and must also 
include Russia, China, India, Pakistan--indeed, every civilized nation.
Recommendations
    I have a few suggestions for the upcoming Bush-Putin Summit that 
could significantly affect the security of our homeland now and in the 
decades ahead:
    (1) Both President Bush and President Putin should commit each 
nation to the highest international standards of weapons of mass 
destruction security--to ensure that nuclear, chemical and biological 
weapons and materials are safe, secure, and accounted for--with 
reciprocal monitoring sufficient to assure each other and the rest of 
the world that this is the case.
    (2) The United States and Russia must lead the rest of the world, 
encouraging and assisting all countries to adopt these high standards.
    (3) Both Presidents should find a way to build on their commitments 
from their Crawford, Texas meeting--to speed the pace of reducing the 
numbers of nuclear weapons by both the United States and Russia without 
losing the transparency, verifiability and stability that are the 
benefits of traditional arms control.
    (4) Numbers are important, but what's even more important is that 
we find ways to reduce the risk of a catastrophic accident or 
miscalculation. Both Presidents should order their military leaders, in 
joint consultation and collaboration, to devise operational changes in 
the nuclear forces of both nations that would reduce toward zero the 
risk of accidental launch or miscalculation and provide increased 
launch decision time for each President.
    (5) The two Presidents should get an accurate accounting and 
guarantee adequate safeguards for tactical nuclear weapons. These are 
the nuclear weapons most attractive to terrorists--far more valuable to 
them than simple fissile material, and much more portable than 
strategic warheads.
    (6) The two Presidents should combine our biodefense knowledge and 
scientific expertise and apply these joint resources to defensive and 
peaceful biological purposes. When the same investment can improve 
international security, advance public health, and promote global 
partnership, it's an investment that ought to be made.
    (7) Finally, the two Presidents should link Russian and U.S. 
capabilities to practice in advance for a joint response if weapons or 
materials ever get loose from the custody of either state or from any 
third nation.
    Mr. Chairman, Senator Stevens, Members of the Committee--we must 
think anew. The threat of weapons of mass destruction is global; the 
United States and Russia cannot meet it alone. But the actions of many 
nations often follow from the actions of a few--particularly when the 
actions of the few are in the interest of the many. Our two nations 
have done more than any others to build up these nuclear arsenals. We 
have to take the lead in building them down. Until we do so, we will 
not have the credibility to gain the world's full cooperation in 
reducing the global threat. The initial steps in building a coalition 
against catastrophic terrorism must begin with action from the United 
States and Russia. We must set the example and ask others to join.

    Chairman Byrd. Thank you, Senator Nunn. You long ago saw 
the need to take action to prevent the use of nuclear material 
that had been missing from the inventories, and you have led 
the way, with Senator Lugar, in the effort to make use of the 
Russian nuclear scientists who are unemployed, hoping to use 
them for peace rather than to leave them unemployed.
    Senator Inouye, do you have any questions?
    Senator Inouye. I just want to comment. I agree with you 
that the waiver makes good sense. However, as former chairman 
of the Armed Services Committee, legislation of this nature 
would be objected to if this committee decided to initiate it, 
but I think the temporary waiver would suffice. Don't you think 
so?
    Senator Nunn. As long as it is renewed each year. The 
temptation, though, is to begin to think of this as a point of 
leverage in the Congress. Any time Russia does something we do 
not like, and their having some activities that we do not like 
are almost inevitable, so I would hope it would not be viewed 
as leverage, therefore I would prefer, as the administration 
has requested, some way of getting a permanent waiver.
    I take your point about the Appropriations Committee, and I 
remember the history of all of that very well, so I take that 
point, but I would hope the authorizing committee would join 
in, and you could perhaps even do a permanent waiver on the 
floor, and I know with Senator Levin and Senator Warner and 
their support of these programs in the past, I think that would 
be important.
    It is awfully important that this not be viewed as leverage 
versus Russia. Either it is in our security interest to help 
get these weapons and materials and know-how under control, or 
it is not. If it is, we ought to do it. If it is not, we should 
not be doing it at all, but if it is in our national security 
interest in preventing catastrophic terrorism, then I think it 
is imperative that it not be used as leverage, because in 
effect it cannot be leverage if it is that much in our 
interest.
    I would add just one other thing on the money part of it. 
When you look at the cost of the catastrophe in New York, the 
terrible attack in New York, the figures I have read are 
something like $1 trillion, and you look at what would happen 
if we had one nuclear explosion in our country. You are talking 
about an astronomical economic effect, far beyond the damage, 
and far beyond the human tragedy, which would be the worst 
part, but the economic effect would just be truly devastating, 
and could last for years, so the stakes are extremely high in 
this regard.
    Chairman Byrd. Senator Nunn, the administration came into 
office openly hostile to the Government's nonproliferation 
programs with Russia. The fiscal year 2002 request for 
nonproliferation was 10 percent below the fiscal year 2001 
enacted level.
    Since the attacks of September 11, 2001, the White House 
has tempered its criticism of the programs, but the President 
did not request anything for nonproliferation in the first 
fiscal year 2002 supplemental. Congress had to appropriate $226 
million in the supplemental appropriations bill last fall for 
additional nonproliferation work this year. Do you believe the 
administration is doing enough to promote nuclear 
nonproliferation?
    Senator Nunn. Every time the President makes a statement on 
this subject, I applaud, because he has all the right words, 
and I think he has got it. I think he understands it, but 
somehow or another it has not been conveyed to his staff, and 
they are not putting the meat on the bones, so I do not think 
enough is being done.
    I think there is a tremendous opportunity, with the summit 
coming up with Russia, and I really believe that if the Cabinet 
officials and staff read carefully what the President has said 
over and over again about this being a top priority, then we 
will see a lot more activity in the budgets, but right now I do 
not think the budgets reflect the President's expressed 
priorities, the budgets that he submits, his recommendations.
    Chairman Byrd. Yes.
    The Department of Energy's nonproliferation office operates 
a program called second line of defense in Russia, which works 
to keep nuclear material from being smuggled out of that 
country. You indicate that if we fail to protect these 
materials at the source, the international law enforcement and 
intelligence communities are responsible for identifying the 
threat and interrupting transport, and if we fail there, that 
Customs and Coast Guard officials are responsible for keeping 
the weapon or material from entering our borders.
    How does the United States best protect its borders from 
terrorists trying to smuggle weapons of mass destruction into 
the country, and would you say our border security--would you 
say it can be made secure enough to protect against weapons of 
mass destruction and, if so, how?
    Senator Nunn. Mr. Chairman, I think it has to start at the 
source. I think we have to do everything we can to work with 
countries, not just Russia but all over the globe, to protect 
every single ounce of highly enriched uranium, including in our 
own country. I do not think all of ours is under the kind of 
safety and protection that I would like to see, and we have 
missing inventories from time to time that are unexplained, so 
we are not perfect in that regard, so that is the step number 
1.
    Step number 2 is to prevent it from getting out of those 
countries, so every country needs to have ways of protecting 
their borders, and then step number 3 is in international 
commerce. I think we are going to have to begin some program--
you have mentioned port security a while ago. I think we are 
going to have to have some program to basically have 
cooperative efforts at the port of departure, as well as the 
port of arrival, like here in the United States.
    I do not think we can afford economically to back up 
traffic in our own ports with the kind of exhaustive searches 
that would have to take place, and again someone mentioned the 
Coast Guard having searches at sea. I think all of that would 
have to happen.
    There is no assurance that a weapon with a terrorist might 
go into a port. It might go to a remote spot, a remote island 
off the shore of the United States. It could easily happen, 
transported by a small boat, and being able to protect that 
completely, I do not think we can do it, but I think we can 
dramatically improve where we are right now.
    Chairman Byrd. The Department of Defense's cooperative 
threat reduction program has succeeded in dismantling over 
5,000 nuclear warheads, 4,000 missiles, 831 silos, 200 bombers, 
and 20 submarines from the former Soviet Union. These 
remarkable results remind us of the foresight and vision that 
you and Senator Lugar exhibited when you created the 
cooperative threat reduction program.
    In some ways, this program has been a model in attacking 
the threat of proliferation. To prevent the proliferation of 
nuclear weapons, we must dismantle the infrastructure for the 
production of weapons and secure the technology and materials 
related to building weapons, but that said, the Department of 
Defense has experienced some difficulty in securing the full 
cooperation of the Russian Government in areas such as joint 
inspections of facilities, and more than $900 million of 
funding available to the program remains unobligated.
    In your testimony, you stated that our top priority must be 
to prevent terrorists from gaining possession of nuclear 
material. In your opinion, is the cooperative threat reduction 
program being operated at the maximum level of intensity 
commensurate with its ability to protect our country from a 
terrorist nuclear attack? What more could be done?
    Senator Nunn. Mr. Chairman, that is an excellent question. 
The answer is, no, I do not think we are doing all we can do. I 
do not think the Russians are doing all that they can do, and I 
think our two leaders have to elevate this. I think we have to 
elevate it, and I think we also have to elevate the Russians to 
be a real partner not only in securing their own, but in being 
a partner with us around the globe, because of these research 
reactors I mentioned a while ago, a number of them are Russian 
research reactors. A lot of that material is going to have to 
go back to Russia to be blended down, so I am suggesting a 
psychological breakthrough in terms of elevating the Russians 
to true partnership. I think a lot of the bureaucratic 
obstacles on both sides will begin to fall away if our two 
leaders do that.
    I would suggest in the interim, if that does not happen at 
this summit, if it is delayed, I think at some point it has to 
happen if they are going to protect themselves, because they 
have the threat of terrorism probably even more than we do, but 
if it is delayed, I would suggest to the Appropriations 
Committee that you have some advance contingency funding, even 
if all the pipeline has not been obligated, advance contingency 
funding because the stakes here are so high that we do not want 
to have to start another whole year, in the event there are 
breakthroughs in some of the log-jams, and I think that would 
be particularly true in two or three areas.
    We have secured about 40 percent--we have helped them 
secure, because it is their prime responsibility, about 40 
percent of their weapon materials to standards that we would 
call acceptable, meaning about 60 percent of their nuclear 
materials are not up to those standards. I think we need a 2-
year, almost crash program to secure at least in some fashion 
that is acceptable the rest of that material, because it is 
just in many cases an invitation to be stolen or to be sold, so 
I think that would be top of the list.
    Another part of it would be, within 4 years I think we need 
to come back and make sure all of that is secured, so I would 
advance-fund those kind of things, even if the pipeline is not 
totally consumed or obligated.
    Another example is the chemical stockpile. I imagine a good 
bit of that $900 million relates to the contingency funding 
that we have had on the chemical destruction, which the 
Russians want to do, but they do not have the infrastructure 
money to do it.
    They are finally beginning, under strong leadership of a 
Dr. Park in Russia--or General Park. He is a retired General, I 
believe. They are beginning to put some of their own money in 
that infrastructure, and I think that is very important, and 
when they get that, that money will be released, and they will 
begin the long, hard process of getting their chemical weapons, 
begin a destruction process of those chemical weapons.
    So I think that there are a lot of bureaucratic obstacles, 
but I believe the nature of this, if something really went 
wrong, and some of that material got out, the consequences are 
so severe that I would make the exception in this area in terms 
of making sure the funding continues even when there are log-
jams. It sends all sorts of psychological signals.
    A final point I would make about the need to elevate the 
Russians to a partnership is, I think that part of our 
responsibility here would be to open more access to us, and 
another part of that responsibility would be to realize, as 
their economy improves, which fortunately it is, they have more 
and more responsibility to put more and more of their own 
funding into this overall effort.
    I would add to that, if we are a true partnership at some 
point in time, and we are not there yet, but up until now we 
have basically said we are putting up the money, so we demand 
access to this facility and that facility. I think we have the 
right to do that, but at some point, if we are a true 
partnership and they are putting their own money in this, and 
the two of us, the two countries are leading the world, then we 
are going to have to develop more of the golden rule. We want 
to inspect your facilities, but we are also willing to make 
ours transparent on a similar basis.
    Those are the kind of steps we are going to have to take if 
we are going to get the world to say, yes, we will get behind 
Russia and the United States, because they are truly taking 
care of their own obligations, we will help them do that. But 
if we take the position that the two countries do not have 
those obligations, and can kind of go our way but demand 
everybody else in the world take these steps, I do not think 
the world is going to follow.
    Chairman Byrd. Well, Senator Nunn, you certainly have not 
disappointed this committee in your proposals. They are 
thought-provoking, and I am sure that Senator Inouye, as 
chairman of the Appropriations Subcommittee on Defense, and 
Senator Stevens, are going to ponder what you have proposed, 
and so will I.
    You have performed a great service. I hope it will not be 
measured by the late hour of the day, or by the fact that so 
many of the people who were in the room earlier had to go their 
separate ways. This has been a long day and a long hearing. I 
want you to know your appearance here has been very much 
appreciated, and what you have said will certainly weigh 
heavily upon those of us who are on this committee.
    I think you have made some suggestions that I will 
certainly want to think about further, and I thank you from the 
depths of my heart for the time that you have taken and the 
effort that you have put forth to come here, for the facts that 
you have assembled, for the statement that you have made and, 
as always, what you have said will be treated with tremendous 
respect, because that is the way we have learned you when you 
were in our midst, and we hope that you will have the occasion 
to come back and visit with us. We need your sound thinking at 
this end of the avenue. We profited by it when you were amongst 
us, and we will profit by it today.
    I personally hope that you will extend to your fine wife, 
Colleen, the good regards of Erma and certainly myself. Long 
will I remember the trip we took together in 1975 to China, and 
I believe that with us was Jim--what was his last name, from--
there was another Senator who went with us. In any event, there 
was one other Senator, and the late Congressman John Slack from 
West Virginia was with us on that occasion.
    Senator Nunn. I believe John Anderson was with us on that 
occasion.
    Chairman Byrd. John Anderson of the House, yes. There was 
another Senator. For the moment the name escapes me, but I 
remember that, and I have some pictures that were taken upon 
that occasion.
    So please give our best to your good wife. Thank you for 
your time, for your efforts and for the service you have 
rendered. We look forward to seeing you again.
    Senator Nunn. Thank you, Mr. Chairman and Senator Inouye. I 
am grateful for your leadership. Both of you have been great 
friends and mentors to me. I am also grateful for the 
leadership of Senator Stevens. You are all pillars of strength 
not only on defense issues, but indeed in protecting the 
important, I think, responsibilities of the Congress under the 
Constitution, so I am indeed grateful to you.
    I remember our trip to China, Mr. Chairman. I will tell 
Colleen hello. I hope you will tell Erma hello, and I also 
remember your trip to Dublin, Georgia, where we had a great big 
barbecue, and you were the hit of the evening, and you had a 
lot to do with me getting reelected, so I appreciate that, and 
I will always remain grateful for that, so I will be available 
to you any time I can be of help.
    I am spending about 50 percent of my time on these subjects 
now.
    Chairman Byrd. Yes.
    Senator Nunn. I have got a lot of other things going on 
that I am doing within the context of practicing law, but I am 
spending a lot of time, and we have a little bit of money to 
use, thanks to the generosity of Ted Turner, who has taken a 
keen interest in this overall area, so I will be visiting with 
you from time to time at your request.
    Chairman Byrd. Well, the chair hopes that you will do just 
that, and I wish you continued health, and from your appearance 
here today you have not suffered much, if any, from leaving the 
Senate in that respect, but the Senate has suffered greatly 
from your having left us.
    Senator Nunn. Mr. Chairman, I miss the Senate, and I miss 
my friends, so it is great to be back.
    [The following questions were not asked at the hearing, but 
were submitted to the witness for response subsequent to the 
hearing:]
             Questions Submitted by Chairman Robert C. Byrd
    Question. Senator Nunn, our nonproliferation programs are based on 
cooperation with countries, such as Russia, that want to safeguard 
their nuclear material. However, there are countries with which we do 
not have a cooperative nonproliferation relationship, such as India and 
Pakistan. How do we best deal with that situation?
    Answer. I believe that the United States and Russia must take the 
lead in creating a global coalition of countries committed to 
safeguarding nuclear material wherever it exits. Such a coalition 
should establish stringent standards for inventory control, safety, and 
security for weapons and weapons-usable material. The coalition should 
also seek to develop transparency measures in order to ensure that 
member states retain confidence in the system. Because many countries 
that would be willing to participate in this coalition would need 
assistance to reach the needed standards of safety and security, I 
applaud the vision put forth by my friend and colleague, Senator Lugar, 
to expand the statutory authority for the Nunn-Lugar Cooperative Threat 
Reduction Program so that it might enable the U.S. government to 
provide assistance to countries beyond Russia and the former Soviet 
Union, including India and Pakistan.
    Question. How can we better monitor and get control of surplus 
fissile material and make sure such material does not fall into the 
hands of terrorists?
    Answer. First we need to know how much material exists and at what 
locations. Then we should work to secure that material, wherever it 
exists. It is important to keep in mind that, even after a decade of 
cooperative work with the Russians, we have only provided security 
upgrades to roughly 40 percent of the sites in Russia that contain 
weapons-grade nuclear material, according to estimates from the Energy 
Department. We should accelerate this vitally important work so that 
our effort is proportionate to the threats we face.
    We also need to think about the long-term disposition of this 
material beyond simply storing it. United States and Russian leaders 
should think creatively about how we could go about accelerating and 
expanding the 1993 HEU Purchase Agreement without disrupting world 
uranium markets. I think we should view this deal as an investment in 
national security. As such, we owe it to future generations to ensure 
that this material is used in such a way that it minimizes the 
opportunity for terrorists to acquire it. Developing and funding a 
program to provide safeguards and eventual disposition of Russia's 
excess plutonium stockpile is also extremely important.
    Question. Would such materials necessarily be acquired overseas, or 
are the materials for a dirty bomb readily available here in the United 
States?
    Answer. Materials for a radiological explosive device--the so-
called ``dirty bomb''--can be found anywhere radioactive sources exist. 
Candidate materials include irradiated fuel from nuclear power plants 
as well as radioactive materials found in instruments used in medical 
or industrial applications. These materials certainly exist in the 
United States and we have an enormous responsibility to ensure that 
they are safeguarded.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. Do you concur with my view that the risk of dirty bombs 
is real and that we should harness expertise from the DOE weapons labs 
to help in this challenge?
    Answer. I do. The threat is real and all relevant government 
agencies should be tasked with clear guidance to help meet this 
challenge. Because of the vast store of technical knowledge related to 
radioactive material and nuclear weapons that resides at our nation's 
weapons labs, the Energy Department certainly has a major role to play 
in this regard.
    Question. Do you concur that we should be seeking ways to 
accelerate the blend-down of supplies of HEU no matter where they may 
be found in the world?
    Answer. Yes. In fact, I serve as Co-Chairman of the Nuclear Threat 
Initiative (NTI), a private foundation working to reduce the threats of 
weapons of mass destruction globally. NTI is undertaking an effort in 
cooperation with Russia's Ministry of Atomic Energy to assess the 
feasibility of accelerating and expanding efforts to blend down highly 
enriched uranium extracted from dismantled Russian nuclear weapons. I 
am also pleased to learn that you have recently introduced legislation 
that, according to my understanding, will increase the Secretary of 
Energy's authority to work with Russia to consolidate, store, and blend 
down highly enriched uranium from around the world.
    Question. Do you agree that we should be extending the MPC&A 
program on a global basis, with the aim of developing better controls 
on all weapons material, no matter where they may be located?
    Answer. Yes. The global coalition that I and others advocate should 
make this one of its primary goals. I might add that the coalition that 
we must build and maintain has its work cut out for it. As I noted in 
my opening statement, there are 58 countries with research reactors 
that use highly enriched uranium, which means that there are at least 
58 countries that terrorists might target in their attempts to gain 
access to nuclear-weapons material. I agree with you that we--the 
United States and all of our partners and Allies--must develop better 
controls over all weapons materials, wherever they might exist.

                     ADDITIONAL SUBMITTED STATEMENT

    [Clerk's Note.--Subsequent to the hearings, the National 
Association of Regional Councils submitted a statement and 
asked that it be included in the hearing record.]
  Prepared Statement of the National Association of Regional Councils
    Chairman Byrd, distinguished members of the panel, thank you for 
this opportunity to submit testimony for the record on homeland 
security on behalf of the members of the National Association of 
Regional Councils.
    Following the September 11 tragedy, regional councils \1\ 
throughout the country began pulling together local officials, 
firefighters, emergency response personnel, law enforcement, and many 
others with a role to play in any response to a disaster. The purpose 
was to begin work immediately on a regional, coordinated emergency 
response plan in which all players had a role in developing and in 
which all would function effectively should there be another strike.
---------------------------------------------------------------------------
    \1\ The National Association of Regional Councils uses the generic 
term ``regional councils'' to denote sub-state councils of government, 
planning commissions and development districts that have established 
boundaries within their respective states and are organized either 
through local agreement, state statute or state enabling legislation.
    The National Association of Regional Councils (NARC) represents the 
interests of regional councils in both metropolitan and rural areas. It 
advocates for the use of existing regional organizations to coordinate 
the planning and delivery of federal and state government programs that 
require regional strategies for optimal success; provides training and 
technical assistance on the latest regional developments and conducts 
research on timely regional topics. For more than three decades, NARC 
has represented multi-purpose regional councils, often called councils 
of government, regional planning and development districts or regional 
planning organizations, and metropolitan planning organizations that 
assist community leaders and citizens in developing common strategies 
for addressing cross-cutting transportation, economic development, air 
and water quality, social and other challenges and coordinate the 
delivery of information and other regional services. In 1996, NARC 
established the Institute for the Regional Community to bring together 
regional experts from all sectors to identify and pursue new regional 
initiatives.
---------------------------------------------------------------------------
    Many regional councils are already charged with developing 
strategies to respond to natural disasters--tornadoes, hurricanes, and 
floods. Development of a strategy to respond to a man-made disaster was 
a natural extension of existing efforts. However, regional councils 
have been struggling to continue with emergency response plan 
development, despite the lack of sufficient financial support for 
planning from existing federal and state programs.
    Members of the National Association of Regional Councils urge 
Congress and federal agencies to support bottoms-up regional/local 
emergency response plans that are incorporated into a state plan that 
is further incorporated into an overall national strategy.
    Governor Tom Ridge, director of the Office of Homeland Security, 
during a speech at our annual Washington Policy Conference, urged 
regional councils to claim their space as central players in advancing 
the nation's level of homeland security readiness. ``To get it done,'' 
Governor Ridge said, ``we must shed the old model of competition for 
the new model of cooperation. I can't think of a better organization to 
do this than yours . . .. Homeland security means working together in a 
collaborative way like we've never worked together before.
    He added that security ``begins at the local level. If the hometown 
is secure, then the homeland is secure.''
    The National Association of Regional Councils and its member 
councils of government, planning commissions and development districts 
throughout the county believe that regional planning and regional 
response coordination are the foundation, the first step in building a 
strong homeland security strategy.
Fractured federal programs become fractured state, and, ultimately, 
        local programs
    Many federal agencies have been charged with developing emergency 
response plans within their particular areas of interest. The federal 
government currently is looking at bio-terrorism and food supply 
security, airport security, port security, highway and rail security, 
water infrastructure security, energy facilities security, border 
security, national monument security and on and on.
    Each agency is funding its own security plan, each with different 
requirements, and different funding timetables. Each agency has a 
corresponding agency it is working through in the states--bio-terrorism 
funding goes to state health administration, transportation to state 
departments of transportation, water to environmental agencies. Each 
agency has constituency groups with which it is accustom to working. We 
strongly urge that there be a requirement that agencies coordinate 
their planning efforts so that planning can be coordinated at the state 
and regional/local levels.
    The bottom line is that in virtually all of these cases, it will be 
the local emergency responders who are the first on the scene. If there 
is an explosion inside an airport, at a port facility, at a water 
facility, a power plant or a bio-terrorism incident, it will be the 
local first responders who go to the scene. It will not be the 
Department of Transportation, the Environmental Protection Agency or 
the Department of Health and Human Services. Nor will it be their state 
counterparts. It will be local firemen, local police, local emergency 
medical technicians and local hazmat teams.
    While no one argues that federal agencies have a major role to 
play, there is ample argument that federal agencies must stop playing 
that role in a vacuum. If there is any program that cries out for an 
end to ``stove-piping'' it is emergency response. We will not be 
successful in our efforts to protect our citizens to the greatest 
extent possible, to minimize loss of life and property if we are 
determined to operate in a ``business as usual'' fashion.
Effective emergency response must be regional
    For maximum efficiency, emergency response plans must be regional, 
multi-county strategies that are incorporated into a state-wide plan. 
The regional/local plans must include a response to any disaster, 
whether it is bio-terrorism, destruction of major infrastructure or 
explosions. Local responders must know will be confronting them and 
what they can expect from their fellow emergency responders from other 
jurisdictions. Training must be done on a collaborative basis. As a 
local official from Ventura County, Calif., noted ``we know what 
potential targets we have, but we don't know what's in Los Angeles 
County. If Los Angeles County is hit, the destruction will have a major 
impact on Ventura County and its residents.''
    The extent of damage at the World Trade Center and at the Pentagon 
required the assistance of surrounding jurisdictions and even emergency 
response personnel from other parts of the country. Such damage is far 
too massive to be handled by a single jurisdiction or a single county. 
Richard Sheirer, director of the Office of Emergency Management, City 
of New York, said during questioning at a Senate Governmental Affairs 
Committee hearing in December 2001, that ``we would have benefited from 
a regional plan.'' Emergency personnel from Connecticut and New Jersey 
responded to the disaster. None of these responders were privy to New 
York City's training and preparation. Despite a previous regional 
emergency plan that addressed mutual aid, responders in the 
metropolitan Washington region were unable to communicate with each 
other, and there was no strategy for operating from a coordinated 
command center.
    That has changed in the Washington region. The Metropolitan 
Washington Council of Governments recently became the first region in 
the country to complete a post-9/11 regional emergency response plan. 
That plan establishes a regional communications center, one that will 
allow emergency responders to talk with each other and will allow 
emergency responders coming in from other parts of the country to 
become immediately informed of the situation and where they can be most 
helpful.
    In October 2001, the National Association of Regional Councils 
formed an Emergency Response Task Force. That task force is comprised 
of local elected officials and regional council executive directors. A 
white paper, The Regional Council Role in Emergency Response, came out 
of that task force, along with a briefing for House members and 
staffers on the role of regional councils can play in emergency 
response planning.
    A recent Congressional Research Service report for Congress, The 
Role of Regional Councils in the Federal System: Policy Issues and 
Options, noted that the Interagency Working Group on Federalism, 
established by President Bush, has met with proponents of regionalism 
to discuss the role of regions in homeland security efforts. 
Proponents, the report said, assert that through the use of mutual aid 
compacts, regional councils can serve to coordinate the emergency 
resources of several adjacent localities, should one locality's 
response capacity become overwhelmed.
    Regional councils have been in existence and continuous operation 
for as long as 60 years in some parts of the country. Most are more 
than 30 years old. All have been established by the state or through 
mutual agreements among local governments within the region. All have 
established boundaries in which local officials are accustomed to 
working with each other on a variety of issues that cross 
jurisdictional lines, and in some instances, state lines. Regional 
councils maintain a professional staff with experience in planning in a 
variety of arenas--disaster response, transportation, workforce, aging 
services, environmental services, housing and economic development. 
Emergency response planning would be a natural extension of their 
expertise.
Economy of scale
    There is not enough funds at the federal, state and local levels to 
outfit every fire department, police department, emergency medical 
service, hazmat teams and other responders with the equipment and 
training they would individually like to have. Funds must be utilized 
effectively and provided where they are most needed.
    The National Association of Regional Councils believes that no 
funding be sent back to local areas until a plan is in place that 
contains an assessment of the potential for a terrorist attack and an 
assessment of existing equipment owned by different responders 
throughout the region. Once that assessment has been made, local 
governments should then assess their needs and apply for funding that 
would allow them to fill the gap. The National Association of Regional 
Councils and its member regional councils believe that a block grant 
approach would be ineffective and would not necessarily put funding in 
the appropriate places. It would again provide funding to a single 
jurisdiction with no encouragement to work with neighboring 
jurisdictions.
Conclusion
    The National Association of Regional Councils and its member 
regional councils throughout the country believe the federal government 
must take the lead in requiring coordinated efforts among federal 
agencies, states and local governments if emergency response 
preparation is to achieve the goal of protecting citizens and our 
economic and social resources.
    The association and its members believe we must move past the 
competition for resources and work cooperatively at all level of 
government to achieve that goal. The argument should not be who gets 
the money. The discussion should revolve around how to allocate the 
funding most effectively. Without a plan in place, how can the federal 
government allocate money to any state or local jurisdiction? Response 
to a terrorist attack is a complicated issue that requires cooperation 
among federal, state and local authorities. Any federal agency plans 
should be incorporated into a state-wide, or even multi-state plan, 
that first incorporates regional/local strategies.
    The most important element in any response strategy is the local 
responders. Our efforts to insulate ourselves from attack, to mitigate 
damage to life and property rest first at the regional/local level.

                         CONCLUSION OF HEARINGS

    Chairman Byrd. Thank you. Thank you very much. The 
committee is recessed.
    [Whereupon, at 5:37 p.m., Tuesday, May 7, the hearings were 
concluded, and the committee was recessed, to reconvene subject 
to the call of the Chair.]

                                   - 

</pre></body></html>
